                                            Fiscal Year 2004
United States Army Annual Financial Statement
    Our Army at War — Relevant and Ready, Today and Tomorrow




                                                http://www.army.mil
We are interested in your feedback regarding the content of this report. Please feel free to e-mail
                      your comments to AAFS@hqda.army.mil or write to:

                                 Department of the Army
Ofﬁce of the Deputy Assistant Secretary of the Army (Financial Management and Comptroller)
                       Ofﬁce of the Financial Reporting Directorate
                             Room 3A312, 109 Army Pentagon
                                Washington, DC 20310-0109

 Additional copies of this report can be obtained by sending a written request to the e-mail or
                                  mailing address listed above.

      You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                         04
Our Army at War — Relevant and Ready, Today and
Tomorrow
Message from the Secretary of the Army                                ii

Message from the Assistant Secretary of the Army
(Financial Management and Comptroller)                               iv

Message from the Principal Deputy Assistant Secretary of the Army
(Financial Management and Comptroller)                               vi

Message from the Assistant Secretary of the Army (Civil Works)      viii

FY 2004 in Review                                                     x

General Fund – Management’s Discussion & Analysis                   xvi

Working Capital Fund – Management’s Discussion & Analysis           130

Civil Works Fund – Management’s Discussion & Analysis               218




                                                                           i   i
                                              R.L. BROWNLEE




Ultimately, successful transformation will depend in part upon
   our ability to improve the management of all Army functions.
Every management unit must be fully accountable for its work.
  To achieve this accountability, we must improve the quality of
                                                  the information that we generate.




Message from the Secretary of the Army — ii
For three years the United States Army has been          of forces the Combat Commander needs and re-
engaged in the War on Terror. Deployed in Iraq,          balancing within the mix of forces in the Active
Afghanistan, and more than one hundred other             and Reserve components to be more responsive.
countries, our Army is again ﬁghting tyranny and         Additionally, the Army is shifting from an individual
oppression, taking the ﬁght to the shadowy lairs and     personnel replacement system to a unit system. This
hideouts of those who seek to destroy us. American       change will increase unit cohesion, and will provide
Soldiers are not only providing the opportunity for      greater stability and predictability for our Army
freedom and democracy for the 46 million people          families, whose unconditional love and steadfast
in Iraq and Afghanistan, but at the same time they       support to our Soldiers are invaluable in every aspect
are protecting the American people by attacking the      of what our Army does.
terrorists where they hide – in their home nests and
spawning grounds.                                        Ultimately, successful transformation will depend
                                                         in part upon our ability to improve the management
While ﬁghting terrorism, the Army is also pursuing       of all Army functions. Every management unit must
the most comprehensive transformation of its             be fully accountable for its work. To achieve this
forces since the early years of World War II. It will    accountability, we must improve the quality of the
become an Army of campaign quality with a Joint          information that we generate. We are continuing to
and expeditionary mindset, capable of dominating         fully integrate our ﬁnancial and functional systems,
the complex land environment and sustaining that         modernizing and streamlining our systems and
dominance as long as necessary, yet remaining            processes to deliver data that are timely, accurate and
ﬂexible and agile to respond rapidly to the needs of     relevant to our mission.
the Combat Commander.
                                                         We are stewards of the resources our Nation has
The heart of our transformation effort is the creation   entrusted to us, and mindful of our tremendous
of modular, combined arms maneuver brigade               obligations. Our people are our most precious
combat teams. By shifting supporting capabilities        resource, and we must ensure that our young men
from division- and corps-level into these brigade        and women have what they need to do the jobs
combat teams, they will be more lethal, more             we have sent them to accomplish. More efﬁcient
deployable, and more sustainable. To accomplish          management process, and more accurate information
this, we will grow the Army temporarily by 30,000        in our management systems, will directly improve
Soldiers over the next several years using the           the support our Soldiers, Army Civilians, and Army
authority provided in Title 10, USC, funded initially,   families expect and deserve.
from supplemental appropriations. With these
resources the Army will stand up at least 10 new
combat brigades, raising our total from 33 in FY03
to 43 by FY06.

At the start of the War on Terror, our force structure
reﬂected the needs of the Cold War, not the current
ﬁght. Recent experience shows that the Army needs
more military police, civil affairs, transportation,
                                                                           R.L. Brownlee
aviation, intelligence, and medical units. Therefore,
                                                                         Secretary of the Army
we are restructuring our Army to provide the types




                                                                                                               iii
                                                                                               [Photo]
                                      VALERIE L. BALDWIN




    It is imperative that the ﬁnancial management community be
prepared to support the Army’s strategic reality and its goal of
  providing capabilities to the Joint Force in order to dominate
                                            across the full range of military operations.




Message from the Assistant Secretary of the Army (Financial Management and Comptroller) — iv
At the close of another ﬁscal year, the Army ﬁnds          performance measures required by the President’s
itself in a new strategic reality. We are heavily          Management Agenda (PMA). These standards help
engaged in combat in Iraq and Afghanistan, and             Army leadership to make decisions regarding human
we know the Global War on Terrorism will be                capital, competitive sourcing, ﬁnancial performance,
protracted. To carry out our duty in this new              e-government and budget/performance integration,
context, we are reshaping the force to be an Army          which will help to ensure the Army’s future
of campaign quality with joint and expeditionary           readiness.
capabilities -- transforming to win the war today
while simultaneously posturing the Army for future         It is vital that the Army ﬁnancial management
challenges.                                                community be an effective, efﬁcient provider
                                                           of support to the Joint and Expeditionary Army.
It is imperative that the ﬁnancial management              Therefore, it is crucial to leverage our available
community be prepared to support the Army’s                resources by studying good business practices,
strategic reality and its goal of providing capabilities   and implementing them where applicable and
to the Joint Force in order to dominate across the full    appropriate. Additionally, we must work with Army
range of military operations.                              leadership to identify information needs and be
                                                           prepared to meet those needs in a timely, reliable
In 2004, we made notable progress toward this              fashion. Finally, we must analyze requirements
objective. We eliminated material weaknesses in            and prioritize them in accordance with available
the automated mobilization system and the Army             resources. Success in each of these areas requires
purchase card program. We improved accuracy                that we ensure adequate ﬁnancial and management
of the fund balance with treasury, and investment          controls are in place, and that our workforce is
valuations are now reported on our ﬁnancial                positioned to adapt to business modernization. We
statements. We deployed the Defense Travel System          are committed to making these long-term changes.
(DTS), which is fully integrated with our ﬁnancial
management system, to 28 sites. Additionally,              In closing, I would like to acknowledge the work
the Army reported more accurately criminal and             of my deputy, Mr. Ernest Gregory, who spent much
civil fraud recoveries, corrected real property            of FY 2004 serving as acting assistant secretary of
documentation deﬁciencies and prepared for internal        the Army (ﬁnancial management and comptroller).
audit of other liability valuations and stewardship        Mr. Gregory’s commitment to the mission of the
land.                                                      Army and his leadership have paved the way to
                                                           transformation, and for this the Army is truly
Even with these successes, there is more to do. We         grateful. After 38 years of dedicated service, Mr.
must continue to adhere to the Army Chief Financial        Gregory retired in October and is moving into the
Ofﬁcers Strategic Plan and prepare to transition           next phase of his life. We extend our sincerest thanks
to the General Fund Enterprise Business System             to him for his service, and send our best wishes to
(GFEBS). GFEBS, a commercial, off-the-shelf                him and his family.
ﬁnancial management planning system, will provide
the Army relevant and reliable ﬁnancial information
across the full spectrum of operations. I am pleased
to say that the Army will reach the ﬁrst major
GFEBS milestone this spring: contract award for the
initial phase of the program.
                                                                          Valerie L. Baldwin
Equally important, the ﬁnancial management                           Assistant Secretary of the Army
community must continue to improve and to follow                (Financial Management and Comptroller)


                                                                                                                v
                                          ERNEST J. GREGORY




    I am conﬁdent the Army will continue to leverage technology
  to further its transformation efforts. I am even more conﬁdent
            in the ability of our people to succeed in an ever-evolving
                                                               ﬁnancial management environment.




Message from the Principal Deputy Assistant Secretary of the Army (Financial Management and Comptroller) — vi
Fiscal Year (FY) 2004 was an unusually challenging       In FY 2004 work continued on the key ﬁnancial
year for the Army ﬁnancial management community.         management initiatives of the CFO Strategic
With major operations in Iraq, Afghanistan and           Plan (the blueprint for CFO compliance), on the
elsewhere, appropriations for the Army totaled           Accounting for Internal Use software, on identifying
$149.8 billion, including an exceptional $53.4           government-furnished equipment to contractors, and
billion in supplemental funding. The FY 2004 Army        on the pursuit of Army Business Initiatives Council
Annual Financial Statement signiﬁes another year         recommendations. New programs implemented
of continued improvement in the management and           during the year include the Defense Travel System
reporting of our ﬁscal resources.                        and PBUSE. These initiatives will help the Army
                                                         achieve full compliance with the CFO Act and
Transformation for the operational Army hinges           should make possible achievement of an unqualiﬁed
on relevance and readiness. The Army’s ﬁnancial          audit opinion for the Army’s General Fund and
management community has a parallel to this,             Working Capital Fund ﬁnancial statements.
its own transformation focusing on the provision
of relevant, reliable information. At the core of        The conclusion of FY 2004 also marks the
our transformation is the application of federal         conclusion of my government career. It has been
accounting standards, the full implementation of         an honor to serve with the Soldiers, civilians and
which will deliver an unqualiﬁed audit opinion and       contractors who are the key elements of the defense
ensure compliance with the Chief Financial Ofﬁcers       of our great nation. I am particularly proud to
(CFO) Act. Federal accounting standards also will        have been associated with the Army’s ﬁnancial
provide ﬁnancial managers unprecedented insight          management community. I have seen signiﬁcant
into the costs of goods and services and will enable     change in the way the Army manages its ﬁscal
better analysis of funding execution. By following       resources, with manual processes giving way to
these standards, Army leadership will have the           automated systems and technological advancements
information necessary to make properly informed          revolutionizing the conduct of ﬁnancial management
decisions when assessing operational requirements        operations. I am conﬁdent the Army will continue
or supporting the individual Soldier.                    to leverage technology to further its transformation
                                                         efforts. I am even more conﬁdent in the ability of
All organizational levels within the Army are            our people to succeed in an ever-evolving ﬁnancial
reviewing their automated systems and processing         management environment. I salute each and every
procedures to ensure that ﬁnancial information is        member of the ﬁnancial management community. I
timely, accurate and relevant. Where necessary,          salute our Soldiers.
procedures will be altered. In addition, the Army is
validating ﬁnancial systems and nonﬁnancial feeder
systems for audit and internal control purposes,
among them the Integrated Facilities System,
Property Book Unit Supply Enhanced (PBUSE) and
procedural controls for environmental liabilities. All
legacy systems that do not support CFO compliance
                                                                         Ernest J. Gregory
initiatives eventually will be replaced.
                                                          Principal Deputy Assistant Secretary of the Army
                                                              (Financial Management and Comptroller)




                                                                                                             vii
                            JOHN PAUL WOODLEY, JR.




Our nation’s water resources are ﬁnite, and in managing those
      resources we are increasingly challenged to reach decisions
that appropriately balance the social and economic beneﬁts of
                    development with the need to protect the environment.




Message from the Assistant Secretary of the Army (Civil Works) — viii
Throughout its history, the Army Corps of Engineers      we are increasingly challenged to reach decisions
has been committed to serving the nation in peace        that appropriately balance the social and economic
and war by providing comprehensive engineering,          beneﬁts of development with the need to protect the
management and technical services. Our mandates          environment. As science and engineering continue to
over time have continually evolved to reﬂect             advance, we will seek to leverage new development
America’s priorities. At Bunker Hill and during the      to achieve an optimal balance of these factors for the
Revolutionary War, the Corps supported our military      beneﬁt of the nation.
forces in time of war. Today, the nation’s war on
terrorism is our main priority and we are mobilizing     Looking to the future, we must seek to do everything
our resources to help win this war. In this regard,      within our authorities to ensure that our country’s
Civil Works has established a Homeland Security          economy remains strong and its natural resources
Ofﬁce in Corps Headquarters, as we undertake             protected. We are dedicated to continuing a national
measures to enhance the security of critical water       water resources program that serves the best interest
resources facilities.                                    of all our citizens. In that regard, a Strategic Plan
                                                         for the Army Civil Works mission was published
In the mid-1820s, the Corps of Engineers conducted       in March 2004. This plan, which covers a six-
a survey of nationally important roads and               year period from FY 2004 to FY 2009, sets forth
canals for commercial use, military use, and mail        the framework for enhancing the sustainability of
transportation. Today’s Civil Works mission does         America’s water resources.
not have a national road component, but it does
include water resource development activities in the
primary program areas of ﬂood control, navigation
and environmental protection. Additionally, we have
a critical role in emergency response. For example,
the Corps became heavily engaged in protection and
relief work when Hurricane Charley struck the west                    John Paul Woodley, Jr.
coast of Florida in August 2004. The Corps remains                 Assistant Secretary of the Army
vigilant and we take great pride in lending assistance                      (Civil Works)
to the efforts of local communities during times of
disaster.

The Corps of Engineers possesses an impressive
body of knowledge on water resources, and we must
exploit that knowledge and associated skills to fulﬁll
the Federal government’s responsibilities to the
nation, both at home and abroad. Our nation’s water
resources are ﬁnite, and in managing those resources




                                                                                                              ix
FY 2004 in Review
In Fiscal Year (FY) 2004, the United States Army and our sister services engaged in one of the most
challenging periods in our history as we conducted the Global War on Terrorism (GWOT). In addition to the
GWOT, our Army Soldiers participated in the Balkans stability and support operations, Sinai peacekeeping,
and in Colombia, Africa, and the Philippines security operations. We continue to deter aggression in Korea
and other areas around the world. Overall, the majority of our active and reserve combat forces were
deployed to 120 countries. Global and frequent deployments require our forces to be more lethal, versatile,
mobile, and efﬁcient than at any time in our history.

Concurrent with this global mission, our Army accelerated the process of changing how we wage war and
keep the peace. We continued to transform our Army to a more joint and expeditionary force. Through our
transformation, we operated more effectively alongside our sister services and allied forces, and reduced the
time needed to deploy forces capable of winning anywhere around the globe.

Our enemies employed new methods of attack that required us to counter with innovations to our tactics,
training, and equipment. We improved the process for rapid development and deployment of new equipment,
ranging from body armor to intelligence gathering. We also accelerated development of the Future Combat


FY 2004 In Review — x
What Operation Enduring Freedom and Operation Iraqi
Freedom have done is caused us as a department and as
services to look where we have commonality and jointness
across our formations so we can help each other out and
kind of spread out the burden across the force. And that’s
what we see happening. The one thing we all share in
common across the services (is) it does say ‘U.S.’ across
our breast. It may say ‘U.S. Air Force’ or ‘U.S. Army’ or
‘U.S. Marine Corps’ or ‘U.S. Navy,’ but it all starts with the
‘United States, and that’s our team logo.
                                                                —Gen. Richard A. Cody, Vice Chief of Staff, U.S. Army




Systems (FCS), a joint network of 18 systems linked to individual Soldiers in the ﬁeld—a LandWarNet
extending from the Pentagon to the foxhole and covering everything in between.

To improve the quality of life for our Soldiers and their families, we initiated a stabilization program aimed
at increasing time spent at unit and post assignments. Historically, Soldiers spent an average of 31 months
at one location before transferring to another assignment. To alleviate the stresses of frequent rotation on
our Soldiers and their families, we are working to home-base Soldiers—ofﬁcers and enlisted personnel—to
the same posts for up to seven years, enabling their families to grow community roots and establish support
structures during deployments.

At the conclusion of FY 2004, the Army had 1,046,592 men and women in the uniformed service, which
included 499,543 active Soldiers, 204,131 Army Reservists, and 342,918 Army National Guard (ARNG)
personnel. In addition, the Army employed 227,160 civilians.

Operation Iraqi Freedom and Iraq Reconstruction
The Army’s most visible and resource-intensive activity during FY 2004 was Operation Iraqi Freedom and
Iraq reconstruction. Our Army made considerable progress capturing former regime leadership, increasing


                                                                                                                        xi
security and rebuilding the infrastructure of Iraq with                   infrastructure, and remain committed to providing
a force of nearly 124,000 active and reserve Soldiers.                    the security necessary to allow for free and open
Infrastructure improvements for transportation,                           elections.
utilities, health care, and education provide a solid
foundation for the establishment of a viable economy
and the creation of a free and democratic state.

The U.S. Army Corps of Engineers (USACE), which
is the world’s largest public engineering, design,
and construction management agency, leveraged our
Nation’s public and private engineering and technical
know-how to address Iraqi infrastructure needs.
Speciﬁcally, the U.S. Project and Contracting Ofﬁce,
an agency charged with oversight of the $18.4 billion
appropriated by the U.S. Congress to support the
reconstruction of Iraqi infrastructure, worked with
the USACE to construct new Iraqi Army bases, an
Iraqi Navy base, and the Ministry of Defense.




                                                                          Spc. Mary Miller and two young Afghan girls in traditional costume
Iraq’s ﬁrst megawatt generator since 1976 is now operational. The 40-     plant a tree at the conclusion of the opening ceremony for the Provincial
megawatt generator went online August 18, 2004 near Basrah, Iraq. Photo   Reconstruction Team headquarters. Maj. Richard Sater
courtesy of U.S. Army.



Operation Enduring Freedom—                                               Homeland Security
Afghanistan                                                               For Operation Noble Eagle, the Army has engaged
                                                                          17,000 Soldiers to defend the homeland. Among
At the conclusion of FY 2004, there were
                                                                          the Soldiers defending the homeland, the ARNG
approximately 14,000 Army uniformed personnel
                                                                          leads the domestic battle against terrorism. The
in Afghanistan. Their mission continues to ensure
                                                                          ARNG’s assistance to Homeland Security takes
the peace, assist in rebuilding the country, and root
                                                                          many forms. The Anti-Terrorism Force Protection
out the perpetrators of the attack on September 11,
                                                                          and physical security programs safeguard facilities,
2001. We have set the conditions necessary for the
                                                                          personnel, and equipment, as well as monitor and
country’s ﬁrst democratic presidential election.
                                                                          maintain intrusion-detection systems that detect and
The Army has provided the security needed for
                                                                          assess threats at 397 critical sites. For example, in
registering voters to cast their ballots in even the
                                                                          June 2004, Georgia National Guard troops provided
most remote areas of the country. In some parts
                                                                          security to the Group of Eight (G8) Summit for the
of Afghanistan, over 50 percent of the population
                                                                          leaders of the world’s major industrial countries.
have registered, and half of them are women. We
trained Afghani police and military forces, built



FY 2004 In Review — xii
                                                                         National Training Center, Fort Irwin, California. The
                                                                         101st Airborne Division, which returned from Iraq
                                                                         in January 2004, and the 10th Mountain Division are
                                                                         the next units to undergo the organizational change.

                                                                         In addition, the Army is rebalancing our force among
                                                                         the Active Component and the Reserve Component,
                                                                         the Guard, and the Army Reserve. This initiative will
                                                                         give our Army more troops with the skills we need to
                                                                         ﬁght the GWOT. At the same time, the Army’s intent
                                                                         is to have no more than 50 percent of the ARNG
                                                                         force involved in the nation’s warﬁghting effort at
Members of the Missouri National Guard’s new Chemical Biological,        any given time so that remaining ARNG forces can
Radiological, Nuclear or High Yield Explosive Enhanced Response Force
Package (CERFP) spray a “victim” of a toxic chemical attack during
an Army evaluation of the team’s ability to deal with a weapon of mass
                                                                         be immediately available for missions in their home
destruction near Jefferson City on July 24. Master Sgt. Bob Haskell      states.

The Army participated in training exercises—such as
Determined Promise ’04 and Amalgam Virgo ’04—
aimed at responding to terrorist threats ranging from
massive radiological explosions in Los Angeles,
California, to handling the aftereffects of a terrorist
attack on a cruise ship, a major auto race, a bridge,
and two tunnels in Hampton Roads, Virginia. More
than 4,000 Canadian and U.S. military personnel
in three U.S. states and two Canadian provinces
participated in these exercises. ARNG units have
been trained to provide emergency medical care and
to decontaminate victims if toxic chemical agents are
ever delivered by weapons of mass destruction on                         Gov. Arnold Schwarzenegger shakes hands with National Guard Soldiers of
                                                                         the 81st Armor Brigade (Separate) at the National Training Center and Fort
American soil.                                                           Irwin, CA. Spc. Jacob A. McDonald


                                                                         Another area of reorganization was in Army aviation.
Army Reorganization and                                                  In FY 2004, the Army decided to cancel the RAH-
Transformation                                                           66 Comanche reconnaissance/attack helicopter in
Historically, division-level Army ﬁghting forces                         favor of modernizing the existing ﬂeet of Army
were the units with the resources capable of                             helicopters. We updated the avionics and aircraft
conducting campaigns. In FY 2004, the Army                               survivability systems for the UH-60 Black Hawk,
started a major reorganization and restructuring                         AH-64, Apache, and CH-47 Chinook. In addition
aimed at ﬁelding brigade-sized units with division-                      to the upgrade programs, we also standardized the
type resources. Key to this transformation is the                        composition of aviation units in both the active and
concept of modularity, or modular units that are                         reserve forces to enable modularity and uniformity.
interchangeable, scalable, and tailorable to meet the
immediate needs of the battleﬁeld. These modular                         Another successful initiative in FY 2004 was the
brigades are “plug-and-play” ﬁghting units that                          Rapid Equipping Force (REF) program, which
can ﬁt into a larger multi-unit force and have the                       speeds the ﬁelding of commercial innovations to
capabilities to operate independently in the ﬁeld.                       battleﬁelds. The REF reduces the lead-time required
                                                                         to ﬁeld equipment by adapting readily available
The 3rd Infantry Division, which returned from Iraq                      technologies. REF initiatives have been used for
in September 2003, is serving as the pilot for the                       counter-mines, sniper ﬁre, and mortar rounds as well
Army’s modularity concept. In October 2003, one                          as for the creation of new doctrine, battleﬁeld robots,
of its brigades tested the new organization at the


                                                                                                                                                 xiii
and electronic intelligence—all these are areas                                  enforce the Anti-Deﬁciency Act (ADA). Our efforts
intended to safeguard our Soldiers and to give them                              resulted in the submission of more ADA cases in FY
new ﬁghting capabilities.                                                        2004 than in both FYs 2002 and 2003 combined.
                                                                                 This is a positive indication that we are identifying
                                                                                 and correcting problem areas.

                                                                                 The Army introduced initiatives to provide more
                                                                                 timely and accurate accounting information and
                                                                                 enhance the quality of ﬁnancial management
                                                                                 decisions. The Army Managerial Accounting
                                                                                 Division was established to use Army Shared
                                                                                 Knowledge-Financial Management (ASK-FM) and
                                                                                 other analytical tools to improve the effectiveness of
                                                                                 budget execution. ASK-FM, rolled out to the Army
                                                                                 and the Major Commands in May 2004, is a web-
                                                                                 based business intelligence application designed to
                                                                                 provide access to near real-time data for accounting,
Soldiers in Iraq prepare to deploy a small robot to check out a suspect object
along a road. Photo courtesy REF.
                                                                                 disbursements, logistics, entitlements, pay, and other
                                                                                 purposes. Basic users require little or no training to
                                                                                 use ASK-FM—simple click and drill technology
Financial Management Systems and                                                 accesses published reports.
Improvements
A critical aspect of transforming the Army is                                    As we look forward into the future, we have begun
improving our management functions. Throughout                                   to invest in a new ﬁnancial management system
FY 2004, we improved the quality of the Army’s                                   that will meet the Army’s ever-changing and highly
ﬁnancial information through streamlining our                                    complex environment. The cornerstone of our
systems and focusing on clearing our material                                    business management transformation is the General
weaknesses. During the year, the Army’s ﬁnancial                                 Fund Enterprise Business System (GFEBS). GFEBS
management and functional communities                                            is a commercial off-the-shelf enterprise resource
collaborated to eliminate legacy systems. We                                     planning system that will manage our daily functions
converted the Army National Guard Bureau from                                    through general ledger processing, vendor payments,
its old accounting system to the Standard Finance                                receivables, funds control and execution, cost
System and deployed the Defense Travel System                                    management, and ﬁscal reporting. GFEBS will assist
(DTS) to all scheduled sites. We are making great                                in the creation of quality ﬁnancial information and
strides toward enhancing our ﬁnancial management                                 ﬁscal transactions that can be audited and result in an
functions while striving to adopt world-class                                    attestation.
business functions that display our trustworthy use of
public resources.                                                                Providing accurate, reliable, timely, and consistent
                                                                                 ﬁnancial information across all Army operations
With our Joint Reconciliation Program initiative, we                             has long been a time-consuming challenge that
reviewed commitment and obligation transactions                                  continued to be addressed in FY 2004 through long-
for timeliness, accuracy, and completeness. We                                   term enhancements to Army ﬁnancial management.
aggressively worked to reduce unliquidated                                       The new initiatives will enhance our ability to
obligations of canceling appropriations—a key                                    receive an unqualiﬁed audit opinion of our ﬁnancial
performance measure of public sector ﬁnancial                                    statements, improve budget formulation and resource
management effectiveness. As a result of this                                    execution, facilitate operational divestiture, eliminate
initiative, we reduced the amount of these funds                                 legacy systems and business practices, and reduce
from $633 million at the start of the ﬁscal year to                              Army and Defense personnel requirements for
$26.2 million by the ﬁscal year’s end. We have also                              ﬁnancial functions.
implemented management controls and oversight to


FY 2004 In Review — xiv
                                                                                   designed to improve business processes throughout
Army Systems Controls and Legal                                                    the Army. As these business processes improve and
Compliance                                                                         evolve, so too will the quality of the information that
The Army continues to place a high priority on                                     is vital to the Army’s leaders, decisionmakers, and
improving its ﬁnancial management processes                                        stakeholders.
and associated systems. To that end, we worked
aggressively through FY 2004 toward our goal of
ensuring that our critical ﬁnancial feeder systems
are compliant with the Chief Financial Ofﬁcers
(CFO) Act of 1990. The ongoing replacement or
incorporation of Army systems into newer, evolving
systems reduces the numerous noncompliant
systems. Those critical ﬁnancial feeder systems
not scheduled for replacement are being evaluated
for modiﬁcation to achieve compliance, with each
system being periodically monitored by the U.S.
Army Audit Agency (AAA) as part of the Army’s
CFO Strategic Plan. This plan afﬁxes responsibility
and establishes a timeline for addressing and
resolving problems of noncompliance, with periodic
status reports going to Army leadership.

The Army CFO Strategic Plan—our road map to an
unqualiﬁed audit opinion through the production
of quality information—is one of many initiatives




FY 2004 In Review Introduction Page Photos

[Large Photo]
A Soldier is welcomed home by family members in Asheville, N.C., after more than 15 months deployed in support of Operation Iraqi
Freedom. The Soldier is assigned to the 210th Military Police Company, North Carolina Army National Guard. This photo appeared
on www.army.mil.

[Top Inset Photo]
Soldiers of the 25th Infantry Division’s 1st Battalion, 27th Infantry Regiment, salute the colors during a recent ceremony in Iraq. The
division currently has Soldiers deployed to both Iraq and Afghanistan. This photo appeared on www.army.mil. By Spc. Sean Kimmons

[Middle Inset Photo]
Bomb making—McAlester Army Ammunition Plant

[Bottom Inset Photo]
At Khor al Zabayr, north of Basra, BG(P) Steven R. Hawkins and Corps of Engineer’s Ricky Wilson, Senior Electrician from Carters
Lake Pump Storage Hydropower Facility, GA, Mobile District, inspect the new blades on a generator rotor as part of the Corps’
“Restore Electricity to Iraq” Mission.




                                                                                                                                          xv
General Fund – Management’s Discussion & Analysis
Overview
The Army General Fund, the largest Army fund, ﬁnances military operations, supporting services,
personnel, facilities, and nearly every other function. A majority of the General Fund’s revenue comes from
Congressional appropriations. In FY 2004, the Army received $150 billion in appropriations.


Mission
For 229 years, the Army’s primary mission has been warﬁghting, defending the United States and its
territories, commonwealths, and possessions. Prepared at all times to ﬁght and win the Nation’s wars, Army
Soldiers are also ready to go anywhere in the world to save lives, protect property, provide humanitarian aid,
and keep the peace.

While the Army’s warﬁghting mission has been the same during its 229-year history, the nature of conﬂict
has from time to time undergone radical transformation. When that happens, the Army changes strategy,
tactics, equipment, and organizational structure. One such major change is now underway with the advent of


General Fund – Management’s Discussion & Analysis — xvi
We do not have the luxury to wait. So we must change while
still ﬁghting—this deﬁnitely is not business as usual.
                                                                    —Gen. Peter J. Schoomaker, Chief of Staff, U.S. Army




the Global War on Terrorism. This is a war unlike any in our history. It is underway across both the globe and
the full range of military operations. The enemies are rogue states and terrorists who cannot be discouraged,
but nevertheless must be prevented from striking against our Nation, allies, and interests. They are waging
war of a different type, tempo, pace, and duration than we have encountered previously. This means the Army
must simultaneously ﬁght and transform how its ﬁghts—a hard and often dangerous undertaking.

To transform itself, in FY 2004 the Army started the process of re-examining and challenging our most basic
institutional assumptions, organizational structures, paradigms, policies, and procedures. The result of this
examination will be a more relevant and ready Army—the Future Force.


Vision
Guiding the Army’s transformation is a vision of a more relevant and ready Future Force—a campaign-
quality Army with a joint and expeditionary mindset capable of defeating any adversary or controlling any
situation across the full range of military operations. We will redesign our formations to provide modular,
capabilities-based organizations. We will balance our forces to give them the ability to operate in an uncertain
environment against an unpredictable threat. Our people will have an unprecedented level of adaptability.


                                                                                                                       1   1
Organization
Figure 1. Organization of the Department of the Army

                                                                                                            The Inspector                  Chief of
                                                                                                              General                     Legislative
                                                                                                                                           Liaison         Chief of Public
                                                                                                                                                               Affairs
                                                                                                       Admin.
                                                                                                      Assistant               The Army
                                                                                                                            Auditor General                     Small &
                                                                                                        General                                              Disadvantaged
                                                                                                        Counsel                                            Business Utilization

                                                                                                                                  SECARMY
                                                    ASA Acquis            ASA                                                       USA                         Executive
     ASA
  Manpower &
                         ASA
                     Installs and        ASA        Log. & Tech     Financial Mgmt. &   Chief Info         Director                                             Office the
 Reserve Affairs       Environ        Civil Works    [Mil Dep.       Comptroller [Mil   Officer G-6      Army Staff                   CSA                       HQDA (EOH)
                                                      Acquis]          Dep Budget]                                                   VCSA
                                                                                                                                     SMA
                   ACS Installation      Chief of Engrs
      G-1 *           Mgmt. *                               G-4 *       G-8 *     G-3        G-2                                                            Chief of
                                             * **                                                                    The Judge                             Chaplains
                                                                                                                     Advocate
                                                                                                                      General
                                                                                                MACOMs                                            The Surgeon
                                                                                                                                                   General **
              Clearly defined responsibilities to ASA
                                                                                                                               Director
              Oversight                                                                                                        ARNG
                                                                                                                                              Chief Army
        *     Responsible to ASA for advice and assistance in functional area                                                                  Reserve
        **    MACOM Commander                                                                                                                              *As of September 30, 2004


The Army is an organization of headquarters,                                            the Army has mobilized almost half of the Reserve
staffs, commands, and units integrated into a single                                    Component. The combination of the increased
system with a common mission. Figure 1 is an                                            use of Reserves and the shift to smaller, modular
organizational chart of the Headquarters Department                                     brigades may be the largest and most signiﬁcant
of the Army (HQDA). The Secretary of the Army,                                          reorganization in the Army since World War II.
the Chief of Staff (CSA), and the other leaders of the
Executive Ofﬁce of HQDA together lead the HQDA.
Decisionmaking authority is uniﬁed within this
ofﬁce, enabling quick, responsive actions to ever-
evolving mission requirements.

Each of the major combat organizations, called
armies, consists of (in descending order by size) the
following formations: divisions, brigades, battalions,
companies, platoons, and squads. At present, the
centerpiece of Army combat forces is the division.
In FY 2004, we began moving toward a focus on
the smaller brigades that make up a division. These                                     Soldiers of the 25th Infantry Division’s Task Force 1st Battalion, 14th Infantry
                                                                                        Regiment, re-enlist before heading out of Kirkuk Air Base for their second
brigade-level units will be permanently organized to                                    Najaf mission recently. This photo appeared on www.army.mil. By Staff Sgt.
                                                                                        Klaus Baesu
be more self-sufﬁcient, modular formations called
“Units of Action.”
                                                                                        Core Competencies
To meet global commitments across the full                                              The U.S. Army has maintained two core
spectrum of military operations, the Army is                                            competencies: (1) training and equipping Soldiers
made up of: the Active Component and Reserve                                            and growing leaders and (2) providing relevant and
Components. The Reserve Components are the                                              ready land power to Combatant Commanders as part
United States Army Reserve (USAR) and the Army                                          of the Joint Force.
National Guard (ARNG). Since September 11, 2001,


General Fund – Management’s Discussion & Analysis — 2
We report below, on the progress made in enhancing
these competencies in FY 2004.

1) Training and Equipping Soldiers and
    Growing Leaders.
No Soldier can survive in the current battlespace
without constant training in weapons and ﬁeldcraft
and a continuous immersion in the Army’s Warrior
Culture.
New Recruits. The Army inducted and provided
basic training to 80,000 new recruits as well as
advanced training in different military occupational
specialties.
                                                        Pfc. Walker calls to fellow Soldiers after ﬁnding a cache of rockets hidden
                                                        in a bush near Bayji, Iraq. This photo appeared on www.army.mil. By Pfc.
                                                        Elizabeth Erste
Everyone Is a Warﬁghter. The GWOT has no rear
areas where cooks, clerks, drivers, and other non-
combat personnel are safe from attack. Therefore, in
both basic and other training, the Army is determined
that all Soldiers, no matter what their job, will be
qualiﬁed for combat.

Exercises. Field experience under close-to-combat
conditions is integral to preparing ofﬁcers and
enlisted personnel for actual warﬁghting. In FY
2004, the Army conducted many such exercises.

Continuing Education. eArmyU, the Army’s
degree-granting virtual university, enrolled over
30,000 students around the world for graduate,          A Soldier maintains security while a humvee carrying troops is towed from a
undergraduate, and certiﬁcate degree programs.          river by another vehicle in Afghanistan. This photo appeared on www.army.mil.

Started in January 2001, the program is on target to
                                                        Rapid Equipping Force (REF) works directly
enroll 80,000 students by FY 2005.
                                                        with operational commanders to ﬁnd solutions to
Equipping Soldiers. Regarding equipment, in FY          operational requirements. These solutions may be
2004, the Army’s Rapid Fielding Initiative (RFI)        off-the-shelf or near-term developmental items that
upgraded 18 brigade combat teams (BCTs) and 8           can be made quickly available. Because REF items
enhanced Separate Brigades, serving in Operations       incorporate technologies already available off the
Iraqi Freedom and Enduring Freedom. In addition,        shelf, REF can get new equipment into the ﬁeld in
we accelerated ﬁelding of select future capabilities,   a fraction of the time previously required. Since
such as thermal weapon sights, enhanced night           the beginning of Operation Enduring Freedom,
vision goggles, improved body armor, the Future         REF has fulﬁlled at least 50 requirements for items
Combat Riﬂe, and a new sniper riﬂe.                     needed by Soldiers. For example, the then Army



“Our reorganization is going to be rapid and challenging. Keep in mind that
this is the largest and most signiﬁcant reorganization of our Army since World
War II.”
                                                                                                            —General Schoomaker


                                                                                                                                      3
Vice Chief of Staff General John M. Keane and
the REF established a coordinated effort to supply                              REF Items Now in the Hands of Soldiers
U.S. Forces with a safer and more efﬁcient way of
                                                                                    FN303 Non-Lethal Weapon, which shoots
searching wells and remote mountain caves. Within                                   paint pellets at potential aggressors and marks
45 days, Soldiers were utilizing the solution, the                                  them with ink to help with future identiﬁcation or
iRobot, in the theater.                                                             apprehension
                                                                                    WellCam, a remote video system that precludes
                                                                                    Soldiers from having to climb into wells and caves
                                                                                    in search of weapons caches
                                                                                    electronic translators that emit voice commands
                                                                                    in Pashtu and Arabic
                                                                                    lock shims that allow Soldiers to open padlocks,
                                                                                    as is necessary during intelligence-driven home
                                                                                    searches, without destroying locks and doors
                                                                                    a hand-held thermal viewer for close-up images
                                                                                    of forward sites
Members of 2nd Brigade Recon Troop, provide perimeter security for other            electronic countermeasures, installed on
members of the Quick Response Force during a Search and Seizure mission,
June 26, 2004. This photo appeared on www.army.mil.                                 Humvees, to jam frequencies the enemy is most
                                                                                    likely to monitor
2) Providing Relevant and Ready Land Power
                                                                                    “Jaws of Life” emergency extraction/rescue
     to Combatant Commanders as Part of the                                         equipment sets used to free victims of aircraft and
     Joint Force.                                                                   vehicle crashes
As may be seen in the map in Figure 2, by far the
                                                                                    cables and power-supply adapters used
Army’s most visible and resource-intensive activity                                 by engineers in Afghanistan to feed power to
during FY 2004 was the GWOT. For that conﬂict,                                      computers and other electrical devices from
we committed a force of over 139,000 Active                                         the Single Channel Ground and Airborne Radio
and Reserve Soldiers to Iraq, Afghanistan, and                                      Subsystem (SINCGARS) radio battery, after the
                                                                                    battery no longer has sufﬁcient power to run the
Guantanamo and 17,000 to Operation Noble Eagle,                                     SINCGARS
the defense of the homeland.


Figure 2. Army Global Commitments, FY 2004

                                                                  Balkans
                                                               2,500 Soldiers
                                                                                            Afghanistan                South Korea
                                 Homeland Defense                                         14,000 Soldiers            30,000 Soldiers
                                  17,000 Soldiers


                                                                         Sinai                Iraq
                                                                     700 Soldiers       124,000 Soldiers
                                     Guantanamo
                                    1,300 Soldiers




                                                         Other Operations & Exercises
                                                                1,760 Soldiers
                                                                                                                     *Approximate




General Fund – Management’s Discussion & Analysis — 4
In addition to supporting overseas actions, the                             The Bench: Prepare future generations of senior
ARNG plays an important domestic role, routinely                            leaders. Identify and prepare select Army leaders for
responding to state emergencies. In FY 2004, there                          key positions within joint, interagency, multinational,
were 280 requests for emergency support, ranging                            and Service organizations.
from basic human needs to engineering support
during natural disasters. Our ARNG has ﬁelded 32                            Combat Training Centers/Battle Command
Weapons of Mass Destruction Civil Support Teams                             Training Program: Focus training at Combatant
(CST), which assist ﬁrst responders in the event of                         Training Centers and the Battle Command Training
an incident. To date, these teams have responded                            Program to meet requirements of the current security
to 74 different requests for support. Also, more                            environment, and the Joint and Expeditionary Team.
than 8,000 ARNG Soldiers have executed critical
force protection duties at 148 installations in the                         Leader Development and Education: Train and
continental United States.                                                  educate Army members of the Joint Team.

                                                                            Army Aviation: Conduct a holistic review of Army
Army Campaign Plan                                                          Aviation and its role on the Joint battleﬁeld.
In FY 2004, the Army developed and started to
implement a new Campaign Plan that is a road map                            Current to Future Force: Accelerate ﬁelding
to the Future Force. The senior leadership of the                           of select Future Force capabilities to enhance
Army established focus areas for efforts to win the                         effectiveness of Current Force. Army transformation
GWOT and increase the relevance and readiness of                            is a process of constant change.
the Army. The focus areas range from developing
                                                                            The Network: Leverage and enable interdependent,
ﬂexible, adaptive, and competent Soldiers to
                                                                            network-centric warfare.
accelerated ﬁelding of Future Force capabilities, to
creating modular, capabilities-based unit designs.                          Modularity: Create modular, capabilities-based unit
Every focus area aims at transformation—a key                               designs.
concept of the Army today.
                                                                            Joint and Expeditionary Mindset: Retain our
The Soldier: Develop ﬂexible, adaptive, and                                 campaign qualities while developing a Joint and
competent Soldiers with a Warrior Ethos.                                    Expeditionary mindset.



                                                                                Stabilization
                                                                                In FY 2004, the Army undertook several
                                                                                initiatives that will give Soldiers and their
                                                                                families more stable and predictable
                                                                                lives. We started keeping units together
                                                                                longer, extended tours of duty, and
                                                                                encouraged Soldiers to return to the
                                                                                same post repeatedly during their
                                                                                careers. This helps families become
                                                                                more connected to their communities and
                                                                                promotes continuity in schools, medical
Soldiers rush into position to secure the perimeter during an exercise in
Djibouti. The Soldiers are assigned to the Guam Army National Guard’s 1st
Battalion, 294th Infantry Regiment, deployed in support of the Combined
                                                                                care, spouse career, education, and
Joint Task Force-Horn of Africa. This photo appeared on www.army.mil.           home ownership.



                                                                                                                                  5
Active Component /Reserve Component Balance:                              great Army. We must examine, design, and develop
Redesign the force to optimize the Active and                             new solutions for a new and dangerous world, as
Reserve component (AC/RC) mix across the defense                          we have done so successfully in our past. This will
strategy.                                                                 require the deep and personal commitment of every
                                                                          member of the Army team—every leader, every
Force Stabilization: Ensure unit stability and                            Soldier, every civilian, and every family member.
continuity and provide predictability to Soldiers and
their families.
                                                                              Modularity and Standardization
Actionable Intelligence: Provide situational
understanding to Commanders and Soldiers with the                             Modular units are interchangeable,
speed, accuracy, and conﬁdence to impact current                              scalable, and tailorable formations that
and future operations.                                                        are smaller and more self-contained
                                                                              than before. For example, a Future
Installations as Flagships: Enhance installation
ability to project power and support families.
                                                                              Force modular brigade has almost all the
                                                                              capabilities it needs in order to operate
                                                                              in the ﬁeld: infantry, armor, aircraft,
                                                                              intelligence, medical, and others. It
                                                                              can be “plug-and-play,” able to operate
                                                                              independently from its division and to ﬁt
                                                                              with some precision into a larger multi-
                                                                              unit force, including Joint Force teams.
                                                                              Standardization is critical to the success
                                                                              of modularity. This means standard
                                                                              equipment, armament, training, and
                                                                              doctrine—often across the Army and the
                                                                              Joint Team.



                                                                              More Autonomy for Flagship
                                                                              Installations
Family members welcome home soldiers from the 3rd Brigade, 3rd Infantry
Division to Fort Benning, GA.
                                                                              In FY 2004, in a marked departure from
Authorities, Responsibilities, and Accountability:                            the past, funds for installations were
Clarify roles and enable agile decisionmaking.                                routed to garrison commanders instead of
Resource Processes: Redesign resource processes to                            being passed through major commands.
be ﬂexible, responsive, and timely.                                           This will ensure that funds earmarked
Strategic Communications: Tell the Army story so                              for garrison operations are used for their
that the Army’s relevance and direction are clearly                           intended purpose, improve accountability,
understood and supported.                                                     and increase the overall support to
Transformation during a war is never easy, but it is a                        Soldiers and their families.
practice that appears many times in the history of our




General Fund – Management’s Discussion & Analysis — 6
                                                         components and is using them as a road map for
General Fund Performance Results—                        institutionalizing performance management in
Institutionalizing Performance                           the Army. These four diverse efforts intersect and
Management                                               include guidance from the Government Performance
The current national security environment differs        Results Act (GPRA), the Quadrennial Defense
dramatically from that of the past. We no longer         Report (QDR) risk framework, the President’s
face a monolithic superpower; instead, we must           Management Agenda (PMA), and the Management
contemplate and ﬁght multiple adversaries in             Initiative Decisions (MIDs).
multiple places. As our enemy evolves, we are
rapidly and dramatically altering our forces, our        The Government Performance Results Act of 1993
weapons, our training, and our tactics. One of the       The Government’s ﬁrst step toward performance
ways that the Army has evolved is our emphasis           management was initiated by Congress in 1993.
on changing our business processes and focus on          The GPRA was signed into law with the intent of
performance management.                                  shifting the focus of Government decisionmaking,
                                                         management, and accountability from activities and
Performance management is nothing new to the             processes to the results and outcomes they achieve.
Army. In the 1970s, we had Management By                 This constituted a shift away from a preoccupation
Objectives; in the 1980s, we focused on task,            with the activities that are undertaken—such as
condition, and standards; and in the 1990s, we added     grants dispensed or inspections made—to a focus
a capabilities focus to The Army Plan. In this new       on the results of those activities. Focusing on
century, we have introduced our balanced scorecard       results—such as real gains in employability, safety,
approach.                                                responsiveness, or program quality—was a paradigm
                                                         shift for the Government. GPRA also sought to gain
Through the balanced scorecard, we are formally          information on the plans, goals, and strategies of
institutionalizing performance management in             Federal agencies. Under GPRA, agencies’ annual
the Army. Focusing on output measures, we use            performance plans were required to clearly inform
performance management techniques to verify              the Congress and the public of:
we are doing the right things now and to look for
trends in the future. For the ﬁrst time in history, we   (1) Annual performance goals for agencies’ major
utilized performance measures to justify our budget          programs and activities (i.e., DoD’s Annual
requests. In the FY 2005 budget, 60 percent of our           Defense Report or (ADR))
programs were accompanied by measures and goals
to gauge our success. By FY 2007, 100 percent of         (2) Measures that will be used to gauge performance
our budgeted programs will have associated metrics.      (3) Strategies and resources required to achieve the
Performance management allows us to measure our              performance goals
progress, identify issues, and address them before
they become troublesome.                                 (4) Procedures that will be used to verify and
                                                             validate performance information.
The Army does not ﬁght alone—we are only one             These annual plans, issued soon after transmittal
part of a joint team. This section of the Annual         of the President’s budget, provide a direct linkage
Financial Report highlights how we align ourselves       between the Army’s longer-term goals and mission
to Congressional requirements, to the Department         and its day-to-day activities. Subsequent annual
of Defense (DoD)’s balanced scorecard and its risk       performance reports are to report on the degree to
management framework, and to other members of            which previous performance goals were met. The
the joint team. It represents one of the many steps      issuance of the Army’s performance reports, due
along our road map for instituting performance           by March 31, represent a new and potentially more
management Army-wide.                                    substantive phase in the implementation of GPRA—
                                                         providing the opportunity to assess the Army’s
Synchronizing Performance Management Efforts             actual performance for the previous ﬁscal year
There are four components to the Army’s                  and to consider what steps are needed to improve
performance management approach. In calendar
                                                         performance and reduce costs in the future.
year 2004, the Army began synchronizing these


                                                                                                                7
Balancing Risk and the Quadrennial Defense               effective and enduring. The ﬁve key Government-
Review Framework                                         wide initiatives are:
With the release of the 2000 QDR, the Ofﬁce of
the Secretary of Defense (OSD) adopted the QDR               Strategic Management of Human Capital—
balanced risk framework. Even as we accept some              having processes in place to ensure the right
increased near-term risk as we prepare for the future,       person is in the right job, at the right time, and is
the FY 2005 budget also recognizes the advent of             not only performing, but performing well
unexpected dangers and the need for ﬂexibility. The
                                                             Competitive Sourcing—regularly examining
Army’s efforts mirror OSD’s efforts.
                                                             commercial activities performed by the
                                                             Government to determine whether it is more
The challenge is to do three difﬁcult things
                                                             efﬁcient to obtain such services from Federal
simultaneously:
                                                             employees or from the private sector
(1) Win the GWOT                                             Improved Financial Performance—accurately
(2) Prepare for the threats we will face later this          accounting for the taxpayers’ money and giving
    decade                                                   managers timely and accurate program cost
                                                             information to inform management decisions
(3) Continue transforming for the threats we will
                                                             and control costs
    face in 2010 and beyond
                                                             Expanded Electronic Government—ensuring
Any one of these challenges is difﬁcult—and
                                                             that the Federal Government’s $60 billion
expensive. Taking on all three requires us to make
                                                             annual investment in information technology
tough choices among competing demands. We
                                                             (IT) signiﬁcantly improves the Government’s
are obligated to effectively utilize the taxpayers’
                                                             ability to serve citizens, and that IT systems are
dollars and to show taxpayers the Army is willing to
                                                             secure and delivered on time and on budget
eliminate programs that we don’t need and refocus
funds into areas we do need.                                 Budget and Performance Integration—
                                                             ensuring that performance is routinely
To assist the Secretary and his senior military and          considered in funding and management
civilian advisors in making these strategic trades,          decisions, and that programs achieve
we have adopted a risk management framework to               expected results and work towards continual
guide our decisionmaking in allocating resources.            improvement
This framework creates a continual feedback loop
                                                         For each initiative, the PMA established clear,
from the Soldiers in the ﬁeld to the managers
                                                         Government-wide goals or “Standards for Success.”
making policy and resource decisions, improving the
                                                         Agencies then developed and implemented detailed,
transparency of our decisionmaking process.
                                                         aggressive action plans to achieve those goals. Most
President’s Management Agenda                            important, agencies are held publicly accountable for
The PMA was announced in the summer of                   adopting these disciplines. Using a simple grading
2001 as an aggressive strategy for improving the         system of red, yellow, and green, agencies are rated
management of the Federal Government. It focuses         on their status in achieving the overall goals for each
on ﬁve key areas where the Government can make           initiative and on their progress in implementing their
the most improvement.                                    action plans each quarter.

The PMA focuses on the areas where deﬁciencies           Management Initiative Decisions
were most apparent and where the Government              In FY 2002, OSD focused its performance
could begin to deliver concrete, measurable results.     management efforts by releasing a series of MIDs.
The Agenda includes ﬁve Government-wide                  Two of the MIDs released were MID 901 and MID
initiatives and 10 program-speciﬁc initiatives that      910.
apply to a subset of Federal agencies. The PMA
                                                         MID 901 aligned the Ofﬁce of Management and
is helping departments and agencies adopt new
                                                         Budget (OMB) and DoD performance measurement
disciplines to ensure that their focus on results is


General Fund – Management’s Discussion & Analysis — 8
activities (the PMA); the 2001 QDR; and GPRA            Army Performance Management—Where We
of 1993. MID 901 assigns responsibility for OSD
                                                        are Going
performance measurement collection and deﬁnes
how supporting performance information is to            Our goal is “a better Army every day—a relevant
be managed and reported. Additionally, MID              and ready campaign-quality force with a Joint and
901 established a framework for executive-level         Expeditionary Mindset.” The Army is improving its
performance goals and tracking results within OSD.      ability to execute its core competencies: (1) training
This MID shifts the department’s focus to outcome       and equipping Soldiers and growing leaders and (2)
results and aligns the Army with the 2001 QDR           providing relevant and ready land power as part of
Risk Management framework. Finally, MID 901             the Joint Force. We monitor our progress and take
                                                        action to remain on track based on our performance
assigned responsibility for reﬁning and cascading
                                                        management system.
performance metrics to the Component level and
required each Component to appoint a GO/SES-level       The Secretary of Defense observed that in the 21st
Performance Management Coordinator (PMC). In            century, “new and unexpected danger[s] will likely
the Army, the PMC is the Deputy Assistant Secretary     be waiting just over the horizon and . . . we must be
of the Army for Cost and Economics.                     ﬂexible to face them.” Meeting and defeating these
                                                        threats requires the rapid and responsive efforts of
MID 910 expanded the PMA initiative on Budget           the Joint Team. The Army is a critical member of
and Performance Integration (BPI). It reinforced the    that Team, uniquely able to contribute the complete
effort to cascade responsibility to the Components      spectrum of land power capabilities to the Joint
for implementing the President’s Executive              Force commander, enabling him to dominate, and
Scorecard on the BPI to the Components. It              to sustain land warfare across the entire operational
instructed the Components to associate performance      gamut.
metrics with resources in the FY 2004 and
succeeding President’s Budgets, and to report on        The Army’s challenge is to transform doctrine,
metrics for selected programs reported in the FY        organizations, processes, and its very culture to better
2003 President’s Budget.                                provide essential capabilities to the Joint Force in a
                                                        prompt and rapid manner. To meet this challenge,
MID 910 directed that each Component be “graded”        we must inculcate a Joint and Expeditionary mindset
on its status and progress in displaying the linkage    into every member of the Army team by embracing
of plans-outputs-resources in budget justiﬁcation       a forward-leaning, modularly structured, joint-
materials; expanding the treatment of metrics in the    interdependent, and capabilities-based Army led
FY 2004 Congressional justiﬁcation materials; and       by and composed of aggressive, intelligent, and
establishing a quarterly system reporting on progress   empowered Soldiers.
towards the performance goals.
                                                        We must think of ourselves as vital members of
The Army has enjoyed measurable successes in            the Joint Team ﬁrst, and as a Service component
the BPI arena. MID 910 directed that each Service       second. The Joint Force is capable of sustained
account for 60 percent of its programs last year—the    interoperability, but must attain joint interdependence
Army quantiﬁed 71 percent. In the FY 2006 budget,       as quickly as possible. The Joint Operational
MID 910 required that 81 percent of the Service’s       Concepts (JopsC) is the blueprint for achieving this
programs incorporate performance measures. The          posture. The Army is developing and nesting its
FY 2006 Army budget quantiﬁes 97 percent of its         concepts and capabilities within JopsC to ensure that
programs. These excellent Army results are reﬂected     the U.S. military reaches its goals.
in the PMA scorecard.




                                                                                                                 9
Improving Today’s Army                                             to serve our Nation; and have the endurance and
Our ﬁrst priority is clear—winning the war. Adapting               commitment to stay the course of the conﬂict. They
our forces to meet the challenges of the GWOT                      must be conﬁdent, adaptive and competent to handle
requires a capabilities-based, modular, ﬂexible,                   the full complexity of 21st century warfare.
and rapidly employable Joint-Army team. The Joint
Force must be capable of dominating any adversary                  One hundred percent of Soldiers we enlist will hold
and controlling any situation across the full range                a high school diploma or equivalent, with no less
of military operations. As a crucial member of this                than 90 percent holding high school diplomas The
team, the Army must be positioned around the world                 recruiting/retention goals and accomplishments for
with the right composition, numbers, and materiel to               the Active Army and ARNG are shown in Table 1
enable the maximum ﬂexibility, agility, and lethality              below.
for operations across the full military spectrum.
                                                                   The Army’s success at achieving its retention goals
In pursuit of these goals, the Army uses performance               are a direct reﬂection of our quality leadership and
management to measure and adjust our efforts.                      our Soldiers’ willingness to serve in a time of war.
The forcing function and intersecting point for all                Those Soldiers who were undecided about whether
performance management initiatives are guided by                   to re-enlist were enticed through the use of retention
OSD’s QDR risk framework.                                          bonuses. Results of our efforts are shown in Table 2.


Force Management Risk
Providing trained and ready Soldiers is the business
of the Army. To do so, we employ the tools of
modern commerce to better manage our military
and civilian workforce: more ﬂexible compensation
packages, contemporary recruiting and retention
techniques, and improved training. Our working and
living conditions must enable our people to perform
at their best as we seek out and grow the skilled
individuals demanded by the Future Force.

Maintain a Quality Force
The tempo of our international commitments has
placed an exceptional demand on Active, ARNG,                      Trainees crawl through the mud on an obstacle course during Army Basic
and USAR Soldiers, and that demand will continue                   Combat Training at Fort Jackson, S.C. This photo appeared on www.army.
                                                                   mil.
for the years ahead. The Army must pursue selected
programs to recruit and retain the high-quality                    Support to Deployed Soldiers
Soldiers and civilians necessary to execute our                    To ease the effects of sustained deployment on our
mission. All of our Soldiers are warriors whose                    Soldiers, we have made available in-theater and
actions have strategic impact. Because we will                     on-location rest and relaxation. We are committed
remain at war for the foreseeable future, we must                  to providing these services as long as our troops
recruit men and women who already have the                         remain deployed in the Central Command area of
warrior ethos ingrained in their characters; seek                  responsibility. Many of these initiatives are not yet

 Table 1. Recruiting                                                Table 2. Active Component Retention
                        2002        2003       2004      2004                               2002         2003         2004        2004
                        Actual      Actual     Goal      Actual                             Actual       Actual       Goal        Actual
 Active Army             79,585      74,132     77,000    77,587    First-Term Soldiers       19,433      21,838       23,000      24,903
 Army Reserve            41,697      27,365     32,275    32,699    Mid-Term Soldiers         23,074      19,509       20,292      21,120
 Army National Guard     63,251      84,202     56,002    49,210    Career Soldiers           15,730      12,804       12,808      13,987



General Fund – Management’s Discussion & Analysis — 10
quantiﬁable but include deployment cycle support                                                     and initiatives discussed throughout this report, such
to both Soldiers in the ﬁeld and to their families                                                   as impeccable training; taking care of Soldiers, their
at home; spouse employment; in-state tuition; and                                                    families, and our retirees; restructuring our forces;
ARNG and USAR job centers.                                                                           and spiraling future capabilities into the hands of
                                                                                                     today’s troops. This reshaping includes a rebalance
Maintain Reasonable Force Costs                                                                      of the mix of Active Component (AC) and Reserve
In the past, the term “force cost” has typically                                                     Component (RC) forces to ensure we have the right
referred to military pay and allowances. However,                                                    capabilities at the right place and time. This is a new
a much broader strategy is needed to capture                                                         initiative displayed in Table 3, that will evolve as
completely force-related activities, such as                                                         Base Realignment and Closure (BRAC) decisions
entitlements and beneﬁts like health care and                                                        are made.
educational incentives, which drive overall labor
costs. The Army is working with OSD to develop
appropriate metrics for assessing the comparative
cost of labor. This will improve our management
practices and lead to more effective and efﬁcient
utilization of resources over the long term.

Shape the Force of the Future
Shaping the force of the future is not represented by
any single process or system in the Army. Rather it
is accomplished through the myriad daily activities

 Table 3. AC/RC Force Mix*
                                                                                  FY 2004
 Goal                                                                                   4%           Cadets toss their caps into the air at the conclusion of their graduation
                                                                                                     ceremony at the United States Military Academy at West Point, N.Y., May 29.
 Actual                                                                                 4%           This photo appeared on www.army.mil.
 *Represents percent of the force that has been rebalanced


 Figure 3. Structuring the Force

 The pyramid reflects the full     Title 32 Responsibilities                                              Joint and Expeditionary
 spectrum of the Army’s                                                                                               Capabilities
 capabilities. It acknowledges the
 requirement for sustainment and                             RC                                   AC
 rotational forces as well as           4-24 Hours                                                                  Deploys within
 combat forces. The continuing                                                                                            30 Days
 requirement for Homeland                                    CSS
                                                                                                     CSS
 Security and Defense forces also
                                                                                                                                             Required = Authorized
 is depicted.

 Organizational symbology is illustrative as is
 NOT and all-inclusive depiction of
 organizational requirements.                                                                                                        Campaigning
                                                                                                                                        Qualities
                                                                                                                                  (Depth or Forward
                                                                                 AC/RC Depth                                    Presence Rotations)




                                                                                                     CS       CSS




                                                                                      RC/AC
                                                                           Homeland Security & Depth
                                                             (NBC, Transportation, Military Police, Engineers, Aviation...)


                                                             Generating Force and Institutional Army


                                                                                                                                                                               11
The Army plan is to rebalance the mix between                       requirements. This ﬂexibility focuses not only on
Active and Reserve Component force structure and                    the Soldier, but on our equipment. In an effort to
adjusting the quantities of certain military specialties.           “lighten” our forces, the Army has begun to deploy
We expect to realign more than 100,000 positions                    the “high-tech” Stryker combat vehicle. Table 4
across the Active and Reserve Components. In                        represents the number of Stryker Brigade Combat
response to Secretary of Defense guidance, we                       Teams (SBCT) structured in accordance with the
already have addressed approximately 10,000 slots.                  Army Campaign Plan.
The ARNG is on track to divest about 19,500 spaces
from less frequently used force structure, which will               The USAR, in conjunction with Army Headquarters,
help to reallocate resources to critical, high-demand               is re-examining its conﬁguration to determine how
units such as military police and special operations                best to support the Combatant Commanders. One
forces. We project that our rebalancing efforts will                imperative of the Federal Reserve Restructuring
convert another 80,000 slots of lower-priority force                Initiative (FRRI) establishes a Training, Transient,
structure, 26,000 of which should be completed in                   Holdees, and Students (TTHS) account similar to
FY 2005.                                                            the process used by the Active component. USAR
                                                                    is piloting the TTHS in one command, the 81st
                                                                    Regional Readiness Command (RRC). The THHS
Operational Risk                                                    initiative is being implemented in phases and will
The Operational Risk area refers to our ability to                  gradually expand to the entire USAR, enabling
overcome today’s threats. This includes planning and                the USAR to provide the right capabilities to meet
adapting as events unfold; training for the next real-              emerging mission requirements. The FRRI will
time mission; and sustaining the warﬁghters. Our                    be completed by the end of FY 2007, with current
ﬁrst priority is clear—to win the war on terrorism.                 progress reported in Table 5.
Our other priority is to train for war.
                                                                    Our Forces Are Postured to Succeed
The Right Forces Will Be Available                                  In FY 2003, approximately two-thirds of our Active
The Army is committed to always providing the                       and Reserve combat formations were deployed in
Combatant Commander with the land power required                    more than 120 countries around the world. As a
to accomplish the mission at hand. With this in mind                result of the GWOT, we will remain in most of these
and in light of today’s radically different security                locations for the foreseeable future.
environment, we have begun a multi-pronged
redesign of our entire force structure as shown in                  As part of the effort to make sure that we have
Figure 3.                                                           the right capabilities in the right place, the Army
                                                                    will continue to enhance the tools we place in our
Our individual units will become more modular,                      Soldiers’ hands. We also are pursuing an aggressive
ﬂexible, and responsive, thus creating an array of                  aviation modernization program. Starting in FY
balanced formations that can meet current and future                2005, the Army will undertake 19 Apache Longbow

 Table 4. Numbers of SBCT Units Structured IAW: The Army             Table 5. USAR Federal Reserve Restructuring Initiative
 Campaign Plan                                                       (FRRI)
                                FY 2003                   FY 2004                          FY 2004            FY 2004            FY 2004            FY 2004
                                                                                             Q1                 Q2                 Q3                 Q4
 Goal                                  1                       2
                                                                     Program*                     10%                 10%               10%                 10%
 Actual                                1                       2
                                                                     Actual                     11.5%                12.1%            12.8%                13.9%
                                                                     *Program represents the percentage of a unit desired to be counted against the TTHS
                                                                     personnel account.

 Table 6. OPTEMPO Ground Mileage                                     Table 7. OPTEMPO Air*
                   FY 2002      FY 2003     FY 2004      FY 2004                               FY 2002              FY 2003       FY 2004           FY 2004
                                             Goal         Actual                                                                   Goal              Actual
 Mileage                 931         933         899        1,483    Hours                            13.1              15.5             14.5               17.4
                                                                     * Expressed in average ﬂight hours per crew.




General Fund – Management’s Discussion & Analysis — 12
conversions; will upgrade 5 Black Hawks to the                                                 actual execution (for training and combat actions)
UH-60M conﬁguration; and purchase 27 new UH-                                                   of mileage driven by our ground vehicles and
60Ls. Additionally, we will buy 4 new CH-47Fs;                                                 hours ﬂown by our aircraft. Our training strategy
convert 16 existing CH-47s into F and G models;                                                incorporates an appropriate mix of live, virtual, and
and procure 160 new, higher-power CH-47 engines.                                               constructive training. Table 6 and Table 7 display our
The Army will start a Lightweight Utility Helicopter                                           results for FY 2004.
program as well, under which we will acquire 10
new, off-the-shelf aircraft in FY 2005.                                                        In FY 2005, we will continue our commitment to
                                                                                               fully execute the Active and Reserve Components’
                                                                                               ground and air OPTEMPO training plans, which
                                                                                               include actual miles driven and hours ﬂown, as well
                                                                                               as virtual miles associated with the use of simulators.

                                                                                               Our OPTEMPO is high and will no doubt remain so.
                                                                                               Achieving our ﬁrst priority of ﬁghting and winning
                                                                                               the GWOT requires a host of radical paradigm shifts
                                                                                               in the way we view the face and nature of our global
                                                                                               operating environment, as well as in the way that we
                                                                                               conduct operations.


                                                                                               Institutional Risk
                                                                                               The Institutional Risk area focuses on the Army
Special Forces Soldiers and a Marine Corps contingent maintain security                        support structure, emphasizing in particular our
as a medical evacuation helicopter lands to evacuate wounded Coalition
personnel after a combat action south of Camp Blessing, Afghanistan. This                      facilities and infrastructure, and our ﬁnancial and
photo appeared on www.army.mil.
                                                                                               acquisition processes. Our priorities are to operate
Our Forces Are Ready                                                                           efﬁciently and to streamline those processes.
Our Army is adapting and changing dramatically
to ﬁght a sustained campaign against a new type of                                             Streamline Decision Processes, Improve Financial
                                                                                               Management
enemy. Our ﬁrst priority is clear: we will prosecute
                                                                                               The PMA consists of ﬁve Government-wide
and win the GWOT. This mindset is essential for the
                                                                                               initiatives to improve management and service
entire Army.
                                                                                               to our Nation’s taxpayers. The PMA is one of the
One of the ways we measure our success is by                                                   centerpieces of the Army’s performance management
executing our training strategy to the Operational                                             initiatives. We have set aggressive targets for the
Tempo (OPTEMPO) of our equipment. OPTEMPO                                                      Army in each area, consistent with our objectives
dollars are budgeted for training, yet we can report                                           of improving accuracy and ensuring that sound
                                                                                               management principles are in place across the
                                                                                               organization. Using a simple grading scale of red,
 Table 8. Performance Management Agenda Cascaded Army                                          yellow, and green, agencies are rated on their status
 Scores*                                                                                       in achieving the overall goals; the Army’s FY 2004
                                                FY 2004          FY 2004          FY 2004      results are reﬂected in Table 8.
                                                  Q1               Q2               Q3
 Strategic Management Of                            R                 R                G       The Army is committed to profound and far-reaching
 Human Capital
                                                                                               ﬁnancial management reform that will guarantee
 Competitive Sourcing                               R                 R                G
                                                                                               decisionmakers access to reliable, relevant, and
 Financial Management                               G                G                 G       timely ﬁnancial data with which to carefully and
 Budget And Performance                             G                G                 G       efﬁciently manage and account for taxpayer funds.
 Integration
                                                                                               To do this, the Army is leading the way in DoD
 E-Government                                       R                 R                R
                                                                                               efforts to replace antiquated and stand-alone,
 *Scores cascaded from OSD results. Fourth Quarter Army scores were not available at time of
 printing.
                                                                                               automated ﬁnancial management systems with a
 Legend: R=red; G=green.                                                                       robust ﬁnancial management infrastructure. The

                                                                                                                                                      13
Army is following the guidance established by the           primary vehicle for improving family housing
Business Financial Management Modernization                 is privatization, speciﬁcally the Residential
Program Ofﬁce, which manages the enterprise                 Communities Initiative. So far, over 40,000 homes
architecture that links systems and business                across multiple installations will have transitioned
processes in a comprehensive and integrated fashion.        to privatized operations. In FY 2005 and 2006, we
The Army’s CFO Strategic Plan outlines our path             will privatize an additional 71,000 homes on 34
to improving ﬁnancial management and correcting             installations. Our aggressive program to improve
material weaknesses in our ﬁnancial statements.             permanent-party, single-soldier housing has funded
                                                            the modernization of 75 percent (119,000 spaces)
We also have established the Army Audit Committee           of the requirement. In FY 2005, the Army has
to provide a forum to discuss and resolve a wide            programmed $700 million to continue this effort.
variety of Federal accounting and auditing issues.          Our next objective is to upgrade trainee barracks.
The committee is a major component of our efforts           Progress toward our goal is displayed in Table 9.
to meet the Defense Department’s goal of receiving
an unqualiﬁed audit opinion. We are making
progress toward this objective and, by year-end FY
2005, will be ready for an independent audit of the
entire ﬁnancial statement for Army Civil Works, as
well as the fund balance with Treasury for the Army
General Fund.

Improve Financial Management
The Army has numerous ongoing efforts that will
yield signiﬁcant progress toward quality ﬁnancial
management during FY 2004 and beyond. Two of
these initiatives are described below.


Improve The Readiness and Quality of Key Facilities
                                                            Senator Hillary Rodham Clinton (center) breaks ground for new privatized
Support Installations                                       family housing at Fort Hamilton, NY, along with (left to right) Sgt. 1st Class
                                                            James Gilliam and Dejamison Gilliam; Acting Assistant Secretary of the
Installations are essential to maintaining the premier      Army for Installations and Environment Geoffrey G. Prosch; and Mayor
                                                            Michael R. Bloomberg. To right of the senator is Mrs. James Gilliam and
Army in the world—they serve as our ﬂagships. Our           Jalaya Gilliam; Housing Development Corporation President Emily A.
                                                            Youssouf; and Maj. Gen. Galen Jackman, Military District of Washington
short-term planning strategies for installations center     commander.
on three essential tasks: (1) posturing installations
as deployment platforms with robust, reach-back             We are in the process of reversing the decay in
capabilities; (2) adjusting installation support to         Army housing, but much remains to be done. Our
meet the needs of an Army at war in the midst of            overall goal is to achieve C-2 quality (minimal
transformation; and (3) supporting the well-being of        impact on mission accomplishment) by 2010, with
all Soldiers and their families.                            speciﬁc facility types achieving C-1 ratings. The
                                                            estimated bill to attain C-2 status is $12.1 billion.
Care for Our Solders and Their Families                     In FY 2005, the Army has programmed $2.5 billion
The Army must support our warﬁghters and ensure             in sustainment, restoration and modernization
safe living and working conditions. Sustaining a            funding to stop deterioration and to improve our
good quality of life is crucial to recruiting, retention,
and readiness. Our commitment to improving single-           Table 9. Eliminate Inadequate Family Housing by 2007*
Soldier and family housing is an excellent example                                         FY 2002                   FY 2003                 FY 2004*
of these efforts.                                            Goal                            14,143                    13,756                    11,522
                                                             Actual                          14,082                    14,196                    11,373
The Army intends to eliminate inadequate family
                                                             *Represents inadequate housing units.
housing by FY 2007 and inadequate permanent-
                                                             **FY 2004 “Actual” includes funds for two programmed projects in Europe (208 units) that were
party, single-Soldier housing by FY 2008. The                not appropriated by Congress.




General Fund – Management’s Discussion & Analysis — 14
facilities; within those funds, sustainment dollars                                              revised goals by 156 percent. The Army is able to
will cover 95 percent of requirements. Reducing the                                              do that because it truly cares about equipping our
recapitalization rate of facilities also is an indication                                        Soldiers with what they need to survive and succeed
of improving quality. The FY 2005 recapitalization                                               against our terrorist enemies. More than $100 million
rate is estimated at 80 years (total Army), compared                                             has been programmed to continue RFI in FY 2005.
with 124 years for FY 2004. The Army’s goal is to                                                Additionally, the Army REF works directly with
achieve a 67-year recapitalization rate by FY 2008.                                              operational commanders to ﬁeld equipment solutions
In addition to recapitalization, the Army is disposing                                           at an accelerated rate through the acquisition process.
of excess property as directed by BRAC. See Table                                                Solutions to operational requirements may include
10 for FY 2004 results.                                                                          commercial off-the-shelf or near-term developmental
                                                                                                 items.
Realigning Support for the Warﬁghter
We have adapted and continue to improve our                                                      Another key performance metric used by the
acquisition and ﬁelding processes to better support                                              Army to gauge success in supporting the Soldier
the warﬁghter. In 2002, as Soldiers reported                                                     is Customer Wait Time (CWT). It measures the
equipment shortages in Afghanistan and elsewhere,                                                elapsed time from order to receipt of a material item,
the Army implemented the RFI to ensure that                                                      which may be obtained from assets on hand at the
all of our troops deploy with the latest available                                               customer’s military installation or naval vessel, or
individual equipment. Equipment ﬁelding schedules                                                through the wholesale logistics system. For purposes
were revised to support unit-rotation plans, and                                                 of this enterprise-level metric, CWT includes orders
procurement and ﬁelding cycles were radically                                                    for spare and repair parts requested by organizational
compressed, as presented in Table 11.                                                            maintenance activities. The FY 2005 goal is to
                                                                                                 reduce CWT to 16 days. Our current year results are
                                                                                                 in Table 12 below.


                                                                                                 Future Challenges Risk
                                                                                                 The future challenges risk area addresses the
                                                                                                 continual process of preparing for an uncertain
                                                                                                 future. Historically, the Army has evolved to
                                                                                                 meet the challenges posed by conventional and
                                                                                                 unconventional threats and the dynamic international
                                                                                                 landscape. Today, our efforts require a cultural
                                                                                                 metamorphosis that will forever inﬂuence the Army’s
                                                                                                 change process. The purpose is to make our Soldiers

Seen through a night-vision device, Sgt. Ray Villanueva takes part in a night                    Table 11. Rapid Fielding Initiative*
patrol in Tahrir, Iraq. This photo appeared on www.army.mil.
                                                                                                                         FY 2004           FY 2004           FY 2004            FY 2004
                                                                                                                           Q1                Q2                Q3                 Q4
The RFI is one of the many success stories in
                                                                                                 Planned Goal                  4,200            42,350           72,100           119,000
the Army. At the start of FY 2004, the planned
                                                                                                 Revised Goal                  4,290            42,350           96,600           151,160
goals were revised upward to support the soldiers
deploying to trouble spots. The Army exceeded the                                                Actual                        4,296            45,512          104,414           185,814
                                                                                                 *Measurement represents numbers of Soldiers.

 Table 10. Base Realignment and Closure*                                                         Table 12. Customer Wait Time*
                                                FY 2003                            FY 2004**                              FY 2002           FY 2003           FY 2004           FY 2004
                                                                                                                                                               Goal              Actual
 Goal                                           100,000                                  8,818
 Actual                                         100,833                                  4,971   Customer Wait                     16                21                 20                26
 *Represents acreage disposed of as required by previous BRAC legislation.                       Time (Days)
 ** Environmental restoration completion taking longer than originally planned which will move   *The OSD goal for 2004 was 16 days. The Army goal is higher due to the sheer volume of
 the actual transfer past September 30, 2004.                                                    material being moved into theater.




                                                                                                                                                                                            15
and our institutions more innovative, adaptive, and                                     teams also is planned. In February 2004, the 3rd
able to meet the challenges of a full-spectrum Joint                                    Infantry Division began reorganizing as a prototype;
and Expeditionary environment.                                                          it will transition from a three-brigade to a four-
                                                                                        brigade division. Through FY 2005, the Army will
In FY 2005, we will continue to develop                                                 restructure the 101st Airborne (Air Assault), the 10th
collaboratively these emerging joint concepts and                                       Mountain, the 4th Infantry and the 25th Infantry
architectures, and will nest our own concepts and                                       divisions in order to reach 39 brigades. By the end
architectures within them.                                                              of FY 2006, the Army will comprise 43 brigades. At
                                                                                        that point, we will decide whether to continue the
The Army Transformation Concept Development                                             process in FY 2007 to achieve a total of 48 brigades
and Experimentation Campaign Plan (AT-CDEP)                                             in the Active Component. Success will be measured
identiﬁes our efforts to support exploration of new                                     through the Unit Status Reports for these new units.
joint warfare concepts in concert with the Joint                                        Executing these redesigns on time is critical to
Forces Command Joint Experimentation Campaign                                           maintaining overall force readiness.
Plan. FY 2005 milestones for the AT-CDEP include
development of the Unit of Action Combined Arms                                         Deﬁne and Develop Transformational Capabilities
Training Strategy; Future Combat Systems (FCS)                                          Networking the Force. Key to the success of
Milestone B update and Capabilities Production                                          all future efforts within the Army is the ability to
Document; FCS Complementary System design; and                                          connect and to communicate securely at both the
Unit of Employment organization and pooled-assets                                       tactical and strategic levels.
design. The Army also will participate in joint and
sister service experimentation and demonstration                                        The Network Enterprise Technology Command
exercises, to include JFCOM’s Uniﬁed Quest.                                             (NETCOM) is implementing an enterprise concept
                                                                                        to improve the capacity, performance, and security
Develop More Effective Organizations                                                    of Army networks at every level. As part of this
The Army has begun the most signiﬁcant                                                  effort, in FY 2005 the Army will ﬁeld Commercially
restructuring of forces to occur in the last 50 years.                                  based Satellite Communications (SATCOM)
Our new force design will be “brigade-based.” Our                                       on the move to critical deploying units. This
goal is to increase the number of Active Component                                      satellite communications system maintains 24/7
brigade combat teams from 33 to 43 by FY 2006.                                          communications connectivity, supporting command
A corollary increase in National Guard brigade                                          and control requirements and eliminating gaps in

Figure 4. Joint Tactical Radio System

      Future Challenges Risk                                                Define and Develop Transformational Capabilities

                                                                                                       Key Points:
   Category                                   Wave Forms                   Cluster 1    Cluster 5      Probability of Success Scores – 77 for Wave
   Performance Characteristics                      G       24               Y     2      G     5      Forms, 86 for Cluster 1, 82 for Cluster 5
   Test and Evaluation                              G       24              GA    21      GA    3      Description: AFC 11 - Joint Tactical Radio
   Logistics Requirements                           GA                      GA     4      G     5      System (JTRS)
                                                                                                       The JTRS MAPR compares actual to planned
   Cost Performance                                 Y       14               Y            G     5      progress as expressed in the Acquisition Program
   Funding                                          R        2              YA            Y            Baseline and other documents.
   Schedule Performance                             GA      7                Y            Y     3      Parameter:
   Contracts                                        G        2               Y            Y     3      Green: >80%, Yellow: =>60% to 79%, Red: <60%
   Production                                       G       24              GA            G     5      Metric: Probability of Success metric is an index
   Management                                       GA      23              GA     2      G     5      of quantitative and external qualitative metrics:
                                                                                                       requirements, resources, execution, program fit,
   Interoperability                                 G       24               G    24      G     5      and program advocacy
                                                  POS 77                    POS 86       POS 82        Owner: ASA(ALT)
          Rating Worsened         Rating Improved
  * Numbers indicate the number of months the rating remained unchanged.                                                               As of September 20, 2004




General Fund – Management’s Discussion & Analysis — 16
information ﬂow. Additionally, we will continue                                          the world, our Soldiers continue to demonstrate
redesigning our signal force to match the Unit of                                        their superb military skills and their ﬁne personal
Action concept.                                                                          character. Time and again our land forces provide the
                                                                                         versatile and decisive action across the full spectrum
The Joint Tactical Radio System (JTRS) and the                                           of joint operations that enables the United States to
Warﬁghter Information Network–Tactical (WIN-                                             succeed.
T) are two key components of network-centric
warfare. During FY 2005, JTRS will remain in the                                         Our continuing responsibility is to give Soldiers the
system design and development phase; a Milestone                                         tools and training needed for the tough missions to
C decision is scheduled for FY 2006, and a multi-                                        which we assign them. There is much to do, and
service Operational Test and Evaluation in FY 2007.                                      resources are limited. We will use performance
Figure 4 shows the status of JTRS.                                                       management to help us make smarter decisions
                                                                                         and to monitor our progress. As we proceed, our
The WIN-T moved into the system design and                                               environment will change but our performance
development phase in July 2003. Using modeling                                           management processes will enable us to respond
and simulation, prototypes will be developed and                                         effectively.
tested in FY 2005 to support a Milestone C decision
in FY 2006, as displayed in Figure 5.                                                    We have achieved sustainable momentum in Army
                                                                                         Transformation, and institutionalizing performance
                                                                                         management will serve as a key tool for ﬁelding
Conclusion                                                                               the Future Force. After three and a half years of
An old Army television commercial used to say,                                           undiminished support from the Administration
“Freedom Isn’t Free.” No phrase has ever rung                                            and the Congress, and the incredible dedication
more true. For more than 229 years, America has                                          of Soldiers and Department of the Army civilians,
entrusted the Army with its sons and daughters.                                          we have begun to deliver The Army Vision.
Soldiers remain the centerpiece of our force, and we                                     With continued strong support, we will ﬁght as a
are bound by our honor and integrity to give them                                        joint team to win the GWOT. We will meet our
the best training, leadership and equipment that we                                      obligations to our friends and allies. We will remain
can provide.                                                                             ready to prevail over the unpredictable, and we will
                                                                                         transform ourselves for decisive victories on future
Whether in Afghanistan, Iraq or anywhere else in                                         battleﬁelds.

Figure 5. Warﬁghter Information Network –Tactical (WIN-T)

     Future Challenges Risk                                               Define and Develop Transformational Capabilities

    Category                                                                 Probability of Success
    Performance Characteristics                     G          10
                                                                                 Score: 88.0%
    Test and Evaluation                             G          10
    Logistics Requirements                          G          10         Description: AFC 18 - Warfighter Info Network Tactical (WIN-T)
    Cost Performance                                G          10         The WIN-T MAPR compares actual to planned progress for this developmental
                                                                          system.
    Funding                                         Y
    Schedule Performance                            G          10         Parameter:
                                                                          Green: >80%, Yellow: =>60% to 79%, Red: <60%
    Contracts                                       G          10
    Production                                      G          10         Metric: Probability of Success metric is an index of quantitative and external
                                                                          qualitative metrics: requirements, resources, execution, program fit, and program
    Management 2                                    G          10         advocacy
    Interoperability                                G          10
                                                                          Owner: ASA(ALT)

          Rating Worsened             Rating Improved

 * Numbers indicate the number of months the rating remained unchanged.




                                                                                                                                                              17
                                                           to $64.3 billion; however, that represents an increase
Analysis of Financial Statements                           of almost $4 billion or 6 percent. This increase is
Throughout FY 2004, the Army General Fund                  due primarily to completion of the Army inventory
continued to improve upon the myriad processes             for closed ranges in the environmental liabilities line
linked to producing auditable ﬁnancial statements in       item, resulting in an 82 percent increase from FY
compliance with the CFO Act of 1990.                       2003 to $5.8 billion.
The ﬁnancial statements were compiled in                   The third major component of the balance sheet
accordance with guidance issued by the OMB and             is net position. In aggregate, the various elements
supplementary guidance provided by DoD. The                of the net position section on the balance sheet are
DoD Ofﬁce of the Inspector General (IG DoD) was            also referred to as “equity.” Equity is the residual
unable to audit the Army General Fund ﬁnancial             interest in the assets of the entity that remains after
statements due to the lack of Army management              deducting its liabilities. For FY 2004, the General
system adherence to Federal ﬁnancial management            Fund net position amounted to $182.4 billion,
systems requirements and the lack of adequate              representing over a $34 billion, or 23 percent,
evidence supporting various material amounts on            increase from FY 2003.
the ﬁnancial statements. As a result, the IG DoD did
not express an opinion on the Army General Fund            Figure 6. Balance Sheet Results
Balance Sheet, Statement of Net Cost, Statement of
Changes in Net Position, Statement of Budgetary
Resources, Statement of Financing, and Statement of
Custodial Activity. In his letter to the Chief Financial
Ofﬁcer, the DoD Inspector General identiﬁed 13                             $182,446,305
internal control weaknesses. Army management has
initiated actions to correct these weaknesses through
the Army CFO Strategic Plan.                                                              $246,696,633

The ﬁnancial statements for the General Fund                            $64,250,328
are presented in a comparative format, providing
ﬁnancial information for FY 2003 and FY 2004.
                                                                                                            FY 2004
With that in mind, below are the ﬁnancial highlights
of each statement. These highlights focus on
signiﬁcant balances or conditions to help clarify the
General Fund’s operations. Additional explanatory
information may also be found in the notes that                          $148,306,360
accompany these statements.
                                                                                             $208,696,063

Balance Sheet
This statement presents the assets, liabilities, and
net position of the General Fund as of 30 September                      $60,389,703
2003 and 2004. As shown in Figure 6, the General
Fund assets amounted to $246.7 billion at FY 2004                                                           FY 2003
year-end—over an 18 percent increase from the
previous year. Of the total assets, 46 percent of the             $ in thousands                      Total Assets
dollar value resides in the general property, plant,                                               Total Liabilities
and equipment accounts. Relative to its total assets,                                           Total Net Position
the General Fund liabilities are quite low, amounting




General Fund – Management’s Discussion & Analysis — 18
Statement of Net Cost                                     The second section, Resources Used to Finance
                                                          Items not Part of the Net Costs of Operations,
This statement presents the annual cost of operating
                                                          identiﬁes and adjusts budgetary transactions
the various General Fund mission operations. To           recorded by the General Fund for changes in the
the extent an Army entity generates revenues, these       amount of goods, services, and beneﬁts ordered but
amounts offset gross costs to arrive at the net cost of   not received; the costs capitalized on the balance
operations. For FY 2004, program costs amounted           sheet; and ﬁnancing sources that fund costs of prior
to $35.5 billion, representing an 18 percent increase     periods. For FY 2004, the fund had a negative $21.1
from the previous year. Additionally, program             billion in adjustments.
revenues increased 15 percent from FY 2003,
climbing to $1.1 billion. Overall for FY 2004, the        The ﬁrst two sections are netted together to yield
General Fund achieved a 26.4 percent increase in the      the total resources used to ﬁnance the net cost of
net cost of operations, increasing net costs to $135.8    operations. For FY 2004, total resources used to
billion—a $28 billion increase from the previous          ﬁnance net costs increased 45.8 percent over the
year.                                                     previous year and amounted to approximately
                                                          $121 billion. The largest factor in this increase is
                                                          attributable to the elimination of the North Atlantic
Statement of Changes in Net Position                      Treaty Organization Security Investment Program
This statement presents those accounting items            liability, which is now being reported by the Defense
that caused the net position section of the balance       Agencies.
sheet to change from the beginning to the end of the
reporting period. The General Fund saw an increase        Finally, the third section, Components of the
of $8.6 billion, or nearly 9 percent, in the cumulative   Net Cost of Operations that will not Require or
result of operations. The Net Position at year-end        Generate Resources in the Current Period, is used
was $182.4 billion, a 23 percent increase from the        to adjust the total resources used to ﬁnance the
previous year.                                            net cost of operations (the net amount of the ﬁrst
                                                          and second sections) in order to determine the net
                                                          cost of operations. Thus, sections one and two are
Statement of Budgetary Resources                          reconciled with section three to yield a net cost of
This statement provides information on the General        operations of $135.8 billion. This amount ties back
Fund’s budgetary ﬁnancing accounts and the status         to the Statement of Net Cost.
or remaining balances of those accounts at year-
end. This includes information on obligation and
outlays or actual cash disbursements for the year.        Statement of Custodial Activity
In FY 2004, the General Fund had appropriations           FY 2004 was the second presentation of the
totaling $149.6 billion, including $53.4 billion in       Statement of Custodial Activity. The statement
supplemental funds.                                       represents the assets the U.S. Government seized
                                                          from the Iraqi government during Operation
                                                          Iraqi Freedom that will be used in support of the
Statement of Finance                                      Iraqi people. The total disposition of collections
This is a reconciling statement that tracks the           decreased over 85 percent, or $691 million, due to
relationship between the proprietary accounts and         disbursements on behalf of the Iraqi people.
the budgetary accounts of the General Fund. The
Statement of Financing provides data on the total
resources provided to the General Fund during the
ﬁscal year and how those resources were used.

The ﬁrst section of the statement, Resources Used
to Finance Activities, shows a total of nearly $142
billion. This is the amount for which the General
Fund may have a future liability that would
eventually require cash payments.


                                                                                                                 19
                                                              and transport the large amount of supplies and
Management Integrity                                          equipment deployed to support signiﬁcant Theater
The Army’s approach to assuring management                    operations such as Operation Iraqi Freedom. Army
control and integrity is anchored in the fundamental          policies have reduced stock levels and numbers
philosophy that all commanders and managers have              of items carried on prescribed load listings and
an inherent management control responsibility.                authorized stockage lists. The result is a lean supply
The Headquarters Department of the Army (the                  chain without the beneﬁt of either an improved
Integrating Subsystem) functional proponents are              distribution system or an enhanced information
responsible for establishing sound management                 system.
controls in their policy directives and for exercising
oversight to ensure compliance with these policies.           A United States Government Accountability Ofﬁce
Commanders and managers throughout the Army                   (GAO) letter dated December 18, 2003, Subject:
are responsible for establishing and maintaining the          Defense Logistics Observations on the Effectiveness
control and integrity of their operations.                    of Logistics Activities During Operation Iraqi
                                                              Freedom documented the fact that logistics asset
In the 21 reporting years since the inception of              visibility, in conjunction with Theater distribution
the Army’s management control process, Army                   and integrated supply chain, is a material weakness.
commanders and managers have reported 1,371                   In addition, these weaknesses were identiﬁed in
material weaknesses to the Secretary. These were              after-action reviews with commanders and Soldiers
the weaknesses remaining after a ﬁltering and                 at deployed sites and supporting personnel involved
value-added reporting process from line managers              in the day-to-day support of deployed forces.
up through each higher echelon of management.                 Forums included the Ofﬁce of the Deputy Chief of
After aggregating similar problems and weeding out            Staff (ODCS) G-4 Class IX Supply Policy Summit
lesser issues, the Army reported 231 new material             General Ofﬁcer Steering Committee August 4,
weaknesses to DoD. Only 12 of these remain open.              2003, and the Combined Arms Support Command
The following is the status of the material weakness:         (CASCOM) OIF Distribution review March 10-12,
                                                              2004.
     Open material weaknesses as of
     September 30, 2003                                  13   Radio Frequency Identiﬁcation (RFID) that tracks
     Plus: New material weaknesses                            assets shipped to and within Theater is now fully
     identiﬁed in FY 2004                                1    supported within DoD and is being expanded and
                                                              integrated into the Joint Distribution Systems of
     Less: Material weaknesses corrected                      Record. The use of RFID is being instituted in
     in FY 2004                                          2    resident training within Army logistics schoolhouses
     Open material weaknesses as of                           but still not used in a uniform and consistent manner
     September 30, 2004                                  12   at the tactical level. The Army has taken measures
                                                              to improve tactical communications, but many
                                                              small units do not have continuous assured access
Weakness Identiﬁed During FY 2004
                                                              to use DoD logistics and asset visibility systems.
The Army identiﬁed one new management control                 DoD distribution systems are now linked to the
weakness during FY 2004. The following section                RFID In-Transit Visibility servers and are capable of
provides a brief description of the weakness and the          exchanging data to maintain inside the box content
target date for correction.                                   level visibility of shipments. Training has improved
Logistics Asset Visibility and Accountability                 for DoD and service personnel on the use of RFID
The Army does not have adequate visibility over all           tags and other tracking tools, but is not fully
requisitions, equipment, and supplies transported to,         instituted in doctrinal publications for effective asset
from, and within Theaters of operation, nor across            visibility.
the Army. The supply chain does not effectively
                                                              For an extended period of time during Operation
support asset visibility and distribution capability in
                                                              Iraqi Freedom, a discrepancy of $1.2 billion worth of
Theaters of operation, nor can it effectively manage


General Fund – Management’s Discussion & Analysis — 20
supplies existed between what was shipped to Army         Automated Mobilization System
activities in Theater, and what was acknowledged          This weakness, while open for 16 years, has
as received by those activities. The discrepancy is       faced major challenges during that time, such as
reduced to $375 million. Since this issue surfaced,       restructuring systems, changes in technology, and
Army has taken action to implement the Automated          size of mobilization deployments. The ﬁelding
Manifest System for throughput and cross-docking          of the Reserve Component Automation System
management at Theater distribution centers and            provides the Army Reserve Component mobilization
provided the Standard Army Retail Supply System           planning, notiﬁcation, and preparation needs through
with an automated transportation receipt capability       timely and accurate data.
using RFID. Cannibalization of vehicles in Theater
and potential reduction in equipment readiness            Army mobilization exercises in 1976, 1978, and
resulting from unavailability of parts that were either   1980 highlighted that the capability did not exist
not in the DoD inventory, or which could not be           within the Reserve Component (RC) structure (Army
                                                          National Guard and Army Reserve) for maintaining
located because of inadequate asset visibility, has
                                                          mobilization essential data, and the ability to respond
been reduced. Some shipments were “pushed” into
                                                          rapidly to mobilization requirements was lacking.
Theater by Program Managers/Integrated Materiel
                                                          Managers at mobilization stations and transportation
Management Center, unsolicited by the Command.
                                                          agencies did not have access to timely and accurate
Shipments consigned to activities in Theater were         information necessary for the mobilization
diverted to an alternate activity.                        decisionmaking process. These mobilization
                                                          needs were to be originally satisﬁed through
Distribution of supplies to go forward in Theater         the Continental Army Management Information
is restricted because adequate transportation             System (CAMIS) initiated in 1979. In August 1986,
assets, such as cargo trucks and material handling        the Army restructured this effort as the Reserve
equipment, are not available early on during Theater      Component Automation System (RCAS) and in
operations, when distribution is most critical to         February 1988, the RCAS Project was assigned
success. Distribution of supplies is delayed because      to the Chief, National Guard Bureau (CNGB).
cargo arriving in shipping containers and pallets         In FY 1995, the RCAS Project was restructured
must be separated and repackaged several times            to constrain cost growth, establish a realistic
for delivery to multiple units in different locations.    requirements baseline, and leverage new information
DoD’s lack of an effective process for prioritizing       management technology. The approved Mission
cargo for delivery precludes effective use of scarce      Need Statement (April 1996), Critical Operational
Theater transportation assets. Adequate numbers           Issues and Criteria (COIC) Document (April 1996),
of Army and Marine logistics personnel do not             and Operational Concept Description (OCD) (April
deploy to the Theater until after combat troops arrive    1996) tasked the Project to satisfy the Army RC’s
and sometimes not until after operations are well         mobilization planning, notiﬁcation, and preparation
under way. In addition, some logistics personnel          needs (phases 1-3 of the Army’s Mobilization
are not trained on numerous logistics systems,            Process). Mobilization phases 4 and 5 (validation
such as operating material handling equipment and         and deployment) were not within the scope of the
managing Theater distribution centers.                    restructured Project’s charter. RCAS will satisfy
                                                          the automation requirements of the RC for day-
The target date for correction of this weakness is the
                                                          to-day operations and will signiﬁcantly enhance
4th Quarter, FY 2008.
                                                          their mobilization preparedness and mobilization
                                                          execution capability. It provides timely and accurate
Weaknesses Corrected During FY 2004                       data that can be accessed at the various echelons to
The Army corrected two management control                 support commanders, staffs, and functional managers
weaknesses during FY 2004. The following section          in the mobilization planning and administration of
provides a brief description of said weaknesses.          RC forces. This material weakness was corrected
                                                          in 4th Quarter, FY 2004, after U.S. Army Audit
                                                          Agency (USAAA) validated the effectiveness of our
                                                          corrective actions.

                                                                                                               21
Army Purchase Card Program                               Reserve Component Mobilization Accountability
GAO identiﬁed a lack of adherence by ﬁeld activities     Lack of synchronization exists among automated
to established purchase card internal controls.          management tools available to ensure Reserve
Although no substantial instances of fraud, waste, or    Component (RC) mobilization accountability.
abuse were identiﬁed, an environment existed that        Interagency accountability must provide better
could have easily fostered fraud. As a result, GAO       integrated management controls for tracking
has expanded the audit to include a review of the        RC personnel in the “mobilization pipeline.” Of
Army and other DoD components.                           particular concern is the tracking of RC personnel
                                                         from home station to mobilization station to duty
The Army has positively addressed every GAO              station, through deployment, redeployment, and
ﬁnding regarding the Army Purchase Card Program.         demobilization or release from active duty. This
To correct this problem, the Ofﬁce of the Assistant      challenge is further complicated for personnel in
Secretary of the Army (Acquisition, Logistics and        a medical hold status remaining on active duty
Technology) has aggressively sought to establish         on an original HQDA mobilization order after
positive controls in areas of weaknesses found. This     demobilization of the parent unit.
material weakness was corrected in 2nd Quarter, FY
2004, after USAAA validated the effectiveness of         Additionally, the use of Derivative Unit Identiﬁed
our corrective actions.                                  Codes (DUIC) has exacerbated force tracking.
                                                         Limitations imposed by dual military pay systems
                                                         (Defense Joint Military Pay System—Active
Previously Reported Weaknesses                           Component (DJMS-AC) and Defense Joint Military
The Army reported ﬁve weaknesses last year that          Pay System—Reserve Component (DJMS-RC)) also
it had expected to close during FY 2004. Various         impairs accountability of mobilized personnel.
circumstances prevented this from happening. The
following sections provide a brief description of each   The current target date to correct this weakness is
weakness and the revised target date for correction.     4th Quarter, FY 2006.

Financial Reporting of Real Property                     Contract Administration of Service Contracts
The Army’s real property database does not allow for     The USAAA identiﬁed a signiﬁcant weakness in
depreciation, and subsequent entries in dollar values    administering service contracts. Service contracts
override previous dollar values with no audit trail of   represent an ever-increasing percentage of the
transactions.                                            overall contract dollars and now have surpassed
                                                         the dollars awarded under major weapon systems
The attempted solution of the Defense Property           programs.
Accountability System (DPAS) interface with
Integrated Facilities System (IFS) did not work          Signiﬁcant audit ﬁndings include ineffective
for Real Property ﬁnancial statement reporting. In       planning for quality assurance requirements.
addition, data mismatches and negative numbers           Although contracting ofﬁcers generally appointed
from IFS were not allowed in DPAS, which resulted        quality assurance personnel for contracts, they
in dollar values being overridden and audit trails       often did not adequately train the quality assurance
being lost. The decision was made to discontinue         personnel about their responsibilities and limitations
the DPAS interface and to modify IFS to calculate        of authority. They also did not make sure evaluators
depreciation and run ﬁnancial reports directly from      were versed in proper quality assurance procedures
each site. In October 2002, the Army requested a         and that the quality assurance evaluators understood
waiver from OSD to modify IFS to process and             speciﬁc contract requirements.
capture ﬁnancial statement information. OSD
approval was received in May 2003 for making IFS         In addition, there was a lack of surveillance plans
modiﬁcations. The current target date for correction     overall, resulting in the lack of a systematic
of this weakness is 2nd Quarter, FY 2005, with the       inspection system and ineffective documentation
release of IFS Skip 16, and USAAA validation.            of contract performance. Proper quality assurance



General Fund – Management’s Discussion & Analysis — 22
procedures require surveillance plans that serve as       of countermeasures; Information Systems Security
roadmaps for monitoring contractor performance.           education, training, awareness; and professional
This is a key element of establishing strong internal     development.
controls that ensure the Army receives value for its
service contracting dollar. Due in part to the lack       The decisiveness, effectiveness, and potential
of documentation, procedures for validating and           safety of the warﬁghter in attaining national
approving contractor invoices sometimes were not          security objectives is at risk because sustaining base
adequate. In addition, responsibilities and processes     information systems and networks have proven to be
for approving invoices were not properly deﬁned.          highly vulnerable to malicious attack. Not only is the
                                                          information processed and transmitted throughout
Several Major Army Commands (MACOMs)                      the Army’s systems vulnerable to compromise and
have actions ongoing to improve various aspects           exploitation by hostile forces, but also control of
of contract administration. These actions are steps       the information systems and networks themselves
in the right direction but an overall strategy for        could easily be lost to hostile forces during a national
administering service contracts is needed. The            crisis.
current target date to correct this weakness is 3rd
Quarter, FY 2005, after the USAAA has validated           To correct these weaknesses, Army leadership has,
the effectiveness of our corrective actions.              in the Command and Control (C2) Protect Program
                                                          Management Plan, outlined the measures that Army
Financial Reporting of General Equipment                  leadership will undertake to ensure the Army’s
The Army does not currently meet Federal                  portion of the Defense Information Infrastructure
Accounting Standards for the ﬁnancial reporting of        is adequately protected. The C2 Protect Program
General Equipment. This Standard requires Federal         Management Plan is designed to manage and control
agencies to present fairly the cost and depreciation of   the growth of C2 Protect initiatives, is in consonance
these assets in their ﬁnancial statements.                with the Army Enterprise Strategy, and supports the
                                                          Defense Information Warfare efforts. It had been
To meet the requirements of this Standard, the Army       developed to address the identiﬁed weaknesses, and
ﬁelded DPAS, a CFO Act-compliant system for               had been formally signed by the Ofﬁce of the Deputy
reporting Real Property and General Equipment.            Chief of Staff, (ODCS), G-3, the Chief Information
DPAS replaced noncompliant systems to bring the           Ofﬁcer (CIO)/G-6, and the ODCS, G-2. The current
Army into compliance with Federal Accounting              target date for correcting this weakness is 2nd
Standards. Failure to meet this standard for ﬁnancial     Quarter, FY 2005, after the USAAA has validated
reporting does not mean the Army lacks property           the effectiveness of our corrective actions.
accountability. However, the Army’s inability
to identify an item’s acquisition date and cost
prevents the computation of depreciation and the
determination of value for ﬁnancial reporting. The
current target date to correct this weakness is 1st
Quarter, FY 2006, after the USAAA has validated
the effectiveness of our corrective actions.

Information Systems Security
There is widespread recognition that the Army’s
unclassiﬁed automated information systems and
telecommunications networks have been attacked
and successfully penetrated by unauthorized
personnel. These intrusions have led to the
identiﬁcation of systemic deﬁciencies in systems
and network security design and implementation;
incident response, containment, and implementation



                                                                                                                23
                                                          to function across the full spectrum of military
Future Effects of Existing Conditions                     operations.
Force Management Risk
                                                          Identiﬁed as the Objective Force, this new force will
Critical to Transformation is the need to determine
                                                          ﬁght in a noncontiguous manner and will be capable
the mix of civilian, military, and contractor
                                                          of rapid deployment in a crisis either to ﬁght or
personnel that will best assure the Army’s success.
                                                          ideally to deter conﬂict. It will have the capability of
This determination must include an assessment
                                                          being projected anywhere in the world—not just to
of core competencies across the full spectrum of
                                                          easily accessible areas with multiple air and seaports,
military operations. As the Army seeks to increase
                                                          but also to remote, landlocked, and infrastructure-
its “tooth–to-tail” ratio, it must carefully weigh
                                                          poor areas. The importance of this capability was
the important roles played by combat support
                                                          demonstrated in Afghanistan, where the rapid
and combat service support personnel. There is a
                                                          engagement of U.S. forces contrasted dramatically
temptation to reduce the number of personnel that
                                                          with the long build-up that preceded Desert Storm.
perform these roles in order to convert their positions
                                                          Failure at this point to develop this capability to
to combat roles, but there are some essential support
                                                          project sustainable combat power anywhere in
positions that must be retained and ﬁlled by military
                                                          the world—that is, failure to realize the Objective
personnel. Logistical support to the troops in combat
                                                          Force—could leave America’s worldwide interests
in particular must not be compromised.
                                                          vulnerable to attack.
While many support tasks can be outsourced, the
Army must ensure that it can meet the demands of          Institutional Risk
“the last logistical mile.” In many instances, it would   The Army must make the best use of its resources
not be appropriate to rely on contractors or civilian     in its day-to-day operations. This requires that
employees to perform these tasks. The Army must           it transform its business practices to improve its
therefore balance the economic gains of outsourcing       ﬁnancial management and that it streamline its
against the need to ensure that the military force        infrastructure.
structure can deliver the necessary logistics on the
battleﬁeld. Selecting the right structure for a force     Business practices have in the last decade changed
of nearly 500,000 is a complex task involving many        fundamentally, leading to signiﬁcantly greater
tradeoffs. The challenge facing the Army is to            productivity, lower costs, and higher-quality outputs.
determine precisely the core competencies it requires     The Army has not kept pace. To free up resources
to sustain combat operations and to ensure that it        that can be applied to the ﬁelding of the Objective
retains the right mix of combat and support troops.       Force, we must transform how we do business.
                                                          Many functional activities need to be examined and
Operational Risk                                          improved, streamlined, or eliminated. This requires
                                                          imagination and innovation.
The Army’s current force is very similar to that of
the Army that 13 years ago fought so decisively in        It is essential to the effort to reduce costs and
Desert Storm. In the intervening years the nature         increase productivity that Army leaders and
of the threat facing America has evolved. The force       managers be supplied with reliable information. The
that deployed in the ﬁrst Gulf War was developed          Army’s inability thus far to achieve an unqualiﬁed
under a strategy that envisioned a scenario of two        audit opinion on its ﬁnancial statements indicates
simultaneous major regional conﬂicts. Instead, the        that the information that our leaders are given is
2001 terrorist attacks on America introduced an           not reliable, with the result that Army resources
enemy that would employ asymmetrical warfare to           are not being used to their best effect. The Army
avoid our strengths and attack our vulnerabilities.       estimates that 80 percent of the data found in its
It is difﬁcult to assess exactly what form future         ﬁnancial systems comes from functional area
threats will take. As a consequence, the Army has         systems such as logistics, personnel, acquisition, and
moved away from a threat-based force and is intent        other systems. Realizing the capability to deliver
on building a capabilities-based force equipped


General Fund – Management’s Discussion & Analysis — 24
reliable information will require the integration of      Strategic Management of Human Capital
these functional management systems with ﬁnancial         A key element of successful personnel management
management systems. Until this is done, the Army          is providing people with information and trusting
will continue to be at risk of suboptimizing its use of   them to use it to the beneﬁt of the organization
resources.                                                as a whole. The Army is taking steps to empower
                                                          its Soldiers and civilian employees with greater
Advancing the President’s Management                      knowledge.
Agenda
                                                              The Army is integrating civilian workforce
The PMA provides a route to greater efﬁciency and
                                                              issues into Joint, DoD, and Army strategic
the means whereby the Army can identify the actions
                                                              planning efforts. In addition, the Army is
it must take to improve management performance
                                                              participating in Total Army Analysis in support
at all levels. In the same way that the Army is
                                                              of Army planning efforts to forecast and achieve
reinventing itself as a modular force, it is changing
                                                              the Civilian Future Force based on future
the way that it conducts the business of supporting
that force.                                                   missions. We are developing a CHR strategic
                                                              plan fully cascaded with the OASA (M& RA)/
The PMA contains ﬁve Government-wide goals                    Army G1 and OSD strategic plans. Furthermore,
designed to improve Federal management and to                 the Army is synchronizing revisions to the
deliver results that matter to the American people.           strategic plan with budget and legislative cycles.
They reﬂect the Administration’s commitment to                During FY 2004, the Army conducted a series of
achieve immediate, concrete, and measurable results.          Town Hall meetings and Focus Group sessions
The ﬁve goals, which are being pursued in advance             to obtain input for consideration in the National
of, not instead of, other necessary management                Security Personnel System (NSPS) design
improvements, are mutually reinforcing. For                   process. As key members of the NSPS Design
example:                                                      Work Groups, the Army developed an NSPS
                                                              Change Management Strategy that includes
    Workforce planning and restructuring                      methods for assuring that managers have the
    undertaken as part of the Strategic Management            skills necessary for the desired performance.
    of Human Capital will be deﬁned in terms of
    each agency’s mission, goals, and objectives—a            The Army served as the Executive Agent for the
    key element of Budget and Performance                     Coalition Provisional Authority, a DoD initiative
    Integration.                                              in support of the GWOT.
    Agency restructuring is expected to incorporate           We responded to the emerging business need for
    organizational and stafﬁng changes resulting              providing expert recruitment services, obtaining
    from competitive sourcing and Expanded E-                 required exceptions, and developing and
    Government.                                               implementing business processes.
Efforts toward Budget and Performance Integration             The Army provided operations and advisory
will reﬂect improved program performance and                  assistance to CPA ofﬁcials in identifying
savings achieved from Competitive Sourcing and                manpower requirements, making selections, and
will beneﬁt from the ﬁnancial and cost-accounting             conducting assessments.
and information systems that are part of the effort to        We established a link to the Support Our Friends
realize improved ﬁnancial management.                         in Iraq and Afghanistan (SOFIA) website on the
                                                              Civilian Personnel On Line web page.
A description of how the Army is undertaking each
of the ﬁve Government-wide goals is contained in              The Army collaborated with OPM to feature the
the following sections.                                       SOFIA link prominently on their employment
                                                              page.
                                                              Senior Executive Service (SES) performance



                                                                                                              25
     standards are being tailored to reﬂect the Army’s     During FY 2004, the Army built upon a number of
     mission, goals, and outcomes. Success is deﬁned       initiatives began in FY 2003 that will enable the
     as personal accomplishment supporting desired         Army to make better use of its funds. The Army
     agency outcomes. A recent review by Army              is also pursuing other long-term initiatives aimed
     Commands with SES personnel management                at putting more useful and more reliable ﬁnancial
     responsbilities found more than 80 percent of         information in the hands of managers, with the
     their SES personnel’s performance plans were          aim of enabling them to make more efﬁcient use of
     linked to agency mission and goals. From that, the    resources.
     Army has extrapolated that at least that percentage
     of compliance exists at management levels
     subordinate to those SES members. Periodic            CFO Strategic Plan
     monitoring of SES personnel performance plan          Army leaders, as they work to comply with myriad
     linkage to mission, goals, and outcomes will be       ﬁnancial management mandates, must do so within
     conducted by the Civilian Personnel Evaluation        the context of the Army vision. To successfully
     Agency during scheduled human resource                achieve this vision, the Army must have sufﬁcient
     management functional reviews. During FY              resources with which to take care of its Soldiers,
     2004, Army representatives also participated in       ensure near-term readiness, and transform itself
     NSPS workgroups on Performance Management.            for the 21st century. The CFO Strategic Plan was
     A major focus of the group was recommending           developed in recognition of the fact that high-quality
     performance design features in NSPS that will         ﬁnancial information is one of the foundations upon
     further tie accomplishments to agency mission.        which the Army’s vision will be built. The CFO
                                                           Strategic Plan is an
Competitive Sourcing                                       Army-wide management
                                                           plan designed to
Many of the tasks performed by Government
                                                           synchronize efforts
employees can be contracted out to the commercial
                                                           across the Army’s
marketplace, often at savings in a range of 20 to 50
                                                           functional areas to
percent. The Army continues to lead DoD in seeking
                                                           integrate processes and
savings by outsourcing non-core functions. Successful
                                                           systems while improving
outsourcing will also contribute to the efforts to fully
                                                           upon the quality of
man combat units while preserving the institutional        management information.
Army.
                                                           The plan involves 14 cross-functional Army
     The Army has 1,461 Army Corps of Engineers
                                                           organizational elements, as well as the Defense
     (USACE) Information Technology (IT) positions         Finance and Accounting Service (DFAS), the OSD
     and 55 Public Works positions announced               (Comptroller), and the IG DoD. Using a ﬁve-year
     for competition in FY 2004 under the revised          planning horizon, the CFO Strategic Plan identiﬁes
     OMB Circular A-76. The USACE began                    the steps each organizational element must take
     the IT competition in June 2004 with public           to integrate fully all ﬁnancial and nonﬁnancial
     announcement in the FedbizOpps.gov. This is           processes and systems that impact Army resources.
     the ﬁrst OSD competition under the revised            The Army’s ability to produce high-quality ﬁnancial
     29 May 2003 OMB Cir A-76. Forthcoming                 information for reporting will provide the public with
     is the Fort McCoy Directorate of Information          greater conﬁdence that the Army has accountability
     Management competition of 57 positions. The           over its resources. Achieving greater accountability
     Army is currently coordinating a memorandum           requires that all assets and liabilities, revenues
     with the Army Staff directing major commands          and expenses, and the full costs of programs and
     and ﬁeld operating agencies to submit their plans     activities be consistently, completely, and accurately
     for conducting public-private competitions for        recorded, monitored, and reported.
     FY 2005 through FY 2008 on 43,661 remaining
     positions from Program Budget Decision No. 729.       The Army will use the latest technology to develop
                                                           ﬂexible, streamlined procedures and processes
Improved Financial Performance

General Fund – Management’s Discussion & Analysis — 26
that will provide the type of information that           Exhibit 300 reports in September to the OMB for the
will enable sound decisionmaking. The ﬁnancial           FY 2006 Budget Estimate Submission.
management and functional communities are
identifying unnecessary systems that may be
eliminated and those essential systems that must         Budget and Performance Integration
be retained and brought into compliance with             Improvements in the management of human capital,
all statutory, regulatory, and audit requirements.       competitive sourcing, and ﬁnancial performance, and
The DoD Business Management Modernization                expanding electronic government will matter little if
Program (BMMP) is also working with the Army             they are not linked to better results. Everyone agrees
to identify these systems, to map processes, and to      that scarce federal resources should be allocated to
determine an optimal architecture for the future.        programs and managers that deliver results. Budget
The CFO Strategic Plan will in this way assist in        Performance Integration supports the principles
the coordination and execution of Army efforts in        of transparency, accountability, efﬁciency and
support of BMMP initiatives.                             effectiveness in government. Current cost documents
                                                         already contain some performance information, but
By effectively integrating the ﬁnancial processes and    the Army will increase the quantity of performance
systems with the many other functional processes         measures and use the same measures to link all
and systems that affect a commander’s resources,         documents. Future documents will provide evidence
we can provide our commanders with relevant and
                                                         of results achieved for funds invested. Ultimately
reliable information on the availability of funds.
                                                         this process will hold managers accountable
With this information, commanders will be better
                                                         for expenditures. To that end, the PMA directed
positioned to accurately assess their ability to train
                                                         government agencies to associate performance
and maintain their forces and will be better able to
                                                         measures with their budgets. The Army has seen the
articulate to the chain of command the ﬁnancial costs
                                                         value of developing budget performance measures
and beneﬁts associated with the options available to
                                                         and using them to assist the leadership with difﬁcult
them.
                                                         resourcing decisions. The Army recently approved
                                                         performance measures for 80 percent of its FY06
Expanded Electronic Government                           President’s Budget submission and is in the
The PMA asserts that the Government can leverage         process of reviewing and reﬁning measures for the
electronic technoloigies both to reduce costs and        remaining resources. The Army plans to continue
provide better service. The Army accordingly is          it development of Budget Performance Integration
pursuing a number of electronic initiatives aimed at     measures and their use in execution and program
providing better service to its Soldiers and civilian    review. These measures can be mapped via the
employees.                                               Resource Framework to the objectives in the DoD
                                                         Balanced Scorecard.
Major Army IT investments are reviewed for cost,
schedule, and performance goals of less than 10          The Army’s measures in the ADR are linked to the
percent based on a variety of analyses, including:       DoD Balanced Scorecard and the QDR. During the
CIO Assessments, Approved Acquisition Program            Fourth Quarter the Army has made a concentrated
Baselines, Approved Acquisition Decision                 effort to reﬁne its ADR measures, clarify veriﬁcation
Memorandum, and Monthly Major Acquisition                and validation sheets speciﬁed by OMB Circular
Program Reviews. In addition, the Army submitted         A-11, and populate the measures with data. The
43 Exhibit 300 reports to the OMB as part of the         Army PMC briefs the Army Executive Council
FY 2005 President’s Budget (PB05), which include         quarterly on the progress of the measures in the
reporting on cost, schedule, and performance goals.
                                                         ADR. As of the latest brieﬁng, the Army had
As of the PB05 submission, all major IT investments
                                                         validated 68 measures and populated 58 of 76
have cost and schedule overruns that average less
                                                         measures in the ADR. Eight new measures remain
than 10 percent and performance shortfalls that
                                                         under development. The Army will report the same
average less than 10 percent. The Army continues to
                                                         measures in the annual Performance Accountability
monitor the cost, schedule, and performance goals
                                                         Report, the annual Financial Statement, and
for major IT investments and will submit updated


                                                                                                             27
quarterly ﬁnancial brieﬁngs to OSD. The Army is                                   with The Army Plan and the Army Balanced
working to improve linkage of the ADR measures                                    Scorecard.


                                                    Learn More About America’s Army
                                                                 http://www.army.mil




General Fund Introduction Page Photos

[Large Photo]
A Soldier uses binoculars to look for enemy activity while providing security at a checkpoint in Ba’qubah, Iraq, while helping to
restore stability to the city following an outbreak of violence. This photo appeared on www.army.mil. By Staff Sgt. Klaus Baesu

[Top Inset Photo]
Soldiers from the Army’s 166th Infantry, 2nd Battalion, Charlie Company, conduct a dismounted patrol in Guantanamo Bay, Cuba.
DoD photo by Chief Petty Ofﬁcer John F. Williams, U.S. Navy.

[Middle Inset Photo]
A Soldier of the 101st Airborne Division’s 159th Aviation Brigade guides a UH-60 Black Hawk helicopter ambulance to a landing
during a medical evacuation training mission near Mosul, Iraq. U.S. Army photo by Spc. Kieran Moore.

[Botton Inset Photo]
An infantryman scans the Caribbean Sea while conducting a dismounted patrol of the Camp Delta perimeter in Guantanamo Bay,
Cuba. The Soldier is assigned to Company C, 1st Battalion, 181st Infantry Regiment, 29th Infantry Division, Massachusetts Army
National Guard. Photo courtesy of the Department of Defense.




General Fund – Management’s Discussion & Analysis — 28
General Fund Principal Financial
Statements, Notes, and Supplementary
Information




                                       29
                            Limitations
                            Limitations of the Financial Statements
                            The ﬁnancial statements have been prepared to report the ﬁnancial
                            position and results of operations for the entity, pursuant to the
                            requirements of Title 31, United States Code, section 3515(b).

                            While the statements have been prepared from the books and
                            records of the entity, in accordance with the formats prescribed
                            by the Ofﬁce of Management and Budget, the statements are
                            in addition to the ﬁnancial reports used to monitor and control
                            budgetary resources which are prepared from the same books and
                            records.

                            To the extent possible, the ﬁnancial statements have been prepared
                            in accordance with federal accounting standards. At times, the
                            Department is unable to implement all elements of the standards
                            due to ﬁnancial management systems limitations. The Department
                            continues to implement system improvements to address these
                            limitations. There are other instances when the Department’s
                            application of the accounting standards is different from the
                            auditor’s application of the standards. In those situations, the
                            Department has reviewed the intent of the standard and applied it in
                            a manner that management believes fulﬁlls that intent.

                            The statements should be read with the realization that they are for
                            a component of the United States Government, a sovereign entity.
                            One implication of this is that the liabilities cannot be liquidated
                            without legislation that provides resources to do so.


                            Limitations Concerning National Defense Property, Plant
                            and Equipment
                            The Federal Accounting Standards Advisory Board (FASAB)
                            revised the Statement of Federal Financial Accounting Standards
                            No. 6 to require the capitalization and depreciation of military
                            equipment (formerly National Defense Property, Plant and
                            Equipment/ND PP&E) for ﬁscal years (FY) 2003 and beyond, and
                            encouraged early implementation.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 30
Department of Defense- Department of the Army
CONSOLIDATED BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)



ASSETS¬(Note¬2)                                             2004 Consolidated    2003 Consolidated
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                       $89,297,373          $54,695,897
      Non-Entity Seized Iraqi Cash                                     113,430              278,139
      Non-Entity-Other                                                 137,806               61,443
Investments (Note 4)                                                     1,496                1,231
Accounts Receivable (Note 5)                                           461,867              523,347
Other Assets (Note 6)                                                  556,380               83,474
Total Intragovernmental Assets                                     $90,568,352          $55,643,531
Cash and Other Monetary Assets (Note 7)                             $1,525,090            $954,368
Accounts Receivable (Note 5)                                           492,394              514,579
Loans Receivable (Note 8)                                                    0                    0
Inventory and Related Property (Note 9)                             37,647,721           32,676,658
General Property, Plant and Equipment (Note 10)                    113,111,572          115,337,906
Investments (Note 4)                                                         0                    0
Other Assets (Note 6)                                                3,351,504            3,569,021
TOTAL¬ASSETS                                                      $246,696,633         $208,696,063

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                          $1,706,731           $1,084,965
Debt (Note 13)                                                               0                    0
Environmental Liabilities (Note 14)                                          0                    0
Other Liabilities (Note 15 & Note 16)                                2,402,903            1,670,318
Total Intragovernmental Liabilities                                 $4,109,634           $2,755,283
Accounts Payable (Note 12)                                          $9,460,194           $9,089,097
Military Retirement Benefits and Other Employment-Related            1,632,843            1,761,318
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                 40,366,172           37,395,412
Loan Guarantee Liability (Note 8)                                       12,293                1,273
Other Liabilities (Note 15 and Note 16)                              8,669,192            9,387,320
Debt Held by Public                                                          0                    0
TOTAL¬LIABILITIES                                                  $64,250,328          $60,389,703

NET¬POSITION
Unexpended Appropriations (Note 18)                                $73,238,304          $47,674,714
Cumulative Results of Operations                                   109,208,001          100,631,646
TOTAL¬NET¬POSITION                                                $182,446,305         $148,306,360
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                $246,696,633         $208,696,063




                                                                                                      31
Department of Defense- Department of the Army
 CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)



                                                                             2004 Consolidated       2003 Consolidated
Program¬Costs
  Intragovernmental Gross Costs                                                       $35,460,140           $30,100,949
  (Less: Intragovernmental Earned Revenue)                                             (7,388,378)           (6,519,008)
  Intragovernmental Net Costs                                                         $28,071,762           $23,581,941
  Gross Costs With the Public                                                         108,861,815            84,768,855
  (Less: Earned Revenue From the Public)                                               (1,152,055)             (919,139)
  Net Costs With the Public                                                          $107,709,760           $83,849,716
  Total Net Cost                                                                     $135,781,522          $107,431,657
Cost¬Not¬Assigned¬to¬Programs                                                                    0                     0
(Less: Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                              0                     0
Net¬Cost¬of¬Operations                                                               $135,781,522          $107,431,657




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 32
Department of Defense- Department of the Army
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



                                                         2004 Consolidated      2003 Consolidated
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
Beginning¬Balances                                             $100,631,646             $5,790,837
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                 0                      0
Beginning Balance, Restated                                     100,631,646              5,790,837
Prior Period Adjustments - Not Restated (+/-)                             0             97,897,585
Beginning¬Balances,¬as¬adjusted                                $100,631,646           $103,688,422
Budgetary¬Financing¬Sources:
Appropriations received                                                   0                       0
Appropriations transferred-in/out (+/-)                                   0                       0
Other adjustments (rescissions, etc) (+/-)                                0                       0
Appropriations used                                             127,335,114            106,904,931
Nonexchange revenue                                                   5,143                     131
Donations and forfeitures of cash and cash equivalents                4,663                  15,003
Transfers-in/out without reimbursement (+/-)                     13,189,641                 479,218
Other budgetary financing sources (+/-)                           2,540,445             (3,636,630)
Other¬Financing¬Sources:
Donations and forfeitures of property                                     0                      0
Transfers-in/out without reimbursement (+/-)                        400,794              (321,356)
Imputed financing from costs absorbed by others                     882,077                818,482
Other (+/-)                                                               0                115,102
Total¬Financing¬Sources                                        $144,357,877           $104,374,881
Net¬Cost¬of¬Operations¬(+/-)                                    135,781,522            107,431,657
Ending¬Balances                                                $109,208,001           $100,631,646

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                              $47,674,714            $31,468,721
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                 0                      0
Beginning Balance, Restated                                      47,674,714             31,468,721
Prior Period Adjustments - Not Restated (+/-)                             0                      0
Beginning¬Balances,¬as¬adjusted                                 $47,674,714            $31,468,721
Budgetary¬Financing¬Sources:
Appropriations received                                          149,547,719            117,667,977
Appropriations transferred-in/out (+/-)                             4,745,349             6,042,747
Other adjustments (rescissions, etc) (+/-)                        (1,394,364)             (599,800)
Appropriations used                                            (127,335,114)          (106,904,931)
Nonexchange revenue                                                         0                     0
Donations and forfeitures of cash and cash equivalents                      0                     0
Transfers-in/out without reimbursement (+/-)                                0                     0
Other budgetary financing sources (+/-)                                     0                     0
Other¬Financing¬Sources:
Donations and forfeitures of property                                     0                      0
Transfers-in/out without reimbursement (+/-)                              0                      0
Imputed financing from costs absorbed by others                           0                      0
Other (+/-)                                                               0                      0
Total¬Financing¬Sources                                         $25,563,590            $16,205,993
Net¬Cost¬of¬Operations¬(+/-)                                              0                     0
Ending¬Balances                                                 $73,238,304            $47,674,714




                                                                                                      33
Department of Defense- Department of the Army
 COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)

                                                                                                                   NON-
                                                        BUDGETARY FINANCING ACCOUNTS                   BUDGETARY FINANCING ACCOUNTS
BUDGETARY¬RESOURCES                                    2004 Combined           2003 Combined           2004 Combined    2003 Combined
Budget Authority:
Appropriations received                                      $149,559,892           $117,695,530                   $0              $0
Borrowing authority                                                     0                      0                    0               0
Contract authority                                                      0                      0                    0               0
Net transfers (+/-)                                             2,517,085              5,307,441                    0               0
Other                                                                   0                      0                    0               0
Unobligated balance:
Beginning of period                                             8,212,989                  5,858,110            1,272             730
Net transfers, actual (+/-)                                     4,698,264                  1,214,524                0               0
Anticipated Transfers Balances                                          0                          0                0               0
Spending authority from offsetting collections:
Earned                                                                   0                      0                   0                0
Collected                                                      18,739,994             14,095,736                  152              543
Receivable from Federal sources                                    412,742                 12,974                   0                0
Change in unfilled customer orders                                       0                      0                   0                0
Advance received                                                   306,576                119,338                   0                0
Without advance from Federal sources                             1,896,851              3,655,318                   0                0
Anticipated for the rest of year, without advances                       0                      0                   0                0
Transfers from trust funds                                               0                      0                   0                0
Subtotal                                                      $21,356,163            $17,883,366                $152             $543
Recoveries of prior year obligations                           13,996,679               8,001,403                   0                0
Temporarily not available pursuant to Public Law                         0                      0                   0                0
Permanently not available                                      (1,394,364)            (1,304,580)                   0                0
Total Budgetary Resources                                    $198,946,708           $154,655,794               $1,424           $1,273




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 34
                                                                                                 NON-
                                               BUDGETARY FINANCING ACCOUNTS          BUDGETARY FINANCING ACCOUNTS
STATUS¬OF¬BUDGETARY¬RESOURCES                  2004 Combined      2003 Combined      2004 Combined     2003 Combined
Obligations incurred:
Direct                                            $152,590,936       $128,012,383                $0               $0
Reimbursable                                        23,475,016         18,430,419                 0                0
Subtotal                                          $176,065,952       $146,442,802                $0               $0
Unobligated balance:
Apportioned                                         21,458,641          6,947,148             1,424             1,273
Exempt from apportionment                               13,411             25,665                 0                 0
Other available                                              0                  0                 0                 0
Unobligated Balances Not Available                   1,408,704          1,240,179                 0                 0
Total,¬Status¬of¬Budgetary¬Resources              $198,946,708       $154,655,794            $1,424            $1,273

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period       $46,482,855        $33,662,267                $0               $0
Obligated Balance transferred, net (+/-)                     0                  0                 0                0
Obligated Balance, Net - end of period:
Accounts receivable                                 (1,893,446)        (1,480,706)                0                 0
Unfilled customer order from Federal sources       (12,713,171)       (10,816,319)                0                 0
Undelivered orders                                   56,509,574         44,735,892                0                 0
Accounts payable                                     15,119,442         14,043,988                0                 0
Outlays:
Disbursements                                      149,220,137        121,952,521                  0                0
Collections                                        (19,046,568)       (14,215,073)             (152)            (543)
Subtotal                                          $130,173,569       $107,737,448             ($152)           ($543)
Less: Offsetting receipts                              (63,289)           (95,571)                 0                0
Net¬Outlays                                       $130,110,280       $107,641,877             ($152)           ($543)




                                                                                                                  35
Department of Defense- Department of the Army
 COMBINED STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)



Resources¬Used¬to¬Finance¬Activities:                                                      2004 Combined       2003 Combined
Budgetary Resources Obligated
Obligations incurred                                                                           $176,065,951        $146,442,802
Less: Spending authority from offsetting collections
     and recoveries (-)                                                                         (35,352,991)        (25,885,311)
Obligations net of offsetting collections and recoveries                                       $140,712,960        $120,557,491
Less: Offsetting receipts (-)                                                                       (63,289)            (95,571)
Net obligations                                                                                $140,649,671        $120,461,920
Other Resources
Donations and forfeitures of property                                                                     0                   0
Transfers in/out without reimbursement (+/-)                                                        400,794           (321,356)
Imputed financing from costs absorbed by others                                                     882,077             818,482
Other (+/-)                                                                                               0             115,102
Net other resources used to finance activities                                                    1,282,871             612,228
Total¬resources¬used¬to¬finance¬activities                                                     $141,932,542        $121,074,148
Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
Change in budgetary resources obligated for goods,
services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                         ($12,185,137)       ($16,480,237)
Unfilled Customer Orders                                                                           2,203,425           3,774,656
Resources that fund expenses recognized in prior periods                                           (870,785)           (282,695)
Budgetary offsetting collections and receipts that
      do not affect net cost of operations                                                            63,441              15,085
Resources that finance the acquisition of assets                                                 (9,901,005)        (25,214,843)
Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's                                   0                   0
      Budget (-)
Other (+/-)                                                                                        (400,794)                   0
Total¬resources¬used¬to¬finance¬items¬not part¬of¬                                             ($21,090,855)       ($38,188,034)
      the¬net¬cost¬of¬operations
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                     $120,841,687         $82,886,114
Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
      not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
Increase in annual leave liability                                                                  $95,284           $291,488
Increase in environmental and disposal liability                                                  3,103,711           2,317,132
Upward/Downward reestimates of credit subsidy expense (+/-)                                          10,869                   0
Increase in exchange revenue receivable from the the public (-)                                           0                   0
Other (+/-)                                                                                          63,634             409,303
Total components of Net Cost of Operations that                                                  $3,273,498          $3,017,923
      will require or generate resources in future periods
Components not Requiring or Generating Resources:
Depreciation and amortization                                                                     9,815,563          21,363,920
Revaluation of assets or liabilities (+/-)                                                          515,037             (10,681)
Other (+/-)
Trust Fund Exchange Revenue                                                                             (36)                (48)
Cost of Goods Sold                                                                                         0                   0
Operating Material & Supplies Used                                                                         0                   0
Other                                                                                             1,335,773             174,429
Total components of Net Cost of Operations that will not require or generate resources          $11,666,337         $21,527,620
Total¬components¬of¬net¬cost¬of¬operations¬that
      will¬not¬require¬or¬generate¬resources¬in¬the¬current period                              $14,939,835         $24,545,543
Net¬Cost¬of¬Operations                                                                         $135,781,522        $107,431,657




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 36
Department of Defense- Department of the Army
STATEMENT OF CUSTODIAL ACTIVITY
As of September 30, 2004 and 2003 ($ in Thousands)



SOURCE¬OF¬COLLECTIONS                                    2004 Combined     2003 Combined
Deposits by Foreign Governments                                      $0                $0
Seized Iraqi Cash                                               118,349           808,866
Other Collections                                                     0                 0
Total Cash Collections                                         $118,349          $808,866
Accrual Adjustments (+/-)                                             0                 0
Total Custodial Collections                                    $118,349          $808,866

DISPOSITION¬OF¬COLLECTIONS
Disbursed on Behalf of Foreign Governments and
      International Organizations                                     $0               $0
Seized Assets Disbursed on behalf of Iraqi People                283,058          530,727
Increase (Decrease) in Amounts to be Transferred                       0                0
Collections Used for Refunds and Other Payments                        0                0
Retained by The Reporting Entity                                       0                0
Seized Assets Retained for Support of the Iraqi People         (164,709)          278,139
Total Disposition of Collections                               $118,349          $808,866

NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                                    $0               $0




                                                                                            37
Note 1.                Signiﬁcant Accounting Policies
1.A. Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the
Department of the Army, as required by the Chief Financial Ofﬁcers Act of 1990 (CFO Act), expanded by
the Government Management Reform Act of 1994 (GMRA), and other appropriate legislation. The ﬁnancial
statements have been prepared from the books and records of the Army in accordance with the Department
of Defense (DoD) Financial Management Regulation; Ofﬁce of Management and Budget (OMB) Bulletin
No. 01-09, Form and Content of Agency Financial Statements; and to the extent possible, Federal Generally
Accepted Accounting Principles (GAAP). The accompanying ﬁnancial statements account for all resources
for which the Army is responsible. Under the above guidance, classiﬁed assets, programs, and operations
have been excluded from the statements or aggregated and reported in such a manner that they are no longer
classiﬁed. The Army’s ﬁnancial statements are in addition to the ﬁnancial reports prepared by the Army
pursuant to OMB directives that are used to monitor and control the Army’s use of budgetary resources.

The Army is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due
to limitations of its ﬁnancial and non-ﬁnancial management processes and systems. The Army derives its
reported values and information for major asset and liability categories largely from nonﬁnancial feeder
systems, such as inventory and logistic systems. These were designed to support reporting requirements
focusing on maintaining accountability over assets and reporting the status of federal appropriations, rather
than preparing ﬁnancial statements in accordance with Federal GAAP. As a result, the Army cannot currently
implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The Army continues to implement
process and system improvements addressing the limitations of its ﬁnancial and non-ﬁnancial feeder systems.
Further explanation of these ﬁnancial statement elements is provided in the applicable note.

Fiscal Year (FY) 2004 is the fourteenth year that the Army has prepared ﬁnancial statements required by
the CFO Act, GMRA, and Federal Financial Management Improvement Act of 1996 (FFMIA), (P.L. 104-
208). The purpose of the CFO Act was to bring more effective general and ﬁnancial management practices
to the Federal government through statutory provisions; provide for improvement of accounting, systems,
ﬁnancial management, and internal controls; and provide for the production of complete, reliable, timely, and
consistent ﬁnancial information. GMRA extended the CFO Act to all activities of Executive Branch agencies.
FFMIA expanded reporting requirements under the CFO Act. The reporting entities within the Army changed
to facilitate these reporting requirements.


1.B. Mission of the Reporting Entity
 The overall mission of the Army is to organize, train, equip, and support armed forces to deter aggression
and, if necessary, defeat aggressors of the United States and its allies. It is no longer a world in which two
hostile superpowers face each other. It is our nation’s force of decision—a full spectrum force—trained and
ready to respond to a wide range of crises, from ﬁghting and winning major theater wars, to peacekeeping,
humanitarian relief missions, and disaster relief in communities at home.

The primary mission of the Army remains constant: to ﬁght and win the nation’s wars. In an uncertain
world, the Army performs a wide variety of other missions around the world and at home including
deterring potential adversaries, reassuring and lending stability to allies, supporting our communities in
times of emergency, preserving peace and security, supporting national policies, and implementing national
objectives. In addition to its military operations, the Army is frequently deployed both at home and abroad in
response to natural disasters. Nationally, the Army provides substantial support to relief operations associated
with storms, tornadoes, and hurricanes. The Army also provides support and relief assistance abroad.
Whatever the mission, committing the Army, commits the nation.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 38
1.C. Appropriations and Funds
The Army’s appropriations and funds are divided into the general, working capital (revolving funds), trust,
special, and deposit funds. These appropriations and funds are used to fund and report how the resources
have been used in the course of executing the Army’s missions.

General funds are used for ﬁnancial transactions arising under congressional appropriations, including
personnel, operation and maintenance, research and development, procurement, and construction accounts.

Revolving funds receive their initial working capital through an appropriation or a transfer of resources
from existing appropriations or funds and use those capital resources to ﬁnance the initial cost of products
and services. Financial resources to replenish the initial working capital and to permit continuing operations
are generated by the acceptance of customer orders. Revolving funds operate with ﬁnancial principles that
provide improved cost visibility and accountability to enhance business management and improve the
decision making process. The activities provide goods and services on a reimbursable basis. Receipts derived
from operations are normally available in their entirety for use without further congressional action.

Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying
out speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special funds account for government receipts earmarked for a speciﬁc purpose.

Deposit funds are generally used to: (1) hold assets for which the Army is acting as an agent or custodian or
whose distribution awaits legal determination, or (2) account for unidentiﬁed remittances.


1.D. Basis of Accounting
The Army generally records transactions on a budgetary basis and not an accrual accounting basis as is
required by Federal GAAP. For FY 2004, the Army’s ﬁnancial management systems were unable to meet all
of the requirements for full accrual accounting. Many of the Army’s ﬁnancial and nonﬁnancial feeder systems
and processes were designed and implemented prior to the issuance of Federal GAAP and therefore, were
not designed to collect and record ﬁnancial information on the full accrual accounting basis as required by
Federal GAAP. In addition, most of the Army’s ﬁnancial management systems do not comply with the U.S.
Government Standard General Ledger (USSGL) at the transaction level. The Army has undertaken efforts
to determine the actions required to bring its ﬁnancial and nonﬁnancial feeder systems and processes into
compliance with all elements of Federal GAAP. One such action is the current revision of Army accounting
systems to record transactions based on the USSGL. Until such time as the Army’s systems and processes
are updated to collect and report ﬁnancial information as required by Federal GAAP, the Army’s ﬁnancial
data will be based on budgetary transactions, non-ﬁnancial feeder system transactions, and adjustments for
known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.
When possible, the ﬁnancial statements are presented on the accrual accounting basis. One example of
information presented on the budgetary basis is data on the Statement of Net Cost. Much of this information
is based on obligations and disbursements and may not always represent accrued costs.

In addition, the Army identiﬁes programs based upon the major appropriation groups provided by Congress.
The Army does not, however, accumulate costs for major programs based on performance measures because
its ﬁnancial processes and systems do not account for costs in line with established measures. The Army
is reviewing available data and attempting to develop a cost reporting methodology that provides the cost
information required by the Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial
Cost Accounting Concepts and Standards for the Federal Government.




                                                                                                                39
1.E. Revenues and Other Financing Sources
Financing sources for general funds are provided primarily through congressional appropriations that are
received on both an annual and a multiyear basis. When authorized, these appropriations are supplemented by
revenues generated by sales of goods or services through a reimbursable order process. The Army recognizes
revenue as a result of costs incurred or services performed on behalf of other federal agencies and the public.
Revenue is recognized when earned under the reimbursable order process.

The Army does not include non-monetary support provided by U.S. Allies for common defense and mutual
security in its list of other ﬁnancing sources that appears in the Statement of Financing. The U.S. has
agreements with foreign countries that include both direct or indirect sharing of costs that each country incurs
in support of the same general purpose. Examples include countries where there is a mutual or reciprocal
defense agreement or where U.S. troops are stationed. DoD is reviewing these types of ﬁnancing and cost
reductions in order to establish accounting policies and procedures to identify what, if any, of these costs
are appropriate for disclosure in the ﬁnancial statements in accordance with GAAP. Recognition of support
provided by host nations would affect both ﬁnancing sources and recognition of expenses.


1.F. Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires recognition of operating expenses in the period
incurred. However, because the Army’s ﬁnancial and nonﬁnancial feeder systems were not designed to
collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments are made
for major items such as payroll expenses, accounts payable, and environmental liabilities. Expenditures for
capital and other long-term assets are not recognized as expenses in the Army operations until depreciated
in the case of Property, Plant and Equipment (PP&E) or consumed in the case of Operating Materials and
Supplies (OM&S). Net increases or decreases in unexpended appropriations are recognized as a change in net
position. Certain expenses, such as civilian annual leave and military leave earned but not taken, are ﬁnanced
in the period in which payment is made.

The Army adjusted operating expenses as a result of the elimination of balances between DoD components.
See Note 19.I., Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.


1.G. Accounting for Intra-governmental Activities
The Army, as an agency of the Federal government, interacts with and is dependent upon the ﬁnancial
activities of the Federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results
of all ﬁnancial decisions applicable to the Army as though the agency was a stand-alone entity.

The Army’s proportionate share of public debt and related expenses of the Federal government are not
included. The Federal government does not apportion debt and its related costs to Federal agencies. The
Army’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest, nor do the
statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of Army facilities is obtained through budget appropriations. To the extent
this ﬁnancing was obtained through issuance of public debt, interest costs were not capitalized since the
Department of the Treasury does not allocate these interest costs to the beneﬁting agencies.

The Army’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement
System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying
coverage under social security. The Army funds a portion of the civilian and military pensions. Reporting
civilian pensions under CSRS and FERS is the responsibility of the Ofﬁce of Personnel Management (OPM).
The Army recognizes an imputed expense for the portion of civilian employee pensions and other retirement
beneﬁts funded by OPM in the Statement of Net Cost; and recognizes corresponding imputed revenue from


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 40
the civilian employee pensions and other retirement beneﬁts in the Statement of Changes in Net Position.

Assets, funded actuarial liability, and unfunded actuarial liability for military personnel are reported in the
Military Retirement Fund (MRF) ﬁnancial statements. The actuarial liability for military retirement health
beneﬁts is recognized in the Other Defense Organization General Fund column of DoD Agency-wide
consolidating/combining statements.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within
the Army must be eliminated. However, the Army, as well as the rest of the federal government, cannot
accurately identify all intragovernmental transactions by customer. The Defense Finance and Accounting
Service (DFAS) is responsible for eliminating transactions between components or activities of the Army.
For FYs 1999 and beyond, seller entities within the DoD provided summary seller-side balances for revenue,
accounts receivable, and unearned revenue to the buyer-side internal DoD accounting ofﬁces. In most cases,
the buyer-side records have been adjusted to recognize unrecorded costs and accounts payable. Intra-DOD
intragovernmental balances were then eliminated.

The Army’s accounting systems do not capture trading partner information at the transaction level. Therefore,
current systems cannot produce data necessary for reconciliations between buyers and sellers, nor eliminate
all intragovernmental transactions between trading partners. As a result, the Army’s balances are compared to
seller-side data summarized at the component trial balance level. Based on these comparisons, the amount of
intragovernmental transactions on the buyer-side is forced to agree with seller-side information.

The Department of the Treasury, Financial Management Service (FMS), is responsible for eliminating
transactions between the Army and other federal agencies. In September 2000, FMS issued the “Federal
Intragovernmental Transactions Accounting Policies and Procedures Guide.” The Army was not able to
fully implement the policies and procedures in this guide related to reconciling intragovernmental assets,
liabilities, revenues, and expenses for non-ﬁduciary transactions. The Army, however, was able to implement
the policies and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting
Guide,” as updated by the “Federal Intragovernmental Transactions Accounting Policies and Procedures
Guide,” issued October 2002, for reconciling intragovernmental transactions. These transactions pertain to
investments in Federal securities, borrowings from the United States Treasury and the Federal Financing
Bank, Federal Employees’ Compensation Act transactions with the Department of Labor (DoL), and beneﬁt
program transactions with OPM.


1.H. Transactions with Foreign Governments and International Organizations
Each year, the Army components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the Arms Export Control Act of 1976. Under the provisions
of the Act, the Army has authority to sell defense articles and services to foreign countries and international
organizations, generally at no proﬁt or loss to the U.S. Government. Customers may be required to make
payments in advance.


1.I. Funds with the U.S. Treasury
The Army’s ﬁnancial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the US Army
Corp of Engineers (USACE) disbursing stations, as well as the Department of State ﬁnancial service centers.
Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check
issues, electronic fund transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
by appropriation, on interagency transfers, collections received, and disbursements issued. The Department
of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account



                                                                                                                  41
maintained in the Treasury’s system. Differences between the Army recorded balance in the FBWT accounts
and Treasury’s FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are
provided in Note 3, Fund Balance With Treasury. Differences between accounting ofﬁces’ detail-level records
and Treasury’s FBWT accounts are disclosed in Note 1.Y, speciﬁcally, differences caused by in-transit
disbursements and unmatched disbursements (which are not recorded in the accounting ofﬁces’ detail-level
records).


1.J. Foreign Currency
The Army conducts a signiﬁcant portion of its operations overseas. The Congress established a special
account to handle the gains and losses from foreign currency transactions for ﬁve general fund appropriations
(operation and maintenance, military personnel, military construction, family housing operation and
maintenance, and family housing construction). The gains and losses are computed as the variance between
the exchange rate current at the date of payment and a budget rate established at the beginning of each
ﬁscal year. Foreign currency ﬂuctuations related to other appropriations require adjustments to the original
obligation amount at the time of payment. These currency ﬂuctuations are not separately identiﬁed.


1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. The Army bases the allowances for uncollectible accounts that
are due from the public upon analysis of collection experience by fund type. The Army does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other Federal
agencies are to be resolved between the agencies. See Note 5., Accounts Receivable, for material disclosures.


1.L. Loans Receivable
Not Applicable


1.M. Inventories and Related Property
Effective October 1, 2002, SFFAS No. 23, Eliminating the Category National Defense Property, Plant, and
Equipment, revises accounting principles for military equipment (previously referred to as National Defense
Property, Plant, and Equipment). This standard renames National Defense Property, Plant, and Equipment
to military equipment, classiﬁes military equipment (e.g., ships, aircraft, combat vehicles, and weapons) as
general property, plant, and equipment, and requires the capitalization and depreciation of the cost of military
equipment, including the cost of modiﬁcations and upgrades. Likewise, military equipment (previously
referred to as NDPP&E) also includes items which will now be classiﬁed as OM&S.

Inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC) adjusted for
holding gains and losses.

The Army uses the LAC method because its inventory systems were designed for material management
rather than accounting. The systems provide accountability and visibility over inventory items. They do not
maintain historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related
Property. They are also unable to directly produce ﬁnancial transactions using the USSGL, as required by
FFMIA of 1996 (P.L. 104-208). DoD is transitioning to a Moving Average Cost methodology for valuing
inventory that when fully implemented will allow the Army to comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale.
There is no difference in how these accounts are managed or valued. Normally, the Army manages only
military or government-speciﬁc material. The Army does not manage items commonly used in and available
from the commercial sector. In addition, operational cycles are irregular, and the military risks associated
with stock-out positions have no commercial equivalent. The Army holds material based on military need


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 42
and support for contingencies. Therefore, the Army does not attempt to account separately for items held for
current or future sale.

Related property includes OM&S and stockpile materials. OM&S, including munitions not held for sale, are
valued at standard purchase price. For the most part, the Army uses the consumption method of accounting
for OM&S by expensing material when issued to the end user. Where current systems cannot fully support
the consumption method, the Army uses the purchase method – that is, items are expensed when purchased.
The Army reported signiﬁcant amounts using the purchase method either because the systems could not
support the consumption method or because management deems that the item is in the hands of the end user.

The Army accounts for condemned material as excess, obsolete, and unserviceable. The net value of
condemned material is zero because disposal costs are greater than potential scrap value.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used
to produce the reported values. Material disclosures related to inventory and related property are provided in
Note 9, Inventory and Related Property.


1.N. Investments in U.S. Treasury Securities
The Army reports investments in Treasury securities at cost, net of unamortized premiums or discounts.
Premiums or discounts amortize into interest income over the term of the investment using the effective
interest rate method or another method obtaining similar results. The Army’s intent is to hold investments
until maturity, unless needed to ﬁnance claims or otherwise sustain operations. Consequently, the Army
does not make provisions for unrealized gains or losses on these securities. Material disclosures related to
investments in treasury securities are provided in Note 4, Investments.


1.O. General Property, Plant and Equipment
General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when
an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD
capitalization threshold of $100,000. All General PP&E, other than land, is depreciated on a straight-line
basis. Land is not depreciated.


Military Equipment
Effective October 1, 2002, SFFAS No. 23, Eliminating the Category National Defense Property, Plant, and
Equipment, revises accounting principles for military equipment (previously referred to as National Defense
Property, Plant, and Equipment). This standard renames National Defense Property, Plant, and Equipment
to military equipment, classiﬁes military equipment (e.g., ships, aircraft, combat vehicles, and weapons) as
general property, plant, and equipment, and requires the capitalization and depreciation of the cost of military
equipment, including the cost of modiﬁcations and upgrades.


Contractor Provided
When it is in the best interest of the government, the Army provides to contractors government property
necessary to complete contract work. Such property is either owned or leased by the Army, or purchased
directly by the contractor for the government based on contract terms. When the value of contractor procured
General PP&E meets the normal DoD capitalization criteria, such PP&E is required to be included in the
value of General PP&E reported on the Army’s Balance Sheet. DoD is developing new policies and a
contractor reporting process that will provide appropriate General PP&E information for future ﬁnancial
statement reporting purposes. Accordingly, the Army currently reports only the portion of government
property in the possession of contractors that is maintained in the Army’s property systems.

To bring the Army into fuller compliance with federal accounting standards, the DoD has issued new


                                                                                                               43
property accountability and reporting regulations that require the DoD Components to maintain, in DoD
Component property systems, information on all property furnished to contractors. This action and other DoD
proposed actions are structured to capture and report the information necessary for compliance with federal
accounting standards.

Material disclosures related to General PP&E are provided in Note 10, General PP&E, Net.


1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
expenses when the related goods and services are received.


1.Q. Leases
Generally, lease payments are for the rental of operating facilities and are classiﬁed as either capital or
operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital
lease) the Army records the applicable asset and liability if the value equals or exceeds the current DoD
capitalization threshold. The Army records the amounts as the lesser of the present value of the rental
and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair value. The Army deems the use of estimates for these costs as adequate and
appropriate due to the relatively low dollar value of capital leases. Imputed interest was necessary to reduce
net minimum lease payments to present value calculated at the incremental borrowing rate at the inception of
the leases. In addition, the Army classiﬁes leases that do not transfer substantially all of the beneﬁts or risks
of ownership as operating leases and records payment expenses over the lease term.


1.R. Other Assets
The Army conducts business with commercial contractors under two primary types of contracts--ﬁxed price
and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts
can cause, the Army provides ﬁnancing payments. One type of ﬁnancing payment that the Army makes, for
real property, is based upon a percentage of completion. In accordance with SFFAS No. 1, Accounting for
Selected Assets and Liabilities, such payments are treated as construction in process and are reported on the
General PP&E line and in Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation, the Army makes ﬁnancing payments under ﬁxed
price contracts that are not based on a percentage of completion. The Army reports these ﬁnancing payments
as advances or prepayments in the “Other Assets” line item. The Army treats these payments as advances or
prepayments because the Army becomes liable only after the contractor delivers the goods in conformance
with the contract terms. If the contractor does not deliver a satisfactory product, the Army is not obligated to
reimburse the contractor for its costs and the contractor is liable to repay the Army for the full amount of the
advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on
contract ﬁnancing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code
of Federal Regulations Part 1315, Prompt Payment. DoD concluded that SFFAS No. 1 does not fully or
adequately address the subject of progress payment accounting and is considering what further action is
appropriate.


1.S. Contingencies and Other Liabilities
SFFAS No. 5, Accounting for Liabilities of the Federal Government, deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the
Army. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 44
is recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable,
and the amount of loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist
but at least a reasonable possibility that a loss or additional loss will be incurred. Loss contingencies include
the collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The
Army’s loss contingencies arising as a result of pending or threatened litigation or claims and assessments
occur due to events such as aircraft, ship and vehicle accidents; medical malpractice; property or
environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Army’s assets. This type of liability
has two components -- nonenvironmental and environmental. Recognition of an anticipated environmental
disposal liability commences when the asset is placed into service, consistent with SFFAS No. 6, Accounting
for Property, Plant, and Equipment. Based upon the Army’s policies, which are consistent with SFFAS No. 5,
Accounting for Liabilities of Federal Government, a nonenvironmental disposal liability is recognized for an
asset when management decides to dispose of the asset.

The Army, by means of the Armament Retooling and Manufacturing Support (ARMS) Initiative legislation,
has been authorized to establish a loan guarantee program to facilitate commercial ﬁrms’ use of speciﬁed
ammunition manufacturing facilities and the Army recognizes the loan guarantee liability. The Army is
authorized by Public Law 103-337, the National Defense Authorization Act for Fiscal Year 1995, to enter into
this agreement with the U.S. Department of Agriculture Rural Business-Cooperative Service (RBS).

For material disclosures, see:

    Notes 8, Direct Loan and/or Loan Guarantee Program.
    Note 14, Environmental Liabilities and Disposal Liabilities.
    Note 15, Other Liabilities.

1.T. Accrued Leave
Civilian annual leave and military leave that has been accrued and not used as of the balance sheet date is
reported as a liability. The liability reported at the end of the ﬁscal year reﬂects the current pay rates.


1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent budget authority, which is unobligated and has not been rescinded or withdrawn, and
funds obligated but for which legal liabilities have not been incurred.

Cumulative results of operations represents the difference, since inception of an activity, between expenses
and losses and ﬁnancing sources (including appropriations, revenue, and gains). Beginning with FY 1998,
this included the cumulative amount of donations and transfers of assets in and out without reimbursement.


1.V. Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
have been obtained through various international treaties and agreements negotiated by the Department
of State. DoD capital assets overseas are purchased with appropriated funds; however, title to land and
improvements are retained by the host country. Generally, treaty terms allow the DoD Components continued
use of these properties until the treaties expire. These ﬁxed assets are subject to loss in the event treaties are
not renewed or other agreements are not reached which allow for the continued use by DoD. Therefore, in
the event treaties or other agreements are terminated whereby use of the foreign bases is no longer allowed,


                                                                                                                    45
losses will be recorded for the value of any non-retrievable capital assets after negotiations between the
U.S. and the host country have been concluded to determine the amount to be paid the U.S. for such capital
investments.


1.W. Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position
and results of operations for FY 2004. Financial statement ﬂuctuations greater than 2 percent of total assets
on the Balance Sheet and/or greater than 10 percent between FY 2003 and FY 2004, are explained within the
Notes to the Financial Statements.


1.X. Unexpended Obligations
The Army obligates funds to provide goods and services for outstanding orders not yet delivered. The
ﬁnancial statements do not reﬂect this liability for payment for goods/services not yet delivered. See Note 18,
Unexpended Appropriations for material disclosures.


1.Y. Problem Disbursements

                                                      September                 September    September    Increase / (Decrease)
(Amounts in thousands)                                     2002                      2003         2004       from 2003 to 2004

Problem Disbursements
   Absolute Unmatched Disbursements                     $160,726                 $259,857       $69,857             ($190,000)
   Negative Unliquidated Obligations                     $20,985                   $26,251      $24,424                ($1,827)
In-transit Disbursements, Net                           $710,194                $1,086,574   $1,652,211               $565,637

Deﬁnitions:
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system.

Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment
is greater than the amount of the obligation recorded in the ofﬁcial accounting system. These payments use
available funds for valid receiving reports on delivered goods and services under valid contracts.

In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on
behalf of an accountable activity but not yet attempted to be posted in an accounting system.

Aged UMDs and NULOs: The Army absolute value UMDs, NULOs, and negative $54,001 thousand in
aged in-transit disbursements represent problem disbursements. UMDs and NULOs are considered to be
problem disbursements immediately, while in-transits are considered normal business activity up to the 30-
day aging category. After 30 days, they become perceived as problem disbursements. Sixty seven percent of
the increase in Net In-transit Disbursements occurred at DFAS Rome (DFAS-RO) where there are several
issues being worked to help decrease the processing time of the Third Army charges from the Global War
on Terrorism (GWOT). DFAS-RO received $268 million in freight and passenger charges in late September
2004 as a result of the GWOT. These were received at the end of the month and could not be conﬁrmed by
Third Army for proper posting by DFAS-RO before closing September 2004. Fluctuations in the schedule
represent normal activity for UMDs and NULOs based on the inﬂow of undistributed disbursements received
for processing. Total in-transit balances have increased at the primary accounting sites supporting the war,
contingency operations, and supply and materiel replenishment.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 46
1.Z. Development Fund for Iraq
On June 28, 2004, transfer of power from the Coalition Provisional Authority (CPA) to the Interim Iraqi
Government (IIG) occurred. Prior to the transfer, the CPA was responsible for the management and
accounting of the Development Fund for Iraq (DFI). Ongoing resolution of issues surrounding transfers of
approximately $1.7 billion of DFI assets, including $86 million transferred from IIG to the Multi-National
Force-Iraq in August 2004, may require additional disclosure in future ﬁnancial statements. Therefore, no
amounts for these assets are included in the ﬁnancial statements.

Note 2.                  Nonentity Assets
As of September 30
(Amounts in thousands)                           2004                  2003
1. Intra-governmental Assets
   A. Fund Balance with Treasury                        $251,236           $339,582
   B. Investments                                              0                  0
   C. Accounts Receivable                                      0                  0
   D. Other Assets                                             0                  0
   E. Total Intra-governmental Assets                   $251,236           $339,582

2. Non-Federal Assets
   A. Cash and Other Monetary Assets                $1,525,090             $954,368
   B. Accounts Receivable                              187,140              228,833
   C. Loans Receivable                                       0                    0
   D. Inventory & Related Property                           0                    0
   E. General PP&E                                           0                    0
   F. Investments                                            0                    0
   G. Other Assets                                           0                    0
   H. Total Non-Federal Assets                      $1,712,230           $1,183,201


3. Total Non-Entity Assets                          $1,963,466           $1,522,783

4. Total Entity Assets                            $244,733,167         $207,173,280


5. Total Assets                                   $246,696,633         $208,696,063

Relevant Information for Comprehension
Nonentity Assets of $1,963,466 thousand are assets held by the Army, but are not available to fund mission
operations.

Nonentity Intragovernmental Fund Balance with Treasury of $251,236 thousand is made up of $113,430
thousand in Iraqi custodial funds that coalition forces seized during Operation Iraqi Freedom to be used in
support of the Iraqi people, $138,440 thousand in deposit funds, and $(634) thousand in suspense accounts.
Further explanation on the Iraqi custodial funds is disclosed in Note 23.

Nonentity Non-Federal Cash and Other Monetary Assets of $1,525,090 thousand represent both cash and
foreign currency.

Nonentity Non-Federal Accounts Receivable of $187,140 thousand represents receivables that originated
in appropriations that are closed and are no longer available to execute Army missions. Army continues to
pursue collection actions and any amounts collected are deposited into the Treasury’s miscellaneous receipt
account.

The Army has $244,733,167 thousand in Entity Assets. Entity Assets consist of resources that the Army has
the authority to use, or where management is legally obligated to use funds to meet current year obligations.

                                                                                                                47
Fluctuations and/or Abnormalities:
Nonentity Intragovernmental Fund Balance with Treasury decreased $88,346 thousand or 26 percent. The
ﬂuctuation is attributed to a decrease of $164,709 thousand in Iraqi custodial funding, due to the exhaustion
of funds recovered in Iraq without recovering any additional funds, offset by an increase of $76,363 thousand
in miscellaneous suspense accounts and deposit funds.

The increase in the miscellaneous suspense and deposit funds is due to $37,009 thousand increase in Army
Member Savings Deposits caused by an increase in deployed Soldiers drawing imminent danger pay who
are authorized to deposit funds and later withdraw the funds with interest; $19,896 thousand in Withheld
State Income Taxes; $14,859 thousand in Small Escrow Accounts due to the increase of Soldiers using the
post ofﬁce and Army Air Force Exchange Service in Kuwait and Iraq; and the remaining $4,599 thousand in
miscellaneous suspense and deposit funds.

Cash and foreign currency increased $570,722 thousand or 60 percent, primarily to support the contingency
missions Operation Iraqi Freedom and Operation Enduring Freedom. Overall foreign currency increased
approximately $182,604 thousand or 105 percent, which includes currency to pay foreign vendors and cash
in the custody of foreign agents primarily in support of the Army’s forward deployed tactical units. Other
increases occurred in the U.S. Army Corps of Engineers as the Republic of Korea increased agreements for
reimbursable work to be performed.

Accounts Receivable decreased $41,693 thousand or 18 percent, primarily due to erroneous reporting of
canceling accounts receivable in the individual appropriations in FY 2003. Per Treasury, all canceling year
Accounts Receivable should be reported in Receipt Account 3200 Collections of Receivables from Cancelled
Accounts.


Note Reference
For additional line item discussion, see:
Note 3, Fund Balance With Treasury
Note 4, Investments
Note 5, Accounts Receivable
Note 6, Other Assets
Note 7, Cash and Other Monetary Assets
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 9, Inventory and Related Property
Note 10, General PPE, Net
Note 23, Disclosures Related to the Statement of Custodial Activity

Note 3.A.                Fund Balance with Treasury
As of September 30
(Amounts in thousands)                                                  2004                2003
1. Fund Balances
   A. Appropriated Funds                                                $79,827,618        $54,145,086
   B. Revolving Funds                                                        36,457             50,503
   C. Trust Funds                                                             2,862              2,502
   D. Other Fund Types                                                    9,681,672            837,388
   E. Total Fund Balances                                               $89,548,609        $55,035,479

2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                                         $89,548,609        $55,035,479
   B. Fund Balance per Army General Fund                                 89,548,609         55,035,479

3. Reconciling Amount                                                              $0              $0



General Fund – Principal Financial Statements, Notes, and Supplementary Information — 48
The Fund Balance is reconciled to the Treasury Trial Balance. During September 2004, Army made a net
adjustment of $45,888 thousand for unsupported undistributed disbursements and collections to bring the
Fund Balance reported by Army into agreement with Treasury.


Fluctuations and/or Abnormalities
The Fund Balance represents the amount of available funding to be utilized for executing the Army mission.
Army Fund Balances increased $34,513,130 thousand or 63 percent, from FY 2003. The primary increase is
due to the $31,864,362 thousand increase in FY 2004 funding. Fund Balance positions increased as follows
(in thousands):

Program                                           Fund Balance
Military Personnel                                      $ 2,137,401
Operation & Maintenance                                  18,777,982
Research, Development, Test, and Evaluation               1,899,561
Military Construction                                     (143,948)
Procurement                                               2,482,144
Vested Iraqi Cash                                            38,358
Other Miscellaneous                                       9,321,632
                                                       $34,513,130


Intragovernmental Payment and Collection (IPAC)
The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent
amounts recorded by Treasury but not reported by the organization. The Army had no IPAC differences
greater than 180-days old as of September 2004.

Automated reconciliation tools have virtually eliminated all existing differences for the Army. Field sites
requiring additional backup to record the transaction in their accounting system, accounting errors, or timing
differences between disbursing and Treasury cut-off dates are the primary reasons for an IPAC difference to
exist today.


Check Issue Discrepancy
For September 2004, the Army 2100 Comparison of Checks Issued Report received from Treasury includes
the following (in thousands):

DFAS                                          0-60 Days               61-180 Days   > 180 Days           Total
Indianapolis                                    $406,264                     $452           $0         $406,716
Columbus (Army DSSNs)*                            15,614                        0            0           15,614
Columbus (Transp Pay)                                713                        0            0              713
Columbus (Def Agencies)                           30,269                        0            0           30,269
TOTAL (2100 ARMY)                             $452,860                      $452           $0        $453,312
*DSSN is Disbursing Station Symbol Number


Check issue differences in the 0-60 days category are considered timing differences due to in-transit
time between reporting check issues by the ﬁeld and processing into the Treasury Check Payments and
Reconciliation System.

The differences in the 0-60 days and the 61-180 days are expected to clear in October 2004.


Deposit Differences
The deposit differences are reconcilable differences reported by the Treasury or the Army. The Army has $60
thousand in deposit differences greater than 180 days old as of September 2004. The cause of the differences
are not known at this time but expected to clear in October 2004.


                                                                                                              49
Vested Iraqi Cash
Since inception of the account, the Army has collected $1,724,131 thousand of Vested Iraqi Cash. This cash is
vested in accordance with the International Emergency Economic Powers Act, Section 1701 and will be used
in support of the Iraqi people. The Army has disbursed $1,685,773 thousand in support of the Iraqi people as
follows:

                                                                                Amounts in thousands


Collected                                                                            $1,724,131
Disbursed
Iraqi Salaries                                                                       $1,184,926
Repair/Reconstruction/Humanitarian Assistance                                              140,862
Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                           359,985
Total Disbursed                                                                      $1,685,773
Remaining Funds                                                                            $38,358


Other Fund Types
The $9,681,672 thousand in Other Fund Types consists of $9,394,285 thousand in the Iraqi Relief and
Reconstruction Fund, $138,440 thousand in deposit funds, $113,430 thousand in Iraqi Custodial Funds
(Seized Iraqi Cash), $36,152 thousand in special fund and receipt accounts, and $(634) thousand in suspense
accounts.

Other Fund Types increased by $8,844,284 thousand from FY 2003 which consists of increases of
$8,929,483 thousand in Iraqi Relief and Reconstruction Fund, $37,009 thousand in Army Member Savings
Deposits due to the increase in deployed Soldiers drawing imminent danger pay who are authorized to
deposit funds and later withdraw the funds with interest, $19,896 thousand in Withheld State Income Taxes,
$14,859 thousand in Small Escrow Accounts due to the increase of Soldiers using the post ofﬁce and Army
Air Force Exchange Service in Kuwait and Iraq, and $7,746 thousand in Other Miscellaneous Fund Accounts.
In addition, there was a decrease of $164,709 thousand in Iraqi Seized Assets due to the exhaustion of funds
recovered in Iraq without recovering any additional funds.


Canceling Appropriated Funds
As of September 2004, Army withdrew $659,532 thousand in canceling appropriated funds in accordance
with Treasury’s policy.


Note Reference
See Note 1.I. – Funds with the U.S. Treasury for additional discussion on ﬁnancial reporting requirements
and DoD policies governing Funds with the U.S. Treasury.

See Note 2 Nonentity Assets and Note 23 Disclosures Related to the Statement of Custodial Activity for
further discussions on Other Fund Balance Types (e.g., Suspense, Budget Clearing, Special and Deposit,
Seized Iraqi Cash, etc.).




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 50
Note 3.B.                Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                              (Decrease)/ Incrcrease
As of September 30                    2002             2003                     2004
                                                                                                from FY 2003-2004
(Amounts in thousands)
Account
 F3875                                       $0                $0                      $0                             $0
 F3880                                        0                 0                       0                              0
 F3882                                    (739)             (908)                   (820)                             88
 F3885                                        0                 0                       0                              0
 F3886                                    5,690               200                     187                           (13)
Total                                    $4,951           ( $708)                 ( $633)                           $75

The Army established policies and procedures to ensure accurate and consistent use of Suspense and Budget
Clearing accounts. Suspense reconciliations have been reported as a material weakness since 1997. The Army
is currently implementing Public Law 107-314 which includes provisions for the write-off of unsupported
balances and improvements in tracking and reporting Army suspense balances.

On September 30 of each ﬁscal year, most of the uncleared suspense/budget clearing account balances
are reduced to zero (as required by the Department of Treasury) by transferring the balances to proper
appropriation accounts. In the following month, the uncleared suspense/clearing account balances are
reestablished. The Army transferred the following accounts to their Operation and Maintenance Account (21
2020) for FY 2004 (in thousands):

                    Accounts                                         FY 2004             FY 2003
21 F3875            Budget Clearing Accounts                           $37,389              $82,292
21 F3880            Check Cancellations                                  33,815               2,913
21 F3885            Intergovernmental Payment and Collection           (18,896)             370,885

In addition, Budget Clearing Accounts such as the Uniformed Service Thrift Savings Plan (F3882) and
Federal Employees Retirement System (F3886) remain open at ﬁscal year-end. Negative amounts shown
above do not indicate abnormal balances, but a preponderance of disbursements over collections.

Note 4. Investments
                                                                                         2004                                         2003
                                                                                       Amortized                    Market
                                                                  Amortization                        Investments,                  Investments,
                                                      Cost                             (Premium/                     Value
                                                                    Method                                Net                           Net
                                                                                        Discount)                  Disclosure
As of September 30
(Amounts in thousands)
1. Intra-governmental Securities:
     A. Marketable                                           $0                                 $0             $0             $0              $0
     B. Non-Marketable, Par Value                             0                                  0              0              0               0
                                                                    Effective
    C.     Non-Marketable, Market-Based                1,492        Interest                   (1)          1,491           1,492          1,225
    D.     Subtotal                                   $1,492                                  ($1)         $1,491          $1,492         $1,225
    E.     Accrued Interest                               $5                                                   $5              $5             $6
    F.     Total Intragovernmental Securities         $1,497                                  ($1)         $1,496          $1,497         $1,231

2. Other Investments:                                     $0                                    $0             $0            N/A             $0




                                                                                                                                                   51
Fluctuations and/or Abnormalities
The Army Investments increased $265 thousand or 22 percent in FY 2004. The increase was caused by a
timing difference of a bond redemption in FY 2003 that artiﬁcially lowered the balance for FY 2003.


Other Information Related to Investments
The Army Gift Fund was established to control and account for the disbursement and use of monies donated
to the Army along with the interest received from the investment of such donations. The related earnings
are allocated to appropriate Army activities to be used in accordance with the directions of the donor. These
funds are recorded as Non-Marketable Market-Based U.S. Treasury Securities, which are not traded on any
securities exchange, but mirror the prices of marketable securities with similar terms.


Note Reference
See Note Disclosure 1.N. – Investments in U.S. Treasury Securities for additional DoD policies governing
Investments in U.S. Treasury Securities.

Note 5.                  Accounts Receivable
                                                                               2004                               2003
As of September 30                                                       Allowance For
                                                          Gross                              Accounts          Accounts
(Amounts in thousands)                                                     Estimated
                                                        Amount Due                         Receivable, Net   Receivable, Net
                                                                         Uncollectibles
1. Intra-governmental
   Receivables:                                            $461,867                 N/A          $461,867          $523,347
2. Non-Federal Receivables
    (From the Public):                                     $628,934         ($136,540)           $492,394          $514,579
3. Total Accounts Receivable:                            $1,090,801         ($136,540)           $954,261        $1,037,926

4. Allowance Method:
The method to estimate Allowance for Loss on Accounts Receivable was changed from percentage of actual
write-offs to percentage of aged receivables by category. The allowance is calculated by using 50 percent of
aged receivables in the 180 day to 2-year category and 100 percent of aged receivables in the greater than
2-year category. The aged categories are taken from the FY 2004 Quarterly Accounts Receivable Report. The
Allowance for Loss on Accounts Receivable will be reestimated annually in compliance with standards.


5. Other information:

Fluctuations and/or Abnormalities
Intragovernmental Receivables decreased $61,480 thousand or 12 percent from FY 2003 to FY 2004. The
decrease was seen in receivable balances from the Department of Justice for $10,021 thousand, Department
of the Air Force for $28,013 thousand, and Department of Transportation for $26,564 thousand.

Net Non-Federal Accounts Receivables (from the Public) decreased $22,185 thousand or 4 percent from
FY 2003 to FY 2004. The decrease is primarily attributable to the increase in the Allowance for Loss on
Accounts Receivable $68,615 thousand and an increase in undistributed collections of $34,600 thousand.
The estimation method was changed during the ﬁscal year to include aged vendor and contractor debt from
DoD’s centralized collection activity in Columbus. Percentages for aged balances were also changed to more
accurately reﬂect collectable receivables. Both of these changes caused the net realizable receivable balances
to decrease. Some increases were also seen in areas impacted by contingency mission as In-Service and
Out-of-Service debts increased $45,358 thousand and debts from Foreign Governments increased $29,833
thousand.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 52
Non-Federal Accounts Receivable (from the Public) consists of accounts receivable, refund receivable,
claims receivable and interest receivable. The following schedule illustrates the major contributors to Non-
Federal Accounts Receivable (from the Public), by type of debt (in thousands):


Type of Debt                                                   Amount
Contractor Debt                                                $ 104,252
Individual (Out-of-Service)                                      165,707
Military Pay (In-Service)                                        100,716
Civilian Pay (In-Service)                                          24,552
Sales of Goods & Services                                          49,500
Interest                                                           49,843
Foreign Military Sales                                             68,029
Foreign Governments                                                76,438
Non-Appropriated Funds Instrumentalities                           13,512
Vendor Debt                                                         6,483
Other                                                              37,008
   Subtotal                                                    $ 696,040
Undistributed Collections Public                                 (67,106)
   Note 5, Line 2, Column 1                                    $ 628,934


Relevant Information for Comprehension

Allocation of Undistributed Collections
The Army reported $67,106 thousand of supported undistributed collections. The Army supported
undistributed collections are reported as either federal or public using the reimbursable source code.


Elimination Adjustments
The Army’s General Fund accounting systems do not capture trading partner data at transaction level
in a manner that facilitates trading partner aggregations. Therefore, the Army is unable to reconcile
Intragovernmental Accounts Receivable balances with its trading partners. The Army intends to develop
long-term systems improvements that will include sufﬁcient up-front edits and controls to eliminate the need
for after-the-fact reconciliations. These improvements will be implemented incrementally through planned
ﬁelding of a compliant ﬁnancial management system for all Army activities.


Accounts Receivable Over 180 Days
The Army reported $168,871 thousand of Non-Federal Accounts Receivable (from the Public) and $3,541
thousand of Intragovernmental Accounts Receivable over 180 days. Over 92 percent of Non-Federal
Accounts Receivable (from the Public) consisted of personnel and contractor debt. The Intragovernmental
Accounts Receivable consisted of debt from reimbursable transactions within DoD.

Non-Federal Refunds Receivable
(in thousands)

        FY 2004 Non-Federal          FY 2004 Non-Federal
         Refunds Receivable        Accounts Receivable (Net)        Percent of Net Amount
                 $267,061                  $492,394                          54

Amounts reported for Public Refunds Receivable primarily originated from debts owed by military service
members collectible to Army’s active military personnel appropriation.


Note Reference
See Note Disclosure 1.K. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Accounts Receivable.



                                                                                                               53
Note 6.                  Other Assets
As of September 30
(Amounts in thousands)                                                 2004                2003
1. Intra-governmental Other Assets:
     A. Advances and Prepayments                                       $556,380            $83,474
     B. Other Assets                                                          0                  0
     C. Total Intra-governmental Other Assets                          $556,380            $83,474

2. Non-Federal Other Assets:
   A. Outstanding Contract Financing Payments                        $2,789,090       $3,163,668
   B. Other Assets (With the Public)                                    562,414          405,353
   C. Total Non-Federal Other Assets                                 $3,351,504       $3,569,021

3. Total Other Assets:                                               $3,907,884       $3,652,495

4. Other Information Related to Other Assets:

Fluctuations and/or Abnormalities

Intragovernmental Advances and Prepayments
Intragovernmental Advances and Prepayments increased $472,906 thousand or 567 percent from FY 2003.
Improved business processes allowed us to capture the advances to others with agencies outside of DoD for
FY 2004. Advances to the Department of Interior for $389,750 thousand and Department of Transportation
for $83,907 thousand make up the majority of the overall increase.


Non-Federal Other Assets
   Outstanding Contract Financing Payments
      The Army has reported outstanding ﬁnancing payments for ﬁxed price contracts as an advance and
      prepayment. The Army becomes liable after the contractor delivers the goods in conformance with the
      contract terms of ﬁxed price contracts. The Army is not obligated to reimburse the contractor for its
      costs and the contractor is liable to repay the Army the full amount of the outstanding contract ﬁnancing
      payments if a satisfactory product is not delivered.
      Outstanding Contract Financing Payments decreased $374,578 thousand or 12 percent from          FY
      2003. The majority of the decrease occurred in the appropriations for Missile Procurement, Army
      of $258,900 thousand and Procurement of Weapons & Tracked Combat Vehicles, Army of $87,584
      thousand.
           Other Assets (With the Public) (Amounts in thousands)
           The following chart provides a breakdown of the report data types for FY 2004:

Type of Assets                              FY 2004               FY 2003
Advances to Others:
Contractor Advance                           $329,930              $160,917
Travel Advances                               232,484               195,681
Other                                               0                48,755
Totals                                       $562,414              $405,353


The Other Assets (With the Public) increased $157,061 thousand or 39 percent due to increases in contractor
advances and military personnel travel advances in support of the Global War on Terrorism (GWOT).
Intragovernmental Eliminations
The buyer-side Advances and Prepayments balances were adjusted upward $717,530 thousand to agree with
seller-side unearned revenue on the books for other DoD reporting entities. In addition, $166,176 thousand of
intra-Army General Fund transactions were eliminated leaving a balance of $556,380 thousand.

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 54
Note Reference
See Note Disclosure 1. R. – Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Other Assets.

For Regulatory Discussion on Other Assets see, Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1008.

Note 7.                  Cash and Other Monetary Assets
As of September 30
(Amounts in thousands)
                                                       2004               2003
1.   Cash                                               $1,168,692        $780,574
2.   Foreign Currency (non-purchased)                      356,398         173,794
3.   Other Monetary Assets                                       0               0
4.   Total Cash, Foreign Currency, & Other Monetary
                                                        $1,525,090        $954,368
      Assets

5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

Deﬁnitions:
Cash – The total of cash resources under the control of the Army, which includes coin, paper currency,
negotiable instruments, and amounts on deposit in banks and other ﬁnancial institutions. Cash available for
agency use includes petty cash funds and cash held in revolving funds which will not be transferred into the
U.S. Government General Fund.

Foreign Currency – Consists of the total U.S. dollar equivalent of purchased foreign currencies held in
foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000
fund account.

Other Monetary Assets - Includes gold, special drawing rights, and U.S. Reserves in the International
Monetary Fund. This category is principally for use by the Department of the Treasury.


Fluctuations and/or Abnormalities
Cash and foreign currency increased $570,722 thousand or 60 percent, primarily to support the contingency
missions Operation Iraqi Freedom and Operation Enduring Freedom. Overall foreign currency increased
approximately $182,604 thousand or 105 percent, which includes currency to pay foreign vendors and cash
in the custody of foreign agents primarily in support of the Army’s forward deployed tactical units. Other
increases occurred in the U.S. Army Corps of Engineers as the Republic of Korea increased agreements for
reimbursable work to be performed.


Other Information Related to Cash and Other Monetary Assets
Cash and foreign currency reported consists primarily of cash held by disbursing ofﬁcers to carry out their
paying, collecting and foreign currency accommodation exchange mission. Foreign currency is valued using
the Department of Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that would
legally be available to the U.S. Government’s acquisition of foreign currency for its ofﬁcial disbursements
and accommodation of exchange transactions. All of the Army’s cash and foreign currency, $1,525,090
thousand, is non-entity and is therefore restricted.


Note Reference
See Note Disclosure 1. J. - Foreign Currency for additional discussion on ﬁnancial reporting requirements
and DoD policies.

                                                                                                               55
Note 8. A.             Direct Loan and/or Loan Guarantee Programs
1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or
     Loan guarantee program(s):
      Military Housing Privatization Initiative
      Armament Retooling & Manufacturing Support Initiative
2. Other Information:
Armament Retooling and Manufacturing Support Initiative
The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 United States Code (USC)
4551-4555, is designed to encourage commercial use of the Army’s inactive ammunition plants through
many incentives for businesses willing to locate to a government ammunition production facility. These
facilities have production capacity greater than the current military requirements; however, this capacity
could be needed in the event of a major war. The revenues from the property rental are used to pay for the
operation, maintenance and environmental clean up at the facilities. This savings in overhead cost lowers
the production cost of the goods manufactured and funds the environmental clean up at no cost to the
government.

The Army, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate
commercial ﬁrms’ use of speciﬁed ammunition manufacturing facilities. The Army and Department of
Agriculture Rural Business-Cooperative Service (RBS) established a Memorandum of Understanding for the
RBS to administer the ARMS Initiative Loan Guarantee Program (AILG).

Note 8.B.              Direct Loans Obligated After FY 1991
Not Applicable

Note 8.C.              Total Amount of Direct Loans Disbursed
Not Applicable

Note 8.D.              Subsidy Expense for Post-1991 Direct Loans
Not Applicable

Note 8.E.              Subsidy Rate for Direct Loans
Not Applicable

Note 8.F.              Schedule for Reconciling Subsidy Cost Allowance Balances for Post-
                       1991 Direct Loans
Not Applicable

Note 8.G.              Defaulted Guaranteed Loans from Post-1991 Guarantees
Not Applicable




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 56
Note 8.H.                Guaranteed Loans Outstanding
                                                            Outstanding Principal,           Amount of
                                                             Guaranteed Loans,             Outstanding
 As of September 30                                              Face Value            Principal Guaranteed
 (Amounts in thousands)
 Guaranteed Loans Outstanding:
 1. Military Housing Privatization Initiative                                  $0                       $0
 2. Armament Retooling & Manufacturing Support Initiative                 $27,051                  $24,267
 3. Total                                                                 $27,051                  $24,267

                              2004
 New Guaranteed Loans Disbursed:
 1. Military Housing Privatization Initiative                                  $0                       $0
 2. Armament Retooling & Manufacturing Support Initiative                      $0                       $0
 3. Total                                                                      $0                       $0

                              2003
 New Guaranteed Loans Disbursed:
 1. Military Housing Privatization Initiative                                  $0                       $0
 2. Armament Retooling & Manufacturing Support Initiative                      $0                       $0
 3. Total                                                                      $0                       $0



Note 8.I.                Liability for Post-1991 Loan Guarantees, Present Value
As of September 30
(Amounts in thousands)                                           2004            2003
Loan Guarantee Program Title
1. Military Housing Privatization Initiative                            $0              $0
2. Armament Retooling & Manufacturing Support Initiative            12,293            1,273
3. Total                                                          $12,293            $1,273

4. Other Information:

Fluctuations and/or Abnormalities
Total Loan Guarantee Liabilities increased $11,020 thousand between FY 2003 and FY 2004 primarily due to
the new FY 2004 loan obligation and a liability for an impending loss claim.




                                                                                                              57
Note 8.J.                  Subsidy Expense for Post-1991 Loan Guarantees
  As of September 30
  (Amounts in thousands)

                                                                 Interest
                              2004                                                   Defaults           Fees             Other         Total
                                                                Differential
  1. Subsidy Expense for New Loan Guarantees
     Disbursed:
  Military Housing Privatization Initiative                                 $0                  $0              $0                $0       $0
  Armament Retooling & Manufacturing Support Initiative                        0             174               (56)                0     118

    Total                                                                   $0             $174            ($56)                 $0     $118


                                                                 Interest
                              2003                                                   Defaults           Fees             Other         Total
                                                                Differential
  2. Subsidy Expense for New Loan Guarantees
     Disbursed:
  Military Housing Privatization Initiative                                 $0                  $0              $0                $0       $0
  Armament Retooling & Manufacturing Support Initiative                        0             145                (8)               37     174
    Total                                                                   $0             $145                ($8)              $37    $174

                                                                                   Interest Rate      Technical          Total
                              2004                             Modifications                                                           Total
                                                                                   Reestimates       Reestimates      Reestimates
  3. Loan Guarantee Modifications and Reestimates:
  Military Housing Privatization Initiative                                 $0                  $0              $0                $0       $0
  Armament Retooling & Manufacturing Support Initiative                        0                 0         7,451                   0    7,451
    Total                                                                   $0                  $0        $7,451                  $0   $7,451


                                                                                   Interest Rate      Technical          Total
                              2003                             Modifications                                                           Total
                                                                                   Reestimates       Reestimates      Reestimates
  4. Loan Guarantee Modifications and Reestimates:
  $4. Direct Loan Modifications and Reestimates:
  Military Housing Privatization Initiative                                 $0                  $0              $0                $0       $0
  Armament Retooling & Manufacturing Support Initiative                        0                 0               0                 0           0
    Total                                                                   $0                  $0              $0               $0       $0


                              2000                                 2004               2003
  5. Total Loan Guarantee Subsidy Expense:
  Military Housing Privatization Initiative                            $0                       $0
  Armament Retooling & Manufacturing Support Initiative             7,569                    174
     Total                                                         $7,569                  $174


6. Other Information:
Total Loan Guarantee Subsidy Expense increased $7,395 thousand between FY 2003 and FY 2004, primarily
due to a liability for an impending loss claim. See Note 8.L Schedule for Reconciling Loan Guarantee
Liability Balances for Post-1991 Loan Guarantees.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 58
Note 8.K.                Subsidy Rate for Loan Guarantees
                                                                               Fees and
                                                   Interest
                                                               Defaults          other           Other   Total
Loan Guarantees:                                 Supplements
                                                                              Collections
1. Military Housing Privatization Initiative:          0.00%     0.00%              0.00%        0.00%   0.00%
2. Armament Retooling & Manufacturing
                                                       0.00%     4.97%             -1.60%        0.00%   3.37%
   Support Initiative

3. Other Information:
This budgeted subsidy rate in effect for the FY 2004 remained the same for the entire ﬁscal year.

Note 8.L.                Schedule for Reconciling Loan Guarantee Liability Balances for
                         Post-1991 Loan Guarantees
Beginning Balance, Changes and Ending Balance                     2004              2003
(Amounts in thousands)
1. Beginning Balance of the Loan Guarantee Liability                 $1,273             $730

2. Add: Subsidy Expense for Guaranteed Loans
   Disbursed during the Reporting Years by Component
   A. Interest Supplement Costs                                              $0           $0
   B. Default Costs (Net of Recoveries)                                    174           145
   C. Fees and Other Collections                                           (56)           (8)
   D. Other Subsidy Costs                                                     0           37
   E. Total of the above Subsidy Expense Components                       $118          $174

3. Adjustments
   A. Loan Guarantee Modifications                                       $0               $0
   B. Fees Received                                                       0              324
   C. Interest Supplements Paid                                           0                0
   D. Foreclosed Property and Loans Acquired                              0                0
   E. Claim Payments to Lenders                                           0                0
   F. Interest Accumulation on the Liability Balance                  3,451               45
   G. Other                                                               0                0
   H. Total of the above Adjustments                                 $3,451             $369

4. Ending Balance of the Loan Guarantee Liability before
                                                                     $4,842           $1,273
   Re-estimates

5. Add or Subtract Subsidy Re-estimates by Component
   A. Interest Rate Re-estimate                                           0                  0
   B. Technical/default Re-estimate                                   7,451                  0
   C. Total of the above Re-estimate Components                      $7,451                 $0

6. Ending Balance of the Loan Guarantee Liability                   $12,293           $1,273

7. Other Information:




                                                                                                                 59
Note 8.M.                Administrative Expense
As of September 30                                                          2004           2003
(Amounts in thousands)
1. Direct Loans:
   Military Housing Privatization Initiative                                       $0          $0
   Armament Retooling & Manufacturing Support Initiative                            0           0
  Total                                                                            $0          $0

2. Loan Guarantees:

  Military Housing Privatization Initiative                                        $0          $0
  Armament Retooling & Manufacturing Support Initiative                             0          14
  Total                                                                            $0         $14

3. Other Information:
No administrative expenses were processed in FY 2004.

Note 9.                  Inventory and Related Property
As of September 30                                                     2004                  2003
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                          $204,707              $293,228
2.   Operating Materials & Supplies, Net (Note 9.B.)                   37,443,014            32,383,430
3.   Stockpile Materials, Net (Note 9.C.)                                       0                     0
4.   Total                                                           $37,647,721           $32,676,658

Note 9.A.                Inventory, Net
                                                                       2004                                   2003
                                                 Inventory,         Revaluation                                            Valuation
                                                                                        Inventory, Net    Inventroy, Net
As of September 30                              Gross Value          Allowance                                              Method
(Amounts in thousands)

1. Inventory Categories:
   A. Available and Purchased for
       Resale                                        $20,470            ($7,702)              $12,768           $33,686      LAC
   B. Held for Repair                                      0                   0                    0                 0
   C. Excess, Obsolete, and
       Unserviceable                                  13,006           (13,006)                     0                0       NRV
   D. Raw Materials                                        0                  0                     0                0
   E. Work in Process                                191,939                  0               191,939          259,542        SP
   F. Total                                         $225,415          ($20,708)              $204,707         $293,228

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price
AC = Actual Cost
2. Restrictions of Inventory Use, Sale, or Disposition:
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

1) Distributions without reimbursements made when authorized by DoD directives;


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 60
2) War Reserve Material includes fuels and subsistence items that are considered restricted; and
3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments,
   private parties, and contractors in accordance with current policies and guidance or at the direction of
   The President.

3. Other Information:

General Composition of Inventory
Inventory is comprised of ammunition in the Conventional Ammunition Working Capital Fund (CAWCF).
Inventory is tangible personal property that is:

1) Held for Sale, or Held for Repair for eventual sale;
2) In the process of production for sale; or
3) To be consumed in the production of goods for sale or in the provision of services for a fee.
Excess, obsolete and unserviceable inventory is condemned material that must be retained for management
purposes. Work-in-Process includes munitions in production and depot maintenance work with its associated
labor, applied overhead, and supplies used in the delivery of maintenance services. The U.S. Standard
General Ledger does not include a separate Work-in-Process account unrelated to sales.


Decision Criteria for Identifying the Category to Which Inventory is Assigned
Managers determine which items are more costly to repair than replace. Items retained for management
purposes are coded condemned. The net value of these items is zero, and is shown as excess, obsolete, and
unserviceable. The category held for sale includes all issuable material. Economically reparable material
is categorized as held for repair. Prior to FY 2002, the Army showed potentially redistributable material,
regardless of condition, as excess, obsolete, and unserviceable.


Fluctuations and/or Abnormalities
The CAWCF reports balances for Inventory Available and Purchased for Resale; Inventory Excess, Obsolete,
and Unserviceable; and Inventory Work-in-Process. Inventory sales are primarily made to the Military
Departments. CAWCF Total Inventory, Net, showed an overall decrease of $88,521 thousand or 30 percent,
in FY 2004. CAWCF Available and Purchased for Resale Inventory, Net showed a decrease of $20,918
thousand or 62 percent with the decrease attributable to the close out of CAWCF Inventory Work-in-Process
that decreased $67,603 thousand or 26 percent. The year to year decrease in CAWCF Inventory is expected
as the Army’s CAWCF progresses to ﬁnal closeout by September 30, 2005. However, the fund will remain
open through September 30, 2007 to complete the cleanup and disposal of CAWCF-owned inventories of
munitions, components and general supplies. Effective September 30, 1998, CAWCF ofﬁcially closed for
the acceptance of new orders for the procurement of Conventional Ammunitions. Currently undelivered
customer orders have not been ﬁlled because of incidents beyond control at production facilities. This
includes litigation and lack of government furnished materials required to complete production on time.
All deliveries of existing CAWCF orders are expected to be made prior to September 2005. The CAWCF
ﬁnal ﬁnancial position will be determined before CAWCF’s October 31, 2005 closeout. The above dates are
not ﬁrm and are subject to change. The majority of CAWCF Work-in-Process is performed at Government
Owned Contractor Operated plants.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Inventory and related Property.




                                                                                                              61
Note 9.B.                Operating Materials and Supplies, Net
                                                                                2004                        2003
                                                            OM&S           Revaluation                                  Valuation
                                                                                            OM&S, Net     OM&S, Net
As of September 30                                        Gross Value       Allowance                                    Method
(Amounts in thousands)
1. OM&S Categories:
   A. Held for Use                                        $37,443,014                  $0   $37,443,014   $32,383,430     LAC
   B. Held for Repair                                                0                 0             0             0
   C. Excess, Obsolete, and Unserviceable                      980,073         (980,073)             0             0       SP
   D. Total                                               $38,423,087        ($980,073)     $37,443,014   $32,383,430

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses.
SP = Standard Price
2. Restrictions on OM&S:

Tonnage
The total tonnage of munitions stock, to include chemical stocks awaiting destruction for FY 2004 and out
years, is 411,969 tons.


Balances
The Army reported $5,000,000 thousand of Operating Materials and Supplies (OM&S) Held for Future Use.
This amount represents ammunition held under a host nation treaty agreement and is not intended for use by
U.S. Forces. The ammunition is intended for use in defense of the host nation by the host nation.


3. Other Information:

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, and tactical missiles.


Changes in the Criteria for Identifying the Category to which OM&S are Assigned
The category Held for Use includes all issuable material. Economically reparable material is categorized as
held for repair.


Decision Criteria for Identifying the Category to which OM&S are Assigned
Managers determine which items are more costly to repair than to replace. Items retained for management
purposes are coded condemned. The net value of these items is zero, and is shown as Excess, Obsolete, and
Unserviceable.


Other Information Related to OM&S, Net

Fluctuations and/or Abnormalities
OM&S, Net, increased by $5,059,584 thousand or 16 percent between FY 2003 and FY 2004. The net
increase is attributable to $2,827,358 thousand increase in Missile Procurement, Army OM&S reported
by the U.S. Army Aviation and Missile Command and a $2,320,112 thousand increase being reported in
the Worldwide Ammunition Reporting System (WARS). The increase in Missile Procurement, Army is
the result of movement of funding from Procurement, Defense Wide to Missile Procurement, Army for
the Patriot Advance Capability 3 in support of the Global War on Terrorism. The WARS increase is the
result of Operation Iraqi Freedom, movement to uses other than basic load and training, retrograde and

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 62
asset movement from troops to ammunition storage points, and Central Command (CENTCOM) inventory
reconciliation.


Total Excess, Obsolete and Unserviceable
The Army establishes an allowance for excess, obsolete, and unserviceable OM&S and inventory at 100
percent of the carrying amount in accordance with DoD policy.


Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
The value of the Army’s GFM and CAM in the hands of contractors is normally not included in the OM&S
values reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to
determine the appropriate accounting treatment and the best method to annually collect and report required
information without duplicating information in other existing logistics systems.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Inventory and Related Property.

Note 9.C.                Stockpile Materials, Net
Not Applicable

Note 10.                 General PP&E, Net
                                                                        2004                                      2003
                                      Depreciation/                               (Accumulated
                                                       Service      Acquisition                   Net Book     Prior FY Net
                                      Amortization                                Depreciation/
                                                        Life          Value                        Value       Book Value
As of September 30                      Method                                    Amortization)
(Amounts in thousands)

1. Major Asset Classes:
   A . Land                               N/A            N/A           $464,254             N/A    $464,254       $438,580
   B. Buildings, Structures, and
                                          S/L         20 Or 40       42,244,123   ($26,647,486)   15,596,637    14,216,010
       Facilities
   C. Leasehold Improvements              S/L         lease term         11,455        (9,311)        2,144        1,807
   D. Software                            S/L          2-5 Or 10        391,865       (99,801)      292,064       51,442
   E. General Equipment                   S/L           5 or 10       2,682,225    (1,755,619)      926,606   95,272,905
   F. Military Equipment                  S/L           Various     383,210,000 (292,930,000)    90,280,000            0
   G. Assets Under Capital Lease1         S/L         lease term        166,071      (130,074)       35,997       44,384
   H. Construction-in-Progress            N/A             N/A         5,495,062            N/A    5,495,062    5,294,164
   I. Other                                                              18,808              0       18,808       18,614
   J. Total General PP&E                                           $434,683,863 ($321,572,291) $113,111,572 $115,337,906

1
    Note 15.B for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable


2. Other Information:

Fluctuations and/or Abnormalities
    The net book value (NBV) of Buildings, Structures, and Facilities increased by $1,380,627 thousand


                                                                                                                         63
      or 10 percent. This increase is from the continued recording of previously omitted real property data.
      Personnel from the Assistant Secretary of the Army (Financial Management & Comptroller) and
      Assistant Chief of Staff for Installation Management (ACSIM) determined that the Army is the proper
      reporting entity for this data.
      The NBV of Leasehold Improvements increased $337 thousand or 19 percent. The increase is attributed
      to more accurate reporting as a result of quality assurance/quality control reviews by the ACSIM.
      The Army reported an increase in Software NBV of $240,622 thousand or 468 percent. This increase
      is attributed to an initiative to report internal use software such as: Reserve Component Automation
      System, Joint Computer Aided Acquisition and Logistic Support, Transportation Information System
      Block I, Property Book Unit Supply Enhancement and various other projects.
      In FY 2004, Treasury issued guidance to report military equipment and general equipment on separate
      lines for footnote reporting. Therefore, FY 2003 equipment includes the military equipment NBV of
      $94,430,000 thousand and general equipment NBV of $842,905 thousand. This change causes the
      amounts reported in the table to be inaccurate in their comparative breakdown of General and Military
      Equipment. The ﬂuctuations explained below are the accurate representations of General and Military
      Equipment:
           The NBV of General Equipment increased $83,701 thousand or 10 percent due primarily to the
           U.S. Army Materiel Command- Logistics Support Activity reporting previously omitted general
           equipment.
           The NBV of Military Equipment decreased $4,150,000 thousand or 4 percent due to the revision of
           the estimate by the Bureau of Economic Analysis (BEA). See below for additional information.
      Assets Under Capital Lease – See explanation in Note 10.A.

Relevant Information for Comprehension

Military Equipment
In FY 2004, the Army reported military equipment with an acquisition value of $383,210,000 thousand and
accumulated depreciation of $292,930,000 thousand for a NBV of $90,280,000 thousand.

The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting
Standards No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, in May 2003.
This standard, which is effective for accounting periods beginning after September 30, 2002, established
generally accepted accounting principles (GAAP) for valuing and reporting military equipment (e.g., ships,
aircraft, combat vehicles, weapons) in Federal ﬁnancial statements. The standard requires the capitalization
and depreciation of the cost of military equipment, including the cost of modiﬁcations and upgrades.

The DoD has determined that it is not practical at this time to accumulate from internal records the
information necessary to value military equipment in accordance with GAAP, because the Army and DoD
are currently working to revise their accounting processes and systems to support informational needs of
management and compliance with GAAP. In the interim, DoD will base the value of military equipment for
ﬁnancial statement presentation purposes on data provided by the BEA, Department of Commerce.

The data provided by BEA consist of investment and net book value data for 84 groups of military equipment
such as tracked vehicles, aircraft, ships and combat vehicles. DoD adjusted BEA data to eliminate equipment
items that are not accounted for as military equipment, such as spares, munitions, and inventory items, which
are accounted for and reported as Inventory and Related Property.

BEA uses DoD budget, expenditure, and delivery data to calculate the Army’s annual investment in military
equipment, after recognizing any equipment transfers or war losses. BEA recently revised its FY 2003 data,
resulting in a decrease of 6 percent in the Acquisition Value and an increase of 4 percent in the Accumulated
Depreciation of the Army military equipment. Previous data was based, in part, on BEA projections because


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 64
source data was not available. The revised data for FY 2003 is based on updated and more complete source
data. Further, the revised data reﬂects changes in the methods and data BEA uses to estimate the investment
in, and depreciation of, military equipment resulting from BEA’s 2003 Comprehensive Revision of the
National Income and Product Accounts. A major factor in the reduction of the Acquisition Value of military
equipment was new data that showed that governments purchased a smaller proportion of the domestic
supply of software than had previously been estimated.


Other
The $18,808 thousand for Other represents the projected value of forest product sales (timber reserves) for
FY 2004.


Note Reference
See Note Disclosure 1. O. – General Property, Plant and Equipment for additional discussion on ﬁnancial
reporting requirements and DoD policies.

Note 10.A.               Assets Under Capital Lease
As of September 30                                      2004         2003
(Amounts in thousands)
1. Entity as Lessee, Assets Under Capital Lease:
   A. Land and Buildings                                $166,071     $166,071
   B. Equipment                                                 0            0
   C. Other                                                     0            0
   D. Accumulated Amortization                          (130,074)    (121,687)
   E. Total Capital Leases                                $35,997      $44,384

2. Description of Lease Arrangements:

3. Other Information:

Fluctuations and/or Abnormalities
The Assets under Capital Lease decreased by $8,387 thousand or 19 percent due to straight-line depreciation
of leased assets.


Relevant Information for Comprehension
The Army is the lessee in eight Section 801 Family Housing Leases for two on-post and six off-post housing
facilities. These leases have between four and ten years remaining on their terms. As shown in Note 15.A.,
the liability is valued at $12,765 thousand for current and $46,632 thousand for non-current. The future
executory and imputed interest costs, as shown in Note 15.B., are $14,765 thousand and $13,379 thousand,
respectively. Future executory costs are estimates based on historical data. The imputed interest that was
necessary to reduce the net minimum lease payments to the present value was calculated at the incremental
borrowing rate at the inception of the leases.


Note Reference
See Note Disclosure 1. Q. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing leases.




                                                                                                              65
Note 11.                  Liabilities Not Covered by Budgetary Resources
As of September 30                                                           2004            2003
(Amounts in thousands)
1. Intra-governmental Liabilities
   A. Accounts Payable                                                             $0              $0
   B. Debt                                                                          0               0
   C. Environmental Liabilities                                                     0               0
   D. Other                                                                   593,847         382,806
   E. Total Intra-governmental Liabilities                                   $593,847        $382,806

2. Non-Federal Liabilities
   A. Accounts Payable                                                        $73,766               $0
   B. Military Retirement Benefits and
                                                                            1,632,843        1,761,317
      Other Employment-Related Actuarial Liabilities
   C. Environmental Liabilities                                            37,494,670       34,503,765
   D. Loan Guarantee Liability                                                      0                0
   E. Debt Held by Public                                                           0                0
   F. Other Liabilities                                                     4,871,124        5,566,897
   G. Total Non-Federal Liabilities                                       $44,072,403      $41,831,979

3. Total Liabilities Not Covered by Budgetary
                                                                          $44,666,250      $42,214,785
    Resources

4. Total Liabilities Covered by Budgetary Resources                       $19,584,078      $18,174,918

5. Total Liabilities                                                      $64,250,328      $60,389,703

Liabilities Not Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered funded by
realized budgetary resources as of the balance sheet date.

Reporting requirements for this note changed in FY 2004. The FY 2003 Note 11 comparison was total
Liabilities Covered and Not Covered by Budgetary Resources. In FY 2004, the comparison is only
for Liabilities Not Covered by Budgetary Resources. The schedule below identiﬁes the Army Other
Intragovernmental and Non-Federal liabilities. Fluctuation explanations are presented in Note 15.

 (Amounts in thousands)

Intragovernmental Liabilities-Other                          FY 2004           FY 2003
       FECA                                                   $281,613          $156,445
       Unemployment Beneﬁts                                    133,628            78,516
       Cancelled Receivables                                    95,693                 0
       Judgment Fund                                            81,923           144,221
       No FEAR                                                     990                 0
       Education Beneﬁts Fund                                        0             3,624
Total Intragovernmental- Other                                $593,847          $382,806
Non-Federal Liabilities - Other Liabilities
      Annual Leave                                           $2,656,508       $2,634,641
      Nonenvironmental – Disposal                             1,325,886        1,192,935
      Contingent Liabilities                                    742,237        1,335,090
      Iraqi Seized Cash                                         113,430          278,139
      Capital Leases                                             33,063           44,549
      Cancelled Appropriations                                        0           81,543
Total Non-Federal- Other                                     $4,871,124       $5,566,897

The FY 2004 revised Treasury Financial Manual guidance affected the reporting of several accounts.
Cancelled Receivables was ﬁrst reported in 2nd Quarter. The Judgment Fund liability for the Notiﬁcation
and Federal Employee Antidiscrimination and Retaliation (No FEAR) Act of 2002 was ﬁrst reported in 3rd

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 66
Quarter. Cancelled Appropriations was changed from Non-Federal Other Liabilities and since 3rd Quarter
is being reported as Accounts Payable. Education Beneﬁts Fund changed from Unfunded to Funded in 4th
Quarter, FY 2004.
Note Reference
For Additional Line Item discussion, see:
Note 2, Nonentity and Entity Assets
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Debt
Note 14, Environmental Liabilities and Disposal Liabilities
Note 15, Other Liabilities
Note 16, Commitments and Contingencies
Note 17, Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities
Note 23, Disclosures Related to the Statement of Custodial Activity

Note 12.                 Accounts Payable
                                                                2004                                 2003
                                                              Interest,
                                                           Penalties, and
                                             Accounts      Administrative
As of September 30                           Payable           Fees                Total             Total
(Amounts in thousands)

1. Intra-governmental Payables:              $1,706,731         N/A              $1,706,731         $1,084,965

2. Non-Federal Payables (to the Public):     $9,460,025               $169       $9,460,194         $9,089,097
3. Total                                    $11,166,756               $169     $11,166,925         $10,174,062

4. Other Information:
Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
services ordered and received but not paid. Interest, penalties and administrative fees are not applicable to
intragovernmental payables. Non-Federal Accounts Payable (to the Public) are payables to entities other than
the federal government.


Fluctuations and/or Abnormalities

Intragovernmental Accounts Payable
Intragovernmental Accounts Payable with entities other than the Army General Fund increased $621,766
thousand or 57 percent, in FY 2004. Increases were reported by the following activities (amounts in
thousands).

Activities/Trading Partner                                FY 2004            FY 2003          Change         Percent Change
General Service Administration                            $364,219                 $0         $364,219                  100
US Transportation Command Component                        121,546            374,156         (252,610)                 (68)
Department of the Treasury                                 152,583                  0           152,583                 100
Defense Logistics Agency Component                         290,829            103,781           187,048                 180
Tricare Management Agency Component Level                    7,897            100,927          (93,030)                 (92)
Department of Labor                                         86,502                  0            86,502                 100
Department of Energy                                        31,810                  0            31,810                 100
Homeland Security                                           30,949                  0            30,949                 100
Environmental Protection Agency                             24,901                  0            24,901                 100
Navy General Fund Component Level                           22,323              4,294            18,029                 420
Navy WCF Component Level                                    33,598             17,241            16,357                   95



                                                                                                                           67
(continued)

Activities/Trading Partner                                              FY 2004             FY 2003     Change      Percent Change
Other Defense Organizations General Fund Component Level                   2,063               16,014    (13,951)              (87)
Army Working Capital Fund Component Level                                371,336              365,836       5,500                 2
Department of Agriculture                                                 12,518                    0      12,518              100
Department of State                                                       11,277                    0      11,277              100
Other Fluctuations                                                       142,379              102,717      39,664                39
                                                        Totals        $1,706,730           $1,084,966   $621,766                 57

The increase is attributable to improved business processes for reporting Accounts Payable with agencies
outside of DoD for FY 2004. This resulted in an overall increase in Accounts Payable of $738,651 thousand
or 119 percent of the total increase in Intragovernmental Accounts Payable.


Non-Federal Accounts Payable
Non-Federal payables increased $371,097 thousand or 4 percent in FY 2004. The majority of the increase
occurred in appropriations that received additional funding to support the contingency missions Operations
Enduring Freedom, Iraqi Freedom, and Noble Eagle. The support included the activation of reserve
personnel, the maintenance of warﬁghting equipment, and the replacement of equipment lost or damaged in
active conﬂict. Other areas of support included warﬁghting readiness, force protection, anti-terrorism base
operations, and other security programs.


Relevant Information for Comprehension

Mapping Changes
In FY 2004, Treasury Financial Manual guidance changed the report mapping requiring all entities to report
Accounts Payable-Cancelled Appropriations as part of Accounts Payable. This resulted in an increase of
$73,766 thousand for FY 2004.


Undistributed Disbursements
Undistributed disbursements are the difference between disbursements/collections recorded at the detailed
level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records versus those reported by the
U.S. Treasury via the reconciled DD 1329, Statement of Transactions and DD 1400, Statement of Interfund.

Supported undistributed disbursements are allocated to Non-Federal Accounts Payable. As a result, Accounts
Payable was adjusted downwards in the amount of $1,797,162 thousand. Unsupported undistributed
disbursements were taken from the Undistributed Disbursements and Collections Report, HDF 090, and
recorded in U.S. Standard General Ledger account 2120, Disbursements in Transit.


Intragovernmental Eliminations
The Army accounting systems do not capture trading partner data at the transaction level in a manner that
facilitates trading partner aggregations for intra-agency sales. Therefore, the Army was unable to reconcile
intragovernmental accounts payable to the related intragovernmental account receivable that generated the
payable.

The DoD summary level seller Accounts Receivables were compared to the Army Accounts Payable. An
adjustment was posted to Accounts Payable based on the comparison with the Accounts Receivable of the
DoD Components providing goods and services to the Army. Intra-governmental Accounts Payable were
adjusted downward for $977,479 thousand while Non-Federal Accounts Payable were adjusted upward for
the same amount. The Army intends to develop long-term systems improvements that will include sufﬁcient
upfront edits and controls to eliminate the need for after-the-fact reconciliations. In addition, $1,292,676
thousand of intra-Army General Fund transactions were eliminated leaving a balance of $1,706,730
thousand.

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 68
Note Reference
See Note Disclosure 1. G. – Accounting for Intragovernmental Activities for additional discussion on
ﬁnancial reporting requirements and the DoD policies.

Note 13.            Debt
Not Applicable.

Note 14.            Environmental Liabilities and Disposal Liabilities
                                                                             2004                        2003
As of September 30                                        Current         Noncurrent
(Amounts in thousands)                                    Liability        Liability       Total          Total
1. Environmental Liabilities – Non Federal
  A. Accrued Environmental Restoration (DERP funded)
        Costs:
    1. Active Installations--Environmental Restoration    $846,688         $2,673,653    $3,520,341     $3,696,102
       (ER)
    2. Active Installations--ER for Closed Ranges           26,222          5,754,833     5,781,055      3,182,708
    3. Formerly Used Defense Sites (FUDS) -- ER            341,026          3,980,250     4,321,276      4,239,384
    4. FUDS--ER for Transferred Ranges                     149,299         13,934,982    14,084,281     13,624,347

 B. Other Accrued Environmental Costs (Non-DERP
     funds)
   1. Active Installations--Environmental Corrective         38,385          220,649       259,034        287,857
       Action
   2. Active Installations--Environmental Closure
       Requirements                                           9,822           41,393        51,215         37,074
   3. Active Installations--Environ.Response at Active       62,500          205,132       267,632        264,368
       Ranges
   4. Other                                                           0             0              0              0

 C. Base Realignment and Closure (BRAC)
  1. BRAC Installations--Environmental Restoration           84,005          513,342       597,347        518,716
     (ER)
  2. BRAC Installations--ER for Transferring Ranges           5,571          474,551       480,122        496,075
  3. BRAC Installations--Environmental Corrective             1,637           23,328        24,965         48,031
     Action
  4. Other                                                 209,437                  0      209,437        190,435

  D. Environmental Disposal for Weapons Systems
     Programs
   1. Nuclear Powered Aircraft Carriers                           0                 0             0              0
   2. Nuclear Powered Submarines                                  0                 0             0              0
   3. Other Nuclear Powered Ships                                 0                 0             0              0
   4. Other National Defense Weapons Systems                      0                 0             0              0
   5. Chemical Weapons Disposal Program                   1,096,909         9,672,558    10,769,467     10,810,315
   6. Other                                                       0                 0             0              0
2. Total Environmental Liabilities:                      $2,871,501       $37,494,671   $40,366,172    $37,395,412

3. Other Information Related to Environmental Liabilities:

Relevant Information For Comprehension

Environmental Cost Liabilities
The Defense Environmental Restoration Program (DERP) was established by Section 211 of the Superfund


                                                                                                                      69
Amendments and Reauthorization Act of 1986 codiﬁed in Title 10 of the United States Code (USC) 2701.
Related sections in Title 10 of the USC, 2701-2706 and 2810-2811 further deﬁne the program. The DERP
is implemented in accordance with the Department of Defense (DoD) Directive 4715.1, Environmental
Security, February 24, 1996; and DoD Instruction 4715.7, Environmental Restoration Program, April 22,
1996, and the Management Guidance for the Defense Environmental Restoration Program, September
28, 2001. Environmental liabilities for the Department of the Army DERP and the Base Realignment and
Closure (BRAC) are prepared in accordance with the Management Guidance for the Defense Environmental
Restoration Program and the DoD Financial Management Regulation (FMR) 7000.14.

The assigned total current liability cost includes the current year budget (FY 2005) and the total prior year
(FY 2004) unliquidated obligations.

There is no unrecognized portion of the estimated total cleanup cost associated with general property, plant
and equipment and there are no material changes in the total estimated liability due to changes in laws,
technology, or plans. The major change in technology affecting the liability estimate was standardizing use of
the estimating tools consistently across the Army programs.

The estimates used for environmental liability calculations are estimates of the cost to complete all activities
at a site of environmental concern. The cost estimates are calculated at the site level using a validated cost-
estimating model or an engineered cost and entered into a database. There were no changes to the total
liability cost due to inﬂation, deﬂation, or applicable laws and regulations.


Environmental Disposal Cost Liabilities
Army Accrued Environmental Costs (Non-DERP) – The Resource Conservation and Recovery Act (RCRA),
as well as host nation requirements, require the Army to take corrective actions to clean up areas where there
has been a release related to hazardous material/waste handling and/or storage activities. A release includes
any activity that resulted in contamination due to disposal practices, leaks, spills, and other activities that
create a risk to public health or the environment. Failure to comply with legal mandates and agreements can
put the Army at risk of ﬁnes and penalties.


Range Characteristics
For FY 2004 and FY 2003, the Army estimated that its environmental liability at closed, transferred, and
transferring ranges was $20,345,458 thousand and $17,303,130 thousand, respectively. The Army has
completed its inventory of all closed, transferred and transferring ranges.


Closed Ranges
The Army identiﬁed $5,781,055 thousand to characterize, investigate and cleanup closed ranges. An
inventory of closed ranges was completed in December 2003. Closed ranges have been taken out of service
as a range and put to new use (incompatible with range activities), or are not considered by the Military
Departments to be a potential range area. A closed range is still under the control of a DoD Component.


Transferring Ranges
Site level investigations reveal that the total environmental liability for these types of ranges is $480,122
thousand. Transferring ranges are proposed for transfer or will be returned from DoD to another entity,
including other federal entities.


Transferred Ranges
An inventory of these ranges has been completed and the estimated liability for those ranges is $14,084,281
thousand. These are properties formerly used as a military range that are no longer under military control and
have been leased by DoD, transferred, or returned from the DoD to another entity, including federal entities.



General Fund – Principal Financial Statements, Notes, and Supplementary Information — 70
Active Ranges
At this time, the Army is conducting only one active range investigation and characterization, that being
for Massachusetts Military Reservation. The cost of characterization and investigation is $267,632
thousand. This amount pays for sampling and analysis, groundwater monitoring, feasibility studies, soil
and groundwater cleanup, and unexploded ordnance (UXO) investigation and response. Active ranges
include military ranges that are currently in service and are being regularly used, that are still considered by
the cognizant Military Service to be a potential range area, and that have not been put to a new use that is
incompatible with range activities.


Methodology Used to Estimate Environmental Liabilities
The Army uses annual cost-to-complete estimates as the basis for the environmental liability calculation.
A cost-to-complete estimate is prepared for each site in the DERP in accordance with the Management
Guidance for the DERP and the DoD FMR 7000.14.


Accrued Environmental Restoration (DERP Funded) Costs:
For Active Installations the cost-to-complete estimate is collected in the Army Environmental Database
- Restoration (AEDB-R). The Unliquidated Obligations (ULO) data are pulled from reports provided by
Defense Finance and Accounting Service (DFAS). Non-current liabilities include the cost-to-complete
estimates from FY 2006 through program completion in accordance with the Management Guidance for the
DERP and the DoD FMR 7000.14. Quarterly updates to the current liability numbers are based on changes to
the ULOs reported in DFAS monthly reports.

At Formerly Used Defense Sites (FUDS) properties, the cost-to-complete estimate is collected in the FUDS
Management Information System (FUDSMIS). The ULO data are obtained from the U.S. Army Corps of
Engineers Financial Management System (CEFMS), which feeds the DFAS monthly reports. Non-current
liabilities include the cost-to-complete estimates from FY 2006 through program completion in accordance
with the Management Guidance for the DERP and the DoD FMR 7000.14. Quarterly updates to the current
liability numbers are based on changes to the unliquidated obligations recorded in CEFMS.

Active Installations – Environmental Restoration (ER) for Closed Ranges

The liability for ER for closed ranges is a developing requirement based on the results of an Army-wide
inventory of all ranges. The inventory for closed ranges is 100 percent complete as of December 2003. The
ER liability estimate for closed ranges is the probable cost and is based on site level data.

FUDS – Environmental Restoration for Transferred Ranges

The liability for ER for transferred ranges is based on results of site level cost data developed for
inventoried properties.


Other Accrued Environmental Costs (Non-DERP Funds):
Active Installations – Environmental Corrective Action

This reﬂects the total of active projects in the FY 2004 Environmental Program Requirements (EPR)
database which are reported under 1) RCRA Subtitle C with Environmental Category (ECAT) Corrective
Actions (CORA), 2) RCRA Subtitle D with ECAT CORA, 3) RCRA Subtitle I with ECAT Underground
Storage Tanks and the Superfund/Cleanup with all ECATs (including those for Preliminary Assessments/Site
Investigations, Remedial Action (CONUS Cleanup), and Removal Actions (Overseas Cleanup). The current
liability total reﬂects costs recorded in the EPR for FY 2004, while the non-current liability total reﬂects total
estimated costs for FY 2005 through FY 2016.



                                                                                                                   71
Active Installations – Environmental Closure Requirements

Reﬂects the total of validated December 2003 (FY 2004) active projects in the EPR database which are
reported under 1) the Law/Reg RCRA-C with ECAT Closure Plan (CPLN) and 2) RCRA-D with ECAT
CPLN. The current liability total reﬂects costs recorded in the EPR for FY 2004, while the non-current
liability total reﬂects total estimated costs for FY 2005 through FY 2016.

Active installations – Environmental Response at Active Ranges

The estimated total Non-DERP liability for Environmental Response at Active Ranges reﬂects costs for the
Massachusetts Military Reservation, broken out into current and non-current liabilities. This amount includes
soil and groundwater cleanup and UXO detection and removal.


Base Realignment and Closure (BRAC):
For BRAC installations, the cost-to-complete estimate is collected in the AEDB-R. Because BRAC
installations are funded separately using the base closure account, restoration and program management are
reported as environmental restoration liabilities; munitions response is reported as Environmental Restoration
for Transferring Ranges; and compliance is reported as Environmental Corrective Action. For current
liabilities, the number is based on the FY 2005 allocation and reported ULOs. Because prior year BRAC
ULOs are not identiﬁed by individual program, BRAC ULOs are provided as BRAC-Other. Non-current
liabilities include the cost-to-complete estimates from FY 2006 through program completion (collected
in AEDB-R) in accordance with the Management Guidance for the DERP and the DoD FMR 7000.14.
Quarterly updates to the current liability numbers are based on changes to the ULO obligations reported in
DFAS monthly reports.

BRAC – Environmental Restoration for Transferring Ranges: The liability for ER for transferring ranges is
based on results of an inventory of sites at transferring ranges. The inventory of transferring ranges is 100
percent complete with site level cost data.


Environmental Disposal for Weapons Systems Programs:
The Chemical Demilitarization Program is based on the ﬁscal year 1986 National Defense Authorization Act
(PL 99-145, as amended by subsequent acts) that directed the DoD to destroy the unitary chemical stockpile
by April 29, 2004. The Army, as Executive Agent within the DoD, provides policy, direction, and oversight
for both the Chemical Stockpile Program and the Non-Stockpile Chemical Materiel Project. As such, the
Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal and incapacitating
chemical warfare agents and munitions. The program objective is to destroy the U.S. stockpile of unitary
chemical agents and munitions in accordance with the public law and the schedules approved by the Defense
Acquisition Decision Memorandum dated September 26, 2001, and updated in the April 2003 Acquisition
Program Baseline.


Changes in the Liability Estimate (greater than 10 percent change)
The FY 2004 total Active Installations – ER liability for Closed Ranges of $5,781,055 thousand increased 82
percent from $3,182,708 thousand reported in FY 2003. The major factor contributing to the increase is the
completion of the Army inventory for closed ranges resulting in 100 percent reporting of site level data.

The FY 2004 total Active Installations – Environmental Corrective Action liability of $259,034 thousand
decreased 10 percent from $287,857 thousand reported in FY 2003. The major factors contributing to
the changes are improved cost estimates and revised estimated cleanup levels. The FY 2004 total Active
Installations – Environmental Closure liability of $51,215 thousand increased 38 percent from the $37,074
thousand liability reported in FY 2003 due to receipt of an updated EPR report with improved cost estimates
and site changes (both new sites identiﬁed and old ones determined not to require the original estimated



General Fund – Principal Financial Statements, Notes, and Supplementary Information — 72
costs). Additionally, Class 0 projects (projects with relatively ﬁxed costs such as personnel, training, and
hazardous waste disposal) are now included; where they were not in the last year’s estimate.

The FY 2004 total BRAC Installations – Environmental Restoration (ER) liability of $597,347 thousand
increased 15 percent from $518,716 thousand in FY 2003 due to increased remediation efforts required at
several sites. The FY 2004 total BRAC Installations – Environmental Corrective Action liability of $24,965
thousand is a 48 percent decrease from the $48,031 thousand liability reported in FY 2003. The major factor
contributing to the decrease is a change in cleanup action required at a site. The FY 2004 BRAC - Other
liability increased $19, 002 thousand or 10 percent due to an increase in actual base closure environmental
liabilities recorded during the ﬁscal year.

The Low Level Radioactive Waste (LLRW) Disposal Program facilitates the process of identifying,
investigating, and remediating sites contaminated by low-level radioactive waste through RCRA corrective
actions or Comprehensive Environmental Response, Compensation, and Liability Act response actions. The
program classiﬁed its liabilities as possible and remote for FY 2004 ﬁnancial reporting. This information is
disclosed in Note 16, Commitments and Contingencies.


Other Information
Others Category Disclosure Comparative Table (amounts in thousands):

 Types                                                                FY 2004     FY 2003
 BRAC – Other
 Prior Year BRAC ULOs That Cannot Be Identiﬁed To A Speciﬁc Program   $ 209,437   $ 190,435
 Total                                                                $ 209,437   $ 190,435




                                                                                                               73
Note 15.A.             Other Liabilities
                                                                                       2004                          2003
  As of September 30                                                 Current         Noncurrent
  (Amounts in thousands)                                             Liability        Liability       Total          Total
1. Intragovernmental:
  A. Advances from Others                                              $95,733                $0      $95,733        $56,968
  B. Deferred Credits                                                        0                 0            0              0
  C. Deposit Funds and Suspense Account
          Liabilities                                                  137,806                0        137,806        67,914
  D. Resources Payable to Treasury                                           0                0              0             0
  E. Disbursing Officer Cash                                         1,525,090                0      1,525,090       952,130
  F.Nonenvironmental Disposal Liabilities:
      (1) National Defense PP&E (Nonnuclear)                                  0               0              0             0
      (2) Excess/Obsolete Structures                                          0               0              0             0
      (3) Conventional Munitions Disposal                                     0               0              0             0
      (4) Other                                                               0               0              0             0
  G. Accounts Payable-- Cancelled Appropriations                              0               0              0             0
  H . Judgment Fund Liabilities                                          82,913               0         82,913       144,222
   I. FECA Reimbursement to the Department of
       Labor                                                           124,634         156,979        281,613        276,419
  J. Capital Lease Liability                                                 0               0              0              0
  K. Other Liabilities                                                 279,748               0        279,748        172,665
  L. Total Intra-governmental Other Liabilities                     $2,245,924        $156,979      $2,402,903     $1,670,318
2. Non-Federal:
  A. Accrued Funded Payroll and Benefits                            $2,083,447                $0    $2,083,447     $2,310,623
  B. Advances from Others                                              750,119                 0       750,119        589,621
  C. Deferred Credits                                                        0                 0             0              0
  D. Loan Guarantee Liability                                                0                 0             0              0
  E. Liability for Subsidy Related to Undisbursed
       Loans                                                                     0            0               0                0
  F. Deposit Funds and Suspense Accounts                                         0            0               0                0
  G. Temporary Early Retirement Authority                                        0            0               0              306
  H. Nonenvironmental Disposal Liabilities:
       (1) National Defense PP&E (Nonnuclear)                                    0            0               0               0
       (2) Excess/Obsolete Structures                                        0                0              0              0
       (3) Conventional Munitions Disposal                                   0        1,325,886      1,325,886      1,192,935
       (4) Other                                                             0                0              0              0
  I. Accounts Payable--Cancelled Appropriations                              0                0              0         81,543
 J. Accrued Unfunded Annual Leave                                    2,656,508                0      2,656,508      2,634,641
 K. Accrued Entitlement Benefits for Military
       Retirees and Survivors                                                    0            0               0               0
  L. Capital Lease Liability                                            12,765           46,632         59,397         71,139
  M. Other Liabilities                                               1,051,598          742,237      1,793,835      2,506,512
  N. Total Non-Federal Other Liabilities                            $6,554,437       $2,114,755     $8,669,192     $9,387,320
3. Total Other Liabilities:                                         $8,800,361       $2,271,734    $11,072,095    $11,057,638

4. Other Information Pertaining to Other Liabilities:

Intragovernmental Liabilities
Advances from Others increased $38,765 thousand or 68 percent. The majority of the increase is attributable
to advances to the US Army Corps of Engineers for war rebuilding in Afghanistan and Iraq. In addition, the
US Army Medical Research and Materiel Command advances with the National Institute of Allergy and
Infectious Diseases increased for research on human immunodeﬁciency virus/acquired immune deﬁciency
syndrome (HIV/AIDS).


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 74
The balance reported for the Deposit Funds and Suspense Account liabilities increased by $69,892 thousand
or 103 percent in accounts impacted by contingency operations. The majority is attributable to increase in
the miscellaneous suspense and deposit funds is due to $37,009 thousand increase in Army Member Savings
Deposits caused by an increase in deployed soldiers drawing imminent danger pay who are authorized to
deposit funds and later withdraw the funds with interest; $19,896 thousand in Withheld State Income Taxes;
$14,859 thousand in Small Escrow Accounts due to the increase of Soldiers using the post ofﬁce and Army
Air Force Exchange Service in Kuwait and Iraq.

Disbursing Ofﬁcer Cash increased $572,960 thousand or 60 percent primarily to support contingency
missions Operation Iraqi Freedom and Operation Enduring Freedom.

Judgment Fund Liabilities net decreased $61,309 thousand or 43 percent based on litigation settlements.
New guidance for the Judgment Fund Liability for the Notiﬁcation and Federal Employee Antidiscrimination
and Retaliation (No FEAR) Act of 2002 was reported for the ﬁrst time in FY 2004 to comply with Treasury
Financial Manual Guidance.

Other Liabilities increased $107,083 thousand or 62 percent. The majority is attributable to Cancelled
Accounts Receivables of $95,693 thousand that was reported for the ﬁrst time in FY 2004. Other Liabilities
for employee beneﬁts account for the remaining of $11,390 thousand increase. Voluntary Separation
Incentive Pay (VSIP) closed this ﬁscal year as agencies are no longer required to contribute to VSIP as of FY
2004.


Non-Federal Liabilities
Accrued Funded Payroll and Beneﬁts decreased $227,176 thousand or 10 percent. The decrease is primarily
due to improvements in the process for recording accrued payroll. Beginning in FY 2004, payroll data from
the Defense Joint Military Payroll System was used to calculate accrued payroll. Previously, military pay
obligation data from the Army Budget Ofﬁce were used as a basis for determining the accrued payroll for
active Army personnel. This change allows the Army to more accurately record and report this liability for
active Army military personnel.

Advances from Others increased $160,498 thousand or 27 percent primarily due to pre-payments for military
construction in South Korea and from the Kuwaiti government in support of the Global War on Terrorism
(GWOT). The advances were received by the USACE Paciﬁc Ocean Division for various construction
projects.

Nonenvironmental Disposal Liabilities, Conventional Munitions Disposal increased $132,951 thousand or 11
percent due to a stockpile expansion of 7,258 tons.

Accounts Payable Cancelled Appropriations were reported as part of Other Liabilities in FY 2003.Treasury
Report Mapping changes instituted in June 2004 required all entities to report these balances as Accounts
Payable. See Note 12 for additional disclosures.

Temporary Early Retirement Authority (TERA) decreased to zero as Soldiers retiring under the TERA
program transitioned to the military retirement program as of FY 2004. No remaining TERA balances are
reported as an Other Liability.

Capital Lease Liability decreased $11,742 thousand or 17 percent as a result of annual amortization. See Note
15.B. for additional disclosures.


Other (Non-Federal) Liabilities:
Other Liabilities decreased overall by $712,677 thousand or 28 percent. The decrease is primarily attributable
to decreases in the following programs: Iraqi Seized Cash of $164,709 thousand, Contingent Liabilities
probable (non-current and current) for U.S. Claims Service (Personnel Claims, Tort Claims, Judgment
Fund Liabilities and North Atlantic Treaty Organization – Status of Forces Agreement (NATO SOFA)), the

                                                                                                             75
Chemical Demilitarization (Non-Stockpile) in the net amount of $534,983 thousand, and Contract Holdbacks
of $12,985 thousand. The decrease for NATO North Atlantic Treaty Organization Security Investment
Program (NSIP) $742,237 was incorrectly reported for Army last year, and this ﬁscal year moved to Other
Defense Organizations.

Note 15.B.               Capital Lease Liability
                                                                    2004                             2003
As of September 30                                             Asset Category
(Amounts in thousands)                     Land and
                                                           Equipment         Other         Total     Total
                                           Buildings
1. Future Payments Due:
    A. 2004                                   $20,785               $0            $0       $20,785    $20,785
    B. 2005                                    20,785                0             0        20,785     20,785
    C. 2006                                    18,009                0             0        18,009     20,785
    D. 2007                                     8,529                0             0         8,529     18,009
    E. 2008                                     5,376                0             0         5,376      8,529
    F. After 5 Years                           14,058                0             0        14,058     19,243
    G. Total Future Lease
         Payments Due                         $87,542               $0            $0       $87,542   $108,136
    H. Less: Imputed Interest
         Executory Costs                       28,144                0             0        28,144     36,996
    I. Net Capital Lease Liability            $59,398               $0            $0       $59,398    $71,140

2. Capital Lease Liabilities Covered by Budgetary Resources:                               $26,334    $26,590

3. Capital Lease Liabilities Not Covered by Budgetary Resources:                           $33,063    $44,549

4. Other Information:
The Army is the lessee in eight capital leases for military family housing. The Ofﬁce of Management and
Budget Bulletin 01-09 and Circular A-11 direct that any capital leases entered into during FY 1992 or later
are required to be fully funded in the ﬁrst year of the lease.

Capital Lease Liabilities Covered by Budgetary Resources

The present value of the lease payments, $26,334 thousand, for leases originating after FY 1991 plus the
current portion of the Pre-1992 leases is shown as Covered by Budgetary Resources.

Capital Lease Liabilities Not Covered by Budgetary Resources

The remaining six leases, that originated before FY 1992, are funded on a ﬁscal year basis causing the
noncurrent amounts of $33,063 thousand to be shown as Not Covered by Budgetary Resources.

Note 16.                 Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:


Relevant Information for Comprehension

Nature of Contingency
The Army General Fund has other contingent liabilities in which the possibility of loss is considered
reasonable. These liabilities are not accrued in the Army’s ﬁnancial statements.

As of September 30, 2004, the Army General Fund has approximately $10,343,018 thousand in claims
considered reasonably possible. These contingent liabilities and estimates are presented in the following
table:

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 76
Estimate of the Possible Liability
(Amounts in thousands)
Title of Contingent Liabilities                         Estimate
Non-Stockpile Chemical Materiel Demilitarization         $9,020,000
Environmental Restoration – Active Installations            846,688
Litigation Division                                         236,165
Army Environmental Law Division                              39,676
Army Contract Appeals Division                               33,000
Low-Level Radioactive Waste Disposal                         41,421
Administrative Tort Claims (Army Fund)                       85,000
European Environmental Claims (Army Fund)                    40,000
Network Enterprise Technology Command                           908
Personnel Claims                                                160
Total                                                   $10,343,018


Note Reference
See Note Disclosure 1. S. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

Note 17.                 Military Retirement Beneﬁts and Other Employment Related Actuarial
                         Liabilities
                                                                            2004                                 2003
                                                   Actuarial Present Assumed (Less: Assets        Unfunded     Unfunded
                                                   Value of Projected Interest Available to Pay   Actuarial    Actuarial
As of September 30                                   Plan Benefits    Rate (%)    Benefits)        Liability    Liability
 (Amounts in thousands)

1. Pension and Health Benefits:
   A. Military Retirement Pensions                               $0                        $0             $0            $0
   B. Military Retirement Health Benefits                         0                         0              0             0
   C. Medicare-Eligible Retiree Benefits                          0                         0              0             0
   D. Total Pension and Health Benefits                          $0                        $0             $0            $0

2. Other:
   A. FECA                                               $1,632,843    4.88%               $0     $1,632,843   $1,761,318
   B. Voluntary Separation Incentive Programs                     0                         0              0            0
   C. DoD Education Benefits Fund                                 0                         0              0            0
   D.                                                             0                         0              0            0
   E. Total Other                                        $1,632,843                        $0     $1,632,843   $1,761,318

3. Total Military Retirement Benefits and Other
     Employment Related Actuarial Liabilities:           $1,632,843                        $0     $1,632,843   $1,761,318

4. Other Information Pertaining to Military Retirement Beneﬁts and Other Employment-Related Actuarial
Liabilities:
Market Value of Investments in Market-based and Marketable Securities: Not applicable.
Military Retirement Pensions: The portion of the military retirement beneﬁts actuarial liability applicable to
the Army is reported on the ﬁnancial statements of the Military Retirement Fund.

Military Retirement Health Beneﬁts: Health beneﬁts are funded centrally at the DoD level. As such the
portion of the health beneﬁts actuarial liability that is applicable to the Army is reported only on the DoD
Agency-wide ﬁnancial statements.

Medicare-Eligible Retiree Beneﬁts: Not reported by Military Retirement Systems.


                                                                                                                         77
Federal Employees Compensation Act (FECA):
Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation beneﬁts is developed
by the Department of Labor and provided to the Army each ﬁscal year end. The liability includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
The liability is determined using a method that utilizes historical beneﬁt payment patterns to predict the
ultimate payments.

Assumptions: The projected annual beneﬁt payments are then discounted to the present value using the
Ofﬁce of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds. Cost
of living adjustments and medical inﬂation factors are also applied to the calculation of projected future
beneﬁts.

Note 18.                 Unexpended Appropriations
As of September 30                                        2004                  2003
(Amounts in thousands)

1. Unexpended Appropriations:
   A. Unobligated, Available                             $21,044,297          $6,386,616
   B. Unobligated, Unavailable                             1,408,704           1,240,179
   C. Unexpended Obligations                              50,785,303          40,047,919
   D. Total Unexpended Appropriations                    $73,238,304         $47,674,714

2. Other Information Pertaining to Unexpended Appropriations:

Deﬁnitions:
Unexpended appropriations - Budget authority remaining for disbursement against current or future
obligations.

Unobligated balances – Fund balances classiﬁed as available or unavailable but not obligated. Unobligated
balances associated with appropriations expiring at ﬁscal year end remain available only for obligation
adjustments until the account is closed.

Unexpended obligations - Goods and services that have been ordered but not yet received/performed.


Fluctuations and/or Abnormalities:
The signiﬁcant increase of $25,563,590 thousand or 54 percent in Unexpended Appropriations reﬂects the
overall increase in the FY 2004 Army budget. Detailed explanations for the increases are disclosed in Note
21, Disclosures Related to the Statement of Budgetary Resources.


Relevant Information for Comprehension:
Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered
Orders-Unpaid and Undelivered Orders-Paid only by Direct Appropriated funds. This amount is distinct
from Change in Amount of Goods, Services, and Beneﬁts Ordered but Not Yet Provided on the Statement
of Financing, which includes the change during the ﬁscal year in Unexpended Obligations against budget
authority from the Army.


Note Reference
See Note 21, Disclosures Related to the Statement of Budgetary Resources for additional line item
information.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 78
Note 19.A        General Disclosures Related to the Statement of Net Cost
Disclosures Related to the Statement of Net Cost

 The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
on understanding the net cost of programs and/or organizations that the federal government supports through
appropriations or other means. This statement provides gross and net cost information that can be related
to the amount of output or outcome for a given program and/or organization administered by a responsible
reporting entity. The amounts presented in the Consolidated Statement of Net Cost are based on funding,
obligation, accrual and disbursing transactions, which are not always recorded using accrual accounting.
Army systems do not always record the transactions on an accrual basis as is required by the generally
accepted accounting principles. The information presented also includes data from non-ﬁnancial feeder
systems to capture all cost and ﬁnancing sources for the Army.


Program Costs:
The Total Net Costs increased by $28,349,865 thousand or 26 percent between FY 2004 and FY 2003. The
net increase in Intragovernmental Net Costs of $4,489,821 thousand or 19 percent, and the increase in Net
Costs With the Public of $23,860,044 thousand or 28 percent are due to the increased accrued expenditures in
support of contingency operations. Further explanation on the increased funding is disclosed in Note 21.


Program Revenues:
Intragovernmental Earned Revenue increased $869,370 thousand or 13 percent. The increase reﬂects
the additional revenues of $412,859 thousand from Intragovernmental programs supporting contingency
missions for security services, munitions and communications. Revenues were also received for research and
construction projects of $172,677 thousand and other logistics and personnel related support of $218,047
thousand.

Earned Revenue from the Public increased $232,916 thousand or 25 percent. The increase is attributable to
Acquisition and Cross Servicing Agreements for logistical support to the militaries of foreign governments in
support of the Global War on Terrorism (GWOT).

Note 19.B.       Gross Cost and Earned Revenue by Budget Functional Classiﬁcation
Not Applicable

Note 19.C.       Gross Cost to Generate Intra-governmental Revenue and Earned
                 Revenue (Transactions with Other Federal—Non-DoD—Entities) by
                 Budget Functional Classiﬁcation
Not Applicable




                                                                                                           79
Note 19.D.               Imputed Expenses
As of September 30                                           2004                2003
(Amounts in thousands)
1.   Civilian (e.g.,CSRS/FERS) Retirement                     $330,114             $339,888
2.   Civilian Health                                           472,428              403,346
3.   Civilian Life Insurance                                     1,557                1,480
4.   Military Retirement Pension                                     0                    0
5.   Military Retirement Health                                      0                    0
6.   Judgment Fund                                              77,978               73,768
7.   Total Imputed Expenses                                   $882,077             $818,482

8. Other Information
The total imputed expenses consist of: Civilian Retirement, Civilian Health, Civilian Life Insurance,
Military Retirement Pension, Military Retirement Health and Judgment Fund. The $69,083 thousand or
17 percent increase in the Civilian Health is attributable to the use of a higher cost factor by the Ofﬁce of
Personnel Management. For FY 2004, the cost factor is $4,419 per enrolled employee. (See the OPM Beneﬁt
Administration Letter, Number 04-306 and dated August 16, 2004).

Note 19.E.               Beneﬁt Program Expenses
Not Applicable

Note 19. F.              Exchange Revenue
Disclosures Related to the Exchange Revenue:

Exchange Revenue arises when a government entity provides goods and services to the public or to another
Government entity for a price, “earned revenue.” Exchange revenue includes most user charges other than
taxes, i.e., regulatory user charges. The Army recognizes earned revenue for full recovery of costs incurred,
to provide goods and services to other entities.

Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements
from Contractors
Not Applicable

Note 19.H.               Stewardship Assets
Disclosures Related to Stewardship Assets:

Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, Investments
in Research and Development, and Military Equipment Deferred Maintenance. The current year cost of
acquiring, constructing, improving, reconstructing, or renovating stewardship assets are included in the
Statement of Net Cost. Yearly investment amounts related to stewardship assets are provided in the Required
Supplemental Stewardship Information section of this ﬁnancial statement.

Note 19.I.               Intra-governmental Revenue and Expense
Disclosures Related to Intra-governmental Revenue and Expense:

Intragovernmental Revenue. The Army’s accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the Army was unable
to reconcile intragovernmental revenue balances with its trading partners. The Army intends to develop
long-term systems improvements that will include sufﬁcient up-front edits and controls to eliminate the
need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that such
reconciliations can not be accomplished with the existing systems.

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 80
The Army’s operating expenses were adjusted based on a comparison between the Army accounts payable
and summary level seller accounts receivables. An adjustment was posted to accounts payable and operating
expenses to reﬂect unrecognized accounts payable and operating expenses. The operating expenses of the
Army were reclassiﬁed from public to governmental in the amount of $23,485,994 thousand to match trading
partner revenues in accordance with DoD Financial Management Regulation, Chapter 13 guidance.

Note 19.J.               Suborganization Program Costs
Not Applicable

Note 20.                 Disclosures Related to the Statement of Changes in Net Position
                                             Cumulative Results    Unexpended      Cumulative Results    Unexpended
                                               of Operations      Appropriations     of Operations      Appropriations
As of September 30                                 2004               2004               2003               2003
(Amounts in thousands)
1.   Prior Period Adjustments Increases
     (Decreases) to Net Position
     Beginning Balance:
     A. Changes in Accounting Standards                      $0               $0          $97,897,585               $0
     B. Errors and Omissions in Prior Year
                                                              0                0                    0                   0
          Accounting Reports
     C. Other Prior Period Adjustments                        0                0                    0                0
     D. Total Prior Period Adjustments                       $0               $0          $97,897,585               $0

2.   Imputed Financing:
     A. Civilian CSRS/FERS Retirement                  $330,114               $0             $339,888               $0
     B. Civilian Health                                 472,428                0              403,346                0
     C. Civilian Life Insurance                           1,557                0                1,480                0
     D. Military Retirement Pension                           0                0                    0                0
     E. Military Retirement Health                            0                0                    0                0
     F. Judgment Fund                                    77,978                0               73,768                0
     G. Total Imputed Financing                        $882,077               $0             $818,482               $0

3. Other Information:

Other Prior Period Adjustments

Changes in Accounting Standards
Effective October 1, 2002, the Statement of Federal Financial Accounting Standards No. 23, Eliminating the
Category National Defense Property, Plant and Equipment (NDPP&E), revising the accounting principles
for reporting Military Equipment (previously referred to as NDPP&E). The standard renames NDPP&E
to Military Equipment, classiﬁes Military Equipment as general property, plant, and equipment (GPP&E),
and requires the capitalization and depreciation of the cost of Military Equipment, including the cost of
modiﬁcations and upgrades.

Changes in Accounting Standards decreased by $97,897,585 thousand or 100 percent. Army recorded a prior
period adjustment in FY 2003 for $97,897,585 thousand. The total decrease is attributable to the recording of
Military Equipment in FY 2003.


Imputed Financing:
The $69,082 thousand or 17 percent increase in Civilian Health is attributable to the use of a higher cost
factor by the Ofﬁce of Personnel Management (OPM). For FY 2004, the cost factor is $4,419 per enrolled
employee. (See the OPM Beneﬁt Administration Letter, Number 04-306 and dated August 16, 2004). The
total imputed expenses consist of Civilian Retirement, Civilian Health, Civilian Life Insurance, Military
Retirement Pension, Military Retirement Health and Judgment Fund.

                                                                                                                   81
Other Disclosures:

Cumulative Results of Operations
Appropriations Used increased $20,430,183 thousand or 19 percent and is directly related to the $31,879,742
thousand or 27 percent increase in Appropriations Received. See Note 21 Disclosures Related to the
Statement of Budgetary Resources.

Non-Exchange Revenue presents an increase of $5,012 thousand or 3,826 percent. However, Nonexchange
Revenue was incorrectly reported on Other and overstated in FY 2003. The correct amount should have
been $12,494 thousand causing a $7,351 thousand or 59 percent decrease. The decrease is primarily due a
decrease of $3,906 thousand in collections for the Forest and Wildlife Conservation and ($2,325) thousand in
overpayments received for the Army Conventional Ammunition.

Donations and forfeitures of cash and cash equivalents decreased $10,340 thousand or 69 percent due to
reduced donations for West Point Military Academy in FY 2004.

Transfers-in/out Without Reimbursement increased $12,710,423 thousand or 2,652 percent due largely to
the $10,243,641 thousand transfer for the Iraqi Relief and Reconstruction Fund. In FY 2003, only $466,000
thousand was transferred to Army, which represents the majority of the FY 2003 balance.

The $13,189,641 thousand in Transfers-in/out without reimbursements consists of $10,253,641 thousand in
transfers from the Department of the Executive Ofﬁce of the President for the Iraqi Relief and Reconstruction
Fund and $2,936,000 thousand in transfers from Defense Working Capital Funds. The Iraqi Relief and
Reconstruction Fund is a material child transfer account that Treasury requires to be reported on the child’s
ﬁnancial statements except for the Statement of Budgetary Resources. The transfers from Defense Working
Capital Funds are classiﬁed as a Cumulative Results of Operation transfer rather than an Unexpended
Appropriation transfer because Working Capital Funds transferred budgetary resources from their operations,
rather than appropriations.

Other budgetary Financing Sources increased $6,177,075 thousand or 170 percent. The $2,540,445 thousand
in Other budgetary ﬁnancing sources represents adjustments to bring the proprietary accounts into agreement
with the budgetary accounts. Due to system deﬁciencies, there are unreconciled differences between the
budgetary and proprietary trial balances. The net effect of these adjustments is reﬂected on Other Budgetary
Financing Sources of the Statement of Net Position. The $6,177,075 thousand increase is due to ﬂuctuations
in the differences between budgetary and proprietary balances from FY 2003.

Transfers in/out without reimbursement increased $722,150 thousand or 225 percent due to Construction in
Progress of $88,270 thousand and Property, Plant & Equipment for $312,524 thousand. The Construction
in Progress was transferred to Air Force for $9,386 thousand, from Defense Logistics Agency for $84,619
thousand, from Missile Defense Agency for $6,237 thousand, and from Defense Health Organization for
$6,800 thousand. The Property, Plant, & Equipment was transferred from Defense Logistics Agency for
$4,259 thousand, from Ofﬁce of the Secretary of Defense for $44,228 thousand, from Special Command
Operations for $16,055 thousand, from Tricare Management Activity for $8,667 thousand, from Missile
Defense Agency for $27,891 thousand, from Other Defense Agencies for $129,381 thousand, from Air Force
for $150,936 thousand, and to U. S. Army Corps of Engineers for $68,893 thousand.

Other Financing Sources – Other decreased $115,102 thousand or 100 percent due to incorrect reporting
of Nonexchange Revenue related to Receipt Accounts in FY 2003. The correct reporting is in Line 4.E.
Nonexchange Revenue.


Unexpended Appropriations
Increases in Appropriations received, Appropriations transferred-in/out, and Appropriations used relate
directly to the increase in the overall Army appropriations.


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 82
Other adjustments increased $794,564 thousand or 132 percent due to erroneously reporting the withdrawal
of canceled funds in Appropriation Used in FY 2003. The FY 2003 Other adjustments should have reported
$1,304,581 thousand causing an actual increase of $89,783 or 7 percent.


Note Reference
For Regulatory Disclosure Related to “The Statement of Changes in Net Position” see, Department of
Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.

Note 21.                 Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                   2004       2003
(Amounts in thousands)
1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                   $60,568,539       $0
2. Available Borrowing and Contract Authority at the End of the
     Period                                                                 0      0.00
3. Other Information:

Fluctuations and/or Abnormalities:
Overall FY 2004 funding increased $31,864,362 thousand or 27 percent; the major ﬂuctuations are inﬂuenced
by the Presidential approval of the Emergency Wartime Supplemental Appropriations Act (PL 108-11).
Congressional funding for the Global War on Terrorism was received through appropriated and supplemental
funding in FY 2004.

Military Pay appropriations increased $7,253,171 thousand primarily in support of contingency missions
for Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. The increase supports the incremental
costs of Reserve forces on active duty in a war zone versus peacetime training. Additionally, the military
pay appropriations received a 3.7 percent pay increase for all soldiers and a pay raise of up to 6.25 percent
for selected military pay grades. Increased rates were also provided for incentive pay, family separation
allowance, and special pay for duty subject to hostile ﬁre or imminent danger. The total Military Pay funding
supports Active Component, Army National Guard, and Army Reserve personnel and provides better pay and
incentives.

Operation and Maintenance appropriations increased $21,406,623 thousand. The additional funding was
directed for Army Transformation, which ensures warﬁghting readiness and force protection, and to support
contingency missions for Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. The appropriation
increase funded approximately one-third of antiterrorism base operations and force protection needs.
Additionally, the budget increased to fund training and recruiting, administrative and service wide activities,
and land forces readiness. Security programs increased signiﬁcantly because of the need for more security
equipment.

Procurement appropriations increased $391,616 thousand due to escalated combat operations.

Research, Development, Test, and Evaluation appropriation increased by $2,711,370 thousand. The
funding included increases for medical technology, combat vehicle and automotive technology, and aircraft
modiﬁcation and improvement programs.

Budget Authority - Net Transfers of $2,517,085 thousand consists of appropriation transfers of $1,423,816
thousand from the Iraqi Freedom Fund in support of contingency missions, $877,250 thousand from
the Ofﬁce of the President for the Security and Stability of Iraqi, $677,384 thousand in Environmental
Restoration and Restoration of Formerly Used Defense Sites, $366,623 thousand in Drug Interdiction for
Military Personnel, $(418,210) thousand transferred to the Defense Health Program, $(269,853) thousand
transferred to the Foreign Currency Fluctuation Fund, and $(139,925) thousand in miscellaneous transfers.


                                                                                                              83
The decrease of $2,790,356 thousand is largely due to decreases in transfers received from the Ofﬁce of the
President and the Iraqi Freedom Fund in support of Iraqi Security and Stability and contingency missions.

Unobligated Balance – Net Transfers, Actual of $4,698,264 thousand consists of prior year appropriation
transfers of $2,936,000 thousand from Defense Working Capital Funds, $880,459 thousand from the
Iraqi Freedom Fund in support of contingency missions, $300,000 thousand from Natural Resources
Risk Remediation Fund, and $581,805 thousand in miscellaneous transfers. The increase is largely due to
additional funds received from Defense Working Capital Funds and the Iraqi Freedom Fund.

Spending Authority from Offsetting Collections increased $3,472,797 thousand due to a $1,025,124
thousand increase in reimbursable authority related to the support of land force readiness including
environmental conservation, pollution prevention, environmental compliance, real property services, and
base communications; $1,112,499 thousand in reimbursable construction; $597,556 thousand in reimbursable
authority from the Army’s logistics chain; $385,279 thousand in reimbursable authority from fully training
active Combat Corps members; $315,582 thousand in reimbursable ammunition components; and the
remaining $36,754 thousand is for other miscellaneous reimbursable authority.

Recoveries of Prior Year Obligations or deobligations increased $5,995,277 thousand or 75 percent from FY
2003 largely due to increases in contractual service and supplies. The actual FY 2004 net deobligations is
$3,847,210 thousand.

Unobligated Balance – Apportioned increased $14,511,493 thousand or 209 percent primarily due to a
$13,550,000 thousand supplemental received in September 2004 for Operations and Maintenance related
to Operation Iraqi Freedom. As of September 2004, only $2,518 thousand had been obligated causing the
material increase in unobligated balances for Army General Fund.

Unobligated Balance – Exempt from Apportionment decreased $12,254 thousand or 48 percent primarily due
to the Iraqi Relief and Reconstruction Fund erroneously reporting a Statement of Budgetary Resources in FY
2003. Treasury requires that a material child transfer account be reported on the child’s ﬁnancial statements
except for the Statement of Budgetary Resources. The Iraqi Relief and Reconstruction Fund is a material
child transfer account that reported $11,235 thousand in Unobligated – Exempt from Apportionment funds in
FY 2003 that was not reported in FY 2004.

Offsetting Receipts presents a decrease of $32,282 thousand. However, the balance was incorrectly reported
in FY 2003 and should have been $113,272 thousand. The actual decrease of $49,983 thousand is attributed
to $25,184 thousand in General Fund Proprietary Receipts largely from decreased input from Military Pay
Operations, $13,516 thousand in Recoveries under Foreign Military Sales due to an overcharged voucher
to Taiwan, $5,569 thousand in Collections of Receivables from Cancelled Accounts, $3,906 thousand in
collections for the Forest and Wildlife Conservation, $1,221 thousand in collections for the Sale of Hunting
and Fishing Permits, and the remaining $587 thousand decrease is due to other miscellaneous receipts.

The Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period and
speciﬁc Statement of Budgetary Resources line variances not explained above, between FY 2003 and FY
2004 are mainly due to the 27 percent increase in funding.


Accounting Standard U.S. Standard General Ledger
The Army has not fully implemented the U.S. Government Standard General Ledger in all operational
accounting systems. Guidance from the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies’
Centralized Trial Balance System II is used to populate the Army Statement of Budgetary Resources.

The Army accounting systems do not provide or capture data needed for obligations incurred and recoveries
of prior year obligations in accordance with Ofﬁce of Management and Budget (OMB) Circular A-11,
Preparation, Submission, and Execution of the Budget requirements. Although the Army developed an


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 84
alternative methodology to calculate these items, the amount of distortion cannot be reliably determined, and
may or may not be material.


Intra-entity Transactions
The Statement of Budgetary Resources does not include eliminating entries and therefore a Disaggregated
Statement of Budgetary Resources is included in the Required Supplementary Information section of the
ﬁnancial statements.


Apportionment Categories
OMB Bulletin No. 01-09 section 9.27 speciﬁcally requires disclosure of the amount of direct and
reimbursable obligations incurred against amounts apportioned under Category A, Category B and Exempt
from Apportionment. Obligations incurred consists of $148,242,209 thousand in Category A, Direct;
$4,348,726 thousand in Category B, Direct; and $23,475,016 thousand in Category A, Reimbursable. This
disclosure agrees with the aggregate of the related information as reported on the agency’s Budgetary
Execution Report (SF 133) and Obligations Incurred on the Statement of Budgetary Resources.


Separate Column for Non-budgetary Credit Program Financing Accounts
A Non-budgetary Credit Program Financing Account column allows for a clear distinction between
budgetary and non-budgetary credit program ﬁnancing. Non-budgetary credit ﬁnancing accounts are reported
separately from the budgetary totals in the Budget of the United States Government. Separate reporting
on the Statement of Budgetary Resources enhances reconciliation of the two sets of information. Further
information on the credit ﬁnancing accounts is provided in Note 8.


Offsetting Receipts Line
Receipts are collections that are credited to the general, special, or trust fund receipt accounts. In addition,
they represent offsetting receipts distributed to the Army. Offsetting receipts offset budget authority and
outlays at the agency level in the Budget of the United States Government. Offsetting receipts must be
included in the Statement of Budgetary Resources to reconcile it to information in the Budget of the United
States Government.


Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
permanently not available are not included in the Spending Authority From Offsetting Collections on the
Statement of Budgetary Resources or the Spending Authority for Offsetting Collections and Recoveries on
the Statement of Financing.


Undelivered Orders
Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid
for both direct and reimbursable funds.


Deobligations
Systemic processes record deobligations in expired accounts separately from the obligation. Army funds
management policy requires quarterly joint reviews of obligations by program managers and accounting
sites. Goals and metrics reported by each Command track efforts to liquidate or deobligate expired
obligations by ﬁscal year. The Recoveries of Prior Year Obligations presentation does not provide visibility
of expired deobligation/obligation execution as corresponding obligations in the same expired account are
included in the overall Obligations Incurred. In FY 2004, net deobligations for expired accounts amounted to
$1,566,429 thousand versus the $11,715,898 thousand reported in the Recoveries of Prior Year Obligations


                                                                                                                   85
and $10,149,469 thousand reported in Obligations Incurred. The remaining $2,280,781 thousand of the
$13,996,679 thousand in deobligations are attributable to multi-year appropriations after the ﬁrst year of
unexpired status.

Note 22.               Disclosures Related to the Statement of Financing
Disclosures Related to the Statement of Financing:
The Statement of Financing was expanded to further articulate and detail the relationship between net
obligations from budgetary accounting and net cost of operations from proprietary accounting. Some items
reported last year as a single line were subdivided to reﬂect its components. Several new line items were
added to separately identify and further explain the use of resources to ﬁnance net obligations or net cost of
operations. These changes show key differences between net obligations and net cost of operations.

Intra-entity transactions have not been eliminated; therefore, the statements are presented as combined and
combining.


Fluctuations and/or Abnormalities:
The changes to Obligations incurred, Spending authority from offsetting collections and recoveries,
Undelivered Orders and Unﬁlled Customer Orders relate directly to the $31,864,362 thousand or 27 percent
increase in Army appropriations. An increase in direct appropriations generates an increase in reimbursable
activity along with all other stages of budget execution when the new funds are obligated and executed. Refer
to Note 21, Disclosures Related to the Statement of Budgetary Resources for a complete description of the
additional funding.

Offsetting receipts and Budgetary offsetting collections and receipts that do not affect net cost of operations
are primarily comprised of $35,850 thousand in General Fund Miscellaneous Income, $12,138 thousand
in Collections of Receivables from Cancelled Accounts, $9,912 thousand in Recoveries of Government
Property, $6,944 thousand in Rocky Mountain Arsenal Restoration, and $1,739 thousand in Sales of Hunting
and Fishing Permits.

Transfers in/out without reimbursement and Other resources or adjustments to net obligated resources that do
not affect net cost of operation are comprised of Construction in Progress of $88,270 thousand and Property,
Plant & Equipment of $312,524 thousand. The Construction in Progress was transferred to Air Force for
$9,386 thousand, from Defense Logistics Agency for $84,619 thousand, from Missile Defense Agency
for $6,237 thousand, and from Defense Health Organization for $6,800 thousand. The Property, Plant,
& Equipment was transferred from Defense Logistics Agency for $4,259 thousand, from Ofﬁce of the
Secretary of Defense for $44,228 thousand, from Special Command Operations for $16,055 thousand, from
Tricare Management Activity for $8,667 thousand, from Missile Defense Agency for $27,891 thousand, from
Other Defense Agencies for $129,381 thousand, from Air Force for $150,936 thousand, and to U. S. Army
Corps of Engineers for $68,893 thousand.

Other Resources – Other decreased by $115,102 thousand or 100 percent due to incorrect reporting of
Nonexchange Revenue related to Receipt Accounts in FY 2003. The correct reporting does not effect the
Statement of Financing.

Resources that fund expenses recognized in prior periods decreased $588,090 thousand primarily due to
$406,747 thousand in contingent liabilities with the North Atlantic Treaty Organization Security Investment
Program no longer reported on Army’s ﬁnancial statements. The liability is now reported by the Defense
Agencies. Further explanation for the ﬂuctuations is provided in Notes 11, 14, and 16.

Resources that ﬁnance the acquisition of assets decreased by $15,313,838 thousand and Depreciation and
amortization decreased by $11,548,357 thousand. Army bases the value of military equipment for ﬁnancial



General Fund – Principal Financial Statements, Notes, and Supplementary Information — 86
statement presentation purposes on projections provided by the Bureau of Economic Analysis (BEA),
Department of Commerce. BEA revised the military equipment projections resulting in decreases in the
projected purchase and depreciation of military equipment. Further explanation is provided in Note 10.

Increase in annual leave liability decreased $196,204 thousand primarily due to overstatement of the Army
National Guard’s Civilian Annual Leave Liability in FY 2003.

Increase in environmental and disposal liability increased $786,579 thousand primarily due to increases in
environmental liabilities related to closed ranges. Further explanation for the ﬂuctuations is provided in Note
14.

Upward/Downward reestimates of credit subsidy expense increased by $10,869 thousand due to a September
2004 reestimation of an impending loss claim for the Armament Retooling and Manufacturing Support
Initiative. Further explanation is provided in Note 8.

Exchange revenue receivable from the public increased $453,389 thousand. Due to business practices,
exchange revenue receivable from the public is captured as a budgetary resource, and therefore reported in
Spending authority from offsetting collections rather than Increase in exchange revenue receivable from the
public.

Components Requiring or Generating Resources in Future Periods – Other decreased $345,669 thousand or
84 percent due to Contingent Liabilities increasing in FY 2003 from FY 2002 causing a $375,090 thousand
effect in FY 2003. In FY 2004, Contingent Liabilities decreased causing a zero effect on Components
Requiring or Generating Resources in Future Periods – Other.

Revaluation of assets or liabilities is comprised of $515,037 thousand in excess, obsolete, and unserviceable
Operating Material and Supplies. The $525,718 thousand increase is due to increases in the amount of
excess, obsolete, and unserviceable inventory.

Other Trust Fund Exchange Revenue increased by $12 thousand or 25 percent due to higher revenue bearing
investments in FY 2004.

Cost of Goods Sold and Operating Material & Supplies Used can not be properly captured or estimated for
FY 2004. The Army is continually reviewing and developing procedures to accurately report these values in
the future.

Other is comprised of ($387) thousand in bad debt expense and $1,336,160 thousand in Other Expenses
not Requiring Budgetary Resources, which represents expenses for the Iraqi Relief and Reconstruction
Fund. The Iraqi Relief and Reconstruction Fund is a material child transfer where Army is the child and
the Department of the Executive Ofﬁce of the President is the parent. Treasury requires that the ﬁnancial
statements of a material child transfer account be presented in the child’s ﬁnancial statements except for the
Statement of Budgetary Resources. Because obligations incurred on the Statement of Financing does not
include expenses related to the Iraqi Relief and Reconstruction Fund, a reconciling item is included in Other
in the Other Components not Requiring or Generating Resources section of the Statement of Financing.


Note Reference
For additional information related to the Statement of Financing, see:
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 10, General Property Plant & Equipment, Net
Note 11, Liabilities Not Covered By Budgetary Resources
Note 14, Environmental Liabilities and Disposal Liabilities
Note 16, Commitments and Contingencies
Note 21, Disclosures Related to the Statement of Budgetary Resources



                                                                                                                 87
Note 23.                  Disclosures Related to the Statement of Custodial Activity
Disclosures Related to the Statement of Custodial Activity:

During Operation Iraqi Freedom, the U.S. Government seized assets in FY 2003 from the Iraqi Government that
will be used in support of the Iraqi people. As of September 30, 2004, $113,430 thousand of monetary seized
assets remain to be disbursed in support of the Iraqi people. The Statement of Custodial Activity displays only
current year activity, therefore, the negative $164,709 thousand shown as Retained for Future Support of the
Iraqi People actually displays the change in the liability to the Iraqi people between FY 2003 and FY 2004. The
$690,517 thousand decrease in Seized Iraqi Cash, $247,670 thousand decrease in Seized Assets Disbursed on
behalf of Iraqi People, and the $442,848 thousand decrease in Seized Assets Retained for Support of the Iraqi
People are due to the Army seizing and disbursing less Iraqi assets in FY 2004 than FY 2003.

(Amounts in thousands)                                                   During FY 2004        Cumulative from Inception
Source of Collections
     Seized Iraqi Cash                                                            $118,349                        $927,215
Disposition of Collections
     Iraqi Salaries                                                                   $648                         $30,838
     Repair/Reconstruction/Humanitarian Assistance                                 273,093                         443,728
     Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                  9,317                         263,907
     Fuel/Supplies                                                                       0                          75,312
     Total Disbursed on behalf of the Iraqi People                                $283,058                        $813,785
     Retained for Future Support of the Iraqi People                              (164,709)                        113,430
     Total Disposition of Collections                                              $118,349                       $927,215
Net Custodial Collection Activity                                                        $0                             $0

Note 24.A.                Other Disclosures
1. ENTITY AS LESSEE–Operating Leases
As of September 30
(Amounts in thousands)
     B. Future Payments Due:                                                        2004                            2003
                                                          Land and
            Fiscal Year                                   Buildings
                                                                         Equipment         Other        Total       Total
           2005                                                $6,790              $0              $0    $6,790      $7,917
           2006                                                  6,303              0               0     6,303       6,790
           2007                                                  6,298              0               0     6,298       6,303
           2008                                                  4,950              0               0     4,950       6,298
           2009                                                  3,794              0               0     3,794       4,950
           After 5 Years                                       17,669               0               0    17,669      21,462
           Total Future Lease Payments Due                    $45,804              $0              $0   $45,804     $53,720

Fluctuations and Abnormalities:
Total operating lease commitments decreased by $7,916 thousand or 15 percent, due to payments made on
these leases. As operating leases expire, the Army moves to owned properties or enters into lease contracts
that are cancelable.


Deﬁnitions:
   Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or
   equipment) from a lessor in exchange for payment of funds.
       Operating Lease - A lease which does not substantially transfer all the beneﬁts and risks of ownership.
       Payments are charged to an expense account over the lease term as it becomes payable.

Land and Buildings Leases consist of:
Description of Leases:


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 88
Land and Building lease periods vary and are not expected to be renewed at the end of the lease term. There
are no material escalation clauses or contingent rental restrictions. Costs are gathered from existing leases,
General Service Administration (GSA) bills, and Inter-service Support Agreements of which the largest
component is ofﬁce space. Future year projections use the Consumer Price Index (CPI), rather than the DoD
inﬂation factor. The CPI impacts increases to the leases, especially those at commercial lease sites.

Note 24.B.       Other Disclosures
Not applicable




                                                                                                             89
Department of Defense- Department of the Army
 CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)



ASSETS¬(Note¬2)                                                          Active Army        Army Reserve     Army National Guard
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                                 $84,262,101        $1,604,208              $3,431,064
      Non-Entity Seized Iraqi Cash                                               113,430                 0                        0
      Non-Entity-Other                                                           137,806                 0                        0
Investments (Note 4)                                                               1,496                 0                        0
Accounts Receivable (Note 5)                                                   1,689,003            14,877                  61,531
Other Assets (Note 6)                                                              5,034                 0                      (8)
Total Intragovernmental Assets                                               $86,208,870        $1,619,085              $3,492,587
Cash and Other Monetary Assets (Note 7)                                       $1,525,090                $0                      $0
Accounts Receivable (Note 5)                                                     437,714            23,036                  31,644
Loans Receivable (Note 8)                                                              0                 0                        0
Inventory and Related Property (Note 9)                                       37,647,721                 0                        0
General Property, Plant and Equipment (Note 10)                              110,775,501         1,523,174                 812,897
Investments (Note 4)                                                                   0                 0                        0
Other Assets (Note 6)                                                          3,230,402            34,762                  86,340
TOTAL¬ASSETS                                                                $239,825,298        $3,200,057              $4,423,468

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                                     $3,577,333        $305,920                $104,501
Debt (Note 13)                                                                          0               0                        0
Environmental Liabilities (Note 14)                                                     0               0                        0
Other Liabilities (Note 15 & Note 16)                                           2,512,173           9,535                   47,371
Total Intragovernmental Liabilities                                            $6,089,506        $315,455                $151,872
Accounts Payable (Note 12)                                                     $6,775,957        $525,468               $1,181,290
Military Retirement Benefits and Other Employment-Related                       1,304,029          55,046                  273,768
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                           40,366,172                 0                       0
Loan Guarantee Liability (Note 8)                                                 12,293                 0                       0
Other Liabilities (Note 15 and Note 16)                                        7,892,408           203,957                 572,827
Debt Held by Public                                                                    0                 0                       0
TOTAL¬LIABILITIES                                                            $62,440,365        $1,099,926              $2,179,757

NET¬POSITION
Unexpended Appropriations (Note 18)                                          $69,762,599         $761,566               $1,996,609
Cumulative Results of Operations                                             107,622,334         1,338,565                 247,102
TOTAL¬NET¬POSITION                                                          $177,384,933        $2,100,131              $2,243,711
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                          $239,825,298        $3,200,057              $4,423,468




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 90
Component Level      Combined Total     Eliminations   2004 Consolidated    2003 Consolidated


                $0        $89,297,373             $0          $89,297,373          $54,695,897
                 0            113,430              0              113,430              278,139
                 0            137,806              0              137,806               61,443
                 0              1,496              0                1,496                1,231
       (1,303,544)            461,867              0              461,867              523,347
           551,354            556,380              0              556,380               83,474
        ($752,190)        $90,568,352             $0          $90,568,352          $55,643,531
                $0         $1,525,090             $0           $1,525,090            $954,368
                 0            492,394              0              492,394              514,579
                 0                  0              0                    0                    0
                 0         37,647,721              0           37,647,721           32,676,658
                 0        113,111,572              0          113,111,572          115,337,906
                 0                  0              0                    0                    0
                 0          3,351,504              0            3,351,504            3,569,021
        ($752,190)       $246,696,633             $0         $246,696,633         $208,696,063




      ($2,281,023)         $1,706,731             $0           $1,706,731           $1,084,965
                 0                  0              0                    0                    0
                 0                  0              0                    0                    0
         (166,176)          2,402,903              0            2,402,903            1,670,318
      ($2,447,199)         $4,109,634             $0           $4,109,634           $2,755,283
         $977,479          $9,460,194             $0           $9,460,194           $9,089,097
                 0          1,632,843              0            1,632,843            1,761,318

                0          40,366,172              0           40,366,172           37,395,412
                0              12,293              0               12,293                1,273
                0           8,669,192              0            8,669,192            9,387,320
                0                   0              0                    0                    0
      ($1,469,720)        $64,250,328             $0          $64,250,328          $60,389,703



         $717,530         $73,238,304             $0          $73,238,304          $47,674,714
                0         109,208,001              0          109,208,001          100,631,646
         $717,530        $182,446,305             $0         $182,446,305         $148,306,360
       ($752,190)        $246,696,633             $0         $246,696,633         $208,696,063




                                                                                                 91
Department of Defense- Department of the Army
 CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)



Program¬Costs                                                                  Active Army       Army Reserve      Army National Guard
A.¬Military¬Personnel
Intragovernmental Gross Costs                                                      $8,877,009                 $0              ($60,951)
(Less: Intragovernmental Earned Revenue)                                            (391,588)           (20,690)                 40,282
Intragovernmental Net Costs                                                        $8,485,421         ($20,690)               ($20,669)
Gross Costs With the Public                                                       $29,727,054        $3,278,137              $5,201,310
(Less: Earned Revenue From the Public)                                                 16,173              (200)                  2,831
Net Costs With the Public                                                         $29,743,227        $3,277,937              $5,204,141
Total Net Cost                                                                    $38,228,648        $3,257,247              $5,183,472

B.¬Operation¬and¬Maintenance
Intragovernmental Gross Costs                                                       $8,681,801          $18,954                 $20,884
(Less: Intragovernmental Earned Revenue)                                          (10,641,212)          (48,784)              (181,268)
Intragovernmental Net Costs                                                       ($1,959,411)        ($29,830)              ($160,384)
Gross Costs With the Public                                                       $55,944,989        $1,895,305              $4,899,545
(Less: Earned Revenue From the Public)                                               (822,065)           (2,842)                 (7,309)
Net Costs With the Public                                                         $55,122,924        $1,892,463              $4,892,236
Total Net Cost                                                                    $53,163,513        $1,862,633              $4,731,852

C.¬Procurement
Intragovernmental Gross Costs                                                       $826,430                 $0                      $0
(Less: Intragovernmental Earned Revenue)                                            (778,486)                 0                       0
Intragovernmental Net Costs                                                           $47,944                $0                      $0
Gross Costs With the Public                                                       $17,237,458                $0                      $0
(Less: Earned Revenue From the Public)                                                (64,604)                0                       0
Net Costs With the Public                                                         $17,172,854                $0                      $0
Total Net Cost                                                                    $17,220,798                $0                      $0

D.¬Research,¬Development,¬Test¬&¬Evaluation
Intragovernmental Gross Costs                                                      $2,588,330                $0                      $0
(Less: Intragovernmental Earned Revenue)                                           (2,703,026)                0                       0
Intragovernmental Net Costs                                                         ($114,696)               $0                      $0
Gross Costs With the Public                                                        $8,684,468                $0                      $0
(Less: Earned Revenue From the Public)                                               (123,475)                0                       0
Net Costs With the Public                                                          $8,560,993                $0                      $0
Total Net Cost                                                                     $8,446,297                $0                      $0

E.¬Military¬Construction/Family¬Housing
Intragovernmental Gross Costs                                                      $2,328,172           $12,757                      $0
(Less: Intragovernmental Earned Revenue)                                           (3,267,676)                0                       0
Intragovernmental Net Costs                                                         ($939,504)          $12,757                      $0
Gross Costs With the Public                                                        $1,395,328           $19,956                $540,742
(Less: Earned Revenue From the Public)                                               (144,173)                0                       0
Net Costs With the Public                                                          $1,251,155           $19,956                $540,742
Total Net Cost                                                                        $311,651          $32,713                $540,742

F.¬Other
Intragovernmental Gross Costs                                                         $10,628                $0                      $0
(Less: Intragovernmental Earned Revenue)                                               (8,268)                0                       0
Intragovernmental Net Costs                                                            $2,360                $0                      $0
Gross Costs With the Public                                                        $3,373,193                $0                      $0
(Less: Earned Revenue From the Public)                                                 (6,391)                0                       0
Net Costs With the Public                                                          $3,366,802                $0                      $0
Total Net Cost                                                                     $3,369,162                $0                      $0



General Fund – Principal Financial Statements, Notes, and Supplementary Information — 92
Component Level      Combined Total      Eliminations        2004 Consolidated      2003 Consolidated

                           $8,816,058                   $0           $8,816,058             $9,294,722
                            (371,996)                    0            (371,996)              (641,567)
                           $8,444,062                   $0           $8,444,062             $8,653,155
                          $38,206,501                   $0          $38,206,501            $35,425,693
                               18,804                    0               18,804                (25,470)
                          $38,225,305                   $0          $38,225,305            $35,400,223
                          $46,669,367                   $0          $46,669,367            $44,053,378


                           $8,721,639                   $0            $8,721,639             $6,231,078
                         (10,871,264)                    0          (10,871,264)            (7,247,979)
                         ($2,149,625)                   $0          ($2,149,625)           ($1,016,901)
                         $62,739,839                    $0          $62,739,839            $48,460,407
                            (832,216)                    0             (832,216)              (600,068)
                         $61,907,623                    $0          $61,907,623            $47,860,339
                         $59,757,998                    $0          $59,757,998            $46,843,438


                             $826,430                   $0             $826,430            ($1,424,376)
                            (778,486)                    0            (778,486)               (661,925)
                              $47,944                   $0              $47,944            ($2,086,301)
                          $17,237,458                   $0          $17,237,458              $7,133,239
                              (64,604)                   0              (64,604)                (57,532)
                          $17,172,854                   $0          $17,172,854              $7,075,707
                          $17,220,798                   $0          $17,220,798              $4,989,406


                          $2,588,330                    $0           $2,588,330             $2,076,608
                          (2,703,026)                    0           (2,703,026)            (2,524,616)
                           ($114,696)                   $0            ($114,696)             ($448,008)
                          $8,684,468                    $0           $8,684,468             $7,737,924
                            (123,475)                    0             (123,475)               (76,858)
                          $8,560,993                    $0           $8,560,993             $7,661,066
                          $8,446,297                    $0           $8,446,297             $7,213,058


                          $2,340,929                    $0           $2,340,929             $3,527,786
                          (3,267,676)                    0           (3,267,676)            (2,117,682)
                           ($926,747)                   $0            ($926,747)            $1,410,104
                          $1,956,026                    $0           $1,956,026               $301,508
                            (144,173)                    0             (144,173)              (181,682)
                          $1,811,853                    $0           $1,811,853               $119,826
                             $885,106                   $0              $885,106            $1,529,930


       $12,156,126        $12,166,754                   $0           $12,166,754            $10,395,131
        10,612,338         10,604,070                    0            10,604,070              6,674,761
       $22,768,464        $22,770,824                   $0           $22,770,824            $17,069,892
     ($23,335,670)      ($19,962,477)                   $0         ($19,962,477)          ($14,289,916)
                 0             (6,391)                   0                (6,391)                22,471
     ($23,335,670)      ($19,968,868)                   $0         ($19,968,868)          ($14,267,445)
        ($567,206)         $2,801,956                   $0            $2,801,956             $2,802,447



                                                                                                           93
Department of Defense- Department of the Army
 CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)

                                                                               Active Army       Army Reserve      Army National Guard
G.¬Total¬Program¬Costs
Intragovernmental Gross Costs                                                     $23,312,370           $31,711               ($40,067)
(Less: Intragovernmental Earned Revenue)                                          (17,790,256)          (69,474)              (140,986)
Intragovernmental Net Costs                                                         $5,522,114        ($37,763)              ($181,053)
Gross Costs With the Public                                                      $116,362,490        $5,193,398             $10,641,597
(Less: Earned Revenue From the Public)                                             (1,144,535)           (3,042)                 (4,478)
Net Costs With the Public                                                        $115,217,955        $5,190,356             $10,637,119
Total Net Cost                                                                   $120,740,069        $5,152,593             $10,456,066
Cost¬Not¬Assigned¬to¬Programs                                                               $0                $0                      $0
(Less: Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                          0                 0                       0
Net¬Cost¬of¬Operations                                                           $120,740,069        $5,152,593             $10,456,066




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 94
Component Level      Combined Total      Eliminations        2004 Consolidated     2003 Consolidated

       $12,156,126        $35,460,140                   $0          $35,460,140           $30,100,949
        10,612,338         (7,388,378)                   0           (7,388,378)           (6,519,008)
       $22,768,464        $28,071,762                   $0          $28,071,762           $23,581,941
     ($23,335,670)       $108,861,815                   $0         $108,861,815           $84,768,855
                 0         (1,152,055)                   0           (1,152,055)             (919,139)
     ($23,335,670)       $107,709,760                   $0         $107,709,760           $83,849,716
        ($567,206)       $135,781,522                   $0         $135,781,522          $107,431,657
                $0                  $0                  $0                    $0                    $0
                 0                   0                   0                     0                     0
       ($567,206)        $135,781,522                   $0         $135,781,522          $107,431,657




                                                                                                         95
Department of Defense- Department of the Army
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



CUMULATIVE¬RESULTS¬OF¬OPERATIONS                                   Active Army         Army Reserve       Army National Guard
Beginning¬Balances                                                    $99,380,846          $1,136,623                 $114,177
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                       0                   0                        0
Beginning Balance, Restated                                            99,380,846           1,136,623                  114,177
Prior Period Adjustments - Not Restated (+/-)                                   0                   0                        0
Beginning¬Balances,¬as¬adjusted                                       $99,380,846          $1,136,623                 $114,177
Budgetary¬Financing¬Sources:
Appropriations received                                                         0                    0                         0
Appropriations transferred-in/out (+/-)                                         0                    0                         0
Other adjustments (rescissions, etc) (+/-)                                      0                    0                         0
Appropriations used                                                   111,896,996           5,390,230                10,615,094
Nonexchange revenue                                                         5,143                    0                         0
Donations and forfeitures of cash and cash equivalents                      4,663                    0                         0
Transfers-in/out without reimbursement (+/-)                           13,189,641                    0                         0
Other budgetary financing sources (+/-)                                 2,602,295             (35,695)                  (26,103)
Other¬Financing¬Sources:
Donations and forfeitures of property                                           0                   0                         0
Transfers-in/out without reimbursement (+/-)                              400,742                   0                         0
Imputed financing from costs absorbed by others                           882,077                   0                         0
Other (+/-)                                                                     0                   0                         0
Total¬Financing¬Sources                                              $128,981,557          $5,354,535               $10,588,991
Net¬Cost¬of¬Operations¬(+/-)                                          120,740,069           5,152,593                10,456,066
Ending¬Balances                                                      $107,622,334          $1,338,565                 $247,102

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                    $44,005,556            $840,033                $2,678,801
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                       0                   0                         0
Beginning Balance, Restated                                            44,005,556             840,033                 2,678,801
Prior Period Adjustments - Not Restated (+/-)                                   0                   0                         0
Beginning¬Balances,¬as¬adjusted                                       $44,005,556            $840,033                $2,678,801
Budgetary¬Financing¬Sources:
Appropriations received                                                133,733,892           5,655,785               10,158,042
Appropriations transferred-in/out (+/-)                                   5,158,694          (291,362)                (121,983)
Other adjustments (rescissions, etc) (+/-)                              (1,238,547)            (52,661)               (103,156)
Appropriations used                                                  (111,896,996)         (5,390,229)             (10,615,095)
Nonexchange revenue                                                               0                   0                       0
Donations and forfeitures of cash and cash equivalents                            0                   0                       0
Transfers-in/out without reimbursement (+/-)                                      0                   0                       0
Other budgetary financing sources (+/-)                                           0                   0                       0
Other¬Financing¬Sources:
Donations and forfeitures of property                                           0                   0                         0
Transfers-in/out without reimbursement (+/-)                                    0                   0                         0
Imputed financing from costs absorbed by others                                 0                   0                         0
Other (+/-)                                                                     0                   0                         0
Total¬Financing¬Sources                                               $25,757,043           ($78,467)                ($682,192)
Net¬Cost¬of¬Operations¬(+/-)                                                    0                  0                         0
Ending¬Balances                                                       $69,762,599           $761,566                 $1,996,609




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 96
Component Level     Combined Total       Eliminations   2004 Consolidated      2003 Consolidated
              $0        $100,631,646               $0         $100,631,646             $5,790,837

               0                   0                0                    0                      0
               0         100,631,646                0          100,631,646              5,790,837
               0                   0                0                    0             97,897,585
              $0        $100,631,646               $0         $100,631,646           $103,688,422

                0                  0                0                    0                       0
                0                  0                0                    0                       0
                0                  0                0                    0                       0
        (567,206)        127,335,114                0          127,335,114            106,904,931
                0              5,143                0                5,143                     131
                0              4,663                0                4,663                  15,003
                0         13,189,641                0           13,189,641                 479,218
             (52)          2,540,445                0            2,540,445             (3,636,630)

                0                  0                0                    0                      0
               52            400,794                0              400,794              (321,356)
                0            882,077                0              882,077                818,482
                0                  0                0                    0                115,102
       ($567,206)       $144,357,877               $0         $144,357,877           $104,374,881
        (567,206)        135,781,522                0          135,781,522            107,431,657
               $0       $109,208,001               $0         $109,208,001           $100,631,646



        $150,324         $47,674,714               $0          $47,674,714            $31,468,721

               0                   0                0                    0                      0
         150,324          47,674,714                0           47,674,714             31,468,721
               0                   0                0                    0                      0
        $150,324         $47,674,714               $0          $47,674,714            $31,468,721

               0          149,547,719               0           149,547,719            117,667,977
               0             4,745,349              0              4,745,349             6,042,747
               0           (1,394,364)              0            (1,394,364)             (599,800)
         567,206        (127,335,114)               0         (127,335,114)          (106,904,931)
               0                     0              0                      0                     0
               0                     0              0                      0                     0
               0                     0              0                      0                     0
               0                     0              0                      0                     0

               0                   0                0                    0                      0
               0                   0                0                    0                      0
               0                   0                0                    0                      0
               0                   0                0                    0                      0
        $567,206         $25,563,590               $0          $25,563,590            $16,205,993
              0                   0                0                    0                      0
        $717,530         $73,238,304               $0          $73,238,304            $47,674,714




                                                                                                     97
Department of Defense- Department of the Army
 COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



                                                              Active Army         Army Reserve         Army National Guard
BUDGETARY¬FINANCING¬ACCOUNTS
BUDGETARY¬RESOURCES
Budget Authority:
Appropriations received                                        $133,746,065            $5,655,785               $10,158,042
Borrowing authority                                                       0                     0                         0
Contract authority                                                        0                     0                         0
Net transfers (+/-)                                               2,789,121             (163,358)                 (108,678)
Other                                                                     0                     0                         0
Unobligated balance:
Beginning of period                                                7,482,962                 243,423                 486,604
Net transfers, actual (+/-)                                        4,839,573               (128,004)                 (13,305)
Anticipated Transfers Balances                                             0                       0                        0
Spending authority from offsetting collections:
Earned                                                                      0                    0                           0
Collected                                                         18,504,799                72,650                   162,545
Receivable from Federal sources                                       429,957                (133)                   (17,082)
Change in unfilled customer orders                                          0                    0                           0
Advance received                                                      306,329                  277                        (30)
Without advance from Federal sources                                1,876,903               16,390                      3,558
Anticipated for the rest of year, without advances                          0                    0                           0
Transfers from trust funds                                                  0                    0                           0
Subtotal                                                         $21,117,988              $89,184                  $148,991
Recoveries of prior year obligations                              11,411,800              722,278                  1,862,601
Temporarily not available pursuant to Public Law                            0                    0                           0
Permanently not available                                         (1,238,547)             (52,661)                 (103,156)
Total¬Budgetary¬Resources                                       $180,148,962           $6,366,647                $12,431,099

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                          $135,058,437           $6,087,352                $11,445,147
Reimbursable                                                      23,075,048               94,168                    305,800
Subtotal                                                         158,133,485            6,181,520                 11,750,947
Unobligated balance:
Apportioned                                                       21,185,220               44,443                    228,978
Exempt from apportionment                                             13,411                    0                           0
Other available                                                            1                    0                         (1)
Unobligated Balances Not Available                                   816,845              140,684                    451,175
Total,¬Status¬of¬Budgetary¬Resources                            $180,148,962           $6,366,647                $12,431,099

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                     $42,236,948           $1,497,554                 $2,748,353
Obligated Balance transferred, net (+/-)                                   0                    0                          0
Obligated Balance, Net - end of period:
Accounts receivable                                               (1,810,267)               (15,745)                 (67,434)
Unfilled customer order from Federal sources                     (12,679,854)               (26,080)                  (7,237)
Undelivered orders                                                 54,754,445               552,918                1,202,211
Accounts payable                                                   12,588,082               907,988                1,623,372
Outlays:
Disbursements                                                    133,799,368            5,521,458                  9,899,311
Collections                                                      (18,811,127)             (72,926)                 (162,515)
Subtotal                                                        $114,988,241           $5,448,532                 $9,736,796
Less: Offsetting receipts                                            (63,289)                    0                         0
Net¬Outlays                                                     $114,924,952           $5,448,532                 $9,736,796


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 98
Component Level   2004 Combined      2003 Combined




             $0      $149,559,892       $117,695,530
              0                 0                  0
              0                 0                  0
              0         2,517,085          5,307,441
              0                 0                  0

              0         8,212,989          5,858,110
              0         4,698,264          1,214,524
              0                 0                  0

              0                  0                  0
              0        18,739,994         14,095,736
              0            412,742             12,974
              0                  0                  0
              0            306,576            119,338
              0          1,896,851          3,655,318
              0                  0                  0
              0                  0                  0
             $0       $21,356,163        $17,883,366
              0        13,996,679           8,001,403
              0                  0                  0
              0        (1,394,364)        (1,304,580)
             $0      $198,946,708       $154,655,794



             $0      $152,590,936       $128,012,383
              0        23,475,016         18,430,419
              0       176,065,952        146,442,802

              0        21,458,641          6,947,148
              0            13,411             25,665
              0                 0                  0
              0         1,408,704          1,240,179
             $0      $198,946,708       $154,655,794


             $0       $46,482,855        $33,662,267
              0                 0                  0

              0        (1,893,446)        (1,480,706)
              0       (12,713,171)       (10,816,319)
              0         56,509,574         44,735,892
              0         15,119,442         14,043,988

              0       149,220,137        121,952,521
              0       (19,046,568)       (14,215,073)
             $0      $130,173,569       $107,737,448
              0           (63,289)           (95,571)
             $0      $130,110,280       $107,641,877


                                                        99
Department of Defense- Department of the Army
 COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



                                                              Active Army         Army Reserve   Army National Guard
NONBUDGETARY¬FINANCING¬ACCOUNTS
BUDGETARY¬RESOURCES
Budget Authority:
Appropriations received                                                    $0               $0                    $0
Borrowing authority                                                         0                0                     0
Contract authority                                                          0                0                     0
Net transfers (+/-)                                                         0                0                     0
Other                                                                       0                0                     0
Unobligated balance:
Beginning of period                                                    1,272                 0                     0
Net transfers, actual (+/-)                                                0                 0                     0
Anticipated Transfers Balances                                             0                 0                     0
Spending authority from offsetting collections:
Earned                                                                     0                 0                     0
Collected                                                                152                 0                     0
Receivable from Federal sources                                            0                 0                     0
Change in unfilled customer orders                                         0                 0                     0
Advance received                                                           0                 0                     0
Without advance from Federal sources                                       0                 0                     0
Anticipated for the rest of year, without advances                         0                 0                     0
Transfers from trust funds                                                 0                 0                     0
Subtotal                                                               $152                 $0                    $0
Recoveries of prior year obligations                                       0                 0                     0
Temporarily not available pursuant to Public Law                           0                 0                     0
Permanently not available                                                  0                 0                     0
Total¬Budgetary¬Resources                                             $1,424                $0                    $0

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                                     $0               $0                    $0
Reimbursable                                                                0                0                     0
Subtotal                                                                   $0               $0                    $0
Unobligated balance:
Apportioned                                                            1,424                 0                     0
Exempt from apportionment                                                  0                 0                     0
Other available                                                            0                 0                     0
Unobligated Balances Not Available                                         0                 0                     0
Total,¬Status¬of¬Budgetary¬Resources                                  $1,424                $0                    $0

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                              $0                $0                    $0
Obligated Balance transferred, net (+/-)                                   0                 0                     0
Obligated Balance, Net - end of period:
Accounts receivable                                                         0                0                     0
Unfilled customer order from Federal sources                                0                0                     0
Undelivered orders                                                          0                0                     0
Accounts payable                                                            0                0                     0
Outlays:
Disbursements                                                               0                0                     0
Collections                                                             (152)                0                     0
Subtotal                                                               ($152)               $0                    $0
Less: Offsetting receipts                                                   0                0                     0
Net¬Outlays                                                            ($152)               $0                    $0


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 100
Component Level   2004 Combined    2003 Combined




             $0              $0               $0
              0               0                0
              0               0                0
              0               0                0
              0               0                0

              0            1,272             730
              0                0               0
              0                0               0

              0                0                0
              0              152              543
              0                0                0
              0                0                0
              0                0                0
              0                0                0
              0                0                0
              0                0                0
             $0            $152             $543
              0                0                0
              0                0                0
              0                0                0
             $0           $1,424           $1,273



             $0              $0               $0
              0               0                0
             $0              $0               $0

              0            1,424            1,273
              0                0                0
              0                0                0
              0                0                0
             $0           $1,424           $1,273


             $0              $0               $0
              0               0                0

              0               0                0
              0               0                0
              0               0                0
              0               0                0

              0                0                0
              0            (152)            (543)
             $0           ($152)           ($543)
              0                0                0
             $0           ($152)           ($543)


                                                    101
Department of Defense- Department of the Army
 COMBINING STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)



Resources¬Used¬to¬Finance¬Activities:                                                                   Active Army       Army Reserve
Budgetary Resources Obligated
Obligations incurred                                                                                      $158,133,485        $6,181,520
Less: Spending authority from offsetting collections and recoveries (-)                                    (32,529,939)        (811,461)
Obligations net of offsetting collections and recoveries                                                  $125,603,546        $5,370,059
Less: Offsetting receipts (-)                                                                                  (63,289)                0
Net obligations                                                                                           $125,540,257        $5,370,059
Other¬Resources
Donations and forfeitures of property                                                                                0                 0
Transfers in/out without reimbursement (+/-)                                                                   400,742                 0
Imputed financing from costs absorbed by others                                                                882,077                 0
Other (+/-)                                                                                                          0                 0
Net other resources used to finance activities                                                              $1,282,819                $0
Total¬resources¬used¬to¬finance¬activities                                                                $126,823,076        $5,370,059

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                                    ($12,499,620)          $4,280
Unfilled Customer Orders                                                                                      2,183,232          16,666
Resources that fund expenses recognized in prior periods                                                      (778,523)          (2,220)
Budgetary offsetting collections and receipts that                                                               63,441                0
  do not affect net cost of operations
Resources that finance the acquisition of assets                                                            (9,338,486)        (406,389)
Other resources or adjustments to net obligated resources that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                                   0                0
Other (+/-)                                                                                                   (400,742)                0
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                              ($20,770,698)       ($387,663)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                                $106,052,378        $4,982,396

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
Increase in annual leave liability                                                                             $79,075          $10,589
Increase in environmental and disposal liability                                                             3,103,711                0
Upward/Downward reestimates of credit subsidy expense (+/-)                                                     10,869                0
Increase in exchange revenue receivable from the the public (-)                                                      0                0
Other (+/-)                                                                                                     59,383              585
Total components of Net Cost of Operations that will require or generate resources in future periods
Components not Requiring or Generating Resources:                                                           $3,253,038          $11,174
Depreciation and amortization                                                                                9,582,597          160,101
Revaluation of assets or liabilities (+/-)                                                                     514,672                0
Other (+/-)
Trust Fund Exchange Revenue                                                                                        (36)                0
Cost of Goods Sold                                                                                                    0                0
Operating Material & Supplies Used                                                                                    0                0
Other                                                                                                        1,337,420           (1,078)
Total components of Net Cost of Operations that will not require or generate resources                     $11,434,653         $159,023
Total¬components¬of¬net¬cost¬of¬operations¬that
      will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                         $14,687,691         $170,197
Net¬Cost¬of¬Operations                                                                                    $120,740,069        $5,152,593




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 102
Army National Guard      Component Level     2004 Combined      2003 Combined

          $11,750,946                  $0       $176,065,951       $146,442,802
           (2,011,591)                  0        (35,352,991)       (25,885,311)
           $9,739,355                  $0       $140,712,960       $120,557,491
                    0                   0            (63,289)           (95,571)
           $9,739,355                  $0       $140,649,671       $120,461,920

                    0                   0                  0                  0
                    0                  52            400,794          (321,356)
                    0                   0            882,077            818,482
                    0                   0                  0            115,102
                   $0                 $52         $1,282,871          $612,228
           $9,739,355                 $52       $141,932,542       $121,074,148




            $877,409            ($567,206)      ($12,185,137)      ($16,480,237)
                3,527                    0          2,203,425          3,774,656
             (90,042)                    0          (870,785)          (282,695)
                    0                    0             63,441             15,085

            (156,130)                   0         (9,901,005)       (25,214,843)

                    0                    0                  0                  0
                    0                 (52)          (400,794)                  0
            $634,764            ($567,258)      ($21,090,855)      ($38,188,034)
          $10,374,119           ($567,206)      $120,841,687         $82,886,114




               $5,620                  $0            $95,284          $291,488
                    0                   0          3,103,711          2,317,132
                    0                   0             10,869                  0
                    0                   0                  0                  0
                3,666                   0             63,634            409,303

               $9,286                  $0         $3,273,498         $3,017,923
               72,865                   0          9,815,563         21,363,920
                  365                   0            515,037            (10,681)

                    0                   0                (36)               (48)
                    0                   0                   0                  0
                    0                   0                   0                  0
                (569)                   0          1,335,773            174,429
              $72,661                  $0        $11,666,337        $21,527,620

              $81,947                   $0       $14,939,835        $24,545,543
          $10,456,066           ($567,206)      $135,781,522       $107,431,657




                                                                                   103
Department of Defense- Department of the Army
 COMBINING STATEMENT OF CUSTODIAL ACTIVITY
As of September 30, 2004 and 2003 ($ in Thousands)



SOURCE¬OF¬COLLECTIONS                                                      Active Army         Army Reserve        Army National Guard
Deposits by Foreign Governments                                                           $0                  $0                    $0
Seized Iraqi Cash                                                                    118,349                   0                     0
Other Collections                                                                          0                   0                     0
Total Cash Collections                                                               118,349                   0                     0
Accrual Adjustments (+/-)                                                                  0                   0                     0
Total Custodial Collections                                                         $118,349                  $0                    $0
DISPOSITION¬OF¬COLLECTIONS
Disbursed on Behalf of Foreign Governments and
      International Organizations                                                         $0                  $0                    $0
Seized Assets Disbursed on behalf of Iraqi People                                    283,058                   0                     0
Increase (Decrease) in Amounts to be Transferred                                           0                   0                     0
Collections Used for Refunds and Other Payments                                            0                   0                     0
Retained by The Reporting Entity                                                           0                   0                     0
Seized Assets Retained for Support of the Iraqi People                             (164,709)                   0                     0
Total Disposition of Collections                                                   $118,349                   $0                    $0
NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                                                         $0                  $0                    $0




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 104
SOURCE¬OF¬COLLECTIONS                                    Component Level    2004 Combined       2003 Combined
Deposits by Foreign Governments                                        $0                  $0                  $0
Seized Iraqi Cash                                                       0             118,349             808,866
Other Collections                                                       0                   0                   0
Total Cash Collections                                                  0             118,349             808,866
Accrual Adjustments (+/-)                                               0                   0                   0
Total Custodial Collections                                            $0            $118,349            $808,866
DISPOSITION¬OF¬COLLECTIONS
Disbursed on Behalf of Foreign Governments and
      International Organizations                                      $0                  $0                  $0
Seized Assets Disbursed on behalf of Iraqi People                       0             283,058             530,727
Increase (Decrease) in Amounts to be Transferred                        0                   0                   0
Collections Used for Refunds and Other Payments                         0                   0                   0
Retained by The Reporting Entity                                        0                   0                   0
Seized Assets Retained for Support of the Iraqi People                  0           (164,709)             278,139
Total Disposition of Collections                                       $0           $118,349             $808,866
NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                                      $0                  $0                  $0




                                                                                                           105
Required Supplementary Stewardship Information
                                                            Heritage Assets
                                                    For Fiscal Year Ended September 30, 2004
                       (a)                               (b)                   (c)                (d)         (e)         (f)
                                                   Measurement/              As Of                                      As Of
                                                      Quantity              10/1/03            Additions   Deletions   9/30/04
 Museums (Note 2)                                  Each                        117                   0           0         117
 Monuments & Memorials (Note 3)                    Each                        889               527             5       1,411
 Cemeteries (Note 4)                               Sites                       524                   4           5         523
 Archeological Sites                               Sites                          0                  0           0            0
 Buildings & Structures (Note 1)                   Each                      9,846               694          521      10,019
 Major Collections (Note 5)                        Each                           6                  0           0            6


Narrative Statement:
In most cases, the additions/deletions are the result of sites/installations: (a) identifying cemeteries and
historical facilities; (b) disposing of BRAC Closure property or excess installations; and, (c) privatization/
RCI program.


Notes:
1. Historical Buildings and Structures: buildings and structures designated as historical exclude museums,
   monuments, and memorials. The number of Buildings and Structures increased as a result of the
   following initiatives:
      Installations conducting real property surveys and making adjustments according to their ﬁndings
      Active installations now reporting previously omitted National Guard Bureau buildings and structures
      designated as heritage assets
      Both National Guard and Reserve are now reporting new buildings and structures designated as heritage
      assets
2. Museums: The Army Museum System consists of 117 museums and museum activities worldwide that
   comprise the active Army, Army Reserve, and the National Guard (Federal property only). In addition,
   there is historical property displayed in numerous regimental rooms, trophy rooms, ofﬁcer’s clubs,
   visitor’s centers, chapels, and headquarters building elements that are not recognized by the Department
   of the Army as a museum or museum activity. Solely for reporting purposes, we have consolidated all of
   these separate and smaller collections during this reporting period.
3. Memorial/Monuments: includes category code 76020 (monuments).
4. Cemeteries: includes category code 76030 (cemetery), 76031 (National Cemetery), 76032 (Veterans
   Cemetery), and excludes 76033 (Pet Cemeteries).
5. The US Army Tank-automotive & Armaments Command is reporting two (2) major collections under the
   Donation Program; Ceremonial Riﬂes and Monuments/Static. The U.S. Army Center of Military History
   is the proponent for all Army Historical property. Currently, there are four (4) major or signiﬁcant
   collections that are maintained outside the deﬁnition of an Army museum and museum activity. The
   collections consist of the U.S. Army Center of Military History, Museum Division, Collections Branch,
   the Anniston Historical Clearinghouse, the Maple Leaf and Benton Small Arms collections. The general
   condition of the historical collection is stable. Multi-year conservation contracts have been let with
   certiﬁed conservators, who are members in good standing with the American Institute of Conservators.
   The ongoing effort ensures that the historical collection is preserved in accordance with statutory
   requirements, Army regulations, and professional museum standards, and is interpreted in the interest of
   history, the U.S. Army, and the American people. Furthermore, the historical collection actively supports
   training and development, and serves as a bridge for common interest between the military and civilian
   communities.

General Fund – Principal Financial Statements, Notes, and Supplementary Information — 106
                                               Stewardship Land
                               For Fiscal Year Ended September 30, 2004 (Acres in Thousands)
                (a)                           (b)                    (c)                      (d)            (e)
            Land Use                     As of 10/1/03             Additions               Deletions   As of 09/30/04
1. Mission (Note 1)                         6,932.8                   245.3                   268.1        6,910.0
2. Parks & Historic Sites (Note 2)               .91                     .54                     .51             .94



Narrative Statement:
Additions/deletions are the result of: (a) acquiring additional land through donation or withdrawal from
public domain; (b) identiﬁcation of missing land records; and, (c) disposal of BRAC Closure sites or transfer
of land to another DOD agency.


Notes:
1. Mission Land: includes the following category codes: 91120, 91131, 91141, 91210, 91310, 91320,
   91330, 91410, 92111, 92121, 92131, 92190. These category codes represent land that was not purchased,
   but was either donated or withdrawn from public domain.
2. Parks/Historic Sites: Same as Cemetery Acreage on Heritage Report (includes category codes 76030,
   76031, and 76032; excludes Pet Cemeteries). Unable to determine if cemeteries are purchased, donated
   or transferred property. This value could be double reported within Mission Related; therefore; this
   report should not be totaled.




                                                                                                                        107
                                                  Nonfederal Physical Property
                                          Yearly Investment in State and Local Governments
                                                    For Fiscal Years FY 2000 through FY 2004
                                                               (In Millions of Dollars)
                   (a)                                        (b)              (c)               (d)       (e)       (f)
                Categories                                  FY 2000          FY 2001           FY 2002   FY 2003   FY2004
 Transferred Assets:
 1. National Defense Mission Related                              $4.7           $94.8            $7.4     $85.0     $54.7

 Funded Assets:
 2. National Defense Mission Related                                 0               0               0         0         0
     Total                                                        $4.7           $94.8            $7.4     $85.0     $54.7


Narrative Statement:
Investments in Nonfederal Physical Property refers to those expenses incurred by the Army for the purchase,
construction, or major renovation of physical property owned by State and Local Governments, including
major additions, alterations and replacements; the purchase of major equipment; and the purchase of
improvement of other physical assets. The following is a schedule of estimated investments value of state-
owned properties that are used by the Federal Government.


Notes:
1. Investment values included in this report are based on Nonfederal Physical Property outlays
   (expenditures). Outlays are used because current DoD systems are unable to capture and summarize
   costs in accordance with the Federal Accounting Standards requirements.
2. Data provided here are signiﬁcant because these are properties that are owned by the various U.S.
   Property and Fiscal Ofﬁces and are essential in accomplishing the mission of the Army National Guard.
3. Costs of maintenance of these non-federal assets are included in the budgetary resources of Army
   National Guard.
4. These properties represent non-cash items that were transferred to State and local governments.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 108
                             Investments in Research and Development
                                Yearly Investment in Research and Development
                                       For Fiscal Years FY 2000 through FY 2004
                                                  (In Millions of Dollars)
                 (a)                        (b)               (c)                   (d)         (e)         (f)
             Categories                   FY 2000           FY 2001               FY 2002     FY 2003     FY 2004
1. Basic Research                            $187.1            $209.2                $206.4     $226.9      $291.6
2. Applied Research                           677.6             806.6                 864.1       847.2       886.8
3. Development:
Advanced Technology Development                 701.2              821.9              863.1       988.6     1,010.4
Advanced Component Development                  476.5              622.6              897.7       880.1       767.7
    and Prototypes
Systems Development and                       1,326.4           1,653.0             1,954.9     2,265.1     3,288.3
    Demonstration
Research, Development, Test                     961.9              888.8              880.9       979.4     1,069.8
    and Evaluation Management
    Support
Operational Systems Development                605.4             849.3                970.4       964.9       929.8
Total                                       $4,936.1          $5,851.4             $6,637.5    $7,152.2    $8,244.4


Narrative Statement:
The following are two representative program examples for each of the major categories:

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects
of phenomena and of observable facts without speciﬁc applications, processes, or products in mind. Basic
research involves the gathering of a fuller knowledge or understanding of the subject under study. Major
outputs are scientiﬁc studies and research papers. The work in this program is consistent with the Army
Campaign Plan, the Army Science and Technology Master Plan (ASTMP) and the Defense Technology Area
Plan (DTAP). The following are two representative program examples for this category:

Defense Research Sciences (PE0601102A): This program sustains U.S. Army scientiﬁc competence as the
foundation for ensuring that our Soldiers have superior land warﬁghting capability. This research provides
new technology concepts and operational applications for the Army’s Future Force. These investments also
provide the resources to exploit scientiﬁc breakthroughs and avoid technological surprises. This program
fosters innovation in Army niche areas and where the commercial incentive to invest is lacking due to limited
markets. It also focuses university single investigators on research in areas of Army interest. The in-house
portion of the program capitalizes on the Army’s scientiﬁc talent and specialized facilities to expeditiously
transition knowledge and technology into practical applications. The extramural program leverages the
research efforts of other government agencies, academia, and industry. This promotes efﬁciency while
eliminating undesirable duplication to achieve a well-integrated program that is executed by ﬁve primary
contributors: 1) the Army Research Laboratory (ARL), which includes the Army Research Ofﬁce; 2) the
Research, Development and Evaluation Command (RDECOM) Research, Development and Engineering
Centers (RDECs); 3) the Army Corps of Engineers Research and Development Center (ERDC); 4) the
Army Medical Research and Materiel Command laboratories; and 5) the Army Research Institute. The
basic research program is coordinated with the other Services through the Joint Directors of Laboratories
panels, OSD’s Tri-Service Reliance, and other interservice working groups. This program responds to the
scientiﬁc and technological requirements of the Department of Defense Basic Research Plan by enabling the
technologies that can signiﬁcantly improve joint war ﬁghting capabilities.

University and Industry Research Centers (PE0601104A): This program leverages research in the
private sector through Collaborative Technology Alliances (CTA), Centers of Excellence, and the University
Afﬁliated Research Centers. CTAs are innovative alliances among government, industry and academic
organizations to exploit scientiﬁc and technological breakthroughs and to transition these breakthroughs
to applied research. This program includes the Army’s Centers of Excellence, which couple state-of-the-


                                                                                                                  109
art research programs at academic institutions with broad-based graduate education programs to increase
the number of scientists and engineers in materials science, electronics and rotary wing technology. Also
included in this program is the Army’s national web-based competition to stimulate interest in science,
math and technology in middle and high school students (eCYBERMISSION). This program also includes
three “paradigm shifting” research centers seeking to accelerate opportunities in speciﬁc areas of potentially
high payoff. These three centers are: the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts
Institute of Technology, the Institute for Collaborative Biotechnologies, the Army’s Institute of Creative
Technologies (ICT)-- a partnership with academia and the entertainment and gaming industries pursuing
research in immersive simulations. Further, the Army funds Historically Black Colleges and Universities
and Minority Institution (HBCU/MI) Centers of Excellence to address critical research areas for Army
Transformation.

Applied Research: This area of technology investment funds the efforts to transform knowledge and
understanding into practical warﬁghting applications. This research focuses on satisfying speciﬁc military
needs. Major outputs are scientiﬁc studies, investigations, and research papers, hardware components,
software codes, and limited construction of, or part of, a weapon system to include non-system speciﬁc
development efforts. Work is consistent with the Army Campaign Plan, the Army Science and Technology
Master Plan (ASTMP) and the Army Modernization Plan, and the Defense Technology Area Plan (DTAP).
The following are two representative program examples for this category:

Materials Technology (PE0602105A): This program matures materials technology for armor and
armaments to provide America’s Soldiers with overmatching lethality and survivability compared to that
of our adversaries. Many of the products from this applied research will be further matured for ﬁelding in
the Future Combat Systems (FCS) and other Future Force systems. When operational requirements demand
new capabilities and where feasible, technology products from this program will be inserted into Current
Force systems. This program also translates new materials concepts into applications using nanomaterials
to increase performance while reducing weight of individual soldier support equipment, armor, armaments,
aircraft, ground combat vehicles.

Combat Vehicle and Automotive Technology (PE0602601A): This program researches, investigates and
matures combat vehicle and automotive technologies to improve survivability, mobility, sustainability, and
maintainability of Army ground vehicles. Implementing DoD’s transformation goals requires the Army to
develop smaller and lighter systems to achieve essential strategic responsiveness. Technologies to make
these lighter systems survivable are pursued in this program such as: active protection systems and advanced
lightweight armor. This program also advances technologies for critical power, propulsion and electric
components, including energy storage, power distribution and pulse forming networks. This program adheres
to Tri-Service Reliance agreements in advanced materials, fuels and lubricants, and ground vehicles, with
oversight and coordination provided by the Joint Directors of Laboratories. This program is coordinated with
the Departments of Energy, Commerce, Transportation, and Defense Advanced Research Projects Agency
(DARPA).

Development takes what has been discovered or learned from basic and applied research and uses it to
establish technological feasibility, assessment of operability, and production capability. Development is
comprised of ﬁve stages deﬁned below:

1. Advanced Technology Development: This area of technology includes all efforts to mature technology
   (hardware or software) sufﬁcient for demonstration in an operational environment—this may be live
   or virtual. In this program experimental systems or subsystems are demonstrated to prove the technical
   feasibility and military utility of the approach selected. Advanced technology development provides the
   path for the rapid development and demonstration of new components and systems. The most complex
   efforts in this program are designated as Advanced Technology Demonstrations (ATDs). The Army’s
   ATDs are developed to facilitate the smooth transition of advanced technology into systems as part of
   formal acquisition program.


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 110
2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
   operating environment as possible to assess the performance or cost reduction potential of advanced
   technology. Programs in this phase are generally system speciﬁc. Major outputs of Demonstration and
   Validation are hardware and software components, or complete weapon systems, ready for operational
   and developmental testing and ﬁeld use.
1. System Development and Demonstration concludes the program or project and prepares it for
   production. It consists primarily of preproduction efforts, such as logistics and repair studies. Major
   outputs are weapons systems ﬁnalized for complete operational and developmental testing.
2. RDT&E Management Support is support for installations and operations for general research and
   development use. This category includes costs associated with test ranges, military construction
   maintenance support for laboratories, operation and maintenance of test aircraft and ships, and studies
   and analyses in support of the R&D program.
3. Operational Systems Development is concerned with development projects in support of programs
   or upgrades still in engineering and manufacturing development, which have received approval for
   production, for which production funds have been budgeted in subsequent ﬁscal years.
The following are three representative program examples for this category:

Electronic Warfare Advanced Technology (PE0603008A): The goal of this program is to provide
technologies for a secure, mobile, wireless network that operates in diverse and complex terrain all the
time, in all environments for the Army’s Future Force and, where feasible, exploit opportunities to enhance
Current Force capabilities. A key goal of the work is to demonstrate the capability to seamlessly integrate
communications technologies across all network tiers, ranging from unattended networks and sensors,
through maneuver elements and airborne/space assets. To accomplish this goal the program will investigate
and leverage external communication technologies and combine technology options in a series of Command,
Control, Communications, and Computers Intelligence, Surveillance and Reconnaissance (C4ISR) On-The-
Move (OTM) experimentations to measure the battleﬁeld effectiveness for Future Combat Systems (FCS)
and the Future Force. This program also matures: protection technologies for tactical wireless networks
against modern network attacks; smart communication technologies to enable network and control of
unmanned systems shortening the sensor-decider-engagement time to defeat critical targets. Several efforts of
this program are conducted in conjunction with the Defense Advanced Research Projects Agency (DARPA)
and the other Services.

Missile and Rocket Advanced Technology (PE0603313A): The emphasis in this program is on smaller,
lighter weight, more affordable missiles. This program matures advanced missile technology to increase
weapon system performance and countermeasures to defeat threat missile systems. This program funds
demonstrations of advanced tactical missiles, real-time hardware-in-the-loop simulations, and multi-role
seeker technology efforts. The technologies funded in this program demonstrate improved target location
accuracy in clutter, lightweight missile launchers, precision guidance, hypervelocity missile ﬂight, and
missile communications, command and control. Speciﬁc efforts in this program include: Compact Kinetic
Energy Missile (CKEM), Advanced Multi-Mission Precision Guided Munition (AMMPGM), Air Defense
for the Unit of Action (concentrating on defense against Rockets, Artillery and Mortars (RAM)), and
Helicopter Defensive Aides Suites for Integrated Survivability (HDAS/IS). The CKEM technology program
will demonstrate a prime candidate to provide overwhelming lethality for the Future Combat Systems (FCS)
Direct Fire System.

Army Test Ranges and Facilities: This program provides the institutional funding required to operate
the developmental test activities required by Department of Defense (DoD), Department of the Army
(DA) weapons systems developers and Research, Development, and Engineering Centers. This program
provides resources to operate Army’s Major Range and Test Facility Bases (MRTFB): White Sands Missile
Range (WSMR), New Mexico; Aberdeen Test Center (ATC), Aberdeen Proving Ground (APG), Maryland;
Yuma Proving Ground (YPG), Arizona. This program also provides the resources to operate the Army’s


                                                                                                             111
developmental test capability at: Aviation Technical Test Center, Fort Rucker, AL; and Redstone Technical
Test Center, Redstone Arsenal, AL. It also provides the resources for test planning and safety veriﬁcation/
conﬁrmation. Developmental test capabilities at the test range have been uniquely established, are in place
to support test and evaluation (T&E) requirements of funded weapons programs, and are required to assure
technical performance, adherence to safety requirements, reliability, logistics supportability, and quality
of materiel in development and in production. This program sustains the developmental T&E capability
required to support all elements of Army Transformation, as well as Joint Service or Other Service systems,
hardware, and technologies.


                                           General Property, Plant, and Equipment
                                             Real Property Deferred Maintenance Amounts
                                                            As of September 30, 2004

Narrative Statement:
FY2004 sustainment requirements for the Army are from version 4.1 of the DoD Facilities Sustainment
Model (FSM). The required and executed amounts represent facilities funded from Operations &
Maintenance (O&M), Army Family Housing (AFH), and Working Capital Fund (WCF) appropriations,
and from Non-Appropriated Funds (NAF). Sustainment funding contributions from host nation funding
(Japan) and military pay are included. The appropriated amount includes no contribution from WCF, NAF
and host nation funding as these funds are not appropriated by Congress. Army sustainment data includes
facilities that are multi-use heritage assets. The sustainment data excludes facilities funded from Research,
Development, Test and Evaluation (RDTE), and Procurement appropriations, and Chemical Depots, because
we lack separately identiﬁable sustainment funding for these locations.

                                                      Annual Sustainment FY 2004
 Property Type                                        1. Required    2. Appropriated        3. Executed   4. Difference
 Buildings, Structures, and Utilities                 $3,322.8M      $2,696.1M              $2, 362.9M    $959.9M


                                      Annual Deferred Sustainment Trend
 Property Type                           FY 2001         FY 2002                            FY 2003       FY 2004
 Buildings, Structures, and Utilities    $1,167M         $913.4M                            $792.3M       $959.9M


Army Restoration & Modernization (R&M) requirements are modeled in the annual Installation Status
Report (ISR). During ISR data collection, facility occupants evaluate the condition of each facility against
published standards. Facilities are rated Green (complies with standards), Amber (does not fully meet
standards), or Red (dysfunctional or substandard). ISR establishes a C-rating for groups of facilities, based
on the proportion of facilities rated Green, Amber, and Red. Facility groups are rated C-1 (facilities fully
support the mission), C-2 (facilities support the majority of assigned missions), C-3 (facilities impair mission
performance), or C-4 (facilities signiﬁcantly impair mission performance).

ISR develops cost estimates to improve groups of facilities to higher C-ratings. Using industry based
improvement cost factors for each facility type, ISR builds the cost to improve Red and Amber facilities
to Green in order to achieve higher C-ratings. The requirement reported for General PP&E R&M is the
ISR cost to improve the quality of facilities to full up C-1 status, which represents all facilities being rated
Green. For FY2004, these requirements address facility types funded from Army appropriated operations
and maintenance (O&M), working capital fund (WCF), and Army family housing (AFH) funds. The Army’s
R&M requirement does not include requirements for facilities funded by Department of Defense agencies
(DECA, DLA, TMA, DODDS), non-appropriated funds-NAF (recreation, sports), Army Air Force Exchange
Service, and private funding. The R&M requirement also excludes costs for utilities planned for privatization,
closures from base realignment and closure (BRAC) decisions, ammunition plants and chemical depots.


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 112
Army facilities are predominantly C-3, due to years of underfunding sustainment. The Army’s estimate to
return these facilities to a full-up C-1 status for FY2004 is $32.1B, based on the 2004 ISR. The restoration &
modernization requirement reported for FY2003 has been corrected from $26.5B as reported in September
2003, to $34.3B. The reason for this correction is to provide a cost consistent with full-up C-1 status,
rather than the minimum C-1 status as previously reported. Reduced requirements for FY 2004 reﬂect
improvements to the inventory from recent R&M investments.

                                            Restoration & Modernization Requirements
 Property Type                                        End FY 2003           End FY 2004        Change
 Buildings, Structures, and Utilities                    $34.3B               $32.1B           -$2.2B




                    Military Equipment
               Deferred Maintenance Amounts
                      As of September 30, 2004
                       (Amount in Thousands)
                     (a)                           (b)
                  Major Type
1. Aircraft                                       $ 38,600
2. Ships                                                 0
3. Missiles                                         49,800
4. Combat Vehicles                                128,564
5. Other Weapons Systems                          231,100
6. Total                                         $448,060




                                                                                                            113
Department of Defense- Department of the Army
 STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)

BUDGETARY¬RESOURCES                                                            Research, Development, Test     Operation and
                                                                Other
Budgetary Financing Accounts                                                          & Evaluation             Maintenance
Budget Authority:
Appropriations received                                         $1,937,452                      $10,363,941           $69,934,146
Borrowing authority                                                      0                                 0                    0
Contract authority                                                       0                                 0                    0
Net transfers (+/-)                                                483,125                          (49,367)            2,785,095
Other                                                                    0                                 0                    0
Unobligated balance:
Beginning of period                                                 177,247                       1,312,353               924,944
Net transfers, actual (+/-)                                       (402,025)                          13,233             4,548,877
Anticipated Transfers Balances                                            0                               0                     0
Spending authority from offsetting collections:
Earned                                                                     0                              0                     0
Collected                                                             7,722                       2,803,480            11,176,525
Receivable from Federal sources                                       6,900                          23,021               526,955
Change in unfilled customer orders                                         0                              0                     0
Advance received                                                        (22)                         62,538                36,494
Without advance from Federal sources                               (16,587)                         483,759               619,738
Anticipated for the rest of year, without advances                         0                              0                     0
Transfers from trust funds                                                 0                              0                     0
Subtotal                                                           ($1,987)                      $3,372,798           $12,359,712
Recoveries of prior year obligations                                 44,570                         901,335             8,863,267
Temporarily not available pursuant to Public Law                           0                              0                     0
Permanently not available                                           (3,274)                       (126,400)             (470,471)
Total¬Budgetary¬Resources                                       $2,235,108                      $15,787,893           $98,945,570
STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                          $1,930,407                      $10,353,336           $71,080,811
Reimbursable                                                        17,614                        3,697,451            13,343,901
Subtotal                                                        $1,948,021                      $14,050,787           $84,424,712
Unobligated balance:
Apportioned                                                        268,247                        1,658,382            13,671,157
Exempt from apportionment                                           13,411                                0                     0
Other available                                                          0                                0                     0
Unobligated Balances Not Available                                   5,429                           78,724               849,701
Total,¬Status¬of¬Budgetary¬Resources                            $2,235,108                      $15,787,893           $98,945,570

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                    $1,238,805                       $3,775,317           $22,800,300
Obligated Balance transferred, net (+/-)                                 0                                0                     0
Obligated Balance, Net - end of period:
Accounts receivable                                                 (8,944)                        (192,534)          (1,334,880)
Unfilled customer order from Federal sources                       (16,833)                      (2,029,559)          (5,256,056)
Undelivered orders                                                 986,944                         6,808,364          25,257,909
Accounts payable                                                   221,966                           663,854            9,250,334
Outlays:
Disbursements                                                    1,968,809                       11,167,864            69,297,745
Collections                                                         (7,700)                      (2,866,019)         (11,213,019)
Subtotal                                                        $1,961,109                       $8,301,845          $58,084,726
Less: Offsetting receipts                                          (63,289)                               0                     0
Net¬Outlays                                                     $1,897,820                       $8,301,845          $58,084,726




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 114
                                            Military Construction/Family
Procurement          Military Personnel                                      2004 Combined      2003 Combined
                                                      Housing

      $13,839,049            $51,091,331                      $2,393,973        $149,559,892       $117,695,530
                0                      0                               0                   0                  0
                0                      0                               0                   0                  0
          798,312             (1,502,535)                          2,455           2,517,085          5,307,441
                0                      0                               0                   0                  0

        3,486,034                223,179                        2,089,235          8,212,989          5,858,110
          514,878                106,882                          (83,581)         4,698,264          1,214,524
                0                      0                                 0                 0                  0

                 0                     0                               0                    0                  0
          846,539                591,573                       3,314,155          18,739,994         14,095,736
           (3,448)             (238,383)                          97,695              412,742             12,974
                 0                     0                               0                    0                  0
           (4,090)                     0                         211,654              306,576            119,338
          118,419                 14,505                         677,016            1,896,851          3,655,318
                 0                     0                               0                    0                  0
                 0                     0                               0                    0                  0
        $957,420               $367,695                       $4,300,520         $21,356,163        $17,883,366
          600,789              2,390,363                       1,196,356          13,996,679           8,001,403
                 0                     0                               0                    0                  0
        (296,606)              (218,511)                       (279,101)          (1,394,364)        (1,304,580)
      $19,899,876            $52,458,404                      $9,619,857        $198,946,708       $154,655,794



      $15,779,790            $50,534,797                      $2,911,796        $152,590,936       $128,012,383
        1,062,073                674,086                       4,679,891          23,475,016         18,430,419
      $16,841,863            $51,208,883                      $7,591,687        $176,065,952       $146,442,802

        2,912,567                921,961                       2,026,327          21,458,641          6,947,148
                0                      0                               0              13,411             25,665
                0                      0                               0                   0                  0
          145,446                327,561                           1,843           1,408,704          1,240,179
      $19,899,876            $52,458,405                      $9,619,857        $198,946,708       $154,655,794


      $12,534,218             $3,576,399                      $2,557,816         $46,482,855        $33,662,267
                0                      0                               0                   0                  0

          (68,508)             (167,122)                        (121,458)         (1,893,446)        (1,480,706)
      (1,528,514)                (14,505)                     (3,867,703)        (12,713,171)       (10,816,319)
      15,707,261               1,681,367                        6,067,729          56,509,574         44,735,892
        1,334,144              3,187,717                          461,426          15,119,442         14,043,988

       13,215,938             47,931,340                        5,638,441        149,220,137        121,952,521
        (842,449)              (591,573)                      (3,525,809)        (19,046,568)       (14,215,073)
      $12,373,489            $47,339,767                      $2,112,632        $130,173,569       $107,737,448
                0                      0                                0            (63,289)           (95,571)
      $12,373,489            $47,339,767                      $2,112,632        $130,110,280       $107,641,877




                                                                                                                   115
Department of Defense- Department of the Army
 STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)

BUDGETARY¬RESOURCES                                                            Research, Development, Test   Operation and
                                                                Other
Non-Budgetary Financing Accounts                                                      & Evaluation           Maintenance
Budget Authority:
Appropriations received                                                  $0                             $0                   $0
Borrowing authority                                                       0                              0                    0
Contract authority                                                        0                              0                    0
Net transfers (+/-)                                                       0                              0                    0
Other                                                                     0                              0                    0
Unobligated balance:
Beginning of period                                                   1,273                              0                   0
Net transfers, actual (+/-)                                               0                              0                   0
Anticipated Transfers Balances                                            0                              0                   0
Spending authority from offsetting collections:
Earned                                                                   0                               0                    0
Collected                                                              152                               0                    0
Receivable from Federal sources                                          0                               0                    0
Change in unfilled customer orders                                       0                               0                    0
Advance received                                                         0                               0                    0
Without advance from Federal sources                                     0                               0                    0
Anticipated for the rest of year, without advances                       0                               0                    0
Transfers from trust funds                                               0                               0                    0
Subtotal                                                             $152                               $0                   $0
Recoveries of prior year obligations                                     0                               0                    0
Temporarily not available pursuant to Public Law                         0                               0                    0
Permanently not available                                                0                               0                    0
Total¬Budgetary¬Resources                                           $1,425                              $0                   $0
STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                                   $0                             $0                   $0
Reimbursable                                                              0                              0                    0
Subtotal                                                                  0                              0                    0
Unobligated balance:
Apportioned                                                          1,424                               0                    0
Exempt from apportionment                                                0                               0                    0
Other available                                                          0                               0                    0
Unobligated Balances Not Available                                       0                               0                    0
Total,¬Status¬of¬Budgetary¬Resources                                $1,424                              $0                   $0

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                             $0                             $0                   $0
Obligated Balance transferred, net (+/-)                                  0                              0                    0
Obligated Balance, Net - end of period:
Accounts receivable                                                       0                              0                   0
Unfilled customer order from Federal sources                              0                              0                   0
Undelivered orders                                                        0                              0                   0
Accounts payable                                                          0                              0                   0
Outlays:
Disbursements                                                             0                              0                    0
Collections                                                           (152)                              0                    0
Subtotal                                                             ($152)                             $0                   $0
Less: Offsetting receipts                                                 0                              0                    0
Net¬Outlays                                                          ($152)                             $0                   $0




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 116
                                            Military Construction/Family
Procurement        Military Personnel                                      2004 Combined    2003 Combined
                                                      Housing

              $0                   $0                                 $0              $0                $0
               0                    0                                  0               0                 0
               0                    0                                  0               0                 0
               0                    0                                  0               0                 0
               0                    0                                  0               0                 0

              0                         0                              0            1,272              730
              0                         0                              0                0                0
              0                         0                              0                0                0

               0                    0                                  0                0                0
               0                    0                                  0              152              543
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
              $0                   $0                                 $0            $152             $543
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
              $0                   $0                                 $0           $1,424           $1,273



              $0                   $0                                 $0              $0                $0
               0                    0                                  0               0                 0
               0                    0                                  0               0                 0

               0                    0                                  0            1,424            1,273
               0                    0                                  0                0                0
               0                    0                                  0                0                0
               0                    0                                  0                0                0
              $0                   $0                                 $0           $1,424           $1,273


              $0                   $0                                 $0              $0                $0
               0                    0                                  0               0                 0

              0                         0                              0               0                 0
              0                         0                              0               0                 0
              0                         0                              0               0                 0
              0                         0                              0               0                 0

               0                    0                                  0                0                 0
               0                    0                                  0            (152)             (543)
              $0                   $0                                 $0           ($152)            ($543)
               0                    0                                  0                0                 0
              $0                   $0                                 $0           ($152)            ($543)




                                                                                                              117
 Required Supplemental Information - Part A
AT21 - Army General Fund
                                                                                  Government Transactions from the Consolidating Trial Balance
Schedule, Part A DoD Intragovernmental Asset             Treasury      Fund Balance         Accounts     Loans
                                                                                                                  Investments       Other
Balances ($ Amounts in Thousands).                        Index:       with Treasury        Receivable Receivable
Executive Office of the President                      11                                         $56
Department of Agriculture                              12                                        $323                                  $895
Department of Commerce                                 13                                        $462                                $6,690
Department of the Interior                             14                                        $143                              $389,750
Department of Justice                                  15                                      $4,839                                  $573
Department of Labor                                    16                                         $44
Navy General Fund                                      17                                     $59,749
Department of State                                    19                                      $5,604
Department of the Treasury                             20                $89,548,609           $9,970                  $1,497        $2,148
Library of Congress                                     3                                        $114
Department of Veterans Affairs                         36                                        $484
General Service Administration                         47                                      $2,767
National Science Foundation                           49                                                                               $157
Central Intelligence Agency                            56                                      $1,608
Air Force General Fund                                 57                                    $155,513                               $15,155
Federal Emergency Management Agency                    58                                        $458
Environmental Protection Agency                       68                                        $759                                 $2,553
Department of Transportation                           69                                        $745                               $83,907
Homeland Security                                      70                                      $8,288                               $17,844
Small Business Administration                          73                                                                            $1,426
Department of Health and Human Services                75                                     $15,631                                  $176
National Aeronautics and Space Administration          80                                        $788                                $4,994
Department of Energy                                   89                                        $900                                $6,009
Selective Service System                              90                                         $152
Department of Education                                91                                          $3
U.S. Army Corps of Engineers                           96                                      $6,604                                   $98
Other Defense Organizations General Funds              97                                    $115,402                                   $63
Other Defense Organizations Working Capital Funds   97-4930                                   $38,713                               $17,448
Army Working Capital Fund                         97-4930.001                                 $30,871                                $6,092
Air Force Working Capital Fund                    97-4930.003                                    $876                                  $401
      Totals:                                                           $89,548,609         $461,866                   $1,497      $556,379




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 118
Required Supplemental Information - Part B
AT21 - Army General Fund
                                                                  Government Transactions from the Consolidating Trial Balance
Schedule, Part B DoD Intragovernmental entity        Treasury     Accounts         Debts/Borrowings From
                                                                                                                   Other
liabilities ($ Amounts in Thousands).                 Index:       Payable            Other Agencies
Executive Office of the President                        11                $2                                       $33,483
Department of Agriculture                                12           $12,518                                           $58
Department of Commerce                                   13              $391
Department of the Interior                               14            $4,123
Department of Justice                                    15              $691                                           $36
Department of Labor                                      16           $86,502                                      $415,241
Navy General Fund                                        17           $38,049                                          $154
Department of State                                      19           $11,277                                        $2,194
Department of the Treasury                               20          $152,583                                       $84,496
Office of Personnel Management                           24            $2,026                                       $47,564
Federal Communications Commission                        27            $1,445
Library of Congress                                       3              $504                                           $35
Nuclear Regulatory Commission                            31               $54
Department of Veterans Affairs                           36            $2,606                                           $80
Government Printing Office                                4              $325
U.S. Equal Employment Opportunity Commission             45                $0
General Service Administration                           47          $364,219                                           $57
National Science Foundation                             49               $697
Federal Labor Relations Authority                        54                $1
Central Intelligence Agency                             56                                                            $493
Air Force General Fund                                   57           $14,203                                        $2,880
Federal Emergency Management Agency                      58                                                             $64
Tennessee Valley Authority                              64             $5,703
Environmental Protection Agency                          68           $24,901
Department of Transportation                             69                                                            $356
Homeland Security                                        70           $30,949                                        $2,111
Small Business Administration                            73              $167
Department of Health and Human Services                  75            $1,257                                       $51,259
National Aeronautics and Space Administration            80            $3,898                                          $715
Department of Energy                                     89           $31,810                                           $52
Federal Mediation and Conciliation Services              93                $1
U.S. Army Corps of Engineers                             96              $848
Other Defense Organizations General Funds                97           $31,010                                        $2,984
Other Defense Organizations Working Capital Funds     97-4930        $475,399
Army Working Capital Fund                           97-4930.001      $371,336                                              $1
Navy Working Capital Fund                           97-4930.002       $33,598
Air Force Working Capital Fund                      97-4930.003        $3,637
The General Fund of the Treasury                         99                                                      $1,758,589
    Totals:                                                        $1,706,730                            $0      $2,402,902




                                                                                                                           119
 Required Supplemental Information - Part C
AT21 - Army General Fund
                                                                              Government Transactions from the Consolidating Trial Balance
Schedule, Part C DoD Intragovernmental revenue and related costs
                                                                                    Treasury Index:              Earned Revenue
($ Amounts in Thousands).
The Judiciary                                                                              10                                       $10
Executive Office of the President                                                          11                                   $17,629
Department of Agriculture                                                                  12                                    $3,378
Department of Commerce                                                                     13                                    $3,482
Department of the Interior                                                                 14                                      $804
Department of Justice                                                                      15                                   $42,019
Department of Labor                                                                        16                                       $49
Navy General Fund                                                                          17                                  $672,175
Department of State                                                                        19                                   $65,236
Department of the Treasury                                                                 20                                   $20,197
Library of Congress                                                                         3                                      $696
Department of Veterans Affairs                                                             36                                    $2,072
General Service Administration                                                             47                                    $3,770
Central Intelligence Agency                                                                56                                    $9,801
Air Force General Fund                                                                     57                                $1,490,825
Federal Emergency Management Agency                                                        58                                    $3,414
Environmental Protection Agency                                                            68                                    $4,192
Homeland Security                                                                          70                                   $43,282
Department of Health and Human Services                                                    75                                   $44,937
National Aeronautics and Space Administration                                              80                                   $17,473
Department of Energy                                                                       89                                    $5,376
Other Legislative Branch Agencies                                                           9                                       $43
Department of Education                                                                    91                                        $3
U.S. Army Corps of Engineers                                                               96                                  $102,192
Other Defense Organizations General Funds                                                  97                                $3,953,026
Other Defense Organizations Working Capital Funds                                       97-4930                                $358,955
Army Working Capital Fund                                                             97-4930.001                              $371,129
Air Force Working Capital Fund                                                        97-4930.003                                $5,973
The General Fund of the Treasury                                                           99                                 ($81,596)
DoD Medicare-Eligible Retiree Health Care Fund                                                                                 $146,240
      Totals:                                                                                                               $7,306,782




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 120
Required Supplemental Information - Part E
AT21 - Army General Fund
                                                                Government Transactions from the Consolidating Trial Balance

Schedue, Part E DoD Intragovernmental
                                                    Treasury Index:       Transfers In                  Transfers Out
Non-exchange Revenues ($ Amounts in Thousands).

Executive Office of the President                             11                          $10,253,641
Air Force General Fund                                        57                              $44,393               $9,386
US Army Corps of Engineers                                    96                                 $331                  $78
Other Defense Organizations General Funds                     97                             $430,168              $68,893
Other Defense Organizations Working Capital Funds          97-4930                           $983,259
Army Working Capital Fund                                97-4930.001                       $1,407,000
Navy Working Capital Fund                                97-4930.002                         $200,000
Air Force Working Capital Fund                           97-4930.003                         $350,000
    Totals:                                                                              $13,668,792              $78,357




                                                                                                                            121
                                                       INSPECTOR GENERAL
                                                       DEPARTMENT OF DEFENSE
                                                          400 ARMY NAVY DRIVE
                                                     ARLINGTON, VIRGINIA 22202-4704




                                                                                                     November 8, 2004

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND
COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2004 Army General Fund Financial Statements
         (Report No. D-2005-011)

The Chief Financial Ofﬁcers Act of 1990, as amended by the Federal Financial Management Act of 1994,
requires Federal agency Inspectors General appointed under the Inspector General Act of 1978, as amended,
to audit their respective agency’s ﬁnancial statements or determine that “an independent external auditor”
should conduct such audits. Pursuant to this statutory authority, the undersigned Inspector General assumed
responsibility for auditing the accompanying Army General Fund Consolidated Balance Sheet as of
September 30, 2004 and 2003, the related Consolidated Statement of Net Cost, the Consolidated Statement
of Changes in Net Position, the Combined Statement of Budgetary Resources, the Combined Statement of
Financing, and the Statement of Custodial Activity for the ﬁscal years then ended.

The ﬁnancial statements are the responsibility of Army management. The Army is also responsible for
implementing effective internal control and for complying with laws and regulations. We are unable to give
an opinion on the Fiscal Year 2004 ﬁnancial statements of the Army General Fund. because of limitations
on the scope of our work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer of
opinion on the ﬁnancial statements, we are including the required Report on Internal Control and Compliance
With Laws and Regulations. The Report on Internal Control and Compliance With Laws and Regulations is
an integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing
the results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that
ﬁnancial management systems do not substantially comply with Federal ﬁnancial management system
requirements, generally accepted accounting principles, or the U.S. Government Standard General Ledger
at the transaction level, and cannot provide adequate evidence supporting various material amounts on the
ﬁnancial statements. Therefore, we did not perform auditing procedures to determine whether material
amounts on the ﬁnancial statements were fairly presented. We did not perform these and other auditing
procedures because Section 1008(d) of the FY 2002 National Defense Authorization Act limits the Inspector
General of the Department of Defense to performing only audit procedures required by generally accepted
government auditing standards consistent with the representations made by management. The Army has
also acknowledged, and prior audits have identiﬁed, the material weaknesses listed in the Summary of
Internal Control. These material weaknesses also affect the reliability of certain information contained in the




   “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                              time.”—Constitution of the United States, Article I, Section 9


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 122
annual ﬁnancial statements—much of which is taken from the same data sources as the principal ﬁnancial
statements.1 As described above, we are unable to express, and we do not express, an opinion on the ﬁnancial
statements and the accompanying information.


Summary of Internal Control
In planning our audit, we considered Army internal control over ﬁnancial reporting and compliance. We
did this to determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of
Management and Budget guidance, but our purpose was not to express an opinion on internal control.
Accordingly, we do not express an opinion on internal control over ﬁnancial reporting and compliance.
However, previously identiﬁed reportable conditions,2 all of which are material, continued to exist in the
following areas:

      Financial Management Systems;
      Accounting Adjustments;
      Intragovernmental Transactions and Eliminations;
      Abnormal Account Balances;
      Fund Balance With Treasury;
      Accounts Receivable;
      Inventory and Related Property;
      General Property, Plant, and Equipment;
      Accounts Payable;
      Environmental Liabilities;
      Statement of Net Cost;
      Statement of Budgetary Resources; and
      Statement of Financing.
A material weakness is a condition that precludes the entity’s internal control from providing reasonable
assurance that misstatements, losses, or noncompliance that are material in relation to the ﬁnancial statements
would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
all material weaknesses. See the Attachment for additional details on material internal control weaknesses.


Summary of Compliance With Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to
ﬁnancial reporting was limited because management acknowledged, and prior audits conﬁrm, that instances




1
 The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and
combining ﬁnancial statements, Required Supplementary Stewardship Information, Required Supplementary Information, and Other
Accompanying Information.

2
  Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to management
because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could adversely affect the organization’s
ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of management in ﬁnancial statements.



    “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                               time.”—Constitution of the United States, Article I, Section 9


                                                                                                                                           123
of noncompliance continue to exist. The Assistant Secretary of the Army (Financial Management and
Comptroller) acknowledged to us that the Army was unable to comply with the requirements of the CFO Act
of 1990, as amended. The Army has also acknowledged that many of its ﬁnancial management and feeder
systems do not comply with the requirements of the Federal Financial Management Information Act of 1996.
The Army was also unable to comply with Government Performance and Results Act (GPRA) requirements
because it did not have cost accounting systems in place to collect, process, and report operating costs.
Therefore, we did not determine whether the Army was in compliance with all applicable laws and
regulations related to ﬁnancial reporting. See the Attachment for additional details on compliance with laws
and regulations.


Management Responsibility
Management is responsible for:

      preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
      establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
      control objectives of the Federal Managers’ Financial Integrity Act (FMFIA) are met; and
      complying with applicable laws and regulations.
We provided a draft of this report to Army ofﬁcials. Army ofﬁcials concurred with the facts and conclusions
in the report. Army ofﬁcials expressed their commitment to address the problems the report outlines.




Attachment:
As stated




   “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                              time.”—Constitution of the United States, Article I, Section 9


General Fund – Principal Financial Statements, Notes, and Supplementary Information — 124
Report on Internal Control and Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly and that assets are
safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion
on internal control over ﬁnancial reporting because management acknowledged that previously identiﬁed
reportable conditions, all of which are material, continue to exist. The following ﬁnancial management
deﬁciencies are indications of material weaknesses in internal control that may adversely affect any
decision by the Army that is based, in whole or in part, on information that is inaccurate because of these
deﬁciencies. Financial information reported for the Army also may contain misstatements resulting from
these deﬁciencies.

Financial Management Systems. Army accounting systems lacked a single standard transaction-driven
general ledger. The Army also needed to upgrade or replace many of its non-ﬁnancial feeder systems so that
ﬁnancial statement reporting requirements could be met. The lack of integrated, transaction-driven, ﬁnancial
management systems will continue to prevent the Army from preparing auditable ﬁnancial statements.

The Army has acknowledged that its ﬁnancial management systems were unable to meet all of the
requirements for full accrual accounting. Many of the Army ﬁnancial systems, non-ﬁnancial feeder systems,
and processes were designed and implemented prior to the issuance of generally accepted accounting
principles and therefore, were not designed to collect and record ﬁnancial information on the accrual basis.
Until such time as the Army’s systems and processes are updated in accordance with generally accepted
accounting principles, the Army’s ﬁnancial data will be based on budgetary transactions, non-ﬁnancial
feeder system transactions, and adjustments for known accruals of major items. The Army derives its
reported values and information for major asset and liability accounts from non-ﬁnancial feeder systems,
such as inventory and logistics systems. Major assets include Property, Plant, and Equipment and Inventory
and Related Property. Budgetary transactions were recorded, for example, in Fund Balance with Treasury,
Accounts Receivable, Accounts Payable, Gross Costs, and Earned Revenue. Until the Army systems are
updated, Army ﬁnancial data will be based on budgetary transactions (obligations, disbursements, and
collections).

Accounting Adjustments. Because of inadequate ﬁnancial management systems and processes, journal
voucher adjustments and data calls were used to prepare the Army General Fund ﬁnancial statements.
General ledger adjustments were processed to make the summary proprietary balances match budgetary
status appropriation balances when preparing Army’s ﬁnancial statements. In addition, DFAS Indianapolis
did not adequately support $258.1 billion in journal voucher adjustments used to prepare the Army General
Fund ﬁnancial statements. Speciﬁcally, Defense Finance and Accounting Service (DFAS) Indianapolis made:

    $134.6 billion in unsupported adjustments to force amounts to agree with other sources of information
    and records or ﬁnancial statement lines;
    $53.3 billion in unsupported adjustments to intragovernmental accounts to force the accounts to agree
    with the records of the Army’s trading partners;
    $45.5 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts; and
    $24.7 billion in unsupported adjustments to force general ledger accounts to agree with status of
    appropriations data (or ending balance adjustments) without reconciling the differences or determining
    which data source was correct.




                                                                                                             125
Intragovernmental Transactions and Eliminations. DoD is unable to collect, exchange, and reconcile
buyer and seller intra-governmental transactions, resulting in adjustments that cannot be veriﬁed. This is
primarily because of systems limitations, as the majority of the systems currently used within DoD do not
allow for the capture of buyer-side information for use in reconciliations and eliminations. DoD and Army
accounting systems were unable to capture trading partner data at the transaction level in a manner that
facilitated required trading partner eliminations, and DoD guidance did not require adequate support for
eliminations. In addition, DoD procedures required that buyer-side transaction data be forced to agree with
seller-side transaction data without performing proper reconciliations. Therefore, DFAS Indianapolis made
$53.3 billion in unsupported adjustments to intragovernmental accounts to force the accounts to agree with
the records of Army’s trading partners.

Abnormal Account Balances. DFAS Indianapolis did not effectively detect, report, or take effective action
to eliminate abnormal balances included in the Army General Fund accounting records. The abnormal
balances were included on trial balances submitted to DFAS Indianapolis during FY 2004. Abnormal
balances not only distort the Army General Fund ﬁnancial statements, but also indicate internal control and
operational deﬁciencies. The existence of abnormal balances may also conceal instances of fraud. There is
also the potential for the errors causing abnormal balances to be perpetuated in the Defense Departmental
Reporting System-Budgetary Module, when it is implemented.

Fund Balance with Treasury. DoD and its Components, including the Army, have had long-standing
problems in reconciling transaction activity in their Fund Balance with Treasury accounts. Appropriation
balances recorded in the accounting records do not agree with balances held at Treasury. Therefore, DFAS
Indianapolis made unsupported adjustments that had a net effect of $1.1 billion on the ﬁnancial statement
line items. In addition, material uncertainties exist in Fund Balance with Treasury, especially with regards to
suspense accounts.

Accounts Receivable. DoD has acknowledged weaknesses in its accounts receivable management. The
weaknesses are considered to be DoD-wide and apply to both public and intragovernmental receivables at the
Army General Fund level. Weaknesses include:

      noncompliance with policies and procedures regarding referrals to Debt Management and Treasury and
      for write-offs of two-year old debt,
      a lack of controls to ensure all entitlement system receivables (vendor pay, civilian pay, and interest) are
      recorded in the accounting systems, and
      a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.
As a result, DFAS Indianapolis made $783.3 million in unsupported adjustments for FY 2004 that decreased
accounts receivable balances by $596.2 million.

Inventory and Related Property. Inventories are reported at approximate historical cost using Latest
Acquisition Cost adjusted for holding gains and losses. The systems do not maintain historical cost data
necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting
for Inventory and Related Property.” The systems are also unable to produce ﬁnancial transactions using
the U.S. Government Standard General Ledger. SFFAS No. 3 states that Operating Materials and Supplies
shall be expensed when the items are consumed. However, DoD has acknowledged that signiﬁcant amounts
of Operating Materials and Supplies were expensed when they were purchased instead of when they were
consumed.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 126
General Property, Plant, and Equipment. SFFAS No. 6, “Accounting for Property, Plant, and Equipment,”
requires that all General Property, Plant, and Equipment be recorded at cost, and that depreciation expense be
recognized on all general property, plant, and equipment. The Army has acknowledged that real property was
not recorded at acquisition or historical cost and did not include all costs needed to bring the real property
to a form and location suitable for its intended use. Also, the Army could not support the reported cost of
Military Equipment in accordance with SFFAS No. 6. Military Equipment was not recorded at acquisition or
historical cost and did not include all costs needed to bring the equipment to a form and location suitable for
its intended use. The Army also lacks FFMIA-compliant property accountability systems for all its Military
Table of Equipment unit property books.

Accounts Payable. The Army is unable to properly account for and report Accounts Payable. DFAS
Indianapolis made $63.7 billion in unsupported adjustments for FY 2004 that decreased Accounts Payable
balances by $27.1 billion. In addition, the Army accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. Therefore,
the Army has acknowledged that it was unable to reconcile intragovernmental accounts payable to the related
intragovernmental accounts receivable that generated the payables.

Environmental Liabilities. The Army has not properly estimated and reported its environmental liabilities.
For example, the data and processes used to report Defense Environmental Restoration Program, Base
Realignment and Closure, and non-Defense Environmental Restoration Program environmental liabilities
on the ﬁnancial statements did not have adequate documentation and audit trails. Although estimators were
properly qualiﬁed to perform estimates, the Army did not document supervisory reviews of estimates, and
adequate quality control programs were not in place to ensure the reliability of data. DFAS has identiﬁed
ongoing actions to correct the reporting of environmental liabilities by October 2006.

Statement of Net Cost. The Statement of Net Cost is not presented by programs that align with major
goals and outputs described in the DoD strategic and performance plans required by the GPRA. In addition,
revenues and expenses are reported by appropriation categories because ﬁnancial processes and systems do
not collect costs in line with performance measures. The amounts presented in the Statement of Net Cost
are based on funding, obligation, accrual and disbursing transactions, which are not always recorded using
accrual accounting. Army systems do not always record the transactions on an accrual basis as is required
by the generally accepted accounting principles. The information presented also includes data from non-
ﬁnancial feeder systems to capture all cost and ﬁnancing sources for the Army. Also, Army General Fund
budgetary and proprietary information does not correlate. Therefore, DFAS Indianapolis made $9.2 billion in
unsupported adjustments to force costs to agree with obligation information. Speciﬁcally, these adjustments
forced costs reported on the Statement of Net Cost to match the value of Expended Appropriations minus the
amount of Capitalized Assets reported on the Statement of Financing.

Statement of Budgetary Resources. The Army accounting systems do not provide or capture data needed
for obligations incurred and recoveries of prior year obligations in accordance with Ofﬁce of Management
and Budget Circular A 11, “Preparation, Submission, and Execution of the Budget Requirements.” Although
the Army developed an alternative methodology to calculate these items, the amount of distortion cannot
be reliably determined. The Statement of Budgetary Resources does not include eliminating entries and
therefore a Disaggregated Statement of Budgetary Resources is included in the Required Supplementary
Information section of the ﬁnancial statements. The Army uses budget execution data, which is composed
of transaction report codes, to prepare the monthly Standard Form 133 and the quarterly Federal Agencies
Centralized Trial Balance System II budgetary general ledger accounts. DFAS Indianapolis personnel use the
Federal Agencies Centralized Trial Balance System II data to prepare the Statement of Budgetary Resources.
Since both the Standard Form 133 and the Statement of Budgetary Resources are prepared using budget
execution data, there is no true reconciliation between the two reports. Ofﬁce of Management and Budget
Bulletin 01 09 states that the Statement of Budgetary Resources should be based on the entity’s budgetary
general ledger, instead of based on budget execution data. In FY 2004, DFAS Indianapolis prepared $5.0
billion in unsupported adjustments that affected general ledger accounts used in the Statement of Budgetary
Resources.

                                                                                                             127
Statement of Financing. The Ofﬁce of Management and Budget requires a consolidated Statement of
Financing, except for the budgetary information used to calculate net obligations, which must be presented
on a combined basis. However, the Statement of Financing for the Army General Fund is prepared on a
combined basis. Also, because the differences between the Statement of Net Cost and the Statement of
Financing were not reconciled, the Statement of Financing does not accurately present the relationship
between budgetary obligations incurred by the Army General Fund and its Net Cost of Operations. This is
evidenced by DFAS Indianapolis preparing $9.2 billion in unsupported adjustments to force costs to agree
with obligation information.


Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting.
Our work to determine compliance with selected provisions of the applicable laws and regulations was
limited because management acknowledged instances of non compliance, and previously reported instances
of non compliance continue to exist. Therefore, we did not determine whether the Army was in compliance
with selected provisions of all applicable laws and regulations related to ﬁnancial reporting. Our objective
was not to, and we do not, express an opinion on compliance with applicable laws and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army is required to comply
with the following ﬁnancial management systems reporting requirements. For example, the Federal Financial
Management Information Act of 1996 requires the Army to establish and maintain ﬁnancial management
systems that comply substantially with Federal ﬁnancial management systems requirements, applicable
Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level. In
addition, the Federal Managers’ Financial Integrity Act of 1982 requires DoD to evaluate the systems and to
annually report whether those systems are in compliance with applicable requirements. The CFO Act requires
that each agency develop and maintain an integrated agency accounting and ﬁnancial management system,
including ﬁnancial reporting and internal control. The system should comply with internal control standards;
applicable accounting principles, standards, and requirements; and provide for complete, reliable, consistent,
and timely information.

The Army acknowledged that many of its critical ﬁnancial management and feeder systems do not comply
substantially with Federal ﬁnancial management systems requirements, Federal accounting standards, and
the U.S. Government Standard General Ledger at the transaction level. The Army is also unable to comply
with the CFO Act because its ﬁnancial management systems were not integrated and it has acknowledged
that many of its ﬁnancial management and feeder systems do not comply with applicable Federal accounting
standards.

In an attempt to comply with statutory reporting requirements and applicable ﬁnancial systems requirements
in the future, the Secretary of Defense has initiated a comprehensive ﬁnancial management reform program
for the Department. The Department is currently undergoing a major reevaluation of the ways in which it
performs its ﬁnancial management operations. The centerpiece of this ﬁnancial management reform effort is
the development of a Department-wide ﬁnancial Business Enterprise Architecture. The enterprise architecture
essentially will be a blueprint describing the Department’s future ﬁnancial management systems and
processes.

Government Performance and Results Act. GPRA requires that each Federal agency prepare a strategic
plan and annual performance plans and reports. The Army did not comply with GPRA because it did not have
cost accounting systems in place to collect, process, and report operating costs. This resulted in the Army
General Fund Statement of Net Cost being unable to provide cost-of-operations data that were consistent
with GPRA performance goals and measures.




General Fund – Principal Financial Statements, Notes, and Supplementary Information — 128
Audit Disclosures
We did not perform audit work related to the following selected provisions of laws and regulations:

    Antideﬁciency Act
    Provisions Governing Claims of the United States Government
    Federal Credit Reform Act of 1990
    Pay and Allowance System for Civilian Employees
    Prompt Payment Act
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on
March 3, 2004, that Army General Fund ﬁnancial management systems cannot provide adequate evidence
supporting various material amounts on the ﬁnancial statements. As a result, we were unable to obtain
adequate evidential matter to form or express an opinion on the ﬁnancial statements, internal control, and
compliance with laws and regulations.

This report does not include recommendations to correct the material internal control weaknesses and
instances of noncompliance because previous audit reports contained recommendations for corrective
actions. Recommendations to correct identiﬁed weaknesses were made in other audit reports.




                                                                                                             129
Working Capital Fund—Management’s Discussion & Analysis
Overview
For the second year in a row, troop deployments in Iraq and Afghanistan have caused demand to surge for
the products and services of activities operating under the Army Working Capital Fund (AWCF). Largely
commercial or industrial in nature, the activities design, develop, acquire, produce, repair, overhaul, test, or
manage combat weapons systems and their components.

The Army organizes these activities into three groups: Supply Management, Army (SMA); Depot
Maintenance; and Ordnance. In FY 2004, the three groups together had revenues of over $14 billion. They
employed over 21,000 civilians and 45 uniformed personnel at 18 locations in the continental United States
(CONUS). Until FY 2004, the AWCF included a fourth activity: the Information Services activity group. This
group was decapitalized effective September 30, 2003, and is no longer part of the AWCF ﬁnancial structure.




Working Capital Fund – Management’s Discussion & Analysis — 130
The primary mission of AWCF activities is to help the Army
maintain constant readiness by providing supplies, equipment,
and ordnance necessary to support the projection and
sustainment of our forces as and when required by the Nation.




Mission
The primary mission of AWCF activities is to help the Army maintain constant readiness by providing
supplies, equipment, and ordnance necessary to support the projection and sustainment of our forces as and
when required by the Nation. In carrying out this mission, the activities are obligated to control or reduce
costs. In addition, the Activities must maintain their capability to expand quickly in order to ramp up from a
peacetime workload level to support wartime requirements for operations such as Operation Iraqi Freedom,
Operation Enduring Freedom, and Operation Noble Eagle.

Supply Management Mission
SMA activity group buys and maintains assigned stocks of materiel for sale to its customers, primarily Army
operating units. The Army’s equipment and operational readiness and its combat capability are directly linked
to the availability of this materiel. The activity group is managed by the major subordinate commands of the
U.S. Army Materiel Command (AMC).

Depot Maintenance Mission
The Depot Maintenance activity group provides the Army with an organic industrial capability to repair,
overhaul, modify, and upgrade weapons systems, component parts, and support equipment. In addition to the
maintenance mission, the activity group provides installation base support to Army, DoD, as well as to other


                                                                                                             131
Governmental and private sector tenants. Depot                                                         The Ordnance activity group provides an organic
Maintenance activities both compete and partner                                                        industrial capability to manufacture and sell quality
with private industry to deliver goods and services                                                    munitions and large-caliber weapons critical to the
efﬁciently and effectively.                                                                            Army’s capability to execute its warﬁghting mission.
                                                                                                       A number of these facilities provide the full range of
Depots are under the direct command and control                                                        ammunition maintenance for modern weapons. The
of Major Subordinate Commands (MSCs) of the                                                            activity group also provides logistics management,
AMC and are aligned in accordance with the nature                                                      including follow-on procurement, production,
of their mission and the items that are repaired.                                                      maintenance, engineering, and integrated logistics
Corpus Christi and Letterkenny Army Depots report                                                      support management of ordnance for all U.S.
to the Aviation and Missile Command (AMCOM),                                                           Military Services. Additionally, seven of the eight
Redstone Arsenal, AL, Anniston, and Red River                                                          activities provide installation base support to tenant
report to the Tank-automotive and Armaments                                                            activities.
Command (TACOM), Warren, MI, and Tobyhanna
Army Depot report to the Communication-                                                                Organization
Electronics Command (CECOM), Fort Monmouth,                                                            Figure 7
NJ. The depots have been designated as Centers of
Technical Excellence for the performance of core                                                                              DoD Corporate Board
maintenance missions supporting all of DoD and our
foreign allies.
                                                                                                                                    ASA (FM&C)
Ordnance Mission                                                                                                                          G-4
The Ordnance activity group produces armaments
and munitions; manufactures, renovates, and
demilitarizes material; and provides ammunition                                                                             Army Materiel Command
stockpile management for all Services within the
DoD and for foreign military customers. Three
activities of the AMC manage this activity group.
The TACOM, located at Warren, MI, manages                                                                                             Supply
Rock Island Arsenal, Watervliet Arsenal, and Sierra                                                                                 Management
Army Depot. The Chemical Materials Agency                                                                                              Army
(CMA), located at Aberdeen Proving Ground,
MD, manages Pine Bluff Arsenal. The Army Field
Support Command (AFSC), located at Rock Island,                                                                                                          Depot
                                                                                                                  Ordnance
IL, manages Crane Army Ammunition Activity, Blue                                                                                                      Maintenance
Grass Army Depot, McAlester Army Ammunition
Plant, and Tooele Army Depot.



 Table 13. Supply Management, Army
 “Wholesalers” who buy and maintain stocks of materiel for sale to Operating Forces units and other customers

 Command/Location                                                                                     Area of Materiel Support
 Aviation and Missile Command, Huntsville, AL (AMCOM)                                                 Aircraft and aviation ground support items; missile system items.
 Communications–Electronics Command, Fort Monmouth, NJ (CECOM)                                        Communication and electronics items.
 Tank–automotive and Armaments Command, Warren, MI (TACOM)                                            Combat, automotive, and construction items.
 Tank–automotive and Armaments Command, Acquisition and Logistics                                     Weapons, special weapons, and ﬁre control systems.
 Activity, Rock Island, IL (TACOM-RI)
 Tank–automotive and Armaments Command, Soldier and Biological                                        Ground support items and chemical weapons.
 Chemical, Natick, MA (TACOM-SBC)



Working Capital Fund – Management’s Discussion & Analysis — 132
The AMC controls AWCF activities through the                                                            Under Secretary of Defense (USD) (Comptroller),
major Supply Management subordinate commands                                                            Principal Deputy Under Secretary of Defense
shown in Table 13, the AFSC at Rock Island, IL, and                                                     (Comptroller), and representatives from each of the
the CMA at Aberdeen Proving Ground, MD. AMC                                                             following member organizations: USD (Acquisition
reports to the Army Deputy Chief of Staff, G-4 and                                                      and Technology), USD (Personnel and Readiness),
to the Assistant Secretary of the Army (Financial                                                       Assistant Secretary of Defense (Command,
Management and Comptroller) (ASA (FM&C)). A                                                             Control, Communications and Intelligence),
DoD corporate board provides oversight of Working                                                       Assistant Secretaries for Financial Management
Capital Fund functions; the board includes the                                                          and Comptroller of the Army, Navy and Air Force

 Table 14. Depot Maintenance
 Activities that repair, overhaul, or upgrade weapons and manufacture, test, and ﬁeld communication-electronics systems and missile guidance and control systems.
 Command/Activity/Location                                                                             Combat Systems
 TACOM                                                                                                 Heavy-tracked combat vehicles and artillery.
 Anniston Army Depot, Anniston, AL*
 AMCOM                                                                                                 Rotary wing aircraft, engines, and components.
 Corpus Christi Army Depot, Corpus Christi, TX
 AMCOM                                                                                                 Tactical missile systems.
 Letterkenny Army Depot, Chambersburg, PA*
 TACOM                                                                                                 Light armored vehicles and select missile systems.
 Red River Army Depot, Texarkana, TX*
 CECOM                                                                                                 Communications—electronics and missile guidance and control systems
 Tobyhanna Army Depot, Tobyhanna, PA*                                                                  and equipment
 *Also provides base support services to tenant organizations.


 Table 15. Ordnance
 Activities that produce, renovate, or manage ordnance materiel such as ammunition, artillery, and defensive devices.
 Activity/Location                                                                                     Mission
 CMA                                                                                                   Manufactures conventional ammunition and chemical and biological
 Pine Bluff Arsenal—Pine Bluff, AR*                                                                    defense items. Produces and rebuilds decontaminating kits, large ﬁlters,
                                                                                                       masks, and defensive chemical test equipment.
 TACOM                                                                                                 Produces weapons for infantry, artillery, and air defense; armament for
 Rock Island Arsenal—Rock Island, IL*                                                                  tanks, artillery, and personnel- and cargo-carriers; and special tools and
                                                                                                       tool sets.
 TACOM                                                                                                 Produces mortars, recoilless riﬂes, cannon for tanks and towed and self-
 Watervliet Arsenal—Watervliet, NY*                                                                    propelled artillery, special tool sets, and training devices and simulators.
 AFSC                                                                                                  Produces, loads and assembles, stores, distributes, renovates, maintains,
 Crane Army Ammunition Activity—Crane, IN                                                              and demilitarizes conventional ammunition and ammunition-related
                                                                                                       components.
 AFSC                                                                                                  Produces, loads and assembles, stores, distributes, renovates, maintains,
 McAlester Army Ammunition Plant—McAlester, OK                                                         and demilitarizes bombs, missiles, and conventional ammunition and
                                                                                                       missiles.
 TACOM                                                                                                 Responsible for receipt, storage, and care of supplies in storage; as well
 Sierra Army Depot—Herlong, CA*                                                                        as repair, assembly, disassembly, and shipment of major and secondary
                                                                                                       items for operational project stocks.
 AFSC                                                                                                  Designs and develops ammunition-peculiar equipment. Stores, maintains,
 Tooele Army Depot—Tooele, UT*                                                                         distributes, and demilitarizes conventional ammunition.
 AFSC                                                                                                  Responsible for receipt, issue, storage, testing, and minor repair of
 Blue Grass Army Depot—Richmond, KY*                                                                   chemical defense equipment. Stores, maintains, distributes, and
                                                                                                       demilitarizes conventional ammunition.
 AFSC
 Red River Munitions Center—Texarkana, TX

 AFSC                                                                                                  Store, maintain, distribute, and demilitarize conventional ammunition.
 Letterkenny Munitions Center—Chambersburg, PA

 AFSC
 Anniston Munitions Center—Anniston, AL
 *Also provides base support services to tenant organizations.




                                                                                                                                                                                      133
(Program Analysis and Evaluation), Ofﬁce of USD                   Figure 8. How the AWCF Operates
(Comptroller), Inspector General DoD (IG DoD),
U.S. Transportation Command, Defense Logistics                                              Bill     AWCF activity supplies
Agency, Defense Finance and Accounting Service                                                       goods and services. The
                                                                                                     provider bills the customer
(DFAS), and the Ofﬁce of Management and Budget.                   Congress                           and is paid.
                                                                  approves the
Tables 13 through 15 show the three activity groups               annual budget for
of the AWCF: Supply Management, Army; Depot                       the customers.
                                                                                                                  AWCF activity:
Maintenance; and Ordnance.                                                                                          Incurs Costs
                                                                          $                                         Produces Goods or
                                                                                                                    Services
Each subordinate command manages Depot                                                                              Buys Parts or Services
Maintenance (see Table 14) and Ordnance (Table                    Customer sends funded
                                                                  order to AWCF activity.
15) activities. In addition to their primary missions
of supporting combat weapons systems, most of                                                      Project
                                                                                                   Order
the activities are “landlords” of their locations and
provide base support services to tenant organizations.


                                                                  Pricing
                                                                  AWCF activities bill customers for costs and a small
                                                                  fee or surcharge. They charge standard rates on a
                                                                  unit cost basis; for each function, rates are calculated
                                                                  as follows:

                                                                        Supply Management: Rates include cost of
                                                                        goods plus a surcharge that recovers the actual
                                                                        costs of operating the supply business.
                                                                        Depot Maintenance: Rates include costs
                                                                        incurred in repair, rework, or modiﬁcation of
                                                                        depot-level reparable items or components,
UH60 Recapitalization facility.
                                                                        expressed as cost per direct labor hour.
                                                                        Ordnance: Rates include costs incurred in
About Working Capital Funds                                             the manufacturing of quality munitions and
The AWCF is a revolving fund, which is an account                       large-caliber weapons and of the storage,
or fund that derives its income from its operations                     maintenance, distribution, and de-militarization
and can ﬁnance these operations without ﬁscal year                      of conventional ammunition, expressed as cost
limitation (no-year account). The fund operates                         per direct labor hour.
through the ﬁve step process shown in Figure 8.                   During execution, activities charge customers a
                                                                  standard rate for goods and services. The standard
As shown in Figure 8, in the ﬁrst of ﬁve steps in the             rate is held constant once set in the budget process.
process Congress appropriates funds for projects and              This enables customers to plan their budgets and
programs of AWCF customers. Second, a customer                    appropriation requests with more certainty than if
sends an AWCF activity a funded request for a given               costs reﬂected short-term variations in market prices
amount of products or services, such as overhauling               for material and labor.
100 tanks. Third, the activity does the work,
incurring costs such as labor and materials, and the              Support services provided by AWCF activities are
AWCF supplies the working capital to cover these                  essential to the success of the Operating Forces, and
costs. Fourth, the activity invoices the customer for             the activities themselves are an integral part of the
the cost of the order. Fifth, the customer deposits               defense team. Provided on the following pages is
payment in the AWCF, thus replenishing the fund so                more detailed information on the activities and their
that it can supply working capital to other projects.             performance in FY 2004.


Working Capital Fund – Management’s Discussion & Analysis — 134
                                                                                                                                                Projecting cash ﬂows has in past years proven
Working Capital Fund Performance                                                                                                                challenging. A direct correlation can be made
Results                                                                                                                                         between monthly revenue and collections, but no
                                                                                                                                                direct correlation can be made between monthly
Corporate Performance                                                                                                                           expenses and disbursements. The difﬁculty
The mission of the AWCF is to provide support                                                                                                   arises within the SMA activity group. Monthly
services to the operating forces in the most efﬁcient                                                                                           expenses are based on the cost of goods sold, while
and cost-effective manner possible. Assessing                                                                                                   disbursements are based on deliveries of materiel on
the performance of the AWCF through the use                                                                                                     order or in repair.
of ﬁnancial and program performance measures
indicates how well the AWCF is accomplishing its                                                                                                The DFAS, the Army’s accounting services provider,
mission.                                                                                                                                        is currently implementing systems improvements
                                                                                                                                                that are expected to enable the Army to see
Performance Measures                                                                                                                            collections and disbursements in real-time.
Cash Management
                                                                                                                                                Figure 9 shows the planned and actual collections,
The ability to generate cash is dependent on: setting
                                                                                                                                                disbursements, and outlays at the Army corporate
rates to recover full costs, including any previous
                                                                                                                                                level for the last three ﬁscal years, and the resulting
year losses; accurately projecting workload; and
                                                                                                                                                cash balance that will be used to pay our suppliers
meeting established operational goals. The Army
                                                                                                                                                and producers of goods. The AWCF ended FY
must maintain sufﬁcient cash on hand in the AWCF
                                                                                                                                                2004 with a cash balance of $948.5 million, $456.6
account at the U.S. Treasury to pay liabilities when
                                                                                                                                                million above plan. This represents a variance of 48
due. Unlike the private sector, the Army does not
                                                                                                                                                percent. The ending cash balance reﬂects the results
have the ability to take advantage of lines of credit.
                                                                                                                                                of the increase in consumption of repair parts and
To minimize the cash balance required for operating
                                                                                                                                                production at our industrial facilities associated with
and capital disbursements, the Army manages cash at
                                                                                                                                                the Global War on Terrorism (GWOT). In addition,
the corporate level. Rather than having to maintain a
                                                                                                                                                in FY 2004 the Army transferred $1.3 billion in
positive cash balance, the AWCF activity groups and
                                                                                                                                                cash (included with disbursements in Figure 9)
installations project collections and disbursements on
                                                                                                                                                to the Operation and Maintenance, Army (OMA)
a monthly basis, working within a 10 percent margin
of error.



Figure 9. Corporate Cash Management

Collections ($ millions)                                                Disbursements ($ millions)                                               Outlays ($ millions)                                              Cash Balance ($ Millions)
$15000                                                                  $15000                                                                   $1200                                                              $2000
                                                                                                                                                                                                 1.056.6




                                                                                                                                                   900
                                                                                                                                     13,068.0




 12000                                                                   12000
                                                             12,467.9




                                                                                                                                                   600
                                                                                                                          12,332.3




                                                                                                                                                                                                                     1500
                                                                                                                                                                                                           600.1




                                                                                                                                                                                                                                                      1,548.5
                                                  11,275.7




                                                                                                                                                   300
                                                                                                                                                                  74.6
                                       9,714.1




  9000                                                                    9000
                                                                                                                                                     0
                                                                                                                8,416.6




                                                                                                                                                          (8.8)




                                                                                                                                                                                    (1,129.8)




                                                                                                                                                                                                                     1000
                             7,908.4




                                                                                                      7,740.7




                                                                                                                                                                          (167.7)




                                                                                                                                                  -300
                                                                                                                                                                                                                                                                        948.5




  6000                                                                    6000
                                                                                            6,516.5
                   6,274.5
         6,212.4




                                                                                  6,203.5




                                                                                                                                                  -600
                                                                                                                                                                                                                      500
                                                                                                                                                  -900
                                                                                                                                                                                                                                                                491.9




  3000                                                                    3000
                                                                                                                                                                                                                                              167.7
                                                                                                                                                                                                                             334.5




                                                                                                                                                 -1200
                                                                                                                                                                                                                                     251.0




     0                                                                       0                                                                   -1500                                                                  0
         FY 2002 FY 2003 FY 2004                                                 FY 2002 FY 2003 FY 2004                                                 FY 2002 FY 2003 FY 2004                                            FY 2002 FY 2003 FY 2004
Variance $62.1               $1805.7             $1192.2                Variance $313.0               $675.9              $735.7                Variance $83.4           ($1129.8)              ($456.5)           Variance ($83.5)          $1380.8            $457.0
 Var (%)   1                   23                  11                    Var (%)   5                    9                   6                    Var (%) (948)             (674)                   43               Var (%) (25)               823                48
                                                      Plan                                                                    Plan                                                                  Plan                                                           Plan
                                                      Actual                                                                  Actual                                                                Actual                                                         Actual




                                                                                                                                                                                                                                                                           135
appropriation in support of the GWOT. The $1.3                                        Table 17 displays total revenue and appropriation by
billion will need to be returned to the fund at a future                              activity group. SMA is the largest, accounting for
date in order for the fund to pay its suppliers and                                   over $10.5 billion in revenue, or 74 percent of all
producers of goods. When the operations in Iraq                                       AWCF revenue. In addition to the revenue shown in
and Afghanistan begin to slow down and payments                                       Table 16 and Table 17, the AWCF received $219.3
associated with the delivery of replacement stocks                                    million in FY 2004 in direct appropriations.
and repair of equipment are made, the AWCF cash
balance should return to a level closer to our corpus                                 Personnel Resources
requirement.                                                                          To achieve maximum efﬁciency of performance, the
                                                                                      AWCF activity groups need to achieve the optimum
Total Revenue                                                                         conﬁguration of skilled workforce appropriate to
Total revenue is an indicator of the volume of work                                   the workload. Skill mismatches sometimes occur as
completed by the AWCF activity groups. The total                                      a result of deviations between planned and actual
projected revenue for FY 2004 was $13.2 billion.                                      workload. They also can be caused by workforce
Actual revenue was $14.1 billion, 7 percent greater                                   reductions realized through voluntary separation
than projected. This was primarily due to operations                                  and hiring freezes. Such mismatches can lead to
in support of the war on terrorism.                                                   unplanned operating losses.

Table 16 displays total corporate revenue by                                          As Figure 10 shows, the FY 2004 actual full-time
customer. The largest customer for the AWCF is                                        equivalents and military end strength were below
OMA, which accounted for revenues of $10.3                                            plan, resulting in a negative variance.
billion.



 Table 16. Total Corporate Revenues by Customer                                       Figure 10. Corporate Personnel Indicators
 ($ millions)
                                                                                      Civilian Full-Time Equivalents                                    Military End-Strength
 Customer                                    FY 2002         FY 2003        FY 2004
                                                                                       25000                                                                80
 Operation and                              $5,336.9         $8,358.3     $10,297.7
 Maintenance, Army
                                                                                                                                                            70      66

                                                                                                                                                                           63
                                                                                                                                      22,008




 Army Procurement                               627.2          680.0          493.7    20000
                                                                                                                                               21,351




                                                                                                                                                            60
                                                                                                                             19,797
                                                                                                           19,578


                                                                                                                    19,594
                                                                                                  19,080




 AWCF                                           969.9         1,570.4       1,441.8
                                                                                                                                                            50
 Other Army                                     174.6          224.0          337.0    15000

                                                                                                                                                                                              49
                                                                                                                                                                                62

                                                                                                                                                                                         62




                                                                                                                                                                                                     45
                                                                                                                                                            40
 Other Services                                 460.2          641.2          825.7
                                                                                       10000                                                                30
 Other DoD                                      127.8          351.9          284.0
 Foreign Military Sales                         201.9          315.4          318.0                                                                         20
                                                                                        5000
 Non-DoD                                        228.7            40.8          87.5                                                                         10

 Total Revenue                              $8,217.2        $12,182.0     $14,085.4        0                                                                 0
                                                                                                 FY 2002 FY 2003 FY 2004                                           FY 2002 FY 2003 FY 2004
                                                                                      Variance      478               203             (657)             Variance     (3)             0         (4)
 Table 17. Total Revenue and Appropriation by Activity                                 Var (%)       3                 1               (3)               Var (%)     (5)             0         (8)
                                                                                                                                          Plan                                                 Plan
 Group ($ millions)                                                                                                                       Actual                                               Actual
 Appropriation                                  FY 2002        FY 2003     FY 2004
 Supply Management, Army                       $6,001.4       $9,545.7    $10,620.6
 Depot Maintenance                               1,668.4        2,119.4     2,713.4
 Ordnance                                           669.8        765.9       970.7
 Information Services1                              104.9         96.7          0.0
 Total Revenue and                             $8,445.5      $12,527.7    $14,304.7
 Appropriation
 1
     Information Services was decapitalized in FY 2003




Working Capital Fund – Management’s Discussion & Analysis — 136
Supply Management, Army                                         Wholesale Unit Costs. The wholesale division
                                                                sells principally to Federal Government customers
Program Scope                                                   and, through the Foreign Military Sales Program,
Customer Revenue (Program Size)                                 to foreign governments. Wholesale costs include
SMA revenue from customer sales in FY 2004 was                  the costs of logistics operations and of materiel
$10.5 billion. This exceeded plan, with the increased           obligations for repair or procurement, and credit
revenue a direct result of unforeseen operations                issued to customers for materiel returns. Unit cost is
conducted in support of the war on terrorism. In                measured by dividing these costs by gross wholesale
addition to the revenue shown in Table 18, SMA                  sales.
received direct appropriations of $163.6 million
in FY 2002, $189 million in FY 2003 and $105.4                  In FY 2004, the wholesale division achieved a unit
million in FY 2004.                                             cost of $1.08. The initial unit cost goal (UCG) of
                                                                $0.92 was revised during the ﬁscal year to allow the
Personnel                                                       execution of immediate requirements for Operation
As Figure 11 shows, the FY 2004 actual full-time                Iraqi Freedom and the GWOT. The revision was
equivalents varied less than 1 percent from plan,               based on both higher than expected sales and high
with no variation in military end-strength.                     hardware obligations also attributable to Operation
                                                                Iraqi Freedom and the GWOT.
Performance Measures
                                                                NAMI/Retail Unit Costs. Implementation of the
Financial Performance                                           Single Stock Fund (SSF) has altered the mission of
The ﬁnancial performance of the SMA activity group              the retail division. Prior to SSF, the retail divisions
is evaluated on a variety of ﬁscal measures. The                sold to authorized customers within their local
primary measure, unit cost, is used as a managerial             geographical area. The retail divisions bought and
control and relates resources consumed to outputs               sold both Army Managed Items (AMI) and non-
produced. The aim of the unit cost is to associate              Army Managed Items (NAMI) at the catalog price of
total cost to the work or output. Other measures                the source of supply. Under SSF, the retail division
include total gross sales; revenue; cost; net operating         consists only of NAMI.
results; capital investment; cash collections,
disbursements and outlays; and stock availability and           In FY 2004, gross material costs were greater than
stock turn.                                                     planned, producing a unit cost of $1.03 that was



 Table 18. Total SMA Revenue by Customer ($ millions)            Figure 11. SMA Personnel Indicators
 Appropriation            FY 2002     FY 2003      FY 2004      Civilian Full-Time Equivalents                               Military End-Strength
 Operation and            $4,473.6    $7,379.8     $8,785.4       3500                                                           15
 Maintenance, Army
 Army Procurement           208.4       374.8           161.5     3000
                                                                            3,095




                                                                                                                                         13

                                                                                                                                              13


                                                                                                                                                   13

                                                                                                                                                            13


                                                                                                                                                                 13

                                                                                                                                                                      13
                                                                                     2,999




                                                                                                                                 12
                                                                                                                     2,936
                                                                                                             2,941
                                                                                             2,869

                                                                                                     2,790




 AWCF                       405.2       468.5           434.5     2500
 Other Army                 121.7       187.4           209.3                                                                     9
                                                                  2000
 Other Services             366.5       562.1           589.5
                                                                  1500
 Other DoD                    58.6        93.6           22.3                                                                     6

 Foreign Military Sales      114.0      281.1           271.2     1000

 Non-DoD                      89.4         9.4           41.5                                                                     3
                                                                   500
 Total Revenue            $5,837.4    $9,356.7    $10,515.2
                                                                     0                                                            0
                                                                           FY 2002 FY 2003 FY 2004                                      FY 2002 FY 2003 FY 2004
                                                                Variance      (96)            (79)             (5)           Variance     0             0         0
                                                                 Var (%)       (3)             (3)             (0)            Var (%)     0             0         0
                                                                                                               Plan                                              Plan
                                                                                                               Actual                                            Actual




                                                                                                                                                                      137
above the UCG of $0.95. Gross material costs were                                                                                 price, revenue, cost, and net operating results are
greater than planned due to increased inventory                                                                                   the logical ﬁnancial measures of AWCF operations.
requirements in support of Operation Iraqi Freedom                                                                                In FY 2004, the rates were set to achieve a net
and the GWOT.                                                                                                                     operating result (NOR) of $45.5 million. The actual
                                                                                                                                  NOR, less extraordinary items, was a gain of $134
Gross Sales. Attaining projected sales levels is key                                                                              million. Results of operations, computed according
to achieving goals in inventory management and                                                                                    to budget guidance, are presented in Table 19.
operations management, as well as for recouping
operations costs. Figure 12 shows the FY 2004 results.                                                                            Results of operations, when computed according
                                                                                                                                  to ﬁnancial accounting standards, can vary with
Financial Operation Measures. Budgetary                                                                                           inventory valuations due to the timing of cost
guidelines require the activity group to recover                                                                                  recognition, transfer fees, and the inclusion
its operating costs and fees while achieving zero                                                                                 of nonrecoverables such as planned inventory
accumulated operating results at the end of the                                                                                   reductions.
budget period. To achieve this goal, AWCF activities
set stabilized rates eight or more months prior to                                                                                Capital Investment. The SMA activity group’s
the beginning of each ﬁscal year. These rates use                                                                                 capital investment program as shown in Table 20, is
forecasting methods to determine the potential                                                                                    focused primarily on the development of computer
workload and the cost of meeting workload                                                                                         software to assist managerial decisionmaking, to
requirements. This projection is then used to set                                                                                 enable the sharing of databases, and to support the
a standard price for AWCF goods and services.                                                                                     development of more efﬁcient business practices.
Since revenue is deﬁned as gross sales at standard
                                                                                                                                  FY 2004 Capital Investment Program (CIP) projects
Figure 12. SMA Gross Sales                                                                                                        include the purchase of the following:

Wholesale Sales ($ millions)                                        NAMI/Retail Sales ($ millions)                                Terminal Servers ($1.2 million). Terminal servers
$10000                                                               $1200                                                        are required to enhance productivity throughout the
                                                                                                                                  AMC community by connecting stand-alone desktop
                                                                                                                       1,154
                                                    9,342




                                                                      1000
                                                                                                                                  computers to centralized servers. The project’s main
                                    8,573




                                                                                                               1,017




  8000
                                            8,074




                                                                       800
                                                                                                                                  focus is to decrease maintenance costs associated
                            7,056




                                                                                                                                  with the Procurement Automated Data Distribution
                                                                                              791




  6000
                                                                                                    726




                                                                                                                                  System.
                    5,713




                                                                       600
            5,105




  4000
                                                                       400
                                                                                                                                    Table 20. Capital Budget Obligations for SMA ($ millions)
  2000
                                                                       200
                                                                                                                                    Category                      FY 2002         FY 2003      FY 2004
                                                                                134

                                                                                       124




                                                                         0
                                                                                                                                    Equipment                        $0.0            $0.0          $0.0
     0
           FY 2002 FY 2003 FY 2004                                             FY 2002 FY 2003 FY 2004                              ADPE and Telecom                  0.0             0.0           1.2
Variance     $608           $1,517          $1,268                  Variance    ($10)          ($65)            $137
                                                                     Var (%)     (8)            (8)              13
                                                                                                                                    Software                         61.2            45.7          31.3
 Var (%)      12              21              16
                                               Plan                                                               Plan              Total                           $61.2           $45.7        $32.5
                                               Actual                                                             Actual


  Table 19. Financial Operation Measures for SMA ($ millions)
                                                                      FY 2002                                                           FY 2003                                    FY 2004
                                                    Plan               Actual                Variance                    Plan               Actual     Variance       Plan         Actual     Variance
                                                                                               (%)                                                       (%)                                    (%)
  Revenue                                               $5,239            $5,837                          11                   $5,595        $9,358          67        $9,097       $10,515         31
  Cost of Goods Sold                                        5,645            6,192                     10                       4,496          8,450         87         9,052        10,381         30
  Net Operating Results                                     (242)              (355)                (47)                         239            908         280              45         134        197
  Accumulated Operating                                     ($38)              $198            (2,366)                           $11            $29         164             $99         $29        (71)
  Results



Working Capital Fund – Management’s Discussion & Analysis — 138
Logistics Modernization Program (LMP) ($28                                                                            FY 2004 collections were greater than projected,
million). The goal of LMP is to re-engineer existing                                                                  as shown in Figure 13, because of the increase in
logistics processes to provide ﬂexibility in support                                                                  customer sales associated with Operation Iraqi
of CONUS-based power projection scenarios. It                                                                         Freedom and the GWOT.
leverages modern information technology enablers
to provide real-time visibility of the entire logistics                                                               Program Performance
supply chain and thereby support the transformation                                                                   Supply Management uses the following program
of military logistics.                                                                                                performance measure:

Common Operating Environment (COE) ($1.6                                                                              Stock Availability: Stock availability measures
million). COE provides Windows-based common                                                                           the percentage of SMA requisitions for stocked
technology architecture for the various wholesale                                                                     items completely ﬁlled within Uniform Materiel
logistics processes, enabling users of logistics                                                                      Movement and Issue Priority System (UMMIPS)
systems to perform all business functions from a                                                                      timeframes. DoD and the Army have set a target
single workstation. It will also interface with LMP.                                                                  of 85 percent stock availability. High demands
                                                                                                                      continued in FY 2004 as shown in Table 21. Ongoing
Single Stock Fund (SSF) ($0.5 million). The SSF                                                                       contingency operations and the level of OPTEMPO
concept integrates retail and wholesale inventory,                                                                    in support of Operation Iraqi Freedom and the
management, and ﬁnancial accounting functions                                                                         GWOT continue to impact stock availability as
to deliver business process improvements and                                                                          Item Managers focus on high-priority demands for
improve the efﬁciency of inventory management.                                                                        deployed forces. Adverse environmental impacts
This vertical stock fund for Army-managed items                                                                       and long supply pipelines continued to draw down
will eliminate duplication in logistical and ﬁnancial                                                                 strategic assets faster than we could replace them.
processing and provide greater visibility of assets.

Cash Management
The Army manages AWCF cash at the corporate                                                                            Table 21. SMA Stock Availability (percentage)
level. The performance of individual activity                                                                                               1st Quarter               2nd Quarter   3rd Quarter   4th Quarter
groups is measured against planned collections,                                                                        FY 2002                    85                           86       87            86
disbursements, and outlays rather than against                                                                         FY 2003                    85                           80       75            70
independent cash balances.
                                                                                                                       FY 2004                    73                           69       74            76


Figure 13. SMA Cash Management

Cash Collections ($ millions)                             Cash Disbursements ($ millions)                              Cash Outlays ($ millions)
$10000                                                    $10000                                                        $1500
                                                                                                                                                                     1,426




                                                                                                                         1200
                                                                                                              9,552
                                                  8,781




  8000                                                      8000                                                          900
                                                                                                      8,160




                                                                                                                                                                             771




                                                                                                                          600
                                  7,124


                                          6,734




  6000                                                      6000                                                          300
                                                                                                                                            326
                                                                                              5,651
                          5,719




                                                                                                                            0
                                                                                      5,212




                                                                                                                                                           (1,472)
                                                                                                                                                  ($506)
                                                                                                                                   ($180)




  4000                                                      4000                                                         -300
                                                                              3,954
          3,910




                                                                      3,730
                  3,465




                                                                                                                         -600

  2000                                                      2000                                                         -900

                                                                                                                        -1200

     0                                                         0                                                        -1500
         FY 2002 FY 2003 FY 2004                                     FY 2002 FY 2003 FY 2004                                      FY 2002 FY 2003 FY 2004
Variance ($445)           $1405           $2,047          Variance     $224            $439           $1,392           Variance     $506          ($966)              $665
 Var (%)  (11)              25              30             Var (%)       6               8              17              Var (%)      281           (191)               46
                                             Plan                                                        Plan                                                           Plan
                                             Actual                                                      Actual                                                         Actual




                                                                                                                                                                                                            139
Depot Maintenance                                                       overtime in an effort to meet customer demands.
                                                                        Though it is estimated that the depots did not exceed
Program Scope                                                           their full-time equivalents (see Figure 14), they did
Customer Revenue (Program Size)                                         exceed their planned overtime by 750,000 hours, or
Customer requirements govern the size and type of                       75 percent.
the Depot Maintenance workload. The revenue from
customer sales in FY 2004 was $2.7 billion. Table 22
                                                                        Performance Measures
displays customer revenue for the past three ﬁscal
                                                                        Financial Performance
years.
                                                                        There are ﬁve ﬁscal performance measures for Depot
Total revenue increased by $580 million, or 27.4                        Maintenance: cost per direct labor hour, ﬁnancial
percent, between FY 2003 and FY 2004. This was                          operating measures, customer revenue rate, capital
despite a rate increase of only 8.3 percent. Increased                  investment, and cash management.
revenue was primarily attributable to heightened
global commitments and operating tempo. In                              Cost per Direct Labor Hour. The cost per direct
addition to the revenue shown in Table 22, Depot                        labor hour (DLH) is computed by taking the sum of
Maintenance received direct appropriations of $2.3                      all labor and non-labor expenses (direct, indirect, and
million in FY 2002, $5.8 million in FY 2003, and                        general and administrative (G&A)), plus the change
$19.7 million in FY 2004.                                               in work in process, and dividing that sum by the total
                                                                        number of DLHs worked during the ﬁscal year. The
Personnel                                                               FY 2004 Depot Maintenance DLH is shown in Table
A key objective of the Army is to have the correct                      23.
number of appropriately skilled people in the right
places to meet the demands of workload.                                 Table 24 breaks down DLH costs into their
                                                                        component parts. Direct costs include civilian labor,
In FY 2004, depots received $2.6 billion in new                         materiel, supplies, equipment, and other costs that
orders, which was slightly 2.6 percent less than                        are directly related to a funded order (travel, training,
forecasted. The depots expanded their workforce,                        and purchased services). The indirect/G&A elements
employed contract support, and used high levels of                      comprise all costs not directly related to an order

 Table 22. Total Depot Maintenance Revenue by Customer                   Figure 14. Depot Maintenance Personnel Indicators
 ($ millions)
                                                                        Civilian Full-Time Equivalents                                    Military End-Strength
 Appropriation                FY 2002         FY 2003        FY 2004
                                                                         15000                                                                35
 Operations and                $627.0          $675.4        $1,080.0
 Maintenance, Army
                                                                                                                                                      32

                                                                                                                                                               32




                                                                                                                                              30
                                                                                                                                                                    31

                                                                                                                                                                             31




 Army Procurement               253.3           131.3           141.2    12000
                                                                                                                        12,572

                                                                                                                                 11,979




                                                                                                                                              25
 AWCF                           488.9           999.3           900.6
                                                                                                      11,113
                                                                                             10,999
                                                                                    10,413




                                                                                                               11,014




 Other Army                       30.1           10.8            98.9     9000
                                                                                                                                              20
                                                                                                                                                                                  21

                                                                                                                                                                                         19




 Other Services                   79.6           44.6           207.9
                                                                                                                                              15
                                                                          6000
 Other DoD                         7.2          231.8             229
                                                                                                                                              10
 Foreign Military Sales           67.0           17.1            27.9
                                                                          3000
 Non-DoD                         113.0             3.3            7.3                                                                          5

 Total Revenue                $1,666.1        $2,113.6       $2,693.6        0                                                                 0
                                                                                   FY 2002 FY 2003 FY 2004                                           FY 2002 FY 2003 FY 2004
 Table 23. Depot Maintenance Cost per Direct Labor Hour                 Variance      586               (99)            (593)             Variance         0             0         (2)
                               FY 2002        FY 2003       FY 2004      Var (%)       6                 (1)             (5)               Var (%)         0             0         (1)
                                Actual         Actual        Actual1                                                       Plan                                                    Plan
                                                                                                                           Actual                                                  Actual
 Cost per Direct Labor Hour      $152.36       $158.48       $153.03
 Change from Prior Year (%)              12             4         (3)
 Direct Labor Hours (000s)        11,592        12,769        16,335



Working Capital Fund – Management’s Discussion & Analysis — 140
and that are recovered as overhead expenses. These                                          AOR to zero. Any change in rates may in turn result
include administrative personnel costs, base support                                        in an increase or decline in the customer’s buying
costs, support personnel costs, and facility repair and                                     power.
maintenance costs.
                                                                                            Table 25 shows the operation measures for the past
Financial Operating Measures. Under the full-                                               three ﬁscal years. FY 2004 revenue and costs were
cost recovery concept, stabilized rates are set such                                        $2.7 billion and $2.5 billion, respectively. Typically,
that they should cover all costs and produce a zero                                         acceptable deviation from the plan is plus or minus
accumulated operating result (AOR) at the end of                                            10 percent. In FY 2004, revenue and cost deviations
the budget year. During execution, the activity group                                       from plan were (13.5) percent and (20.0) percent,
may experience either a positive or negative net                                            respectively. Because depots experienced delays in
operating result. The gain or loss shown in the NOR                                         receipt of carcasses (assets to repair) early in FY
is added to the AOR from past years. Stabilized rates                                       2004, actuals were lower than planned for revenue
are included in the President’s Budget, published
                                                                                            and cost of goods sold.
approximately eight months in advance of the year of
execution. The rates are stabilized so that customers’                                      Customer Revenue Rate. In Depot Maintenance,
programs will not be affected during execution, even
                                                                                            customer revenue rates are set per direct labor hour.
though the actual costs of the AWCF activity may be
                                                                                            These rates are stabilized so that the customer’s
higher or lower than planned.
                                                                                            buying power is protected in the year of execution.
                                                                                            Table 26 shows the stabilized revenue rates per DLH.
Deviations from the plan impact the activity group
to the extent that an unplanned gain or loss must be
                                                                                            Capital Investment. The Depot Maintenance
included in the following year’s rates to bring the
                                                                                            activity group seeks to maintain and develop
                                                                                            its capabilities through the acquisition of new
Table 24. Depot Maintenance Direct Labor Costs ($ millions)                                 equipment and the execution of minor construction
Elements                                         FY 2002       FY 2003       FY 2004
                                                                                            projects. The capital budget provides for equipment
                                                                                            acquisitions to replace obsolete and unserviceable
Direct Labor                                      $418.4        $294.0               NA
                                                                                            equipment, to eliminate environmental hazards,
Indirect Labor                                     293.5         222.1               NA
                                                                                            and to decrease costs through improvements in
General and Administrative Labor                     14.5            16.6            NA
Direct Materiel                                    635.9         774.4               NA
Indirect Materiel                                    71.3            58.4            NA      Table 26. Depot Maintenance Stabilized Rates
Indirect Other                                     299.8         658.1               NA      Direct Labor Rate                     FY 2002       FY 2003     FY 2004
                                                                                             Customer Revenue Rate ($)             $124.57       $133.80      $144.91
Total                                            $1,733.4     $2,023.6               NA
1
                                                                                             Customer Rate Change (%)                   3               7             8
    Data was not available at time of printing


    Table 25. Financial Operation Measures for Depot Maintenance ($ millions)
                                                               FY 2002                                   FY 2003                                  FY 2004
                                                     Plan                   Actual             Plan                Actual               Plan                Actual
    Total Revenue                                      $1,580.0               $1,668.4           $1,731.3            $2,119.4                $3,136.0         $2,713.4
    Cost of Goods Sold                                  1,599.0                1,766.2            1,749.6             2,023.6                 3,120.6          2,499.7
    Operating Results                                       (19.0)               (97.8)               (18.3)                95.8                 15.4            213.7
      (less Cash Surcharge)                                   0.2                     0.6               0.1                  0.3                  0.0                 0.0
      (less Extraordinary Items)                              0.0                     0.0               0.0                  0.0                  0.0                 0.0
    Net Operating Results                                   (19.2)               (98.4)               (18.4)                95.5                 15.4            213.7
    Beginning AOR                                            64.6                    83.2             (45.8)            (39.0)                   77.8                77.8
      (less Prior Year Adjustment)                              0                (23.8)                 0.0                 21.3               (74.7)                25.8
    Beginning AOR Adjusted                                   64.6                    59.4             (45.8)            (17.7)                    3.1            103.6
    AOR (NOR plus adjusted AOR)                             $45.4               ($39.0)           $(64.2.               $77.8                  $18.5            $317.3



                                                                                                                                                                       141
productivity. Table 27 represents the obligation                  Aircraft Corrosion Control Equipment ($0.6
authority of the capital budget.                                  million). The purchase of the Aircraft Corrosion
                                                                  Control Equipment increases production throughput
FY 2004 Capital Investment Program (CIP) projects                 and decreases aircraft travel time by including all
include purchase of the following:                                preparation and painting processes in one facility.

Various Capital Equipment—Replacement                             H-60 Alignment Fixture ($1.8 million). The
(<$500K) ($6.2 million). This program seeks to                    purchase of the H-60 Alignment Fixture increases
replace depot equipment items costing less than                   production capacity to meet a 200 percent increase in
$500,000 that have outlived their useful lives,                   alignment workload.
become uneconomical to repair, or become unsafe to
operate.                                                          Abrasive Waterjet Cutting Machine ($0.6
                                                                  million). The purchase of the Abrasive Waterjet
Various Capital Equipment—Productivity                            Cutting Machine relieves the existing machine that is
(<$500K) ($2.4 million). This program seeks to                    being used 24 hours per day, 7 days per week.
modernize equipment costing less than $500,000
to improve depot productivity and efﬁciency and                   Vertical Grinder ($0.6 million). The purchase of
reduce operating costs.                                           the Vertical Grinder helps meet the current schedule
                                                                  of 90 T-700 Engine compressor cases per month.
Bridge Crane 30-ton Bldg 170 ($1.3 million). The
purchase of two 30-ton Bridge Cranes will bring the               Apache Realignment Fixture ($2.3 million). The
1955 10-ton crane system up to current Operational                purchase of the Apache Realignment Fixture allows
Safety and Health Administration standards and                    the depot to process an additional six aircraft per
increase its lift capacity.                                       year, reducing backlog of aircraft.

Generator Load Bank ($0.6 million). The purchase                  Various Minor Construction (<$750 thousand)
of the Generator Load Bank provides a safe compact                ($6.4 million). This program corrects various
unit that can test all generators and will have many              workload and production shortcomings and
fewer downtime problems.                                          improves health, safety, environmental, and security
                                                                  conditions.
XT-1410 Transmission Test Stand ($0.6 million).
The purchase of the XT-1410 Transmission Test                     Army Workload and Performance System
Stand provides a more reliable and accurate piece of              (AWPS) ($2.3 million). AWPS is a personal
equipment. Test time will be reduced by three hours               computer-based network software solution designed
per transmission.                                                 to integrate existing production and ﬁnancial data
                                                                  into a single graphic program. This will assist the
CNC Vertical Machining Center ($1.2 million).                     TACOM, CECOM, and AMCOM, in managing
The purchase of four CNC Vertical Machining                       complex workload and employment strategies. This
Centers alleviates delays in production schedules.                is a Congressional mandate.

Boring Mill ($0.9 million). The purchase of the                   Logistics Modernization Program ($6.4 million).
Boring Mill enhances production capabilities,
resulting in labor savings, maintenance cost saving,
                                                                   Table 27. Depot Maintenance Capital Budget ($ millions)
and reduced downtime.
                                                                   Category                             FY 2002       FY 2003   FY 2004

Plastic Media blast System ($2.1 million).                         Equipment                                   $7.1     $31.2     $29.3
The purchase of the Plastic Media Blast System                     Minor Construction                           1.1       3.1       7.7
provides adequate space for removing paint from                    ADPE1 and Telecom                            0.0       0.0       0.0
large airframes, fall protection, and integrated                   Software                                    16.7      16.6       8.6
work platforms for safely reaching all areas of the                Total                                      $24.9     $50.9     $45.6
airframe.                                                          1
                                                                       Automated Data Processing Equipment.




Working Capital Fund – Management’s Discussion & Analysis — 142
LMP seeks to re-engineer existing logistics processes                                                                                               Provided 24/7 operations support to produce
to provide ﬂexibility in support of CONUS-based                                                                                                     rubber for combat vehicle tracks
power projection scenarios to leverage modern
                                                                                                                                                    Production of High-Mobility Multipurpose
information technology enablers to provide real-time
                                                                                                                                                    Wheeled Vehicle (HMMWV) Add-On Armor
visibility of the entire logistics supply chain, and
                                                                                                                                                    to protect against side attacks of explosives and
thereby to support the revolution in military logistics.                                                                                            small arms critical to operational effectiveness
Cash Management.                                                                                                                                    and Soldier safety
The Army manages AWCF cash at the corporate                                                                                                         Provided cross-service support on 154
level. The performance of individual activity                                                                                                       Sidewinder missiles for the Air Force and 129
groups is measured against planned collections,                                                                                                     Maverick missiles for the Air Force/Navy and
disbursements, and outlays rather than in terms of                                                                                                  overhauled 50 M1A1 Abrams Tanks for the
cash balances. Depot Maintenance collections and                                                                                                    Marine Corps
disbursements in FY 2004 were $2.7 billion and $2.6                                                                                                 Deployed hundreds of civilians to Southwest
billion, respectively. Figure 15 graphically represents                                                                                             Asia (SWA) and the Continental United States
these results.                                                                                                                                      (CONUS) installations in support of forward
                                                                                                                                                    repair capabilities
Both collections and disbursements were under the
plan and reﬂect the revenue and expense positions of                                                                                          Lean/Six Sigma has played a major role in the
Depot Maintenance activity group.                                                                                                             success achieved by the industrial base in providing
                                                                                                                                              more reliable, responsive, accurate, and cost-
Program Performance                                                                                                                           effective support to the warﬁghter with the total
The Army’s industrial base is crucial to readiness                                                                                            workforce focusing on efforts to increase the value
in that it offers rapid response and the ﬂexibility to                                                                                        of products and services. All installations are actively
perform a variety of missions anytime and anywhere                                                                                            involved in this initiative. Process improvements
in the world. Warﬁghting is about risk, and the                                                                                               have resulted in millions of dollars of savings that
industrial base has played a major role to help                                                                                               will be passed back directly to customers in the form
mitigate that risk. FY 2004 highlights include:                                                                                               of reduced costs and/or more production output. For
                                                                                                                                              example, repair cycle time was signiﬁcantly reduced
         Completed overhaul/repair to over 85,000                                                                                             for several go-to-war systems such as countermeasures
         weapon systems, major items and components
                                                                                                                                              aircraft survivability equipment used on most



Figure 15. Depot Maintenance Cash Management

Collections ($ millions)                                               Disbursements ($ millions)                                              Outlays ($ millions)
 $3500                                                                  $3500                                                                    $150
                                                                                                                                                          140.3




                                                                                                                                                                          135.5




                                                                                                                                                  120
                                                   3,205.1




                                                                                                                          3,190.9




  3000                                                                   3000
                                                                                                                                                   90
                                                             2,680.1




  2500                                                                   2500                                                                      60
                                                                                                                                    2,551.5




                                                                                                                                                                  24.5




                                                                                                                                                                                  22.2




                                                                                                                                                   30
  2000                                                                   2000
                                                                                                                                                    0
                                                                                                               1,909.4
                                        1,887.2




                                                                                                                                                                                                   (128.6)
                                                                                                     1,760.8
                                                                                           1,761.3
                    1,734.6




                                                                                 1,690.9




  1500                                                                   1500
                                                                                                                                                                                         ($14.2)
                              1,625.4




                                                                                                                                                   -30
          1,550.6




  1000                                                                   1000                                                                      -60

                                                                                                                                                   -90
   500                                                                    500
                                                                                                                                                 -120

     0                                                                      0                                                                    -150
         FY 2002 FY 2003 FY 2004                                                FY 2002 FY 2003 FY 2004                                                  FY 2002 FY 2003 FY 2004
Variance $184.0               $261.8              ($525.0)             Variance $70.4                $148.6              ($639.4)              Variance ($115.8)         ($113.2)        114.4
 Var (%)   12                   16                  (16)                Var (%)   4                    8                   (20)                 Var (%) (83)               (84)            8
                                                       Plan                                                                   Plan                                                            Plan
                                                       Actual                                                                 Actual                                                          Actual




                                                                                                                                                                                                             143
helicopters, (a 31 percent reduction,) and radio                                                  speciﬁc item at each of the major repair depots that
terminal sets, (a 41 percent reduction). Aviation depot                                           is receiving A1 (cyclic, normal overhaul, rebuild)
materiel requisitioning improved to such an extent that                                           work. The prices indicated are the unit prices by year
there is now a 30 percent increase in on-time delivery                                            for this type of work; price ﬂuctuations are due to
of parts to the UH-60 production line.                                                            changes in materiel and labor costs, distribution of
                                                                                                  overhead costs, accumulated operating result (AOR)
The Depot Maintenance activity group uses two                                                     recovery, and the cash surcharge.
program performance measures: production output
and schedule conformance.                                                                         Schedule Conformance. This performance measure
                                                                                                  records the number of units completed on schedule
Production Output. Table 28 lists the quantity and                                                as a percentage of the number of units scheduled.
customer price for ﬁve presentative end items for                                                 Units completed are deﬁned as major end items plus
the last three ﬁscal years. The table highlights one                                              repairables. FY 2004 results are displayed in Table 29.


 Table 28. Depot Maintenance Production Output
                                                                FY 2002                      FY 2003                                FY 2004
 Item (Installation)                                   Actual           Unit Price      Actual       Unit Price   Proposed     Actual     Deviation    Unit Price
                                                      Quantity             ($)         Quantity         ($)       Quantity    Quantity      (%)           ($)
 Rear Module, M1A1 (ANAD)                                     334            68,613         347        $67,822         136          116         (15)     $65,677
 Engine, Turbine, T700-GE (CCAD)                              120           256,083           55      $264,751         130          118         (10)    $258,972
 Patriot Launcher (LEAD)                                        28          440,615           40      $699,575          40           40          (0)    $653,725
 Wheel, Solid Rubber (RRAD)**                               2,800                249       8,945          $208        8,975       6,909         (23)        $214
 Visual Display Unit, AH64 (TYAD)                               60             8,263          49        $8,438          60           50         (17)      $8,755
 ** The quantities and unit prices reﬂected for RRAD are for 26x6 roadwheels only.




M1 Tank Track



Working Capital Fund – Management’s Discussion & Analysis — 144
Ordnance                                                                                                             Personnel
                                                                                                                     A key objective of the Army is to have the correct
Program Scope                                                                                                        number of appropriately skilled people in the right
Customer Revenue (Program Size)                                                                                      places to meet workload requirements. As workload
Customer requirements dictate the size of the                                                                        has increased, stafﬁng levels have also been
Ordnance workload. Table 30 displays customer                                                                        increased to accomodate operational requirements.
revenue for the past three ﬁscal years.                                                                              Figure 16 shows the FY 2004 stafﬁng levels.

Revenue from customer orders in FY 2004 was
                                                                                                                     Performance Measures
$876.6 million, an increase of $164.9 million, or
                                                                                                                     Financial Performance
23.2 percent. This increase is due to increased orders
                                                                                                                     There are four ﬁnancial performance measures for
as a direct result of the GWOT, coupled with a slight
                                                                                                                     Ordnance. These are cost per direct labor hour,
rate increase (1.4 percent) from FY 2003. In addition
                                                                                                                     customer revenue rate, capital investment, and cash
to the revenue shown in Table 30, the Ordnance
                                                                                                                     management.
activity group received $94.2 million in direct
appropriations during FY 2004, $54.2 million in FY                                                                   Financial Operation Measures. Under the full-cost
2003, and $46.1 million in FY 2002.                                                                                  recovery concept, stabilized rates are set to cover
                                                                                                                     all costs and produce a zero AOR at the end of the
The increase in revenue is due to increased
                                                                                                                     budget year. During execution, the activity group
shipments in support of overseas military operations,
                                                                                                                     may experience either a positive or negative net
troop support/force protection, and receipt of
                                                                                                                     operating result. The gain or loss shown in the NOR
unplanned orders and miscellaneous spares.
                                                                                                                     is added to the AOR from prior years. Stabilized
                                                                                                                     rates are included in the President’s Budget,
                                                                                                                     published approximately eight months in advance

 Table 29. Depot Maintenance Schedule Conformance                                                                     Table 30. Total Ordnance Revenue by Customer ($ millions)
 (percentage)                                                                                                         Appropriation       FY 2002        FY 2003        FY 2004
                                                       FY 2002             FY 2003                 FY 2004            Operation and         $236.3         $303.1        $431.5
 Plan                                                       90%                    96%                  96%           Maintenance,
                                                                                                                      Army
 Actual                                                     94%                    95%                  95%
                                                                                                                      Procurement,           165.5          173.9         191.0
 Variance (percentage)                                        4                     (1)                  (1)          Army
                                                                                                                      AWCF                    75.8          102.6         106.7
 Figure 16. Ordnance Personnel Indicators
                                                                                                                      Other Army              22.8           25.8          28.8
Civilian Full-Time Equivalents                                    Military End Strength                               Other Services          14.1           34.5          28.3
  8000                                                                25                                              Other DoD               62.0           26.5          32.7

  7000                                                                                                                Foreign Military        20.9           17.2          18.9
                                                                      20
                                                                                                                      Sales
                                                                              21
                                            6,495

                                                    6,436




  6000
                                                                                                                      Non-DoD                 26.3           28.1          38.7
                                    5,993




                                                                                     18


                                                                                          18

                                                                                                   18
            5,572




                            5,612
                    5,580




  5000                                                                15                                              Total Revenue         $623.7        $ 711.7        $876.6
                                                                                                         15




  4000
                                                                                                                13




                                                                      10
  3000

  2000
                                                                       5
  1000

     0                                                                 0
           FY 2002 FY 2003 FY 2004                                           FY 2002 FY 2003 FY 2004
Variance       12           (381)              59                 Variance     (3)             0          (2)
 Var (%)        0             7                 1                  Var (%)    (14)             0         (13)
                                               Plan                                                       Plan
                                               Actual                                                     Actual




                                                                                                                                                                              145
of the year of execution. The rates are stabilized so                          Cost per Direct Labor Hour. The cost per DLH
that customers’ programs will not be affected during                           rate is computed by dividing the sum of all labor and
execution, even though the actual costs of the AWCF                            non-labor expenses (direct, indirect, and general and
activity may be higher or lower than planned.                                  administrative plus the change in work in process by
                                                                               the total number of productive DLHs worked in the
Deviations from the plan impact the activity group                             ﬁscal year. The FY 2004 DLH is shown in Table 32.
to the extent that an unplanned gain or loss must be
included in the following year’s rates to bring the                            Table 33 breaks down the overall costs for FY 2004.
AOR to zero. Any change in rates may in turn result                            Direct costs are the costs of civilian labor, material,
in an increase or decline in the customer’s buying                             supplies, equipment, and other costs that are directly
power.                                                                         related to a funded order. Indirect costs are those not
                                                                               directly related to an order, such as administrative
Table 31 shows the operation measures for Ordnance                             personnel costs, base support costs, support
for the past three ﬁscal years. FY 2004 total revenue                          personnel costs, and facility repair and maintenance
and costs were $970.7 million and $966.9 million,                              costs.
within the acceptable deviation from plan of plus or
minus 10 percent.

  Table 31. Ordnance Financial Operation Measures ($ millions)
                                                FY 2002                                       FY 2003                                           FY 2004
                                      Plan                    Actual                Plan                     Actual                   Plan                   Actual
  Total Revenue                              $663.7               $669.2                 $609.0                     $765.8                 $951.9                $970.7
  Cost of Goods Sold                          680.5                696.1                   608.6                      797.2                  987.0                966.9
  Operating Results                          (46.8)                (26.3)                     0.4                    (31.4)                  (35.1)                    3.8
    (less Cash Surcharge)                       1.8                     1.9                   0.3                        0.4                   0.5                     0.6
    (less Extraordinary Items)                  0.0                     0.0                   0.0                        0.0                   0.0                     0.0
  Net Operating Results                      (48.6)                (28.2)                     0.1                    (31.8)                  (35.6)                    3.2
  Beginning AOR                                66.7                    51.6                181.5                      181.6                  136.1                136.1
    (less prior year adjustment)                0.0                158.2                      0.0                    (13.7)                    0.0                    (1.4)
  Beginning AOR (adjusted)                     66.7                209.8                   181.5                      167.9                  136.1                134.7
  AOR (NOR plus adjusted AOR)                 $18.1               $181.6                 $181.6                     $136.1                 $100.5                $137.9

  Table 32. Ordnance Cost per Direct Labor Hour                                 Table 33. Ordnance Direct Labor Cost ($ millions)
                                   FY 2002       FY 2003         FY 2004        Elements                                         FY 2002       FY 2003         FY 20041
  Cost per Direct Labor Hour ($)   $155.69       $137.85         $146.26        Direct Labor                                      $168.8         $200.9                NA
  Change from Prior Year (%)            3              (11)               6     Indirect Labor                                     139.5          136.5                NA
  Direct Labor Hours (000s)          4,471            5,783            6,611    General and Administrative                          46.2              61.8             NA
                                                                                Labor
                                                                                Direct Materiel                                     82.4              99.3             NA
                                                                                Indirect Materiel                                   25.5              27.3             NA
                                                                                Other                                              231.9          268.0                NA
                                                                                Total                                             $694.3         $793.8                NA
                                                                                1
                                                                                    Data was not available at time of printing




Working Capital Fund – Management’s Discussion & Analysis — 146
Customer Revenue Rate. The Ordnance activity               Automated M295 Line ($1.3 million). The
group sets customer revenue rates per direct labor         acquisition of the Automated M295 Line used
hour. These rates are stabilized so that the customer’s    to produce the M295 individual Equipment
buying power is protected in the year of execution.        Decontamination Kit (chemical agent removal)
Table 34 shows the revenue rate per DLH, and               increases production and cuts both labor and repair
indicates a 1 percent rate increase between FY 2003        costs by 50 percent.
and FY 2004.
                                                           Automated CDE Conveyor System ($1.2 million).
Capital Investment Program. The Ordnance                   The acquisition of the Automated CDE Conveyor
group seeks to maintain and develop its capabilities       System used for packaging and shipping of Chemical
through the acquisition of equipment and the               Defense Equipment (CDE) increases productivity,
execution of minor construction projects. The capital      reduces the time required to ship CDE, and reduces
budget provides for equipment acquisition to replace       injuries inherent to manual operations.
obsolete and unserviceable equipment, to eliminate
environmental hazards, and to decrease repair costs        Premix Equipment ($0.9 million). The acquisition
by improving productivity. Table 35 represents the         of the Premix Equipment used for mixing inert/non-
obligation authority of the capital budget.                explosive materials in the production of bombs
                                                           increases production by 60 percent and reduces the
FY 2004 Capital Investment Program (CIP) projects          unit price of the bombs produced.
include purchase of the following:
                                                           Automated Starter Patch Fabrication System
Various Capital Equipment—Replacement ($6.1                ($0.7 million). The acquisition of the Automated
million). This program funds the replacement of            Starter Patch Fabrication System used for preparing
items of equipment costing less than $500,000 that         terry cloth with starter mix slurry, and cut to shape
have outlived their useful lives, are uneconomical to      for use in grenades, increases grenade throughput by
repair, or are unsafe to operate.                          20 percent, improves quality of starter patches, and
                                                           reduces operators from nine to ﬁve.
Bar and Chucking Lathe ($0.5 million). The
acquisition of the Bar and Chucking Lathe used to          Rough Terrain Crane ($1.2 million). The
machine tools/ﬁxtures and ammunition components            acquisition of the Rough Terrain Crane—used
allows one machine to do the work of two with              for loading non-drivable tanks, Bradley Fighting
increased accuracy and output.                             Vehicles and M113 personnel carriers, etc., on to rail
                                                           cars for storage—provides Sierra Army Depot the
CNC Milling Machine ($0.7 million). The                    ability to perform this task at the most economical
acquisition of the CNC Milling Machine used to             cost.
manufacture critical parts for the 19/M198 Howitzers
and the M182 Gun Mount for the M109 A6 Paladin             Minor Construction (<$750K) ($7.6 million). This
increases machining time with less scrap and meets         program addresses and corrects various problems at
OSHA safety standards.                                     Ordnance installations facilities that give rise to poor




 Table 34. Ordnance Stabilized Rates                        Table 35. Capital Budget for Ordnance ($ millions)
 Direct Labor Hourly Rate    FY 2002   FY 2003   FY 2004    Category                FY 2002       FY 2003        FY 2004
 Customer Revenue Rate ($)    $94.59    $69.07     $70.5    Equipment                   $2.8         $9.6          $12.6
 Customer Rate Change (%)        (8)      (27)        1     Minor Construction           1.3          1.4            7.6
                                                            ADPE and Telecom             1.9          0.0            2.6
                                                            Software                     4.7          4.7           12.3
                                                            Total                      $10.7        $15.7          $35.1



                                                                                                                      147
working conditions that in turn reduce productivity,                                                                Enterprise Resource Planning/Industrial Base
lack energy conservation features, compromise                                                                       Modernization WVA ($4.3 million). The Enterprise
security, fail to comply with ﬁre and safety codes, or                                                              Resource Planning (ERP) system is part of LMP.
present health hazards.                                                                                             It will develop an Industrial Base Modernization
                                                                                                                    System that fully integrates the requirements
Miscellaneous Automated Data Processing                                                                             performed by the numerous legacy systems with the
Equipment (<$500K) ($2.1 million). The ADPE                                                                         standard ERP solution.
program replaces old, obsolete, and irreparable
equipment with state-of-the-art equipment to bring                                                                  ERP/Industrial Base Modernization PBA ($4.3
Ordnance sites up to Army standards and to improve                                                                  million). The ERP system is part of the LMP. It
communications with other Army sites. New                                                                           will develop an Industrial Base Modernization
technology will also improve security and reduce the                                                                System (IBM) that fully integrates the requirements
threat of intrusion by unauthorized sources.                                                                        performed by the numerous legacy systems with the
                                                                                                                    standard ERP solution.
Network Enterprise Management System ($0.5
million). This centralized, fully integrated network                                                                Cash Management
management system allows computer technicians to                                                                    The Army manages AWCF cash at the corporate
diagnose problems and ﬁx these problems without                                                                     level. The performance of individual activity
leaving their work site.                                                                                            groups is measured against planned collections,
                                                                                                                    disbursements, and outlays, not against cash
Army Workload and Performance System                                                                                balances. The FY 2004 plan for Ordnance projected
(AWPS) ($3.7 million). AWPS is a personal                                                                           a $30.9 million outlay on cash but the actual result
computer-based network software solution designed                                                                   outlay was only ($42.6) million. Collections were
to integrate existing production and ﬁnancial                                                                       above plan for the year by 4 percent, as shown in
data into a single graphic program. It will enable                                                                  Figure 17.
production and resource managers to isolate
scheduling and cost problems at the product level                                                                   Program Performance
and to estimate the workforce needed to accomplish                                                                  The Army’s industrial base is crucial to readiness
various levels of workload. This is a Congressional                                                                 in that it offers rapid response and the ﬂexibility to
mandate.                                                                                                            perform a variety of missions anytime and anywhere




 Figure 17. Ordnance Cash Management

Collections ($ millions)                                  Disbursements ($ millions)                                 Outlays ($ millions)
 $1000                                                     $1000                                                      $250
                                                  988.6




                                                                                                    982.1
                  974.4




                                                                                                                       200
                                                                                                            946.0
                                          951.2




                                                                                                                                                206.4

                                                                                                                                                        177.7




   800                                                       800                                                       150
                                                                                            781.9




                                                                                                                       100
                                                                                                                                                                 30.9
                                                                                                                               26.5
                                                                            699.9
                                                                    685.6




                                                                                                                         50
                                                                                    673.8
          659.1




   600                                                       600
                                  604.3




                                                                                                                          0
                                                                                                                                                                        (42.6)
                                                                                                                                      (275.9)




                                                                                                                        -50
                          467.4




   400                                                       400
                                                                                                                       -100
                                                                                                                       -150
   200                                                       200                                                       -200
                                                                                                                       -250
     0                                                         0                                                       -300
         FY 2002 FY 2003 FY 2004                                   FY 2002 FY 2003 FY 2004                                    FY 2002 FY 2003 FY 2004
Variance $315.3           $136.9          $37.4           Variance $14.3            $108.1          $36.1           Variance ($302.4)           ($28.7)         ($73.5)
 Var (%)   48               29              4              Var (%)   2                16              4              Var (%) (1,141)              (14)           (238)
                                             Plan                                                      Plan                                                       Plan
                                             Actual                                                    Actual                                                     Actual




Working Capital Fund – Management’s Discussion & Analysis — 148
in the world. Warﬁghting is about risk, and the                       conducted on the illuminating candle production
industrial base has played a major role to help                       line resulted in a 12 percent reduction in manpower
mitigate that risk. FY 2004 highlights include:                       devoted to that operation, a 15 percent increase in
                                                                      the production rate, and a 50 percent reduction in
     Manufacture of thousands of spare components                     delivery schedules. Another lean initiative looked
     for the 105mm/155mm cannons, and M137                            at packing stations and ammunition shipping
     cannons used by the Air Force                                    and receiving processes, all of which resulted in
     Production of over 140,000 bombs                                 increased productivity. Analysis of a bomb line
                                                                      resulted in redeployment of 31 employees and
     Shipment of over 20,000 tons of ammunition                       reduced ﬂow time by 64 percent in the production
     to SWA and over 20,000 tons of ammunition to                     acceptance process.
     CONUS installations to support deployment and
     mobilization training                                            The Ordnance activity group uses two program
     Heavy involvement in retrograde and reset of                     performance measures: schedule conformance and
     ammunition from the SWA and U.S. Paciﬁc                          ammunition short tons.
     Command theaters for all services.
                                                                      Schedule Conformance. This performance measure
Lean/Six Sigma has played a major role in the                         shows the number of units completed on schedule
success achieved by the industrial base in providing                  as a percentage of the number of units scheduled.
more reliable, responsive, accurate, and cost-                        Units completed are deﬁned as major end items plus
effective support to the warﬁghter with the total                     repairable items. FY 2004 results are shown in Table
workforce focusing on efforts to increase the value                   36.
of the products and services. All installations
are actively involved in this initiative. Process                     Ammunition Short Tons. This measures the
improvements have resulted in millions of dollars                     amount of short tons of ordnance received, issued,
of savings that will be passed back directly to                       or demilitarized. (A short ton is 2,000 pounds of
customers in the form of reduced costs and/or more                    ammunition.) Based on standards at the installations,
production output. For example, elimination of the                    this ﬁgure has a direct correlation to personnel,
potential for creating ﬁve critical defects in the M67                funding, and rates. Table 37 displays the FY 2004
Hand Grenade process resulted in no production                        ammunition short tons measures.
stoppages due to these defects. Lean events


 Table 36. Schedule Conformance
                         FY 2002         FY 2003       FY 2004
 Plan                      286.3              96              96
 Actual                    297.6              96              96
 Variance (percentage)        4                0               0


 Table 37. Ammunition Short Tons
                          FY 2002                  FY 2003                                   FY 2004
                           Actual                  Actual                   Plan             Actual             Variance (%)
 Receipts                           131,700                 162,395                143,965            257,744              179%
 Issues                             165,800                 202,655                158,697            198,661              125%
 Demilitarized                       27,759                  19,780                 14,705             19,806              135%




                                                                                                                               149
                                                                  the AWCF liabilities are quite low, amounting to
Analysis of Financial Statements                                  $1.1 billion, a decrease of over $306 million, or 22
Throughout FY 2004, the AWCF continued                            percent. This decrease is mainly due to a reduction in
to improve upon the myriad processes linked                       the accounts payable line item, as a result of paying
to producing auditable ﬁnancial statements in                     the Defense Logistics Agency (DLA) for the FY
compliance with the Chief Financial Ofﬁcers Act of                2003 over-ocean transportation costs.
1990.
                                                                  The third major component of the balance sheet is
The ﬁnancial statements were compiled in                          net position. In aggregate, the various elements of
accordance with guidance issued by the Ofﬁce                      the net position section on the balance sheet are also
of Management and Budget and supplementary                        referred to as “equity.” Equity is the residual interest
guidance provided by DoD. The IG DoD was unable                   in the assets of the entity that remains after deducting
to audit the AWCF ﬁnancial statements due to the                  its liabilities. For FY 2004, the AWCF net position
lack of Army management system adherence to                       amounted to $15.4 billion, representing almost a $1.5
Federal ﬁnancial management systems requirements,                 billion, or 11 percent, increase from FY 2003.
generally accepted accounting principles, and the
U.S. Government Standard General Ledger at the                    Figure 18. Balance Sheet Results
transaction level. As a result, the IG DoD did not
express an opinion on the Army Working Capital
Fund Balance Sheet, Statement of Net Cost,
Statement of Changes in Net Position, Statement of
Budgetary Resources, and Statement of Financing. In                                  $15,370,887
his letter to the Chief Financial Ofﬁcer, the IG DoD
identiﬁed eight internal control weaknesses. Army
management has initiated actions to correct these
weaknesses through the Army CFO Strategic Plan.                                                    $16,488,179

The ﬁnancial statements for the AWCF are presented
in a comparative format, providing ﬁnancial                           $1,117,292
information for FY 2003 and FY 2004.                                                                                 FY 2004

With that in mind, the following are the ﬁnancial
highlights of each statement. These highlights focus
on signiﬁcant balances or conditions to help clarify
the AWCF’s operations. Additional explanatory                                      $13,895,636
information may also be found in the notes that
accompany these statements.

                                                                                                   $15,319,744
Balance Sheet
This statement presents the assets, liabilities, and
net position of the AWCF as of 30 September 2003
and 2004. As shown in Figure 18, the Army Working                                                                    FY 2003
                                                                       $1,424,108
Capital assets amounted to $16.5 billion at FY 2004
year-end, nearly an 8 percent increase from the                           $ in thousands                       Total Assets
previous year. Of the total assets, over 84 percent                                                         Total Liabilities
of the dollar value resides in the inventory and                                                         Total Net Position
related property account. Relative to its total assets,




Working Capital Fund – Management’s Discussion & Analysis — 150
Statement of Net Cost                                      a future liability that would eventually require cash
                                                           payments.
This statement presents the annual cost of operating
the various AWCF activity groups. To the extent a          The second section, Resources Used to Finance
program generates revenues, these amounts offset           Items not Part of the Net Costs of Operations,
gross costs to arrive at the net cost of operations. For   identiﬁes and adjusts budgetary transactions recorded
FY 2004, program costs amounted to $11 billion,            by the AWCF for changes in the amount of goods,
representing a 10 percent increase from the previous       services, and beneﬁts ordered but not received, the
year. Additionally, program revenues increased 28          costs capitalized on the balance sheet, and ﬁnancing
percent from FY 2003, climbing to $13.4 billion.           sources that fund costs of prior periods. For FY 2004,
Overall for FY 2004, the AWCF achieved a 361               the AWCF had a negative $8.9 billion in adjustments.
percent decrease in the net cost of operations,
increasing net revenue to $2.4 billion—a $1.9 billion      The ﬁrst two sections are netted together to yield
increase from the previous year.                           the total resources used to ﬁnance the net cost of
                                                           operations. For FY 2004, total resources used to
                                                           ﬁnance net costs increased 2,524 percent over the
Statement of Changes in Net Position                       previous year and amounted to approximately $7.3
This statement presents those accounting items             billion. The largest factor in this increase is the
that caused the net position section of the balance        change in the Resources that Finance the Acquisition
sheet to change from the beginning to the end of the       of Assets, which increased $5.9 billion, or 1,817
reporting period. The AWCF saw an increase of $1.5         percent, from FY 2003 to FY 2004. An accounting
billion, or 11 percent, in the cumulative result of        procedure change to report capitalized purchases
operations. The Net Position at year-end was $15.4         more accurately caused this increase. Memorandum
billion, a 11 percent increase from the previous year.     accounts were added to capture the capitalized costs
                                                           during the year.
Statement of Budgetary Resources
                                                           Finally, the third section, Components of the Net
This statement provides information on the AWCF’s          Cost of Operations that will not Require or Generate
budgetary ﬁnancing accounts and the status or              Resources in the Current Period, is used to adjust
remaining balances of those accounts at year-end.          the total resources used to ﬁnance the net cost of
This includes information on obligation and outlays        operations (the net amount of the ﬁrst and second
or actual cash disbursements for the year.                 sections) in order to determine the net cost of
                                                           operations. Thus, sections 1 and 2 are reconciled with
Statement of Financing                                     section 3 to yield a net cost of operations of $2.4
                                                           billion. This amount ties back to the Statement of Net
This is a reconciling statement that tracks the
                                                           Cost.
relationship between the proprietary accounts and
the budgetary accounts of the AWCF. The Statement
of Financing provides data on the total resources          Management Integrity
provided to the AWCF during the ﬁscal year and             A discussion of the Army management control
how those resources were used.                             weaknesses that were identiﬁed during FY 2004,
                                                           and those weaknesses reported during FY 2003 that
The ﬁrst section of the statement, Resources Used          the Army expected to close during FY 2004, can be
to Finance Activities, shows a total of $1.6 billion.      found on page 20 of the Army General Fund Section.
This is the amount for which the AWCF may have




                                                                                                               151
                                                                  Government Performance and Results Act and the
Future Effects of Existing Conditions                             Chief Financial Ofﬁcers Act.
Logistics Transformation
                                                                  The Defense Planning Guidance for FY 2004–FY
As part of Army Transformation, several ﬁnancial
                                                                  2009 provides a revised investment strategy based
reform initiatives have been recommended by the                   on S/RM principles. However, the challenge of
Logistics Transformation Task Force that may                      how to implement the strategy remains. Successful
result in a change to the pricing and recording of                implementation will require a major change to
products and/or services sold by the AWCF. The                    existing practices and a long-term commitment to
proposed changes will be reviewed by the task force               resolve the problem.
and, if approved, will be implemented during FY
2005–FY 2007. The goal of these reform initiatives                Using the S/RM-based strategy, the Army plans to
is to promote cost visibility while streamlining price            ﬁrst forecast its required inventory and then:
development. If this is achieved as required, buyer/
seller relationships will beneﬁt.                                     Fully sustain its assets and stop the loss of
                                                                      service life

Facilities Recapitalization                                           Restore by 2010, where appropriate and
                                                                      affordable, C-2 readiness to facilities rated C-3
The Army has identiﬁed a need for a facilities
                                                                      or C-4 in the near-term, buying back lost service
framework capable of properly supporting its future
                                                                      life
worldwide missions. This will require programs
and budgets that ensure the day-to-day readiness                      Modernize for the future, establishing by 2007
of modern facilities relevant to future operations                    a recapitalization investment stream tied to
and services. The Army will use standard tools and                    average expected service life (67 years).
metrics to determine the appropriate investment                   For mainstream recapitalization programs—and
levels for this facilities recapitalization.                      for recapitalization typically funded by traditional
                                                                  military construction, operations, and maintenance,
The recapitalization rate metric is one element of a              and working capital fund resources—the
larger paradigm that has been under development                   recapitalization rate metric is ready and usable for
in DoD since 1999. This paradigm is composed                      the FY 2004–FY 2009 program and budget cycle.
of restructured programs and new performance                      Additional research and analysis are required before
metrics for facilities sustainment, restoration, and              the metric can be successfully applied to selected
modernization (S/RM). The new S/RM paradigm is                    specialty areas such as family housing programs,
expected to solve several longstanding problems that              foreign- or internationally funded programs, and
have challenged the Army in its determination of                  non-appropriated fund programs
facilities funding requirements. It supports both the




Working Capital Fund – Management’s Discussion & Analysis — 152
                                                         Logistics Modernization Program
Advancing the President’s Management                     The Logistics Modernization Program, a key
Agenda                                                   component of Army Transformation, will update
The President’s Management Agenda has great              our national-level logistics business practices and
relevance in the logistics arena. By improving their     supporting information technology. It will provide
management efﬁciency, all AWCF activities should         integrated logistics management capabilities such
be able to lower the rates they charge to customers.     as total asset visibility, a single source of data,
                                                         better forecasting accuracy and real-time access to
Strategic Management of Human Capital                    enterprise information. We also expect that LMP
A key element of successful personnel management         will measurably improve Army readiness. AMC
within the AWCF is providing people with                 completed initial implementation of the ﬁrst phase
information and trusting them to use it to the beneﬁt    in July 2003 as shown in Figure 19 on the following
of the organization as a whole. To that end, the         page. Deployment to 12 Working Capital Fund sites
AWCF has taken the following steps to empower            will be completed in FY 2006.
its Soldiers and civilian employees with greater
knowledge.                                               Expand Electronic Goverment
                                                         The President’s Management Agenda asserts that,
Workforce Revitalization
                                                         through electronic means, Government can both
The AWCF has a critical role in helping ensure the
                                                         reduce costs and provide better service. The AWCF
success of Army Transformation, but the ability of
                                                         accordingly, is pursuing electronic initiatives aimed
the AWCF workforce to perform its mission is in
                                                         at providing better service to its Soldiers and civilian
peril. The AWCF is afﬂicted by a growing number of
                                                         employees. An example of one such initiative is
retirement-driven shortages in vital areas, and after
                                                         described below.
more than a decade of cutbacks is facing serious skill
imbalances. The limited intake of new personnel          Logistics Enterprise Integration
furthermore means that employees now average             The Army’s Logistics Enterprise Integration involves
more than 20 years of service; unless someone is in      integrating several modernizing initiatives, including
place to inherit their legacy, as each staff member      LMP and the Global Combat Support System Army
leaves, knowledge and experience will be lost with       (GCSS Army) map, within the DoD Future Logistics
them.                                                    Enterprise (FLE). The FLE (also commonly
                                                         referred to as Business Enterprise Architecture
The Army Materiel Command is seeking to put in           (BEA)-Logistics, or “BEA-LOG”) has six principal
place a Workforce Revitalization Program that will       components: Total Lifecycle Systems Management
institute hiring programs for apprentices, interns,      (TLCSM), End-to-End Customer Support,
and multidisciplinary fellows. Using a range of          Condition-Based Maintenance, Depot Partnering,
innovative recruiting techniques, AMC will assess        Executive Agency, and Enterprise Integration. All
the abilities of applicants and new employees and        services must ensure that their enterprise integration
determine and address their development needs. The       efforts and architectures map to the FLE/BEA-LOG,
desired result is a viable and skilled workforce able    which in turn maps to the BEA. The desired outcome
to share the knowledge of experienced employees.         is that within DoD all services and the Defense
                                                         Logistics Agency (DLA) will operate a single,
Improved Financial Performance                           integrated solution, the technical and functional
During FY 2004, the AWCF built upon a number             architecture of which is focused on the warﬁghter.
of initiatives began in FY 2003 that will enable
the AWCF to make better use of its funds. In             The central objective of logistics enterprise
addition, the AWCF is also pursuing other long-          integration is the development, through collaborative
term initiatives aimed at putting more useful and        planning, knowledge management, and best
more reliable ﬁnancial information in the hands of       business practices, of a fully integrated knowledge
                                                         environment that builds, sustains, and generates
managers, with the aim of enabling them to make
                                                         warﬁghting capability. Logistics, ﬁnancial,
more efﬁcient use of resources.

                                                                                                               153
acquisition, and product data will be brought together                                             data available to both logisticians and system
in an environment that operates in a near seamless                                                 engineers. The timely creation of an environment
fashion from the soldier across the major Army                                                     for many participants that delivers vertical
commands, across the military services, across                                                     and horizontal visibility, that supports a robust
DoD, and across industry. Our business systems                                                     predicative capability, and that meets the demands
will capture and integrate the data ﬂowing from                                                    of the concept of warﬁghter operations in the future
automatic identiﬁcation technology and embedded                                                    battlespace is essential to Army Transformation.
weapons system diagnostics, and will make these

Figure 19. Logistics Modernization Program
      Institutional Risk                               Streamline Decision Processes, Financial Management Acquisition Excellence

                  FY 03                             FY 04                              FY 05                        FY 06
      1       2       3       4        1        2         3       4         1      2           3   4                                  LMP is in Pilot
                                                                                                                                      Stabilization Phase
                                                                                         2nd Deployment
                                                                                         Go-Live planned                              Making Steady Progress
                                            Pilot Stabilization                                                                       in Correcting Items to
                                            effort started                                                   3rd Deployment           Complete This Phase.
                                                                                                             Go-Live
                                  Pilot Go-Live                             Pilot Stabilization
                                                                            effort to be completed/
                                                                            validated                                                 Overall LMP is Rated
                                                                                                                                      Yellow
  Pilot                                             2nd Deployment                      3rd Deployment
  Communications-Electronics                        Aviation & Missle                   Tank-automotive & Armaments Command (TACOM)     As of 30 July 2004,
  Command (CECOM)                                   Command (AMCOM)                     Anniston Army Depot (ANAD)
  HQ Army Materiel Command (AMC)                    Corpus Christi Army Depot (CCAD)    Red River Army Depot (RRAD)                     584 of 722 items
  Tobyhanna Army Depot (TYAD)                       Letterkenny Army Depot (LEAD)       Army Field Support Command (AFSC)
  Defense Finance & Accounting Service (DFAS)                                           Joint Munitions Command (JMC)
                                                                                                                                        completed (81
                                                                                                                                        percent through Pilot
  Description: AIR 13 - Log Modernization Program                                                                                       Stabilization).
  Provide the Army with integrated logistics management capabilities such as total asset visibility, a single
  source or data, improved forecasting accuracy, and realtime access to enterprise information.                                         Pilot
                                                                                                                                        Stabilization/Financial
  Parameter:
  Green: On schedule, Yellow: 1 Quarter behind schedule, Red: 2 Quarters behind schedule                                                Correction will be
                                                                                                                                        completed end of
  Metric: Milestones planned/achieved                                                                                                   October
  Owner: AMC
                                                                                                                                                       *As of July 2004.




Working Capital Fund Introduction Page Photos

[Large Photo]
As the sun rises over Baghdad, 1st Lt. Matt Sun and Chief Warrant Ofﬁcer Pete Horton conduct a mission in an OH-58D Kiowa
Warrior helicopter. This photo appeared on www.army.mil. By CW3 Chris Wilson

[Top Inset Photo]
Engine Repair

[Middle Inset Photo]
Helicopter Repair – Corpus Christ Army Depot, TX.

[Bottom Inset Photo]
Abrams Tank Repair shop – Anniston Army Depot, AL.




Working Capital Fund – Management’s Discussion & Analysis — 154
Army Working Capital Fund Principal
Financial Statements, Notes, and
Supplementary Information




                                      155
                          Limitations
                          Limitations of the Financial Statements
                          The ﬁnancial statements have been prepared to report the ﬁnancial
                          position and results of operations for the entity, pursuant to the
                          requirements of Title 31, United States Code, section 3515(b).

                          While the statements have been prepared from the books and
                          records of the entity, in accordance with the formats prescribed
                          by the Ofﬁce of Management and Budget, the statements are
                          in addition to the ﬁnancial reports used to monitor and control
                          budgetary resources which are prepared from the same books and
                          records.

                          To the extent possible, the ﬁnancial statements have been prepared
                          in accordance with federal accounting standards. At times, the
                          Department is unable to implement all elements of the standards
                          due to ﬁnancial management systems limitations. The Department
                          continues to implement system improvements to address these
                          limitations. There are other instances when the Department’s
                          application of the accounting standards is different from the
                          auditor’s application of the standards. In those situations, the
                          Department has reviewed the intent of the standard and applied it in
                          a manner that management believes fulﬁlls that intent.

                          The statements should be read with the realization that they are for
                          a component of the United States Government, a sovereign entity.
                          One implication of this is that the liabilities cannot be liquidated
                          without legislation that provides resources to do so.


                          Limitations Concerning National Defense Property, Plant
                          and Equipment
                          The Federal Accounting Standards Advisory Board (FASAB)
                          revised the Statement of Federal Financial Accounting Standards
                          No. 6 to require the capitalization and depreciation of military
                          equipment (formerly National Defense Property, Plant and
                          Equipment/ND PP&E) for ﬁscal years (FY) 2003 and beyond, and
                          encouraged early implementation.




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 156
Department of Defense- Army Working Capital Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)



ASSETS¬(Note¬2)                                             2004 Consolidated    2003 Consolidated
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                         $948,463            $1,548,546
      Non-Entity Seized Iraqi Cash                                           0                    0
      Non-Entity-Other                                                       0                    0
Investments (Note 4)                                                         0                    0
Accounts Receivable (Note 5)                                           444,923              411,254
Other Assets (Note 6)                                                       79                  329
Total Intragovernmental Assets                                      $1,393,465           $1,960,129
Cash and Other Monetary Assets (Note 7)                                     $0                   $0
Accounts Receivable (Note 5)                                            13,482               31,176
Loans Receivable (Note 8)                                                    0                    0
Inventory and Related Property (Note 9)                             13,916,672           12,131,811
General Property, Plant and Equipment (Note 10)                        899,438              926,751
Investments (Note 4)                                                         0                    0
Other Assets (Note 6)                                                  265,122              269,877
TOTAL¬ASSETS                                                       $16,488,179          $15,319,744

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                            $159,150             $435,586
Debt (Note 13)                                                               0                    0
Environmental Liabilities (Note 14)                                          0                    0
Other Liabilities (Note 15 & Note 16)                                   67,660               94,499
Total Intragovernmental Liabilities                                   $226,810             $530,085
Accounts Payable (Note 12)                                            $372,054             $342,365
Military Retirement Benefits and Other Employment-Related              304,976              320,654
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                          0                    0
Loan Guarantee Liability (Note 8)                                            0                    0
Other Liabilities (Note 15 and Note 16)                                213,452              231,004
Debt Held by Public                                                          0                    0
TOTAL¬LIABILITIES                                                   $1,117,292           $1,424,108

NET¬POSITION
Unexpended Appropriations (Note 18)                                        $53              $11,960
Cumulative Results of Operations                                    15,370,834           13,883,676
TOTAL¬NET¬POSITION                                                 $15,370,887          $13,895,636
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                 $16,488,179          $15,319,744




                                                                                                      157
Department of Defense- Army Working Capital Fund
 CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)



                                                                         2004 Consolidated          2003 Consolidated
¬¬¬Program¬Costs
      Intragovernmental Gross Costs                                                 $2,847,994               $2,651,517
      (Less: Intragovernmental Earned Revenue)                                     (8,456,053)             (10,283,891)
      Intragovernmental Net Costs                                                 ($5,608,059)             ($7,632,374)
      Gross Costs With the Public                                                    8,161,299                7,334,031
      (Less: Earned Revenue From the Public)                                       (4,951,052)                (222,087)
      Net Costs With the Public                                                     $3,210,247               $7,111,944
      Total Net Cost                                                              ($2,397,812)               ($520,430)
¬¬¬Cost¬Not¬Assigned¬to¬Programs                                                             0                        0
¬¬¬(Less: Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                       0                        0
¬¬¬Net¬Cost¬of¬Operations                                                         ($2,397,812)               ($520,430)




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 158
Department of Defense- Army Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



                                                         2004 Consolidated     2003 Consolidated
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
Beginning¬Balances                                              $13,883,676           $11,913,102
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                 0                     0
Beginning Balance, Restated                                      13,883,676            11,913,102
Prior Period Adjustments - Not Restated (+/-)                             0                     0
Beginning¬Balances,¬as¬adjusted                                 $13,883,676           $11,913,102
Budgetary¬Financing¬Sources:
Appropriations received                                                    0                     0
Appropriations transferred-in/out (+/-)                                    0                     0
Other adjustments (rescissions, etc) (+/-)                                 0                     0
Appropriations used                                                  231,207              267,083
Nonexchange revenue                                                        0                     0
Donations and forfeitures of cash and cash equivalents                     0                     0
Transfers-in/out without reimbursement (+/-)                     (1,448,600)                     0
Other budgetary financing sources (+/-)                              175,918              (63,903)
Other¬Financing¬Sources:
Donations and forfeitures of property                                      0                    0
Transfers-in/out without reimbursement (+/-)                               0              908,588
Imputed financing from costs absorbed by others                      130,821              121,312
Other (+/-)                                                                0              217,064
Total¬Financing¬Sources                                           ($910,654)           $1,450,144
Net¬Cost¬of¬Operations¬(+/-)                                     (2,397,812)            (520,430)
Ending¬Balances                                                 $15,370,834           $13,883,676

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                  $11,960               $30,043
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                 0                     0
Beginning Balance, Restated                                          11,960                30,043
Prior Period Adjustments - Not Restated (+/-)                             0                     0
Beginning¬Balances,¬as¬adjusted                                     $11,960               $30,043
Budgetary¬Financing¬Sources:
Appropriations received                                              219,300               249,000
Appropriations transferred-in/out (+/-)                                    0                     0
Other adjustments (rescissions, etc) (+/-)                                 0                     0
Appropriations used                                                (231,207)             (267,083)
Nonexchange revenue                                                        0                     0
Donations and forfeitures of cash and cash equivalents                     0                     0
Transfers-in/out without reimbursement                                     0                     0
Other budgetary financing sources (+/-)                                    0                     0
Other¬Financing¬Sources:
Donations and forfeitures of property                                      0                     0
Transfers-in/out without reimbursement (+/-)                               0                     0
Imputed financing from costs absorbed by others                            0                     0
Other (+/-)                                                                0                     0
Total¬Financing¬Sources                                            ($11,907)             ($18,083)
Net¬Cost¬of¬Operations¬(+/-)                                               0                    0
Ending¬Balances                                                          $53               $11,960




                                                                                                     159
Department of Defense- Army Working Capital Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)

                                                              BUDGETARY RESOURCES                     NON-BUDGETARY RESOURCES
                                                        2004 Combined         2003 Combined         2004 Combined   2003 Combined
BUDGETARY¬FINANCING¬ACCOUNTS
Budget Authority:
Appropriations received                                          $219,300              $249,000                $0               $0
Borrowing authority                                                      0                    0                 0                0
Contract authority                                               2,106,368               67,627                 0                0
Net transfers (+/-)                                            (1,448,600)                    0                 0                0
Other                                                                    0                    0                 0                0
Unobligated balance:
Beginning of period                                             2,093,703             1,708,247                 0               0
Net transfers, actual (+/-)                                             0                     0                 0               0
Anticipated Transfers Balances                                          0                     0                 0               0
Spending authority from offsetting collections:
Earned                                                                   0                    0                 0                0
Collected                                                      12,265,860             9,644,303                 0                0
Receivable from Federal sources                                   (53,776)              236,175                 0                0
Change in unfilled customer orders                                       0                    0                 0                0
Advance received                                                  (17,246)            (179,239)                 0                0
Without advance from Federal sources                            (128,900)             2,351,152                 0                0
Anticipated for the rest of year, without advances                       0                    0                 0                0
Transfers from trust funds                                               0                    0                 0                0
Subtotal                                                      $12,065,938           $12,052,391                $0               $0
Recoveries of prior year obligations                              499,733               587,959                 0                0
Temporarily not available pursuant to Public Law                         0                    0                 0                0
Permanently not available                                                0                    0                 0                0
Total¬Budgetary¬Resources                                     $15,536,442           $14,665,224                $0               $0

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                                 $0             $249,028                 $0               $0
Reimbursable                                                   14,006,202            12,322,493                 0                0
Subtotal                                                      $14,006,202           $12,571,521                $0               $0
Unobligated balance:
Apportioned                                                     1,530,241             2,093,704                 0                0
Exempt from apportionment                                                0                     0                0                0
Other available                                                        (1)                   (1)                0                0
Unobligated Balances Not Available                                       0                     0                0                0
Total,¬Status¬of¬Budgetary¬Resources                          $15,536,442           $14,665,224                $0               $0

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                   $1,898,332              $918,667                $0               $0
Obligated Balance transferred, net (+/-)                                0                     0                 0                0
Obligated Balance, Net - end of period:
Accounts receivable                                              (462,602)             (516,379)                0               0
Unfilled customer order from Federal sources                   (4,522,713)           (4,651,613)                0               0
Undelivered orders                                               8,334,654             6,085,073                0               0
Accounts payable                                                   618,741               981,250                0               0
Outlays:
Disbursements                                                  11,619,397              8,416,571                0                0
Collections                                                  (12,248,614)            (9,465,064)                0                0
Subtotal                                                       ($629,217)           ($1,048,493)               $0               $0
Less: Offsetting receipts                                               0                      0                0                0
Net¬Outlays                                                    ($629,217)           ($1,048,493)               $0               $0




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 160
Department of Defense- Army Working Capital Fund
COMBINED STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)



Resources¬Used¬to¬Finance¬Activities:                                                2004 Combined      2003 Combined
Budgetary Resources Obligated
Obligations incurred                                                                     $14,006,202        $12,571,521
Less: Spending authority from offsetting collections
     and recoveries (-)                                                                  (12,565,671)       (12,640,348)
Obligations net of offsetting collections and recoveries                                   $1,440,531          ($68,827)
Less: Offsetting receipts (-)                                                                       0                  0
Net obligations                                                                            $1,440,531          ($68,827)
Other Resources
Donations and forfeitures of property                                                              0                  0
Transfers in/out without reimbursement (+/-)                                                       0            908,589
Imputed financing from costs absorbed by others                                              130,821            121,312
Other (+/-)                                                                                        0            217,064
Net other resources used to finance activities                                               130,821          1,246,965
Total¬resources¬used¬to¬finance¬activities                                                $1,571,352         $1,178,138

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
Change in budgetary resources obligated for goods
services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                   ($2,497,681)       ($3,301,433)
Unfilled Customer Orders                                                                    (146,147)          2,171,911
Resources that fund expenses recognized in prior periods                                     (23,337)             (2,765)
Budgetary offsetting collections and receipts that                                                  0                   0
      do not affect net cost of operations
Resources that finance the acquisition of assets                                          (6,214,549)          (324,219)
Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-                  0                 0
Other (+/-)                                                                                     6,872                 0
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations             ($8,874,842)       ($1,456,506)

Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                               ($7,303,490)        ($278,368)

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
      not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period
Increase in annual leave liability                                                            $1,376             $1,995
Increase in environmental and disposal liability                                                   0                   0
Upward/Downward reestimates of credit subsidy expense (+/-)                                        0                   0
Increase in exchange revenue receivable from the the public (-)                                    0             (6,079)
Other (+/-)                                                                                      172             16,466
Total components of Net Cost of Operations that                                               $1,548            $12,382
      will require or generate resources in future periods
Components not Requiring or Generating Resources
Depreciation and amortization                                                                 82,909             194,093
Revaluation of assets or liabilities (+/-)                                                   257,468           (448,537)
Other (+/-)
Trust Fund Exchange Revenue                                                                        0                   0
Cost of Goods Sold                                                                         5,003,845                   0
Operating Material & Supplies Used                                                                 0                   0
Other                                                                                      (440,092)                   0
Total components of Net Cost of Operations that
      will not require or generate resources                                             $4,904,130          ($254,444)
Total¬components¬of¬net¬cost¬of¬operations¬that
      will¬not¬require¬or¬generate¬resources¬in¬the¬current period                        $4,905,678         ($242,062)
Net¬Cost¬of¬Operations                                                                   ($2,397,812)        ($520,430)




                                                                                                                       161
Note 1.               Signiﬁcant Accounting Policies
1.A. Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the
Army Working Capital Fund (AWCF), as required by the Chief Financial Ofﬁcers Act of 1990, expanded by
the Government Management Reform Act of 1994, and other appropriate legislation. The ﬁnancial statements
have been prepared from the books and records of the AWCF in accordance with the Department of Defense
(DoD) Financial Management Regulation, Ofﬁce of Management and Budget (OMB) Bulletin No. 01-09,
Form and Content of Agency Financial Statements, and, to the extent possible, Federal Generally Accepted
Accounting Principles (GAAP).

The accompanying ﬁnancial statements account for all resources for which the AWCF is responsible. Under
the above guidance, classiﬁed assets, programs, and operations have been excluded from the statement, or
otherwise aggregated and reported, in such a manner that they are no longer classiﬁed. The AWCF ﬁnancial
statements are in addition to the ﬁnancial reports also prepared by the AWCF pursuant to OMB directives
that are used to monitor and control the AWCF’s use of budgetary resources.

The AWCF is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due
to limitations of its ﬁnancial and nonﬁnancial management processes and systems. The Army derives its
reported values and information for major asset and liability categories largely from nonﬁnancial feeder
systems, such as inventory and logistics systems. These systems were designed to support reporting
requirements focusing on maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing ﬁnancial statements in accordance with Federal GAAP. As a result,
the AWCF cannot currently implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The
AWCF continues to implement process and system improvements addressing the limitations of its ﬁnancial
and nonﬁnancial feeder systems. Further explanation of these ﬁnancial statement elements is provided in the
applicable note.

The accounting structure of federal agencies is designed to reﬂect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned, and expenses
are recognized when incurred, without regard to receipt or payment of cash. The budgetary accounting
principles, on the other hand, are designed to recognize the obligation of funds according to legal
requirements, which in many cases is prior to the occurrence of an accrual-based transaction. The recognition
of budgetary accounting transactions is essential for compliance with legal constraints and controls over the
use of federal funds.


1.B. Mission of the Reporting Entity
The AWCF is part of the Defense Working Capital Fund, and is divided into three separate business areas:
Supply Management, Depot Maintenance, and Ordnance. As of October 1, 2003, a fourth business area,
Information Services, was closed out of the AWCF and now operates as a part of the Army General Fund.
These separate business areas ensure delivery of critical items, such as petroleum products, repair parts,
consumable supplies, depot maintenance services, munitions and weapons to support the deployment and
projection of lethal force as and when required by the nation.


1.C. Appropriations and Funds
The Army’s appropriations and funds are divided into the general, working capital (revolving funds), trust,
special, and deposit funds. These appropriations and funds are used to fund and report how the resources
have been used in the course of executing the Army’s missions.

Working capital funds (revolving funds) receive their initial working capital through an appropriation or
a transfer of resources from existing appropriations or funds and use those capital resources to ﬁnance


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 162
the initial cost of products and services. Financial resources to replenish the initial working capital and to
permit continuing operations are generated by the acceptance of customer orders. The AWCF operates with
ﬁnancial principles that provide improved cost visibility and accountability to enhance business management
and improve the decision-making process. The activities provide goods and services on a reimbursable
basis. Receipts derived from operations generally are available in their entirety for use without further
congressional action.


1.D. Basis of Accounting
The AWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP.
For FY 2004, the AWCF’s ﬁnancial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the AWCF’s ﬁnancial and nonﬁnancial feeder systems and processes were
designed and implemented prior to the issuance of Federal GAAP for federal agencies and, therefore, were
not designed to collect and record ﬁnancial information on the full accrual accounting basis as required by
Federal GAAP.

The AWCF has undertaken efforts to determine the actions required to bring all of its ﬁnancial and
nonﬁnancial feeder systems and processes into compliance with all elements of Federal GAAP. One such
action is the current revision of its accounting systems to record transactions based on the U.S. Standard
General Ledger (USSGL). At this time, not all AWCF accounting systems are USSGL compliant. In
addition, with the full implementation of the Logistics Modernization Program (LMP), the AWCF will be
in compliance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government.” As of December 31, 2003, LMP has been
implemented at Tobyhanna Army Depot, Communications and Electronics Command, Soldiers System
Command, and selected Army Materiel Command Headquarter activities. LMP will not be fully implemented
until the end of FY 2005. Until such time as all of the processes are updated to collect and report ﬁnancial
information as required by Federal GAAP, some of the AWCF’s ﬁnancial data will be based on budgetary
transactions (obligations, disbursements, collections), and nonﬁnancial feeder systems. For example, most
ﬁnancial information presented on the Statement of Net Costs is based on accrued costs; however, some of
the ﬁnancial information is based on obligations and disbursements.

In addition, the Army identiﬁes programs based upon the major appropriation groups provided by Congress.
The Army does not, however, accumulate costs for major programs based on performance measures because
its ﬁnancial processes and systems do not account for costs in line with established measures. The Army
is reviewing available data and attempting to develop a cost reporting methodology that provides the cost
information required by the Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial
Cost Accounting Concepts and Standards for the Federal Government.


1.E. Revenues and Other Financing Sources
The AWCF’s revenue is recognized according to the percentage of completion method for Depot
Maintenance and Ordnance activities. Revenue for Supply Management activities is recognized when an
inventory item is sold. Prices set for products and services offered through the AWCF are intended to recover
the full costs (cost plus administrative fees) incurred by these activities. Unearned revenue is recorded as
deferred revenue until earned.

Other ﬁnancing sources reported by the AWCF do not include non-monetary support provided by our allies
for common defense and mutual security. The U.S. has agreements with foreign countries that include both
direct and indirect sharing of costs that each country incurs in support of the same general purpose. Examples
include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or
where the U.S. ﬂeet is serviced in a port. The DoD is reviewing these types of ﬁnancing and cost reductions
in order to establish accounting policies and procedures to identify what, if any, of these costs are appropriate
for disclosure in the AWCF’s ﬁnancial statements in accordance with Federal GAAP. Recognition of support


                                                                                                              163
provided by host nations would affect both ﬁnancing sources and expense recognition.


1.F. Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the AWCF’s ﬁnancial and nonﬁnancial feeder systems were not designed to
collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments are made
for major items such as payroll expenses and accounts payable. Expenditures for capital and other long-term
assets are not recognized as expenses in the AWCF’s operations until depreciated as in the case of property,
plant and equipment (PP&E). Net increases or decreases in unexpended appropriations are recognized as a
change in the net position. Certain expenses, such as annual leave earned but not taken, are recognized in the
period in which payments are made.

The AWCF adjusted operating expenses as a result of the elimination of balances between DoD Components.
See Note 19.A, General Disclosures related to the Statement of Net Cost, for disclosure of elimination
amounts.


1.G. Accounting for Intragovernmental Activities
The AWCF, as an agent of the Federal government, interacts with and is dependent upon the ﬁnancial
activities of the Federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results
of all ﬁnancial decisions applicable to the AWCF as though it was a stand-alone entity.

The AWCF’s proportionate share of public debt and related expenses of the Federal government are not
included. Debt issued by the Federal government and the related costs are not apportioned to federal agencies.
The AWCF’s ﬁnancial statements, therefore do not report any portion of the public debt or interest, nor do the
ﬁnancial statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
ﬁnancing may have been obtained through the issuance of public debt, interest costs have not been capitalized
since the Department of Treasury does not allocate such interest costs to the beneﬁting agencies.

The AWCF’s civilian employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employees Retirement Systems (FERS). Employees and personnel covered by FERS also have varying
coverage under Social Security. The AWCF funds a portion of civilian and military pensions. Reporting
civilian pensions under CSRS and FERS is the responsibility of the Ofﬁce of Personnel Management
(OPM). The AWCF recognizes an imputed expense for the portion of civilian employee pensions and other
retirement beneﬁts funded by the OPM in the Statement of Net Cost and recognizes corresponding imputed
revenue from the civilian employee pensions and other retirement beneﬁts in the Statement of Changes in Net
Position.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within
the AWCF must be eliminated for consolidated ﬁnancial reporting purposes. However, the entire Federal
government, including the AWCF, cannot accurately identify all intragovernmental transactions by its related
components or activities. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating
transactions between components or activities of the AWCF. Beginning in FY 1999, seller entities within
the AWCF provided summary seller-side balances for revenue, accounts receivable, transfers-in/out, and
unearned revenue to the buyer-side internal AWCF accounting ofﬁces. In most cases, the buyer-side records
have been adjusted to recognize unrecorded costs and accounts payable. The AWCF intragovernmental
balances are then eliminated.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating
transactions between the DoD and other federal agencies. In September 2000, the FMS issued the “Federal
Intragovernmental Transactions Accounting Policies and Procedures Guide.” The AWCF was not able to


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 164
fully implement the policies and procedures in this Guide relating to reconciling intragovernmental assets,
liabilities, revenues, and expenses for non-ﬁduciary transactions. However, the AWCF was able to implement
the policies and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide,”
as updated by the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide”
issued in October 2002 for reconciling intragovernmental transactions. These transactions pertain to Federal
Employees’ Compensation Act transactions with the Department of Labor (DOL), and beneﬁt program
transactions with the OPM.


1.H. Transactions with Foreign Governments and International Organizations
Each year, the AWCF sells defense items and services to foreign governments and international
organizations, primarily under the provisions of the Arms Export Control Act of 1976. Under the provisions
of the Act, the DoD has the authority to sell defense articles and services to foreign countries and
international organizations generally at no proﬁt or loss to the U.S. government. Customers may be required
to make payments in advance.


1.I. Funds with the U.S. Treasury
The AWCF’s ﬁnancial resources are maintained in U.S. Treasury accounts. DFAS, Military Services, U.S.
Army Corp of Engineers (USACE) disbursing stations as well as the Department of State ﬁnancial service
centers process the majority of cash collections, disbursements, and adjustments for the Federal government
worldwide. Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury
on check issues, electronic fund transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
by appropriation, on interagency transfers, collections received, and disbursements issued. The Department
of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
maintained in the Treasury’s system. Differences between the AWCF’s and Treasury’s records sometime
result and are subsequently reconciled. Material disclosures are provided in Note 3. Differences between
accounting ofﬁces’ detail-level records and Treasury’s FBWT accounts are disclosed in Note 1.Y (Problem
Disbursements) speciﬁcally, differences caused by in-transit disbursements and unmatched disbursements
which are not recorded in the accounting ofﬁces’ detail-level records.


1.J. Foreign Currency
Not applicable


1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivables
from other federal agencies and the public. Federal accounts receivable arise generally from the provision
of goods and services to other federal agencies and, with the exception of occasional billing disputes, are
considered to be fully collectible. Receivables from the public generally arise from the provision of goods
and services to state, local, and foreign governments. Refunds receivable, however, are overpayments by
the Federal government in the process of being collected. An allowance for doubtful accounts is established
for reporting purposes based on past experience in the collection of accounts receivable and analysis of
outstanding balances by fund type. The AWCF does not recognize an allowance for estimated uncollectible
amounts from other federal agencies. Claims against other federal agencies are to be resolved between the
agencies. The Army Working Capital Fund (AWCF) recognizes an allowance of 50 percent for all non-
federal debt between 180 days and two years old and a 100 percent allowance for all non-federal debt over
two years old. The allowance will be updated annually, based on the aged accounts receivable at the end of
the 2nd Quarter. Material disclosures are provided in Note 5, Accounts Receivable.




                                                                                                          165
1.L. Loans Receivable
Not applicable


1.M. Inventories and Related Property
Not all of the AWCF inventory reported in the ﬁnancial statements is valued using the same valuation
method. The AWCF inventories are reported using the Latest Acquisition Cost (LAC), which approximates
historical cost, adjusted for holding gains and losses, and Moving Average Cost (MAC), which computes
a new average cost each time a purchase is made. The AWCF uses the LAC method because its inventory
systems were designed for material management rather than accounting, except for activities that have
transitioned to the Logistics Modernization Program (LMP). The systems provide accountability and
visibility over inventory items. They do not maintain the exact historical cost data necessary to comply with
SFFAS No. 3, “Accounting for Inventory and Related Property,” nor can they directly produce ﬁnancial
transactions using the USSGL, as required by the Federal Financial Management Improvement Act of 1996.
The AWCF transition to LMP will also allow the use of a MAC methodology for valuing inventory that,
when fully implemented, will allow the AWCF to comply with SFFAS No. 3. (See Note 9, Inventory and
Related Property)

SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future
sale. There is no management or valuation difference between the two USSGL accounts. Further, the
DoD manages only military or government-speciﬁc material under normal conditions. Items commonly
used in and available from the commercial sector are not managed in the DoD material management
activities. Operational cycles are irregular, and the military risks associated with stock-out positions have
no commercial parallel. The AWCF holds material based on military need and support for contingencies.
Therefore, the AWCF does not attempt to account separately for items held for current or future sale.

In accordance with new DoD policy, the Army accounts for condemned material as excess, obsolete, and
unserviceable. The net value of this type of condemned material is zero, because the costs of disposal are
greater than the potential scrap value. Potentially redistributable material, presented in previous years as
excess, obsolete, and unserviceable, is included in held for use or held for repair categories according to its
condition.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used
to produce the reported values. Material disclosures related to inventory and related property are provided in
Note 9, Inventory and Related Property.


1.N. Investments in U.S. Treasury Securities
Not applicable


1.O. General Property, Plant and Equipment
General Property, Plant & Equipment (PP&E) assets are capitalized at historical acquisition cost plus
capitalized improvements when an asset has a useful life of two or more years, and when the acquisition
cost equals or exceeds the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD
capitalization threshold of $100,000 for General PP&E are required to be capitalized. All General PP&E,
other than land, is depreciated on a straight-line basis. Land is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FY 1993,
FY 1994, and FY 1995 respectively, and an estimated useful life of two or more years was capitalized. These
assets remain capitalized and reported on AWCF ﬁnancial statements. General PP&E previously capitalized
at amounts below $100,000 were written off General Fund ﬁnancial statements in FY 1998.



Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 166
For the AWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E,
whether or not it meets the deﬁnition of any other PP&E categories. For Heritage Assets and Stewardship
Land owned or maintained on an AWCF installation are reported in the Supplemental Stewardship Report of
the applicable military department. Material disclosures are provided in Note 10, General PP&E, Net.

Internal use software is capitalized at cost if the acquisition cost is $100,000 or more. For commercial
off-the-shelf software, the capitalized costs include the amount paid to the vendor for the software; for
contractor-developed software it includes the amount paid to a contractor to design, program, install, and
implement the software. Capitalized costs for internally developed software include the full cost (direct
and indirect) incurred during the software development stage. The estimated useful life for calculating
amortization of software is 2 to 5 years using the straight-line method.


1.P. Advances and Prepayments
The AWCF records payments made prior to the receipt of goods and services as advances or prepayments
and reports them as assets on the Balance Sheet. Advances and prepayments are recognized as expenditures
and expenses when the related goods and services are received.


1.Q. Leases
Not applicable


1.R. Other Assets
The AWCF conducts business with commercial contractors under two primary types of contracts--ﬁxed price
and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts
can cause, the AWCF provides ﬁnancing payments. One type of ﬁnancing payment that the AWCF makes, for
real property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting
for Selected Assets and Liabilities,” such payments are treated as construction-in-process and are reported on
the General PP&E line and in Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation, the AWCF makes ﬁnancing payments under ﬁxed
price contracts that are not based on a percentage of completion. The AWCF reports these ﬁnancing payments
as advances or prepayments in the “Other Assets” line item. The AWCF treats these payments as advances or
prepayments because the AWCF becomes liable only after the contractor delivers the goods in conformance
with the contract terms. If the contractor does not deliver a satisfactory product, the AWCF is not obligated to
reimburse the contractor for its costs and the contractor is liable to repay the AWCF for the full amount of the
advance.

The DoD has completed a review of all applicable federal accounting standards; applicable public laws on
contract ﬁnancing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code of
Federal Regulations Part 1315, “Prompt Payment.” The DoD has concluded that SFFAS No. 1 does not fully
or adequately address the subject of progress payment accounting and is considering what further action is
appropriate.


1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” deﬁnes a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss
to the AWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. A
contingency is recognized as a liability when a past event or exchange transaction has occurred, a future loss
is probable and the amount of loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist


                                                                                                                167
but there is at least a reasonable possibility that a loss or additional loss will be incurred. Loss contingencies
include the collectibility of receivables, pending or threatened litigation, and possible claims and assessments.
The Army’s loss contingencies arising as a result of pending or threatened litigation or claims and
assessments occur due to events such as aircraft, ship and vehicle accidents; medical malpractice; property or
environmental damages; and contract disputes.


1.T. Accrued Leave
Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a liability.
The liability reported at the end of the ﬁscal year reﬂects the current pay rates.


1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent budget authority, which is unobligated and has not been rescinded or withdrawn, and
funds obligated but for which legal liabilities have not been incurred.

Cumulative results of operations for AWCF represents the excess of revenues over expenses less refunds to
customers and returns to the U.S. Treasury since fund inception.


1.V. Treaties for Use of Foreign Bases
Not applicable


1.W. Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position
and results of operations for the 4th Quarter, FY 2004. Financial statement ﬂuctuations greater than two
percent of total assets on the Balance Sheet and/or greater than ten percent between the 4th Quarter, FY 2003
and the 4th Quarter, FY 2004 are explained within the Notes to the Financial Statements.


1.X. Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The
ﬁnancial statements do not reﬂect this liability for payment for goods or services not yet delivered.


1.Y. Problem Disbursements
                                                              September             September       September   Decrease/Increase
(Amounts in thousands)                                             2002                  2003            2004   from 2003 to 2004
1. Total Problem Disbursements
      Absolute Unmatched Disbursements                           $17,301              $46,298         $25,484           ($20,814)
      Negative Unliquidated Obligations                              4,476              2,850           3,810                 960
2. Total In-transit Disbursements, Net                           $65,368              $69,687        $135,730             $66,043
3. Other Information Related to Problem Disbursements and In-transit Disbursement

Deﬁnitions:
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system.

Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment
is greater than the amount of the obligation recorded in the ofﬁcial accounting system. These payments use
available funds for valid receiving reports on delivered goods and services under valid contracts.



Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 168
In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on
behalf of an accountable activity but not yet attempted to be posted in an accounting system.

Aged UMDs and NULOs:
The Army absolute value UMDs, NULOs, and a negative $1,798 thousand in aged in-transit disbursements
(of the total net in-transit disbursements of $135,730 thousand) represent problem disbursements. UMDs and
NULOs are considered aged immediately, while in-transits are considered normal business activity up to the
30-day aging category. After 30-days, they become perceived as problem disbursements.

Fluctuations in the schedule represent normal activity for UMDs and NULOs based on the inﬂow of
undistributed disbursements received for processing. Total intransit balances have increased at the primary
accounting sites supporting the war, contingency operations and supply and materiel replenishment.

Note 2.                  Nonentity Assets
As of September 30                                         2004              2003
(Amounts in thousands)
1. Intragovernmental Assets
   A. Fund Balance with Treasury                                   $0                $0
   B. Investments                                                   0                 0
   C. Accounts Receivable                                           0                 0
   D. Other Assets                                                  0                 0
   E. Total Intragovernmental Assets                               $0                $0

2. Non-Federal Assets
   A. Cash and Other Monetary Assets                               $0                $0
   B. Accounts Receivable                                           0                 0
   C. Loans Receivable                                              0                 0
   D. Inventory & Related Property                                  0                 0
   E. General PP&E                                                  0                 0
   F. Investments                                                   0                 0
   G. Other Assets                                                  0                 0
   H. Total Non-Federal Assets                                     $0                $0


3. Total Non-Entity Assets                                         $0                $0

4. Total Entity Assets                                    $16,488,179        $15,319,744


5. Total Assets                                           $16,488,179        $15,319,744

Assets are categorized as:

Nonentity asset are assets held by an entity but are not available for use in the operations of the entity. The
Army Working Capital Fund (AWCF) does not have nonentity assets.

Entity assets are resources that the AWCF has the authority to use or where management is legally obligated
to use funds to meet entity obligations.




                                                                                                                  169
Note Reference
For additional line item discussion, see:
Note 3, Fund Balance With Treasury
Note 5, Accounts Receivable
Note 6, Other Assets
Note 9, Inventory and Related Property
Note 10, General PPE, Net

Note 3.A.                Fund Balance with Treasury
As of September 30                                                                      2004             2003
(Amounts in thousands)
1. Fund Balances
   A. Appropriated Funds                                                                        $53               $0
   B. Revolving Funds                                                                       948,410        1,548,546
   C. Trust Funds                                                                                 0                0
   D. Other Fund Types                                                                            0                0
   E. Total Fund Balances                                                                  $948,463       $1,548,546

2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                                                            $948,463       $1,548,546
   B. Fund Balance per Army Working Capital Fund                                            948,463        1,548,546

3. Reconciling Amount                                                                               $0           $0

Fluctuations and/or Abnormalities
Appropriated Funds increased $53 thousand, or 100 percent, from FY 2003 to FY 2004. This balance
includes FY 2000 appropriations that have not been expended and were reported in Revolving Funds in FY
2003. All Army Working Capital Fund (AWCF) FY 2004 appropriations received have been obligated and
expended.

The Fund Balance With Treasury (FBWT) available for the AWCF decreased by $600,083 thousand, or 39
percent, from FY 2003 to FY 2004. In FY 2004, the AWCF eliminated credit on equipment returns from
Operations Iraqi Freedom and Enduring Freedom to compensate for higher current and future repair and
replacement costs. Additional funds were also realized from increased sales in support of the contingency
missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. In addition, the AWCF received
direct appropriations of $105,400 thousand for war reserves and $113,900 thousand received for industrial
mobilization capacity, totaling $219,300 thousand.

During the 2nd Quarter FY 2004, Program Budget Decision 614 transferred $41,600 thousand to the Defense
Commissary Agency. Also, during the 3rd Quarter, Defense Reprogramming Action FY 04-60 IR transferred
$107,000 thousand and FY 04-68 IR transferred $1,050,000 thousand to the Army General Fund. In 4th
Quarter 2004, Defense Reprogramming Action FY 04-81 IR transferred $250,000 thousand to the Army
General Fund.


Other Disclosures
Defense Finance and Accounting Service increased ﬁeld-reported data by $1,917 thousand to agree with the
Fund Balance With Treasury reported on the Treasury trial balance.

The deposit differences are reconcilable differences reported by the Treasury or the Army. The Army has $60
thousand in deposit differences greater than 180 days old as of September 30, 2004. These differences are
expected to clear by November 2004.

The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 170
amounts recorded by the Treasury but not reported by the organization. The Army had no IPAC differences
greater than 180 days old as of June 30, 2004.

Automated reconciliation tools have virtually eliminated all existing differences for the Army. Field sites
requiring additional documentation to record the transaction in their accounting system, accounting errors, or
timing differences between disbursing and Treasury cut-off dates are the only reasons for an IPAC difference
to exist today.


Note Reference
See Note 1.I, Funds with the U.S. Treasury

Note 3.B.                Disclosures Related to Suspense/Budget Clearing Accounts
The Suspense/Budget Clearing Accounts are maintained and reported by the Army General Fund. Some
transactions relating to the AWCF may be in suspense accounts, but are not identiﬁable. When they are
identiﬁed to the AWCF, they will be transferred from the suspense/clearing account to the correct Treasury
appropriation.

Note 4.                  Investments
Not applicable.

Note 5.                  Accounts Receivable
                                                        2004                                 2003
As of September 30                                Allowance For
(Amounts in thousands)               Gross          Estimated           Accounts          Accounts
                                   Amount Due     Uncollectibles      Receivable, Net   Receivable, Net
1. Intra-governmental
   Receivables:                        $444,923                N/A           $444,923          $411,254
2. Non-Federal Receivables
     (From the Public):                  26,438            (12,956)            13,482            31,176
3. Total Accounts Receivable:          $471,361           $(12,956)          $458,405          $442,430

4. Allowance method:
The Army Working Capital Fund (AWCF) recognizes an allowance of 50 percent for all non-federal debt
between 180 days and two years old and a 100 percent allowance for all non-federal debt over two years old.
The allowance will be updated annually, based on the aged accounts receivable at the end of the 2nd Quarter.


5. Other information:

Fluctuations and/or Abnormalities
Non-Federal Receivables decreased by $17,694 thousand, or 57 percent, between FY 2003 and FY 2004.
The majority of the decrease is attributed to the establishment of an allowance for estimated uncollectible
receivables, which totals $12,956 thousand. The remainder of the decrease is attributed to the collection of
delinquent contractor debts.


Other Disclosures
The DoD policy is to allocate supported undistributed collections between intragovernmental and non-federal
categories based on the percentage of each category of receivables. A review of data for the previous twelve
months found no transactions for undistributed collections involving a non-federal entity. Therefore, all
undistributed collections are assigned to federal entities.



                                                                                                               171
For FY 2004, the AWCF reported unsupported undistributed collections of $854 thousand. These collections
are reported as a Liability for Deposit Funds, Clearing Funds, and Undeposited Collections, as required by
the DFAS-Arlington year-end guidance.

The AWCF accounting systems do not capture trading partner data at the transaction level in a manner that
facilitates trading partner aggregations. Therefore, the AWCF was unable to reconcile intragovernmental
accounts receivable balances with its trading partners’ accounts payable balances. The DoD intends to
develop long-term systems improvements that will address this issue.

Intragovernmental accounts receivable include $3,594 thousand in receivables over 180 days old which is
less than one percent of the total intragovernmental accounts receivable.

Non-federal accounts receivable includes $10,468 thousand over 180 days old. Of this amount, $7,724
thousand was for contractor debt. The remaining amount is due to Foreign Military Sales and travel
advances.

For FY 2004, AWCF reported non-federal refunds receivable of $13,568 thousand.


Note Reference
For additional line item discussion, see:
Note 1.K, Accounts Receivable
Note 12, Accounts Payable
Note 15A, Other Liabilities

Note 6. Other Assets
As of September 30                                                         2004                     2003
(Amounts in thousands)
1. Intra-governmental Other Assets:
    A. Advances and Prepayments                                                           $79                 $329
    B. Other Assets                                                                         0                    0
    C. Total Intra-governmental Other Assets                                              $79                 $329

2. Non-Federal Other Assets:
   A. Outstanding Contract Financing Payments                                       $262,338               $250,142
   B. Other Assets (With the Public)                                                   2,784                 19,735
   C. Total Non-Federal Other Assets                                                $265,122               $269,877

3. Total Other Assets:                                                              $265,201               $270,206

4. Other Information Related to Other Assets:

Fluctuations and/or Abnormalities
Intragovernmental advances and prepayments decreased by $250 thousand, or 76 percent, from FY 2003 to
FY 2004. This account balance is dictated by trading partner reports of unearned revenue made by other DoD
entities. The majority of the change is a result of Army Working Capital Fund (AWCF) advances to the Air
Force decreasing $222 thousand.

Other Assets (With the Public) decreased $16,951 thousand, or 86 percent. During the 4th Quarter FY 2004,
the United States Army Medical Materiel Agency reported a decrease of $17,408 thousand, as it closed out
an advance it had reported for several years.




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 172
Non-Federal Other Assets - Other Assets (With the Public):
(Amounts in thousands)

Type of Assets                         2004         2003
Advances to Others:
     Contractor Advance               $2,010      $19,418
     Travel Advances                     73            53
Prepayments                             701           231
Creditable Material Returns               0            33
Totals                                $2,784      $19,735


Advances and Prepayments
In accordance with DoD elimination guidance, the FY 2004 AWCF intragovernmental advances to others
balance increased by $758 thousand to agree with seller-side unearned revenue from other DoD reporting
entities. The note also reﬂects $679 thousand in elimination entries within the AWCF, leaving a balance of
$79 thousand in these accounts.


Note Reference
See Note 1.R, Other Assets

Note 7.                  Cash and Other Monetary Assets
Not Applicable

Note 8. A.               Direct Loan and/or Loan Guarantee Programs
Not applicable

Note 8.B.                Direct Loans Obligated After FY 1991
Not applicable

Note 8.C.                Total Amount of Direct Loans Disbursed
Not applicable

Note 8.D.                Subsidy Expense for Post-1991 Direct Loans
Not applicable

Note 8.E.                Subsidy Rate for Direct Loans
Not applicable

Note 8.F.                Schedule for Reconciling Subsidy Cost Allowance Balances for Post-
                         1991 Loan Guarantees
Not applicable

Note 8.G.                Defaulted Guaranteed Loans from Post-1991 Guarantees
Not applicable




                                                                                                             173
Note 8.H.                Guaranteed Loans Outstanding
Not applicable

Note 8.I.                Liability for Post-1991 Loan Guarantees, Present Value
Not applicable

Note 8.J.                Subsidy Expense for Post-1991 Loan Guarantees
Not applicable

Note 8.K.                Subsidy Rate for Loan Guarantees
Not applicable

Note 8.L.                Schedule for Reconciling Loan Guarantee Liability Balances for
                         Post-1991 Loan Guarantees
Not applicable

Note 8.M.                Administrative Expense
Not applicable

Note 9.                  Inventory and Related Property
As of September 30                                                        2004                      2003
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                             $13,916,672             $12,131,811
2.   Operating Materials & Supplies, Net (Note 9.B.)                                  0                       0
3.   Stockpile Materials, Net (Note 9.C.)                                             0                       0
4.   Total                                                                  $13,916,672             $12,131,811


Note 9.A.                Inventory, Net
                                                                     2004                                    2003
As of September 30                             Inventory,          Revaluation        Inventory,           Inventory,    Valuation
(Amounts in thousands)                        Gross Value          Allowance             Net                  Net         Method
1. Inventory Categories:
   A. Available and Purchased for
       Resale                                    $15,499,542        $(3,032,467)     $12,467,075           $11,225,500   O, LAC
    B. Held for Repair                             3,081,372         (1,653,069)       1,428,303               895,098   O, LAC
   C. Excess, Obsolete, and
       Unserviceable                                 455,004           (455,004)               0                     0     NRV
   D. Raw Materials                                   21,294                   0          21,294                 9,777      O
   E. Work in Process                                      0                   0               0                 1,436     LAC
   F. Total                                      $19,057,212        $(5,140,540)     $13,916,672           $12,131,811


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 174
2. Restrictions of Inventory Use, Sale, or Disposition:
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

1) Distributions without reimbursement are made when authorized by DoD directives;
2) War reserve material includes petroleum products and subsistence items that are considered restricted;
   and
3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments;
   private parties; and contractors in accordance with current policies and guidance or at the direction of the
   President.

3. Other Information:

Deﬁnitions
Other - Moving Average Cost (MAC)

Inventory - spare and repair parts, clothing and textiles, petroleum products, and ammunition.

Inventory held for repair - damaged material that requires repair to make it usable.

Excess, obsolete, and unserviceable inventory - condemned materiel that must be retained for management
purposes.

Raw materials - items consumed in the production of goods for sale or in the provision of services for a fee.

Work in process - munitions in production and maintenance work with its associated labor, applied overhead,
and supplies used in the delivery of maintenance services.


Future Sales
In addition to the account balances shown in Table 9.A., Federal Generally Accepted Accounting Principles
require disclosure of the amount of inventory held for future sale. The Army Working Capital Fund (AWCF)
estimates that none of the Inventory Held for Sale will be sold more than 24 months after the end of FY 2004.


Fluctuations and/or Abnormalities
Total inventory increased $1,784,861 thousand, or 15 percent, from FY 2003 to FY 2004. This increase is
detailed in the paragraphs below.

The Inventory Available and Purchased for Resale increased $1,241,575 thousand, or 11 percent, from FY
2003 to FY 2004. The Supply Management business area, speciﬁcally the Tank-automotive and Armaments
Command and the Aviation and Missile Command, received additional contract authority in FY 2003 and FY
2004 to purchase spare parts. These commands received these parts in FY 2004, which caused the inventory
increase from FY 2003 to FY 2004.

The Inventory Held for Repair increased $533,205 thousand, or 60 percent, from FY 2003 to FY 2004
because of an increase in the volume of returned items needing repair in support of the contingency missions
Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Raw Materials increased $11,517 thousand, or 118 percent and is attributable increases reported at
Tobyhanna Army Depot.

Work in Process decreased $1,436 thousand, or 100 percent, from FY 2003 to FY 2004 at the Watervliet
Arsenal. The decrease from FY 2003 is a result of Watervliet Arsenal billing all FY 2004 costs and all FY
2003 carry-over costs.

                                                                                                              175
Other Disclosures
The AWCF began transitioning to the Logistics Modernization Program during June FY 2003. Therefore, not
all of the AWCF’s inventory reported in Note 9 is valued under the same method. Inventory at Tobyhanna
Army Depot, Communications-Electronics Command, and Soldiers System Command is valued at MAC,
with the exception of Tobyhanna’s Project Stock, while the remainder of the AWCF’s inventory is valued at
LAC.

The Commodity Command Standard System inventory reported as Available and Purchased for Resale
includes a net upward adjustment of $3,368,724 thousand to bring ﬁnancial records into agreement with
the logistics records. The Defense Finance and Accounting Service (DFAS) implemented new procedures
in FY 2004 to reconcile the ﬁnancial and logistics records. Some transactions are not passing from
logistical records to ﬁnancial records. DFAS continues to work to identify the problems so that complete
reconciliations can be completed.


Note Reference
For additional line item discussion, see:
Note 19.A. General Disclosures Related to the Statement of Net Cost

Note 9.B.                Operating Materials and Supplies, Net
Not applicable. The AWCF expenses rather than capitalizes OM&S because it is normally used within a year
of purchase.

Note 9.C.                Stockpile Materials, Net
Not Applicable.

Note 10.                 General PP&E, Net
As of September 30                                                                             2004                        2003
(Amounts in thousands)                   Depreciation/                                     (Accumulated
                                         Amortization        Service        Acquisition    Depreciation/    Net Book    Prior FY Net
                                           Method             Life            Value        Amortization)     Value      Book Value
1. Major Asset Classes:
   A. Land                                    N/A              N/A                   $0               N/A          $0             $0
   B. Buildings, Structures,
      and Facilities                          S/L           20 Or 40        $1,811,251       ($1,284,559)    $526,692      $553,827
   C. Leasehold Improvements                  S/L          Lease term            95,320          (73,735)      21,585        24,681
   D. Software                                S/L           2-5 Or 10           312,610         (209,395)     103,215        88,227
   E. General Equipment                       S/L            5 or 10          1,485,511       (1,266,966)     218,545       216,594
   F. Military Equipment                      S/L            Various                  0                 0           0             0
   G. Assets Under Capital
       Lease1                                 S/L          lease term                0                  0           0             0
   H. Construction-in-Progress                N/A             N/A               29,401                N/A      29,401        42,928
   I. Other                                                                          0                  0           0           494
   J. Total General PP&E                                                    $3,734,093       ($2,834,655)    $899,438      $926,751
1
    Note 15.B for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 176
2. Other Information:
Leasehold Improvements – The entire amount shown on this line is for improvements made to facilities at
Corpus Christi Army Depot, which is a tenant on a Navy installation, but does not maintain a lease with
the Navy. Improvements made on these facilities are recorded as leasehold improvements. The decrease of
$3,096 thousand, or 13 percent, from FY 2003 and FY 2004 is due to depreciation recorded.

Software – Software increased $14,988 thousand, or 17 percent, between 4th Quarter of FY 2003 and FY
2004. This is combination of two factors. Between FY 2003 and FY 2004, the acquisition value for software
increased by $125,179 thousand. The increase is attributed to software acquired between FY 2000 and
FY 2002, which was either improperly recorded, or not recorded at all, in the accounting records until FY
2004. This increase includes $62,000 thousand of software incorrectly reported as equipment and $26,666
thousand incorrectly reported as construction in progress, in addition to new software purchases and software
not previously recorded. The majority of the increase is offset by the short service life and subsequent high
depreciation values for software. The Army Working Capital Fund (AWCF) is currently identifying all
internal use software, as required by Statement of Federal Financial Accounting Standards Number 10.

Construction in Progress – Construction in Progress decreased by $13,527 thousand, or 32 percent. The
majority of the decrease in construction in progress was the correction of a posting error. Communications-
Electronics Command erroneously posted internal use software as construction in progress in a prior ﬁscal
year. The AWCF identiﬁed and corrected this error during 4th Quarter FY 2004.

Other – Other equipment decreased $494 thousand, or 100 percent, between FY 2003 and FY 2004. The
balance shown for FY 2003 was an erroneous posting and was corrected in FY 2004.


Note Reference
See Note 1.O, General Plant, Property and Equipment

Note 10.A.               Assets Under Capital Lease
As of September 30                                     2004            2003
(Amounts in thousands)
1. Entity as Lessee, Assets Under Capital Lease:
   A. Land and Buildings                                      $0              $0
   B. Equipment                                                0               0
   C. Other                                                    0               0
   D. Accumulated Amortization                                 0               0
   E. Total Capital Leases                                    $0              $0

2. Description of Lease Arrangements:

3. Other Information:
Corpus Christi Army Depot is a tenant on a Navy installation, but does not maintain a lease with the Navy.
Improvements made on these facilities are recorded as leasehold improvements.




                                                                                                              177
Note 11.                 Liabilities Not Covered by Budgetary Resources
As of September 30                                                         2004            2003
(Amounts in thousands)
1. Intra-governmental Liabilities
   A. Accounts Payable                                                           $0               $0
   B. Debt                                                                        0                0
   C. Environmental Liabilities                                                   0                0
   D. Other                                                                  50,084           27,824
   E. Total Intra-governmental Liabilities                                  $50,084          $27,824

2. Non-Federal Liabilities
   A. Accounts Payable                                                            $0                $0
   B. Military Retirement Benefits and Other Employment-
      Related Actuarial Liabilities                                         304,976         320,654
   C. Environmental Liabilities                                                   0               0
   D. Loan Guarantee Liability                                                    0               0
   E. Debt Held by Public                                                         0               0
   F. Other Liabilities                                                      66,859               0
   G. Total Non-Federal Liabilities                                        $371,835        $320,654

3. Total Liabilities Not Covered by Budgetary Resources                    $421,919        $348,478

4. Total Liabilities Covered by Budgetary Resources                         695,373        1,075,630

5. Total Liabilities                                                     $1,117,292      $1,424,108

Liabilities Not Covered by Budgetary Resources are liabilities incurred by the reporting entity which are not
covered by realized budgetary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are liabilities incurred by the reporting entity which are covered
by realized budget resources as of the balance sheet date. Budgetary resources encompass not only new
budget authority, but also other resources available to cover liabilities for speciﬁed purposes in a given year.
Realized budgetary resources include:

1. New budget authority
2. Spending authority from offsetting collections (credited to an appropriation or fund account)
3. Recoveries of unexpired budget authority through downward adjustments of prior year obligations
4. Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year
   balances during the year
5. Permanent indeﬁnite appropriations or borrowing authority, which have been enacted and signed
   into law as of the balance sheet date, provided that the resources may be apportioned by the Ofﬁce of
   Management and Budget without further action by the Congress or without a contingency ﬁrst having to
   be met.

Fluctuations and/or Abnormalities
Other Intragovernmental Liabilities increased $22,260 thousand, or 80 percent, from FY 2003 to FY 2004
because of a change in accounting procedures. The portion of the liability that was due in October 2003 was
reported as Covered by Budgetary Resources. The current procedure accounts for the portion of the liability
due in October 2004 as Not Covered by Budgetary Resources.

Other Non-Federal Liabilities increased from FY 2003 to FY 2004 by $66,859 thousand, or 100 percent, from
a mapping change to include Annual Leave as a Not Covered by Budgetary Resources liability. Previously,
this liability was reported as Covered by Budgetary Resources.

Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 178
Other Liabilities Not Covered by Budgetary Resources:
(Amounts in thousands)
                                             2004        2003
Intragovernmental - Other Liabilities
FECA Reimbursement to the Dept. of Labor   $50,084   $27,824

Legend:
FECA – Federal Employees Compensation Act

The FECA reimbursement liability is classiﬁed as covered or not covered by budgetary resources based on
the date the liability is due to be paid. If the liability is due to be paid within one year, it is considered in the
rates for the current year and is therefore covered by budgetary resources. If the liability is not due within a
year, it is not considered in the rates for the current year and is therefore not covered by budgetary resources.
The FECA liability is due in October each year. The covered portion is due in October 2004, while the not
covered portion is due in October 2005. Only the Depot Maintenance and Ordnance business areas report a
FECA liability because they are host installations responsible for paying Workers’ Compensation. The Supply
Management business area is made up of selected personnel at other installations, whose FECA liabilities are
paid by the Army General Fund.

The FECA liability due in FY 2006 is based on the liability incurred for FY 2005.


Non-Federal Liabilities
Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities consist of the FECA
actuarial liability.


Note Reference
For additional line item discussion, see:
Note 12, Accounts Payable
Note 15, Other Liabilities
Note 17, Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities

Note 12.                 Accounts Payable
                                                                  2004                          2003
As of September 30                            Accounts    Interest, Penalties, and
(Amounts in thousands)                        Payable       Administrative Fees       Total     Total
1. Intra-governmental Payables:                $159,150                       N/A    $159,150    $435,586
2. Non-Federal Payables (to the Public):        372,054                         0     372,054     342,365
3. Total                                       $531,204                        $0    $531,204    $777,951

4. Other Information:
Intragovernmental Payables - amounts owed to other federal agencies for goods or services ordered and
received but not yet paid. Interest, penalties and administrative fees are not applicable to intragovernmental
payables.

Non-Federal Payables (to the Public) - payables for debts owed to individuals and entities outside the Federal
Government.




                                                                                                                  179
Fluctuation and/or Abnormalities
The Army Working Capital Fund (AWCF) Intragovernmental Payables decreased $276,436 thousand, or 63
percent, between FY 2003 and FY 2004. This decrease is primarily due to the FY 2004 AWCF payment of
$322,310 thousand in FY 2003 transportation costs to the Defense Logistics Agency.


Other Disclosures
Undistributed disbursements are the difference between disbursements recorded in the activity ﬁeld
records of the AWCF versus those reported by the U.S. Treasury. The DoD policy is to allocate supported
undistributed disbursements between intragovernmental and non-federal categories based on the percentage
of each category of payables. The AWCF allocated supported undistributed disbursements based on a
12-month review of detail transactions. Unsupported undistributed disbursements are those disbursements
reported at the U.S. Treasury for which no supporting voucher exists to post to the appropriate line in the
accounting records.

Unsupported undistributed disbursements are recorded in United States Standard General Ledger (USSGL)
account 2120, Disbursements in Transit. At the direction of the Ofﬁce of the Under Secretary of Defense
(Comptroller), the AWCF wrote off unsupported undistributed disbursements of $63,287 thousand in FY
2004. The AWCF currently has $2,247 thousand in unsupported undistributed disbursements.

The DoD summary level seller accounts receivable balances were compared to the AWCF payable balances.
As a result of this comparison, adjusting entries were entered to decrease the AWCF’s intragovernmental
payables by $2,290 thousand. In addition, $4,063 thousand of payables within the AWCF were eliminated
from the report. For the majority of intragovernmental sales, the AWCF’s accounting systems do not
capture trading partner data at the transaction level in a manner that facilitates trading partner aggregations.
Therefore, the AWCF was unable to reconcile its intragovernmental payables with its trading partners’
receivables. The DoD intends to develop long-term systems improvements that will address this issue.


Note Reference
See Note 1.G, Accounting for Intragovernmental Activities

Note 13.              Debt
Not applicable.

Note 14.              Environmental Liabilities and Disposal Liabilities
Not applicable.




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 180
Note 15.A.          Other Liabilities
As of September 30                                               2004                      2003
(Amounts in thousands)                            Current     Noncurrent
                                                  Liability    Liability       Total       Total
1. Intragovernmental:
  A. Advances from Others                          $10,962              $0      $10,962     $32,673
  B. Deferred Credits                                    0               0            0           0
  C. Deposit Funds and Suspense Account
          Liabilities                                     0                0           0           0
  D. Resources Payable to Treasury                        0                0           0           0
  E. Disbursing Officer Cash                              0                0           0           0
  F.Non-environmental Disposal Liabilities:
      (1) National Defense PP&E (Non-nuclear)             0                0           0           0
      (2) Excess/Obsolete Structures                      0                0           0           0
      (3) Conventional Munitions Disposal                 0                0           0           0
      (4) Other                                           0                0           0           0
  G. Accounts Payable-- Cancelled
       Appropriations                                     0                0           0           0
  H . Judgment Fund Liabilities                           0                0           0           0
  I. FECA Reimbursement to the Department
       of Labor                                     22,260         27,824        50,084      50,462
  J. Capital Lease Liability                             0              0             0           0
  K. Other Liabilities                               6,614              0         6,614      11,364
  L. Total Intra-governmental Other Liabilities    $39,836        $27,824       $67,660     $94,499
2. Non-Federal:
  A. Accrued Funded Payroll and Benefits           $67,789              $0      $67,789     $85,330
  B. Advances from Others                           37,206               0       37,206      33,421
  C. Deferred Credits                                    0               0            0           0
  D. Loan Guarantee Liability                            0               0            0           0
  E. Liability for Subsidy Related to
       Undisbursed Loans                                 0                 0          0            0
  F. Deposit Funds and Suspense Accounts             (854)                 0     ( 854)            0
  G. Temporary Early Retirement Authority                0                 0          0            0
  H. Non-environmental Disposal Liabilities:
     (1) National Defense PP&E (Non-nuclear)              0                0           0           0
     (2) Excess/Obsolete Structures                       0                0           0           0
     (3) Conventional Munitions Disposal                  0                0           0           0
     (4) Other                                            0                0           0           0
   I. Accounts Payable--Cancelled
       Appropriations                                    0                 0          0           0
   J. Accrued Unfunded Annual Leave                 66,860                 0     66,860      72,592
   K. Accrued Entitlement Benefits for Military
       Retirees and Survivors                            0              0             0           0
   L. Capital Lease Liability                            0              0             0           0
   M. Other Liabilities                             42,451              0        42,451      39,661
   N. Total Non-Federal Other Liabilities         $213,452             $0      $213,452    $231,004
3. Total Other Liabilities:                       $253,288        $27,824      $281,112    $325,503




                                                                                                       181
4. Other Information Pertaining to Other Liabilities:

Fluctuations and/or Abnormalities
Total Intragovernmental Other Liabilities decreased $26,839 thousand, or 28 percent, because of the
following reasons.

Intragovernmental Advances from others decreased $21,711 thousand, or 66 percent, primarily from FY 2002
orders from the Army General Fund that were collected in advance in FY 2003. These orders were completed
and the resulting revenue was recognized in 2004.

Intragovernmental Other Liabilities decreased $4,750 thousand, or 42 percent. The change is a result of
decreased employee beneﬁt liabilities as reported by the Ofﬁce of Personnel Management because of a timing
difference between FY 2003 and FY 2004 payroll payments of the last payroll of the ﬁscal year. The last
payroll in FY 2003 was paid on September 18th and the last payroll in FY 2004 was paid on September 30th.

Total Non-Federal Other Liabilities decreased $28,051 thousand, or 12 percent, because of the following
reasons.

Accrued Funded Payroll and Beneﬁts decreased $17,541 thousand, or 21 percent, because of a timing
difference between FY 2003 and FY 2004 payroll payments of the last payroll of the ﬁscal year. The last
payroll in FY 2003 was paid on September 18th and the last payroll in FY 2004 was paid on September 30th.

Non-Federal Advances from Others increased $3,785 thousand, or 11 percent. The increase is primarily from
additional work performed at Anniston Army Depot and Rock Island Arsenal.

Deposit Funds and Suspense Accounts decreased $854 thousand, or 100 percent, as a result of Unsupported
Undistributed Collections being moved to the Liability for Deposit Funds, Clearing Accounts, and
Undeposited Collections per Attachment 15 of DFAS - Arlington guidance for ﬁnancial statement
preparation.


Other Disclosures
The Federal Employment Compensation Act (FECA) is administered by the Department of Labor (DOL),
Ofﬁce of Workers’ Compensation Programs. Workers’ Compensation claims are submitted to and approved
by the DOL. The DOL pays the claim holders and prepares a chargeback billing to the AWCF. The FECA
law, P.L. 93-416, Section 8147, essentially gives agencies two years to pay the chargeback bill, thereby
allowing time for the applicable amount to be included in budget submissions. Pursuant to the FECA law,
funding should be paid within 30 days. The current liability is payable in October 2004 and the non-current
liability is payable in October 2005. Only the Depot Maintenance and Ordnance business areas report a
FECA liability because they are host installations responsible for paying Workers’ Compensation. The Supply
Management business area is made up of selected personnel at other installations, whose FECA liabilities are
paid by the Army General Fund.

The Unemployment Beneﬁts Liability bill received from the DOL is not broken out by appropriation. The
AWCF does not report an Unemployment Beneﬁts liability. The Army determined that the General Fund is
responsible for the entire liability and reports it on the General Fund statements.




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 182
Other Liabilities: (Amounts in Thousands)
                                                         FY 2004     FY 2003
Intragovernmental - Other Liabilities
      VSIP                                                      $0        $630
      CSRS, FERS, FEGLI, FEHB                                6,614      10,734
      FECA Payable, Past Due                                     0           0
Total Intragovernmental Other Liabilities                   $6,614     $11,364
Non-Federal –Other Liabilities
      Contract Holdbacks                                   $32,852     $31,751
      Employers Contributions to TSP and Taxes Payable       9,599       7,910
      Contingent Liability                                       0           0
Total Non-Federal Other Liabilities                        $42,451     $39,661
Total Other Liabilities                                    $49,065     $51,025

Legend:      VSIP –      Voluntary Separation Incentive Pay
             CSRS –      Civil Service Retirement System
             FERS –      Federal Employees Retirement System
             FEGLI –     Federal Employees Group Life Insurance
             FEHB –      Federal Employees Health Beneﬁts
             FECA –      Federal Employees Compensation Act
             TSP –       Thrift Savings Plan

Note Reference
For additional line item discussion, see:
Note 1.S, Contingencies and Other Liabilities
Note 11, Liabilities Not Covered by Budgetary Resources
Note 17, Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities

Note 15.B.           Capital Lease Liability
Not applicable.

Note 16.             Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:


Relevant Information for Comprehension

Nature of Contingency
The Army Working Capital Fund (AWCF) has other contingent liabilities in which the possibility of loss is
considered reasonable. These liabilities are not accrued in the AWCF’s ﬁnancial statements.

As of September 30, 2004, the AWCF does not have any claims considered reasonably possible.


Note Reference
See Note Disclosure 1. S, Contingencies and Other Liabilities




                                                                                                            183
Note 17.                 Military Retirement Beneﬁts and Other Employment Related
                         Actuarial Liabilities
                                                                                      2004                                  2003
As of September 30                                  Actuarial Present       Assumed          (Less: Assets   Unfunded     Unfunded
(Amounts in thousands)                              Value of Projected       Interest         Available to   Actuarial    Actuarial
                                                      Plan Benefits         Rate (%)         Pay Benefits)    Liability    Liability
1. Pension and Health Benefits:
    A. Military Retirement Pensions                                  $0                                 $0           $0            $0
   B. Military Retirement Health
                                                                      0                                  0            0                0
       Benefits
   C. Medicare-Eligible Retiree Benefits                              0                                  0            0             0
   D. Total Pension and Health Benefits                              $0                                 $0           $0            $0

2. Other:
   A. FECA                                                    $304,976         4.88                     $0    $304,976      $320,654
   B. Voluntary Separation Incentive                                 0                                   0           0             0
      Programs
   C. DoD Education Benefits Fund                                    0                                   0           0             0
   D.                                                                0                                   0           0             0
   E. Total Other                                             $304,976                                  $0    $304,976      $320,654

3. Total Military Retirement Benefits
     and Other Employment Related
     Actuarial Liabilities:                                   $304,976                                  $0    $304,976      $320,654

4. Other Information Pertaining to Military Retirement Beneﬁts and Other Employment-Related Actuarial
Liabilities:
Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ compensation beneﬁts is developed
by the Department of Labor and provided to the Army at the end of each ﬁscal year. The liability includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
The liability is determined using a method that utilizes historical beneﬁt payment patterns to predict the
ultimate payments.

Assumptions: The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of
Management and Budget economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living
adjustments and medical inﬂation factors are applied to the calculation of projected future beneﬁts.

Market Value of Investments in Market-based and Marketable Securities: Not applicable.


Military Retirement Beneﬁts
The Army General Fund pays the Army Working Capital Fund’s (AWCF) military retirement beneﬁts.


Federal Employment Compensation Act (FECA)
Only the Depot Maintenance and Ordnance business areas report a FECA liability because they are host
installations responsible for paying Workers’ Compensation. The Supply Management business area is made
up of selected personnel at other installations, whose FECA liabilities are paid by the Army General Fund.

The Ofﬁce of Personnel Management provides updated Army actuarial liabilities during the 4th Quarter of
each ﬁscal year. The AWCF computes its portion of the total Army actuarial liability based on the percentage
of the AWCF’s FECA expense to the total Army FECA expense.




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 184
Note Reference
For additional line item discussion, see:
Note 11, Liabilities Not Covered by Budgetary Resources
Note 15.A, Other Liabilities



Note 18.                 Unexpended Appropriations
As of September 30                             2004             2003
(Amounts in thousands)
1. Unexpended Appropriations:
   A. Unobligated, Available                            $0            $0
   B. Unobligated, Unavailable                           0             0
   C. Unexpended Obligations                            53        11,960
   D. Total Unexpended Appropriations                  $53       $11,960

Fluctuations and/or Abnormalities
Unexpended Obligations decreased $11,907 thousand, or 99 percent, from FY 2003 to FY 2004, as the Army
Working Capital Fund received delivery of goods (expended funds) from funds that were obligated in FY
2000.


Relevant Information for Comprehension
Unexpended obligations reported as a component of Unexpended Appropriations includes both Undelivered
Orders–Unpaid and Undelivered Orders-Paid only for appropriated funds. This amount is distinct from
Change in Budgetary Resources Obligated for Goods, Services, and Beneﬁts Ordered but Not Yet Received
of the Statement of Financing, which includes the change during the ﬁscal year in unexpended obligations
against budget authority from all sources.


Note Reference
For additional line item discussion, see:
Note 21.A, Disclosures Related to the Statement of Budgetary Resources

Note 19.A                General Disclosures Related to the Statement of Net Cost
Disclosures Related to the Statement of Net Cost

The Consolidated Statement of Net Cost in the Federal Government is unique because its principles are
driven by understanding the net cost of programs and/or organizations that the Federal Government supports
through appropriations or other means. This statement provides gross and net cost information that can
be related to the amount of output or outcome for a given program and/or organization administered by a
responsible reporting entity.

While the Army Working Capital Fund (AWCF) activities generally record transactions on an accrual basis,
as is required by Federal Generally Accepted Accounting Principles (GAAP), the systems do not always
capture actual costs. Information presented on the Consolidated Statement of Net Cost is primarily based on
budgetary obligation, disbursements, or collection transactions, as well as information from non-ﬁnancial
feeder systems. The Army is in the process of upgrading its ﬁnancial and logistical feeder systems to the
Logistics Modernization Program (LMP) to address this issue.


Fluctuations and/or Abnormalities
The AWCF’s net costs decreased by $1,877,382 thousand, or 361 percent, between 4th Quarter FY 2003
and FY 2004, primarily due to increased sales within the AWCF in support of the contingency missions

                                                                                                          185
Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. In FY 2004, the AWCF eliminated credit on
equipment returns from Operations Iraqi Freedom and Enduring Freedom to compensate for higher current
and future repair and replacement costs. However, this increase cannot be seen on the Statement of Net Cost,
as the FY 2004 revenue reﬂects $3,488,555 thousand of revenue within the AWCF that has been eliminated.
The FY 2003 Statement of Net Cost reﬂects $1,473,493 thousand of revenue within the AWCF that has been
eliminated. In addition, ﬁeld reported revenue was reduced by $1,796,859 thousand for Material Return
Credits. Field reported Cost of Goods Sold was also reduced by the same amount of the Material Return
Credits. Also, a decrease in Gross Costs with the Public contributed to the overall decrease in net costs.

The mapping for the Statement of Net Cost changed in FY 2004. Prior to FY 2004, other gains and losses
were netted on the Gross Cost with the Public. In FY 2004, other gains were moved from Gross Cost with
the Public to Earned Revenue from the Public. Included in the FY 2004 Earned Revenue from the Public are
$4,481,186 thousand in Other Gains. Included in the FY 2004 Gross Costs with the Public are $4,178,155
thousand in Other Losses.

In FY 2004, the AWCF eliminated credit on equipment returns from Operations Iraqi Freedom and Enduring
Freedom to compensate for higher current and future repair and replacement costs. This policy change is the
primary reason for the net cost decrease. The intragovernmental earned revenue from sales is used to buy or
replace inventory and to ﬁnance the delivery of future goods and services. The increased sales also translate
to increased Intragovernmental Gross Costs and Gross Costs with the Public as the AWCF replenishes
inventory.

The ﬂuctuations are as follows:
     Intragovernmental gross costs increased by $196,477 thousand, or 7 percent
     Intragovernmental earned revenue decreased by $1,827,838 thousand, or 18 percent
     Gross costs with the public increased by $827,268 thousand, or 11 percent
     Earned revenue from the public increased by $4,728,965 thousand, or 2,129 percent

During FY 2004, it was discovered that inventory transactions in LMP were causing overstatement of other
gains and other losses, impacting the Communication and Electronics Command (CECOM), Tobyhanna
Army Depot, and Soldier System Command. To correct these problems, the Defense Finance and Accounting
Service (DFAS) prepared adjusting entries to reduce inventory gains with a corresponding offset to the
inventory losses. DFAS prepared entries to reduce inventory gains for CECOM of $8,925,078 thousand,
Tobyhanna Army Depot of $1,337,129 thousand, and Soldier Systems Command of $95,000 thousand.

In addition, elimination balancing entries to bring the AWCF’s buyer-side costs into agreement with the
seller-side revenues caused a reclassiﬁcation of $5,402,494 thousand from Public Gross and Net Costs to
Intragovernmental Gross and Net Costs. For the majority of intragovernmental sales, the AWCF’s accounting
systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner
aggregations. Therefore, the AWCF was unable to reconcile its intragovernmental expenses with its trading
partners’ revenues. The DoD intends to develop long-term systems improvements that will address this issue.


Note Reference
See Note 19.I, Intragovernmental Revenue and Expense

Note 19.B.            Gross Cost and Earned Revenue by Budget Functional Classiﬁcation
Not applicable

Note 19.C.            Gross Cost to Generate Intra-governmental Revenue and Earned
                      Revenue (Transactions with Other Federal—Non-DoD—Entities) by
                      Budget Functional Classiﬁcation
Not applicable


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 186
Note 19.D.               Imputed Expenses
As of September 30                            2004         2003
(Amounts in thousands)
1.   Civilian (e.g. CSRS/FERS) Retirement       $56,020     $59,046
2.   Civilian Health                             74,612      62,086
3.   Civilian Life Insurance                        189         179
4.   Military Retirement Pension                      0           0
5.   Military Retirement Health                       0           0
6.   Judgment Fund                                    0           0
7.   Total Imputed Expenses                    $130,821    $121,311

8. Other Information
Legend: CSRS - Civil Service Retirement System
         FERS - Federal Employees Retirement System


Fluctuations and/or Abnormalities
Total Imputed Expenses increased $9,509 thousand, or 8 percent, from 4th Quarter FY 2003 to 4th Quarter
FY 2004. The increase is primarily due to Civilian Health costs which increased $9,536 thousand, or 21
percent, because of pay increases and an increase in the total number of civilian employees. Federal GAAP
requires the reporting of government employee beneﬁts. The amounts remitted to the OPM by and for
covered employees do not generally cover the actual cost of the beneﬁts those employees will receive after
their careers are over. As a consequence, for FY 2004, the AWCF must recognize an imputed cost equal to the
difference between the true cost of providing future beneﬁts to its employees and the employer and employee
contributions they remit to the OPM.

Note 19.E.               Beneﬁt Program Expenses
Not applicable

Note 19. F.              Exchange Revenue
Disclosures Related to the Exchange Revenue:

Exchange Revenue arises when a government entity provides goods and services to the public or to another
government entity for a price (earned revenue). Exchange revenue includes most user charges other than
taxes, such as regulatory user charges. The AWCF reported only exchange revenue in FY 2004.


Note Disclosure
See Note 1.E, Revenues and Other Financing Sources

Note 19.G.               Amounts for Foreign Military Sales (FMS) Program Procurements
                         from Contractors
Not applicable.

Note 19.H.               Stewardship Assets
Not applicable.




                                                                                                        187
Note 19.I.               Intra-governmental Revenue and Expense
Disclosures Related to Intra-governmental Revenue and Expense:


Intragovernmental Revenue
For the majority of buyer-side transactions, the AWCF accounting systems do not capture trading partner
data at the transaction level in a manner that facilitates trading partner aggregations. Therefore, the AWCF
was unable to reconcile intragovernmental accounts payable balances with its trading partners. The DoD
intends to develop long-term system improvements that will address this issue.


Operating Expenses
The DoD summary level seller accounts receivable and revenues were compared to the AWCF’s accounts
payables and expenses. As a result of this comparison, intragovernmental operating expenses were increased
by $5,402,494 thousand with a corresponding decrease of $5,403,252 thousand in non-federal operating
expenses in order to balance the AWCF’s expenses with the DoD summary level seller revenues.

Note 19.J.               Suborganization Program Costs
Not applicable

Note 20.                 Disclosures Related to the Statement of Changes in Net Position
                                                         Cumulative             Unexpended              Cumulative           Unexpended
                                                    Results of Operations      Appropriations       Results of Operations   Appropriations
                                                            2004                   2004                     2003                2003
As of September 30
(Amounts in thousands)

Prior Period Adjustments Increases
(Decreases) to Net Position Beginning
Balance:
     A. Changes in Accounting Standards                                 $0                    $0                     $0                 $0
     B. Errors and Omissions in Prior
          Year Accounting Reports                                        0                      0                      0                 0
     C. Other Prior Period Adjustments                                   0                     0                      0                  0
     D. Total Prior Period Adjustments                                  $0                    $0                     $0                 $0

2.   Imputed Financing:
     A. Civilian CSRS/FERS Retirement                             $56,020                     $0                $59,046                 $0
     B. Civilian Health                                            74,612                      0                 62,086                  0
     C. Civilian Life Insurance                                       189                       0                   179                  0
     D. Military Retirement Pension                                     0                       0                     0                  0
     E. Military Retirement Health                                       0                      0                      0                 0
     F. Judgment Fund                                                   0                      0                      0                  0
     G. Total Imputed Financing                                  $130,821                     $0               $121,311                 $0

3. Other Information:

Legend:
CSRS – Civil Service Retirement System
FERS – Federal Employees Retirement System




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 188
Prior Period Adjustments
The Department of the Treasury emphasized the reporting of prior period adjustments for material changes
only. The Ofﬁce of the Under Secretary of Defense (Comptroller) (OSD(C)) and the Defense Finance and
Accounting Service (DFAS) guidance also emphasized the position that use of prior period adjustments
should be infrequent. Individual entities within the Army Working Capital Fund (AWCF) submitted prior
period adjustments, which were subsequently reported on the AR 1307 report. These adjustments did not
meet the materiality threshold established for ﬁnancial statement reporting. These balances were reclassiﬁed
to accounts that would have been affected if they had occurred in the current year. The net amounts of
reclassiﬁed prior period adjustments for FY 2004 are as follows: (Amounts in thousands)

Depot Maintenance           ($25,840)
Ordnance                        1,390
Supply Management              37,725
Total AWCF                    $13,275

Fluctuations and/or Abnormalities
Appropriations used decreased $35,876 thousand, or 13 percent, from FY 2003 to FY 2004. In FY 2003, the
AWCF received $29,700 thousand more in direct appropriations and expended $6,175 thousand more of FY
2000 direct appropriations than in FY 2004.

Budgetary Financing Sources Transfers-in/out without reimbursement changed $1,448,600 thousand, or 100
percent, which reﬂects the following reprogramming decisions. In FY 2004, Program Budget Decision 614
transferred $41,600 thousand to the Defense Commissary Agency. Also, during the 3rd Quarter, Defense
Reprogramming Action FY 04-60 IR transferred $107,000 thousand and FY 04-68 IR transferred $1,050,000
thousand to the Army General Fund. Also, Defense Reprogramming Action FY 04-81 IR transferred
$250,000 thousand to the Army General Fund.

Other Budgetary Financing Sources increased by $239,821 thousand, or 375 percent, between FY 2003 and
FY 2004 primarily due to the reclassiﬁcation of $321,764 thousand of Transfers-In Without Reimbursement
in FY 2003, versus $37,849 thousand Transfers-Out Without Reimbursement in FY 2004. This represents
those transfers in/out without reimbursement without trading partner information that must be reclassiﬁed as
a gain or loss.

The Other Financing Sources - Transfers-In/Out Without Reimbursement decreased by $908,589 thousand,
or 100 percent, from FY 2003 to FY 2004. The FY 2003 amount includes a transfer-in of $918,816 thousand
in inventory from the Army General Fund during the implementation of the Single Stock Fund Milestone 3.
No inventory transfers were reported for FY 2004.

The Other Resources Other line decreased by $217,064 thousand, or 100 percent. The FY 2003 amount
includes an erroneous posting in Material Returns Liability.

Net Cost of Operations decreased from FY 2003 to FY 2004 by $1,887,698 thousand, or 363 percent, due to
increased sales in support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and
Noble Eagle.

Appropriations received decreased from FY 2003 to FY 2004 by $29,700 thousand, or 12 percent. In
FY 2004, the AWCF received direct appropriations of $105,400 thousand for war reserves and $113,900
thousand for industrial mobilization capacity, totaling $219,300 thousand. The decrease in Appropriations
Received from FY 2003 to FY 2004 is due to a net difference of a $100,000 thousand inventory
augmentation received in FY 2003, but not in FY 2004, and increases of $53,900 thousand in industrial
mobilization capacity and $16,400 thousand in war reserves in FY 2004 over FY 2003.


Note Reference
For Additional Line Item discussion, see:
Note 19, General Disclosures Relating to the Statement of Net Cost
Note 21, Disclosures Related to the Statement of Budgetary Resources


                                                                                                            189
Note 21.                 Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                                2004                2003
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                                 $8,600,534         $6,102,853
2. Available Borrowing and Contract Authority at the End of the
    Period                                                                      $4,549,857         $2,443,489

3. Other Information:
The Army Working Capital Fund (AWCF) reports all obligations as reimbursable per Ofﬁce of Management
and Budget (OMB) circular A-11, Section 83.5.

Primary funding for the AWCF is earned through customer orders, as described in Note 1.C. In addition to
revenues earned, appropriations were received and used by the following business areas during FY 2004:
(Amounts in thousands)

                                   Appropriations              Appropriations
Business Area                           Received                   Obligated
Ordnance                                   $94,162                    $94,162
Depot Maintenance                           19,738                     19,738
Supply Management                          117,307                    117,307
Information Services                             0                          0
Total AWCF                                $231,207                   $231,207


In FY 2004, funds were appropriated for war reserves, $105,400 thousand, and industrial mobilization
capacity, $113,900 thousand, totaling $219,300 thousand. All FY 2004 appropriations received have been
obligated and expended.

Available contract authority as of September 30, 2004, is as follows: (Amounts in thousands)

                          Unused Contract Authority as of        Contract Authority Realized For        Contract Authority Available as
 Business Area                      September 30, 2003                                  FY 2004                 of September 30, 2004
 Depot Maintenance                                   $10,663                                 $6,450                             $17,113
 Ordnance                                              7,007                                  9,575                              16,582
 Supply Management                                 2,425,819                              2,090,343                           4,516,162
 Information Services                                      0                                      0                                   0
 Total AWCF                                       $2,443,489                             $2,106,368                          $4,549,857

Unobligated balances from spending authority from offsetting collections (revenues earned) as of September
30, 2004, are as follows: (Amounts in thousands)

                                                        Change in Unﬁlled                               Total Spending Authority from
Business Area                          Earned                      Orders          Anticipated                  Offsetting Collections
Depot Maintenance                   $2,676,243                    ($112,060)                  $0                            $2,564,183
Ordnance                               876,583                      (88,624)                   0                               787,959
Supply                               8,665,919                        77,035                   0                             8,742,954
Information Services                    (6,660)                     (22,498)                   0                               (29,158)
Total AWCF                         $12,212,085                    ($146,147)                  $0                           $12,065,938

Fluctuations and/or Abnormalities
The AWCF received direct appropriations of $105,400 thousand for war reserves and $113,900 thousand
received for industrial mobilization capacity, totaling $219,300 thousand. The decrease in Appropriations
Received from FY 2003 to FY 2004 is due to a net difference of a $100,000 thousand inventory augmentation
received in FY 2003, but not in FY 2004 and increases of $53,900 thousand in industrial mobilization
capacity and $16,400 thousand in war reserves in FY 2004 over FY 2003.

Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 190
All business activity increased during FY 2004 over this same period in FY 2003 due to increased
reimbursable activity with the Army General Fund, as well as within the AWCF, in support of the
contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. Contract authority
increased $2,038,741 thousand, or 3,015 percent, primarily to buy spares to support increased maintenance
efforts in support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble
Eagle.

Net transfers changed $1,448,600 thousand, or 100 percent, from FY 2003 to FY 2004. During the 2nd
Quarter FY 2004, Program Budget Decision 614 transferred $41,600 thousand to the Defense Commissary
Agency. Also, during the 3rd Quarter FY 2004, Defense Reprogramming Action FY 04-60 transferred
$107,000 thousand and FY 04-68 IR transferred $1,050,000 thousand to the Army General Fund. In 4th
Quarter 2004, Defense Reprogramming Action FY 04-81 IR transferred $250,000 thousand to the Army
General Fund.

Spending Authority from Offsetting Collections increased $13,547 thousand, or less than 1 percent, in FY
2004. This increase occurred primarily within the Supply Management business area, because of increased
demand from the Army General Fund to replenish supplies and repair equipment, as noted below:

    Earned - Collected increased by $2,621,557 thousand, or 27 percent, in FY 2004.
    Earned - Receivable from Federal Sources decreased by $289,951 thousand, or 123 percent, in FY 2004.
    Change in Unﬁlled Customer Orders – Advance Received increased by $161,993 thousand, or 90
    percent, from FY 2003 to FY 2004. The change is due to the repayment in FY 2003 of an advance
    given by the Army General Fund to supplement cash shortages experienced during FY 2002.
    Change in Unﬁlled Customer Orders – Without Advance from Federal Sources decreased by $2,480,052
    thousand, or 105 percent, in FY 2004.
Recoveries of Prior Year Obligations decreased by $88,226 thousand, or 15 percent, from FY 2003 to FY
2004. The decrease is primarily due to the Army Materiel Command performing a review and clean up of
unliquidated obligations in FY 2003, prior to the transition to LMP.

Direct Obligations incurred decreased by $249,028 thousand, or 100 percent, from FY 2003 to FY 2004.
The decrease is a result of a reporting change. Previously, the AWCF reported obligations as both direct and
reimbursable. Beginning 2nd Quarter FY 2004 all obligations are reported as reimbursable per OMB circular
A-11, Section 83.5.

Reimbursable obligations increased by $1,683,709 thousand, or 14 percent, primarily in the Supply
Management business area due to increased sales in support of the contingency missions Operations
Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Unobligated Balance, Apportioned decreased by $563,463 thousand, or 27 percent, in FY 2004, as the AWCF
obligated projects in FY 2004 from FY 2003 reimbursable orders.

Accounts Receivable decreased $53,777 thousand, or 10 percent, as a result of the AWCF writing-off
$39,041 thousand in unsupported undistributed collections based on guidance from the Ofﬁce of the Under
Secretary of Defense (Comptroller).

Undelivered Orders increased $2,249,580 thousand, or 37 percent, primarily for the Supply Management
business area. The increase is due to increased demand in support of the contingency missions Operations
Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Accounts Payable decreased $362,509 thousand, or 37 percent. This decrease is due to the AWCF payment in
FY 2004 of FY 2003 transportation costs of $322,310 thousand from the Defense Logistics Agency.



                                                                                                            191
Net Outlays increased by $419,274 thousand, or 40 percent, in FY 2004. This is a reﬂection of the Full Cost
Recovery included in the setting of FY 2004 rates and the increased sales in support of the contingency
missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. Rates were set to recover all costs
in FY 2004, therefore the percentage of collections as compared to disbursements increased over FY 2003.


Other Disclosures
The AWCF does not make eliminating entries in the Statement of Budgetary Resources because the
statements are presented as combined and combining and, therefore, are presented as a Disaggregated
Statement of Budgetary Resources in the Required Supplementary Information section of the ﬁnancial
statements.

Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
permanently not available, are not included in the Spending Authority From Offsetting Collections and
Adjustments line on the Statement of Budgetary Resources or the Spending Authority for Offsetting
Collections and Adjustments line on the Statement of Financing.

AWCF had reimbursable obligations for apportionment category B of $14,006,202 thousand and $0 of
obligations exempt from apportionment.

The Statement of Budgetary Resources does not eliminate for intragovernmental receivables, nor does it
include contractor debt or refunds receivable.

Accounts payable on the Statement of Budgetary Resources includes the employee payroll liability and does
not eliminate for intragovernmental payables. The Balance Sheet eliminates for intragovernmental payables
and reports the employee payroll liability in Other Liabilities. This results in different balances between the
Statement of Budgetary Resources and the Balance Sheet.

The AWCF contains obligation and unliquidated obligation values that were migrated to the LMP at values
higher than what was reported in the respective legacy systems at time of migration. This overstatement
occurred at the Supply Management activities for the Communication-Electronics Command and Tobyhanna
Army Depot. The Defense Finance and Accounting Service and Army Materiel Command are working to
reconcile these balances.


Note Reference
For Additional Line Item discussion, see:
Note 1, Signiﬁcant Accounting Policies
Note 5, Accounts Receivable
Note 12, Accounts Payable
Note 18, Unexpended Appropriations
Note 19, General Disclosures Related to the Statement of Net Cost

Note 22.              Disclosures Related to the Statement of Financing
Disclosures Related to the Statement of Financing:

The objective of the Statement of Financing is to allow users to understand the difference between the
Statement of Budgetary Resources and the Statement of Net Cost. The statement provides this understanding
through a comprehensive reconciliation process.

The Army Working Capital Fund’s (AWCF) budgetary data does not agree with its proprietary expenses
and assets capitalized. This results in a difference in net cost between the Statement of Net Cost and the
Statement of Financing. Resources that ﬁnance the acquisition of assets were decreased by $356,731
thousand to bring the statements into agreement. The differences between budgetary and proprietary data for


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 192
the AWCF were reported as material weaknesses in the FY 2003 AWCF’s ﬁnancial statement report.


Fluctuations and/or Abnormalities
Obligations incurred increased by $1,434,681 thousand, or 11 percent, from FY 2003 and FY 2004 due to
increased demand from customers and increased contract authority in support of the contingency missions
Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Obligations net of offsetting collections and recoveries increased $1,509,358 thousand, or 2,193 percent,
from FY 2003 to FY 2004 due to increased demand from customers and increased contract authority in
support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

The Transfers-In/Out Without Reimbursement decreased by $908,589 thousand, or 100 percent, from FY
2003 to FY 2004. The FY 2003 amount includes a transfer-in of $918,816 thousand in inventory from the
Army General Fund during the implementation of the Single Stock Fund Milestone 3. No inventory transfers
were reported for FY 2004.

The Budgetary Resources Obligated - Other line decreased by $217,064 thousand, or 100 percent from FY
2003 to FY 2004. The FY 2003 amount includes an erroneous posting in Material Returns Liability.

Change in Undelivered Orders increased $803,752, or 24 percent, from FY 2003 to FY 2004. This is a result
of continued increased demand in Supply Management for inventory requisitions.

Change in Unﬁlled Customer Orders decreased from FY 2003 to FY 2004 by $2,318,058 thousand, or 107
percent. The FY 2003 amount reﬂected increased operations in anticipation of the contingency missions
Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. The FY 2004 Change in Unﬁlled Customer
Orders reﬂects a stabilization of operations.

Resources that Fund Expenses Recognized in Prior Periods changed $20,572 thousand, or 744 percent, from
FY 2003 to FY 2004. The majority of this change is from a decrease in the Unfunded Leave Liability and a
decrease in the FECA liability.

Resources that Finance the Acquisition of Assets decreased by $5,890,330 thousand, or 1,817 percent, from
FY 2003 to FY 2004. An accounting procedure change to more accurately report capitalized purchases
caused this decrease. Memorandum accounts were added to capture the capitalized costs during the year.

Other resources or adjustments to net obligated resources that do not affect net cost of operations Other
increased $6,872 thousand, or 100 percent, from FY 2003 to FY 2004 to bring the Statement of Financing
into agreement with the Statement of Budgetary Resources for the Information Services business area.

Increase in Annual Leave Liability decreased by $619 thousand, or 31 percent, from FY 2003 to FY
2004. The Annual Leave reported at the end of FY 2003 showed accruals from June to September only. The
additional increase is a result of posting the beginning leave balances that were dropped upon implementation
of the Logistics Modernization Program (LMP) in FY 2003.

The Increase in Exchange Revenue Receivable From the Public changed $6,079 thousand, or 100 percent,
from FY 2003 to FY 2004. The zero balance in FY 2004 indicates that there was a decrease in total Public
Receivables incurred in FY 2004.

Other (+/-) reﬂects a $16,294 thousand, or 99 percent, decrease from FY 2003 to FY 2004. Decreases in
employee beneﬁt liabilities should be recorded on Resources that Fund Expenses Recognized in Prior
Periods. The balance reﬂected for FY 2003 was reported on the Other line.

Depreciation and Amortization decreased by $111,184 thousand, or 57 percent, from FY 2003 to FY
2004 primarily in the Depot Maintenance and Ordnance business areas. The FY 2003 balance includes


                                                                                                            193
depreciation expense which was previously reported as unfunded and, therefore, not included on the ﬁnancial
statements.

Revaluation of Assets or Liabilities increased from FY 2003 to FY 2004 by $706,004 thousand, or 157
percent, from increased inventory valuation adjustments for Supply Management activities. The Army and
the Defense Finance and Accounting Service continue to monitor inventory values reported by LMP.

Other Cost of Goods Sold increased $5,003,845 thousand, or 100 percent, from FY 2003 to FY 2004. An
accounting procedure change to more accurately report cost of goods sold caused this increase. This line was
added in FY 2004 and any amounts were previously included on the Resources that ﬁnance the acquisition of
assets line.

Components Not Requiring or Generating Resources Other Other decreased from FY 2003 to FY 2004 by
$440,090 thousand, or 100 percent. The FY 2004 amount reﬂects the ﬁrst time use of the Cost Capitalization
general ledger account for Tobyhanna Army Depot of $453,005 thousand, Allowance for Uncollectible
Accounts Receivable of $12,957 thousand, and a closing entry for Information Services of $6,871 thousand.
Information Services business area transferred to the Army General Fund as of October 1, 2003, but some
residual balances remain on the books, reported by the Supply Management business area. No allowance for
uncollectible accounts receivable was recorded in the past.

Net Cost of Operations decreased in FY 2004 by $1,887,698 thousand, or 363 percent, from FY 2003 to
FY 2004 due to increased sales in support of the contingency missions Operations Enduring Freedom, Iraqi
Freedom, and Noble Eagle.


Other Disclosures
Transactions within the AWCF have not been eliminated because the statements are presented as combined
and combining.


Note Reference
For Additional Line Item discussion, see:
Note 10, General PP&E
Note 11, Liabilities Not Covered by Budgetary Resources
Note 18, Unexpended Appropriations
Note 19, General Disclosures Relating to the Statement of Net Cost
Note 21, Disclosures Related to the Statement of Budgetary Resources

Note 23.              Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 24.A.            Other Disclosures
Not applicable

Note 24.B.            Other Disclosures
Not applicable




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 194
[This Page Left Intentionally Blank]




                                       195
Department of Defense- Army Working Capital Fund
 CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)

                                                                   Depot Maintenance         Supply Management     Information Service
ASSETS¬(Note¬2)
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                                   $128,582               ($772,617)                     $0
      Non-Entity Seized Iraqi Cash                                                     0                       0                      0
      Non-Entity-Other                                                                 0                       0                      0
Investments (Note 4)                                                                   0                       0                      0
Accounts Receivable (Note 5)                                                     150,963                 263,272                      0
Other Assets (Note 6)                                                             16,900                  29,460                      0
Total Intragovernmental Assets                                                 $296,445               ($479,885)                     $0
Cash and Other Monetary Assets (Note 7)                                               $0                      $0                     $0
Accounts Receivable (Note 5)                                                         699                  10,996                      0
Loans Receivable (Note 8)                                                              0                       0                      0
Inventory and Related Property (Note 9)                                          240,124              13,620,258                      0
General Property, Plant and Equipment (Note 10)                                  527,153                  83,346                      0
Investments (Note 4)                                                                   0                       0                      0
Other Assets (Note 6)                                                                 48                 264,352                      0
TOTAL¬ASSETS                                                                  $1,064,469             $13,499,067                     $0



LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                                       $51,536                $93,869                      $0
Debt (Note 13)                                                                         0                      0                       0
Environmental Liabilities (Note 14)                                                    0                      0                       0
Other Liabilities (Note 15 & Note 16)                                             30,508                 53,333                       0
Total Intragovernmental Liabilities                                              $82,044               $147,202                      $0
Accounts Payable (Note 12)                                                      $128,715               $193,768                      $0
Military Retirement Benefits and Other Employment-Related                        177,507                      0                       0
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                                    0                      0                       0
Loan Guarantee Liability (Note 8)                                                      0                      0                       0
Other Liabilities (Note 15 and Note 16)                                           93,848                 69,131                       0
Debt Held by Public                                                                    0                      0                       0
TOTAL¬LIABILITIES                                                               $482,114               $410,101                      $0

NET¬POSITION
Unexpended Appropriations (Note 18)                                                   $0                     $53                     $0
Cumulative Results of Operations                                                 582,355              13,088,913                      0
TOTAL¬NET¬POSITION                                                             $582,355              $13,088,966                     $0
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                            $1,064,469             $13,499,067                     $0




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 196
Ordnance     Component Level      Combined Total     Eliminations   2004 Consolidated    2003 Consolidated




   $42,560          $1,549,938           $948,463              $0            $948,463            $1,548,546
         0                    0                  0              0                    0                    0
         0                    0                  0              0                    0                    0
         0                    0                  0              0                    0                    0
    34,752              (4,064)            444,923              0              444,923              411,254
       615             (46,896)                 79              0                   79                  329
   $77,927          $1,498,978          $1,393,465             $0           $1,393,465           $1,960,129
        $0                   $0                 $0             $0                   $0                   $0
     1,787                    0             13,482              0               13,482               31,176
         0                    0                  0              0                    0                    0
    56,290                    0         13,916,672              0           13,916,672           12,131,811
   288,939                    0            899,438              0              899,438              926,751
         0                    0                  0              0                    0                    0
       722                    0            265,122              0              265,122              269,877
  $425,665          $1,498,978         $16,488,179             $0          $16,488,179          $15,319,744




   $20,099            ($6,354)           $159,150              $0             $159,150             $435,586
         0                   0                  0               0                    0                    0
         0                   0                  0               0                    0                    0
    31,474            (47,655)             67,660               0               67,660               94,499
   $51,573           ($54,009)           $226,810              $0             $226,810             $530,085
   $45,034              $4,537           $372,054              $0             $372,054             $342,365
   127,469                   0            304,976               0              304,976              320,654

         0                   0                   0              0                    0                    0
         0                   0                   0              0                    0                    0
    51,327               (854)             213,452              0              213,452              231,004
         0                   0                   0              0                    0                    0
  $275,403           ($50,326)          $1,117,292             $0           $1,117,292           $1,424,108



        $0                  $0                 $53             $0                  $53              $11,960
   150,262           1,549,304          15,370,834              0           15,370,834           13,883,676
  $150,262          $1,549,304         $15,370,887             $0          $15,370,887          $13,895,636
  $425,665          $1,498,978         $16,488,179             $0          $16,488,179          $15,319,744




                                                                                                              197
Department of Defense- Army Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)



Program¬Costs                                        Combined Total        Eliminations       2004 Consolidated     2003 Consolidated
A.¬Component¬Level
Intragovernmental Gross Costs                               $2,112,347                 $0              $2,112,347          ($4,454,511)
(Less: Intragovernmental Earned Revenue)                     3,290,147                  0               3,290,147             1,476,501
Intragovernmental Net Costs                                 $5,402,494                 $0              $5,402,494          ($2,978,010)
Gross Costs With the Public                               ($5,375,497)                 $0            ($5,375,497)            $3,013,542
(Less: Earned Revenue From the Public)                               0                  0                       0                     0
Net Costs With the Public                                 ($5,375,497)                 $0            ($5,375,497)            $3,013,542
Total Net Cost                                                 $26,997                 $0                 $26,997               $35,532

B.¬Depot¬Maintenance
Intragovernmental Gross Costs                                 $271,082                 $0                $271,082             $561,486
(Less: Intragovernmental Earned Revenue)                   (2,653,482)                  0             (2,653,482)           (1,997,588)
Intragovernmental Net Costs                               ($2,382,400)                 $0            ($2,382,400)          ($1,436,102)
Gross Costs With the Public                                 $4,195,038                 $0              $4,195,038            $1,532,077
(Less: Earned Revenue From the Public)                     (1,917,228)                  0             (1,917,228)               (36,285)
Net Costs With the Public                                   $2,277,810                 $0              $2,277,810            $1,495,792
Total Net Cost                                              ($104,590)                 $0              ($104,590)               $59,690

C.¬Information¬Service
Intragovernmental Gross Costs                                       $0                 $0                     $0                 $4,278
(Less: Intragovernmental Earned Revenue)                             0                  0                      0               (96,444)
Intragovernmental Net Costs                                         $0                 $0                     $0              ($92,166)
Gross Costs With the Public                                         $0                 $0                     $0                $86,500
(Less: Earned Revenue From the Public)                               0                  0                      0                      0
Net Costs With the Public                                           $0                 $0                     $0                $86,500
Total Net Cost                                                      $0                 $0                     $0               ($5,666)




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 198
D.¬Ordnance                                 Combined Total     Eliminations   2004 Consolidated     2003 Consolidated
Intragovernmental Gross Costs                        $78,288             $0              $78,288               $54,744
(Less: Intragovernmental Earned Revenue)           (847,632)              0            (847,632)             (687,834)
Intragovernmental Net Costs                       ($769,344)             $0           ($769,344)            ($633,090)
Gross Costs With the Public                       $1,156,340             $0           $1,156,340              $794,785
(Less: Earned Revenue From the Public)             (223,173)              0            (223,173)               (23,831)
Net Costs With the Public                           $933,167             $0             $933,167              $770,954
Total Net Cost                                      $163,823             $0             $163,823              $137,864

E.¬Supply¬Management
Intragovernmental Gross Costs                      $386,277              $0             $386,277             $6,485,520
(Less: Intragovernmental Earned Revenue)         (8,245,086)              0           (8,245,086)           (8,978,526)
Intragovernmental Net Costs                     ($7,858,809)             $0          ($7,858,809)          ($2,493,006)
Gross Costs With the Public                       $8,185,418             $0            $8,185,418            $1,907,127
(Less: Earned Revenue From the Public)           (2,810,651)              0           (2,810,651)             (161,971)
Net Costs With the Public                         $5,374,767             $0            $5,374,767            $1,745,156
Total Net Cost                                  ($2,484,042)             $0          ($2,484,042)            ($747,850)

F.¬Total¬Program¬Costs
Intragovernmental Gross Costs                     $2,847,994             $0            $2,847,994            $2,651,517
(Less: Intragovernmental Earned Revenue)         (8,456,053)              0           (8,456,053)          (10,283,891)
Intragovernmental Net Costs                     ($5,608,059)             $0          ($5,608,059)          ($7,632,374)
Gross Costs With the Public                       $8,161,299             $0            $8,161,299            $7,334,031
(Less: Earned Revenue From the Public)           (4,951,052)              0           (4,951,052)             (222,087)
Net Costs With the Public                         $3,210,247             $0            $3,210,247            $7,111,944
Total Net Cost                                  ($2,397,812)             $0          ($2,397,812)            ($520,430)
Cost¬Not¬Assigned¬to¬Programs                             $0             $0                    $0                    $0
(Less:¬Earned¬Revenue¬Not¬Attributable¬to
¬Programs)                                                0               0                    0                        0
Net¬Cost¬of¬Operations                          ($2,397,812)             $0          ($2,397,812)           ($520,430)




                                                                                                                  199
Department of Defense- Army Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



                                                             Depot Maintenance          Supply Management          Information Service
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
Beginning¬Balances                                                        $338,406                  $13,226,131                  ($739)
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                        0                            0                       0
Beginning Balance, Restated                                                338,406                   13,226,131                   (739)
Prior Period Adjustments - Not Restated (+/-)                                    0                            0                       0
Beginning¬Balances,¬as¬adjusted                                           $338,406                  $13,226,131                  ($739)
Budgetary¬Financing¬Sources:
Appropriations received                                                          0                             0                         0
Appropriations transferred-in/out (+/-)                                          0                             0                         0
Other adjustments (rescissions, etc) (+/-)                                       0                             0                         0
Appropriations used                                                         19,738                       117,307                         0
Nonexchange revenue                                                              0                             0                         0
Donations and forfeitures of cash and cash equivalents                           0                             0                         0
Transfers-in/out without reimbursement (+/-)                                     0                   (1,448,600)                         0
Other budgetary financing sources (+/-)                                      1,701                       146,276                         0
Other¬Financing¬Sources:
Donations and forfeitures of property                                             0                            0                     0
Transfers-in/out without reimbursement (+/-)                                 33,497                  (1,454,505)                   739
Imputed financing from costs absorbed by others                              84,424                       18,263                     0
Other (+/-)                                                                       0                            0                     0
Total¬Financing¬Sources                                                   $139,360                  ($2,621,259)                  $739
Net¬Cost¬of¬Operations¬(+/-)                                              (104,590)                  (2,484,042)                     0
Ending¬Balances                                                           $582,356                  $13,088,914                     $0

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                               $0                     $11,960                      $0
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                         0                           0                       0
Beginning Balance, Restated                                                       0                      11,960                       0
Prior Period Adjustments - Not Restated (+/-)                                     0                           0                       0
Beginning¬Balances,¬as¬adjusted                                                  $0                     $11,960                      $0
Budgetary¬Financing¬Sources:
Appropriations received                                                      19,738                     105,400                          0
Appropriations transferred-in/out (+/-)                                           0                           0                          0
Other adjustments (rescissions, etc) (+/-)                                        0                           0                          0
Appropriations used                                                        (19,738)                   (117,307)                          0
Nonexchange revenue                                                               0                           0                          0
Donations and forfeitures of cash and cash equivalents                            0                           0                          0
Transfers-in/out without reimbursement (+/-)                                      0                           0                          0
Other budgetary financing sources (+/-)                                           0                           0                          0
Other¬Financing¬Sources:
Donations and forfeitures of property                                             0                           0                       0
Transfers-in/out without reimbursement (+/-)                                      0                           0                       0
Imputed financing from costs absorbed by others                                   0                           0                       0
Other (+/-)                                                                       0                           0                       0
Total¬Financing¬Sources                                                          $0                   ($11,907)                      $0
Net¬Cost¬of¬Operations¬(+/-)                                                      0                          0                       0
Ending¬Balances                                                                  $0                         $53                      $0




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 200
Ordnance      Component Level     Combined Total      Eliminations   2004 Consolidated     2003 Consolidated

   ($2,501)           $322,379         $13,883,676              $0          $13,883,676           $11,913,102

          0                  0                   0               0                    0                     0
    (2,501)            322,379          13,883,676               0           13,883,676            11,913,102
          0                  0                   0               0                    0                     0
   ($2,501)           $322,379         $13,883,676              $0          $13,883,676           $11,913,102

         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
    94,162                   0             231,207               0               231,207              267,083
         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
         0                   0         (1,448,600)               0           (1,448,600)                     0
    16,626              11,315             175,918               0               175,918              (63,903)

         0                    0                   0              0                     0                    0
   177,664            1,242,605                   0              0                     0              908,588
    28,134                    0             130,821              0               130,821              121,312
         0                    0                   0              0                     0              217,064
  $316,586           $1,253,920          ($910,654)             $0            ($910,654)           $1,450,144
   163,823               26,997         (2,397,812)              0           (2,397,812)            (520,430)
  $150,262           $1,549,302        $15,370,834              $0          $15,370,834           $13,883,676



        $0                  $0             $11,960              $0              $11,960               $30,043

         0                   0                   0               0                    0                     0
         0                   0              11,960               0               11,960                30,043
         0                   0                   0               0                    0                     0
        $0                  $0             $11,960              $0              $11,960               $30,043

     94,162                  0             219,300               0               219,300               249,000
          0                  0                   0               0                     0                     0
          0                  0                   0               0                     0                     0
   (94,162)                  0           (231,207)               0             (231,207)             (267,083)
          0                  0                   0               0                     0                     0
          0                  0                   0               0                     0                     0
          0                  0                   0               0                     0                     0
          0                  0                   0               0                     0                     0

         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
         0                   0                   0               0                     0                     0
        $0                  $0           ($11,907)              $0             ($11,907)             ($18,083)
        0                   0                   0               0                     0                     0
        $0                  $0                 $53              $0                   $53               $11,960




                                                                                                                 201
Department of Defense- Army Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



                                                         Depot Maintenance          Supply Management           Information Service
BUDGETARY¬FINANCING¬ACCOUNTS
BUDGETARY¬RESOURCES
Budget Authority:
Appropriations received                                                $19,738                    $105,400                         $0
Borrowing authority                                                          0                            0                         0
Contract authority                                                       6,450                    2,090,343                         0
Net transfers (+/-)                                                          0                  (1,448,600)                         0
Other                                                                        0                            0                         0
Unobligated balance:
Beginning of period                                                  1,339,455                        23,667                   14,119
Net transfers, actual (+/-)                                                  0                        19,104                 (19,104)
Anticipated Transfers Balances                                               0                             0                        0
Spending authority from offsetting collections:
Earned                                                                        0                          0                           0
Collected                                                            2,683,117                   8,647,506                        (24)
Receivable from Federal sources                                         (6,875)                     18,413                    (6,636)
Change in unfilled customer orders                                            0                          0                           0
Advance received                                                       (22,752)                      8,079                          24
Without advance from Federal sources                                   (89,307)                     68,956                   (22,522)
Anticipated for the rest of year, without advances                            0                          0                           0
Transfers from trust funds                                                    0                          0                           0
Subtotal                                                            $2,564,183                  $8,742,954                  ($29,158)
Recoveries of prior year obligations                                      7,587                    452,252                     34,143
Temporarily not available pursuant to Public Law                              0                          0                           0
Permanently not available                                                     0                          0                           0
Total¬Budgetary¬Resources                                           $3,937,413                  $9,985,120                          $0

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                                      $0                             $0                      $0
Reimbursable                                                         3,053,586                      9,869,905                       0
Subtotal                                                             3,053,586                      9,869,905                       0
Unobligated balance:
Apportioned                                                            883,827                     115,215                          0
Exempt from apportionment                                                    0                           0                          0
Other available                                                              0                           0                          0
Unobligated Balances Not Available                                           0                           0                          0
Total,¬Status¬of¬Budgetary¬Resources                                $3,937,413                  $9,985,120                         $0

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                        ($672,329)                  $3,034,607                    $4,986
Obligated Balance transferred, net (+/-)                                     0                           0                         0
Obligated Balance, Net - end of period:
Accounts receivable                                                   (151,479)                   (273,969)                           0
Unfilled customer order from Federal sources                        (1,102,794)                 (2,917,175)                           0
Undelivered orders                                                      938,897                   7,173,522                           0
Accounts payable                                                        233,707                     297,510                           0
Outlays:
Disbursements                                                         2,551,521                   8,085,003                         0
Collections                                                         (2,660,365)                 (8,655,586)                         0
Subtotal                                                             ($108,844)                  ($570,583)                        $0
Less: Offsetting receipts                                                     0                           0                         0
Net¬Outlays                                                          ($108,844)                  ($570,583)                        $0




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 202
Ordnance       Component Level     2004 Combined      2003 Combined



    $94,162                  $0           $219,300           $249,000
          0                   0                   0                 0
      9,575                   0           2,106,368            67,627
          0                   0         (1,448,600)                 0
          0                   0                   0                 0

    616,463              99,999          2,093,703          1,708,247
          0                   0                  0                  0
          0                   0                  0                  0

           0                   0                  0                 0
    897,075               38,186        12,265,860          9,644,303
    (20,492)            (38,186)           (53,776)           236,175
           0                   0                  0                 0
     (2,597)                   0           (17,246)         (179,239)
    (86,027)                   0         (128,900)          2,351,152
           0                   0                  0                 0
           0                   0                  0                 0
  $787,959                    $0       $12,065,938        $12,052,391
       5,751                   0           499,733            587,959
           0                   0                  0                 0
           0                   0                  0                 0
 $1,513,910             $99,999        $15,536,442        $14,665,224




         $0                  $0                 $0           $249,028
  1,019,425              63,286         14,006,202         12,322,493
  1,019,425              63,286         14,006,202         12,571,521

    494,485              36,714          1,530,241          2,093,704
          0                    0                  0                  0
          0                  (1)                (1)                (1)
          0                    0                  0                  0
 $1,513,910             $99,999        $15,536,442        $14,665,224


  ($405,646)           ($63,286)        $1,898,332           $918,667
           0                   0                 0                  0

    (36,300)              (854)           (462,602)          (516,379)
   (502,744)                  0         (4,522,713)        (4,651,613)
     222,235                  0           8,334,654          6,085,073
      85,277              2,247             618,741            981,250

     946,079              36,794         11,619,397          8,416,571
   (894,477)            (38,186)       (12,248,614)        (9,465,064)
     $51,602            ($1,392)         ($629,217)       ($1,048,493)
           0                   0                  0                  0
     $51,602            ($1,392)         ($629,217)       ($1,048,493)




                                                                         203
Department of Defense- Army Working Capital Fund
COMBINING STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)


                                                                                           Depot Maintenance       Supply Management
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
Obligations incurred                                                                                 $3,053,586             $9,869,905
Less: Spending authority from offsetting collections and recoveries (-)                              (2,571,769)            (9,195,206)
Obligations net of offsetting collections and recoveries                                               $481,817               $674,699
Less: Offsetting receipts (-)                                                                                  0                      0
Net obligations                                                                                        $481,817               $674,699
Other Resources
Donations and forfeitures of property                                                                         0                       0
Transfers in/out without reimbursement (+/-)                                                             33,497             (1,454,506)
Imputed financing from costs absorbed by others                                                          84,424                  18,263
Other (+/-)                                                                                                   0                       0
Net other resources used to finance activities                                                         $117,921            ($1,436,243)
Total¬resources¬used¬to¬finance¬activities                                                             $599,738              ($761,544)

Resources¬Used¬to¬Finance¬Items¬not¬Part
of¬the¬Net¬Cost¬of¬Operations
Change in budgetary resources obligated for goods,
services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                               ($491,392)            ($1,957,052)
Unfilled Customer Orders                                                                              (112,060)                  77,035
Resources that fund expenses recognized in prior periods                                               (12,810)                 (2,779)
Budgetary offsetting collections and receipts that                                                            0                       0
      do not affect net cost of operations
Resources that finance the acquisition of assets                                                     (1,238,424)            (4,816,700)
Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                            0                     0
Other (+/-)                                                                                             (33,497)             1,454,506
Total¬resources¬used¬to¬finance¬items¬not
      part¬of¬the¬net¬cost¬of¬operations                                                            ($1,888,183)           ($5,244,990)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                          ($1,288,445)           ($6,006,534)

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future
Period:
Increase in annual leave liability                                                                           $0                     $0
Increase in environmental and disposal liability                                                              0                      0
Upward/Downward reestimates of credit subsidy expense (+/-)                                                   0                      0
Increase in exchange revenue receivable from the the public (-)                                               0                      0
Other (+/-)                                                                                                   0                      0
Total components of Net Cost of Operations that
      will require or generate resources in future periods                                                   $0                     $0
Components not Requiring or Generating Resources:
Depreciation and amortization                                                                             23,519                41,292
Revaluation of assets or liabilities (+/-)                                                              (39,833)               251,083
Other (+/-)
Trust Fund Exchange Revenue                                                                                   0                      0
Cost of Goods Sold                                                                                    1,652,791              3,218,449
Operating Material & Supplies Used                                                                            0                      0
Other                                                                                                 (452,619)                 11,666
Total components of Net Cost of Operations that
      will not require or generate resources                                                         $1,183,858             $3,522,490
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                         $1,183,858              $3,522,490
Net¬Cost¬of¬Operations                                                                               ($104,587)            ($2,484,044)


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 204
Information Service    Ordnance       Component Level       2004 Combined      2003 Combined


                  $0    $1,019,425              $63,286         $14,006,202        $12,571,521
             (4,986)     (793,710)                    0         (12,565,671)       (12,640,348)
            ($4,986)     $225,715               $63,286           $1,440,531          ($68,827)
                   0             0                    0                    0                  0
            ($4,986)     $225,715               $63,286           $1,440,531          ($68,827)

                   0             0                    0                   0                  0
                 739       177,664            1,242,606                   0            908,589
                   0        28,134                    0             130,821            121,312
                   0             0                    0                   0            217,064
               $739       $205,798           $1,242,606           $130,821          $1,246,965
            ($4,247)      $431,513           $1,305,892          $1,571,352         $1,178,138




            $20,612       ($33,559)           ($36,290)         ($2,497,681)       ($3,301,433)
            (22,498)       (88,624)                   0            (146,147)          2,171,911
                   0        (7,748)                   0             (23,337)             (2,765)
                   0              0                   0                    0                   0

                  0       (159,425)                     0        (6,214,549)          (324,219)


                   0              0                    0                  0                   0
               6,133      (177,664)          (1,242,606)              6,872                   0

              $4,247     ($467,020)         ($1,278,896)        ($8,874,842)       ($1,456,506)
                  $0      ($35,507)              $26,996        ($7,303,490)         ($278,368)




                 $0         $1,376                   $0              $1,376             $1,995
                  0              0                    0                   0                   0
                  0              0                    0                   0                   0
                  0              0                    0                   0             (6,079)
                  0            172                    0                 172             16,466

                 $0         $1,548                   $0              $1,548            $12,382

                  0         18,098                      0            82,909             194,093
                  0         46,218                      0           257,468           (448,537)

                  0              0                      0                 0                   0
                  0        132,605                      0         5,003,845                   0
                  0              0                      0                 0                   0
                  0            861                      0         (440,092)                   0

                 $0       $197,782                   $0          $4,904,130         ($254,444)

                 $0       $199,330                   $0           $4,905,678        ($242,062)
                 $0       $163,823              $26,996         ($2,397,812)        ($520,430)


                                                                                                   205
Department of Defense- Army Working Capital Fund
 67$7(0(17 2) ',6$**5(*$7(' %8'*(7$5< 5(6285&(6
As of September 30, 2004 and 2003 ($ in Thousands)



%8'*(7$5<¬5(6285&(6                                   :RUNLQJ &DSLWDO )XQGV
                                                                         :RUNLQJ
                                                                                  &DS&RPELQHG             &RPELQHG
%XGJHWDU\ )LQDQFLQJ $FFRXQWV
Budget Authority:
Appropriations received                                                $219,300              $219,300           $249,000
Borrowing authority                                                            0                     0                 0
Contract authority                                                     2,106,368             2,106,368            67,627
Net transfers (+/-)                                                  (1,448,600)           (1,448,600)                 0
Other                                                                          0                     0                 0
Unobligated balance:
Beginning of period                                                    2,093,704             2,093,703         1,708,247
Net transfers, actual (+/-)                                                    0                     0                 0
Anticipated Transfers Balances                                                 0                     0                 0
Spending authority from offsetting collections:
Earned                                                                          0                    0                 0
Collected                                                             12,265,860           12,265,860          9,644,303
Receivable from Federal sources                                          (53,776)             (53,776)           236,175
Change in unfilled customer orders                                              0                    0                 0
Advance received                                                         (17,247)             (17,246)         (179,239)
Without advance from Federal sources                                   (128,900)            (128,900)          2,351,152
Anticipated for the rest of year, without advances                              0                    0                 0
Transfers from trust funds                                                      0                    0                 0
Subtotal                                                             $12,065,937          $12,065,938        $12,052,391
Recoveries of prior year obligations                                     499,733              499,733            587,959
Temporarily not available pursuant to Public Law                                0                    0                 0
Permanently not available                                                       0                    0                 0
7RWDO¬%XGJHWDU\¬5HVRXUFHV                                            $15,536,442          $15,536,442        $14,665,224

67$786¬2)¬%8'*(7$5<¬5(6285&(6
Obligations incurred:
Direct                                                                        $0                    $0         $249,028
Reimbursable                                                          14,006,201            14,006,202        12,322,493
Subtotal                                                              14,006,201            14,006,202        12,571,521
Unobligated balance:
Apportioned                                                            1,530,241            1,530,241          2,093,704
Exempt from apportionment                                                      0                     0                  0
Other available                                                                0                   (1)                (1)
Unobligated Balances Not Available                                             0                     0                  0
7RWDO¬6WDWXV¬RI¬%XGJHWDU\¬5HVRXUFHV                                 $15,536,442          $15,536,442        $14,665,224

5HODWLRQVKLS¬RI¬2EOLJDWLRQV¬WR¬2XWOD\V
Obligated Balance, Net - beginning of period                          $1,898,332            $1,898,332          $918,667
Obligated Balance transferred, net (+/-)                                       0                     0                 0
Obligated Balance, Net - end of period:
Accounts receivable                                                    (462,602)             (462,602)          (516,379)
Unfilled customer order from Federal sources                         (4,522,713)           (4,522,713)        (4,651,613)
Undelivered orders                                                     8,334,654             8,334,654          6,085,073
Accounts payable                                                         618,741               618,741            981,250
Outlays:
Disbursements                                                         11,619,396            11,619,397          8,416,571
Collections                                                         (12,248,614)          (12,248,614)        (9,465,064)
Subtotal                                                              ($629,218)            ($629,217)       ($1,048,493)
Less: Offsetting receipts                                                      0                     0                  0
1HW¬2XWOD\V                                                           ($629,218)            ($629,217)       ($1,048,493)




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 206
%8'*(7$5<¬5(6285&(6                                  :RUNLQJ &DSLWDO )XQGV        &RPELQHG    &RPELQHG
1RQ%XGJHWDU\ )LQDQFLQJ $FFRXQWV
Budget Authority:
Appropriations received                                                  $0                 $0              $0
Borrowing authority                                                       0                  0               0
Contract authority                                                        0                  0               0
Net transfers (+/-)                                                       0                  0               0
Other                                                                     0                  0               0
Unobligated balance:
Beginning of period                                                          0               0               0
Net transfers, actual (+/-)                                                  0               0               0
Anticipated Transfers Balances                                               0               0               0
Spending authority from offsetting collections:
Earned                                                                    0                  0               0
Collected                                                                 0                  0               0
Receivable from Federal sources                                           0                  0               0
Change in unfilled customer orders                                        0                  0               0
Advance received                                                          0                  0               0
Without advance from Federal sources                                      0                  0               0
Anticipated for the rest of year, without advances                        0                  0               0
Transfers from trust funds                                                0                  0               0
Subtotal                                                                 $0                 $0              $0
Recoveries of prior year obligations                                      0                  0               0
Temporarily not available pursuant to Public Law                          0                  0               0
Permanently not available                                                 0                  0               0
7RWDO¬%XGJHWDU\¬5HVRXUFHV                                                $0                 $0              $0

67$786¬2)¬%8'*(7$5<¬5(6285&(6
Obligations incurred:
Direct                                                                   $0                 $0              $0
Reimbursable                                                              0                  0               0
Subtotal                                                                  0                  0               0
Unobligated balance:
Apportioned                                                               0                  0               0
Exempt from apportionment                                                 0                  0               0
Other available                                                           0                  0               0
Unobligated Balances Not Available                                        0                  0               0
7RWDO¬6WDWXV¬RI¬%XGJHWDU\¬5HVRXUFHV                                     $0                 $0              $0

5HODWLRQVKLS¬RI¬2EOLJDWLRQV¬WR¬2XWOD\V
Obligated Balance, Net - beginning of period                             $0                 $0              $0
Obligated Balance transferred, net (+/-)                                  0                  0               0
Obligated Balance, Net - end of period:
Accounts receivable                                                          0               0               0
Unfilled customer order from Federal sources                                 0               0               0
Undelivered orders                                                           0               0               0
Accounts payable                                                             0               0               0
Outlays:
Disbursements                                                             0                  0               0
Collections                                                               0                  0               0
Subtotal                                                                 $0                 $0              $0
Less: Offsetting receipts                                                 0                  0               0
1HW¬2XWOD\V                                                              $0                 $0              $0




                                                                                                                 207
 Required Supplemental Information - Part A
AT97 - Army Working Capital Fund
                                                                         Government Transactions from the Consolidating Trial Balance
Schedule, Part A DoD Intragovernmental
                                                  Treasury       Fund Balance        Accounts         Loans
Asset Balances                                                                                                 Investments Other
                                                   Index:        with Treasury       Receivable     Receivable
($ Amounts in Thousands).
Executive Office of the President                     11                                      $0
Department of Agriculture                             12                                     $62
Department of Commerce                                13                                      $1
Department of the Interior                            14                                      $0
Department of Justice                                 15                                     $12
Navy General Fund                                     17                                 $14,767
Department of State                                   19                                     $23
Department of the Treasury                            20               $948,463               $6
Army General Fund                                     21                                $371,336                                $1
Department of Veterans Affairs                        36                                      $8
General Service Administration                        47                                   $135
Air Force General Fund                                57                                 $19,595
Federal Emergency Management Agency                   58                                   $846
Department of Transportation                          69                                   $523
Homeland Security                                     70                                  $2,851
Department of Health and Human Services               75                                     $44

National Aeronautics and Space Administration         80                                     $48

Department of Energy                                  89                                      $3
U.S. Army Corps of Engineers                          96                                   $493
Other Defense Organizations General Funds             97                                  $4,951
Other Defense Organizations Working Capital
                                                   97-4930                               $18,599
Funds
Navy Working Capital Fund                        97-4930.002                              $6,320
Air Force Working Capital Fund                   97-4930.003                              $4,302                               $78
     Totals:                                                           $948,463         $444,925                               $79




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 208
Required Supplemental Information - Part B
AT97 - Army Working Capital Fund
                                                                    Government Transactions from the Consolidating Trial Balance
Schedule, Part B DoD Intragovernmental entity                            Accounts      Debts/Borrowings From
                                                    Treasury Index:                                                  Other
liabilities ($ Amounts in Thousands).                                     Payable         Other Agencies
Department of Labor                                        16                                                         $50,084
Navy General Fund                                          17                $8,638                                       $11
Army General Fund                                          21               $30,871                                    $6,092
Office of Personnel Management                             24                                                          $6,614
General Service Administration                             47                                                          ($476)
Air Force General Fund                                     57                  $749                                    ($442)
Homeland Security                                          70                                                              $6
U.S. Army Corps of Engineers                               96                                                              $0
Other Defense Organizations General Funds                  97                  $125                                       $24
Other Defense Organizations Working Capital Funds       97-4930            $106,621                                    $5,720
Navy Working Capital Fund                             97-4930.002            $6,832                                       $15
Air Force Working Capital Fund                        97-4930.003            $5,316                                       $10
      Totals:                                                              $159,152                                   $67,658




                                                                                                                             209
Required Supplemental Information - Part C
AT97 - Army Working Capital Fund
                                                                          Government Transactions from the Consolidating Trial Balance
Schedule, Part C DoD Intragovernmental revenue and related costs
                                                                                     Treasury Index:           Earned Revenue
($ Amounts in Thousands).
Department of Agriculture                                                                    12                                $260
Department of Commerce                                                                       13                                  $2
Department of the Interior                                                                   14                                 $42
Department of Justice                                                                        15                                $301
Navy General Fund                                                                            17                           $387,139
Department of State                                                                          19                                $790
Department of the Treasury                                                                   20                                $398
Army General Fund                                                                            21                          $7,372,038
Department of Veterans Affairs                                                               36                                  $8
General Service Administration                                                               47                                $608
Air Force General Fund                                                                       57                           $114,309
Federal Emergency Management Agency                                                          58                                $846
Department of Transportation                                                                 69                              $3,858
Homeland Security                                                                            70                             $21,387
Department of Health and Human Services                                                      75                                $210
National Aeronautics and Space Administration                                                80                                $629
Department of Energy                                                                         89                                  $4
U.S. Army Corps of Engineers                                                                 96                              $1,318
Other Defense Organizations General Funds                                                    97                           $180,207
Other Defense Organizations Working Capital Funds                                         97-4930                           $36,481
Navy Working Capital Fund                                                               97-4930.002                       $162,159
Air Force Working Capital Fund                                                          97-4930.003                       $173,059
     Totals:                                                                                                             $8,456,053




Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 210
Required Supplemental Information - Part E
AT97 - Army Working Capital Fund
                                                             Government Transactions from the Consolidating Trial Balance
Schedue, Part E DoD Intragovernmental
                                                    Treasury Index: Transfers In       Transfers Out
Non-exchange Revenues ($ Amounts in Thousands).
Army General Fund                                          21                                               $1,407,000
Other Defense Organizations Working Capital Funds       97-4930                                                $41,600
     Totals:                                                                                                $1,448,600




                                                                                                                      211
                                                     INSPECTOR GENERAL
                                                     DEPARTMENT OF DEFENSE
                                                        400 ARMY NAVY DRIVE
                                                   ARLINGTON, VIRGINIA 22202-4704




                                                                                                    November 8, 2004

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND
COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2004 Army Working Capital Fund Financial
         Statements (Report No. D-2005-010)

The Chief Financial Ofﬁcers Act of 1990, as amended by the Federal Financial Management Act of 1994,
requires Federal agency Inspectors General appointed under the Inspector General Act of 1978, as amended,
to audit their respective agency’s ﬁnancial statements or determine that “an independent external auditor”
should conduct such audits. Pursuant to this statutory authority, the undersigned Inspector General assumed
responsibility for auditing the accompanying Army Working Capital Fund Consolidated Balance Sheet as of
September 30, 2004 and 2003, the related Consolidated Statement of Net Cost, the Consolidated Statement of
Changes in Net Position, the Combined Statement of Budgetary Resources, and the Combined Statement of
Financing for the ﬁscal years then ended.

The ﬁnancial statements are the responsibility of Army management. The Army is also responsible for
implementing effective internal control and for complying with laws and regulations. We are unable to give
an opinion on the FY 2004 ﬁnancial statements of the Army Working Capital Fund because of limitations
on the scope of our work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer of
opinion on the ﬁnancial statements, we are including the required Report on Internal Control and Compliance
with Laws and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is
an integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing
the results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that
the ﬁnancial management and feeder systems that DoD relies on to provide evidence supporting the Army
Working Capital Fund ﬁnancial statements do not comply with Federal ﬁnancial management system
requirements, generally accepted accounting principles, and the U.S. Government Standard General Ledger
at the transaction level. Therefore, we did not perform auditing procedures to determine whether material
amounts on the ﬁnancial statements were fairly presented. We did not perform these and other auditing
procedures because Section 1008(d) of the FY 2002 National Defense Authorization Act limits the Inspector
General of the Department of Defense to perform only audit procedures required by generally accepted
government auditing standards that are consistent with the representations made by management. The Army
Working Capital Fund has also acknowledged, and prior audits have identiﬁed, the material weaknesses
listed in the Summary of Internal Control. These material weaknesses also affect the reliability of certain
information contained in the annual ﬁnancial statements—much of which is taken from the same data sources




  “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                             time.”—Constitution of the United States, Article I, Section 9


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 212
as the principal ﬁnancial statements.1 As described above, we are unable to express, and we do not express,
an opinion on the ﬁnancial statements and the accompanying information.


Summary of Internal Control
In planning our audit, we considered the Army Working Capital Fund internal control over ﬁnancial reporting
and compliance. We did this to determine our procedures for auditing the ﬁnancial statements and to
comply with Ofﬁce of Management and Budget guidance but our purpose was not to express an opinion on
internal control. Accordingly, we do not express an opinion on internal control over ﬁnancial reporting and
compliance. However, previously identiﬁed reportable conditions,2 all of which are material, continued to
exist in the following areas:

      Financial Management Systems and Processes;
      Inventory and Related Property;
      General Property, Plant, and Equipment;
      Accounting Adjustments;
      Accounts Payable;
      Intragovernmental Eliminations;
      Statement of Net Cost; and
      Statement of Financing.
A material weakness is a condition that precludes the entity’s internal control from providing reasonable
assurance that misstatements, losses, or noncompliance that are material in relation to the ﬁnancial statements
would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
all material weaknesses. See the Attachment for additional details on material internal control weaknesses.


Summary of Compliance With Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to
ﬁnancial reporting was limited because management acknowledged, and prior audits conﬁrm, that instances
of noncompliance continue to exist. The Army is unable to comply with the requirements of the Chief
Financial Ofﬁcers Act of 1990, as amended. The Assistant Secretary of the Army (Financial Management
and Comptroller) acknowledged that many of its critical ﬁnancial management and feeder systems do not
comply with the requirements of the Federal Financial Management Information Act of 1996. Therefore, we
did not determine whether the Army Working Capital Fund was in compliance with all applicable laws and
regulations related to ﬁnancial reporting. See the Attachment for additional details on compliance with laws
and regulations.




1
 The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and
combining ﬁnancial statements, Required Supplementary Stewardship Information, Required Supplementary Information, and Other
Accompanying Information.

2
  Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to management
because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could adversely affect the organization’s
ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of management in ﬁnancial statements.



    “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                               time.”—Constitution of the United States, Article I, Section 9


                                                                                                                                           213
Management Responsibility
Management is responsible for:

     preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
     establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
     control objectives of the Federal Managers’ Financial Integrity Act of 1982 are met; and
     complying with applicable laws and regulations.
We provided a draft of this report to Army ofﬁcials who provided no comments to the report.




Attachment:
As stated




  “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                             time.”—Constitution of the United States, Article I, Section 9


Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 214
Report on Internal Control and Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly and that assets are
safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion
on internal control over ﬁnancial reporting because management acknowledged that previously identiﬁed
reportable conditions, all of which are material, continue to exist. The following ﬁnancial management
deﬁciencies are indications of material weaknesses in internal control that may adversely affect any decision
by the Army that is based, in whole or in part, on information that is inaccurate because of these deﬁciencies.
Financial information reported by the Army Working Capital Fund also may contain misstatements resulting
from these deﬁciencies.

Financial Management Systems and Processes. The systems used for the Army Working Capital Fund are
unable to meet all of the requirements for full accrual accounting because the systems were not designed to
collect and record ﬁnancial information, as required by generally accepted accounting principles. Financial
and non-ﬁnancial feeder systems are not integrated and do not contain an audit trail for the proprietary and
budgetary accounts. The Army Working Capital Fund derives most of its ﬁnancial information for major
accounts from noncompliant ﬁnancial systems, such as the Commodity Command Standard System. The
Army Working Capital Fund began implementation of the Logistics Modernization Program during FY
2003. However, because of numerous problems, the Army delayed the second round of implementation
until the third quarter of FY 2005. The Army Working Capital Fund disclosed ﬁnancial management system
deﬁciencies in the footnotes to the FY 2004 ﬁnancial statements. The DoD-wide systemic deﬁciencies in
ﬁnancial management systems and business processes result in the inability to collect and report ﬁnancial and
performance information that is accurate, reliable, and timely.

Inventory and Related Property. The existing inventory valuation method does not produce an auditable
approximation of historical cost. The Army Working Capital Fund uses the latest acquisition cost method of
valuing most of its inventory because its legacy inventory systems were designed for materiel management
rather than accounting. The systems provide accountability and visibility over inventory items, but do
not maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting
Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.” In addition, the systems are
unable to produce ﬁnancial transactions using the U.S. Government Standard General Ledger accounts
and neither the Defense Finance and Accounting Service (DFAS) nor the Army reconciled all differences
between the accounting records and the logistical records. Instead, they accepted the data from the logistical
records and adjusted the accounting records by about $3.4 billion. The Logistics Modernization Program
uses the moving average cost method of valuing inventory and the U.S. Government Standard General
Ledger accounts to record ﬁnancial transactions. During the initial deployment phase, Army and DFAS users
reported problems associated with duplicate and inaccurate posting of inventory and ﬁnancial transactions.
Further, the Army had not completed physical inventories nor established adequate controls over items in
transit.

General Property, Plant, and Equipment. The value of Army Working Capital Fund General Property,
Plant, and Equipment is not reliably reported because of the lack of supporting documentation, the failure
to correctly compute depreciation, and the failure to fully report value of property in the possession of
contractors. Information on the acquisition date and cost was not always available and was sometimes
recorded incorrectly. In addition, the Integrated Facilities System, the system that provides real property
information to the Defense Property Accountability System, was a noncompliant system. The Integrated
Facilities System was not able to calculate depreciated values for real property, preserve previous values
by handling both positive and negative numbers, and provide an audit trail of all real property. Systems
improvements to address these deﬁciencies are planned, but have not yet been completed.


                                                                                                              215
Accounting Adjustments. DFAS Indianapolis did not adequately support about $11.5 billion in adjustments
to force amounts to agree with other sources of information and records used to prepare the FY 2004 Army
Working Capital Fund Financial Statements. An additional $31.6 million in adjustments did not have
adequate documentation attached to the journal vouchers to support either the reason for the adjustments or
the dollar values. The unsupported adjusting accounting entries presented a material uncertainty regarding
the line item balances on the FY 2004 Army Working Capital Fund Financial Statements. These adjustments
affected the ﬁnancial information on all of the statements. DFAS Indianapolis did not always follow the
established minimum requirements for documenting journal vouchers to support adjusting accounting entries
made to the general ledger accounts.

Accounts Payable. DFAS Indianapolis made signiﬁcant adjustments to the accounts payable balances to
derive the reported balances. DFAS Indianapolis adjusted accounts payable with the public upward by $2.2
million for undistributed disbursements. Also, the Army Working Capital Fund was unable to reconcile
intragovernmental accounts payable to the related intragovernmental accounts receivable that generated the
payable. As a result, DFAS made $2.3 million in unsupported adjustments to decrease intragovernmental
accounts payable to force the amounts to agree with Army trading partners. In addition, accounts payable in
the Supply Management activity group were not established in accordance with SFFAS No. 1, “Accounting
for Selected Assets and Liabilities,” which requires that an accounts payable be established when the entity
accepts title to the goods or services. The Army Working Capital Fund recognized accounts payable based
on the physical receipt of the goods or services rather than when the Government accepted title to the goods
or services. As a result, the Army Working Capital Fund could not ensure that its accounts payable were not
materially misstated.

Intragovernmental Eliminations. The inability to reconcile most intragovernmental transactions results
in adjustments that cannot be veriﬁed. DoD and Army accounting systems were not capable of capturing
trading partner data at the transaction level in a manner that facilitated trading partner reconciliations, and
DoD guidance did not require adequate support for intragovernmental eliminations. As a result, DoD did
not require trading partner reconciliations, but required that buyer-side transaction data be forced to agree
with seller-side transaction data without performing proper reconciliations. DFAS Indianapolis made $6.0
billion in adjustments to intragovernmental accounts to force the accounts to agree with the records of Army
Working Capital Fund trading partners.

Statement of Net Cost. The Statement of Net Cost was not presented by responsibility segments that were
consistent with DoD performance goals and measures. Accounting systems were unable to accurately capture
costs for Army Working Capital Fund programs and properly account for intragovernmental transactions and
related eliminations. In addition, some of the Army Working Capital Fund’s ﬁnancial data presented on the
Statement of Net Cost were based on budgetary transactions.

Statement of Financing. The Army cannot reconcile budgetary obligations to net cost without making
unsupported adjustments. The Statement of Financing was prepared on a combined basis, while the
Statement of Net Cost was prepared on a consolidated basis.


Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting.
Our work to determine compliance with selected provisions of the applicable laws and regulations was
limited because management acknowledged instances of noncompliance, and previously reported instances
of noncompliance continue to exist. Therefore, we did not determine whether the Army Working Capital
Fund was in compliance with selected provisions of all applicable laws and regulations related to ﬁnancial
reporting. Our objective was not to, and we do not, express an opinion on compliance with applicable laws
and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army Working Capital Fund is
required to comply with the following ﬁnancial management systems reporting requirements.

Working Capital Fund – Principal Financial Statements, Notes, and Supplementary Information — 216
The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain
ﬁnancial management systems that comply substantially with Federal ﬁnancial management systems
requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger
at the transaction level. In addition, the Federal Managers’ Financial Integrity Act of 1982 requires the Army
to evaluate its systems and to annually report whether those systems are in compliance with applicable
requirements. The Chief Financial Ofﬁcers Act of 1990 requires that each agency develop and maintain an
integrated agency accounting and ﬁnancial management system, including ﬁnancial reporting and internal
control. The system should comply with internal control standards, applicable accounting principles,
standards, and requirements, and provide complete, reliable, consistent, and timely information.

The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged that many
of its critical ﬁnancial management and feeder systems did not substantially comply with Federal ﬁnancial
management systems requirements, generally accepted accounting principles, and the U.S. Government
Standard General Ledger at the transaction level. The Army was also unable to comply with the Chief
Financial Ofﬁcers Act of 1990, which requires agencies to develop and maintain integrated agency
accounting and ﬁnancial systems.

In an attempt to comply with statutory reporting requirements and applicable ﬁnancial systems requirements,
DoD is developing a DoD-wide Business Enterprise Architecture. The architecture will provide a blueprint
of the Department’s ﬁnancial management systems and processes to initiate a comprehensive ﬁnancial
management reform effort. Until the architecture is fully developed, the Army Working Capital Fund will
be unable to fully comply with the statutory reporting requirements. Therefore, we did not perform tests of
compliance for these requirements.


Audit Disclosures
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on
March 9, 2004, that ﬁnancial management systems used by the Army Working Capital Fund cannot provide
adequate evidence supporting various material amounts on the ﬁnancial statements.

Our review of internal control was limited to followup work on deﬁciencies identiﬁed in previous audit
reports. We primarily focused on the deﬁciencies related to the material weaknesses reported in the audits of
the FY 2003 Army Working Capital Fund Financial Statements.

We performed limited tests of Army Working Capital Fund compliance with laws and regulations that have a
direct and material effect on the ﬁnancial statement information. We did not perform audit work related to the
following selected provisions of laws and regulations:

    Anti-Deﬁciency Act
    Provisions Governing Claims of the United States Government
    Federal Credit Reform Act of 1990
    Pay and Allowance System for Civilian Employees
    Prompt Payment Act
This report does not include recommendations to correct the material internal control weaknesses and
instances of noncompliance because previous audit reports contained recommendations for corrective
actions.




                                                                                                            217
Civil Works Fund – Management’s Discussion & Analysis
Overview
Mission
The Civil Works’ mission is constantly evolving to keep pace with the changing needs of the Nation.

Developing and Managing Water Resources
The original Civil Works’ mission, as it related to developing and managing water resources, was to support
navigation by maintaining and improving water channels. In 1824, legislation authorized the Corps of
Engineers (USACE) to improve safety on the Ohio and Mississippi Rivers. In 1909, the Rivers and Harbors
Act authorized the consideration of various water uses—including hydroelectric power generation—in the
planning, design, and construction of water resource development projects. The Flood Control Act of 1917
established a role for Civil Works in ﬂood damage reduction, and in 1936 the Flood Control Act gave Civil
Works the responsibility for providing ﬂood protection for the entire country.

Recreation was added to the Civil Works portfolio by the Flood Control Act of 1944, which authorized the


Civil Works Fund – Management’s Discussion & Analysis — 218
The Civil Works’ mission is constantly evolving to keep pace
with the changing needs of the Nation. Today, those missions
fall in four broad areas: water infrastructure, environmental
management and restoration, emergency response and
assistance, and engineering support and technical services.




provision of recreational facilities at reservoirs. The River and Harbor Flood Control Act expanded this
authority in 1962, providing authority to build, where feasible, recreational facilities as part of all water
resource development projects.

Another aspect of water resources management is that of water supply. The changing role of the Civil
Works Program in water supply has been directed by a series of Water Resources Development Acts. The
Water Supply Act of 1958 gave Civil Works the authority to include water storage in both new and existing
reservoir projects for municipal and industrial uses at 100 percent non-Federal cost.

Protecting, Restoring, and Managing the Environment
The Rivers and Harbors Act of 1899 required the Corps of Engineers to prevent the obstruction of navigable
waterways. As concerns over the environment grew in the late 20th century, the Clean Water Act of 1972
greatly broadened the Corps’ responsibility by providing authority over the dredging and ﬁlling in of “the
waters of the United States,” including the country’s wetlands. The program’s environmental responsibilities
were further broadened by new legislation, introduced in 1986, that expanded the Corps’ traditional
environmental mitigation activities to include the enhancement and restoration of the natural environment
at Corps projects and in areas not directly tied to those projects. This legislation made the provision of
environmental protection one of the primary missions of the Corps’ water resource development activities.

                                                                                                                219
Responding to and Assisting in Disaster Relief                                 role for Civil Works in emergency relief and
Throughout its history, America has relied upon Civil                          recovery operations is to provide public works and
Works for help in times of national disaster. This                             engineering support.
help is now provided under two basic authorities:
the Flood Control and Coastal Emergency Act                                    Providing Engineering Support and Technical
(P.L. 84-99, as amended), and the Stafford Disaster                            Services
and Emergency Assistance Act. Under P.L. 84-                                   In Titles 10 and 33 of the U.S. Code, Congress
99, the Civil Works Program has direct authority                               expresses its intent that the U.S. Army Corps of
to provide emergency assistance during or                                      Engineers provide services on a reimbursable
following ﬂooding events to protect lives, public                              basis to other Federal entities; state, local, and
facilities, and infrastructure. Under the Stafford                             tribal governments; private ﬁrms; and international
Act, the program supports the Federal Emergency                                organizations. Additional authorities to provide
Management Agency (FEMA) in carrying out the                                   services that are applicable to all Federal agencies
Federal Response Plan, which calls upon 26 Federal                             are provided in Titles 15, 22 and 31. These
departments and agencies to provide coordinated                                authorities include providing services to friendly
disaster relief and recovery operations. The primary                           foreign governments.




U.S. Army Corps of Engineers emergency operations vans in Lakeland, FL., oversee hurricane recovery effort.




Civil Works Fund – Management’s Discussion & Analysis — 220
Civil Works Programs                                                            through the program’s ports, and 20 percent of
                                                                                American jobs depend to some extent on this trade.
The Civil Works mission is supported by nine
programs through which it accomplishes the four                                 The Corps operates and maintains 25,000 miles of
components of its mission. Figure 20 deﬁnes the                                 navigable channels and 195 commercial lock and
eight programs that receive direct appropriations                               dam sites and is responsible for ports and waterways
as well as show funds for executive direction and                               in 41 states. America’s inland waterways provide
management for the eight programs. The ninth                                    a highly fuel-efﬁcient mode of transportation, with
program, Support for Others, is conducted on a                                  waterborne shipping able to move freight at more
reimbursable basis as outlined in the immediately                               than 500 ton-miles per gallon of fuel, compared
proceeding paragraph. Each program speciﬁcally                                  to the less than 400 ton-miles per gallon that rail
addresses a single mission component, but all                                   transportation achieves. Use of our waterways rather
programs may also contribute to one or more of the                              than rail translates to an annual savings of $7 billion
other mission components.                                                       in transportation costs. Every dollar invested in
Navigation                                                                      improving our navigation infrastructure results in a
The Navigation program is responsible for providing                             better than $3 increase in Gross Domestic Product.
safe, reliable, efﬁcient, and environmentally
sustainable waterborne transportation systems                                     Major Commodities Handled by Civil Works Ports and
for the movement of commercial goods, and for                                            Waterways in Calendar Year (CY) 2003
national security needs. The program seeks to meet                                                             Crude Oil 605 million tons
this responsibility through a combination of capital
                                                                                            Petroleum Products 474 million tons
improvements and the operation and maintenance
of existing infrastructure projects. The Navigation                                                                     Coal 272 million tons
program is vital to the Nation’s economic prosperity:                                      Food/Farm Products 266 million tons
99 percent of America’s international trade moves                                 NOTE: Statistics are compiled on a calendar year basis. CY 2004 statistics not available at time
                                                                                  of printing.

 Figure 20. FY 2004 Civil Works Appropriation by Program

                                    $2.6 million
                                                         $159.1 million
                        $258.8 million


                 $7.0 million




                                                                                                                   Navigation
                                                                                                                   Flood and Coastal Storm Damage Prevention
                                                                                                                   Hydropower
                                $727.3 million
                                                                          $1.8 billion                             Regulatory
                                                                                                                   Environment
$139.4 million                                                                                                     Emergency Management
                                                                                                                   Recreation
                                                                                                                   Water Supply

                                                   $1.2 billion
      $244.8 milion
                                                                                                                   Executive Direction & Management




                                                                                                                                                                                221
As an example, in May 2004, Civil Works and                                     90 shore protection projects along 240 miles of
the Port Authority of New York and New Jersey                                   the Nation’s 2,700 miles of shoreline. With the
launched a $1.6 billion project to deepen the                                   exception of the reservoirs, most of the infrastructure
channels in the Port of New York and New Jersey                                 constructed under this program is owned and
to 50 feet. In previous years, the agencies dredged                             operated by the sponsoring cities, towns, and
the channels to a depth of 41 feet, and this new                                agricultural districts.
project builds upon that work. The project will
improve navigational safety and allow the port to                                         Average Annual Damage Results for Period
accommodate the next generation of cargo ships that
                                                                                                                     1994 - 2003
can handle more than 8,000 truck-size containers and
require deep water to operate. The Port Authority and                                         Damaged Suffered                      $4.2 billion
the Federal Government will share the construction                                            Damage Prevented $15.7 billon
cost.                                                                            *FY 2004 data were not available at time of printing.


In ﬁscal year (FY) 2004, this $1.8 billion program                              The Flood and Coastal Storm Damage Reduction
accounted for 40 percent of the Civil Works                                     program has compiled an impressive record of
appropriation.                                                                  performance. In the period 1994–2003, ﬂoods
                                                                                in unprotected areas caused the United States an
                                                                                average of $4.2 billion yearly in property damage.
                                                                                In the same period, Corps projects in protected areas
                                                                                prevented $15.7 billion in average annual damages.
                                                                                Through FY 2000, the Nation had invested $43.6
                                                                                billion ($122 billion, adjusted for inﬂation) in ﬂood
                                                                                damage reduction projects, preventing an estimated
                                                                                $419 billion ($709 billion, adjusted for inﬂation) of
                                                                                ﬂood damage. Adjusted for inﬂation, these ﬁgures
                                                                                show a return on investment of more than $6.36
                                                                                in damage prevented for each dollar spent. The
                                                                                program also has helped reduce the number of lives
                                                                                lost annually due to ﬂoods from an average of 179
                                                                                in the decade 1972–1981 to 89 in the period 1991–
                                                                                2000.

                                                                                As an ever more mobile society moves toward
                                                                                America’s coastal regions, protecting the coastline
                                                                                is a matter of increasing Federal interest. The Flood
                                                                                and Coastal Storm Damage Reduction Program
                                                                                seeks the most economical and environmentally
                                                                                sound solutions to achieve this. Most shore
                                                                                protection projects are carried out at the request
                                                                                of local sponsors, as authorized and funded by
                                                                                Congress, and are cost-shared with the state and
                                                                                local governments within whose jurisdiction the
A container vessel navigates the Kill Van Kull channel as it passes under the
Bayonne Bridge, N.J. The Corps has deepened this channel to accommodate
                                                                                project falls. Projects are performed only on publicly
modern shipping vessels.                                                        accessible beaches and only after thorough studies
                                                                                have determined that there exists a positive beneﬁt-
Flood and Coastal Storm Damage Reduction Program
                                                                                to-cost ratio.
This program is aimed at saving lives and reducing
property damage in the event of ﬂoods and coastal                               For example, the Corps recently completed a seven-
storms. Civil Works constructed 8,500 miles of                                  year project that will protect millions of Americans
levees and dikes, 383 reservoirs, and more than                                 in Los Angeles County. In the early 1990s, the


Civil Works Fund – Management’s Discussion & Analysis — 222
2,000-square-mile Los Angeles County drainage area       of wetlands, improving water quality and restoring
was only partially protected from ﬂoods. Enormous        the natural habitat for more than 300 species of ﬁsh
population growth in the area rendered the existing      and wildlife.
ﬂood control system inadequate, to the extent that
FEMA required residents to hold mandatory ﬂood           Another example is the Corps of Engineers and the
insurance. Initiated in 1996—at an estimated cost of     Nature Conservancy have agreed to a collaborative
more than $450 million—the Los Angeles County            effort to improve the management of dams on nine
Drainage Area Project was completed for roughly          U.S. rivers. The Sustainable Rivers Project will seek
$200 million, of which Civil Works paid $150             to improve dam operations, helping to restore and
million. The project saw the building of 21 miles of     protect the health of rivers and surrounding natural
parapet walls, the reinforcement of the back slopes      areas while continuing to meet human needs for
of levees, and the modiﬁcation or raising of 26          services such as ﬂood damage reduction and power
bridges. As a result of these improvements, FEMA         generation. The collaborative effort will initially
eliminated the obligation for ﬂood insurance.            examine the potential to improve operations at 13
                                                         dams on nine rivers in nine states.
In FY 2004, this $1.2 billion program accounted for
28 percent of the Civil Works appropriations.

Environmental Protection, Restoration, and
Management
This evolving and growing business program
emphasizes environmental stewardship, ecosystem
restoration, mitigation, environmental compliance,
and research and development. Responding to
the growing national demand for restoration and
protection, the program’s work takes many forms,
ranging from monitoring water quality at dam
sites to operating ﬁsh hatcheries with the states
                                                         Ducks, geese, and herons are protected on more than 85,200 acres of Army
to restoring the environment at the sites of earlier     Corps of Engineers land devoted to wildlife management.
projects. Since 1998, we have added more than
120,000 acres of aquatic, wetland, and ﬂoodplain         In 1997, the Civil Works Program took over from
ecosystems to America’s natural habitats.                the Department of Energy the Formerly Utilized
                                                         Sites Remedial Action program, which mandates
                                                         the clean-up of former Manhattan Project and
                                                         Atomic Energy Commission sites. The transfer
                                                         of this program to Civil Works capitalizes on the
                                                         Corps experience gained in cleaning up former
                                                         military sites and hazardous waste sites under the
                                                         Environmental Protection Agency’s Superfund
                                                         program. Work under the program is ongoing at 46
                                                         locations in Missouri, Illinois, Ohio, Maryland, New
                                                         Jersey, New York, Connecticut, Pennsylvania, and
Kissimmee River C-38 Restoration Project, FL.
                                                         Massachusetts.

One example of work undertaken in FY 2004 is the         In FY 2004, this $727.3 million program accounted
Kissimmee River project in Florida. In the 1960s,        for 16 percent of the Civil Works appropriation.
ﬂood control measures reduced this 103-mile river
to a 52-mile canal, resulting in a degradation of the    Regulation of Wetlands and Waterways
natural ecosystem. An ongoing Civil Works project        In accordance with the Rivers and Harbors Act of
aims to restore 52 miles of the river and 27,000 acres   1899 (Sec. 10) and the Clean Water Act of 1972
                                                         (Sec. 404), as amended, the Army Civil Works


                                                                                                                                223
Regulatory Program regulates the discharge of                 made disaster, as the events of September 11, 2001,
dredged and ﬁll material into waters of the United            showed, there may be no notice at all. To prepare for
States, including wetlands. Section 10 applies to             such events, the Corps has implemented Readiness
navigable waters, while section 404 applies more              2000, a uniﬁed and integrated corporate planning
broadly to waters of the United States, which                 project, to raise responsiveness to the highest
includes navigable waters, their tributaries, and             possible level. Predicting impending disasters can be
wetlands.                                                     difﬁcult, but the returns on investment in emergency
                                                              preparedness can be dramatic.
As part of the permit evaluation process, the Corps
complies with the National Environmental Policy               The Southeastern United States was hit by four
Act and other applicable environmental and historic           major hurricanes in FY 2004. Landfall of these four
preservation laws. The objective of the program is to         hurricanes all occurred within a seven-week period
protect America’s aquatic resources while allowing            in August and September.
reasonable use of private property for important
economic or infrastructure development on both                    Hurricane Charley – Category 4 –
private and public lands.                                         13 August 2004
                                                                  Hurricane Frances – Category 2 –
The Corps must consider the views of other Federal,               4 September 2004
tribal, state, and local governments and agencies;
interest groups; and the general public when                      Hurricane Ivan – Category 3 –
rendering its ﬁnal permit decisions. The Regulatory               16 September 2004
program seeks to balance the reasonably foreseeable               Hurricane Jeanne –Category 3–
beneﬁts and detriments of proposed projects, with                 26 September 2004
the goal of making permit decisions that recognize
                                                              Four divisions of the Corps of Engineers were
the essential values of aquatic ecosystems to the
                                                              affected: South Atlantic Division, Mississippi Valley
general public and our national security.
                                                              Division, Great Lakes and Ohio River Division, and
The Corps must make ﬁnal permit decisions                     North Atlantic Division.
that are not contrary to the public interest, and
                                                              Mississippi Valley Division activated its catastrophic
authorize only those projects that represent the least
                                                              response plans in preparation for a hurricane in New
environmentally damaging practical alternative.
                                                              Orleans. Great Lakes and Ohio River Division and
The Corps works with project proponents to avoid
                                                              North Atlantic Division each responded to signiﬁcant
and minimize impacts to the aquatic environment
                                                              rainfall as the hurricane weather systems moved
ﬁrst. Unavoidable adverse impacts to the aquatic
                                                              through their area of responsibility.
environment must be offset by the implementation
of compensatory mitigation projects. Compensatory             South Atlantic Division responded to all four
mitigation projects are designed to restore, enhance,         hurricanes that made landfall within its area of
establish, or protect and maintain aquatic functions          responsibility. The State of Florida was signiﬁcantly
and values. A critical objective is for the Corps             impacted by all four hurricanes. Additionally,
to make efﬁcient and timely permit decisions,                 Hurricane Jeanne impacted Puerto Rico and
providing regulatory consistency and predictability           Hurricane Ivan impacted Alabama as well as Florida.
for the regulated public and for all interested parties.
In FY 2004, this $139.4 million program accounted             The FEMA tasked the Corps of Engineers with
for 3 percent of the Civil Works appropriation.               response and recovery mission assignments in
                                                              excess of $630 million. Over 1,700 Corps employees
Emergency Management
                                                              were assigned to support the multiple response and
In a typical year, there are 30 Presidential disaster
                                                              recovery efforts. FEMA-assigned missions included:
declarations demanding a response from the Civil
                                                              supply of emergency water and ice; installation
Works Program. It is often difﬁcult to know more
                                                              of generators for emergency power; provision of
than a few days in advance when a hurricane or other
                                                              temporary rooﬁng and temporary housing; and debris
natural disaster will strike, and in the case of a man-

Civil Works Fund – Management’s Discussion & Analysis — 224
removal. Jacksonville District and Mobile District      are monitored through regional alliance meetings
were responsible for mission execution in the state     where Corps customers and stakeholders including
of Florida. Wilmington District was responsible for     the Power Marketing Administrators (PMAs) are
mission execution in the state of Alabama.              represented. Once completed, the Statement of
                                                        Expenses is audited by an outside contractor and
In FY 2004, this program received new budget            then provided to the PMAs after the completion of
authority of $7 million that accounted for a little     each ﬁscal year. The PMAs use this information to
more than 1.5 percent of the Civil Works new            update and adjust their “Power Repayment Study”
appropriation authority. The program is actually        which analyzes current and future year rates and
larger than indicated by the FY 2004 appropriation.     revenues. The PMAs then collect power receipts
The $7 million for annual preparedness planning         (revenues) throughout the year and return the
funding is what enables the Corps to respond rapidly    receipts to the Treasury, reﬂecting either a yearly
and carry out the $630 million reimbursable response    expense or an amortized expense. The actual
and recovery work performed for FEMA along with         summary total of receipts deposited to the Treasury
completing prior year disaster recovery work funded     in any given year is reported back to the Corps for
by appropriations carried over into FY 2004.            inclusion in the Chief Financial Ofﬁcers (CFO)
                                                        annual report.
Hydropower
Some of the Civil Works projects built for navigation   In FY 2004, this $244.8 million program accounted
and ﬂood control have the additional beneﬁt of          for 5 percent of the Civil Works appropriation.
providing hydroelectric power. This is in keeping       In addition, the Corps received $142.8 million
with Civil Works policy and with Congressional          directly from the Booneville Power Administration
direction to maximize public beneﬁts in all             to ﬁnance the cost to operate and maintain Corps-
projects for all desirable purposes, including power    owned hydroelectric power facilities in the
generation. This Civil Works Program operates           Paciﬁc Northwest. In FY 2003, the Federal Power
and maintains 75 power plants, generating about 3       Marketing Administrators returned $1.6 billion to the
percent of America’s total electrical power and 24      U.S. Treasury from power sales.
percent of the hydroelectric power. Hydropower is
a low-cost, renewable power source that produces        Water Supply
none of the airborne emissions that contribute to       Civil Works has 167 projects with municipal and
acid rain or the “greenhouse effect,” leading many      industrial water supply as an authorized purpose.
to view it as the least environmentally disruptive      The projects supply water to 10 million people in
source of electric power. As concerns grow about        115 cities, including some of America’s largest
the nation’s limited energy resources, the Corps is     metropolitan areas, such as Washington, D.C.,
working to increase hydropower output, efﬁciency,       Atlanta, and Dallas–Fort Worth. In arid parts of the
and reliability by upgrading and modernizing its        country, there are 62 projects that have irrigation as
facilities. Approximately two to three facilities per   an authorized purpose. Many of these projects serve
year are being renovated. For example, the Corps        ﬂood control, navigation, and hydroelectric purposes
is in the process of installing seven new turbines      as well as irrigation.
at the J. Strom Thurmond hydropower plant in
South Carolina. The turbines incorporate a new          In FY 2004, this $2.6 million business program
technology called autoventing that will improve         accounted for less than 1 percent of the Civil Works
dissolved oxygen levels in the water, beneﬁting ﬁsh     appropriation.
and other aquatic life on the Savannah River. The $6
million turbine installation is part of a $70 million   Recreation
rehabilitation of the plant.                            The Civil Works Recreation program is an important
                                                        provider of outdoor recreation opportunities. The
At the end of every ﬁscal year, the Corps is required   program operates more than 44,290 recreation sites
to develop a “Statement of Expenses” for the Corps’     at 413 projects—mostly lakes. One in ten Americans
hydropower expenses. The statement is broken            visits a Civil Works recreation site at least once a
down by plant, district, and region. These expenses     year, for a total of over 396 million visits. This is

                                                                                                            225
a signiﬁcant economic contribution to local areas,                           Corps of Engineers—the remaining 6 districts have
because Civil Works recreational sites provide                               only military mission-related work.
a strong customer base for thousands of on-site
and nearby businesses, including resorts, marinas,                           Figure 21 shows the division boundaries. Rather
outﬁtters, grocery stores, gas stations, and hotels.                         than being demarcated by state boundaries, these are
This supports 600,000 jobs and generates $15 billion                         deﬁned by watersheds and drainage basins, reﬂecting
in visitor spending annually. There are approximately                        the water resources nature of the Civil Works
500 concessionaires on Civil Works recreation sites,                         mission.
operating services such as marinas, bait shops, and
                                                                             The distribution of Civil Works employees similarly
grocery stores, with ﬁxed assets of $1 billion. Corps                        highlights the customer focus of the program: 95
lands are also leased to nearly 600 state parks, 600                         percent of employees work at the district level,
local government parks, and to 420 Boy and Girl                              reﬂecting the fact that project management is
Scout camps, church camps, boating clubs, and other                          performed at the district level.
organizations that are open to public membership
and that have deﬁned goals that are consistent                               The Civil Works program contracts out to civilian
with the Corps’ public recreation stewardship                                companies all of its construction and approximately
responsibilities.                                                            50 percent of its design work. Although Civil Works
                                                                             directly employs almost 24,000 employees including
In FY 2004, this $258.8 million business program                             approximately 300 civilians deployed to Iraq and
accounted for 6 percent of the Civil Works                                   paid with military funds, as many as 150,000 people
appropriation.                                                               are indirectly employed in support of its projects.
                                                                             These contractual arrangements have served the
                                                                             Nation well in times of emergency.
Organizational Structure
The Workforce                                                                The Leadership
Civil Works employs almost 24,000 employees                                  Oversight of Civil Works is provided through four
including approximately 300 civilians deployed to                            levels of authority. As shown in Figure 22, the
Iraq and paid with military funds. Civil Works is                            Assistant Secretary of the Army for Civil Works
funded through the Energy and Water Development                              (ASA (CW)) is appointed by the President and is
Appropriation, and executes programs through 8                               responsible for Civil Works policy. The Chief of
regional divisions and 38 of the 44 districts of the                         Engineers reports to the ASA (CW) for Civil Works

Figure 21. Civil Works Boundaries
                                                                                                                    North
                                                                             Great Lakes                           Atlantic
                          Seattle
                                                                             & Ohio River
    Alaska                                                                                                       New
                                                             St.                                                England
               Portland     Walla
                            Walla
                                     Northwestern            Paul                         Buffalo
                                                                                Detroit
                                                                    Rock                    Pittsburgh        New York
                                                                    Island
                                                    Omaha                          Chicago                  Philadelphia
                   Sacramento                                                        Cincinnati Baltimore
 San                                               Kansas City           St. Louis             Hungtington
                                                                                                           Norfolk
 Francisco                South Pacific                                          Louisville
                                                                                   Nashville
                                                                 Little
                                                        Tulsa Rock              Memphis                  Wilmington
         Los                                                                                                                Legend:
         Angeles                                  Southwestern                                         Charleston               Div./Regional HQ location
                                    Albuquerque                                        Atlanta
                                                  Ft. Worth                                         Savannah                    District HQ location
                                                                                   Mobile                                       Division boundary
                                                                      Vicksburg                     Jacksonville
                                                            Dallas                                                              District boundary
    Honolulu                                                                                                                    State boundary
                                                       Galveston                  New
                             Pacific Ocean                                        Orleans                  South
                                                                                                         Atlantic                      Key
                                                                    Mississippi Valley
                                                                                                                           Follows Watershed Boundaries



Civil Works Fund – Management’s Discussion & Analysis — 226
mission accomplishment and in turn delegates most
of his responsibilities for managing the various
                                                             Civil Works Fund Performance Results
                                                             Civil Works directly impacts America’s prosperity,
programs to the Director of Civil Works. The Chief
                                                             competitiveness, quality of life, and environmental
of Engineers, through the Director of Civil Works, is
                                                             stability. Civil Works leaders, accordingly, published
responsible for the leadership and management of the
                                                             a March 2004 strategic plan to identify and answer
program and for ensuring that policies established by
                                                             the Nation’s water resources needs, recognizing
the ASA (CW) are applied to all phases of the Civil
                                                             authorities and funding. Research ﬁndings and input
Works mission.
                                                             from the public, gained through listening sessions,
The divisions, commanded by Division Engineers,              have led the Corps to identify the following ﬁve
are regional ofﬁces responsible for the supervision          issues as the main national water resource challenges
and management of their subordinate districts,               facing the nation:
including the monitoring and quality assurance of
                                                                 Balancing demands for water resource
district work.
                                                                 development, in terms of access to and use
                                                                 of those resources, and the preservation of
The districts are the foundation of the Civil Works
                                                                 environmental quality
mission, managing water resource development
over a project’s life cycle. They conduct planning               Repairing damage to the nation’s environment
studies, perform project design, oversee construction            from past development
by contractors, and manage completed facilities.                 Addressing the performance and safety
They also develop decision documents and prepare                 implications of an aging water resources
reports and cost estimates, negotiate agreements, and            infrastructure
perform all the day-to-day activities that get the job
done. They are the program’s face to the nation.                 Ensuring the capability to respond to natural
                                                                 disasters
Figure 22. Civil Works Levels of Authority                       Minimizing the impact of institutional inhibitors
                                                                 on water resources decisionmaking and
                                                                 management.
                            ASA (CW)                         To address these challenges, the Corps developed
                     Provides policy guidance                the following ﬁve strategic goals. Speciﬁc objectives
                                                             associated with each goal enable the measurement
                                                             of annual performance toward achievement of the
                     Chief of Engineers                      strategic goal:
                        Applies policy guidance
                                                                 Provide sustainable development and integrated
                                                                 management of the Nation’s water resources.
                         Director of CW                          Repair past environmental degradation and
               Acts on behalf of the Chief of Engineers
                                                                 prevent future environmental losses.
                                                                 Ensure that projects perform to meet authorized
                           8 Divisions                           purposes and evolving conditions.
                  Supervise and manage districts
                Perform quality assurance on districts           Reduce vulnerabilities and losses to the Nation
                                                                 and the Army from natural and man-made
                                                                 disasters, including terrorism.
        Plan                                      Operate
        Design             38 Districts           Maintain       Be a world-class public engineering
        Construction
           Management                                            organization.




                                                                                                                 227
Strategic Goals                                               Performance Result 2: In FY 2004, seven ﬂood and
                                                              coastal storm projects were budgeted for completion.
                                                              One project was a dam safety project that was
 Strategic Goal 1: Provide Sustainable                        performed based upon a safety justiﬁcation and not
 Development and Integrated Management of                     subject to a beneﬁt-to-cost justiﬁcation logic. Three
 the Nation’s Water Resources                                 of the remaining six projects met the performance
                                                              target with a beneﬁt-to-cost ratio equaling or
Through anticipating, identifying, and addressing
                                                              exceeding the beneﬁt-to-cost estimate used to justify
water resources infrastructure problems and needs,
                                                              initial project construction funding. The other three
the Army Corps of Engineers Civil Works mission is
                                                              projects failed to meet the 10 percent performance
able to enhance the Nation’s economic well-being.
                                                              target; but all three projects were completed with a
By maintaining coastal harbors and inter-coastal
                                                              positive beneﬁt-to-cost ratio, thereby still validating
waterways, Civil Works strengthens America’s
                                                              the initial project investment decision.
ability to export its products to the world and to
move those products around the Nation.
                                                               Strategic Goal 2: Repair Past Environmental
To continue to manage our water resources
                                                               Degradation and Prevent Future
effectively, and to maintain waterway infrastructure,
                                                               Environmental Losses
the Civil Works mission applies a consistent program
investment objective to the development and                   To accomplish the second strategic goal, Civil
management of water resources infrastructure. At the          Works must anticipate, identify, and address the
core of this objective are two guiding principles:            Nation’s needs for the environmental restoration and
                                                              enhancement of its water resources. Civil Works will
     Invest in the navigation program infrastructure
                                                              work with its partners, including other Federal and
     when project beneﬁts exceed their costs
                                                              state agencies, nongovernmental organizations, and
     Invest in the ﬂood and coastal storm damage              Native American tribes, to develop creative solutions
     reduction program infrastructure when project            that are both effective and efﬁcient, employing,
     beneﬁts exceed their costs.                              where appropriate, leading-edge technologies and
Performance Measure 1: For investments in                     methodologies.
navigation projects, the beneﬁt-to-cost ratio at the
                                                              Civil Works is pursuing the restoration of
completion of project construction should at least
                                                              environmental damages and losses that resulted from
equal the beneﬁt-to-cost ratio at the time of initial
                                                              past actions where it did not adequately anticipate or
project funding. The performance target for FY 2004
                                                              take into account the environmental consequences of
was to achieve a beneﬁt-to-cost ratio at completion
                                                              those actions. It plans to exercise its authority to the
within 10 percent of the initial beneﬁt-to-cost ratio.
                                                              fullest extent in support of the ecosystem restoration
Performance Result 1: In FY 2004, ﬁve navigation              portion of the Civil Works Program. In addition, it
projects were budgeted for completion. All ﬁve                will support the national commitment to wetlands—
projects were completed and met the performance               embodied in the Clean Water Action Plan—by
target with a beneﬁt-to-cost ratio equaling or                adding to the Nation’s environmental resource base
exceeding the beneﬁt-to-cost estimate used to justify         through restoration and enhancement projects. It is
initial project construction funding.                         working to ensure that there is no further net loss of
                                                              wetlands due to unwise development activity.
Performance Measure 2: For investments in ﬂood
and coastal storm damage reduction projects, the              The Environment Program also includes a signiﬁcant
beneﬁt-to-cost ratio at the completion of project             environmental stewardship focus at Corps-operated
construction should at least equal the estimated              projects. Strategic Goal 3 focuses on ensuring
beneﬁt-to-cost ratio at the time of initial project           projects perform to meet authorized purposes
funding. The performance target for FY 2004 was to            and evolving conditions. One important aspect of
achieve a beneﬁt-to-cost ratio at completion within           ensuring that projects perform includes assuring that
10 percent of the initial beneﬁt-to-cost ratio.               we are good environmental stewards. Accordingly,

Civil Works Fund – Management’s Discussion & Analysis — 228
an environmental program objective under the third                                                   Restoration: Invest in mitigation and restoration
strategic goal is to “Ensure healthy and sustainable                                                 projects or features to make a positive
lands and waters and associated natural resources on                                                 contribution to the Nation’s environmental
Corps lands held in public trust to support multiple                                                 resources in a cost-effective manner.
purposes.”
                                                                                                     Stewardship: Ensure healthy and sustainable
In addition, the Corps of Engineers has been                                                         lands and waters and associated natural
given responsibility to execute an environmental                                                     resources on Corps lands held in public trust to
clean-up program of contaminated sites under the                                                     support multiple purposes.
Formerly Utilized Sites Remedial Action Program.                                                     Protect, preserve, and restore signiﬁcant
Accomplishment of the clean-up program will result                                                   ecological resources in accordance with master
in the elimination of potential risks to health and the                                              plans.
environment at these high-priority sites.
                                                                                                     Ensure that the operation of all Civil Works
Success in pursuit of this strategic goal is                                                         facilities and management of associated lands,
demonstrated through the performance measures                                                        including out-granted lands, complies with
that have been developed for the Environmental and                                                   the environmental requirements of all relevant
Regulatory business programs.                                                                        Federal, State, and local laws and regulations.
                                                                                                     Meet the mitigation requirements of authorizing
Environmental                                                                                        legislation or applicable Corps decision
The Environmental program emphasizes                                                                 documents.
environmental stewardship, ecosystem restoration,
mitigation, environmental compliance, and research                                                   Remediation: Assist in the cleanup of
and development. The work undertaken by this                                                         contaminated, hazardous, toxic, and radioactive
program takes many forms, reﬂecting the growing                                                      waste sites as authorized or requested by others.
national demand for restoration and protection.                                                  Performance Measure 1: This is measured by
                                                                                                 the percentage of Civil Works Environmental
There are four inter-related program objectives in                                               program-administered mitigation land that meets
the March 2004 Civil Works Strategic Plan. The four                                              the requirements of the authorizing legislation or of
program objectives are differentiated by program                                                 the relevant Corps of Engineers decision document.
focus, which are restoration, protection, stewardship                                            The target for FY 2004 was to meet requirements
and remediation. The restoration, stewardship,                                                   for 85 percent of mitigation lands. This measure is
and remediation program objectives are discussed                                                 calculated as a percentage of all designated program-
below. The protection focus is discussed under                                                   administered mitigation lands that meet mitigation
the Regulatory Program that is also found below,                                                 requirements.
but broken out as a separate program in support of
Administration and Congressional oversight.                                                      Performance Result 1: Table 38 shows that from
                                                                                                 FY2003 to FY 2004 there was a net increase in acres
                                                                                                 designated as Civil Works-administered mitigation
 Table 38. Civil Works-Administered Mitigation Land                                              land. This change is due to the addition of lands in
                                                    FY 2002         FY 2003         FY 2004      the mitigation inventory and corrections to the data
 Total acreage designated as Civil                   713,909         625,291         626,373
                                                                                                 reported in FY 2003. Mitigation requirements were
 Works-administered mitigation land                                                              met for 92 percent of Civil Works-administered
 Mitigation land for which                           564,025         566,016         578,076     mitigation land in FY 2004.
 requirements were met (acres)
 Percentage of Civil Works-                               79%             91%             92%    Performance Measure 2: The percentage in which
 administered mitigation lands for                                                               Civil Works Stewardship should be engaged in
 which mitigation requirements
 were met                                                                                        opportunities to participate in recovery plan efforts
 Note: The universe of total acreage designated as Civil Works-administered mitigation land      for federally listed species. The performance target
 shrank by over 88,600 acres from FY 2002 due to two projects with large land holdings being
 placed in an inactive status and removal of other projects lands misclassiﬁed with respect to   of 95 percent was continued in FY 2004 based
 mitigation requirements.




                                                                                                                                                       229
upon experience gained with baseline performance                    corrections for the two remaining signiﬁcant ﬁndings
measurement and the level of funding appropriated                   to eliminate the immediate threat to the environment.
between FY 2002 and FY 2003.                                        The Corps anticipates total correction of the two
                                                                    open signiﬁcant ﬁndings in FY 2004 subject to
Performance Result 2: Table 39 shows that                           funding availability. The Corps continues to place a
during FY 2004, the Corps participated in recovery                  high priority on achieving both performance goals in
programs for 84 federally listed species, engaging in               FY 2004; however, results were not available at time
533 separate opportunities to beneﬁt these species                  of printing.
or their habitat. A total of 306 Corps projects were
involved.                                                           Regulatory
                                                                    Civil Works operates a comprehensive regulatory
Performance Measure 3: This is measured by                          program to protect from overdevelopment the
correcting 100 percent of all signiﬁcant ﬁndings and                aquatic environment, primarily, but also the
70 percent of all major ﬁndings annually at Corps                   navigability of waterways. Management of this
projects. A signiﬁcant ﬁnding is a determination that               program has a related objective of minimizing the
we are not meeting an environmental requirement                     time taken to process decisions on requests for
and that the condition poses, or has a high likelihood              permits to work in the waters of the United States.
of posing, a direct and immediate threat to human                   The following program objectives have been
health, safety, the environment, or the Civil Works                 established to support the pursuit of the strategic
mission. A major ﬁnding is a determination that we                  goals of the Civil Works mission:
are not meeting an environmental requirement and
that the condition may pose a direct and immediate                          Administer the regulatory program in a manner
threat to human health, safety, the environment,                            that protects the aquatic environment.
or the Civil Works mission. The success rate                                Administer the regulatory program in a manner
of correcting signiﬁcant and major ﬁndings is                               that renders fair and reasonable decisions for
calculated annually.                                                        applicants.

Performance Result 3: The performance target was                            Administer the regulatory program in a manner
exceeded for major ﬁndings. During FY 2003, we                              that enables efﬁcient decision making.
corrected three of ﬁve, or 60 percent (see Table 40),               Performance Measure 1: This is measured
of signiﬁcant ﬁndings. We completed corrections                     by administering the regulatory program in a
for one signiﬁcant ﬁnding remaining at the end of                   manner that protects the aquatic environment. The
FY 2002, and two signiﬁcant ﬁndings identiﬁed                       performance target of Civil Works is to realize no net
during FY 2003. We implemented provisional                          loss of wetlands.


 Table 39. Recovery Plan Projects                                    Table 40. Correction of Signiﬁcant and Major
                                   FY 2002     FY 2003    FY 2004    Environmental Findings
 Number of opportunities to            509         515        543                                                  FY 2002   FY 2003   FY 2004
 participate in recovery of                                          Number of signiﬁcant ﬁndings                       10         5       NA1
 federally listed species
                                                                     Percentage corrected                             70%       60%        NA1
 Number of opportunities taken         496         504        533
                                                                     Number of major ﬁndings                           502       471       NA1
 Percentage of opportunities          97%         98%         98%
 taken to assist in the recovery                                     Percentage corrected                             57%       72%        NA1
 of Federally listed species                                         1
                                                                         Data not available at time of printing.

                                                                     Table 41. Development and Mitigation of Wetlands
                                                                                                                   FY 2002   FY 2003   FY 20041
                                                                     Wetland acres permitted for                    24,651    21,330       NA1
                                                                     development
                                                                     Wetland acres mitigated                        57,821    43,379       NA1
                                                                     1
                                                                         Data not available at time of printing.




Civil Works Fund – Management’s Discussion & Analysis — 230
Performance Result 1: The performance target                                   were completed in fewer than 120 days. FY 2003
was met in FY 2003. Table 41 shows that during                                 performance was down slightly from the last three
FY 2003, 43,379 acres of wetlands were restored,                               years, at between 60 percent and 62 percent. The
created, enhanced, or preserved, offsetting the 21,330                         districts are contending with permit applications
acres that were lost to permitted development.                                 that are signiﬁcantly more complex than in past
                                                                               years and that involve lengthy analysis of their
Performance Measure 2: This is measured by the                                 potential environmental impacts. Issues related
number of all permit decisions completed within                                to endangered species, historic properties, water
60 days, expressed as a percentage of all permit                               quality, and coastal resources also are adding to
decisions. The target is to complete 85 to 95 percent                          permit delays. Furthermore, the general public and
of all actions within 60 days.                                                 the environmental community are becoming much
                                                                               more aware of and involved with the permit process,
Performance Result 2: FY 2004 performance                                      leading to increased numbers of comments raised in
results were not available at time of publication for                          response to every public notice and to a rising trend
Table 42. During FY 2003, 75,771 permit actions,                               in legal challenges.
or 88 percent of all permit actions, were completed
in 60 days or less. While this ﬁgure exceeds
the performance target of 85 percent, it remains                                Strategic Goal 3: Ensure that Projects Perform
unchanged from last year’s performance. The                                     to Meet Authorized Purposes and Evolving
districts are concentrating on getting the Nationwide                           Conditions
and General Permits authorized; this has helped to
stabilize overall processing times but is the cause of                         Civil Works customers, partners, and stakeholders
the downward trend in enforcement and compliance                               expect delivery of the level of service that is
efforts seen since FY 2001.                                                    designed into a project, and expect that high
                                                                               quality of service to continue even with changing
Performance Measure 3: This is measured by the                                 demands on the project. This third strategic goal
number of standard permit decisions completed                                  was developed to ensure that Civil Works’ programs
within 120 days, expressed as a percentage of all                              continue to meet customer expectations. This
standard permit decisions. Standard permits are those                          requires particular attention to the quality and
for larger projects that require extensive review. The                         performance of our projects, early recognition and
performance target is to complete 70 – 80 percent of                           analysis of problems, and identiﬁcation of cost-
decisions on standard permits within 120 days.                                 effective ways to prevent, lessen, or correct any
                                                                               deﬁciencies.
Performance Result 3: FY 2004 Performance data
were not available at time of publication for Table                            In addition, Civil Works recognizes that it must
43. The performance target was not met. During                                 continue to provide facilities that meet the needs of
FY 2003, 56 percent of all standard permit actions                             diverse and changing user groups. For projects to

 Table 42. Permit Actions Completed within 60 Days                              Table 43. Standard Permit Actions Completed within 120
                                               FY 2002   FY 2003   FY 2004      Days
 Number of permit actions                       71,652    75,771      NA1                                                     FY 2002    FY 2003   FY 2004
 completed within 60 days                                                       Number of standard permit                        2,536     2,446      NA1
 Percentage of actions                            88%       88%       NA   1    actions completed within 120
 completed within 60 days                                                       days
 1
     Data not available at time of printing.                                    Percentage of actions                             61%       56%       NA1
                                                                                completed within 120 days
                                                                                1
                                                                                    Data not available at time of printing.

                                                                                Table 44. Availability of Navigational Infrastructure
                                                                                Performance Achieved                          FY 2002    FY 2003    FY 2004
                                                                                Actual availability                              92%        92%        N/A1
                                                                                1
                                                                                    Data not available at time of printing




                                                                                                                                                        231
deliver the requisite performance and service levels,                                             Performance Indicator 1: This is measured
they must serve the needs of their users. Projects                                                by monitoring the volume of commerce and the
typically are designed to accomplish a particular                                                 operational cost of the fuel-taxed waterways
purpose for a speciﬁed lifespan. In order that they                                               component of the navigation system. FY 2004
continue to meet the changing needs of users, they                                                performance data were not available at the time of
may have to undergo design changes or may need                                                    publication as reﬂected in Table 44.
to be rehabilitated or reconstructed in order to
modernize their functions.                                                                        Performance Result 1: The volume of commerce
                                                                                                  and the operational cost of the fuel-taxed waterways,
The performances of the Navigation, Flood and                                                     shown in Table 45, remained essentially constant
Coastal Storm Damage Prevention, Hydropower,                                                      in CY 2002 and 2003. CY 2004 was not over at the
Recreation, and Water Supply programs reﬂect                                                      time of printing, so volume and cost data for CY
the overall success of the Civil Works mission in                                                 2004 are not available.
achieving this strategic goal. The performance of
each program is outlined in the following sections.                                               Performance Indicator 2: The need for dredging of
                                                                                                  harbors and channels is largely dependent upon acts
Navigation                                                                                        of nature and factors beyond the control of man. No
The responsibilities of the Navigation program                                                    performance target has therefore been established for
include the improvement and maintenance of port                                                   the volume of material to be dredged. The depth of
and harbor channels and of the inland waterways                                                   material to be dredged and the disposal of dredged
that handle the Nation’s maritime commerce. The                                                   material are the two main factors inﬂuencing the cost
objective of the program is to operate and manage                                                 of dredging.
the navigation infrastructure in order to maintain
consistent and acceptable levels of service. One                                                  Performance Result 2: Table 46 shows that in FY
performance measure and two performance                                                           2004 performance data were not available at time of
indicators are used to gauge the successful pursuit of                                            publication. In FY 2003, the amount of maintenance
this objective:                                                                                   dredging decreased by 6.4 percent; and dredging unit
                                                                                                  costs increased by 14.6 percent.
          Availability to commercial trafﬁc of high-use
          navigation infrastructure (waterways, harbors,                                          Flood and Coastal Storm Damage Reduction
          and channels)                                                                           There are primarily two ways to reduce ﬂood
                                                                                                  damage. The ﬁrst calls for the use of large-scale
          Volume of commerce and the operational cost
                                                                                                  engineering projects to prevent ﬂoodwaters
          of the fuel-taxed waterways component of the
                                                                                                  from inundating property, and the second for the
          navigation system
                                                                                                  modiﬁcation of property susceptible to ﬂooding, to
          Maintenance, through dredging, of safe and                                              minimize the risk of damage. Civil Works projects
          reliable harbors and channels.                                                          usually use a combination of both approaches. The
                                                                                                  program objective is to operate and maintain existing
Performance Measure: This is measured by the
                                                                                                  Federal infrastructure to ensure that designed levels
percentage of time program that facilities are open
                                                                                                  of protection are realized. A single measure is used
to commercial trafﬁc. The performance target is 90
                                                                                                  to gauge performance in this respect.
percent availability.


 Table 45. Volume of Commerce and Operational Cost                                                 Table 46. Volume and Cost of Material Dredged
                                               CY 2002            CY 2003            CY 2004                                                      FY 2002           FY 2003           FY 2004
 Ton-miles of commerce                             266.9                 250               NA2     Cubic yards removed (millions)                        204              1911            NA2
 carried (billions)1
                                                                                                   Cost per cubic yard                                $2.73            $3.131             NA2
 Cost per ton-mile                             $0.00206          $0.00195                  NA2     1
                                                                                                    Values reported are for maintenance dredging only. Dredging data related to project
 1
  Ton-mile data are reported on a calendar basis. Costs are reported on a ﬁscal year basis. Ton    construction activity are not covered.
 mile data are reported.                                                                           2
                                                                                                       Data not available at time of printing.
 2
     Data not available at time of printing.




Civil Works Fund – Management’s Discussion & Analysis — 232
Performance Indicator: This is measured by the                              in more reliable and less expensive electricity service
performance of Civil Works facilities in reducing                           provided to hydropower customers.
damage where ﬂooding otherwise would have been
experienced.                                                                Performance Result: For FY 2004, preliminary data
                                                                            indicate that the Corps of Engineers experienced
Performance Result: Table 47 shows that, during                             a forced outage rate of 3.5 percent. This is a slight
FY 2003, the Corps prevented $15.7 billion in                               increase from the outage rates seen for the prior two
ﬂood damages. This can be compared to the 10-                               ﬁscal years and greater than the target rate of 2.3
year moving average of $19.6 billion that is used to                        percent. Aging equipment and funding levels are two
smooth out the signiﬁcant ﬂuctuations in year-to-                           factors that will impact the degree of hydropower
year ﬂood damages prevented that are associated                             reliability in the future. Data by ﬁscal year are
with variations in meteorological events.                                   provided in Table 48.

Hydropower                                                                  Value to the Nation Performance Indicators:
The Civil Works Program operates 345 hydroelectric                          In addition to measuring system reliability, the
power-generating units at 75 multi-purpose                                  program also tracks operation system indicators
reservoirs, providing nearly a quarter of the Nation’s                      that provide valuable information and trends on
total hydropower needs. That is enough energy to                            system performance. The following indicators are
serve about 10 million households. Hydropower                               monitored: (1) kilowatt-hours generated to measure
units can start quickly and adjust rapidly, allowing                        total power generation and (2) cost per kilowatt-hour
them to serve a primary role in meeting peak energy                         to measure generating efﬁciency. Annual goals are
demands and energy reserve needs to protect the                             not set for these indicators because power production
national power system’s reliability and stability.                          is largely dependent upon hydrologic conditions that
The electricity is distributed by Federal power                             cannot be managed.
marketing administrations. To ensure that the Corps
of Engineers continues to serve this role, it has                           Performance Result: During FY 2004, preliminary
established an overall program objective:                                   data indicate that Corps hydropower facilities
                                                                            produced 67 billion kilowatt-hours of energy at a cost
         Maintain reliable hydroelectric generation                         of $.0027 per kilowatt-hour as shown in Table 49.
         capabilities the at Corps’ multi-purpose reservoir                 This represents a 4 percent decrease in energy output
         projects.                                                          from FY 2003. Severe drought conditions in the
Performance Measure: This is measured by                                    Paciﬁc Northwest are a likely cause of the reduced
maintaining high reliability of hydroelectric power                         output, as about two-thirds of the Corps hydropower
generated at multi-purpose reservoir projects. The                          capacity is located in that region. Energy produced
program goal is to keep the forced (unplanned)                              from existing Corps facilities continues to be one of
outage rate at less than 2.3 percent in keeping with                        the least expensive sources of electric power.
industry standards. A lower forced outage rate results

 Table 47. Flood Damages Prevented                                           Table 48. Hydroelectric Power Reliability
 (Dollars in billions)                        FY 2002   FY 2003   FY 2004                                                FY 2002   FY 2003   FY 2004
 Flood damage prevented                         $23.1     $15.7      NA1     Performance Target (% outage)                   4.5       2.3       2.31
 10-year rolling average                        $21.7     $19.6      NA1     Actual reliability (% outage)                   3.7       4.7       3.51
 1                                                                           1
     Data not available at time of printing                                      FY 2004 Preliminary Performance data.


                                                                             Table 49. Kilowatt Hours Generated
                                                                                                                         FY 2002   FY 2003   FY 2004
                                                                             Kilowatt-hours generated                       69.4      70.0      67.11
                                                                             (billions)
                                                                             Cost per kilowatt-hour                      $0.0033   $0.0035   $0.00271
                                                                             1
                                                                                 FY 2004 Preliminary Performance data.




                                                                                                                                                   233
Recreation                                                                   Civil Works Mission is able to reduce potential ﬂood
Most Federal lakes were originally built with a                              damage, saving our Nation billions of dollars. Every
single primary purpose. However, public needs and                            year, we strive to reduce farther the risks associated
values have changed, and the program has sought                              with ﬂooding and to increase our responsiveness
to serve the evolving public interest by adapting                            to natural disasters. The Emergency Management
our reservoirs for multiple uses, provided there is                          program supports this strategic goal.
sufﬁcient legislative authority to do so. To support
the broader strategic goals of the Civil Works                               The Civil Works mission includes a disaster response
mission and to achieve maximum cost-effectiveness                            and recovery program, maintained by the Corps of
in the provision of outdoor recreation services, Civil                       Engineers under Public Law 84–99 and under the
Works established the following program objectives:                          Federal Response Plan in coordination with the
                                                                             FEMA and others. Civil Works response activities
           Provide outdoor recreation opportunities in an                    are intended to supplement state and local efforts.
           effective and efﬁcient manner at Civil Works-                     Disaster preparedness and response capabilities are
           operated water resource projects.                                 not limited to water-related disasters, but draw on
                                                                             the engineering skills and management capabilities
           Provide outdoor recreation opportunities to meet
                                                                             of the Corps to encompass a broad range of natural
           the needs of present and future generations.
                                                                             disasters and national emergencies.
Performance Indicator: This is measured by the
cost per visitor-day of providing outdoor recreation                         Through its emergency preparedness planning and
facilities. The cost per visitor-day is determined by                        disaster response capability, Civil Works can make
a number of variables. While Civil Works is able to                          a signiﬁcant and direct contribution to national
manage the cost of providing recreation facilities,                          security objectives. Four program strategies support
the number of visitors who use these facilities is                           this fourth strategic goal:
governed in large part by external factors such as
the weather and prevailing economic conditions.                                  Attain and maintain a high and consistent state
Historically, no management performance target has                               of preparedness.
therefore been speciﬁed.                                                         Provide a rapid, effective, and efﬁcient all-
                                                                                 hazards response capability, prepared for
Performance Result: FY 2004 performance data
                                                                                 deployment anywhere worldwide.
were not available at time of printing as shown in
Table 50.                                                                        Provide the leadership to ensure effective and
                                                                                 efﬁcient long-term crisis recovery, emphasizing
Water Supply                                                                     recovery of the Nation’s water resources
Performance measures for this business program                                   infrastructure.
have not been ﬁelded.
                                                                                 Provide professional emergency management
                                                                                 program services to international customers.
     Strategic Goal 4: Reduce Vulnerabilities
     and Losses to the Nation and the Army from
                                                                              Strategic Goal 5: Be a World-Class Public
     Natural and Man-Made Disasters, Including
                                                                              Engineering Organization
     Terrorism

By developing and implementing new ways to                                   A priority of the Corps of Engineers is to maintain
reduce the risk of ﬂood and storm damage losses, the                         a leading-edge technical capability today and into
                                                                             the future. Ensuring the delivery of high-quality
 Table 50. Recreation Usage                                                  and responsive engineering services to America
                                               FY 2002   FY 2003   FY 2004   and others requires a solid foundation in a core set
 Visitor-days (millions)                          210       212       NA1
                                                                             of technical skills. To that end, and in anticipation
                                                                             of future requirements, Civil Works has begun to
 Cost per visitor-day                            $1.37     $1.20      NA1
 1
                                                                             identify the range of expertise needed within the
     Data not available at time of printing.




Civil Works Fund – Management’s Discussion & Analysis — 234
Corps. It has also begun to identify those critical      development and protect their environments and
functions where reserves of talent may be depleted       ecosystems. By assisting legitimate authorities to
through retirement and attrition. Civil Works            improve their infrastructure and environments and to
maintains the world-class capabilities inherent in       ease conditions that potentially can lead to conﬂict,
its laboratories through capital investment, and it is   Civil Works serves to promote democracy, peace,
engaging in research and development to improve          and stability.
operational processes to better address the Nation’s
water resource problems and opportunities.               To be a world-class technical leader it is imperative
                                                         to seek continuous improvement in the processes
Civil Works will leverage core technical capabilities    used to meet the customer, partner, and stakeholder
as appropriate by providing engineering-related          needs. The feedback provided by customers and
services to the Department of Defense (DoD)              project sponsors is the best indication of how
agencies, other Federal agencies, and other              effective Civil Works is in meeting the expectations
authorized entities through the Support for              for the quality, timeliness, and cost-effectiveness of
Others program. Overseas, it helps countries             its services. Civil Works will continue to seek that
enhance their public sector capacities, especially       feedback in order to strengthen overall performance
in the management of water, to assist economic           and to raise customers’ satisfaction.




                                                                                                              235
                                                              Figure 23. Balance Sheet Results
Analysis of Financial Statements
Throughout FY 2004, the Civil Works Fund
continued to improve upon the myriad processes
linked to producing auditable ﬁnancial statements
in compliance with the CFO Act of 1990. Within                                  $32,672,661
DoD, the USACE Civil Works Fund has been at
the forefront in implementing federal ﬁnancial
management reform.

The ﬁnancial statements were compiled in                                                      $36,066,533
accordance with guidance issued by the Ofﬁce
of Management and Budget and supplementary
guidance provided by DoD. In his letter to the                    $3,393,872
                                                                                                                FY 2004
Chief Financial Ofﬁcer, the IG DoD identiﬁed three
internal control weaknesses.

The ﬁnancial statements for the Civil Works Fund
are presented in a comparative format, providing
                                                                              $34,926,334
ﬁnancial information for FY 2003 and FY 2004.

With that in mind, below are the ﬁnancial highlights
of each statement. These highlights focus on
                                                                                              $37,406,456
signiﬁcant balances or conditions to help clarify
the Civil Work Fund’s operations. Additional
explanatory information may also be found in the
notes that accompany these statements.
                                                                   $3,480,122                                   FY 2003

Balance Sheet                                                         $ in thousands                      Total Assets
This statement presents the assets, liabilities, and                                                   Total Liabilities
                                                                                                    Total Net Position
net position of the Civil Works Fund as of 30
September 2003 and 2004. As shown in Figure 23,
the Civil Works assets amounted to $36.1 billion
at FY 2004 year-end, over a 6 percent decrease                Statement of Net Cost
from the previous year. Of the total assets, nearly           This statement presents the annual cost of operating
79 percent of the dollar value resides in the general         the various Civil Works programs. To the extent a
property, plant, and equipment accounts. Relative to          program generates revenues, these amounts offset
its total assets, the Civil Works liabilities are quite       gross costs to arrive at the net cost of operations. For
low, amounting to nearly $3.4 billion; representing a         FY 2004, program costs amounted to $9.7 billion,
decrease of over $86 million or over 2 percent.               representing a 6 percent decrease from the previous
                                                              year. Conversely, program revenues increased 22
The third major component of the balance sheet is             percent from FY 2003, climbing to $1.6 billion. The
net position. In aggregate, the various elements of           increase is primarily attributed to improvements in
the net position section on the balance sheet are also        the Civil Works Fund process of identifying trading
referred to as equity. Equity is the residual interest in     partner elimination data for other Corps revenue in
the assets of the entity that remains after deducting         the revolving fund. Overall for FY 2004, the Civil
its liabilities. For FY 2004, the Civil Works Fund            Works Fund achieved a 10 percent increase in the
net position amounted to $32.7 billion, representing          net cost of operations, decreasing net costs to $8.1
almost a $2.3 billion, or 7 percent, decrease from FY         billion—a nearly $900 million decrease from the
2003.                                                         previous year.


Civil Works Fund – Management’s Discussion & Analysis — 236
Statement of Changes in Net Position                      Resources in the Current Period, is used to adjust
                                                          the total resources used to ﬁnance the net cost of
This statement presents those accounting items
                                                          operations (the net amount of the ﬁrst and second
that caused the net position section of the balance
                                                          sections) in order to determine the net cost of
sheet to change from the beginning to the end of the
                                                          operations. Thus, sections one and two are reconciled
reporting period. The Civil Works Fund Net Position
                                                          with section three to yield a net cost of operations of
at year-end was $32.3 billion, nearly a 6 percent
                                                          $8.1 billion. This amount ties back to the Statement
decrease from the previous year.
                                                          of Net Cost.

Statement of Budgetary Resources                          Management Integrity
This statement provides information on the Civil          The Civil Works Program identiﬁed three
Works Fund’s budgetary ﬁnancing accounts and the          management control weaknesses that were reported
status or remaining balances of those accounts at         to be corrected during FY 2004 in last year’s
year-end. This includes information on obligations        statement of assurance. However, each of the three
and outlays or actual cash disbursements for the year.    management control weaknesses remains a weakness
                                                          going forward to FY 2005. In FY 2004 one new
                                                          management control weakness was identiﬁed. The
Statement of Financing
                                                          following is the status of the material weakness:
This is a reconciling statement that tracks the
relationship between the proprietary accounts and            Open material weaknesses as of
the budgetary accounts of the Civil Works Fund. The          September 30, 2003                       3
Statement of Financing provides data on the total
resources provided to the Civil Works Fund during            Plus: New material weaknesses
the ﬁscal year and how those resources were used.            identiﬁed in FY 2004                     1
                                                             Less: Material weaknesses corrected
The ﬁrst section of the statement, Resources Used to         in FY 2004                               0
Finance Activities, shows a total of $4.1 billion. This
is the amount for which the Civil Works Fund may             Open material weaknesses as of
have a future liability that would eventually require        September 30, 2004                       4
cash payments.
                                                          Weaknesses Identiﬁed During FY 2004
The second section, Resources Used to Finance             The Civil Works Program identiﬁed one new
Items not Part of the Net Costs of Operations,            management control weakness during FY 2004. The
identiﬁes and adjusts budgetary transactions              following section provides a brief description of the
recorded by the Civil Works Fund for changes in the       weakness and the target date for correction.
amount of goods, services and beneﬁts ordered but
not received, the costs capitalized on the balance        CFO Property, Plant, and Equipment Issues
sheet, and ﬁnancing sources that fund costs of earlier    Construction in Progress (CIP): During the FY 2002
periods. For FY 2004, the fund had a negative $253        and FY 2003 audit work, IG DoD projected that
million in adjustments.                                   $10 billion of the beginning balance for FY 2003
                                                          was overstated by $7.8 billion due to expense-type
The ﬁrst two sections are netted together to yield        events being erroneously capitalized, (i.e., Bank
the total resources used to ﬁnance the net cost of        Stabilization Work, Beach Nourishment, Dredging,
operations. For FY 2004, total resources used to          Fish Mitigation Work, Reimbursements to Sponsors),
ﬁnance net costs decreased 44 percent over the            untimely transfers to completed projects, non-
previous year and amounted to approximately $3.9          Federal cost share projects erroneously capitalized,
billion.                                                  CIP costs that could not be reconciled to source data,
                                                          and $41 million in negative CIP balances.
Finally, the third section, Components of the Net
Cost of Operations that will not Require or Generate      Real Property: During FY 2002 and FY 2003 audit


                                                                                                              237
work, IG DoD identiﬁed seven major issues: (1)                subcontractor performance are not wholly in
Placed in Service Dates, (2) Useful Life, (3) Physical        compliance with the law as it pertains to small
Existence, Impairment, and Usefulness of Assets,              business subcontracting. In August 2002, the Civil
(4) Bank Stabilization, (5) Non-Federal Lease                 Works accepted a Web-based system to track outlays
Classiﬁcations for Building and Other Structures, (6)         to small businesses under approved subcontracting
Supporting Documentation, and (7) Classiﬁcation of            plans and to track the actual execution of those
Assts.                                                        plans. The system enables subcontractors to enter
                                                              payments received from their prime contractors
The target date for correction of this weakness is 1st        monthly, and enables independent validation by the
Quarter, FY 2005.                                             government. Because the system is Web-based, any
                                                              Civil Works ofﬁce can review, query, or generate
                                                              reports on compliance. The system was tested in FY
Previously Reported Weaknesses                                2003, and full compliance is delayed due to a lack of
The Civil Works Program reported three weaknesses             funds. Incorporation of the system in the Enterprise
last year that it had expected to close during FY             technology infrastructure for the Army is the strategy
2004. Various circumstances prevented this from               being utilized to ensure funding.
happening. The following sections provide a brief
description of each weakness and the revised target           The revised target date for successful correction of
date for correction.                                          this weakness is no later than 2nd Quarter, FY 2005.
Information Systems Security—Computer System                  Information Technology (IT) Capital Planning and
Controls                                                      Investment Decision Process
In October 2000, GAO identiﬁed a number of                    Weaknesses in the IT Capital Planning and
systems control weaknesses at the data processing             Investment Decision Process were identiﬁed for
centers. These weaknesses could allow either                  the selection, control, and evaluation of USACE IT
hackers or authorized users to improperly modify,             Investments in FY 2001. The Clinger-Cohen Act of
disclose, or destroy ﬁnancial data. Corrective actions        1996 and Army Regulation 25-1 require that Federal
to support the assurance of data security, including          agencies institutionalize a USACE IT Capital
the reorganization of the Corps of Engineers and              Planning and Investment Decision Process. This
funding increases, have been taken to correct these           process integrates the programming and budgeting
deﬁciencies. The targeted correction date in last             for IT Investments through policies, guidance, and
year’s statement of assurance was March 2004. The             committees that monitor and track these investments
followup on the GAO – Federal Information Systems             through the USACE IT Investment Portfolio.
Controls Audit Manual Audit and followup review/              Currently, the process is fragmented and senior-level
validation actions by IG DoD were delayed. At this            approval continues to be given to high-visibility
time an item with the longest lead time is dependent          projects that have not been through the process.
upon effective actions to relocate a large processing         This weakness impacts corporate decisions on the
center to a separate facility.                                ranking and prioritization of IT Investments and their
                                                              contribution to the mission of USACE. A number of
The revised target date for successful correction of          corrective actions have been completed or partially
this weakness is 4th Quarter, FY 2005.                        met while others have been delayed due to ongoing
                                                              stafﬁng.
Subcontracting Plans for Small Business
Procedures for evaluating and negotiating                     The revised target date for successful correction of
subcontracting plans and for evaluating                       this weakness is 1st Quarter, FY 2006.




Civil Works Fund – Management’s Discussion & Analysis — 238
                                                        Argentina, both of which have invested heavily in
Future Effects of Existing Conditions                   inland waterways to reduce costs.
The Marine Transportation System                        A lock modernization program has been underway
The Marine Transportation System (MTS) consists         since 1986, with $1.7 billion invested to date and an
of 1,000 harbor channels, 25,000 miles of inland,       additional $3.4 billion programmed for construction.
intercoastal, and coastal waterways, and 235            This, however, is insufﬁcient to support optimum
lock chambers. Work done to improve the inland          construction schedules. Completion dates for these
waterways is estimated to yield $5.5 billion in cost    projects have been set back by between one and ﬁve
savings per year, and improvements to the deep-draft    years, considerably increasing costs.
navigation system are estimated to save a further
$1.5 billion in transportation costs annually.          These increasing costs come at a time when
                                                        investment in water resources is in sharp decline. In
The MTS is nearing capacity, however, and               1960, investment in all public infrastructure was 4
demands on it will grow substantially with the          percent of the Federal budget. Today, that ﬁgure is
projected growth of international and domestic          2.6 percent. Furthermore, in 1960 water resources
trade—trade is expected to double by 2020 to more       received slightly more than 1 percent of all public
than 4 billion tons of cargo annually. This will        infrastructure investment; today, they receive less
put great pressure on the system. It also should be     than half a percent. This failure to invest adequately
noted that few American ports provide the 50 – 55       in water infrastructure could pose a serious
feet of depth needed by the latest containerships.      constraint to America’s economic development and
Many international ports, including Halifax and         competitive advantage in international trade.
Vancouver in Canada and Freeport in the Bahamas,
already can accommodate such ships, and it is
essential that America match them. Civil Works          Responding to Terrorist Threats
has over the past decade dredged an average of 275      The events of September 11, 2001, changed the
million cubic yards of material per year. This work     thinking about threat management. Everything
creates the additional challenge of how to dispose      from drinking water sources to reservoirs and dams
of the dredged material in an economically and          is now viewed as a potential target for terrorists.
environmentally acceptable manner.                      Since the attacks on New York and Washington,
                                                        D.C., Civil Works has maintained a heightened
                                                        state of alertness as we seek to protect the Nation’s
Aging Infrastructure                                    critical infrastructure of water supply, waterborne
More than 44 percent of America’s locks and dams        commerce, and electric power generation.
are at least 50 years old, and many locks are now
too small to comfortably accommodate modern             Assuring the security of this infrastructure will
commercial barges. They are already carrying more       require investment in warning and alert systems,
tonnage than they were designed to handle, and          systems to detect and respond to chemical and
trafﬁc is forecast to increase 30 percent by 2020.      biological agents, intelligence-gathering and counter-
Delays attributable to aged locks already amount        terrorism measures, and emergency management
to 550,000 hours per year, representing $385            systems. This requires investment in both technology
million in increased operating costs. This is eroding   and people. It is essential to institute a program
America’s share of international markets—American       that will comprehensively protect our water supply
farmers already have lost 30 percent of their share     systems.
of the European market for soybeans to Brazil and




                                                                                                             239
                                                              link between each team member’s performance and
Advancing the President’s Management                          organizational success.
Agenda
                                                              The USACE Learning Advisory Board (LAB)
Strategic Management of Human Capital                         has been established and has operated during the
It is essential that the USACE develop world-class            past several years as an advocate for initiatives
technical expertise and make the best possible use            and activities designed to further align the Civil
of its human resources. The Corps of Engineers has            Works workforce and mission and to transform
long recognized the importance to its mission of its          USACE into a Learning Organization. Co-chaired
people and, as a result, it has sought through training       by a General Ofﬁcer and the USACE Director
and by sustaining its workforce to ensure that all            of Human Resources, respectively, the LAB is
mission-essential occupations are appropriately               ﬁeld-based, with representation from all levels
staffed with skilled people.                                  within USACE, including Emerging Leaders from
                                                              various districts. Under the auspices of the LAB,
Aligning the Workforce and Mission                            the USACE Learning Organization and Leadership
A comprehensive human capital strategy has been               for Learning Doctrines have been developed. The
developed that is aligned with mission and broad              Chief of Engineers chose Learning Organization and
corporate goals.                                              Leadership for Learning, respectively, as the focus
                                                              of the 2002 and 2003 USACE Senior Leadership
All employees must understand the Corps’ mission
                                                              Conferences. To ensure effective and efﬁcient
and must understand how their work contributes to
                                                              alignment of the USACE workforce and mission,
that mission. Each employee, as part of the larger
                                                              the LAB has developed, reﬁned and adopted a set of
Corps of Engineers, receives a CD-ROM called
                                                              Training Principles to be used in driving workforce
the CorpsPath. This provides an overview of the
                                                              development in all areas. Other initiatives of the
history, mission, and strategic goals of the Corps
                                                              LAB include ongoing planning for Corps-wide
and provides detailed information on Civil Works
                                                              integration of learning organization and leadership
business processes as well as on its strategy of
                                                              for learning doctrines; development of coaching and
knowledge management.
                                                              mentoring communities of practice; development of
A Mission Essential Task List links performance               individual and organization learning assessments;
measurement to mission accomplishment and                     development of a network of university partners;
enables identiﬁcation of skill gaps in the workforce.         development of a best practices and learning case
The Corps of Engineers has automated this                     inventory; and development of a USACE Leadership
process and is producing a list of individual and             Development Program template.
organizational training requirements that will,
                                                              A People Committee, chaired by a Senior Executive
through training and various learning activities, align
                                                              and with cross-functional membership, has been
the workforce and mission. Five Engineer Divisions
                                                              established and is active in identifying strategic
have adopted the Automated Training Management
                                                              human resources (HR) initiatives, tracking
Program (ATMP), which has the capability of linking
                                                              implementation, and measuring progress at our
individual and organizational training requirements
                                                              Major Subordinate Commands through the Corps’
directly to mission. ATMP generates reports that
                                                              Command Strategic Review program. HR strategies
can be used to manage training dollars effectively.
                                                              and initiatives are aligned and developed under the
An individual development plan is electronically
                                                              auspices of the USACE Strategic Vision, Campaign
generated as well. A conﬁguration control board
                                                              Plan, and Human Capital Plans, respectively.
has been established in order to review and approve
proposed changes and enhancements to ATMP in                  To further support aligning the USACE workforce
order to ensure that the program remains uniform              and mission, the Directorate of HR (DHR) has
throughout the Corps. Individual performance plans            revised and conducted an orientation program for
are also used to align performance with mission and           SES members of the workforce and conducted a
corporate goals and to increase understanding of the          USACE-wide HR conference to ensure that all


Civil Works Fund – Management’s Discussion & Analysis — 240
ﬁeld HR staffs are informed about the USACE              future based on an analysis of projected turnover and
PMA for human capital initiatives. Additionally, an      future mission requirements.
important session at the HR conference focused on
Strategic Sourcing from three different perspectives:    The USACE employment website has been reworked
the headquarters Project Ofﬁce perspective; what         to make it more attractive and user-friendly. It now
Civilian Personnel Advisory Center employees             provides more information in which prospective
should expect; and labor and employee relations          employees would be interested. Recruitment material
aspects. In addition, DHR established several            and advertisements have been updated. A recruiters’
Project Delivery Teams to focus on redesign              handbook has been developed, and training for
and streamlining of the USACE Professional               recruiters has begun.
Development Support Center, which designs and
delivers Corps-speciﬁc technical, professional,          Training and Learning
and short courses; developed an online USACE             To ﬁll and also to limit the occurrence of future skill
Coaching, Counseling, and Mentoring Guide; and           gaps, the Corps of Engineers must embrace and
identiﬁed and executed funding for obtaining access      subsequently embody the attributes and principles
to the Department of Labor Workforce Connections         of a learning organization. Technology and business
Workforce Productivity Tools that will enable            practices are continuously evolving: therefore, the
USACE to provide state-of-the art course delivery        Corps has decided to establish a learning network
and learning knowledge management for the beneﬁt         addressing the three areas of technical excellence,
of our workforce.                                        business and communications, and leadership. This
                                                         network will capitalize on USACE Communities
USACE has a customer focus and has allocated its         of Practice and will create a vibrant knowledge
personnel accordingly. As the program is in contact      management platform that will bring together
with its customers primarily at the Engineer District    discussion of lessons learned, best practices, and
level, 95 percent of the workforce is concentrated at    knowledge management with training. It will also
district, ﬁeld ofﬁce, and resident ofﬁces. As part of    enable learners to meet with and enjoy the beneﬁts
an effort to improve service to the public, 50 percent   of continuous learning from subject matter experts
of supervisory positions have been eliminated            and enable the further development, reﬁnement,
since 1994 in an effort to ﬂatten the organization       and enhancement of communities of practice within
and increase the percentage of employees directly        USACE.
engaging the customer. A comprehensive review
of command functions, business processes, and            Competitive Sourcing
structure has recently been completed, with              In concordance with the PMA, Civil Works
implementation scheduled for FY 2004.                    recognizes that some of its employees likely are
Recruiting                                               performing tasks that can be outsourced to the
The USACE has more than 600 college students             commercial marketplace. Civil Works accordingly
enrolled in various intern programs, representing        has a plan to conduct competitive sourcing studies on
an increase from 1989 to 2001 of 400 percent. The        approximately 5,700 positions between FY 2004 and
Corps recognizes the need to develop a source of         FY 2008. This represents 37 percent of authorized
skilled young people to replace an aging workforce.      Civil Works commercial positions and is in addition
By exposing college students to the work done by         to the 58 percent of the Civil Works workload which
the Corps, it is believed that such a source can be      is already accomplished by its industry partners.
developed, and thus we can address anticipated
                                                         A number of factors need to be considered when
shortages in the workforce as baby boomers reach
                                                         identifying the positions that will be opened up
retirement.
                                                         for competition. Realization of the full value of
The USACE Human Capital plan includes a                  outsourcing requires that there be a large number of
comprehensive analysis of the current workforce          positions for conversion, that they are of a notably
and projects workforce needs several years into the      commercial nature, and that they are geographically
                                                         concentrated. In addition, there is a need to keep a


                                                                                                              241
minimum number of Federal positions for each staff            through the Internet. Participating in Presidential-
function in order that oversight be retained in areas         level interagency initiatives such as Recreation One-
such as ﬁnancial management, public affairs, and              Stop and Geospatial Information One-Stop, Civil
others.                                                       Works is making access to information about our
                                                              services and programs easier for more Americans. In
                                                              partnership with the U.S. Forest Service, Civil Works
Improved Financial Performance
                                                              also supports the National Recreation Reservation
The USACE is recognized as a leader in the DoD in             System for the use of public lands and facilities.
the area of ﬁnancial management and continues to
upgrade its ﬁnancial management systems and tools.            To simplify access to the rules governing use
For example, the Corps has developed a proprietary            of Civil Works lands and waterways, it has
ﬁnancial tool known as the Corps of Engineers                 eliminated all hard-copy directives and publications
Financial Management System (CEFMS). Designed                 (approximately 1,000), placing them instead online
and built by the Corps with the aid of external               in formats suitable for viewing, downloading, and
contractors, the system delivers a broad range of             printing. Civil Works is also responsible for nine
functionality. It integrates ﬁnancial management              public reports, and eight of these reports were
processes with internal program and project                   integrated during FY 2004 into the Operations and
management processes and provides automated                   Maintenance Business Information Link (OMBIL)
linkage to the Department of the Army, DoD, and the           with an Internet data collection capability. The
OMB.                                                          remaining report comprises about 60 individual
                                                              questionnaires that are currently available for
The Corps invested approximately $76 million                  download from the web.
in development of CEFMS. The process of
implementing the system and gaining its acceptance            Under OMBIL, the regulatory permit process is
among the Corps family required a major cultural              being streamlined and integrated into a transaction-
adjustment, but efforts in this regard have proven            based web environment. Civil Works is evaluating
extremely successful, and CEFMS is a key                      other means for integrating various types of
component of successful program execution                     authorizations and licenses, with the view to
and customer care. The system now serves as a                 improving public access to them and reducing
measuring stick for new DoD ﬁnancial management               waiting times. Civil Works is also participating in the
systems, and provided the basis for development of            redesign and horizontal enterprise portal pilot efforts
the Defense Joint Accounting System.                          related to the totality of the Corps corporate Web
                                                              presence.
In addition to implementing CEFMS, the Corps has
undertaken the challenge of complying with the full           The Corps strategic-level Communication
requirements of the CFO Act of 1990. With a fully             Committee has identiﬁed the revision of the USACE
integrated CEFMS and sound business practices, the            Internet presence as a strategic initiative for this year.
Corps is positioning itself to be one of the ﬁrst Army        A new user-friendly Web page is being developed,
components to receive an unqualiﬁed audit opinion.            and the site is being enhanced with a new search
                                                              engine and zip code locater. The plan is for the entire
Expand Electronic Government                                  Corps eventually to adopt a more corporate presence
Adoption of a wide array of Web-based services                on the Internet to assist citizens in ﬁnding help for
has wrought major changes to the Civil Works                  the various services we perform.
program’s business processes and, in particular, has          Government to Business
vastly improved the program’s internal and external           Civil Works is working to make it easier to
communications.                                               do business with the Federal Government. In
Government to Citizen                                         partnership with the National Institute of Standards
Civil Works is an active proponent of the                     and Technology and the Government Accountability
Government’s drive to reach out to the public                 Ofﬁce, Civil Works is working to deﬁne the



Civil Works Fund – Management’s Discussion & Analysis — 242
requirements for a public key-based electronic            Internal Efﬁciency and Effectiveness
signature capability to replace the proprietary           The PMBP program is a signiﬁcant initiative to
electronic signature capability that currently is used.   streamline the business processes associated with
                                                          program and project management. It also will
Civil Works is a full participant in the Web-based        support the adoption of best business practices in the
Tri-Service Solicitation Network and sponsors the         delivery of projects to local, state, regional, Federal,
Electronic Contract Solicitations system, which is        and international customers and will facilitate agency
a Web-based electronic process for advertising and        budget and performance integration. At the heart of
distributing contract solicitation documents, with        this business re-engineering effort are the adoption
linkages to “Army Single Face to Industry” and            of commercial off-the-shelf software, the integration
FedBizOps websites. Civil Works is also DoD’s             and streamlining of legacy automated systems, and
Executive Agent for the Architect-Engineer (A-E)          the termination of several stand-alone applications.
Contractor Administrative Support System and the
Construction Contractor Appraisal Support System.         The PMBP program will also enhance a common
These systems manage A-E and construction                 electronic workplace environment that promotes
contractor performance evaluations.                       Regional Business Centers, virtual teaming,
                                                          personalization, and the strategic management of
Government to Government (G2G)                            human capital.
The sharing of information among Federal, state,
local, and tribal governments and the full integration
of that information will contribute to better             Budget and Performance Integration
government for all Americans. The Comprehensive           The President’s objective to link performance and
Everglades Restoration Program, a partnership of          budget builds on the Government Performance and
the Civil Works program with the South Florida            Results Act of 1993 and earlier efforts to identify
Water Management District, is a prime example of          program goals and performance measures and to link
interagency and special interest group electronic         them to the budget. The FY 2003 President’s Budget
data sharing through a signiﬁcant Internet presence       was the ﬁrst to include explicit assessments of
(www.evergladesplan.org). Another example,                program performance and included a performance-
the ENGLink automated system, is the primary              linked budget assessment of three Civil Works
integrator of multijurisdictional (local, state,          business programs: Navigation (Inland Waterways
and Federal) data for the support of emergency            portion), Flood and Coastal Storm Damage
operations. ENGLink provides real-time, accurate          Reduction, and Environmental Restoration. For the
information in the event of a disaster, helping to        FY 2004 budget, Civil Works added Regulatory,
support collaborative response planning among what        Emergency Management, and Environment
may be widely dispersed assets.                           programs to the process of linking performance to
                                                          budget and continued developing new performance
OMBIL and the Corps Water Management System               measures to further this linkage. More recently,
aggregate, integrate, and disseminate multiple            Civil Works completely transformed its FY 2005
sources of data in support of hydropower, navigation,     and FY 2006 budget development to align it with
environmental stewardship, and ﬂood and coastal           the eight programs funded through Congressional
storm damage reduction missions that impact local,        appropriations. We will place increased emphasis
regional, state, and national interests. The Project      during FY 2005 on ﬁelding new performance
Management Business Process (PMBP) program—               measures that are linked the to budget. Progress in
which will see the development of a one-stop portal       implementing this initiative will be reported in the
enabling customers and stakeholders to access             FY 2005 ﬁnancial statements.
project status information—is also signiﬁcant in
terms of advancing the Corps’ G2G services.




                                                                                                               243
Civil Works Fund Introduction Page Photos
[Large Photo]
Port Mayaca Lock and Dam located on the east side of Lake Okeechobee at the junction with the St. Lucie Canal. The Okeechobee
Waterway extends to the Gulf of Mexico using the Caloosahatchee River and to the Atlantic Ocean using the St. Lucie Canal.

[Top Inset Photo]
Clean-up after Hurricane Isabel in Norfolk, VA.

[Middle Inset Photo]
View of Sea Bright, N.J. coastline as a storm attacks the seawall.

[Botton Inset Photo]
Fighting the ﬂood in Fort Wayne, IN.




Civil Works Fund – Management’s Discussion & Analysis — 244
Civil Works Fund Principal Financial
Statements, Notes, and Supplementary
Information




                                       245
                            Limitations
                            Limitations of the Financial Statements
                            The ﬁnancial statements have been prepared to report the ﬁnancial
                            position and results of operations for the entity, pursuant to the
                            requirements of Title 31, United States Code, section 3515(b).

                            While the statements have been prepared from the books and
                            records of the entity, in accordance with the formats prescribed
                            by the Ofﬁce of Management and Budget, the statements are
                            in addition to the ﬁnancial reports used to monitor and control
                            budgetary resources which are prepared from the same books and
                            records.

                            To the extent possible, the ﬁnancial statements have been prepared
                            in accordance with federal accounting standards. At times, the
                            Department is unable to implement all elements of the standards
                            due to ﬁnancial management systems limitations. The Department
                            continues to implement system improvements to address these
                            limitations. There are other instances when the Department’s
                            application of the accounting standards is different from the
                            auditor’s application of the standards. In those situations, the
                            Department has reviewed the intent of the standard and applied it in
                            a manner that management believes fulﬁlls that intent.

                            The statements should be read with the realization that they are for
                            a component of the United States Government, a sovereign entity.
                            One implication of this is that the liabilities cannot be liquidated
                            without legislation that provides resources to do so.


                            Limitations Concerning National Defense Property, Plant
                            and Equipment
                            The Federal Accounting Standards Advisory Board (FASAB)
                            revised the Statement of Federal Financial Accounting Standards
                            No. 6 to require the capitalization and depreciation of military
                            equipment (formerly National Defense Property, Plant and
                            Equipment/ND PP&E) for ﬁscal years (FY) 2003 and beyond, and
                            encouraged early implementation




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 246
Department of Defense- Department of the Army, Civil Works Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)



ASSETS¬(Note¬2)                                                   2004 Consolidated    2003 Consolidated
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                              $2,378,442           $2,588,857
      Non-Entity Seized Iraqi Cash                                                 0                    0
      Non-Entity-Other                                                         8,245                6,865
Investments (Note 4)                                                       2,741,917            2,478,454
Accounts Receivable (Note 5)                                                 520,123              423,774
Other Assets (Note 6)                                                              0                    0
Total Intragovernmental Assets                                            $5,648,727           $5,497,950
Cash and Other Monetary Assets (Note 7)                                       $1,039               $1,278
Accounts Receivable (Note 5)                                               1,906,435            1,935,567
Loans Receivable (Note 8)                                                          0                    0
Inventory and Related Property (Note 9)                                       61,815               62,605
General Property, Plant and Equipment (Note 10)                           28,448,517           30,909,056
 Investments (Note 4)                                                              0                    0
 Other Assets (Note 6)                                                             0                    0
TOTAL¬ASSETS                                                             $36,066,533          $38,406,456

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                                 $103,498               $92,764
Debt (Note 13)                                                                15,367               17,386
Environmental Liabilities (Note 14)                                                0                    0
Other Liabilities (Note 15 & Note 16)                                      2,058,627            2,096,480
Total Intragovernmental Liabilities                                       $2,177,492           $2,206,630
Accounts Payable (Note 12)                                                 $570,255             $568,108
Military Retirement Benefits and Other Employment-Related                          0                    0
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                                0                    0
Loan Guarantee Liability (Note 8)                                                  0                    0
Other Liabilities (Note 15 and Note 16)                                      646,125              705,384
Debt Held by Public                                                                0                    0
TOTAL¬LIABILITIES                                                         $3,393,872           $3,480,122

NET¬POSITION
Unexpended Appropriations (Note 18)                                        $396,362             $636,846
Cumulative Results of Operations                                          32,276,299           34,289,488
TOTAL¬NET¬POSITION                                                       $32,672,661          $34,926,334
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                       $36,066,533          $38,406,456




                                                                                                            247
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)



Program¬Costs                                                                2004 Consolidated       2003 Consolidated
  Intragovernmental Gross Costs                                                        $1,020,767               $819,199
  (Less: Intragovernmental Earned Revenue)                                             (1,234,805)           (1,011,769)
  Intragovernmental Net Costs                                                           ($214,038)            ($192,570)
  Gross Costs With the Public                                                          $8,658,737            $9,466,972
  (Less: Earned Revenue From the Public)                                                 (367,963)             (298,633)
  Net Costs With the Public                                                            $8,290,774            $9,168,339
  Total Net Cost                                                                       $8,076,736            $8,975,769
Cost¬Not¬Assigned¬to¬Programs                                                                    0                     0
(Less: Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                              0                     0
¬Net¬Cost¬of¬Operations                                                                $8,076,736            $8,975,769




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 248
Department of Defense- Department of the Army, Civil Works Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



CUMULATIVE¬RESULTS¬OF¬OPERATIONS                              2004 Consolidated      2003 Consolidated
Beginning¬Balances                                                   $34,289,488            $39,695,092
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                      0             (2,669,485)
Beginning Balance, Restated                                           34,289,488             37,025,607
Prior Period Adjustments - Not Restated (+/-)                                  0                      0
Beginning¬Balances,¬as¬adjusted                                      $34,289,488            $37,025,607
Budgetary¬Financing¬Sources:
Appropriations received                                                         0                      0
Appropriations transferred-in/out (+/-)                                         0                      0
Other adjustments (rescissions, etc) (+/-)                                      0                      0
Appropriations used                                                    4,079,023              4,323,711
Nonexchange revenue                                                    1,434,495                931,241
Donations and forfeitures of cash and cash equivalents                          0                      0
Transfers-in/out without reimbursement (+/-)                             315,045                863,243
Other budgetary financing sources (+/-)                                   (3,945)               (32,536)
Other¬Financing¬Sources:
Donations and forfeitures of property                                         435                  4,648
Transfers-in/out without reimbursement (+/-)                              (1,632)               (56,344)
Imputed financing from costs absorbed by others                          239,548                225,066
Other (+/-)                                                                   578               (19,379)
Total¬Financing¬Sources                                               $6,063,547             $6,239,650
Net¬Cost¬of¬Operations¬(+/-)                                           8,076,736              8,975,769
Ending¬Balances                                                      $32,276,299            $34,289,488

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                      $636,846             $1,064,864
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                      0                      0
Beginning Balance, Restated                                              636,846              1,064,864
Prior Period Adjustments - Not Restated (+/-)                                  0                      0
Beginning¬Balances,¬as¬adjusted                                         $636,846             $1,064,864
Budgetary¬Financing¬Sources:
Appropriations received                                                 3,854,081              4,027,057
Appropriations transferred-in/out (+/-)                                     18,394               196,111
Other adjustments (rescissions, etc) (+/-)                                (33,936)             (344,418)
Appropriations used                                                   (4,079,023)            (4,306,768)
Nonexchange revenue                                                              0                     0
Donations and forfeitures of cash and cash equivalents                           0                     0
Transfers-in/out without reimbursement (+/-)                                     0                     0
Other budgetary financing sources (+/-)                                          0                     0
Other¬Financing¬Sources:
Donations and forfeitures of property                                           0                      0
Transfers-in/out without reimbursement (+/-)                                    0                      0
Imputed financing from costs absorbed by others                                 0                      0
Other (+/-)                                                                     0                      0
Total¬Financing¬Sources                                                ($240,484)             ($428,018)
Net¬Cost¬of¬Operations¬(+/-)                                                    0                     0
Ending¬Balances                                                          $396,362               $636,846




                                                                                                           249
Department of Defense- Department of the Army, Civil Works Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)


                                                                                                                 NON-
                                                       BUDGETARY FINANCING ACCOUNTS                  BUDGETARY FINANCING ACCOUNTS
BUDGETARY¬RESOURCES                                   2004 Combined           2003 Combined          2004 Combined    2003 Combined
Budget Authority:
Appropriations received                                      $5,141,166                $7,652,893                $0              $0
Borrowing authority                                                 135                         0                 0               0
Contract authority                                                    0                         0                 0               0
Net transfers (+/-)                                             206,924                   160,964                 0               0
Other                                                                 0                         0                 0               0
Unobligated balance:
Beginning of period                                           1,850,226                 1,741,013                0                  0
Net transfers, actual (+/-)                                      28,495                         0                0                  0
Anticipated Transfers Balances                                        0                         0                0                  0
Spending authority from offsetting collections:
Earned                                                                 0                         0                0               0
Collected                                                     5,212,085                 5,065,570                 0               0
Receivable from Federal sources                                   64,104                  (74,841)                0               0
Change in unfilled customer orders                                     0                         0                0               0
Advance received                                                  29,660                  (16,318)                0               0
Without advance from Federal sources                            272,555                   262,126                 0               0
Anticipated for the rest of year, without advances                     0                         0                0               0
Transfers from trust funds                                             0                         0                0               0
Subtotal                                                     $5,578,404                $5,236,537                $0              $0
Recoveries of prior year obligations                                   0                         0                0               0
Temporarily not available pursuant to Public Law                (10,000)                         0                0               0
Permanently not available                                       (29,076)                   (8,653)                0               0
Total¬Budgetary¬Resources                                   $12,766,274               $14,782,754                $0              $0

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                       $5,615,179                $5,516,359                $0              $0
Reimbursable                                                  5,457,815                 5,033,749                 0               0
Subtotal                                                    $11,072,994               $10,550,108                $0              $0
Unobligated balance:
Apportioned                                                   1,234,139                 1,387,762                 0               0
Exempt from apportionment                                       459,076                 2,844,875                 0               0
Other available                                                      (1)                        0                 0               0
Unobligated Balances Not Available                                   66                         9                 0               0
Total,¬Status¬of¬Budgetary¬Resources                        $12,766,274               $14,782,754                $0              $0

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                 $1,007,621                $1,047,323                0                  0
Obligated Balance transferred, net (+/-)                              0                         0                0                  0
Obligated Balance, Net - end of period:
Accounts receivable                                            (224,704)                 (160,601)               0                  0
Unfilled customer order from Federal sources                 (1,907,809)               (1,635,255)               0                  0
Undelivered orders                                             2,022,902                 1,628,915               0                  0
Accounts payable                                               1,148,287                 1,174,565               0                  0
Outlays:
Disbursements                                                10,705,281                10,402,525                 0               0
Collections                                                  (5,241,746)               (5,049,251)                0               0
Subtotal                                                     $5,463,535                $5,353,274                $0              $0
Less: Offsetting receipts                                    (1,592,297)                 (904,214)                0               0
Net¬Outlays                                                  $3,871,238                $4,449,060                $0              $0




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 250
Department of Defense- Department of the Army, Civil Works Fund
COMBINED STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)


Resources¬Used¬to¬Finance¬Activities:                                                2004 Combined      2003 Combined
Budgetary Resources Obligated
Obligations incurred                                                                     $11,072,994        $10,550,108
Less: Spending authority from offsetting collections
     and recoveries (-)                                                                   (5,578,404)        (5,236,537)
Obligations net of offsetting collections and recoveries                                  $5,494,590         $5,313,571
Less: Offsetting receipts (-)                                                             (1,592,297)          (904,214)
Net obligations                                                                           $3,902,293         $4,409,357
Other Resources
Donations and forfeitures of property                                                             435              4,648
Transfers in/out without reimbursement (+/-)                                                  (1,632)           (56,344)
Imputed financing from costs absorbed by others                                              239,548            225,066
Other (+/-)                                                                                       579           (19,379)
Net other resources used to finance activities                                               238,930            153,991
Total¬resources¬used¬to¬finance¬activities                                                $4,141,223         $4,563,348

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
Change in budgetary resources obligated for goods
      services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                    ($400,175)         ($154,315)
Unfilled Customer Orders                                                                     302,216            245,807
Resources that fund expenses recognized in prior periods                                    (55,278)                  0
Budgetary offsetting collections and receipts that
      do not affect net cost of operations                                                  1,592,297           904,695
Resources that finance the acquisition of assets                                          (1,684,000)         1,399,859
Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-          (10,000)                  0
Other (+/-)                                                                                    1,636                  0
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations              ($253,304)         $2,396,046

Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                $3,887,919         $6,959,394

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will                                   2004 Combined      2003 Combined
      not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period
Increase in annual leave liability                                                                $0                 $0
Increase in environmental and disposal liability                                                   0                  0
Upward/Downward reestimates of credit subsidy expense (+/-)                                        0                  0
Increase in exchange revenue receivable from the the public (-)                                    0                  0
Other (+/-)                                                                                   50,966             66,422
Total components of Net Cost of Operations that
      will require or generate resources in future periods                                   $50,966            $66,422
Components not Requiring or Generating Resources
Depreciation and amortization                                                              2,373,460            447,661
Revaluation of assets or liabilities (+/-)                                                 (822,198)          1,477,630
Other (+/-)
Trust Fund Exchange Revenue                                                                        0                  0
Cost of Goods Sold                                                                                 0                  0
Operating Material & Supplies Used                                                                 0                  0
Other                                                                                      2,586,589             24,662
Total components of Net Cost of Operations that
      will not require or generate resources                                              $4,137,851         $1,949,953
Total¬components¬of¬net¬cost¬of¬operations¬that
      will¬not¬require¬or¬generate¬resources¬in¬the¬current period                        $4,188,817         $2,016,375
Net¬Cost¬of¬Operations                                                                    $8,076,736         $8,975,769




                                                                                                                      251
Note 1.                Signiﬁcant Accounting Policies
1.A. Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of
the U.S. Army Corps of Engineers (USACE) Civil Works, as required by the “Chief Financial Ofﬁcers
(CFO) Act of 1990,” expanded by the “Government Management Reform Act (GMRA) of 1994,” and other
appropriate legislation. The ﬁnancial statements have been prepared from the books and records of the
USACE in accordance with the “Department of Defense Financial Management Regulation (DoDFMR),”
the Ofﬁce of Management and Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial
Statements” and, to the extent possible, generally accepted accounting principles (Federal GAAP). USACE
ﬁnancial statements are in addition to the ﬁnancial reports also prepared by USACE pursuant to OMB
directives that are used to monitor and control the USACE’s use of budgetary resources.

USACE ﬁnancial statements are prepared from the consolidation of general ledger ﬁnancial data reported
from the Corps of Engineers Financial System (CEFMS) to the Corps of Engineers Enterprise Management
Information System (CEEMIS).

A more detailed explanation of these ﬁnancial statements elements is provided in the applicable footnote.


1.B. Mission of the Reporting Entity
Some of the missions of USACE include maintaining navigation channels, reducing ﬂooding, assisting
during natural disasters and other emergencies and making waterways passable. The ﬁnancial statements are
presented on the accrual basis of accounting as required by federal ﬁnancial accounting standards.

The asset accounts used to prepare the principal ﬁnancial statements are categorized as entity/non-entity.
Entity accounts consist of resources that the agency has the authority to use, or where management is legally
obligated to use funds to meet entity obligations. Non-entity accounts are assets that are held by an entity but
are not available for use in the operations of the entity.

USACE Civil Works Program receives Federal funding through annual Energy and Water Development
Appropriations Acts. Program funding is also received from non-Federal project sponsors who share in
project costs according to formulas established by project authorization acts. A third source of funding comes
through the Support for Others Program, which is conducted under reimbursable agreements with Federal
agencies.

Entity Accounts:

General Funds
96X3112                   Flood Control, Mississippi River and Tributaries
96X3121                   General Investigations
96 3121                   General Investigations (ﬁscal year)
96X3122                   Construction, General
96X3123                   Operation and Maintenance, General
96X3124                   General Expenses
96X3125                   Flood Control and Coastal Emergencies
96X3126                   Regulatory Program
96X3128                   Washington Aqueduct Capital Improvements
96 3129                   Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
                          (ﬁscal year)
96X3130                   FUSRAP
96X6094                   Advances from the District of Columbia



Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 252
Revolving Funds
96X4902            Revolving Fund

Special Funds
96X5007            Special Recreation Use Fees
96X5066            Hydraulic Mining in California, Debris
96X5090            Payments to States, Flood Control Act of 1954
96X5125            Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493            Fund for Non-Federal Use of Disposal Facilities

Trust Funds
96X8217            South Dakota Terrestrial Wildlife habitat Restoration Trust Fund
96X8333            Coastal Wetlands Restoration Trust Fund
96 20X8861         Inland Waterways Trust Fund
96X8862            Rivers and Harbors Contributed and Advance Funds
96 20X8863         Harbor Maintenance Trust Fund

Transfer Funds
96 12X1105         State and Private Forestry, Forest Service
96 13X2050         Economic Development Administration
96 14X1039         Construction National Park Service
96 14X5035         Land Acquisition and State Assistance, National Park Service
96 21X2020         OMA, American Samoa Projects
96 69X8083         Federal Aid Highways
96 89X4045         Bonneville Power Administration
96 72 99/00 1021   Development Assistance, Agency for International Development

Non-Entity:

Deposit Funds
96X6500            Advances without Orders from Non-Federal Sources
96X6501            Small Escrow Amounts

Clearing Accounts
96F3875           Budget Clearing Account
96F3880           Unavailable Check Cancellations and Overpayments
96F3885           Undistributed Intergovernmental Payments

Receipt Accounts
960891             Miscellaneous fees for regulatory and judicial services, not otherwise classiﬁed
961060             Forfeitures of Unclaimed Money and Property
961099             Fines, Penalties, and Forfeitures Not Otherwise Classiﬁed
961435             General Fund Proprietary Interest, Not Otherwise Classiﬁed
963220             General Fund Proprietary Receipts. Not Otherwise Classiﬁed, All Other
965007             Special Recreation Use Fees
965066             Hydraulic Mining in California
965090             Receipts from leases of lands acquired for ﬂood control, navigation, and allied purposes
965125             Licenses under Federal Power Act, Improvements of navigable water, maintenance and
                   operation of dams, etc., (50%)
965493             User Fees, Fund for Non-Federal Use of Disposal Facilities




                                                                                                          253
Obsolete Accounts
96X3930                   96X8868              96 5493
96 13X1450                96 20X8145
96 14X2301                96F3879
96 19 00 1082             96F3886
96 46X0200                960199
96 47X4542                960869
96 67X0204                961030
96 72 00/01 1021          961040
96 89X0224                961210
96X6050                   961299
96X6075                   961499
96X6134                   962413
96X6145                   962814
96X6275                   963102
96X6302                   965005
96X6999                   96 3124


1.C. Appropriations and Funds
USACE’s appropriations and funds are divided into the general, working capital (revolving funds), trust,
special and deposit funds. These appropriations and funds are used to fund and report how the resources have
been used in the course of executing USACE missions.

The Civil Works Program receives Federal funding through annual Energy and Water Development
Appropriations Acts. Program funding also comes from non-Federal project sponsors who share in project
costs according to formulas established by project authorization acts. A third source of funding comes
through the Supports for Others Program, which is conducted under reimbursable agreements with Federal
agencies.

In 1997, USACE received borrowing authority from the Treasury for the three years 1997 through 1999 to
ﬁnance capital improvements to the Washington Aqueduct. Appropriation 96X3128 was established to record
ﬁnancial transactions for these capital improvements.

General funds are used for ﬁnancial transactions arising under congressional appropriations, including
personnel, operation and maintenance, research and development, procurement, and construction accounts.

Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying
out speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special funds account for receipts of the government that are earmarked for a speciﬁc purpose.

Deposit funds generally are used to (1) hold assets for which USACE is acting as an agent or a custodian or
whose distribution awaits legal determination, or (2) account for unidentiﬁed remittances.


1.D. Basis of Accounting
USACE’s transactions are generally recorded on an accrual accounting basis and a budgetary basis as is
required by Federal GAAP. Under the accrual method, revenues are recognized when earned and expenses
are recognized when a liability is incurred without regard to receipt or payment of cash. Budgetary
accounting is accomplished through unique general ledger accounts to facilitate compliance with legal and
internal control requirements associated with the use of federal funds.

CEFMS is used at all divisions, districts, centers, laboratories and ﬁeld ofﬁces. CEFMS is a fully automated,


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 254
comprehensive ﬁnancial management system that simpliﬁes the management of all aspects of the USACE
business, including civil, military, revolving funds and reimbursable activity. The general ledger chart of
accounts in CEFMS is substantially compliant with the U.S. Government Standard General Ledger.

In addition, USACE identiﬁes programs based upon the major appropriation groups provided by Congress.


1.E. Revenues and Other Financing Sources
Financing sources for general funds are provided primarily through congressional appropriations that are
received on both an annual and a multiyear basis. When authorized, these appropriations are supplemented by
revenues generated by sales of goods or services through a reimbursable order process. USACE recognizes
revenue as a result of costs incurred or services performed on behalf of other federal agencies and the public.
Revenue is recognized when earned under the reimbursable order process.


1.F. Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. Expenditures for capital and other long-term assets are not recognized as expenses in USACE
operations until depreciated in the case of PP&E or consumed in the case of OM&S. Net increases or
decreases in unexpended appropriations are recognized as a change in the net position.

Certain expenses, such as annual and military leave earned but not taken, are ﬁnanced in the period when
earned.


1.G. Accounting for Intra-governmental Activities
USACE, as an agency of the federal government, interacts with and is dependent upon the ﬁnancial activities
of the federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results of all
ﬁnancial decisions applicable to USACE as though the agency were a stand alone entity.

USACE’s proportionate share of public debt and related expenses of the federal government are not
included. Debt issued by the federal government and the related costs are not apportioned to federal agencies.
USACE’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor
do the statements report the source of public ﬁnancing whether from issuance of debt.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent
this ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not
been capitalized since the Department of the Treasury does not allocate such interest costs to the beneﬁting
agencies.

USACE’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement Systems (FERS), while military personnel are covered by the Military Retirement
System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying
coverage under Social Security. USACE funds a portion of the civilian and military pensions. Reporting
civilian pension under CSRS and FERS retirement systems is the responsibility of the Ofﬁce of Personnel
Management (OPM). USACE recognizes an imputed expense for the portion of civilian employee pensions
and other retirement beneﬁts funded by the OPM in the Statement of Net Cost, and recognizes corresponding
imputed revenue from the civilian employee pensions and other retirement beneﬁts in the Statement of
Changes in Net Position.

The Department of Defense reports the assets, funded actuarial liability, and unfunded actuarial liability
for the military personnel in the Military Retirement Fund (MRF) ﬁnancial statements. The Department of
Defense recognizes the actuarial liability for the military retirement health beneﬁts in the Other Defense
Organization General Fund column of the DoD Agency wide consolidating/combining statements.


                                                                                                              255
To prepare reliable ﬁnancial statements, transactions occurring between entities within the Department or
between two or more federal agencies must be eliminated. USACE is responsible for eliminating transactions
between components and activities.

The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating
transactions between the Department and other federal agencies. In September 2000, the Department
of the Treasury, FMS issued the “Federal Intragovernmental Transactions Accounting Policies and
Procedures Guide.” USACE implemented the policies and procedures in this guide related to reconciling
intragovernmental assets, liabilities, revenues, and expenses for non-ﬁduciary transactions. In addition,
USACE implemented the policies and procedures contained in the “Intragovernmental Fiduciary
Transactions Accounting Guide,” as updated by the “Federal Intragovernmental Transactions Accounting
Policies and Procedures Guide,” issued October 2002, for reconciling intragovernmental transactions. These
transactions pertain to investments in Federal securities, borrowings from United States (U.S.) Treasury and
the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department of
Labor (DoL), and beneﬁt program transactions with the OPM.


1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provision of the “Arms Export Control Act of 1976.” Under the provision
of the Act, the Department has authority to sell defense articles and services to foreign countries and
international organizations, generally at no proﬁt or loss to the U.S. Government. Customers may be required
to make payments in advance.


1.I. Funds with the U.S. Treasury
USACE’s ﬁnancial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
disbursements, and adjustments are processed worldwide at the Defense Finance and Accounting Service
(DFAS) and Military Services and the USACE disbursing stations, as well as the Department of State
ﬁnancial service centers. Each disbursing station prepares monthly reports which provide information to the
U.S. Treasury on check issues, electronic transfers, interagency transfers and deposits.

In addition, the DFAS centers and the USACE Finance Center submit reports to the Department of the
Treasury, by appropriation, on interagency transfers, collections received and disbursements issued. The
Department of the Treasury then records this information to the applicable Fund Balance with Treasury
(FBWT) account maintained in the Treasury’s system. Differences between the USACE recorded balance
in the FBWT accounts and Treasury’s FBWT accounts sometimes result and are subsequently reconciled.
Material disclosures are provided at Note 3. Differences between accounting ofﬁces’ detail-level records
and Treasury’s FBWT accounts are disclosed in Note 3, speciﬁcally, differences caused by in-transit
disbursements and unmatched disbursements (which are not recorded in the accounting ofﬁces’ detail-level
records).


1.J. Foreign Currency
USACE conducts operations overseas. Foreign Currency ﬂuctuations require adjustment to the original
obligation amount at the time of payment. These currency ﬂuctuations are not separately identiﬁed.


1.K. Accounts Receivable
As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
receivable from other federal entities or from the public. Allowances for uncollectible accounts due from the
public are based upon analysis of collection experience by fund type. The Department does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies. Material disclosures are provided at Note 5.


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 256
1.L. Loans Receivable
Not applicable.


1.M. Inventories and Related Property
Inventories are reported at approximate historical cost based on a moving weighted average that is based
on actual cost divided by quantity. A perpetual record of inventory is maintained in CEFMS to allow for
recomputation of the average unit cost as new receipts are recorded.

The related property portion of the amount reported on the Inventory and Related Property line includes
operating materials and supplies (OM&S). The OM&S are valued at standard purchase price. For the most
part, the Department is using the consumption method of accounting for OM&S, as deﬁned in the SFFAS No.
3, “Accounting for Inventory and Related Property” as material that has not been issued to the end user. Once
OM&S is issued, the material is expensed. Material disclosures related to inventory and related property is
provided at Note 9.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used
to produce the reported values. Material disclosures related to inventory and related property is provided at
Note 9.


1.N. Investments in U.S. Treasury Securities
Investments in U. S. Treasury securities are reported at cost, net of unamortized premiums or discounts.
Premiums or discounts are amortized into interest income over the term of the investment using the effective
interest rate method or other method if similar results are obtained. USACE’s intent is to hold investments to
maturity, unless they are needed to ﬁnance claims or otherwise sustain operations. Consequently, a provision
is not made for unrealized gains or losses on these securities, because in the majority of cases, they are
held to maturity. Amounts reported reﬂect the value of investments in the South Dakota Terrestrial Wildlife
Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Fund accounts, which are managed by
the Treasury Department. Material disclosures are provided at Note 4.


1.O. General Property, Plant and Equipment
General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus
capitalized improvements when an asset has a useful life of 2 or more years, and when the acquisition cost is
greater than $25,000 with the exception of all buildings and structures related to hydro-power purpose which
are capitalized (to include joint cost) regardless of cost. During FY 2003, USACE increased its buildings and
structures threshold to $25K (from $0), with the exception previously stated. All Civil Works Buildings and
Structures currently capitalized under $25K (excluding Revolving Fund and hydro-power) were expensed
in FY 2003 and removed from CEFMS. Starting in FY 2004, all Civil Works Buildings and Structures under
$25K were expensed except for hydro-power assets.

All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.

In FY 2004, USACE, OSD(C), and DoDIG reached an agreement on supporting documentation for Land
values to include administrative costs. USACE is in the process of gathering the necessary supporting
documentation in accordance with the Memorandum of Agreement signed on 9 June 2004.

When it is in the best interest of the government, USACE provides to contractors government property
necessary to complete contract work. Such property is either owned or leased by USACE, or purchased
directly by the contractor for the government based on contract terms. When the value of contractor procured
General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in the value
of General PP&E reported on the USACE Balance Sheet. The Department of Defense completed a study


                                                                                                             257
that indicates that the value of General PP&E above the DoD capitalization threshold and not older than the
DoD Standard Recovery Periods for depreciation, and that is presently in the possession of contractors, is not
material to the Department’s ﬁnancial statements. Regardless, the Department is developing new policies and
a contractor reporting process that will provide appropriate General PP&E information for future ﬁnancial
statement reporting purposes. Accordingly, USACE currently reports only government property in the
possession of contractors that is maintained in the USACE property systems.

To bring USACE into compliance with federal accounting standards, the Department has issued new property
accountability and reporting regulations that require the DoD Components to maintain, in DoD Component
property systems, information on all property furnished to contractors. This action and other DoD proposed
actions are structured to capture and report the information necessary for compliance with federal accounting
standards.

Material disclosures are provided at Note 10.


1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
expenses when the related goods and services are received.


1.Q. Leases
Generally, lease payments are for the rental of equipment, space, and operating facilities and are classiﬁed
as either capital or operating leases. When a lease is essentially equivalent to an installment purchase of
property (a capital lease), USACE records the applicable asset and liability if the value equals or exceeds the
current DoD capitalization threshold. USACE records the amounts as the lesser of the present value of the
rental and other lease payments during the lease term (excluding that portion of the payments representing
executory costs paid to the lessor) or the asset’s fair value. Leases that do not transfer substantially all of the
beneﬁts or risks of ownership are classiﬁed as operating leases and recorded as expenses as payments are
made over the lease term.


1.R. Other Assets
USACE conducts business with commercial contractors under two primary types of contracts—ﬁxed price
and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts
can cause, USACE provides ﬁnancing payments. One type of ﬁnancing payment that USACE makes, for real
property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for
Selected Assets and Liabilities,” such payments are treated as construction in process and are reported on the
General PP&E line and in Note 10, General PP&E, Net.

In addition, based on the provision of the Federal Acquisition Regulation, USACE makes ﬁnancing payments
under ﬁxed price contracts that are not based on a percentage of completion. USACE reports these ﬁnancing
payments as advances or prepayments in the “Other Assets” line item. USACE treats these payments as
advances or prepayments because USACE becomes liable only after the contractor delivers the goods in
conformance with the contract terms. If the contractor does not deliver a satisfactory product, USACE is not
obligated to reimburse the contractor for its costs and the contractor is liable to repay USACE for the full
amount of the advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on
contract ﬁnancing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code
of Federal Regulations Part 1315, “Prompt Payment.” DoD concluded that SFFAS No. 1 does not fully or
adequately address the subject of progress payment accounting and is considering what further action is
appropriate.


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 258
1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” deﬁnes a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss to USACE. The uncertainty will be resolved when one or more future events occur or fail to occur. A
contingency is recognized as a liability when a past event or exchange transaction has occurred, a future loss
is probable and the amount of loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist
but there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss
contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
assessments. USACE’s loss contingencies arising as a result of pending or threatened litigation or claims and
assessments occur due to events such as ship and vehicle accidents, property or environmental damages, and
contract disputes.


1.T. Accrued Leave
Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are
reported as liabilities. The liability reported at the end of the ﬁscal year reﬂects current pay rates.


1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent amounts of authority which are unobligated and have not been rescinded or
withdrawn, and amounts obligated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the difference, since inception of an activity, between expenses
and losses and ﬁnancing sources (including appropriations, revenue, and gains). Beginning with FY 1998,
this included the cumulative amount of donations and transfers of assets in and out without reimbursement


1.V. Treaties for Use of Foreign Bases
USACE has no existing treaties for use of foreign bases


1.W. Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position
and results of operations for FY2004. Financial statement ﬂuctuations greater than 2 percent of total assets
on the Balance Sheet and/or greater than 10 percent between FY2003 and FY2004 are explained within the
Notes to the Financial Statements.


1.X. Unexpended Obligations
USACE records obligations for goods and services that have been ordered but not yet received. No liability
for payment has been established in the ﬁnancial statements because goods/services have yet to be delivered.


1.Y. Problem Disbursements
                                         September   September   September
(Amounts in thousands)                        2002        2003        2004
1. Total Problem Disbursements
   Absolute Unmatched Disbursements            $0          $0           $0
   Negative Unliquidated Obligations           $0          $0           $0
2. Total In-transit Disbursements, Net         $0          $0       $1,307




                                                                                                               259
Other Information Related to Problem Disbursements and In-transit Disbursements.
USACE had disbursements of $867 thousand that were not reported to Treasury in the Intragovernmental
Payment and Collection System (IPAC) until October 2004. The IPAC System cutoff for transactions is ﬁve
days before month end. There were $440 thousand in deposits at Treasury that were not recorded by USACE
until October 2004.

Note 2.                  Nonentity Assets
As of September 30                                         2004               2003
(Amounts in thousands)
1. Intragovernmental Assets
   A. Fund Balance with Treasury                              $8,245             $6,865
   B. Investments                                                  0                  0
   C. Accounts Receivable                                          0                  0
   D. Other Assets                                                 0                  0
   E. Total Intra-governmental Assets                         $8,245             $6,865

2. Non-Federal Assets
   A. Cash and Other Monetary Assets                          $1,039             $1,278
   B. Accounts Receivable                                  1,843,102          1,871,575
   C. Loans Receivable                                             0                  0
   D. Inventory & Related Property                                 0                  0
   E. General PP&E                                                 0                  0
   F. Investments                                                  0                  0
   G. Other Assets                                                 0                  0
   H. Total Non-Federal Assets                            $1,844,141         $1,872,853


3. Total Non-Entity Assets                                $1,852,386         $1,879,718

4. Total Entity Assets                                  $34,214,147        $36,526,738


5. Total Assets                                         $36,066,533        $38,406,456

Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that the
agency has authority to use, or when management is legally obligated to use funds to meet entity obligations.
Nonentity assets are assets that are held by an entity, but are not available for use in the operations of the
entity.

The schedule format has changed from prior year to comply with Ofﬁce of Management and Budget Bulletin
01-09.


Composition of Other Nonentity Assets
Intra-governmental Non-Entity Fund Balance with Treasury consists of amounts collected into deposit,
suspense and budget clearing accounts.

Cash and Other Monetary Assets is comprised of $4 thousand in change funds for recreation cashiers, $567
thousand in Disbursing Ofﬁcer’s cash, and $468 thousand in foreign currency, as listed in Note 7.

Non-federal nonentity Accounts Receivable represents all current and non-current receivables due from
non-federal sources. Non-entity receivables (net of allowance) include $873,298 thousand in long-term
receivables due from state and local municipalities for water storage contracts, $31,683 thousand in current
receivables due from state and local municipalities for water storage, $930,140 thousand in accrued Interest
Receivable, $1,759 thousand in penalties, ﬁnes and Administrative Fees Receivable, $1,400 thousand in


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 260
Long-Term Receivable for hydraulic mining, and $4,092 thousand for other miscellaneous receivables.
An additional $730 thousand represents the amount due from the leasing of land acquired for ﬂood control
purposes. Non-entity receivables are recorded in unavailable receipt accounts and funds will be returned
to Treasury when collected. The Allowance for Doubtful Accounts totals $2,883 thousand for non-entity
receivables.


Fluctuations
Line 1A. This line contains suspense account items for bid deposits and lease collections totaling $8,245
thousand, an increase of $1,380 thousand. The increase is due to increased lease collections during 4th
quarter FY 2004.

Line 2A. The decrease in cash and other monetary assets is due a reduction of outstanding travel advances.


Note Reference
For Additional Line Item discussion, see:
Note 3, Funds Balance With Treasury
Note 4, Investments
Note 5, Accounts Receivable
Note 6, Other Assets
Note 7, Cash and Other Monetary Assets
Note 9, Inventory and Related Property
Note 10, General PP&E, Net

Note 3.A.                Fund Balance with Treasury
As of September 30                                  2004         2003
(Amounts in thousands)
1. Fund Balances
   A. Appropriated Funds                            $970,538   $1,127,663
   B. Revolving Funds                                902,212      990,006
   C. Trust Funds                                     72,121       67,482
   D. Other Fund Types                               441,816      410,571
   E. Total Fund Balances                         $2,386,687   $2,595,722

2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                   $2,906,916   $2,530,007
   B. Fund Balance per USACE                       2,386,687    2,595,722

3. Reconciling Amount                              $520,229     ($65,715)

Fund Balance per USACE includes $70,165 thousand cash reported by Treasury for Inland Waterways and
Harbor Maintenance Trust Funds, for which the USACE is identiﬁed as the lead agency for reporting.

Fund Balance per USACE includes disbursements of $867 thousand that were not reported to Treasury in the
IPAC system until October 2004 and is reﬂected on the TFS6652 Statement of Differences - Disbursements.
Fund Balance per USACE does not include deposits of $440 thousand in CASHLINK and is reﬂected on the
TFS6652 Statement of Differences – Deposits. These were recorded in October 2004.

Fund Balance per Treasury includes $590,393 thousand in receipt accounts. USACE closed receipt accounts
per Treasury Financial Management Transmittal Letter S2-04-02, dated September 2004, transaction code
F124, but they were included on the Treasury 6655 at 30-Sep-2004.




                                                                                                             261
4. Other Information Related to Fund Balance with Treasury
Fund Balance per USACE includes $16,156 thousand in transfer appropriations that were not reported by
the USACE in the Treasury FACTS II System. Those transfer appropriations are reported by the parent
agencies on the FMS 2108. The parent agencies are Department of Energy, Department of Transportation,
and Department of Commerce. According to the Treasury Financial Manual, Part 2, Chapter 4000, Federal
Agencies’ Centralized Trial-Balance System, paragraph 4030.60, if an allocation transfer is material to the
child’s ﬁnancial statements, the child should report the activity relating to the allocation in all of its ﬁnancial
statements, except the Statement of Budgetary Resources. The USACE has determined that these balances
are material and have included them in all of our ﬁnancial statements.

Appropriated Funds includes disbursements in transit for undistributed Intergovernmental Payments and
Collections of ($25,577) thousand. These were distributed to the appropriate funds during October 2004.

Other Fund types (nonentity) consist of $8,245 thousand in deposit, suspense and clearing accounts that
are not available to ﬁnance the USACE’s activities. Other Fund Types (entity) consists of $27 thousand in
borrowing authority, $408,009 thousand in contributed funds, and $25,534 thousand in the suspense account
established to ﬁnance Washington Aqueduct operations and are available to ﬁnance the USACE’s activities.

Entity accounts consist of resources that the agency has the authority to use, or when management is legally
obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity, but
are not available for use in the operation of the entity.

There are no restrictions for future use of unobligated balance.

The Fund Balance with Treasury line does not include any amounts for which the Department of the Treasury
is willing to accept corrections to cancelled appropriation accounts, in accordance with the Statement of
Federal Financial Accounting Standards (SFFAS) No. 1, “Accounting for Selected Assets and Liabilities.”


Fluctuations
Appropriated Funds - The decrease in Appropriated Funds is due to $773 thousand in Borrowing Authority
that was reported as Appropriated Funds in FY 2003. The Borrowing Authority was reported as Other
Funds in FY 2004. USACE currently has a ($24,689) thousand balance in the Flood Control and Coastal
Emergencies (96X3125) due to an unprecedented hurricane season with four named storms reaching the
continental United States causing signiﬁcant damage. As the Federal Emergency Management Agency’s
(FEMA) Emergency Support Function for Engineering, USACE has received over $848,000 thousand in
funding authority to perform numerous missions to support those affected by the four hurricanes. Since these
missions are funded on a reimbursable basis, USACE was required to ﬁnance these large disbursements
through their 96X3125 appropriation causing the negative balance. In FY 2005 this negative balance will be
reduced as USACE receives collections from FEMA. Appropriated Funds also includes a net of ($25,578)
thousand in IPAC transactions recorded in Deposit Funds. The Deposit Funds were recorded as Other Funds
in FY2003.

Reconciling Amount - The increase in the Reconciling Amount is due to the Fund Balance per Treasury that
includes $590,393 thousand in receipt accounts. USACE closed receipt accounts per Treasury Financial
Management Transmittal Letter S2-04-02, dated September 2004, transaction code F124, but it was included
on the Treasury 6655 at 30-Sep-2004.


Note Reference
Note Disclosure 1.I. – Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Funds with the U.S. Treasury.
Note 2 for Entity/Nonentity Accounts
Note 18 for Status of Unexpended Balance.


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 262
Note 3.B.                Disclosures Related to Suspense/Budget Clearing Accounts
                                                                              (Decrease)/
                            September    September          September      Increase from FY
As of September 30            2002         2003               2004            2003 - 2004
(Amounts in thousands)
Account
 F3875                         $14,228          $850              $113              ($737)
 F3880                               0             0                (0)                  0
 F3882                               0             0                  0                  0
 F3885                               0             0                  0                  0
 F3886                               0             0                  0                  0
Total                          $14,228          $850              $113              ($737)


The decrease of $737 thousand in Budget Clearing Account F3875 is attributed to funds for Permanent
Change in Station (PCS), Homeowners Assistance Program (HAP), and travel that were disbursed to the
Internal Revenue Service.

Under the authority of Section 1009 of Public Law 107-314, “Clearance of Certain Transactions Recorded in
Treasury Suspense Accounts and Resolution of Certain Check Issue Discrepancies,” no funds were written-
off from the suspense accounts.

Note 4.                  Investments
                                                                                             2004                         2003
                                                                            Amortized                        Market
                                                            Amortization                     Investments,              Investments,
                                               Cost                         (Premium/                         Value
                                                              Method                             Net                       Net
As of September 30                                                           Discount)                      Disclosure
(Amounts in thousands)
1. Intragovernmental Securities:
     A. Marketable                                     $0                           $0               $ 0           $0            $0
     B. Non-Marketable, Par Value
                                                       0                                 0              0           0             0
    C. Non-Marketable, Market-Based
                                              2,788,938                        (60,807)         2,728,131   2,403,145     2,466,771

    D. Subtotal                              $2,788,938                       ($60,807)        $2,728,131 $2,403,145     $2,466,771
    E. Accrued Interest                         $13,786                                           $13,786    $13,786        $11,683
    F. Total Intragovernmental Securities    $2,802,724                       ($60,807)        $2,741,917 $2,416,931     $2,478,454

2. Other Investments:                                 $0                             0                $0         N/A             $0

3. Other Information:
Investments for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat
Restoration Trust Funds are reported by the Treasury and included in U.S. Army Corps of Engineers’
Financial Statements. Investments include $278,392 thousand in one-day certiﬁcates and $2,449,739
thousand in bonds and notes. Total investment amounts include $375,544 thousand in Inland Waterways,
$2,302,579 thousand in Harbor Maintenance and $63,793 thousand in the South Dakota Terrestrial Wildlife
account.

Investments are held until maturity. As funds are needed to sustain operations, withdrawals are made from
the one-day certiﬁcate investment account. Provisions are not made for unrealized gains or losses on these
securities. The Trust Funds use the same method that conforms to the prevailing practice in the ﬁnancial
community to determine the amortized book value of investments currently held and the related effective
interest yield on investments. These calculated yields agree with yields published in the security tables of
U.S. Treasury securities.


                                                                                                                                 263
These types of investments are recorded at cost, net of unamortized premiums or discounts. Premiums or
discounts are amortized into interest income over the term of the investment. Investment decisions for these
funds are made by the managing entity, in this case the Department of the Treasury.

The Department of the Treasury also provides the investment market value, based on the bid price provided
by the Federal Reserve Bank of New York on September 30, 2004.


Note Reference
See Note Disclosure 1.N. – Investments in U. S. Treasury for additional DoD policies governing Investments
in U.S. Treasury Securities.
See Note 21A for further discussion of Trust Funds.


Fluctuations
Line 1C. Non-Marketable, Market Based Securities: Investment increase is due to the increase in tax
revenues in Trust Funds. Tax revenues are from imports, domestics, excise, foreign trade and passengers.
The tax revenues are invested by the Treasury and reported on the ﬁnancial statements for the Harbor
Maintenance and Inland Waterways Trust Funds.

Line 1E. Accrued Interest: The accrued interest on investments also increased due to the increase in
investments through tax collections.

Note 5.                  Accounts Receivable
                                                                2004                               2003
                                                           Allowance For         Accounts        Accounts
                                        Gross Amount
                                                             Estimated          Receivable,     Receivable,
                                            Due
As of September 30                                         Uncollectibles          Net             Net
(Amounts in thousands)
1. Intragovernmental
   Receivables:                              $520,123                  N/A          $520,123       $423,774
2. Non-Federal
     Receivables (From the
     Public):                              $1,910,995              ($4,560)       $1,906,435     $1,935,567
3. Total Accounts
     Receivable:                           $2,431,118              ($4,560)       $2,426,558     $2,359,341

4. Allowance method:
The method of calculating the allowance for estimated uncollectibles is based on the cumulative balance of
delinquent public receivables aged in accordance with current USACE policy. The calculation was performed
automatically in the Corps of Engineers Financial Management System.

The Code of Federal Regulations (4CFR 101) prohibits the write-off of receivables from another federal
agency. As such, no allowance for estimated uncollectible amounts is recognized for these receivables.
5. Other information:

Elimination Adjustments
The Corps was able to compare its Accounts Receivable balances with the Accounts Payable balances of its
intragovernmental trading partners. No material differences were identiﬁed.


Receivables with Other Federal Agencies (Non-Defense)
Receivable for amounts to be transferred from the Aquatic Resources Trust Fund (Department of Interior) for
currently invested balances to the Corps is $25,381 thousand more than at this time last year.

Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 264
Receivables with National Aeronautics and Space Administration decreased by $10,318 thousand as a
result of collections received. Receivables with Federal Emergency Management Agency decreased entirely
(by $19,004 thousand) as they were transferred to Department of Homeland Security. Receivables with
Department of Homeland Security increased by $79,332 thousand as a result of proper identiﬁcation of
agencies transferred to AT70 trading partner. Some activities previously identiﬁed under other agencies are
now reported under Department of Homeland Security.

Receivables previously identiﬁed as receivables from Treasury (TI 95) have been reclassiﬁed to public. The
receivables are from District of Columbia Public Schools.

Receivables for amount to be transferred from Inland Waterways Trust Funds (Treasury) are $2,518 thousand
more than at this time last year.


Intragovernmental Receivables Over 180 Days
The amount of intragovernmental receivables over 180 days old is $9,606 thousand. No intragovernmental
receivables have been submitted to the General Accounting Ofﬁce for opinion.


Public Receivables Over 180 Days
The amount of public receivables over 180 days old is $73,080 thousand. Receivables with the public include
$43,003 thousand in Accrued Interest on Receivables over 180 days old.


Nonfederal Refunds Receivable
The amount of public receivables includes $174 thousand in Refunds Receivable.


Other Disclosures
Public receivables include $32,499 thousand in current and $873,298 thousand in Long-Term Accounts
Receivable (principal) associated with water storage contracts, $932,060 thousand in Accrued Interest
Receivable, and $1,901 thousand in penalties, ﬁnes, and administrative fees receivable. Public receivables
also include $1,400 thousand in Long-Term Receivable for hydraulic mining and $736 thousand due from the
leasing of land acquired for ﬂood control purposes, and $63,121 thousand due from the D.C. Public Schools
and Department of Housing. The remaining $6,048 thousand is for various other Accounts Receivable.

The amount of Public Receivables on the Treasury Report on Receivables Due from the Public is $3,952
thousand more than the balance of public receivables reported on the balance sheet. The difference
is attributed to the amount of work-in-progress for $608 thousand less the allowance for estimated
uncollectibles of $4,560 thousand not reported on the Treasury Report on Receivables.

Total trust fund receivables for currently invested balances are $362,452 thousand. The breakdown between
funds follows. Trust fund receivables for currently invested balances include $352,546 thousand for the
Coastal Wetlands Restoration Trust Fund and $9,907 thousand for the Inland Waterways Trust Fund. To
accommodate cash management practices, funds will remain invested until needed for disbursement. The
budget authority is realized and obligations may be incurred before the actual transfer of funds.


Fluctuations
Line 1. Intra-governmental receivables increased by $96,349 thousand from last year, of which $79,332
thousand was comprised of Federal Emergency Management Agency transactions due to increased activity as
a result of hurricanes and disaster relief efforts in Florida and coastal areas.


Note Reference
See Note Disclosure 1.K. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Accounts Receivable.

                                                                                                            265
Note 6.                  Other Assets
Not applicable


Note Reference
See Note Disclosure 1. R. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Other Assets.

Note 7.                  Cash and Other Monetary Assets
As of September 30                                                                2004          2003
(Amounts in thousands)
1.   Cash                                                                              $571        $772
2.   Foreign Currency (non-purchased)                                                    468         506
3.   Other Monetary Assets                                                                 0           0
4.   Total Cash, Foreign Currency, & Other Monetary Assets                            $1,039      $1,278

5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

Deﬁnitions
Cash – The total of cash resources under the control of the Corps which includes coin, paper currency,
purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other ﬁnancial
institutions. Cash available for agency use should include petty cash funds and cash held in revolving funds
which will not be transferred into the U.S. Government General Fund.

Foreign Currency – Consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in
foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000
fund account (formerly called FT accounts).

Other Monetary Assets - Includes gold, special drawing rights, and U.S. Reserves in the International
Monetary Fund. This category is principally for use by the Department of the Treasury.


Other Corps Disclosures
Cash consists of $567 thousand in Disbursing Ofﬁcers’ Cash and $4 thousand in change funds for recreation
cashiers.

The Corps translates foreign currency to U. S. dollars utilizing the Department of the Treasury Prevailing
Rate of Exchange. This rate is the most favorable rate that would legally be available to the U. S.
Government’s acquisition of foreign currency for its ofﬁcial disbursements and accommodation of exchange
transactions.


Fluctuations
Cash. The decrease in Disbursing Ofﬁcers’ cash is due to a decrease in travel advances issued.


Note Reference
See Note Disclosure 1. J.- Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Foreign Currency.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 266
Note 8. A.       Direct Loan and/or Loan Guarantee Programs
Not applicable

Note 8.B.        Direct Loans Obligated After FY 1991
Not applicable

Note 8.C.        Total Amount of Direct Loans Disbursed
Not applicable

Note 8.D.        Subsidy Expense for Post-1991 Direct Loans
Not applicable

Note 8.E.        Subsidy Rate for Direct Loans
Not applicable

Note 8.F.        Schedule for Reconciling Subsidy Cost Allowance Balances for
                 Post-1991 Direct Loans
Not applicable

Note 8.G.        Defaulted Guaranteed Loans from Post-1991 Guarantees
Not applicable

Note 8.H.        Guaranteed Loans Outstanding
Not applicable

Note 8.I.        Liability for Post-1991 Loan Guarantees, Present Value
Not applicable

Note 8.J.        Subsidy Expense for Post-1991 Loan Guarantees
Not applicable

Note 8.K.        Subsidy Rate for Loan Guarantees
Not applicable


Note 8.L.        Schedule for Reconciling Loan Guarantee Liability Balances for
                 Post-1991 Loan Guarantees
Not applicable

Note 8.M.        Administrative Expense
Not applicable




                                                                                  267
Note 9.                  Inventory and Related Property
As of September 30                                                       2004                   2003
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                             $61,671                 $62,570
2.   Operating Materials & Supplies, Net (Note 9.B.)                            144                      35
3.   Stockpile Materials, Net (Note 9.C.)                                         0                       0
4.   Total                                                                  $61,815                 $62,605


Note 9.A.                Inventory, Net
                                                                      2004                               2003
                                                  Inventory,         Revaluation       Inventory,       Inventory,   Valuation
As of September 30                               Gross Value         Allowance            Net              Net        Method
(Amounts in thousands)
1. Inventory Categories:
   A. Available and Purchased for
       Resale                                         $88,810           $(47,092)         $41,718         $41,015       O
   B. Held for Repair                                       0                   0               0               0
   C. Excess, Obsolete, and
       Unserviceable                                       0                    0               0              11
   D. Raw Materials                                        0                    0               0               0
   E. Work in Process                                 19,953                    0          19,953          21,544       O
   F. Total                                         $108,763            $(47,092)         $61,671         $62,570


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value holding gains and losses
O = Other
SP = Standard Price
2. Restrictions of Inventory Use, Sale, or Disposition:
Inventory may be sold to foreign, state and local governments, private parties and contractors in accordance
with current policies and guidance or at the direction of the U. S. President.


3. Other Information:

Deﬁnitions
Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable
items owned and managed by the Department. Material available and purchased for resale includes
material held due to a managerial determination that it should be retained to support military or national
contingencies.

Inventory Held for Repair is damaged inventory that requires repair to make suitable for sale. Many of the
inventory items are more economical to repair than to procure. In addition, because the Department often
relies on weapon systems and machinery no longer in production, the Department supports a process that
encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready,
mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be
economically repaired and are awaiting disposal. Potentially reusable material, presented in previous years
as “Excess, Obsolete and Unserviceable,” is included in “Held for Use” or “Held for Repair” categories
according to its condition.


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 268
Work-in-Process balances include costs related to the production or servicing of items, including direct
material, direct labor, applied overhead and other direct costs. Work-in-Process also includes the value
of ﬁnished products or completed services pending the submission of bills to the customer. The Work-in-
Process designation may also be used to accumulate the amount paid to a contractor under cost reimbursable
contracts, including the amount withheld from payment to ensure performance, and the amount paid to other
Government plants for accrued costs of end-items of material ordered, but not delivered.


General Composition of Inventory
Inventory is tangible personal property that is (1) held for sale, (2) in the process of production for sale or
(3) to be consumed in the production of goods for sale or in the provision of services for a fee. “Inventory
held for Current Sale” is that expected to be sold in the normal course of operations. “Excess Inventory”
is that which exceeds the demand expected in the normal course of operations and which does not meet
management’s criteria to be held in reserve for future sale. “Obsolete Inventory” is that which no longer is
needed due to changes in technology, laws, customs or operations. “Unserviceable Inventory” is damaged
inventory that is more economical to dispose of than to repair. Work in Process includes associated labor,
applied overhead and supplies used in the deliver of services.

The inventory data reported on the ﬁnancial statements is derived from the Corps of Engineers Financial
Management System (CEFMS). CEFMS is a comprehensive system that is designed to capture and maintain
historical cost data necessary to fully comply with the Statement of Federal Financial Accounting Standards
Number 3, “Accounting for Inventory and Related Property.”

The inventory valuation method is based on a moving weighted average based on actual cost divided by
quantity. A perpetual record of inventory is maintained to allow for recomputation of the average unit cost as
new receipts are recorded.

For regulatory discussion on Inventory, Net, see DoD FMR, Volume 6B, chapter 10, paragraph 1011.


Fluctuations
Excess, Obsolete, and Unserviceable - In FY 2003, the amount for Excess, Obsolete and Unserviceable was
entered with an incorrect attribute. The amount of Excess, Obsolete, and Unserviceable should have been
reported as Available and Purchased for Resale. Based on this, the ﬁgure for FY 2003 Excess, Obsolete, and
Unserviceable should have been $.00 and Net Inventory Available and Purchased for Resale should have
been $41,025,786.86.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Inventory and related Property.




                                                                                                                  269
Note 9.B.                Operating Materials and Supplies, Net
As of September 30
(Amounts in thousands)                                       2004                               2003
                                          OM&S            Revaluation                                      Valuation
1. OM&S Categories:                     Gross Value        Allowance       OM&S, Net       OM&S, Net        Method

     A. Held for Use                            $144                 $0           $144             $35        O
    B. Held for Repair                              0                 0               0                0
    C. Excess, Obsolete, and
       Unserviceable                                0                 0               0                0

     D. Total                                   $144                 $0           $144            $ 35


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value holding gains and losses
O = Other
SP = Standard Price
2. Restrictions on OM&S:
There are no restrictions on operating materials and supplies. The valuation method is based on a moving
weighted average based on actual cost divided by quantity.


3. Other Information:
For regulatory discussion on OM&S, see DoD FMR, volume 6B, Chapter 10, paragraph 101108.


Fluctuations
Operating Materials and Supplies - The increase in Operating Materials and Supplies is attributed to an
increase in miscellaneous ofﬁce supplies account at Fort Worth District.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Inventory and related Property.

Note 9.C.                Stockpile Materials, Net
Not applicable




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 270
Note 10.                 General PP&E, Net
                                                                   2004                                           2003
                                 Depreciation/                              (Accumulated
                                                   Service    Acquisition                       Net Book       Prior FY Net
                                 Amortization                               Depreciation/
                                                    Life        Value                            Value         Book Value
As of September 30                 Method                                   Amortization)
(Amounts in thousands)

1. Major Asset Classes:
   A. Land                           N/A            N/A        $8,583,779             N/A        $8,583,779     $8,131,547
   B. Buildings, Structures,
      and Facilities                 S/L           2 - 100     27,975,596    ($11,846,790)       16,128,806     18,280,188
   C. Leasehold
      Improvements                   S/L         lease term        26,467         (11,667)          14,800          17,121
   D. Software                       S/L             2-5           66,911         (40,445)          26,466          23,901
   E. General Equipment              S/L            5 - 100     1,234,934        (602,094)         632,840         632,726
   F. Military Equipment             S/L           Various              0                0               0               0
   G. Assets Under Capital
      Lease 1                        S/L         lease term             0                   0              0              0
   H. Construction-in-
      Progress                       N/A            N/A         3,018,921              N/A        3,018,921      3,788,250
   I. Other                                                        44,963          (2,058)           42,905         35,323
   J. Total General PP&E                                      $40,951,571    ($12,503,054)      $28,448,517    $30,909,056

1
    Note 15.B for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable


2. Other Information:

General PP&E – Signiﬁcant Amount of Assets
Intangible assets totaling $2,265,813 thousand were reclassiﬁed as land. These costs increased $202,845
thousand in FY2004. These assets are comprised of historical costs associated with the acquisition of land
in conjunction with power projects. Costs were originally classiﬁed as intangible assets in order to comply
with Federal Energy Regulatory Commission guidelines on cost recovery. However, the decision was made
that these costs were improperly classiﬁed in accordance with SFFAS No. 6, “Accounting for Property, Plant
and Equipment,” as they were part of the initial acquisitions cost of the land and should have been classiﬁed
as such. We have also made a reversing entry for current year amortization in our statements to properly
reﬂect the effect of the transfer into land (category 00) where accumulated depreciation is inappropriate.
Supporting documentation for $17,353,836 thousand of the $29,000,000 thousand recorded in the Property,
Plant and Equipment line is being supported by alternate methods as agreed upon by the Inspector General,
Department of Defense and USACE in a 9 June 2004 Memorandum of Agreement. Signiﬁcant increases in
land purchases in Jacksonville, Omaha, Fort Worth and Tulsa Districts include land for Florida Everglades
Restoration work in the amount of $33,344 thousand; dam and reservoir spillway embankment work in the
amount of $15,566 thousand; reservoir work in Texas in the amount of $48,157 thousand; reservoir work
in Oklahoma $20,668 thousand, respectively. The remaining amount is comprised of numerous smaller
purchases of land tracts located throughout the United States.

Due to the change in policy (increasing Buildings and Structures threshold), the Corps expensed about
17,760 buildings and structures valued at about $63,261 thousand during FY 2003. The service life for
our multiple purpose project assets is derived from guidance provided by the Federal Energy Regulatory
Commission based on industry standards. The Power Marketing Administration related assets make up


                                                                                                                              271
$7,560,155 thousand of the book value of the Corps Property, Plant and Equipment.

The Corps of Engineers currently operates and maintains 75 hydroelectric power plants, generating about
24 percent of America’s hydroelectric power. All power generated by these 75 hydroelectric power plants
is transmitted to Power Marketing Authorities (PMA) for distribution to customers across the region. Each
ﬁscal year the Corps prepares a “Statement of Expenses” broken down by plant, District and Region and
provides this information to the PMAs to assist in their Power Repayment Study. The PMAs then collect
power receipts (revenues) from customers and return the receipts to the Treasury. In FY03, the PMAs
returned $1,600 thousand in revenue to the Treasury from power sales.

Corps policy requires all capital improvements to real property, occupied but not owned by the Corps, with a
useful life of two or more years and cost of $25 thousand to be capitalized as leasehold improvements.

For regulatory discussion on General PP&E, Net, see DoD FMR, Volume 6B, Chapter 10, paragraph 1012.


Fluctuations
Line1A – USACE recorded a current year increase of $202,845 thousand in intangible assets reclassiﬁed
to land associated with the power projects. Other signiﬁcant increases occurred from land purchases in
Jacksonville, Omaha, Fort Worth and Tulsa Districts include land for Florida Everglades Restoration work
in the amount of $33,344 thousand; dam and reservoir spillway embankment work in the amount of $15,566
thousand; reservoir work in Texas in the amount of $48,157 thousand; reservoir work in Oklahoma $20,668
thousand, respectively.

Line 1B – The majority of the decrease in net book value of Buildings, Structures and Facilities is due to
the depreciation adjustments made by the New Orleans, Memphis and Vicksburg districts to fully depreciate
all revetments already placed in service which are reported in the Flood Control, Mississippi River and
Tributaries Appropriation.

Line 1C – The decrease in net book value of Leasehold Improvements is due an increase in accumulated
amortization of $2,300 thousand for LAN and Electronic Document Management System (EDMS)
hardware and software at Humphreys Engineering Center Support Activity (HECSA).

Line 1D – The increase in net book value of Software is due to the acquisition of O&M Business Information
Link (OMBIL) and Corps of Engineers Water Management System (CWMS) for $10,379 thousand and the
amortization of $6,747 thousand that was charged for FY2004 on assets in service (Promis, RMS, REMIS,
CEFMS, CWMS and OMBIL) at Headquarters USACE.

Line 1H - The decrease in construction in progress is due to a change in accounting policy in FY 2004
requiring the write-off of non-federal cost share projects as costs are incurred. In the past costs for non-
federal cost share projects were capitalized and then transferred to the public at completion by recording a
loss.

Line 1I - Other: Other assets consist of assets awaiting disposal. The increase is due to a retirement of a dam
at Louisville district.


Note Reference
See Note Disclosure 1.O. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing General Property, Plant and Equipment (PP&E).

See Note 20 for further discussion on adjustment for construction-in-progress.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 272
Note 10.A.               Assets Under Capital Lease
Not applicable

Note 11.                 Liabilities Not Covered by Budgetary Resources
As of September 30                                 2004          2003
(Amounts in thousands)


1. Intragovernmental Liabilities
   A. Accounts Payable                                    $0           $0
   B. Debt                                            15,000       16,991
   C. Environmental Liabilities                            0            0
   D. Other                                          262,233      188,791
   E. Total Intragovernmental Liabilities           $277,233     $205,782

2. Non-Federal Liabilities
   A. Accounts Payable                                    $0            $0
   B. Military Retirement Benefits and
      Other Employment-Related
      Actuarial Liabilities                                0            0
   C. Environmental Liabilities                            0            0
   D. Loan Guarantee Liability                             0            0
   E. Debt Held by Public                                  0            0
   F. Other Liabilities                               50,353       62,923
   G. Total Non-Federal Liabilities                  $50,353      $62,923

3. Total Liabilities Not Covered by
    Budgetary Resources                             $327,586     $268,705

4. Total Liabilities Covered by Budgetary
     Resources                                     $3,066,286   $3,211,417

5. Total Liabilities                               $3,393,872   $3,480,122

Column Format
The DDRS-AFS Note 11 column format changed for FY 2004 to comply with Note 11 column format in
OMB Circular 01-09.


Deﬁnitions

Liabilities Not Covered by Budgetary Resources
Liabilities that are not considered covered by realized budgetary resources as of the Balance Sheet date.
Budgetary resources encompass the following:

     New budget authority.
     Spending authority from offsetting collections (credited to an appropriation or fund account).
     Recoveries of unexpired budget authority through downward adjustments of prior-year obligations.
     Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year
     balances during the year.
     Borrowing authority or permanent indeﬁnite appropriations, which have been enacted and signed into
     law as of the Balance Sheet date, provided that the resources may be apportioned by the OMB without
     further action by the Congress or without a contingency ﬁrst having to be met.


                                                                                                               273
Other Corps Information
Intra-governmental Liabilities – Other includes Workmen’s Compensation liabilities in the amount of
$43,746 thousand , $65,183 thousand for the offsetting custodial liability to accounts receivable, and
judgment fund liabilities in the amount of $153,308 thousand (the amount under the Contract Dispute Act
totals $153,305 thousand and the amount under the Notiﬁcation of Federal Antidiscrimination and Retaliatory
Act (NO FEAR) totals $3 thousand).

The Actuarial Liability for Federal Employee’s Compensation Act (FECA) is not included. The Department
of Labor is unable to furnish a ﬁgure for FECA liability speciﬁc to the Corps of Engineers.

Non-Federal Liabilities – Other includes $50,353 thousand for contracts with continuation clause.

Total Liabilities Covered by Budgetary Resources: Intragovernmental - Accounts Payable, $103,499
thousand; Debt, $367 thousand; and, Other (FECA, Unearned Revenue-Advances, Deposit Fund, Clearing
Accounts and Long Term Receivables), $1,796,393 thousand. Non-Federal – Accounts Payable, $595,831
thousand; and, Other (Contract Holdbacks, FECA, Unearned Revenue-Advances, Deposit Fund, Clearing
Account and Contingent Liabilities resulting from casualty losses), $570,196 thousand.


Fluctuations
Intra-governmental Liabilities - Debt: The liability for debt decreases as payments are made to reduce the
principal amount.

Intra-governmental Liabilities - Other: This amount increased because Uncollected Custodial Liability
totaling $65,183 thousand is reported with Liabilities Not Covered by Budgetary Resources in the 4th
Quarter 2004; it was reported with Liabilities Covered by Budgetary Resources in the 4th Quarter 2003. Prior
to the 4th Quarter 2004, USACE prepared a journal voucher to move Uncollected Custodial Liability from
SGL 2980 to SGL 2990-Other Liabilities per DoDIG direction. There is no longer a restriction on the use of
SGL 2980 by the USACE.

Non-Federal Liabilities – Other Liabilities: The decrease in this amount represents the difference between the
increase in the unfunded portion of contracts with continuation clauses and the amount of funds received for
actual contractual work. The net difference for ﬁscal year 2004 totals $12,570 thousand.


Note Reference
For additional line item discussion, see:
Note 8, Direct Loans and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Debt
Note 14, Environmental Restoration Liabilities and Environmental Disposal Liabilities
Note 15, Other Liabilities
Note 16, Commitments and Contingencies
Note 17, Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 274
Note 12.                 Accounts Payable
                                                               2004                                    2003
                                                               Interest,
                                            Accounts
                                                            Penalties, and           Total             Total
                                            Payable
As of September 30                                        Administrative Fees
(Amounts in thousands)
1. Intragovernmental Payables:                $103,498           N/A                 $103,498           $92,764
2. Non-Federal Payables (to the Public):      $570,255                    $0         $570,255          $568,108
3. Total                                      $673,753                    $0         $673,753          $660,872

4. Other Information:
Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
services ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable to
intragovernmental payables.

The Corps has no known delinquent accounts payable, therefore no amount is reported for interest, penalties,
and administrative fees. For the period ending September 30, 2004, the Corps paid $255 thousand in interest,
from Civil Works appropriations, on payments subject to the Prompt Payment Act.

The Corps was able to compare its accounts payable balance with the accounts receivable balances of its
intra-departmental (DoD) trading partners. No material reconciling differences were identiﬁed.


Fluctuations
Intra-governmental Payables: The difference represents an increase in accrued payables.


Note Reference
See Note Disclosure 1.G. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing accounting for Intragovernmental Activities.

Note 13.                 Debt
 As of September 30                                            2004                             2003
(Amounts in thousands)                       Beginning        Net           Ending           Ending
                                              Balance     Borrowings        Balance          Balance
1. Public Debt:
   A. Held by Government Accounts                   N/A           N/A              N/A                 N/A
   B. Held by the Public                            N/A           N/A              N/A                 N/A
   C. Total Public Debt                             N/A           N/A              N/A                 N/A

2. Agency Debt:
   A. Debt to the Treasury                      $17,386       ($2,019)          $15,367          $17,386
   B. Debt to the Federal Financing Bank              0              0                0                0
   C. Debt to Other Federal Agencies                  0              0                0                0
   D. Total Agency Debt                         $17,386       ($2,019)          $15,367          $17,386

3. Total Debt:                                  $17,386       ($2,019)          $15,367          $17,386

4. Classification of Debt:
   A. Intragovernmental Debt                                                    $15,367          $17,386
   B. Non-Federal Debt                                                              N/A              N/A
   C. Total Debt                                                                $15,367          $17,386



                                                                                                                  275
5. Other Information:
During ﬁscal years 1997, 1998 and 1999, the Corps of Engineers executed three promissory notes totaling
$75,000 thousand with the Department of the Treasury. Funds provided were used for capital improvements
to the Washington Aqueduct. Arlington County, the City of Falls Church, Virginia and the District of
Columbia provide funding to repay the debt. Cumulative actual drawdown of the funds has been made from
the Treasury in the amount of $74,896 thousand. There were no drawdowns of funds from the Treasury in
FY04.

     Accrued Interest Payable as of                    + Principal Repayments FY04          = Net Borrowings FY04
          September 30, 2004
           $1,991 thousand                                         $28 thousand                $2,019 thousand
Total cumulative principal repayments as of September 30, 2004 are $59,895 thousand.
The difference from FY 2003 represents principal repayments towards liquidating the debt.



Note Reference
See Note Disclosure 1. G. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Accounting for Intragovernmental Activities, Public Debt.

See Note 21 for further discussion on the Washington Aqueduct project.

Note 14.                          Environmental Liabilities and Disposal Liabilities
Not applicable




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 276
Note 15.A.               Other Liabilities
                                                                          2004                        2003
As of September 30                                         Current     Noncurrent
(Amounts in thousands)                                     Liability    Liability       Total         Total
1. Intragovernmental:
  A. Advances from Others                                   $10,853              $0     $10,853       $10,959
  B. Deferred Credits                                             0               0           0             0
  C. Deposit Funds and Suspense Account Liabilities             472               0         472           510
  D. Resources Payable to Treasury                                0               0           0             0
  E. Disbursing Officer Cash                                    567               0         567           768
  F. Nonenvironmental Disposal Liabilities:
        (1) National Defense PP&E (Nonnuclear)                    0             0              0             0
        (2) Excess/Obsolete Structures                            0             0              0             0
        (3) Conventional Munitions Disposal                       0             0              0             0
        (4) Other                                                 0             0              0             0
  G. Accounts Payable-- Cancelled Appropriations                  0             0              0             0
  H . Judgment Fund Liabilities                             153,309             0        153,309       145,907
   I. FECA Reimbursement to the Department of Labor          17,379        26,366         43,745        42,884
  J. Capital Lease Liability                                      0             0              0             0
  K. Other Liabilities                                      123,788     1,725,893      1,849,681     1,895,452
  L. Total Intragovernmental Other Liabilities             $306,368    $1,752,259     $2,058,627    $2,096,480
2. Non-Federal:
  A. Accrued Funded Payroll and Benefits                   $358,538              0      358,538      $443,414
  B. Advances from Others                                   139,121              0      139,121       110,265
  C. Deferred Credits                                             0              0            0             0
  D. Loan Guarantee Liability                                     0              0            0             0
  E. Liability for Subsidy Related to Undisbursed Loans           0              0            0             0
  F. Deposit Funds and Suspense Accounts                      9,272              0        9,272         7,060
  G. Temporary Early Retirement Authority                         0              0            0             0
  H. Nonenvironmental Disposal Liabilities:
      (1) National Defense PP&E (Nonnuclear)                       0             0              0             0
      (2) Excess/Obsolete Structures                               0             0              0             0
      (3) Conventional Munitions Disposal                          0             0              0             0
      (4) Other                                                    0             0              0             0
   I. Accounts Payable--Cancelled Appropriations                   0             0              0             0
   J. Accrued Unfunded Annual Leave                                0             0              0             0
   K. Accrued Entitlement Benefits for Military Retirees
       and Survivors                                               0            0              0             0
   L. Capital Lease Liability                                      0            0              0             0
   M. Other Liabilities                                      139,194            0        139,194       144,645
   N. Total Non-Federal Other Liabilities                  $ 646,125         $ 0        $646,125      $705,384
3. Total Other Liabilities:                                $952,493    $1,752,259     $2,704,752    $2,801,864


4. Other Information Pertaining to Other Liabilities:
Line 1.H. The Corps of Engineers Civil Works Directorate has recognized 31 unfunded liabilities arising
from Judgment Fund Contract Disputes Act settlement in accordance with the interpretation of Federal
Financial Accounting Standards Number 2, Accounting for Treasury Judgment Fund Transactions. The
amount reported by the Treasury Department is $154,675 thousand. The difference of $1,370 thousand is
due to two claims included in Treasury’s total that belong to the Army. The Corps is also reporting a funded
liability for $3 thousand under the Notiﬁcation of Federal Antidiscrimination and Retaliatory Act.

Line 1.I. Federal Employees’ Workman’s Compensation liability reﬂects cost of claims incurred for income
lost and medical costs for federal civilian employees injured on the job, employees who have incurred a



                                                                                                                  277
work-related occupational disease, and beneﬁciaries of employees whose death is attributable to a job-related
injury or occupational disease. The claim costs are paid by the Department of Labor in accordance with the
Federal Employees’ Compensation Act (FECA). USACE will receive a chargeback billing and will process
a payment to reimburse the Department of Labor. Until the billing is received and processed, the liability is
recorded. Fiscal year 2004 costs of $26,366 thousand are reﬂected as a non-current liability.


Other Liabilities

Intragovernmental
Line 1.K. Intra-governmental other liabilities (current) includes $11,686 thousand for employer contributions
and payroll taxes and $112,102 thousand to offset interest and accounts receivables which, when collected,
will be returned to Treasury. Intra-governmental other liabilities (noncurrent) represent future revenue of
$1,724,493 thousand from long term water storage and $1,400 thousand from hydraulic mining contracts.


Non-Federal
Line 2.M. Non-federal other liabilities include $39,976 thousand to fund contingent liabilities arising from
casualty losses. The amount also includes $48,865 thousand in contract holdbacks on construction-in-
progress payments and $50,353 thousand for unfunded liabilities for contracts with continuation clauses. The
continuation clause allows contractors to continue work without funds being obligated.


Intragovernmental Reconciliations for Fiduciary Transactions
With respect to the major ﬁduciary balances with the Ofﬁce of Personnel Management (OPM) and the
Department of Labor (DOL), the Corps was able to reconcile with the OPM and the DOL.


Fluctuations
Line 1.E. The decrease in the liability for Disbursing Ofﬁcer Cash is attributed to a decrease in receivables
related to travel advances.

Line 2.A. The decrease in Accrued Funded Payroll and Beneﬁts is due to two factors. In FY 2003, the accrual
included more than $45,212 thousand for the amount of employer contributions and payroll taxes payable.
This amount is reported on Line 1.K. Other Liabilities of this note for FY 2004. In FY 2003, the accrual
included the amount of the last employee payroll of approximately $23,000 thousand disbursed prior to year-
end. The proper accounting entries were not made to reduce the accrual prior to year-end. In FY 2004, the
accrual was reduced to reﬂect the payment of the last employee payroll at year end.

Line 2.B. Advances from Others increased due to an increase in customer orders from the public. A large
percent of the increase in customer orders occurred in the New York and Honolulu districts. The New York
district received an advance for more than $25,000 thousand for the assessment of security of New York
City’s public water supply and the Honolulu district received more than $17,000 thousand in advances for
variety of local projects.

Line 2.F. The change in Deposit Funds and Suspense Accounts is due to an increase in bid/performance
deposits, tax deposits, wire transfers and normal lease collections that were not applied at month end.


Note Reference
See Note Disclosure 1.S.-Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 278
Note 15.B.               Capital Lease Liability
Not applicable

Note 16.                 Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:

Proprietary contingencies are commonly referred to as contingent liabilities. The Corps of Engineers has 467
cases pending litigation, 461 claims pending in contract claims and appeals, and 273 tort claims in which
the relief requested is $3,954,895 thousand or more. The Corps’ Legal Counsel is of the opinion that it is
“reasonably possible” that the outcome of the litigation will result in a loss.

The Corps is responsible for the Formerly Utilized Remedial Action Program (FUSRAP) which was
established to respond to radiological contamination from early U.S. atomic energy and weapons program.
This program is funded through Civil Works appropriations. The Corps recognizes future contingent
liabilities related to this program but the liability amounts are currently unknown.

Since these cases fail to satisfy the criteria to record a contingent liability in accordance with the Federal
Financial Accounting Standard Number 5, Accounting for Liabilities of the Federal Government, no amount
is included in our ﬁnancial statements.


Note Reference
See Note Disclosure 1.S. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

Note 17.                 Military Retirement Beneﬁts and Other Employment Related
                         Actuarial Liabilities
Not applicable

Note 18.                 Unexpended Appropriations
As of September 30                            2004           2003
(Amounts in thousands)

1. Unexpended Appropriations:
   A. Unobligated, Available                   $188,165       $381,759
   B. Unobligated, Unavailable                       66              8
   C. Unexpended Obligations                    208,131        255,079
   D. Total Unexpended Appropriations          $396,362       $636,846

2. Other Information Pertaining to Unexpended Appropriations:

Deﬁnitions
Unexpended appropriations are the amount of budget authority remaining for disbursement against current or
future obligations.
Unobligated balances represent the cumulative amount of budgetary authority that has not been set aside
to cover outstanding commitments and obligations. Unobligated balances are classiﬁed as available or
unavailable. Unobligated balances associated with appropriations expiring at ﬁscal year end remain available
only for obligation adjustments until the account is closed.
Unexpended obligations represent funds that have been committed for goods that have not been received or
services that have not been performed.
Unobligated, Unavailable represents expired appropriations.


                                                                                                             279
Fluctuations
Unexpended Appropriations - Unobligated, Available: This variance is partially due to a change in reporting
appropriations-transfers-in. These transfers-in from the Bonneville Power Administration to the General
Funds, and from the Bonneville Power Administration, Federal Aid Highways and National Park Service
(Land Acquisition and State Assistance) to the Transfer Funds were treated as Unexpended Appropriations-
Transfers-In for the 4th Quarter 2003; they are treated as Nonexpenditure Financing Sources-Transfers-In
for the 4th Quarter 2004 and not reported on Note 18. Unexpended Appropriations-Transfers-In reported in
the 4th Quarter 2003 were $137,875 thousand for the General Funds and $58,236 thousand for the Transfer
Funds. Unexpended Appropriations-Transfers-In reported in the 4th Quarter 2004 are $0 for the General
Funds and $18,495 thousand for the Transfer Funds. This is a total reduction of $177,616 thousand.

The remaining variance is due to a decrease in appropriations received in the General Funds.

Unexpended Appropriations - Unobligated, Unavailable: This variance represents an increase in expired
appropriations.

Unexpended Appropriations - Unexpended Obligations: This decrease is the result of the change in reporting
appropriations-transfers-in and the decrease in appropriations received in the General Funds. Unexpended
Obligations decreased by $39,231 thousand for the General Funds and $7,481 thousand for the Transfer
Funds.


Note Reference
Note 1.X, Signiﬁcant Accounting Policies
Note 3.A, Fund Balance with Treasury

Note 19.A              General Disclosures Related to the Statement of Net Cost
Disclosures Related to the Statement of Net Cost


Statement of Net Cost
The Consolidated Statement of Net Cost (SoNC) in the federal government is unique because its principles
are driven on understanding the net cost of programs and/or organizations that the federal government
supports through appropriations or other means. This statement provides gross and net cost information that
can be related to the amount of output or outcome for a given program and/or organization administered by a
responsible reporting entity.

The amounts presented in the Statement of Net Cost are based on obligations, disbursements and accruals.
USACE records transactions on an accrual basis as required by generally accepted accounting principles.


Fluctuations and Abnormalities
Intragovernmental Gross Cost - Intragovernmental Gross Cost changed due to an increase of $19,677
thousand for employee beneﬁt expense for health and life insurance, retirement beneﬁts, workers
compensation, and voluntary separation incentive program. Imputed cost for the employee beneﬁts increased
$14,482 thousand. Judgment Fund imputed cost increased $836 thousand. The remaining increase is due to
continuing improvements in our process of identifying military trading partners for revolving fund labor and
facility account transactions. The Corps developed system queries to identify trading partners for costs that
are reimbursed by military and other civil appropriations. The increase for Army General Fund was $74,488
thousand. Cost had previously been coded as intra-entity transactions in the elimination process. USACE had
signiﬁcant activity with General Services Administration and Department of Interior with increases in cost of
$86,139 thousand and $10,504 thousand, respectively.

Intragovernmental Earned Revenue - The increase is attributed to improvements to our process of identifying
trading partner elimination data for other Corps revenue in the revolving fund. The Corps developed system

Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 280
queries to identify trading partners for labor and other transactions reimbursed from military and other civil
appropriations. Revenue had previously been included as intra-entity eliminations. There was an increase in
activity with Department of Interior for $17,207 thousand, Army General Fund for $91,941 thousand, and
Department of Homeland Security of $107,197 thousand. USACE provides support for disaster relief to the
Federal Emergency Management Agency, now part of the Department of Homeland Security.

Gross Cost with the Public - The cause of the change in Gross Cost with the Public is due to multiple factors.
A decrease in current year expense of $3,651,142 thousand was recorded to reﬂect the reversal of the amount
reported as a prior period adjustment in FY 2003 associated with non-federal cost share projects. USACE has
spent much of FY 2004 aggressively working to remove these cost share amounts at transaction level. Current
year transactions were recorded in CEFMS for $1,355,950 thousand. The work was on-going on 30 Sep 2004
and USACE has agreed to remove all cost share amounts from the Balance Sheet by the 1st quarter of FY
2005. An adjustment was entered to reﬂect the remaining amount of $769,763 thousand, not yet expensed.
There was an increase of $1,734,889 thousand in depreciation expense primarily in the Mississippi River
and Tributaries appropriation. Districts in the Mississippi Valley Division responsible for bank stabilization
projects transferred construction in progress to expense for those projects to fully depreciate all revetments
that were already in service. The combination of the above events resulted in an overall decrease in cost with
the public.

Earned Revenue with the Public – There was an increase in Earned Revenue with the Public because
Foreign Military Sales transactions are now recorded as public in accordance with DoD FMR Volume
Chapter 3, paragraph 030308. The amount for FY 2004 is $6,777 thousand. Multi-purpose civil works
projects on Portland, Omaha, Mobile, Fort Worth and Little Rock Districts recorded an increase in interest
during construction of $38,563 thousand. If an asset takes longer than one year to build, then interest during
construction is computed and posted as construction in progress cost. The offsetting entry is recorded as
other gains. Jacksonville District recorded a substantial increase of $17,603 thousand in earned revenue for
environmental restoration work.

Note 19.B.               Gross Cost and Earned Revenue by Budget Functional Classiﬁcation
Not applicable

Note 19.C.               Gross Cost to Generate Intra-governmental Revenue and Earned
                         Revenue (Transactions with Other Federal—Non-DoD—Entities) by
                         Budget Functional Classiﬁcation
Not applicable

Note 19.D.               Imputed Expenses
As of September 30                             2004           2003
(Amounts in thousands)
1.   Civilian (e.g.,CSRS/FERS) Retirement       $102,108        $106,317
2.   Civilian Health                             125,990         108,142
3.   Civilian Life Insurance                         392             385
4.   Military Retirement Pension                       0               0
5.   Military Retirement Health                        0               0
6.   Judgment Fund                                11,058          10,222
7.   Total Imputed Expenses                     $239,548        $225,066

8. Other Information
Line 2. An overall increase in health beneﬁt premium prices lead to an increase in the USACE portion of
beneﬁt costs.

Line 6. There were new dispute cases submitted to Treasury for payment from the Judgment Fund, which
resulted in an increase in Judgment Fund expense.

                                                                                                             281
Note 19.E.             Beneﬁt Program Expenses
Not applicable

Note 19. F.            Exchange Revenue
Disclosures Related to the Exchange Revenue:

Exchange revenue arises when a government entity provides goods and services to the public or to another
government entity for a price, “earned revenue’. Exchange revenue includes most user charges other than
taxes, i.e., regulatory user charges.

Goods and services provided through reimbursable programs to the public or another U.S. government entity
(Intra-Corps, Intra-DoD, or other Federal Government entity) are provided at cost. Such reimbursable sales
are reported as earned revenues. Costs are equal to the amount reported as earned.

For regulatory discussion on Exchange Revenue, see DoD FMR, Volume 6B, Chapter 10, paragraph 102120.

Note 19.G.             Amounts for Foreign Military Sales (FMS) Program Procurements
                       from Contractors
Not applicable

Note 19.H.             Stewardship Assets
Not applicable

Note 19.I.             Intra-governmental Revenue and Expense
Disclosures Related to Intra-governmental Revenue and Expense:

The Corps of Engineers Financial Management System (CEFMS) captures trading partner data at the
transaction level in a manner that facilitates trading partner reconciliation and elimination entries. There were
no material reconciling differences.

Note 19.J.             Suborganization Program Costs
Not applicable




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 282
Note 20.                 Disclosures Related to the Statement of Changes in Net Position
                                                 Cumulative Results Unexpended    Cumulative Results Unexpended
                                                   of Operations Appropriations     of Operations Appropriations
                                                       2004            2004             2003            2003
As of September 30
(Amounts in thousands)
1.   Prior Period Adjustments Increases
     (Decreases) to Net Position
     Beginning Balance:

     A.  Changes in Accounting Standards                      $0             $0                 $0            $0
     B.  Errors and Omissions in Prior Year
         Accounting Reports                                    0              0         (2,669,485)            0
     C. Other Prior Period Adjustments                         0              0                   0            0
     D. Total Prior Period Adjustments                        $0             $0        ($2,669,485)           $0

2.   Imputed Financing:
     A. Civilian CSRS/FERS Retirement                    $102,108            $0           $106,317            $0
     B. Civilian Health                                   125,990             0            108,142             0
     C. Civilian Life Insurance                               392             0                385             0
     D. Military Retirement Pension                             0             0                  0             0
     E. Military Retirement Health                              0             0                  0             0
     F. Judgment Fund                                      11,058             0             10,222             0
     G. Total Imputed Financing                          $239,548            $0           $225,066            $0

3. Other Information:

Other Corps Disclosures
Taxes and Other Nonexchange Revenue include $960,544 thousand in tax collections and $60,300 thousand
in interest income deposited into the trust fund accounts. Excise taxes totaling $90,845 thousand were
deposited into the Inland Waterways Trust Fund. Taxes totaling $869,699 thousand were collected and
deposited into The Harbor Maintenance Trust Fund. These taxes were derived from:

Tax on Foreign Trade             $109,341 thousand
Tax on Imports                    694,884 thousand
Tax on Passengers                   6,708 thousand
Tax on Domestics                   56,588 thousand
Tax on Exports                      2,178 thousand

Transfers-in include $10 million transferred into the South Dakota Terrestrial Wildlife Restoration Trust
Fund; $117,262 thousand transferred into the Inland Waterways Trust Fund from Treasury and recorded
by the Corps; $630,944 thousand in budget authority transferred into the Harbor Maintenance Trust Fund
from Treasury; and $59,023 thousand in budget authority transferred into the Coastal Wetlands Restoration
Trust Fund from the Aquatic Resource Trust Fund. Additional monies were transferred into the Corps’
General Fund. The breakdown is as follows: $51 thousand was transferred from the US Geological Survey,
$30 thousand was transferred from the US Fish and Wildlife Service, $7 thousand was transferred from the
National Park Service, $35 thousand was transferred from Bonneville Power Administration and $2,095
thousand was transferred from the Western Area Power Administration.

Transfers-out to other governmental agencies include $14,273 thousand to the Saint Lawrence Seaway
Development Corporation from the Harbor Maintenance Trust Fund. Additional transfers from the General
Fund were transferred as follows: $165 thousand was transferred to the National Park Service, $835 thousand
was transferred to the US Forestry Service, $744 thousand was transferred to the Tennessee Valley Authority,


                                                                                                                   283
$211 thousand was transferred to the Non-Corps, US Navy Public Works, $52 thousand was transferred
to the Non-Corps, US Army Public Works, $168 thousand was transferred to the US Fish and Wildlife,
$39 thousand was transferred to the USDI Bureau of Indian Affairs and $6 thousand was transferred to the
Department of Interior.


Fluctuations

Footnotes:
Line 2B. Imputed Financing – Civilian Health: Overall pay rate increased due to the annual cost of living
raise. Civilian health beneﬁts increased because overall pay rates increased. The health beneﬁts are a
percentage of the payroll.

Line 2F. Imputed Financing – Judgment Fund: The amount of Judgment Fund claims paid by Treasury
increased by $836 thousand.


Statement of Changes in Net Position

Cumulative Results of Operations:
Line 1. Results of Operations – Beginning Balances: Cost share and other construction in progress projects,
totaling $3,130,400 thousand, were transferred to the public and recorded as a loss in the fourth quarter of
FY 2003. Also, a prior period adjustment (restated) of $2,669,485 thousand, was done in the fourth quarter
of FY 2003 for non-federal cost share projects. The loss and prior period adjustments closed into results of
operations and rolled forward to FY 2004.

Line 2. Prior Period Adjustments: An adjustment of $2,669,485 thousand was done in the fourth quarter of
FY 2003, to remove construction in progress, for non-federal cost share projects. There is no prior period
adjustment in FY 2004.

Line 4E. Budgetary Financing Sources – Nonexchange revenue: There are several factors that have
contributed to the overall increase in nonexchange revenue. First, the $116,630 thousand increase in the Trust
Funds account is due to ﬂuctuation in taxes and interest. The Corps is the lead agency for reporting Inland
Waterways and Harbor Maintenance Trust Funds. Second, the $413,651 increase in the Contributed Fund
account is due to new reporting procedures in recording Contributed Fund receipts. CEFMS was recording
the transactions as appropriations received and updated SGL 3100 series. According to Treasury proforma
entry A186, the transactions should be recorded in the SGL 5900 other revenue.

Line 4G. Budgetary Financing Sources – Transfers-in/out: The overall $548,200 thousand net decrease
to Transfers-in/out without reimbursement is due to changes in reporting procedures for Contributed,
General and Transfer Funds. Contributed Funds now records appropriated receipts as other revenue based
on Treasury proforma entry A186. The $183,368 thousand recorded in the Transfer Fund account and the
$74,089 thousand recorded in the General Fund account, for the fourth quarter of 2004, are due to a change
in reporting procedures for appropriations that no longer update GLAC 3100.

Line 4H. Budgetary Financing Sources – Other budgetary ﬁnancing sources: The overall change in other
budgetary ﬁnancing sources is due to a change in reporting procedures for General, Revolving and Transfer
Funds. General and Revolving Funds now record GLACs 7190 and 7290 with a Fin26 attribute to update
the Statement of Financing instead of the Change in Net Position. However, General Funds has a $39,606
thousand decrease and Revolving Fund has a $8,963 thousand increase in the losses on disposition of assets
account. The $7,137 thousand recorded in the Transfer Fund account, for the fourth quarter of 2004, is due to
a change in reporting procedures for Transfer appropriations that no longer updates GLAC 3100.

Line 5A. Other Financing Sources – Donations and forfeitures of property: There was an overall decrease in
donations and forfeitures of property for the third quarter of FY 2004. The negative balance, in Revolving


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 284
Fund, is due to property recorded with an incorrect work item class code, in the fourth quarter of FY 2003 at
the Buffalo District, which was corrected during the second quarter FY 2004.

Line 5B. Other Financing Sources – Transfers-in/out without reimbursement: The most signiﬁcant changes
for Transfers-in/out without reimbursements were with Borrowing Authority, General, Transfer and Trust
Funds. Borrowing Authority had a decrease in transfers-out for $61,014 thousand. General Funds had a net
increase in transfers-in/out for $31,774 thousand; Transfer Funds had a net increase in transfers-in/out for
$15,571 thousand and Trust Funds had a net increase in Transfers-in/out for $15,006 thousand.

Line 5D. Other Financing Sources – Other: The overall decrease in Other Changes in Net Position is due to a
change in the accounting treatment for collections in the General Fund Proprietary Interest Receipt Account
during the fourth quarter of FY 2003. Due to this change a contra revenue account was established. No contra
revenue amount was reported for the fourth quarter of FY 2003 for this appropriation.

There was also a decrease in Borrowing Authority, by $6,661 thousand, which is due to a reduction in the
amount of loan repayments made to Treasury for improvements to the Washington Aqueduct.


Unexpended Appropriations
Lines 1 & 2B. Beginning Balance and Prior period adjustments: This is due to the change in recording the
amount of appropriated receipts from available receipt accounts to the expenditure accounts. In prior years,
these amounts in Special and Contributed Funds have been recorded as appropriations received, which
updated unexpended appropriations. According to Treasury proforma entry A184, these amounts are to be
recorded as transfers-in. Transfers-in do not update unexpended appropriations. An adjustment was made
to remove the unexpended balances in Special Funds ($78 thousand) and Contributed Funds ($342,591
thousand) and report as transfers-in.

Line 4B. Budgetary Financing Sources – Appropriations transferred-in/out: The overall decrease is due
to a decrease in the amount of net appropriations transfers from the Transfer Funds by $39,841 thousand.
Also, General Funds now records transfers-in from Bonneville Power Administration to GLAC 5755
Non-expenditure Financing Sources-transfers-in. General Funds, however, did have a decrease in net
appropriations transferred-in from Bonneville Power Administration for $63,786 thousand.

Line 4C. Budgetary Financing Sources – Other adjustments (rescissions, etc): The overall decrease to other
adjustments is due to several factors. First, there were rescissions in the USACE Pollution Control and
Abatement (FUSRAP) account for $826 thousand, and $26,259 thousand in the General Fund account.
Second, Contributed Funds, for FY03, recorded $342,591 thousand in receipts as appropriations received
which updated SGL 3100. The credit should have been recorded in SGL 5740 according to Treasury
Proforma entry A184. USACE previously recorded SF1151 transfers in our Transfer Funds as appropriations
transferred account 3102. We learned that this was in error, based on the appropriation the funds were
transferred from, and that we should be recording a transfer-in using SGL 5755. We used the adjustment
account to remove beginning balances associated with prior year transfers in 3100 for $7,137 thousand.


Note Reference
See Note 10 for further discussion of the construction in progress adjustment.

For Regulatory Disclosure Related to The Statement of Changes in Net Position” see, Department of Defense
Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.




                                                                                                               285
Note 21.                 Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                                   2004          2003
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                                     $1,628,052    $1,407,415
2. Available Borrowing and Contract Authority at the End of the
    Period                                                                               30,445      31,840
3. Other Information:

Intra-entity Transactions
The Statement of Budgetary Resources (SBR) does not include intra-entity transactions because the
statements are presented as combined and combining.


Apportionment Categories
The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A
in the SBR includes: $5,570,977 thousand for direct; $44,201 thousand for direct obligations exempt from
apportionment; $5,456,291 thousand for reimbursable obligations; and $1,525 thousand for reimbursable
obligations exempt from apportionment. The Corps has no apportionments under Category B.


Undelivered Orders
Undelivered Orders presented in the SBR includes Undelivered Orders-Unpaid for both direct and
reimbursable funds.


Borrowing Authority
Borrowing authority is for capital improvements to the Washington Aqueduct. Funding to repay the debt is
provided by Arlington County, Virginia; Falls Church, Virginia; and the District of Columbia. Borrowing
authority expired at the end of ﬁscal year 2003. Borrowing authority converted to cash was not correctly
recorded for ﬁscal years 2000 and 2001. Adjustment has been made this quarter to reﬂect this correction. The
available borrowing authority reported on Line 2 does not reﬂect this adjustment.


Current Year to Prior Year Reconciliation
The difference on Line 2 of Current Year to Prior Year is due to a beginning balance change by Treasury.
Treasury manages the investment portion of the Inland Waterways and Harbor Maintenance Trust Funds.
The Corps is the lead agency for reporting these trust funds. We receive ﬁnancial statements from Treasury
to incorporate into our statements. During the 4th quarter, Treasury had changed the beginning balances for
unobligated funds to unavailable for obligation.


Fluctuations
Line 1 Note 21 reﬂects a variance due to more undelivered orders in FY2004. The largest increase is
$145,964 thousand in General Funds and $146,108 thousand in Trust Funds.


SBR Fluctuations
Budget Authority: Appropriations received and net transfers reﬂect a variance due to the way Treasury is
recording the investment portion of Trust Funds (see Current Year to Prior Year Recon above). Net Transfers
also reﬂect a variance due to the recording of receipt and transfer of funds (net zero) that were not recorded
on this line before and an increase of $125,031 thousand in additional funding from Transfer Funds.
Borrowing authority reﬂects a variance due to a correction of $135 thousand to the CEFMS database to
reconcile cash to Treasury.

Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 286
Unobligated Balance: Net transfers reﬂect a variance due to the recording of funds from Department of
Interior as prior year funding vice current year funding based on guidance from Department of Interior.

Spending Authority from Offsetting Collections: Increase in receivable from Federal sources is due to an
increase of $143,197 thousand in General Funds and a decrease of $4,319 thousand in Revolving Fund.
Change in unﬁlled customer orders, advance received, reﬂects an increase of $34,951 thousand in General
Funds and an increase of $11,017 thousand in Revolving Fund.

Temporarily not Available Pursuant to Public Law: Variance is due to the beginning balance change by
Treasury for South Dakota Terrestrial Wildlife. Receipts unavailable for obligation upon collection was
changed to receipts and appropriation temporarily precluded from obligation which populates this line vice
appropriations received.

Permanently not Available: Reﬂects a variance due to a change in recording budget authority recissions.
In FY2003, recissions of $30,095 thousand were recorded as a reduction to appropriations received vice
Budgetary Resources permanently not available. A difference of $6,661 thousand is due to the repayment of
debt in Borrowing Authority.

Unobligated Balance: Apportioned reﬂects a decrease of $147,719 thousand due to a change in recording
unobligated balance of transfers in from Transfer Appropriations derived from a special or trust fund. These
funds are considered exempt from apportionment. They were recorded as apportioned prior to 4th quarter
FY2004. The large variance in exempt from apportionment is due the change in Treasury’s recording of the
investment portion of the Corps Trust Funds (see current year to prior year reconciliation above).

Unobligated Balance not Available: Increase of $57 thousand is due to expired funds in the General
Investigation Appropriation.

Obligated Balance, Net – End of Period: Variance in accounts receivable is due to a decrease in accounts
receivable of $8,249 thousand in Revolving Fund, an increase of $72,282 thousand in General Funds and an
increase of $71 thousand in FUSRAP. The change in unﬁlled customer orders from Federal sources is due to
an increase of $273,911 thousand in General Funds. Undelivered orders

reﬂects a variance due to an increase of $22,440 thousand in Contributed Funds, $145,964 thousand in
General Funds, $76,441 thousand in Revolving Fund, $2,938 thousand in Transfer Funds and $146,108
thousand in Trust Funds.

Offsetting Receipts: The increase is primarily due to the reporting of Distributed Offsetting Receipts totaling
$571,453 thousand in Contributed, General and Special Funds. Prior to 4th quarter FY2004, these funds were
recorded as other revenue. There was also an increase in tax collections and interest revenue of $116,630
thousand in Trust funds from prior year.

Note 22.         Disclosures Related to the Statement of Financing
Disclosures Related to the Statement of Financing:

Intra-entity transactions have not been eliminated because the Statement of Financing is presented as
combined and combining.


Resources Used to Finance Activities:
Less: Offsetting receipts: The increase in offsetting receipts is due primarily to the reporting of Distributed
Offsetting Receipts totaling $571,453 thousand in the Contributed, General and Special Funds on Line 4.
Distributed Offsetting Receipts in these fund accounts were not reported on Line 4 in the past. There was also
an increase in tax collections and interest revenue of $116,630 thousand in the Trust Funds from the prior
year.


                                                                                                             287
Donations and forfeitures of property: The decrease in Donations and forfeitures of property is due to a
decrease in asset donations during the current ﬁscal year.

Transfers in/out without reimbursement: The decrease in the net amount of asset transfers-out is due to
a decrease in transfers out to other government agencies. The largest change was for transfers-out to the
Department of Interior which dropped from $56,649 thousand in FY 2003 to $378 thousand in FY 2004.

Other: The reporting of Distributed Offsetting Receipts and the contra revenue account changed this quarter.
Distributed Offsetting Receipts for the General and Special Funds are now reported on Line 4 rather than
Line 9. The amount of the contra revenue account for the distributed offsetting receipts has also been deleted
from Line 9.

The decrease is also due to the decrease in the amount of collections from local governments used to repay
the loan to Treasury for improvements to the Washington Aqueduct. Collections from local governments
decreased from $8,653 thousand to $1,991 thousand from FY 2003 to FY2004.


Resources Used to Finance Items not Part of the Cost of Operations:
Undelivered Orders: The increase in undelivered orders occurred primarily in the Coastal Wetlands Trust
Fund, Flood Control and Coastal Emergencies Appropriation and the Revolving Fund. The increase in the
Flood Control and Coastal Emergency Appropriation is due to the hurricanes in the South Atlantic Region.
The increase in the Revolving Funds is associated with the new Gulf Region Division in Iraq.

Unﬁlled Customer Orders: The change is due primarily to an increase in unﬁlled customer orders without
advances in the Flood Control and Coastal Emergencies Appropriation in the South Atlantic Division due to
the hurricanes in that area.

Resources that fund expenses recognized in prior periods: The amount reported on Line 13 includes the
change in future funded expense for contracts with continuation clauses, unfunded judgment fund expense
and employer contributions to employee beneﬁts programs not requiring current year budgetary authority.
The change in future funded expense was not reported on Line 13 in FY 2003.

Budgetary offsetting collections and receipts that do not affect net cost of operations: The increase is due to
the reporting of $571,453 thousand in Distributed Offsetting Receipts on this line for the Contributed, Special
and General Funds to offset the amount of offsetting receipts reported on Line 4. Distributed Offsetting
Receipts for these funds were not reported on this line in the past. Tax collections and interest revenue in the
Trust Funds have been reported on this line in the past. Trust fund revenue increased by $116,630 thousand
this year.

Resources that ﬁnance the acquisition of assets: The change in resources that ﬁnance the acquisition of assets
is due primarily to the change in reporting current year asset purchases during FY2004. Prior to FY2004
the amount reported on this line included asset transfers and other revaluations of assets. These amounts are
now excluded from line 15 and reported on lines 16 or 26. At this time the true variance in current year asset
purchases cannot be determined due to this change in reporting requirements.

Other resources or adjustments to net obligated resources that do not affect net cost of operations – Less:
Trust or Special Fund Receipts Related to Exchange in the Entity’s Budget: The increase is due to the
reporting of the expenditure transfer from the General Fund to the South Dakota Terrestrial Wildlife Habitat
Restoration Trust Fund as a transfer-out in FY2004. The FY2003 transfer to the trust fund was recorded as an
expense and was not recorded on the statement of ﬁnancing.

Other resources or adjustments to net obligated resources that do not affect net cost of operations – Less:
Other: This is the net amount of asset transfers-out. Net asset transfers were included in Line 15 in prior
periods.


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 288
Other: The change is mostly attributed to the decrease in future funded expense for contracts with a
continuation clause.

Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:

Depreciation and amortization: The increase in depreciation expense is due primarily to the depreciation
adjustments made by the New Orleans, Memphis and Vicksburg districts to fully depreciate all revetments
already placed in service reported in the Flood Control, Mississippi River and Tributaries Appropriation.

Revaluation of assets or liabilities: The change in the amount on Line 26 is due to two factors. In FY 2003
the amount reported on this line included adjustments for $981,667 thousand to write off current year costs
that had been capitalized as construction in progress for non federal cost share projects, an adjustment for
$255,555 thousand to record the loss for two failed ﬁsh mitigation studies and $240,460 thousand for asset
transfers to the public. In FY 2004 the adjustment for $981,667 to record the write-off of capitalized current
year costs for non-federal cost share projects was reversed. This reversal represents almost 85 percent of
the variance. The non-federal cost share projects were written-off to operating expense rather than loss on
disposition of assets in the Corps’ accounting system this year.

The second factor is the change in reporting requirements for the amount of resources that ﬁnance current
year purchases reported on Line 15. In prior periods the amount reported on Line 15 was the total change in
assets including asset gains and losses and transfers-in and out. In accordance with DFAS policy, Line 15
now includes only asset purchases during the ﬁscal year. Therefore, we are now reporting asset gains and
losses on Line 26.

Other: The change is due to an increase in other expenses not requiring budgetary resources related to the
write-off of capitalized non-federal cost share projects.

Note 23.          Disclosures Related to the Statement of Custodial Activity
Disclosures Related to the Statement of Custodial Activity:

This Statement is prepared at the Department of Defense level only.

Note 24.A.        Other Disclosures
Not applicable

Note 24.B.        Other Disclosures
Not applicable.




                                                                                                             289
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)



ASSETS¬(Note¬2)                                                        Special Funds            Trust Funds     Transfer Funds
Intragovernmental:
Fund Balance with Treasury (Note 3)
      Entity                                                                     $2,972               $72,121           $45,067
      Non-Entity Seized Iraqi Cash                                                    0                     0                 0
      Non-Entity-Other                                                                0                     0                 0
Investments (Note 4)                                                                  0             2,741,917                 0
Accounts Receivable (Note 5)                                                          0               362,451            35,650
Other Assets (Note 6)                                                                 0                     0                 0
Total Intragovernmental Assets                                                   $2,972            $3,176,489           $80,717
Cash and Other Monetary Assets (Note 7)                                              $0                    $0                $0
Accounts Receivable (Note 5)                                                      2,222                     0                 0
Loans Receivable (Note 8)                                                             0                     0                 0
Inventory and Related Property (Note 9)                                               0                     0               195
General Property, Plant and Equipment (Note 10)                                   2,068               673,197           271,480
Investments (Note 4)                                                                  0                     0                 0
Other Assets (Note 6)                                                                 0                     0                 0
TOTAL¬ASSETS                                                                     $7,262            $3,849,686          $352,392

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                                        $280               $10,207             $1,350
Debt (Note 13)                                                                        0                    0                  0
Environmental Liabilities (Note 14)                                                   0                    0                  0
Other Liabilities (Note 15 & Note 16)                                             2,222                6,000                  0
Total Intragovernmental Liabilities                                              $2,502              $16,207             $1,350
Accounts Payable (Note 12)                                                        $480                $9,201            $13,902
Military Retirement Benefits and Other Employment-Related                             0                    0                  0
      Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                                   0                    0                  0
Loan Guarantee Liability (Note 8)                                                     0                    0                  0
Other Liabilities (Note 15 and Note 16)                                               3                  677              2,952
Debt Held by Public                                                                   0                    0                  0
TOTAL¬LIABILITIES                                                                $2,985              $26,085            $18,204

NET¬POSITION
Unexpended Appropriations (Note 18)                                                  $0                    $0           $23,515
Cumulative Results of Operations                                                  4,277             3,823,601           310,673
TOTAL¬NET¬POSITION                                                               $4,277            $3,823,601          $334,188
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                               $7,262            $3,849,686          $352,392




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 290
Borrowing Authority     Revolving Funds     Contributed Funds    General Funds     FUSRAP


                 $27            $902,212              $408,009         $917,110     $30,924
                    0                   0                    0                 0          0
                    0                   0                    0             8,245          0
                    0                   0                    0                 0          0
                  (1)               2,168                    0           121,122          0
                    0                   0                    0             2,140          0
                 $26            $904,380              $408,009        $1,048,617    $30,924
                  $0                   $0                   $0            $1,039         $0
                    0                 424                   66         1,903,723          0
                    0                   0                    0                 0          0
                    0              50,420                    0            11,200          0
               7,634              847,826               16,003        26,630,309          0
                    0                   0                    0                 0          0
                    0                   0                    0                 0          0
              $7,660           $1,803,050             $424,078       $29,594,888    $30,924




                  $0             $46,053                 $720            $45,996      $159
              15,367                   0                     0                 0          0
                   0                   0                     0                 0          0
                   0              15,769                 2,636         2,034,140          0
             $15,367             $61,822                $3,356        $2,080,136      $159
                  $0             $75,497               $19,836         $425,099     $26,240
                   0                   0                     0                 0          0

                   0                   0                     0                 0          0
                   0                   0                     0                 0          0
                   1             464,635                 4,097           173,608        152
                   0                   0                     0                 0          0
             $15,368            $601,954               $27,289        $2,678,843    $26,551



                   $0                  $0                   $0         $368,474      $4,373
              (7,708)           1,201,096              396,789        26,547,571          0
             ($7,708)          $1,201,096             $396,789       $26,916,045     $4,373
               $7,660          $1,803,050             $424,078       $29,594,888    $30,924




                                                                                              291
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003 ($ in Thousands)




                                                                        Combined                            2004            2003
ASSETS¬(Note¬2)                                                                           Eliminations
                                                                          Total                          Consolidated    Consolidated

Intragovernmental:
Fund Balance with Treasury (Note 3)
Entity                                                                    $2,378,442                $0      $2,378,442       $2,588,857
Non-Entity Seized Iraqi Cash                                                       0                 0               0                0
Non-Entity-Other                                                               8,245                 0           8,245            6,865
Investments (Note 4)                                                       2,741,917                 0       2,741,917        2,478,454
Accounts Receivable (Note 5)                                                 521,390             1,267         520,123          423,774
Other Assets (Note 6)                                                          2,140             2,140               0                0
Total Intragovernmental Assets                                            $5,652,134            $3,407      $5,648,727       $5,497,950
Cash and Other Monetary Assets (Note 7)                                       $1,039                $0          $1,039           $1,278
Accounts Receivable (Note 5)                                               1,906,435                 0       1,906,435        1,935,567
Loans Receivable (Note 8)                                                          0                 0               0                0
Inventory and Related Property (Note 9)                                       61,815                 0          61,815           62,605
General Property, Plant and Equipment (Note 10)                           28,448,517                 0      28,448,517       30,909,056
Investments (Note 4)                                                               0                 0               0                0
Other Assets (Note 6)                                                              0                 0               0                0
TOTAL¬ASSETS                                                             $36,069,940            $3,407     $36,066,533      $38,406,456

LIABILITIES¬(Note¬11)
Intragovernmental:
Accounts Payable (Note 12)                                                 $104,765             $1,267       $103,498           $92,764
Debt (Note 13)                                                                15,367                 0          15,367           17,386
Environmental Liabilities (Note 14)                                                0                 0               0                0
Other Liabilities (Note 15 & Note 16)                                      2,060,767             2,140       2,058,627        2,096,480
Total Intragovernmental Liabilities                                       $2,180,899            $3,407      $2,177,492       $2,206,630
Accounts Payable (Note 12)                                                 $570,255                 $0       $570,255         $568,108
Military Retirement Benefits and Other Employment-Related                          0                 0               0                0
Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                                0                 0               0                0
Loan Guarantee Liability (Note 8)                                                  0                 0               0                0
Other Liabilities (Note 15 and Note 16)                                      646,125                 0         646,125          705,384
Debt Held by Public                                                                0                 0               0                0
TOTAL¬LIABILITIES                                                         $3,397,279            $3,407      $3,393,872       $3,480,122

NET¬POSITION
Unexpended Appropriations (Note 18)                                        $396,362                 $0       $396,362         $636,846
Cumulative Results of Operations                                          32,276,299                 0      32,276,299       34,289,488
TOTAL¬NET¬POSITION                                                       $32,672,661                $0     $32,672,661      $34,926,334
TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                       $36,069,940            $3,407     $36,066,533      $38,406,456




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 292
[This Page Left Intentionally Blank]




                                       293
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2004 and 2003 ($ in Thousands)

                                                        Combined Total         Eliminations      2004 Consolidated     2003 Consolidated
Program¬Costs
A.¬Borrowing¬Authority
Intragovernmental Gross Costs                                           $258              $17                   $241                  $237
(Less: Intragovernmental Earned Revenue)                                   0                0                      0                     0
Intragovernmental Net Costs                                             $258              $17                   $241                  $237
Gross Costs With the Public                                          $2,110                $0                $2,110                $8,626
(Less: Earned Revenue From the Public)                               (2,261)                0                (2,261)               (9,049)
Net Costs With the Public                                             ($151)               $0                 ($151)                ($423)
Total Net Cost                                                          $107              $17                    $90                ($186)

B.¬Contributed¬Funds                                                       0
Intragovernmental Gross Costs                                       $39,030           $28,047               $10,983                $7,465
(Less: Intragovernmental Earned Revenue)                                (50)              (50)                     0                     0
Intragovernmental Net Costs                                         $38,980           $27,997               $10,983                $7,465
Gross Costs With the Public                                        $336,036                 $0             $336,036              $900,965
(Less: Earned Revenue From the Public)                                   (1)                 0                   (1)                  (10)
Net Costs With the Public                                          $336,035                 $0             $336,035              $900,955
Total Net Cost                                                     $375,015           $27,997              $347,018              $908,420

C.¬FUSRAP
Intragovernmental Gross Costs                                       $17,150           $14,640                $2,510                $2,524
(Less: Intragovernmental Earned Revenue)                                  0                 0                     0                     0
Intragovernmental Net Costs                                         $17,150           $14,640                $2,510                $2,524
Gross Costs With the Public                                        $122,458                $0              $122,458              $137,757
(Less: Earned Revenue From the Public)                                    0                 0                     0                     0
Net Costs With the Public                                          $122,458                $0              $122,458              $137,757
Total Net Cost                                                     $139,608           $14,640              $124,968              $140,281

D.¬General¬Funds
Intragovernmental Gross Costs                                     $1,341,876       $1,044,329              $297,547              $265,020
(Less: Intragovernmental Earned Revenue)                           (638,482)          (29,089)            (609,393)             (479,499)
Intragovernmental Net Costs                                        $703,394        $1,015,240            ($311,846)            ($214,479)
Gross Costs With the Public                                       $6,063,017                $0           $6,063,017            $6,314,004
(Less: Earned Revenue From the Public)                             (281,571)                 0            (281,571)             (264,819)
Net Costs With the Public                                         $5,781,446                $0           $5,781,446            $6,049,185
Total Net Cost                                                    $6,484,840       $1,015,240            $5,469,600            $5,834,706




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 294
                                            Combined Total       Eliminations       2004 Consolidated     2003 Consolidated

F.¬Special¬Funds
Intragovernmental Gross Costs                          $855               $541                   $314                   $136
(Less: Intragovernmental Earned Revenue)                   0                 0                       0                     0
Intragovernmental Net Costs                             $855              $541                    $314                  $136
Gross Costs With the Public                          $12,850                $0                 $12,850               $11,212
(Less: Earned Revenue From the Public)                     0                 0                       0                     0
Net Costs With the Public                            $12,850                $0                 $12,850               $11,212
Total Net Cost                                       $13,705              $541                 $13,164               $11,348

G.¬Transfer¬Funds
Intragovernmental Gross Costs                        $31,541           $25,570                  $5,971                $2,999
(Less: Intragovernmental Earned Revenue)                    0                0                        0                    0
Intragovernmental Net Costs                          $31,541           $25,570                  $5,971                $2,999
Gross Costs With the Public                          $35,596                $0                 $35,596               $70,313
(Less: Earned Revenue From the Public)                (5,610)                0                  (5,610)                    0
Net Costs With the Public                            $29,986                $0                 $29,986               $70,313
Total Net Cost                                       $61,527           $25,570                 $35,957               $73,312

H.¬Trust¬Funds                                             0
Intragovernmental Gross Costs                        $31,605            $8,549                 $23,056               $25,734
(Less: Intragovernmental Earned Revenue)                   0                 0                       0                     0
Intragovernmental Net Costs                          $31,605            $8,549                 $23,056               $25,734
Gross Costs With the Public                         $694,248                $0                $694,248              $644,898
(Less: Earned Revenue From the Public)                     0                 0                       0                     0
Net Costs With the Public                           $694,248                $0                $694,248              $644,898
Total Net Cost                                      $725,853            $8,549                $717,304              $670,632

I.¬Total¬Program¬Costs                                      0
Intragovernmental Gross Costs                     $2,144,474        $1,123,707              $1,020,767               $819,199
(Less: Intragovernmental Earned Revenue)          (2,358,513)       (1,123,708)             (1,234,805)           (1,011,769)
Intragovernmental Net Costs                        ($214,039)              ($1)              ($214,038)            ($192,570)
Gross Costs With the Public                       $8,658,737                 $0             $8,658,737            $9,466,972
(Less: Earned Revenue From the Public)              (367,963)                 0               (367,963)             (298,633)
Net Costs With the Public                         $8,290,774                 $0             $8,290,774            $9,168,339
Total Net Cost                                    $8,076,735               ($1)             $8,076,736            $8,975,769
Cost¬Not¬Assigned¬to¬Programs                               0                 0                       0                     0
(Less:Earned¬Revenue¬Not¬Attributable¬to¬
                                                             0                  0                    0                     0
Programs)
Net¬Cost¬of¬Operations                            $8,076,735               ($1)             $8,076,736            $8,975,769




                                                                                                                                295
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



CUMULATIVE¬RESULTS¬OF¬OPERATIONS                                   Special Funds          Trust Funds        Transfer Funds
Beginning¬Balances                                                           $2,540             $3,578,769          $188,444
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                         0                      0                 0
Beginning Balance, Restated                                                   2,540              3,578,769           188,444
Prior Period Adjustments - Not Restated (+/-)                                     0                      0                 0
Beginning¬Balances,¬as¬adjusted                                              $2,540             $3,578,769          $188,444
Budgetary¬Financing¬Sources:
Appropriations received                                                           0                      0                 0
Appropriations transferred-in/out (+/-)                                           0                      0                 0
Other adjustments (rescissions, etc) (+/-)                                        0                      0                 0
Appropriations used                                                               0                      0            20,148
Nonexchange revenue                                                               0              1,020,844                 0
Donations and forfeitures of cash and cash equivalents                            0                      0                 0
Transfers-in/out without reimbursement (+/-)                                 15,820                 51,768           183,368
Other budgetary financing sources (+/-)                                           0                      0             7,137
Other¬Financing¬Sources:
Donations and forfeitures of property                                             0                      0                  0
Transfers-in/out without reimbursement (+/-)                                  (378)              (101,927)           (26,897)
Imputed financing from costs absorbed by others                                   0                      0                  0
Other (+/-)                                                                       0                      0                  0
Total¬Financing¬Sources                                                     $15,442              $970,685           $183,756
Net¬Cost¬of¬Operations¬(+/-)                                                 13,705                725,853             61,527
Ending¬Balances                                                              $4,277             $3,823,601          $310,673

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                                $0                   $0            $32,406
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                          0                    0                  0
Beginning Balance, Restated                                                        0                    0             32,406
Prior Period Adjustments - Not Restated (+/-)                                      0                    0                  0
Beginning¬Balances,¬as¬adjusted                                                   $0                   $0            $32,406
Budgetary¬Financing¬Sources:
Appropriations received                                                            0                    0                   0
Appropriations transferred-in/out (+/-)                                            0                    0              18,394
Other adjustments (rescissions, etc) (+/-)                                         0                    0             (7,137)
Appropriations used                                                                0                    0            (20,148)
Nonexchange revenue                                                                0                    0                   0
Donations and forfeitures of cash and cash equivalents                             0                    0                   0
Transfers-in/out without reimbursement (+/-)                                       0                    0                   0
Other budgetary financing sources (+/-)                                            0                    0                   0
Other¬Financing¬Sources:
Donations and forfeitures of property                                              0                    0                   0
Transfers-in/out without reimbursement (+/-)                                       0                    0                   0
Imputed financing from costs absorbed by others                                    0                    0                   0
Other (+/-)                                                                        0                    0                   0
Total¬Financing¬Sources                                                           $0                   $0            ($8,891)
Net¬Cost¬of¬Operations¬(+/-)                                                       0                   0                   0
Ending¬Balances                                                                   $0                   $0            $23,515




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 296
Borrowing Authority       Revolving Funds       Contributed Funds       General Funds      FUSRAP
             ($8,368)            $1,260,998               $367,889         $28,899,179          $37

                    0                     0                      0                   0            0
              (8,368)             1,260,998                367,889          28,899,179           37
                    0                     0                      0                   0            0
             ($8,368)            $1,260,998               $367,889         $28,899,179          $37

                      0                   0                      0                   0            0
                      0                   0                      0                   0            0
                      0                   0                      0                   0            0
                      0                   0                      0           3,919,304      139,571
                      0                   0                413,651                   0            0
                      0                   0                      0                   0            0
                      0                   0                      0              64,089            0
                      0            (10,635)                      0               (447)            0

                    0                   (99)                      0                 534           0
              (1,223)                (1,578)                (9,736)            140,107            0
                    0               228,490                       0             11,058            0
                1,991                      0                      0             (1,413)           0
                $768              $216,178                $403,915          $4,133,232     $139,571
                  107               276,080                375,015           6,484,840      139,608
             ($7,707)            $1,201,096               $396,789         $26,547,571           $0



                  $0                     $0                     $0            $599,670       $4,770

                   0                      0                      0                   0            0
                   0                      0                      0             599,670        4,770
                   0                      0                      0                   0            0
                  $0                     $0                     $0            $599,670       $4,770

                      0                     0                       0         3,714,081      140,000
                      0                     0                       0                  0           0
                      0                     0                       0           (25,973)       (826)
                      0                     0                       0       (3,919,304)    (139,571)
                      0                     0                       0                  0           0
                      0                     0                       0                  0           0
                      0                     0                       0                  0           0
                      0                     0                       0                  0           0

                   0                      0                      0                    0           0
                   0                      0                      0                    0           0
                   0                      0                      0                    0           0
                   0                      0                      0                    0           0
                  $0                     $0                     $0           ($231,196)      ($397)
                  0                      0                      0                    0           0
                  $0                     $0                     $0             $368,474      $4,373




                                                                                                       297
Department of Defense- Department of the Army, Civil Works Fund
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004 and 2003 ($ in Thousands)



CUMULATIVE¬RESULTS¬OF¬OPERATIONS                                   Combined Total               Eliminations
Beginning¬Balances                                                        $34,289,488                          $0
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                           0                           0
Beginning Balance, Restated                                                34,289,488                           0
Prior Period Adjustments - Not Restated (+/-)                                       0                           0
Beginning¬Balances,¬as¬adjusted                                           $34,289,488                          $0
Budgetary¬Financing¬Sources:
Appropriations received                                                               0                         0
Appropriations transferred-in/out (+/-)                                               0                         0
Other adjustments (rescissions, etc) (+/-)                                            0                         0
Appropriations used                                                          4,079,023                          0
Nonexchange revenue                                                          1,434,495                          0
Donations and forfeitures of cash and cash equivalents                                0                         0
Transfers-in/out without reimbursement (+/-)                                   315,045                          0
Other budgetary financing sources (+/-)                                         (3,945)                         0
Other¬Financing¬Sources:
Donations and forfeitures of property                                              435                       0
Transfers-in/out without reimbursement (+/-)                                   (1,632)                       0
Imputed financing from costs absorbed by others                               239,548                        0
Other (+/-)                                                                        578                       0
Total¬Financing¬Sources                                                    $6,063,547                      $0
Net¬Cost¬of¬Operations¬(+/-)                                                8,076,735                      (1)
Ending¬Balances                                                           $32,276,300                      $1

UNEXPENDED¬APPROPRIATIONS
Beginning¬Balances                                                           $636,846                          $0
Prior¬period¬adjustments¬(+/-)
Prior Period Adjustments - Restated (+/-)                                           0                           0
Beginning Balance, Restated                                                   636,846                           0
Prior Period Adjustments - Not Restated (+/-)                                       0                           0
Beginning¬Balances,¬as¬adjusted                                              $636,846                          $0
Budgetary¬Financing¬Sources:
Appropriations received                                                      3,854,081                          0
Appropriations transferred-in/out (+/-)                                          18,394                         0
Other adjustments (rescissions, etc) (+/-)                                     (33,936)                         0
Appropriations used                                                        (4,079,023)                          0
Nonexchange revenue                                                                   0                         0
Donations and forfeitures of cash and cash equivalents                                0                         0
Transfers-in/out without reimbursement (+/-)                                          0                         0
Other budgetary financing sources (+/-)                                               0                         0
Other¬Financing¬Sources:
Donations and forfeitures of property                                                0                          0
Transfers-in/out without reimbursement (+/-)                                         0                          0
Imputed financing from costs absorbed by others                                      0                          0
Other (+/-)                                                                          0                          0
Total¬Financing¬Sources                                                     ($240,484)                         $0
Net¬Cost¬of¬Operations¬(+/-)                                                        0                          0
Ending¬Balances                                                               $396,362                         $0




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 298
2004 Consolidated      2003 Consolidated
       $34,289,488             $39,695,092

                 0              (2,669,485)
        34,289,488              37,025,607
                 0                        0
       $34,289,488             $37,025,607

                  0                       0
                  0                       0
                  0                       0
         4,079,023               4,323,711
         1,434,495                 931,241
                  0                       0
           315,045                 863,243
            (3,945)                (32,536)

                435                   4,648
            (1,632)                (56,344)
           239,548                 225,066
                578                (19,379)
        $6,063,547              $6,239,650
         8,076,736               8,975,769
       $32,276,299             $34,289,488



          $636,846              $1,064,864

                 0                       0
           636,846               1,064,864
                 0                       0
          $636,846              $1,064,864

          3,854,081               4,027,057
              18,394                196,111
            (33,936)              (344,418)
        (4,079,023)             (4,306,768)
                   0                      0
                   0                      0
                   0                      0
                   0                      0

                 0                        0
                 0                        0
                 0                        0
                 0                        0
        ($240,484)               ($428,018)
                0                        0
          $396,362                 $636,846




                                              299
Department of Defense- Department of the Army, Civil Works Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



BUDGETARY¬FINANCING¬ACCOUNTS                                  Special Funds        Trust Funds       Transfer Funds     Borrowing Authority
BUDGETARY¬RESOURCES
Budget Authority:
Appropriations received                                                $56,251           $817,249                 $0                      $0
Borrowing authority                                                           0                 0                  0                     135
Contract authority                                                            0                 0                  0                       0
Net transfers (+/-)                                                    (40,432)                 0            173,267                       0
Other                                                                         0                 0                  0                       0
Unobligated balance:
Beginning of period                                                          36           208,348             21,310                   (380)
Net transfers, actual (+/-)                                                   0                 0             28,495                       0
Anticipated Transfers Balances                                                0                 0                  0                       0
Spending authority from offsetting collections:
Earned                                                                       0                   0                 0                        0
Collected                                                                    0                   0                10                    2,261
Receivable from Federal sources                                              0                   0                 0                        0
Change in unfilled customer orders                                           0                   0                 0                        0
Advance received                                                             0                   0                 0                        1
Without advance from Federal sources                                         0                   0                11                        0
Anticipated for the rest of year, without advances                           0                   0                 0                        0
Transfers from trust funds                                                   0                   0                 0                        0
Subtotal                                                                    $0                  $0               $21                  $2,262
Recoveries of prior year obligations                                         0                   0                 0                        0
Temporarily not available pursuant to Public Law                             0            (10,000)                 0                        0
Permanently not available                                                    0                   0                 0                  (1,991)
Total¬Budgetary¬Resources                                              $15,855         $1,015,597           $223,093                      $26

STATUS¬OF¬BUDGETARY¬RESOURCES
Obligations incurred:
Direct                                                                 $15,794           $926,253           $175,594                     $99
Reimbursable                                                                 0                  0                 10                     269
Subtotal                                                                15,794            926,253            175,604                     368
Unobligated balance:
Apportioned                                                                 62                  0             19,892                       0
Exempt from apportionment                                                     0            89,344             27,589                   (342)
Other available                                                             (1)                 0                  0                       0
Unobligated Balances Not Available                                            0                 0                  8                       0
Total,¬Status¬of¬Budgetary¬Resources                                   $15,855         $1,015,597           $223,093                     $26

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net - beginning of period                            $3,039           $127,939            $18,994                    $890
Obligated Balance transferred, net (+/-)                                     0                  0                  0                       0
Obligated Balance, Net - end of period:
Accounts receivable                                                          0                  0                   0                      0
Unfilled customer order from Federal sources                                 0                  0                (11)                      0
Undelivered orders                                                       2,147            264,884             15,035                       2
Accounts payable                                                           763             10,179             18,205                     367
Outlays:
Disbursements                                                           15,922             779,128           161,359                      889
Collections                                                                  0                   0               (10)                 (2,262)
Subtotal                                                               $15,922            $779,128          $161,349                 ($1,373)
Less: Offsetting receipts                                             (47,914)         (1,020,844)                  0                       0
Net¬Outlays                                                          ($31,992)          ($241,716)          $161,349                 ($1,373)




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 300
Revolving Funds     Contributed Funds     General Funds     FUSRAP       2004 Combined      2003 Combined


              $0              $413,585        $3,714,081    $140,000          $5,141,166         $7,652,893
               0                     0                 0           0                 135                  0
               0                     0                 0           0                   0                  0
               0                     0            74,089           0             206,924            160,964
               0                     0                 0           0                   0                  0

          81,068               261,803         1,275,601       2,440           1,850,226          1,741,013
               0                     0                 0           0              28,495                  0
               0                     0                 0           0                   0                  0

                0                     0                 0          0                    0                  0
       4,044,756                   187         1,161,272       3,599           5,212,085          5,065,570
          (8,249)                     0            72,282         71               64,104           (74,841)
                0                     0                 0          0                    0                  0
          (1,984)                   (1)            31,644          0               29,660           (16,318)
          (1,112)                     8          273,911       (263)             272,555            262,126
                0                     0                 0          0                    0                  0
                0                     0                 0          0                    0                  0
      $4,033,411                  $194        $1,539,109      $3,407          $5,578,404         $5,236,537
                0                     0                 0          0                    0                  0
                0                     0                 0          0             (10,000)                  0
                0                     0          (26,259)      (826)             (29,076)            (8,653)
      $4,114,479              $675,582        $6,576,621    $145,021         $12,766,274        $14,782,754




              $0              $415,458        $3,942,646    $139,335          $5,615,179         $5,516,359
       4,110,926                   186         1,342,990       3,434           5,457,815          5,033,749
       4,110,926               415,644         5,285,636     142,769          11,072,994         10,550,108

               0                     0         1,211,933       2,252           1,234,139          1,387,762
           3,552               259,938            78,995           0             459,076          2,844,875
               1                     0                (1)          0                  (1)                 0
               0                     0                58           0                  66                  9
      $4,114,479              $675,582        $6,576,621    $145,021         $12,766,274        $14,782,754


        $908,939              $126,649         ($212,219)    $33,390          $1,007,621         $1,047,323
               0                     0                  0          0                   0                  0

         (13,340)                     0         (211,289)         (75)          (224,704)          (160,601)
         (37,206)                  (63)       (1,868,987)     (1,542)         (1,907,809)        (1,635,255)
         445,315               123,483          1,168,372       3,664           2,022,902          1,628,915
         503,891                24,651            563,605     26,626            1,148,287          1,174,565

        4,130,567               394,213         5,075,524    147,679          10,705,281         10,402,525
      (4,042,773)                 (186)       (1,192,916)     (3,599)         (5,241,746)        (5,049,251)
          $87,794             $394,027        $3,882,608    $144,080          $5,463,535         $5,353,274
                0             (413,585)         (109,954)           0         (1,592,297)          (904,214)
          $87,794             ($19,558)       $3,772,654    $144,080          $3,871,238         $4,449,060




                                                                                                               301
Department of Defense- Department of the Army, Civil Works Fund
 COMBINING STATEMENT OF FINANCING
As of September 30, 2004 and 2003 ($ in Thousands)




Resources¬Used¬to¬Finance¬Activities:                                                   Special Funds       Trust Funds      Transfer Funds

Budgetary Resources Obligated
Obligations incurred                                                                              $15,794       $926,253            $175,604
Less: Spending authority from offsetting collections and recoveries (-)                                 0               0                (21)
Obligations net of offsetting collections and recoveries                                          $15,794       $926,253            $175,583
Less: Offsetting receipts (-)                                                                    (47,914)     (1,020,844)                   0
Net obligations                                                                                 ($32,120)       ($94,591)           $175,583
Other Resources
Donations and forfeitures of property                                                                   0               0                  0
Transfers in/out without reimbursement (+/-)                                                        (378)       (101,927)           (26,897)
Imputed financing from costs absorbed by others                                                         0               0                  0
Other (+/-)                                                                                             0               0                  0
Net other resources used to finance activities                                                     ($378)      ($101,927)          ($26,897)
Total¬resources¬used¬to¬finance¬activities                                                      ($32,498)      ($196,518)          $148,686
Resources¬Used¬to¬Finance¬Items¬not¬Part
Change in budgetary resources obligated for goods,
services and benefits ordered but not yet provided
Undelivered Orders (-)                                                                              $269       ($146,108)           ($3,938)
Unfilled Customer Orders                                                                                0                0                11
Resources that fund expenses recognized in prior periods                                          (1,102)         (10,647)                 0
Budgetary offsetting collections and receipts that                                                47,914        1,020,844                  0
      do not affect net cost of operations
Resources that finance the acquisition of assets                                                  (1,269)       (110,982)          (114,596)
Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                    0               0                   0
Other (+/-)                                                                                          377         101,928              26,897
Total¬resources¬used¬to¬finance¬items¬not
      part¬of¬the¬net¬cost¬of¬operations                                                         $46,189        $855,035           ($91,626)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                       $13,691        $658,517             $57,060
Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
Components Requiring or Generating Resources in Future Period:
Increase in annual leave liability                                                                    $0               $0                 $0
Increase in environmental and disposal liability                                                       0                0                  0
Upward/Downward reestimates of credit subsidy expense (+/-)                                            0                0                  0
Increase in exchange revenue receivable from the the public (-)                                        0                0                  0
Other (+/-)                                                                                            0                0                  0
Total components of Net Cost of Operations that
      will require or generate resources in future periods                                            $0               $0                 $0
Components not Requiring or Generating Resources:
Depreciation and amortization                                                                         28            1,816              2,453
Revaluation of assets or liabilities (+/-)                                                             0               54              2,014
Other (+/-)
Trust Fund Exchange Revenue                                                                             0               0                  0
Cost of Goods Sold                                                                                      0               0                  0
Operating Material & Supplies Used                                                                      0               0                  0
Other                                                                                                (14)          65,466                  0
Total components of Net Cost of Operations that
       will not require or generate resources                                                        $14         $67,336              $4,467

Total components of net cost of operations that
     will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                    $14         $67,336              $4,467
Net¬Cost¬of¬Operations                                                                           $13,705        $725,853             $61,527




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 302
Borrowing                           Contributed
                Revolving Funds                        General Funds      FUSRAP       2004 Combined      2003 Combined
Authority                             Funds

       $368           $4,110,926         $415,644          $5,285,636      $142,769        $11,072,994        $10,550,108
     (2,262)          (4,033,411)            (194)         (1,539,109)       (3,407)        (5,578,404)        (5,236,537)
    ($1,894)              $77,515        $415,450          $3,746,527      $139,362         $5,494,590         $5,313,571
           0                    0        (413,585)           (109,954)             0        (1,592,297)          (904,214)
    ($1,894)              $77,515           $1,865         $3,636,573      $139,362         $3,902,293         $4,409,357

           0                 (99)                0                  534           0                 435              4,648
     (1,223)              (1,578)          (9,736)             140,107            0             (1,632)           (56,344)
           0             228,490                 0              11,058            0            239,548            225,066
       1,991                    0                0              (1,412)           0                 579           (19,379)
       $768             $226,813          ($9,736)           $150,287            $0           $238,930          $153,991
    ($1,126)            $304,328          ($7,871)          $3,786,860     $139,362         $4,141,223         $4,563,348




       $162            ($81,227)         ($22,440)          ($147,365)        $472          ($400,175)         ($154,315)
          1              (3,095)                  7            305,555        (263)            302,216            245,807
          0                    0            (4,564)           (38,965)            0            (55,278)                 0
          0                    0           413,585             109,954            0          1,592,297            904,695

      (153)             (51,232)         (208,523)         (1,197,245)             0        (1,684,000)         1,399,859


          0                    0                 0            (10,000)             0          (10,000)                  0
      1,223                1,578             9,738           (140,105)             0             1,636                  0

     $1,233           ($133,976)          $187,803        ($1,118,171)         $209         ($253,304)         $2,396,046
      $107              $170,352          $179,932          $2,668,689     $139,571         $3,887,919         $6,959,394


         $0                   $0                  $0                $0           $0                 $0                 $0
          0                    0                   0                 0            0                  0                  0
          0                    0                   0                 0            0                  0                  0
          0                    0                   0                 0            0                  0                  0
          0               50,105                   0               861            0             50,966             66,422

         $0              $50,105                  $0              $861           $0            $50,966            $66,422

            0             52,356               428           2,316,379             0         2,373,460            447,661
            0              3,228         (202,518)           (624,976)             0         (822,198)          1,477,630

            0                  0                 0                   0            0                  0                  0
            0                  0                 0                   0            0                  0                  0
            0                  0                 0                   0            0                  0                  0
            0                 39           397,174           2,123,887           37          2,586,589             24,662

         $0              $55,623          $195,084          $3,815,290          $37         $4,137,851         $1,949,953


         $0             $105,728          $195,084          $3,816,151          $37         $4,188,817         $2,016,375
       $107             $276,080          $375,016          $6,484,840     $139,608         $8,076,736         $8,975,769




                                                                                                                        303
Required Supplementary Stewardship Information
                                     Federal Mission Property, Plant and Equipment
                                 Yearly Investment in Federal Mission Property, Plant and Equipment
                                                     For Fiscal Year Ended September 30, 2004
                                                                (In Millions of Dollars)


                (a)                                 (b)                 (c)                 (d)      (e)      (f)
           Categories                             FY2000              FY2001              FY2002   FY2003   FY2004
 1. Bank Stabilization Projects                      nr                 nr                   nr      nr      $74
 TOTAL:                                                                                                      $74



Narrative Statement:
Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE
for the protection of the riverbanks of the Mississippi River and other navigable waterways inside the
continental United States. Stabilization and protection of the riverbanks are important to the ﬂood control
and navigation plans, serving to protect ﬂood control features and to insure the desired alignment of the
river’s navigation channel. Stabilizing the riverbanks and channels provide an efﬁcient navigation alignment,
increase the ﬂood-carrying capacity of the river, and or protection of the levees system to include the
tributary basin improvements for major drainage. The process by which this is accomplished is by; cutoffs
(shortening the river and reducing ﬂood heights), revetment (controlling the river’s meandering), dikes
(directing the ﬂow), and improvement dredging (realigning the river/channel).


Notes:
1. For FY 2000 – 2003 USACE does not have historical data as this is our ﬁrst reporting of Federal Mission
Property, Plant and Equipment in the Required Supplementary Stewardship Information section of the
ﬁnancial statements. (nr = Nonreporting)

2. After major ﬂoods in 1882, 1912, 1913 and 1927 the Flood Control Act of 1928 was signed which
committed the federal government to a deﬁnite program of ﬂood control. This legislation authorized the
Mississippi River and Tributaries Project, the nation’s ﬁrst comprehensive ﬂood control and navigation act.

3. Investments values included in this report are based on Nonfederal Physical Property outlays
(expenditures). Outlays are used because current DOD systems are unable to capture and summarize costs in
accordance with the Federal Accounting Standards requirements.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 304
                                               Heritage Assets
                                         For Fiscal Year Ended September 2004

             (a)                   (b)                (c)                  (d)           (e)          (f)
                               Measurement          As of                                           As of
                                Quantity           10/01/03            Additions      Deletions    9/30/04

 Museums                       Each                            1                                              1
 Monuments & Memorials         Each                            1                                              1
 Cemeteries                    Sites                           0                                              0
 Archeological Sites           Sites                         129                 13                         142
 Buildings & Structure         Each                          327                 21                         348
 Major Collections             Each                            1                                              1


Narrative Statement
USACE administers the Lake Superior Marine Museum as part of the Operations and Maintenance Mission
of the Detroit District. This museum has gone inadvertently unreported in previous submittals on USACE
Heritage Assets.

We have one (1) Major Collection, that being the collection of historical memorabilia, historic artifacts and
records managed by the Headquarters, U.S. Army Corps of Engineers Ofﬁce of History.

Other than multipurpose heritage assets, heritage assets are not material to the mission of the U. S. Army
Corps of Engineers. Disclosures pertinent to multipurpose heritage assets are contained in the ﬁnancial
statements.

Heritage assets classiﬁed as Land are special land plots containing archaeological sites as listed on the
National Register of Historic Places or eligible to be listed.

Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their
origins, unless otherwise noted. Reported heritage assets are free of material conditions that are counter to
safeguarding, adequately protecting, and properly managing those assets; they have not materially degraded
while under the care of the U. S. Army Corps of Engineers. The existence of most of the un-categorized
heritage assets is informally known to be adequate for display purposes, however, the condition of many un-
categorized assets are unknown.

Cemeteries and Archeological Sites are archeological properties listed on or eligible for, the National
Register of Historic Places. These archeological assets cover almost the entire range of human occupation
of the Continental United States beginning with the Kennewick Man Discovery Site in Washington State,
dating to approximately 10,000 years before present, to archeological remains of early European-American
settlements such as Fort Independence in Georgia. Of the 13 new additions, 12 were individual site
nominations to the National Register of Historic Places and 1 Multiple Property Nomination for the John H.
Kerr Reservoir, Wilmington District.

Buildings and Structures include a range of historic resources from a covered bridge in Sacramento District
to early farming structures in Savannah District. It also includes some non-traditional structures such as a
snag boat that operated on the Mississippi River. The 21 new additions were submitted by the Rock Island
District for the Upper Mississippi River and Illinois Waterway Projects.




                                                                                                                305
                                                   Nonfederal Physical Property
                                           Yearly Investment in State and Local Governments
                                                     For Fiscal Years FY 2000 through FY 2004
                                                                (In Millions of Dollars)
              (a)                                (b)                  (c)                 (d)      (e)      (f)
          Categories                           FY2000              FY2001               FY2002   FY2003   FY2004
 Transferred Assets:
 1. Federal Mission Related                        nr                  nr                   nr     nr       $4,429
 Funded Assets:
 2. Federal Mission Related                        nr                  nr                   nr     nr            0
 TOTAL:                                                                                                     $4,429


Narrative Statement:
Investments in Nonfederal Property refers to those expenses incurred by USACE for the purchase,
construction or major renovation of physical property owned by State and Local Governments, including
major additions and replacements; the purchase of major equipment; and the purchase of improvement of
other physical assets. The authority to enter into cost share agreements with nonfederal sponsors is governed
under numerous Water Resources Development Acts starting with the Act of 1992.


Notes:
1. For FY 2000 – 2003 USACE does not have historical data as this is our ﬁrst reporting of Nonfederal
Physical Property in the Required Supplementary Stewardship Information section of the ﬁnancial
statements. (nr = Nonreporting)

2. Under numerous authorities USACE provides design, build and construction services/management for the
missions of commercial navigation, ﬂood/storm damage reduction, hydropower, regulatory, environmental,
recreation and water supply.

3. Investments values included in this report are based on Nonfederal Physical Property outlays
(expenditures). Outlays are used because current DOD systems are unable to capture and summarize costs in
accordance with the Federal Accounting Standards requirements.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 306
                               General Property, Plant and Equipment
                              Real Property Deferred Maintenance Amounts
                                       As of September 30, 2004

             (a)                   (b)
Property Type/Major Class
1. Real Property
    A. Buildings
    B. Structures              $883,000,000
2. Total                       $883,000,000


Narrative Statement: Deferred maintenance at Civil Works water resources projects operated and maintained
by the U.S. Army Corps of Engineers was determined through the budget development process whereby
operations managers identify the operation and maintenance (O&M) needs at each project in the Civil Works
inventory. O&M needs are based on inspections of project Features, engineering analyses and historical
experience.




                                                                                                       307
Department of Defense- Department of the Army, Civil Works Fund
 STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



BUDGETARY¬RESOURCES                                                             Civil Works      2004 Combined      2003 Combined
Budgetary Financing Accounts
Budget Authority:
Appropriations received                                                            $5,141,165         $5,141,166         $7,652,893
Borrowing authority                                                                       135                135                  0
Contract authority                                                                          0                  0                  0
Net transfers (+/-)                                                                   206,924            206,924            160,964
Other                                                                                       0                  0                  0
Unobligated balance:
Beginning of period                                                                 1,850,227          1,850,226          1,741,013
Net transfers, actual (+/-)                                                            28,495             28,495                  0
Anticipated Transfers Balances                                                              0                  0                  0
Spending authority from offsetting collections:
Earned                                                                                       0                  0                  0
Collected                                                                           5,212,085          5,212,085          5,065,570
Receivable from Federal sources                                                         64,103             64,104           (74,841)
Change in unfilled customer orders                                                           0                  0                  0
Advance received                                                                        29,660             29,660           (16,318)
Without advance from Federal sources                                                  272,556            272,555            262,126
Anticipated for the rest of year, without advances                                           0                  0                  0
Transfers from trust funds                                                                   0                  0                  0
Subtotal                                                                           $5,578,404         $5,578,404         $5,236,537
Recoveries of prior year obligations                                                         0                  0                  0
Temporarily not available pursuant to Public Law                                      (10,000)           (10,000)                  0
Permanently not available                                                             (29,076)           (29,076)            (8,653)
Total¬Budgetary¬Resources                                                         $12,766,274        $12,766,274        $14,782,754




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 308
Department of Defense- Department of the Army, Civil Works Fund
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2004 and 2003 ($ in Thousands)



STATUS¬OF¬BUDGETARY¬RESOURCES                                     Civil Works     2004 Combined      2003 Combined
Non-Budgetary Financing Accounts
Obligations incurred:
Direct                                                              $5,615,177         $5,615,179         $5,516,359
Reimbursable                                                         5,457,816          5,457,815          5,033,749
Subtotal                                                           $11,072,993        $11,072,994        $10,550,108
Unobligated balance:
Apportioned                                                          1,234,138          1,234,139          1,387,762
Exempt from apportionment                                              459,076            459,076          2,844,875
Other available                                                              0                 (1)                 0
Unobligated Balances Not Available                                          66                 66                  9
Total,¬Status¬of¬Budgetary¬Resources                               $12,766,273        $12,766,274        $14,782,754

Relationship¬of¬Obligations¬to¬Outlays:
Obligated Balance, Net ? beginning of period                        $1,007,622         $1,007,621         $1,047,323
Obligated Balance transferred, net (+/-)                                     0                  0                  0
Obligated Balance, Net ? end of period:
Accounts receivable                                                   (224,704)          (224,704)          (160,601)
Unfilled customer order from Federal sources                        (1,907,810)        (1,907,809)        (1,635,255)
Undelivered orders                                                    2,022,903          2,022,902          1,628,915
Accounts payable                                                      1,148,288          1,148,287          1,174,565
Outlays:
Disbursements                                                      $10,705,282        $10,705,281        $10,402,525
Collections                                                         (5,241,745)        (5,241,746)        (5,049,251)
Subtotal                                                            $5,463,537         $5,463,535         $5,353,274
Less: Offsetting receipts                                           (1,592,297)        (1,592,297)          (904,214)
Net¬Outlays                                                         $3,871,240         $3,871,238         $4,449,060




                                                                                                                        309
 Required Supplemental Information - Part A
AT96 - U.S. Army Corps of Engineers
                                                                              Government Transactions from the Consolidating Trial Balance

Schedule, Part A DoD Intragovernmental Asset                Treasury      Fund Balance          Accounts       Loans
                                                                                                                        Investments Other
Balances. ($ Amounts in Thousands).                          Index:       with Treasury         Receivable   Receivable

Unidentifiable Federal Agency Entity
                                                                 0                                    $88
(Other than DoD entities)
The Judiciary                                                   10                                    $20
Department of Agriculture                                       12                                   $996
Department of Commerce                                          13                                   $140
Department of the Interior                                      14                               $353,489
Department of Justice                                           15                                 $1,201
Department of Labor                                             16                                     $1
Navy General Fund                                               17                                   $147
United States Postal Service                                    18                                    $17
Department of State                                             19                                 $1,170
Department of the Treasury                                      20          $2,386,688                $65               $2,741,917
Army General Fund                                               21                                   $848
Office of Personnel Management                                  24                                     $4
Social Security Administration                                  28                                     $1
Nuclear Regulatory Commission                                   31                                     $1
Smithsonian Institution                                         33                                 $1,598
Department of Veterans Affairs                                  36                                    $18
Government Printing Office                                       4                                     $1
U.S. Equal Employment Opportunity Commission                    45                                     $4
Appalachian Regional Commission                                 46                                    $43
General Service Administration                                  47                                     $8
National Science Foundation                                    49                                    $100
Air Force General Fund                                          57                                    $43
Railroad Retirement Board                                       60                                     $2
National Labor Relations Board                                  63                                   $329
Environmental Protection Agency                                 68                                $29,229
Department of Transportation                                    69                                 $3,541
Homeland Security                                               70                                $80,010
Agency for International Development                            72                                 $1,813
Small Business Administration                                   73                                     $7
Department of Health and Human Services                         75                                   $484
National Aeronautics and Space Administration                   80                                    $84
Department of Housing and Urban Development                     86                                    $32
Department of Energy                                            89                                $34,412
Department of Education                                         91                                     $4
Independent Agencies                                            95                                    $15
Other Defense Organizations General Funds                       97                                    $71
Other Defense Organizations Working Capital Funds            97-4930                                   $3
Army Working Capital Fund                                  97-4930.001                                                                 $0
The General Fund of the Treasury                                99                                  $9,907
Architect of the Capitol                                                                              $176
      Totals:                                                              $2,386,688            $520,122               $2,741,917     $0




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 310
Required Supplemental Information - Part B
AT96 - U.S. Army Corps of Engineers
                                                                      Government Transactions from the Consolidating Trial Balance
Schedule, Part B DoD Intragovernmental entity                             Accounts       Debts/Borrowings From
                                                    Treasury Index:                                                    Other
liabilities. ($ Amounts in Thousands)                                      Payable          Other Agencies
The Judiciary                                             10                      $15
Department of Agriculture                                 12                     $908                                          $6
Department of Commerce                                    13                   $8,855                                        $433
Department of the Interior                                14                  $16,431                                      $1,027
Department of Justice                                     15                    $472                                        $129
Department of Labor                                       16                      $45                                     $43,746
Navy General Fund                                         17                   $1,657
United States Postal Service                              18                                                                   $1
Department of State                                       19                     $719                                         $98
Department of the Treasury                                20                   $1,235                   $15,367          $153,381
Army General Fund                                         21                   $6,604                                         $98
Office of Personnel Management                           24                       $73                                     $11,686
Library of Congress                                        3                      $98
Department of Veterans Affairs                            36                     $510
Government Printing Office                                 4                      $66
Appalachian Regional Commission                           46                       $8
General Service Administration                            47                  $31,728                                          $60
National Science Foundation                              49                     $137
Air Force General Fund                                    57                      $55
Tennessee Valley Authority                               64                    $1,560                                          $36
Environmental Protection Agency                           68                     $181
Department of Transportation                              69                     $430
Homeland Security                                         70                   $6,334                                          $24
Small Business Administration                             73                                                                    $1
Department of Health and Human Services                   75                    $364                                           $57
Department of Housing and Urban Development               86                                                                $3,060
Department of Energy                                      89                   $2,187                                       $5,115
Department of Education                                   91                      $70                                        $635
Federal Mediation and Conciliation Services               93                       $8
Independent Agencies                                      95                       $2
Other Defense Organizations General Funds                 97                     $351
Other Defense Organizations Working Capital Funds      97-4930                $11,702
Army Working Capital Fund                            97-4930.001                 $493
Navy Working Capital Fund                            97-4930.002                 $270
Air Force Working Capital Fund                       97-4930.003                  $25
The General Fund of the Treasury                          99                   $9,907                                   $1,839,034
Totals:                                                                     $103,500                   $15,367         $2,058,627




                                                                                                                               311
 Required Supplemental Information - Part C
 AT96 - U.S. Army Corps of Engineers
                                                                              Government Transactions from the Consolidating Trial Balance
 Schedule, Part C DoD Intragovernmental revenue and related costs.           ($
                                                                                            Treasury Index:         Earned Revenue
 Amounts in Thousands)
 Unidentifiable Federal Agency Entity (Other than DoD entities)                                      0                                 $88
 The Judiciary                                                                                       10                                $34
 Department of Agriculture                                                                           12                             $9,393
 Department of Commerce                                                                              13                             $3,247
 Department of the Interior                                                                          14                            $77,181
 Department of Justice                                                                               15                            $14,219
 Department of Labor                                                                                 16                                $97
 Navy General Fund                                                                                   17                            $10,276
 United States Postal Service                                                                        18                                $65
 Department of State                                                                                 19                             $7,915
 Department of the Treasury                                                                          20                               $230
 Army General Fund                                                                                   21                           $526,886
 Social Security Administration                                                                      28                                 $5
 Nuclear Regulatory Commission                                                                       31                               $197
 Smithsonian Institution                                                                             33                            $11,033
 Department of Veterans Affairs                                                                      36                             $2,390
 Government Printing Office                                                                          4                                  $1
 U.S. Equal Employment Opportunity Commission                                                        45                                 $5
 General Service Administration                                                                      47                               $356
 National Science Foundation                                                                         49                             $1,576
 General Accounting Office                                                                           5                                $375
 Air Force General Fund                                                                              57                            $52,227
 Railroad Retirement Board                                                                           60                                 $5
 National Labor Relations Board                                                                      63                                 $2
 Tennessee Valley Authority                                                                          64                               $670
 Environmental Protection Agency                                                                     68                           $109,146
 Department of Transportation                                                                        69                            $27,907
 Homeland Security                                                                                   70                           $241,440
 Agency for International Development                                                                72                            $23,992
 Small Business Administration                                                                       73                                 $7
 American Battle Monuments                                                                           74                                 $8
 Department of Health and Human Services                                                             75                             $6,055
 National Aeronautics and Space Administration                                                       80                            $44,353
 Department of Housing and Urban Development                                                         86                               $237
 National Archives and Records Administration                                                        88                                 $1
 Department of Energy                                                                                89                            $22,207
 Department of Education                                                                             91                                $27
 Independent Agencies                                                                                95                             $1,242
 Other Defense Organizations General Funds                                                           97                            $35,726
 Other Defense Organizations Working Capital Funds                                                97-4930                             $105
 Navy Working Capital Fund                                                                      97-4930.002                             $1
 Architect of the Capitol                                                                                                           $3,881
       Totals:                                                                                                                 $1,234,808




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 312
Required Supplemental Information - Part E
AT96 - U.S. Army Corps of Engineers
                                                         Government Transactions from the Consolidating Trial Balance
Schedue, Part E DoD Intragovernmental        Non-
                                                    Treasury Index:           Transfers In          Transfers Out
exchange Revenues ($ Amounts in Thousands)
Department of Agriculture                                12                                                      $835
Department of Commerce                                   13                                                       $64
Department of the Interior                               14                           $69,111                    $378
Army General Fund                                        21                               $78                   $331
General Service Administration                           47                                                       $23
Tennessee Valley Authority                               64                                                    $1,881
Department of Transportation                             69                            $2,850
Homeland Security                                        70                                                     $204
Department of Energy                                     89                         $246,738
Other Defense Organizations General Funds                97                               $0
Navy Working Capital Fund                            97-4930.002                                                $211
The General Fund of the Treasury                         99                          $774,025               $775,461
  Totals:                                                                         $1,092,802               $779,388




                                                                                                                    313
                                                        INSPECTOR GENERAL
                                                       DEPARTMENT OF DEFENSE
                                                          400 ARMY NAVY DRIVE
                                                     ARLINGTON, VIRGINIA 22202-4704




                                                                                                     November 8, 2004

MEMORANDUM FOR COMMANDER, U.S. ARMY CORPS OF ENGINEERS

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2004 U.S. Army Corps of Engineers, Civil
         Works, Financial Statements (Report No. D-2005-016)

The Chief Financial Ofﬁcers (CFO) Act of 1990, as amended by the Federal Financial Management Act of
1994, requires Federal agency Inspectors General appointed under the Inspector General Act of 1978, as
amended, to audit their respective agencies’ ﬁnancial statements or determine that “an independent external
auditor” should conduct such audits. Pursuant to this statutory authority, the undersigned Inspector General
assumed responsibility for auditing the accompanying U.S. Army Corps of Engineers, Civil Works, (USACE)
Consolidated Balance Sheet as of September 30, 2004 and 2003, the related Consolidated Statement of
Net Cost, the Consolidated Statement of Changes in Net Position, the Combined Statement of Budgetary
Resources, and the Combined Statement of Financing for the ﬁscal years then ended.

The ﬁnancial statements are the responsibility of USACE management. USACE is also responsible for
implementing effective internal control and for complying with laws and regulations. We are unable to give
an opinion on the USACE Fiscal Year 2004 Financial Statements because of limitations on the scope of
our work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer of opinion on the
ﬁnancial statements, we are including the required Report on Internal Control and Compliance with Laws
and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is an integral
part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing the results
of the audit.

Disclaimer of Opinion on the Financial Statements
USACE acknowledged to us that the USACE FY 2004 Financial Statements may not be fairly presented in
conformity with Federal accounting standards. We provided USACE with numerous audit ﬁndings, for which
USACE is in the process of completing the necessary corrective actions.

Based on the inability of management to assert that the ﬁnancial statements are free from material error,
and based on the deﬁciencies acknowledged by management, we did not perform auditing procedures to
determine whether material amounts on the ﬁnancial statements were fairly presented. We did not perform
these and other auditing procedures because Section 1008(d) of the FY 2002 National Defense Authorization
Act limits the Inspector General of the Department of Defense to perform only audit procedures required
by generally accepted government auditing standards that are consistent with the representations made
by management. USACE acknowledged, and prior audits identiﬁed the material weaknesses listed in the
Summary of Internal Control.




   “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                              time.”—Constitution of the United States, Article I, Section 9


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 314
These material weaknesses also affect the reliability of certain information contained in the annual ﬁnancial
statements—much of which is taken from the same data sources as the principal ﬁnancial statements. As
described above, we are unable to express, and we do not express, an opinion on the ﬁnancial statements1 and
the accompanying information.

Summary of Internal Control
In planning our audit, we considered USACE internal control over ﬁnancial reporting and compliance.
We did this to determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of
Management and Budget (OMB) guidance but our purpose was not to express an opinion on internal control.
Accordingly, we do not express an opinion on internal control over ﬁnancial reporting and compliance.
However, previously identiﬁed reportable conditions,2 some of which are material, continued to exist in the
following areas:

      Financial Management Systems;
      General Property, Plant, and Equipment; and
      Accounts Payable.
A material weakness is a condition that precludes the entity’s internal control from providing reasonable
assurance that misstatements, losses, or noncompliance that are material in relation to the ﬁnancial statements
would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
all material weaknesses. See the Attachment for additional details on material internal control weaknesses.

Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to
ﬁnancial reporting was limited because management acknowledged, and prior audits conﬁrm, that instances
of noncompliance continue to exist. USACE acknowledged to us that the ﬁnancial management systems do
not fully comply with Federal ﬁnancial management systems requirements, applicable Federal accounting
standards, and the U.S. Government Standard General Ledger (USSGL) at the transaction level, as required
under the Federal Financial Management Improvement Act (FFMIA) of 1996. In previously issued audit
reports, the Government Accountability Ofﬁce (GAO) and U.S. Army Audit Agency (AAA) noted instances
of noncompliance with:

      Federal Manager’s Financial Integrity Act (FMFIA) of 1982;
      OMB Circular A 123, “Management Accountability and Control;”
      OMB Circular A 130, “Management of Federal Information Resources;” and
      OMB Circular A 127, “Federal Management Systems.”
Therefore, we did not determine whether USACE was in compliance with all applicable laws and regulations
related to ﬁnancial reporting. See the Attachment for additional details on compliance with laws and
regulations.



1
 The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and
combining ﬁnancial statements, Required Supplementary Stewardship Information, Required Supplementary Information, and Other
Accompanying Information.

2
  Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to management
because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could adversely affect the organization’s
ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of management in ﬁnancial statements.



    “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                               time.”—Constitution of the United States, Article I, Section 9


                                                                                                                                           315
Management Responsibility
Management is responsible for:

      preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
      establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
      control objectives of FMFIA are met; and
      complying with applicable laws and regulations.




Attachment:
As stated




   “A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
                              time.”—Constitution of the United States, Article I, Section 9


Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 316
Report on Internal Control and Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly and that assets are
safeguarded against misappropriation and abuse. Our objective was not to, and we do not, express an opinion
on internal control over ﬁnancial reporting. However, management acknowledged that previously identiﬁed
reportable conditions continue to exist. In accordance with Section 1008(d) of the FY 2002 National Defense
Authorization Act, OIG DoD did not perform sufﬁcient internal control testing to determine to what degree
the weaknesses continue to exist.

The following ﬁnancial management deﬁciencies3 are indications of material weaknesses or reportable
conditions in internal control that may adversely affect any decision by USACE that is based, in whole or
in part, on information that is inaccurate because of these deﬁciencies. Financial information reported by
USACE also may contain misstatements resulting from these deﬁciencies.

Financial Management Systems. The Corps of Engineers Financial Management System (CEFMS) did
not process and summarize all accounting transactions in accordance with the USSGL. USACE did not
have a process in place to ensure that the CEFMS general ledger correlations were promptly updated, or that
deﬁciencies were corrected.

USACE did not have effective controls to ensure accounting information transferred from the Corps of
Engineers Enterprise Management Information System (CEEMIS) to the Defense Departmental Reporting
System – Automated Financial Statements (DDRS-AFS) was reliable. USACE made undocumented
adjustments because DoD policy and Federal system requirements for making accounting adjustments were
not adequately implemented. As a result, the ﬁnancial information imported into DDRS-AFS and used to
prepare the USACE ﬁnancial statements was unreliable.

General Property, Plant, and Equipment. As discussed in our FY 2003 ﬁnancial statement disclaimer
opinion, internal controls were not adequate because USACE guidance was not consistently implemented
and strictly enforced. Existence issues for buildings and other structures continue. Also, the rights to some
structures may not have been properly recorded and treated as capital leases.

Accounts Payable. As discussed in our FY 2003 ﬁnancial statement disclaimer opinion, internal control
testing identiﬁed departures from generally accepted accounting principles to include misclassiﬁcation of
general ledger accounts when making accounting journal entries for Accounts Payable.

Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting.
Our work to determine compliance with selected provisions of the applicable laws and regulations was
limited because management acknowledged instances of noncompliance continue to exist. Therefore, we
did not determine whether USACE was in compliance with selected provisions of all applicable laws and
regulations related to ﬁnancial reporting. Our objective was not to, and we do not, express an opinion on
compliance with applicable laws and regulations.




3
    Described in greater detail in previous IG DoD reports.




                                                                                                                317
Financial Management Systems. USACE is required to comply with ﬁnancial management systems
reporting requirements.

      The Federal Mangers’ Financial Integrity Act of 1982 requires agencies to evaluate the systems and to
      annually report whether those systems are in compliance with applicable requirements. When systems
      are not in compliance, the statement must include a report of internal accounting and administrative
      control material weaknesses and plans and a schedule for correcting the material weaknesses.
      OMB Circular A-123, revised June 21, 1995, requires agencies and individual Federal managers to take
      systematic and proactive measures to: assess the adequacy of management controls in Federal programs
      and operations, identify needed improvements, take corresponding corrective actions, and report
      annually on management controls.
      OMB Circular A-130, Appendix III, establishes a minimum set of controls to be included in Federal
      automated information security programs, assigns Federal agency responsibilities for the security
      of automated information, and links agency information security programs and agency management
      control systems established in accordance with OMB Circular A-123. Agencies should implement and
      maintain their automated security programs to ensure that adequate security is provided for all agency
      information collected, processed, transmitted, stored, or disseminated in general support systems and
      major applications.
      OMB Circular A-127, revised July 23, 1993, requires agencies to develop, operate, evaluate, and report
      on ﬁnancial management systems. It also requires that ﬁnancial management systems provide complete,
      reliable, consistent, timely, and useful information.
USACE acknowledged that its ﬁnancial management systems do not fully comply with Federal ﬁnancial
management systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level, as required under FFMIA. According to GAO and AAA prior audit reports, USACE did not
fully comply with the FMFIA and OMB Circulars A-123 and A-130 requirements to protect the integrity of
its ﬁnancial management systems, identify needed improvements, and take corresponding corrective actions.
During FY 2004, OIG DoD reviewed previously identiﬁed GAO and AAA deﬁciencies related to general
and application controls. Our audit work concluded that USACE had not fully implemented all of the GAO
and AAA recommendations. The continued CEFMS general and application computer control vulnerabilities
impair the ability of USACE to ensure reliability, conﬁdentiality, and availability of ﬁnancial and sensitive
data, as required by OMB Circular A 127.

Audit Disclosures
USACE acknowledged to us on September 20, 2004, that the USACE ﬁnancial management systems cannot
provide adequate evidence supporting various material amounts on the ﬁnancial statements. Therefore, we
did not conduct audit work related to Accounts Payable.

This report does not include recommendations to correct the material internal control weaknesses and
instances of noncompliance because previous audit reports contained recommendations for corrective
actions.




Civil Works Fund – Principal Financial Statements, Notes, and Supplementary Information — 318
WORKING DRAFT 10-07-04




                         United States Army
                         1500 Army Pentagon
                         Washington, DC, 20310-1500
                         www.army.mil
